<html>
<title> - NOMINATION OF BETSY DEVOS TO SERVE AS SECRETARY OF EDUCATION</title>
<body><pre>[Senate Hearing 115-206]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-206

      NOMINATION OF BETSY DEVOS TO SERVE AS SECRETARY OF EDUCATION

=======================================================================

                                 HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

            NOMINATION OF BETSY DEVOS TO SERVE AS SECRETARY 
                              OF EDUCATION

                               __________

                            JANUARY 17, 2017

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-667 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5730273817342224233f323b277934383a79">[email&#160;protected]</a>       


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
                  
                  
MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia			BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky			ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine			AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska			MICHAEL F. BENNET, Colorado
SUSAN M. COLLINS, Maine			SHELDON WHITEHOUSE, Rhode Island
BILL CASSIDY, M.D., Louisiana		TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana			CHRISTOPHER S. MURPHY, Connecticut
ORRIN G. HATCH, Utah			ELIZABETH WARREN, Massachusetts
PAT ROBERTS, Kansas			TIM KAINE, Virginia
LISA MURKOWSKI, Alaska			MAGGIE HASSAN, New Hampshire
TIM SCOTT, South Carolina

                                    

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       TUESDAY, JANUARY 17, 2017

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor and Pensions, opening statement..........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     4
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.     8
Lieberman, Hon. Joseph L., Former U.S. Senator from the State of 
  Connecticut....................................................    10
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    16
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    19
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    21
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    23
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    24
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......    26
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    28
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    30
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    32
Young, Hon. Todd, a U.S. Senator from the State of Indiana.......    34
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    35
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    39
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    40
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    42
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    45
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...    47
Hassan, Hon. Margaret Wood, a U.S. Senator from the State of New 
  Hampshire......................................................    48
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    50
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......    51
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    54

                                Witness

DeVos, Betsy, Nominee to Serve As Secretary of Education, Grand 
  Rapids, MI.....................................................    12
    Prepared statement...........................................    14

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Letters of Support...........................................    65
    Letter from Log Cabin Republicans............................    75
    Letters of Concern and Opposition............................    77
    Response by Betsy DeVos to questions of:
        Senator Murray...........................................    97
        Senator Collins..........................................   136

                                  III
        Senator Young............................................   137
        Senator Roberts..........................................   138
        Senator Murkowski........................................   138
        Senator Sanders..........................................   140
        Senator Casey............................................   166
        Senator Franken..........................................   185
        Senator Bennet...........................................   205
        Senator Whitehouse.......................................   212
        Senator Baldwin..........................................   231
        Senator Murphy...........................................   238
        Senator Warren...........................................   244
        Senator Kaine............................................   260
        Senator Hassan...........................................   266

                                     


 
      NOMINATION OF BETSY DEVOS TO SERVE AS SECRETARY OF EDUCATION

                       TUESDAY, JANUARY 17, 2017

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 5:15 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Lamar 
Alexander, chairman of the committee, presiding.
    Present: Senators Alexander, Enzi, Burr, Isakson, Paul, 
Collins, Cassidy, Young, Hatch, Roberts, Murkowski, Scott, 
Murray, Sanders, Casey, Franken, Bennet, Whitehouse, Baldwin, 
Murphy, Warren, Kaine, and Hassan.
    Also present: Former Senator Joe Lieberman.

                 Opening Statement of Senator Alexander

    The Chairman. The hearing of the Health, Education, Labor, 
and Pensions Committee will come to order. This is the hearing 
to consider the nomination of Betsy DeVos to be U.S. Secretary 
of Education.
    Senator Murray and I will make an opening statement. We'll 
introduce the nominee. We welcome Senator Scott, a member of 
this committee, Senator Lieberman, a distinguished former 
member of this body, who will make introductory remarks. 
Following the nominee's comments, we'll have a 5-minute round 
of questions.
    One note--we have Capitol officers here today who will 
remove anyone who attempts to disrupt the hearing.
    This is the first meeting of our committee in the new 
Congress. This is a committee, as will probably become evident 
as we go along, that has some considerable differences of 
opinion on a variety of issues. We have found that we can 
sometimes resolve them in important ways.
    Last year, we passed what the Majority Leader, Senator 
McConnell, said was the most important bill of the Congress, 
21st Century Cures; and the year before, a bill fixing No Child 
Left Behind, which President Obama called a Christmas miracle; 
plus 33 other bills signed by the President--33 total. I want 
to thank Senator Murray and the Democrats as well as the 
Republicans on the committee for operating in that fashion. 
We've done that by showing courtesy to ourselves and to our 
witnesses, which I hope will be evident today.
    Before my opening remarks, I'd like to make a work about 
process. More than 25 years ago, Ms. DeVos, I was sitting where 
you are sitting, as the nominee for U.S. Secretary of 
Education, and former Senator Howard Metzenbaum of Ohio said to 
me, ``Well, Governor, I've heard some disturbing things about 
you, but I'm not going to bring them up here.'' Senator Nancy 
Kassebaum of Kansas looked at him and said, ``Well, Howard, I 
think you just did.'' And with that, he put a secret hold on me 
and held me up for two or 3 months.
    You won't have to go through that, because we abolished 
secret holds not long ago, and because we're going to apply 
what I would call the Golden Rule, the one that comes from the 
Book of Matthew, which applies the same procedures to you that 
we used in 2001 and 2005 for President George W. Bush's 
Education Secretary nominees and in 2009 and 2016 for President 
Obama's Education Secretary nominees. We'll consider you and 
then vote, just as we did them. Arne Duncan, President Obama's 
first Education Secretary--the hearing was on the 13th of 
January, and he was confirmed a week later. John King--the 
hearing was on February the 25th, and he was confirmed 2\1/2\ 
weeks later.
    We've received from Ms. DeVos--and each Senator has had 
available since January 4--the committee's required forms. The 
rules require them to be in more than a week in advance. The 
FBI background check has been done, and Senator Murray and I 
have heard the results. Ms. DeVos has provided the Office of 
Government Ethics on December 12 with all the relevant 
information about her financial affairs. We will have a letter 
from that office, which will be an agreement between Ms. DeVos 
and that office on how to deal with any conflicts of interest, 
before we vote in committee on her nomination.
    As for questions, Ms. DeVos has met with each of us in our 
offices. Several of us have written questions already given to 
her. Today, we'll each have 5 minutes for further questions. 
Again, I'm applying the Golden Rule, one round of 5-minute 
questions, as was the case for both of President Obama's 
Education nominees, as was the case for me, too, in 1991. In 
those cases, following the 5-minute round, the chairman and one 
member asked additional questions, and we'll do that again, as 
we did before. I'll ask questions, and I'll ask Senator Murray 
if she would like to do the same.
    Each of us will have a chance to ask additional questions 
in a reasonable number in writing by the close of business on 
Thursday at 5 p.m. Then we will meet in Executive Session next 
Tuesday to consider Ms. DeVos' nomination and other business if 
the final Office of Government Ethics letter is received by 
this Friday in order to give Senators a chance to review it 
before Tuesday.
    Following my opening remarks, Senator Murray will make 
hers, and then we'll hear from Senator Scott and Senator 
Lieberman, and then we'll hear from Ms. DeVos.
    Betsy DeVos, in my opinion, is on our children's side. She 
has devoted her life to helping mainly low-income children have 
better choices of schools. Most of the criticism I've heard of 
her amounts to three things. No. 1, she supports public charter 
schools. No. 2, she supports giving lower income parents more 
choices of schools for their children. And, No. 3, she has used 
her considerable wealth and effectiveness to advance those 
ideas. I believe she's in the mainstream of public opinion, and 
her critics are not.
    First, let's take the idea of charter schools. They are 
public schools with fewer government rules, fewer union rules, 
so teachers have more freedom to teach and parents have more 
freedom to choose the school that best suits their child. 
There's nothing new about it. In 1991 and 1992, President H.W. 
Bush proposed start-from-scratch schools. He called them New 
American Schools. He raised $70 million for New American 
Schools Development Corporation to encourage innovative ideas.
    Then in 1993, in January, in my last act as President 
Bush's Education Secretary, I wrote every single superintendent 
in the country, and I asked them to try something that was 
invented in Minnesota by the Democratic Farmer Labor Party, 
something called charter schools. There were 12 of them then. 
Since then, there's been broad support for the idea. Albert 
Shanker, the late head of the American Federation of Teachers, 
endorsed those charter schools.
    In 1997, President Clinton said, ``We need 3,000 charter 
schools by 2002.'' Senator Hillary Clinton supported charter 
schools. President George W. Bush supported charter schools. 
President Obama supports charter schools. His first Education 
Secretary, Arne Duncan, described himself as a, ``strong 
supporter of charter schools.'' John King, the current 
Education Secretary, founded a charter school and ran a system 
of charter schools. Congress in 1994, 1998, 2001, and 2015, 
always bipartisan, usually by huge margins, supported charter 
schools. Forty-three States and the District of Columbia 
operate charter schools.
    Over nearly 30 years, those 12 Democratic Farmer Labor 
charter schools in Minnesota have grown to 6,800 public charter 
schools. Six percent of America's public school students attend 
them. Who's in the mainstream here? The Democratic Farmer Labor 
Party in Minnesota; Presidents Bush, Clinton, Bush, Obama; the 
last six U.S. Education Secretaries; the U.S. Congress; 43 
States; the District of Columbia; Betsy DeVos; or her critics? 
Pretty obviously, she's in the mainstream. She's on the side of 
our children.
    Let's go to the other criticism: giving low-income parents 
more choices of schools that wealthy Americans already have. 
More specifically, the objection is that public money shouldn't 
follow poor children to an accredited school of their parents' 
choice, public, private, or religious.
    Arguing against that is arguing against the most successful 
social policy this Congress has ever enacted, the G.I. bill for 
veterans, which appropriated Federal dollars to follow veterans 
to the school of their choice--Notre Dame, Yeshiva, Maryville 
College, the University of Tennessee--any accredited 
institution. It produced the greatest generation, and it 
produced a model for all of our Federal aid for colleges. 
Twenty-nine billion dollars of Pell grants this year are in 
vouchers. They follow the student to the school of their 
choice. Nearly a hundred billion in new student loans follow 
the student to the school of their choice. Why is such a great 
idea for college students deemed to be such a dangerous idea 
for K through 12 students? Many of us believe competition 
produces the best colleges, and it might produce the best 
schools.
    Many scholars have suggested that. Ted Sizer, a 
distinguished educator, suggested a Poor Kids' Bill of Rights 
40 years ago. Today, 50 States provide parents more choices of 
public schools; 15 percent attend a school other than their 
school of residence through open enrollment; 44 States allow 
sending children to public schools outside their district; 34 
States within their district. In addition to that, nearly 
400,000 children are served by 50 private school choice 
programs across 25 States, the District of Columbia, and 
Douglas County, CO.
    Congress passed bipartisan legislation, with Senator 
Lieberman at the head of it, creating the DC School Voucher 
Program in 2003, to date, helping 6,100 children, with more 
than 1,000 children this year standing in line waiting for that 
opportunity. There's been growing support, since President H.W. 
Bush proposed the G.I. bill for kids to let States who wanted 
to try expanding choice for low-income students, to today, 
where in 2015, 45 U.S. Senators supported the scholarships for 
kids that I proposed and that Senator Scott proposed for 
students with disabilities. Forty-five U.S. Senators thought 
that was a good idea.
    According to the 2013 Luntz Global Public Opinion Survey, 
73 percent of Americans support school choice. Sixty-four 
percent say that if given the financial opportunity, they would 
send one or all their children to a different school.
    Who's in the mainstream here? The G.I. bill for veterans; 
Pell grants; student loans; both President Bushes; the 
President-elect; 25 States; Congress and the DC voucher 
program; 45 U.S. Senators in 2015; 73 percent of Americans; 
Betsy DeVos; or her critics? It's pretty obvious that she's in 
the mainstream. She's on the side of our children.
    The final criticism is that she's used her wealth to 
support these ideas. She deserves credit for that, not 
criticism. Would the critics be happier if she had spent her 
time and her money trying to deny children more choices of 
schools that wealthy families already have? We're fortunate 
that Betsy DeVos is the nominee for U.S. Education Secretary. 
She is and has been on our children's side. I support her 
confirmation and look forward to working with her.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander. I 
look forward to working with you and all of our colleagues in 
Congress. I want to welcome our new members on this committee, 
Senators Kaine, Hassan, and Young.
    Thank you, Ms. DeVos, for joining us here today. And, by 
the way, welcome to the rest of your family, who I know has 
joined you as well.
    This is the first of many hearings that we will be holding 
on President-elect Trump's nominees to fill critical positions 
in the Federal Government. I want to start by reiterating the 
importance of the Senate's role in this process and this 
committee's role in the Senate work. President Trump has the 
right to fill his cabinet with people he thinks will fill out 
the vision for our country. That doesn't mean that the Senate 
should be a rubber stamp. To the contrary, we owe it to the 
people we represent to make sure every nominee is not only 
qualified for the position and free of conflicts of interest, 
but that he or she will put families and workers first and not 
millionaires, billionaires, or big corporations.
    President-elect Trump was the first presidential candidate 
in decades to not release his tax returns, and he's openly 
flouting ethics conventions regarding his personal and family 
businesses. Some people say this means the bar has now been 
lowered for ethics in public service. I refuse to accept that, 
and I'm going to continue to hold the incoming administration 
to the highest ethical standards. This is what the American 
people deserve, regardless of who they voted for, where their 
tax dollars are going, and who is benefiting.
    I believe that in an administration where lines around 
potential conflicts of interest are very likely to be blurred 
at the top, they need to be even clearer at the individual 
agencies, even while we in Congress work to ensure the highest 
ethical standards are maintained and there is accountability to 
taxpayers from the top of the government all the way down. I'm 
going to continue pushing for robust scrutiny of every one of 
these nominees, and I appreciate that Ms. DeVos said to me that 
she knows the importance of transparency and openness, she is 
committed to addressing every ethical concern and make sure 
that no corners are cut, and that she would go to great lengths 
to make sure no corners are cut.
    However, I am extremely disappointed that we are moving 
forward with this hearing before receiving the proper paperwork 
from the Office of Government Ethics. When President Obama 
entered the White House, Republicans insisted on having an 
ethics letter in hand before moving to a hearing. In fact, 
Leader McConnell wrote a letter to Leader Reid making that 
explicit demand: an ethics letter in hand with time to review 
and an FBI background check before a hearing was held. I am 
extremely concerned, and I can only hope that cutting corners 
and rushing nominees through will not be the new norm.
    We're here today to hear from President-elect Trump's 
nominee to lead the Department of Education. As a former 
preschool teacher and school board member, as well as a mom who 
got her start in politics fighting for public investments in 
early learning, I take this issue very seriously. I owe 
everything I have to strong public schools I was able to attend 
with my six brothers and sisters, and none of us in my family 
would have been able to go to college were it not for robust 
Federal support.
    We had those opportunities because our government was 
committed to investing in us. I know that's not the case for 
every student in every community today. Although we have a long 
way to go, I am absolutely committed to making sure that the 
Federal Government is a strong partner to our public schools, 
districts, and States; that every student has access to a high-
quality public education that allows them to succeed; and that 
we focus our Federal policies and investments on strengthening 
public schools for all students and certainly not toward 
diverting taxpayer dollars to fund vouchers that don't work for 
unaccountable private schools.
    That is why I was so proud to work with Chairman Alexander 
and so many others here today to pass Every Student Succeeds 
Act, which gives flexibility to States and school districts but 
also includes strong accountability for our schools and 
reiterates our Nation's commitment to strengthening public 
education, especially for our most vulnerable students and 
communities.
    This commitment goes beyond K-12, too, of course, because 
the Federal Government, in general, and the Department of 
Education, specifically, has an important role to play in 
supporting, protecting, and investing in all of our students, 
from our youngest learners to those in higher education and 
adults and parents seeking to improve their skills mid-career.
    Leading this agency is a big job. It is an important job, 
and I consider it to be my job to do everything I can to make 
sure whoever fills it is truly committed to putting students 
and families first.
    Ms. DeVos, I am looking forward to hearing your answers to 
some questions since I have a number of very serious concerns 
that need to be addressed. First, I'm going to want to learn 
more about your extensive financial entanglements and potential 
conflicts of interest. As a billionaire with hundreds, if not 
thousands, of investments made through complex financial 
instruments, many of which are made in ways that are not 
transparent and very hard to track, you need to make it very 
clear how you will be avoiding conflicts of interest should you 
be confirmed. That goes for your investments as well as the 
massive web of investments made by your immediate family.
    Despite starting off on the wrong track by not having an 
ethics letter complete before this hearing today, I appreciate 
what you are doing to provide this committee the information to 
understand how you intend to live up to the highest level of 
ethics and transparency. So far, you have not accepted calls to 
release 3 years of tax returns, but I'm hoping you reconsidered 
that approach and that you are cooperating fully with the 
Office of Government Ethics.
    Second, I have major concerns with how you spent your 
career and fortune fighting to privatize public education and 
get investments in public schools. I'll have some specific 
questions about how the privatization policies you have pushed 
have impacted students and how you intend to use the public 
trust and taxpayer dollars to support public education and not 
continue to undermine schools and teachers from inside the 
department as you have as an advocate from the outside.
    I will want to know more about the large contributions 
you've made to groups that are ideologically opposed to 
workers, including teachers, and that want to impose anti-LGBT 
or anti-women's health beliefs on public schools and the 
students in them. I will want to make sure you publicly commit 
to implementing our Every Student Succeeds Act by upholding the 
strong Federal guardrails that are in that law, and I will want 
to know how you plan to tackle the persistent achievement gap.
    Third, while you have been outspoken on K-12 issues, your 
record and positions are not clear in a number of critical 
areas. I want to learn more about how you plan to approach 
higher education and whether or not we can count on you to 
stand with students and borrowers.
    I'm very interested in your thoughts on title IX and how we 
can do everything possible to stop the scourge of campus sexual 
assault. I was not happy with how you talked about this issue 
when we met. I am hopeful that you have learned more about it 
since then and are prepared to address it seriously.
    I'm going to want to know how your personal, religious, and 
ideological views on women's health and safety would impact how 
you would approach this issue in the department. I'm very 
concerned with what has been reported in the press about your 
views on the importance of the Office of Civil Rights, which 
works to ensure students with disabilities, LGBTQ students, 
religious minorities, women and girls, students of color, and 
all of our students are treated with dignity and respect, and 
I'm going to want to know more about how you will enforce 
critical civil rights laws.
    As all of my colleagues here know, I have a particular 
passion for early learning, and I want to hear where you stand 
on how the Federal Government can help ensure that every child 
is prepared for success in kindergarten.
    Those are just a few of the issues. I am looking forward to 
a robust dialog tonight. I'm hoping you're transparent about 
your views, open about your record and the impact it has had on 
students, and willing to make some straightforward commitments 
regarding the core responsibility of this department and the 
role you hope to take in it.
    I will be asking you to commit to providing this committee 
with additional information and responses to all reasonable 
followup questions as quickly as possible. I am hopeful that 
this can be a smooth process.
    Mr. Chairman, I know my members are all here tonight. They 
are hoping for more than just 5 minutes of questions on this 
critical nominee, and I hope that as we get through this, you 
will consider doing that.
    The Chairman. Thank you, Senator Murray. I'm going to 
follow the Golden Rule. I'm not going to change the rules and 
apply to Ms. DeVos rules that we haven't applied to President 
Obama's nominees or to President Bush's nominees. We'll have a 
5-minute round of questions, and you and I can ask questions 
after that for another 5 minutes. That's exactly what we've 
done before.
    Members of this committee have met with Ms. DeVos. Some 
have already asked written questions. We'll have 2 days to 
think of more, and then she'll need to answer them before we 
vote.
    As far as tax returns are concerned, if you would like to 
bring that up, we can bring that up at our next executive 
session, which would be the 24th, if her government ethics 
letter is completed by Friday. I would note that committee 
rules don't require tax returns to be reported by presidential 
nominees. The law does not. We did not require it of President 
Obama's two nominees for Education Secretary. If we want to 
change the rules, we can do that, but I'm not in favor of 
changing the rules in the middle of the process.
    Senator Warren. Mr. Chairman, may I ask a point of order?
    The Chairman. What is your point of order?
    Senator Warren. I believe, Mr. Chairman, that we got a 
second round with the John King hearings. I asked two rounds of 
questions in that case.
    The Chairman. You did and I did. In the last two nominees, 
Mr. Duncan and Mr. King, we had a 5-minute round, and then the 
chairman and one Senator, one other Senator, asked 5 minutes of 
questions. I will ask 5 minutes of questions, and I will give 
to Senator Murray the opportunity to be the other Senator who 
does that.
    Senator Murray. Mr. Chairman, I would just say that nobody 
asked for additional time at that point. I hope that as we get 
through this hearing and we hear members' questions, we'll have 
an opportunity to revisit it.
    The Chairman. I appreciate the request, but I'm not going 
to change the rules in the middle of the game.
    Senator Murray. I was not aware those were rules.
    The Chairman. That is the precedent that we've followed as 
far back as 1991 when I was the Education Secretary. We did it 
for both of President Obama's, and we're going to do the same 
thing for Ms. DeVos.
    Senator Murray. Again, I wasn't aware that there was a 
precedent. I would like to----
    The Chairman. That's as clear a precedent as I can think 
of.
    Senator Murray. Mr. Chairman, I would also like to have 36 
letters signed by 133 organizations expressing concern or 
opposition to this nomination to be placed into the record.
    The Chairman. They will be.
    [The information referred to may be found in Additional 
Material. However, due to the high cost of printing some 
letters are being retained in committee files.]
    The Chairman. We welcome the nominee, Ms. DeVos, to the 
hearing.
    We welcome your husband and your daughters, your son, your 
daughter-in-law and your son-in-law, and we welcome all of our 
other guests here.
    Ms. DeVos will be introduced first, as I said, by Senator 
Tim Scott, a member of this committee, a strong champion for 
education. Then she'll be introduced by Senator Joe Lieberman, 
who served here for 24 years, representing Connecticut, until 
he retired in January 2013.
    Thank you both for joining us.
    I've already said what I have to say about Ms. DeVos. 
She'll be an excellent Secretary of Education. We should move 
ahead with Senator Scott's introduction. You may then turn it 
over to Senator Lieberman. Then we'll hear from Ms. DeVos, and 
then we'll begin our questions.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman. I will note that I 
am surprised at the number of folks, photographers, who showed 
up to hear Senator Lieberman's introduction.
    Very well done, Senator Lieberman.
    I've known the DeVos family for about three decades. I 
started at Learning How to Sell when I was in college, and it 
was a part of one of the DeVos companies that I learned how to 
sell. I'm very thankful that a champion of public education, a 
champion of education, and, specifically, a champion of 
education for poor kids sits to my left.
    I recall my own upbringing as a poor kid, who by the time I 
was in the fourth grade attended four different schools. It's 
really important for us to recognize the powerful impact that 
education has, specifically, on poor kids. I am excited about 
this transition, looking forward to the opportunity to have 
Betsy DeVos as our champion for all children, for all 
education, but, specifically, for what I consider high-
potential kids, what others call at-risk kids. For the last 28 
years, Ms. DeVos has been a champion for those kids.
    A lifelong resident of Michigan, she attended Calvin 
College in Grand Rapids, MI. Ms. DeVos is a businesswoman and 
an entrepreneur. She is the chairman of the American Federation 
for Children and the Windquest Group.
    For those of you who may not know Betsy, she had a humble 
beginning. Her parents mortgaged everything they had, 
everything they had, to start a small auto parts business. She 
still remembers when she was 7 years old helping her father 
paint a cinder block building that became the office and the 
first manufacturing location. I believe the color was steel 
blue. During the summer months when she was in college, Betsy 
worked the third shift at her family's business. She 
understands the sacrifices that families have to make in order 
to build a better life for themselves and for their children.
    She has successfully advocated for expansion of education 
opportunity in dozens and dozens of States. She also helped her 
husband launch a charter school in Grand Rapids, MI, which is 
now one of the highest performing charter schools in her home 
State. I've been to that school.
    Way before there was any idea that she might one day sit 
here before this committee, way before we ever assumed that 
there would be a Trump candidacy, several years ago, I visited 
the Aviation High School and had a chance to sit at lunch and 
talk with the kids and understand and appreciate that their 
hunger for education was stirred by the DeVos family, stirred 
by the DeVos family's commitment to public education at this 
charter high school.
    She is motivated by making sure students go to safe and 
high-performing schools, whether they are public, private, 
charter, traditional, or non-traditional schools. She 
understands the need to focus on accountability, not just to 
have a system in place, but to actually hold schools 
accountable for the results they have. What she supports is 
holding all schools accountable, whether they are traditional 
public schools or charter schools. Ms. DeVos is clearly not 
opposed to accountability.
    What she is opposed to is holding some schools accountable 
but not all schools. What she is opposed to is leaving children 
trapped in schools that we know are failing--failing the very 
students that will have no hope if they do not receive a high-
quality education. Parents and students could not ask for a 
better role model or a more thoughtful leader to move the 
education system into the 21st century.
    Betsy cares. She questions. She considers. And then and 
only then will she act. These are the traits of a leader and a 
doer. I look forward to supporting her nomination throughout 
the next few weeks.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Scott.
    Senator Lieberman, welcome.

                     Statement of Senator Lieberman

    Senator Lieberman. Thank you, Mr. Chairman, Senator Murray, 
and members of the committee. And a special hello to Chris 
Murphy, my friend and successor from Connecticut.
    It's great to be back in the Senate today to introduce 
Betsy DeVos for your consideration as the next Secretary of 
Education. I met Betsy several years ago in one of the many 
bipartisan efforts to improve the quality of education of 
America's children that she and so many others of you have been 
involved in. When I left the Senate, as a way to continue my 
own work on education reform, I became a member of the Board of 
the American Federation for Children, the nonprofit 
organization that Betsy DeVos founded to provide better 
education options for lower income children throughout America.
    I'm very proud of what the AFC has achieved, particularly 
at the State level. More than 400,000 lower income families 
have been empowered with financial support to take their 
children out of schools where they felt the kids were not 
getting an adequate education and put them into schools that 
they felt were better. For me, as a Democrat, it is especially 
gratifying that many of these AFC State programs have been 
enacted with bipartisan support in State legislatures.
    None of the progress which the AFC has achieved very 
specifically for those 400,000-plus kids would have occurred 
without Betsy's leadership, which is inclusive and motivating. 
She is disciplined, organized, knows how to set goals and then 
develop practical plans to achieve them. She is really a 
purpose-driven team builder, and I've seen that in my 
membership on the Board of the AFC.
    I understand that the Department of Education is bigger 
than anything she or, for that matter, most any of us, except 
for Senator Alexander, of course, has ever led. Everything I 
have seen tells me that Betsy is ready to take on this 
assignment and do it very well.
    I know that some people are questioning her qualifications 
to be Secretary of Education, and too many of those questions, 
to me, seem to be based on the fact that she doesn't come from 
within the education establishment. Honestly, I believe that 
today, that's one of the most important qualifications you 
could have for this job.
    And she has many others. She's a mother and a grandmother. 
She cares about children more generally and has been involved 
in education, like so many parents and local citizen school 
board members across America, for almost 30 years. Her 
involvement has not just been as a philanthropist and advocate 
for reform, though she has been a real leader in both. She also 
mentors students in the public schools of Grand Rapids, MI.
    Here's another important qualification Betsy has for this 
job. She will ask the right questions, such as: Is this Federal 
education program working? Is it giving our kids the education 
they need to live productive and satisfying lives? If not, how 
can we improve it? An examination of the facts of the State of 
American education today makes clear that although current 
Federal education programs are working for many of our 
children, they are failing millions of others, and here are 
just a few of the salient and, to me, troubling facts.
    Among all students of all income groups, less than 40 
percent of high school graduates are college- or career-ready, 
according to the ACT. A recent report said that only 35 percent 
of eighth graders were proficient on the NAEP reading exam and 
only 34 percent on the math exam. In other words, about two-
thirds of eighth graders in our country are not proficient in 
reading and math. Proficient is the middle--as the members of 
the committee know--middle ranking under the NAEP. Among lower 
income students, the weight of these shortcomings in the 
educational status quo falls disproportionately heavily.
    There are too many ways to illustrate this, but let me just 
give this one example. There are more than 1,200 high schools 
in America who have more than 1.1 million students that fail to 
graduate from high school at least one-third of their students, 
and for some, as many as more than half the students don't make 
it to high school graduation. These schools primarily educate 
low-income students and students of color. These low graduation 
rate high schools are located in both urban and rural areas, 
and they're in almost every State. New York has 199 of them; 
Georgia, 115; California, 105; and Alabama and Mississippi, 
each more than 50.
    These are jarring numbers, and I think they cry out for 
national education reform. We're just not keeping our founders' 
promise of equal opportunity. We're not preparing the next 
generation of Americans to enable our economy to compete 
successfully in the world. We just can't accept the status quo 
in education anymore. We need a change agent and an education 
reformer to be Education Secretary, a leader who has one big 
goal, which is to give every child in America, regardless of 
family income or zip code, a first-class education, and that is 
exactly the kind of Education Secretary I believe Betsy DeVos 
can and will be.
    Because Betsy has been fighting for reform and disrupting 
the status quo for so long, her nomination is naturally 
controversial. After all, she has directly challenged the 
education establishment by supporting charter schools and other 
school choice programs. I can tell you that in all my work with 
her, I have never heard Betsy speak against our public school 
system. I have heard her ask what we could do for the low-
income kids who are trapped in bad public schools until we can 
make more of our public schools as good as they should be.
    Is it fair to stand back and not help the parents who want 
better for their children but can't get it just because they 
can't afford it? Is it acceptable to have so many children from 
all income groups graduate from our high schools unprepared for 
college and the high-tech economy they will enter? No, it is 
not.
    That's why, Mr. Chairman, Senator Murray, and members of 
the committee, I hope you'll confirm Betsy DeVos' nomination to 
be Secretary of Education. It's in our national interest to 
give her a chance to change the status quo in our schools and 
secure a better future for our country and for all of our 
children.
    Thank you very much.
    The Chairman. Thank you, Senator Lieberman. Thank you for 
coming back.
    Before I introduce or welcome Ms. DeVos, I'd like to enter 
into the record 97 letters of support for Ms. DeVos for 
Education Secretary from a variety of school groups, former 
education secretaries, Governors, business groups, and others.
    [The information referred to may be found in Additional 
Material. However, due to the high cost of printing some 
letters are being retained in committee files.]
    The Chairman. Ms. DeVos.

  STATEMENT OF BETSY DEVOS, NOMINEE TO SERVE AS SECRETARY OF 
                  EDUCATION, GRAND RAPIDS, MI

    Ms. DeVos. Thank you, Chairman.
    Chairman Alexander, Ranking Member Murray, Senators, thank 
you for the opportunity to be with you this afternoon.
    Thank you, Senators Scott and Lieberman, for those very 
kind words of introduction. I honor and applaud your lifelong 
dedication to the success of our Nation's students and your 
fine public service.
    I want to begin by thanking my family for their support. 
Many of them are seated behind me here, except for my five 
grandchildren, the oldest of which is five, so it was not 
advisable that they join us today.
    I am very honored that President-elect Trump has asked me 
to join his team and am grateful for his dedication to 
education. If confirmed, I look forward to working with him, 
Vice President-elect Pence, and all of you to bring educational 
opportunity to every family in this great Nation. While we may 
have differences, I think we can all agree that learning as a 
lifelong pursuit is a fundamental American virtue.
    We are blessed beyond measure with educators who pour 
themselves into students. The schools in which they work are as 
diverse as the students they educate. In fact, all of us here 
and our children have attended a mix of traditional, publicly 
funded, and private schools. This is a reflection of the 
diversity that is today's public education.
    Growing up in Holland, MI, I attended local Christian 
schools and then Calvin College. My greatest educational 
influence in life was a public school teacher named Elsa 
Prince. While her students called her Mrs. Prince, to this day, 
I just call her ``mom.''
    When Dick and I became parents, education took on a whole 
new meaning. We recognized that other parents were not able to 
make similar decisions about their children's education, based 
on their income or the zip code in which they lived.
    When our oldest reached school age, we visited The Potter's 
House, a Christian school which serves many low-income families 
in my hometown. We saw the struggles and sacrifices many of 
these families faced when trying to choose the best educational 
option for their children. For me, this was not just an issue 
of public policy but of national injustice. I committed to do 
something about it, and it's become my life's work.
    I applaud the great work of The Potter's House and its co-
founder, John Booy, who is here with us today. He and his team 
of teachers are doing a great job. But here's the sad reality: 
in the past 28 years, the need and demand for these other 
options have grown, unabated.
    I share President-elect Trump's view that it's time to 
shift the debate from what the system thinks is best for kids 
to what moms and dads want, expect, and deserve. Parents no 
longer believe that a one-size-fits-all model of learning meets 
the needs of every child, and they know other options exist, 
whether magnet, virtual, charter, home, faith-based, or any 
other combination. Yet, too many parents are denied access to 
the full range of options, choices that many of us here in this 
room have exercised for our own children.
    Why, in 2017, are we still questioning parents' ability to 
exercise educational choice for their children? I am a firm 
believer that parents should be empowered to choose the 
learning environment that's best for each of their individual 
children.
    The vast majority of students in this country will continue 
to attend public schools. If confirmed, I will be a strong 
advocate for great public schools. If a school is troubled, or 
unsafe, or not a good fit for a child--perhaps they have a 
special need that is going unmet--we should support a parent's 
right to enroll their child in a high-quality alternative.
    It's really pretty simple. Every child in America deserves 
to be in a safe environment that is free from discrimination. 
Every student in America dreams of developing his or her unique 
talents and gifts. Every parent in America dreams of a future 
when their children have access to schools with the rigor, 
challenges, and safe environments that successfully prepare 
them for a brighter, more hopeful tomorrow. Every teacher in 
America dreams of breaking free from standardization so that 
they can deploy their unique creativity and innovate with their 
students.
    Our Nation's schools are filled with talented, devoted 
professionals, who successfully meet the needs of many, many 
children. Even our best schools don't work for all. This isn't 
the fault of teachers, but a reality that all students are 
unique, learn differently, and excel at their own pace.
    Students also face new challenges today. In particular, our 
high school graduates are having increasing difficulty 
accessing affordable higher education. Escalating tuition is 
pricing aspiring and talented students out of college. Others 
are burdened with debts that will take years or even decades to 
pay off. There is no magic wand to make the debt go away, but 
we do need to take action. It would be a mistake to shift that 
burden to struggling taxpayers without first addressing why 
tuition has gotten so high.
    For starters, we need to embrace new pathways of learning. 
For too long, a college degree has been pushed as the only 
avenue for a better life. The old and expensive brick-mortar-
and-ivy model is not the only one that will lead to a 
prosperous future. Craftsmanship is not a fallback, but a noble 
pursuit. Students should make informed choices about what type 
of education they want to pursue post-high school and have 
access to high-quality options. President-elect Trump and I 
agree we need to support all post-secondary avenues, including 
trade and vocational schools, and community colleges.
    Of course, on every one of these issues, Congress will play 
a vital role. If confirmed, I look forward to working with you 
to enact solutions that empower parents and students, provide 
high-quality options, and spend tax dollars wisely. We will 
work together to ensure the Every Student Succeeds Act is 
implemented as Congress intended, with local communities freed 
from burdensome regulations from Washington. I look forward to 
working with Congress and all stakeholders to reauthorize the 
Higher Education Act to meet the needs of today's college 
students.
    President-elect Trump and I know it won't be Washington, 
DC, that unlocks our Nation's potential, nor a bigger 
bureaucracy, tougher mandates, or a Federal agency. The answer 
is local control and listening to parents, students, and 
teachers.
    For nearly three decades, I've been involved in education, 
as a volunteer, an advocate for children, and a voice for 
parents. I've worked as an in-school mentor for students in the 
Grand Rapids Public Schools and have had the privilege of 
interacting with students and their families and teachers in 
ways that have changed my life and my perspective about 
education forever.
    I've worked with Governors, legislators, and business and 
community leaders to expand educational opportunity through 
options that are making a lifetime of difference for hundreds 
of thousands of kids this year alone. And I've worked with many 
dedicated teachers who strive every day to help students 
achieve, fulfill their potential, and prepare them for the 
global challenges that they will face. For me, it's simple: I 
trust parents, and I believe in our children.
    Thank you again for the opportunity to appear before you. I 
look forward to answering your questions.
    [The prepared statement of Ms. DeVos follows:]
                   Prepared Statement of Betsy DeVos
    Chairman Alexander, Ranking Member Murray, and Senators, thank you 
for the opportunity to be with you this afternoon.
    I want to begin by thanking my family for their support: my 
husband, Dick, my sons, and daughters, and sons-in-law--as well as the 
rest of my family, including five grandchildren, who could not join us 
today.
    I am honored that President-elect Trump asked me to join his team 
and am grateful for his dedication to education. If confirmed, I look 
forward to working with him, Vice President-elect Pence and all of you 
to bring educational opportunity to every family in this great Nation.
    While we may have differences, I think we can all agree that 
learning as a lifelong pursuit is a fundamental American virtue.
    We are blessed beyond measure with educators who pour themselves 
into students.
    The schools in which they work are as diverse as the students they 
educate. In fact, all of us here--and our children--have attended a mix 
of traditional publicly funded and private schools. This is a 
reflection of the diversity that is today's American public education.
    Growing up in Holland, MI, I attended local Christian schools and 
then Calvin College. My greatest educational influence in life was a 
public school teacher named Elsa Prince.
    While her students called her Mrs. Prince, to this day, I just call 
her ``mom.''
    When Dick and I became parents, education took on a whole new 
meaning. We recognized that other parents were not able to make similar 
decisions about their children's education, based on their income or 
the zip code in which they lived.
    When our oldest reached school age, we visited The Potter's House, 
a Christian school which serves many low-income families in my 
hometown. We saw the struggles and sacrifices many of these families 
faced when trying to choose the best educational option for their 
children. For me this was not just an issue of public policy but of 
national injustice.
    I committed to do something about it, and it's become my life's 
work. I applaud the great work of The Potter's House and its founder 
John Booy--who is here with us today--he and his team of teachers are 
doing a great job. Here's the sad reality: in the past 28 years, the 
need and demand for these other options have grown, unabated.
    I share President-elect Trump's view that it's time to shift the 
debate from what the system thinks is best for kids to what moms and 
dads want, expect and deserve.
    Parents no longer believe that a one-size-fits-all model of 
learning meets the needs of every child, and they know other options 
exist, whether magnet, virtual, charter, home, religious, or any 
combination thereof. Yet, too many parents are denied access to the 
full range of options . . . choices that many of us--here in this 
room--have exercised for our own children.
    Why, in 2017, are we still questioning parents' ability to exercise 
educational choice for their children? I am a firm believer that 
parents should be empowered to choose the learning environment that's 
best for their individual children.
    The vast majority of students in this country will continue to 
attend public schools. If confirmed, I will be a strong advocate for 
great public schools. If a school is troubled, or unsafe, or not a good 
fit for a child--perhaps they have a special need that is going unmet--
we should support a parent's right to enroll their child in a high 
quality alternative.
    It's really pretty simple.
    Every child in America deserves to be in a safe environment that is 
free from discrimination.
    Every student in America dreams of developing his or her unique 
talents and gifts.
    Every parent in America dreams of a future when their children have 
access to schools with the rigor, challenges, and safe environments 
that successfully prepare them for a brighter, more hopeful tomorrow.
    Every teacher in America dreams of breaking free from 
standardization, so that they can deploy their unique creativity and 
innovate with their students.
    Our Nation's schools are filled with talented, devoted 
professionals, who successfully meet the needs of many, many children. 
Even our best schools don't work for all. This isn't the fault of 
teachers, but a reality that all students are unique, learn 
differently, and excel at their own pace.
    Students also face new challenges today. In particular, our high 
school graduates are having increasing difficulty accessing affordable 
higher education.
    Escalating tuition is pricing aspiring and talented students out of 
college. Others are burdened with debts that will take years--or even 
decades--to pay off.
    There is no magic wand to make the debt go away, but we do need to 
take action. It would be a mistake to shift that burden to struggling 
taxpayers without first addressing why tuition has gotten so high.
    For starters, we need to embrace new pathways of learning. For too 
long a college degree has been pushed as the only avenue for a better 
life. The old and expensive brick-mortar-and-ivy model is not the only 
one that will lead to a prosperous future. Craftsmanship is not a 
fallback--but a noble pursuit.
    Students should make informed choices about what type of education 
they want to pursue post-high school and have access to high quality 
options. President-elect Trump and I agree we need to support all post-
secondary avenues, including trade and vocational schools, and 
community colleges.
    Of course, on every one of these issues, Congress will play a vital 
role.
    If confirmed, I look forward to working with you to enact solutions 
that empower parents and students, provide high quality options and 
spend tax dollars wisely.
    We will work together to ensure the Every Student Succeeds Act is 
implemented as Congress intended--with local communities freed from 
burdensome regulations from Washington. I look forward to working with 
Congress and all stakeholders to reauthorize the Higher Education Act 
to meet the needs of today's college students.
    President-elect Trump and I know it won't be Washington, DC. that 
unlocks our Nation's potential, nor a bigger bureaucracy, tougher 
mandates or a Federal agency. The answer is local control and listening 
to parents, students and teachers.
    For nearly three decades, I've been involved in education, as a 
volunteer, an advocate for children, and a voice for parents.
    I've worked as an in-school mentor for students in the Grand Rapids 
Public Schools, and have had the privilege of interacting with students 
and their families and teachers in ways that have changed my life and 
my perspective about education forever.
    I've worked with Governors, legislators, and business and community 
leaders to expand educational opportunity through options that are 
making a lifetime of difference for hundreds of thousands of kids this 
year alone.
    I've worked with many dedicated teachers who strive every day to 
help students achieve, fulfill their potential, and prepare them for 
the global challenges that they will face.
    For me, it's simple: I trust parents, and I believe in our 
children.
    Thank you again for the opportunity to appear before you. I look 
forward to answering your questions.

    The Chairman. Thank you, Ms. DeVos.
    We'll now begin our round of 5-minute questions. I'm going 
to defer my questions until later, so we'll begin with Senator 
Enzi and then Senator Murray.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you, Ms. 
DeVos. I want to welcome you here and thank you for being 
willing to take on this kind of a project and to appear before 
us. I enjoyed our meeting last month and look forward to 
working with you as we consider your nomination and then after 
that.
    You're going to be dealing with a great variety of States 
from high population to low population. I happen to come from 
the lowest population State. It has some special challenges in 
education. I call it rural and frontier challenges. We don't 
allow a child to travel more than an hour by bus to or from 
school, and as a result, we have some schools that have one or 
two students. It's a little different situation than was even 
envisioned with No Child Left Behind, so I'm glad that we've 
changed to ESSA.
    The Federal Government--there was a Quality Counts 2017 
report, and I'm pleased that Wyoming was ranked No. 7 out of 
the 50 States in that, and in the area of financing education, 
we were No. 1. That comes at a time when our State is going 
through some economical suffering because of the Obama 
administration's war on coal and fossil fuels and the 
hardworking families that support those industries.
    Our frontier has some special problems. Part of them are 
that the submission of some of the applications and some of the 
applicable reports have no bearing on what we're doing, and 
that's important when we have the rural aspect as well as the 
Wind River Indian Reservation, which is the home of two tribes.
    In Every Student Succeeds, there are provisions to permit 
the Secretary to reduce the department's workforce. With the 
return of educational authority to the States and the 
elimination of Federal programs, it's important that that 
workforce be reduced to ensure more educational funding is 
provided to the schools and not kept in Washington.
    Also, I'm troubled by the Government Accountability Office 
report that was issued at my request last November that showed 
the cost projections for the income-driven college loan 
repayment program are tens of billions of dollars higher than 
the original estimates, and those estimates were based on data 
and accounting methods that were deeply flawed. You'll inherit 
that. The current Department of Education's data lacked 
transparency, omitted key information, and made other flawed 
assumptions. As an accountant, I was appalled.
    Then there's the career and technical education that you 
mentioned. I appreciate your emphasis on the value of 
craftsmanship and also technology. I just saw the movie, 
``Hidden Figures,'' that introduced people to computers and the 
value of women in the workplace in NASA to get them into space. 
I have one-sixth of my schools that don't participate in 
Perkins Career and Technical Education funding because the low 
population gives them such a low amount of funding that it 
isn't worth doing it, and that needs to change.
    Ms. DeVos, one of the most important jobs you'll have is 
the implementation of Every Student Succeeds Act. I'm pleased 
with what you said about it. Can you talk about your plans to 
engage rural and frontier States and communities in that 
process?
    Ms. DeVos. Senator, thank you. Thank you for that question, 
and I, too, enjoyed our meeting in your office. I particularly 
enjoyed hearing a little bit about the special needs of schools 
like the Wapiti school that has the grizzly bear fence 
surrounding it. That is a unique need to Wyoming, certainly.
    Certainly, rural schools and rural settings require 
different approaches and different options. I refer to the 
Every Student Succeeds Act, and the implementation of that and 
Wyoming's plan for that will be particularly important to 
recognize the unique needs of the rural population that you 
have, as well as many of the other States represented here in 
the committee.
    When we think about the future, I think about the 
opportunity for more choices and options for those parents in a 
distance learning type of situation and the possibility that 
course choices or online courses could be offered in ways that 
they may not have been previously. I would, if confirmed, look 
forward to working with you and some of your other colleagues 
that face those same types of challenges, such as Senator 
Collins and Senator Murkowski, and work with you to address the 
specific needs of rural communities and high rural population 
States.
    Senator Enzi. Thank you. I look forward to working with 
you.
    The Chairman. Thank you, Senator Enzi.
    Senator Murray.
    Senator Murray. Mr. Chairman, it's your committee. If you 
want to go first----
    The Chairman. No. Thank you for the courtesy. I'm going to 
go a little later. Thank you.
    Senator Murray. Ms. DeVos, I really am troubled by some of 
the comments and things you've said about public education and 
how you see the role of the department you've been nominated to 
lead now. My first question for you, really, is yes or no. All 
I want is a yes or no. Do you believe that the mission of the 
Department of Education should be to strengthen public 
education for all of our students?
    Ms. DeVos. Yes, I do.
    Senator Murray. Good. Can you commit to us tonight that you 
will not work to privatize public schools or cut a single penny 
from public education?
    Ms. DeVos. Senator, thanks for that question. I look 
forward, if confirmed, to working with you, to talk about how 
we address the needs of all parents and all students. We 
acknowledged today that not all schools are working for the 
students that are assigned to them, and I'm hopeful that we can 
work together to find common ground and ways that we can solve 
those issues and empower parents to make choices on behalf of 
their children that are right for them.
    Senator Murray. I take that as not being willing to commit 
to not privatizing public schools or cutting money from 
education.
    Ms. DeVos. I guess I wouldn't characterize it in that way.
    Senator Murray. OK. Let me ask you about conflict of 
interest. President-elect Trump thinks he can resolve his 
financial conflicts by having his family manage his interests 
while he's in office. Do you think it's OK for family members 
to profit off of companies that are directly impacted by the 
decisions you will make if confirmed? Yes or no?
    Ms. DeVos. No, I do not.
    Senator Murray. We do know that from press reports you and 
your family have invested in what you call the education 
industry. That includes investments in SoFi, which is a student 
loan refinancing company, and K12, Inc., which is a chain of 
for-profit online charter schools.
    You told this committee that you would sever ties with your 
family businesses if confirmed. You also said that you intend 
to return to these businesses owned by your family when you 
leave public service. How is that different from President-
elect Trump's arrangement?
    Ms. DeVos. Senator, first of all, let me be very clear 
about any conflicts. Where conflicts are identified, they will 
be resolved. I will not be conflicted, period. I commit that to 
you all. And with respect to the specific ones that you cited, 
one of them we were aware of as we entered the process, and 
that is in the process of being divested. If there are any 
others that are identified, they will be appropriately divested 
as well.
    Senator Murray. From your answer, I assume that you and 
your family intend to forego all investments in education 
companies from now on.
    Ms. DeVos. Anything that is deemed to be a conflict will 
not be--yes, will not be a part of our investing.
    Senator Murray. How do you intend to convince this 
committee that no entity will feel pressure to purchase, 
partner, or contract with corporate or nonprofit entities you 
and your family invested in should you be confirmed as 
Secretary?
    Ms. DeVos. I can commit to you that nobody will feel any 
pressure like that.
    Senator Murray. As you know, this committee has not 
received your required paperwork from the Office of Government 
Ethics, and they have told me they cannot provide me assurance 
right now that your conflicts of interests have been identified 
and resolved by the Office. Again, will you be providing this 
committee with 3 years of tax returns that we've requested?
    Ms. DeVos. Senator, I have provided the committee with 
everything that's been requested and required of the committee. 
I'm, frankly, very proud of the team that's been working very 
hard on my behalf to get all of this together. I know that the 
OGE is working very hard to work through my and others' 
confirmation processes as well, as is the department. I'm very 
hopeful that we will get this resolved and to a point of 
resolution here very soon.
    Senator Murray. Since we do not have your ethics paperwork 
tonight, we've not had a chance to look at it, and we've not 
had a chance to know whether we have additional questions. 
Would you commit to coming back before this committee once we 
have that from the OGE so we can ask additional questions?
    Ms. DeVos. I commit to making sure we have an ethics 
agreement resolved and reached.
    Senator Murray. I hope that we have a chance, Mr. Chairman, 
if we have questions, to be able to follow up on that.
    I just have a few seconds left. You have vast wealth, 
obviously, and you have used it, as you said yourself, to 
influence the political system and elect candidates who support 
your ideological agenda. If you are confirmed, I want to know 
if you believe it's appropriate for you and your family to 
continue to use its wealth to pressure State, local, and 
Federal candidates to support your agenda.
    Ms. DeVos. Senator, if I am confirmed, I will not be 
involved or engaged in political contributions, and my husband 
will not be, either.
    Senator Murray. OK. Thank you very much. I appreciate that.
    The Chairman. Thank you, Senator Murray.
    Senator Burr has deferred to Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Thank you, Ms. DeVos, for your commitment to your State, 
your commitment to education, and for being here today, and 
congratulations on your nomination. I have a statement, and 
then I'd like to ask you three questions in regard to that 
statement.
    This committee established a task force on government 
regulation and identified 59 specific burdensome regulations 
that engage public education, primarily higher education. Of 
the 59 recommendations, 12 are totally at the auspice of the 
Secretary of Education. They can be invalidated and changed 
immediately.
    In 2015, Senators Bennet, King, Booker, Burr, Alexander, 
and myself introduced a bill to drastically simplify the 
burdensome and aggravating application process families fill 
out for Federal financial aid known as FAFSA. The University of 
Georgia, Emory University, and Georgia Tech, three well-known 
institutions in my State, have all said this is a priority for 
them to move forward and simplify the process of giving our 
kids the best education they can get.
    My question is: Would you commit to working with our office 
to advance the recommendations of the task force on higher 
education?
    Ms. DeVos. Senator, thanks for that question. I'm aware of 
this task force report, and it sounds like the direction that 
it has taken is very promising, and, if confirmed, I look 
forward to working with you and the others who have been 
working on this to implement the things that are deemed 
appropriate to be done.
    Senator Isakson. Will you commit to us that you will work 
with us to implement those items identified by the task force 
that the Secretary, herself or himself, currently has the 
authority to change, meaning this won't be another government 
report that goes on the shelf, but one that will be acted on 
one way or another?
    Ms. DeVos. You have my commitment on that, Senator.
    Senator Isakson. And, last, will you work with this 
committee to simplify the application for Federal financial 
aid, known as FAFSA, to reduce the burden and aggravation on 
families and make it easier for students to apply to college 
and to attend college?
    Ms. DeVos. Indeed, I will. I know that's been a very 
burdensome process and application. In fact, I recall Chairman 
Alexander actually unfolding the entire length of it. It's a 
very long process, and I would look forward to working with you 
to simplify that process.
    Senator Isakson. It's 104 questions. If I remember 
correctly, Mr. Chairman, 104 questions. The committee came up 
with a 2-page, four-question application that worked just as 
well. It's an important way to improve attending college and 
getting financing done.
    Ms. DeVos. Let me just say I don't think we should make it 
any more difficult than absolutely necessary for students to be 
able to further their education.
    Senator Isakson. Right answer. Is Mr. Booy here? You 
referred to the Potter's House.
    Ms. DeVos. He is, indeed. He's right here.
    Senator Isakson. Mr. Booy, would you stand up, please? I 
just want to thank you for what you've done to show the kind of 
leadership we need to help people who otherwise don't get any 
help, aren't getting any help, and may be discarded through 
life's disposal. You've done a great job with Potter's House. 
We have a number of Georgia investments in Potter's House. We 
appreciate what you've done very much. Thank you.
    Mr. Booy. Thank you, sir.
    Senator Isakson. That brings me to this point. Senator 
Murray was talking about privatizing schools and talking about 
the lack of importance of charter schools and the importance of 
protecting public education. She talked about her goal and my 
goal, which we've shared with each other, and that is to work 
toward requiring 4-year-old pre-kindergarten for every student 
in the country, because we think it's so important during the 
early learning years for kids to get access.
    We did it in Georgia, and how we did it in Georgia was 
taking faith-based educational 4-year-old prekindergarten 
programs and private 4-year-old prekindergarten programs and 
private institutions to provide us with the classrooms and the 
teachers to teach the curriculum in the new program. Today, in 
Georgia, 61,000 4-year-old kids go to 4-year-old 
prekindergarten paid for by the State. It is delivered by a 
variety of private and public institutions and entities.
    My point is if you're going to meet the challenges of 
public education today and have to depend solely on the 
resources that are available to it, you'll never get where you 
want to go. If you get the private sector making an investment 
in public education and have seamless standards that everybody 
commits to, you can greatly expand the opportunity of 
education, greatly expand accessibility to education, and do it 
through using faith-based, private, and other types of 
institutions. Would you agree with that?
    Ms. DeVos. It's a very interesting approach that Georgia 
has taken, and it's very similar to what Florida has done as 
well. As the ESSA Act is implemented, It would be really 
interesting for States to take a look at some other successful 
programs. I would also look forward to working with the other 
agencies that are involved with some of the preschool funding 
of Head Start and so forth, HHS, and see if there's ways to 
more effectively use those monies to help kids be ready for 
kindergarten when they reach kindergarten.
    Senator Isakson. My time is up. I just want to acknowledge, 
in reading your testimony and talking to you in my office, that 
I appreciate your recognition that the nontraditional student 
of 25 years ago has become the traditional student of today. 
Not every kid lives in a two-parent household, and not every 
kid lives in an academic environment. We have to come up with 
programs necessary to train our kids to be able to do the jobs 
of the 21st century in different ways all the time.
    Congratulations on your nomination.
    I yield back, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman.
    Ms. DeVos, thanks for being with us and thanks for dropping 
into the office a few days ago.
    Ms. DeVos. Thank you, Senator.
    Senator Sanders. Ms. DeVos, there is a growing fear in this 
country that we are moving toward what some would call an 
oligarchic form of society, where a small number of very, very 
wealthy billionaires control to a significant degree our 
economic and political life. Would you be so kind as to tell us 
how much money your family has contributed to the Republican 
party over the years?
    Ms. DeVos. Senator, first of all, thank you for that 
question. I, again, was pleased to meet you in your office last 
week. I wish I could give you that number. I don't know.
    Senator Sanders. I have heard the number was $200 million. 
Does that sound in the ball park?
    Ms. DeVos. Collectively, between my entire family?
    Senator Sanders. Over the years, yes.
    Ms. DeVos. That's possible.
    Senator Sanders. My question is--and I don't mean to be 
rude--but do you think if you were not a multibillionaire, if 
your family has not made hundreds of millions of dollars of 
contributions to the Republican party, that you would be 
sitting here today?
    Ms. DeVos. Senator, as a matter of fact, I do think that 
there would be that possibility. I've worked very hard on 
behalf of parents and children for the last almost 30 years to 
be a voice for students and to empower parents to make 
decisions on behalf of their children, primarily low-income 
children.
    Senator Sanders. Thank you. In your prepared statement, you 
say,

          ``Students should make informed choices about what 
        type of education they want to pursue post-high school 
        and have access to high-quality options.''

    Some of us believe that we should make public colleges and 
universities tuition-free so that every young person in this 
country, regardless of income, does have that option. That's 
not the case today.
    Will you work with me and others to make public colleges 
and universities tuition-free through Federal and State 
efforts?
    Ms. DeVos. Senator, that's a really interesting idea, and 
it's really great to consider and think about. We also have to 
consider the fact that there's nothing in life that's truly 
free. Somebody's going to pay for it, and so----
    Senator Sanders. Oh, yes, you're right. You're right. 
Somebody will pay for it, but that takes us to another issue, 
and that is----
    Ms. DeVos. I think it----
    Senator Sanders [continuing]. If I may, and that is right 
now, we have proposals in front of us to substantially lower 
tax breaks for billionaires in this country while at the same 
time low-income kids can't afford to go to college. Do you 
think that makes sense?
    Ms. DeVos. Senator, if your question is really around how 
can we help college and higher education be more affordable for 
young people as they anticipate----
    Senator Sanders. Actually, that wasn't my question. My 
question is: Should we make public colleges and universities 
tuition-free so that every family in America, regardless of 
income, will have the ability to have their kids get a higher 
education? That was my question.
    Ms. DeVos. Senator, I think we can work together, and we 
could work hard on making sure that college or higher education 
in some form is affordable for all young people that want to 
pursue it, and I would look forward to that opportunity, if 
confirmed.
    Senator Sanders. Would you agree with me that if there is a 
mom watching this hearing who makes $30,000, $40,000 a year, a 
single mom perhaps, who has to pay $10,000 or $15,000 a year 
for childcare for her daughter, that that is a burden that is 
almost impossible to deal with? What are your proposals about 
making childcare universal for our working families? Do you 
have ideas on that? Do you agree with that idea?
    Ms. DeVos. That certainly is a burden, and I can understand 
the challenge that that family, that young mother, would face 
in deciding how to best serve her child's needs. Again, if 
we're talking about the future of that child and their 
education, I would look forward to working with you. I know we 
have common ground on a lot of things, and we could find ways 
to work together to ensure that that young mom's child will 
have a great opportunity for a great education in the future.
    Senator Sanders. There are countries around the world which 
do provide universal, very inexpensive, or free childcare. 
Would you work with me in moving our government in that 
direction?
    Ms. DeVos. Senator, again, I feel very strongly about the 
importance of young families having an opportunity for good 
childcare for their children. I'm not sure that that's a part 
of the education----
    Senator Sanders. It's not a question of an opportunity. 
It's a question of being able--very often, my Republican 
friends talk about opportunity. It's not a question of 
opportunity. It's a question of being able to afford it. How do 
we help somebody who is making eight or nine bucks an hour at a 
time when we can't raise the minimum wage here because of 
Republican opposition? How do we make sure that those moms can 
get quality childcare that they can afford?
    Ms. DeVos. I would look forward to helping that mom get a 
quality education for their child or their children so that 
they could look forward to a bright and hopeful future.
    Senator Sanders. Thank you very much.
    The Chairman. Thank you, Senator Sanders.
    We're going next to Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Thank you, Mr. Chairman.
    We're certainly happy to have you here, Ms. DeVos, and I 
appreciate the abilities that you've exemplified and the work 
of your family, the care that you have for education, the hard 
work that you've done. I have to say there are very few people 
in this country who could even come close to what you've done.
    Let me just say I welcome you to the committee. It's a 
pleasure to be here today to consider your nomination to serve 
as Secretary of Education. I appreciate your commitment to 
expanding opportunities for all children and your tireless work 
in the field of education. Your record of service is in line 
with Utah values, especially your commitment to restoring local 
autonomy over schools. Those closest to students know what is 
best for their education, a truth you have championed as a 
reformer.
    This committee's support and passage of the Every Student 
Succeeds Act illustrates that these values are not unique to 
you and me, but are instead shared by many of my colleagues who 
care for education as a reality. All I can say is many who make 
comments on selections for this position have worked very hard 
to try and make sure that good people serve in these positions, 
not just people in stereotypical education, but those who might 
bring really new things to the forefront.
    All I can say is that we've helped many of our colleagues 
to usher--we've ushered them through this process on both sides 
of the floor, and I hope my colleagues will extend the same 
courtesy to you. I also believe in extending Presidential 
selections the benefit of the doubt, recognizing, for example, 
that a person's views as a private citizen do not necessarily 
reflect their future actions as a holder of public office.
    From my private conversations with you, I trust that you 
will not have--that you will not force particular policies on 
States, unlike what some in education do, as your predecessors 
have done, in some cases, in violation of congressional intent. 
I also recognize that support for parental choice for all 
students is not an attack on public education. My children and 
grandchildren and great grandchildren have attended public 
education as a reality, and I have to say that they've attended 
these schools. I believe that you share my commitment to 
ensuring that every child receives a quality education, 
regardless of the type of school they attend.
    I've spent my entire service here fighting to make equity 
in education a reality, and I believe that you will be an 
indispensable partner in this fight, and I look forward to 
working with you on the priorities that are important to the 
people of Utah, including increasing transparency, 
accountability, and access to higher education, as well as 
increasing innovation and evidence-based reforms. Unlike others 
here who may be interested in attacking your donations, I know 
you want to do right by all children, so I will stick to 
focusing on how we can work together on sound policy.
    Right now, the Department of Education does not have a 
uniform measure for describing whether borrowers are repaying 
their loans. Adding to the confusion, the department is using a 
different borrower repayment rate methodology for each policy 
it comes up with. A uniform metric might prove helpful in 
making information available to Congress, the higher education 
community, and the public about the success of former students 
in repaying their Federal student loan debts.
    This information could also tell us the extent to which 
student loan repayment rates vary across institutions. I 
believe students should have access to a wide variety of data 
when choosing a school, just like they would when choosing a 
car. Greater access to information would lead to wise 
decisionmaking when choosing an institution. Do you support 
increasing transparency regarding loan results for students and 
parents to use when deciding upon a post-secondary school?
    Ms. DeVos. Senator, thank you. Thank you for that question 
and for your kind comments. I agree with you 100 percent that 
the issue of student debt and the amount of student debt--over 
$1.3 trillion right now, up almost 1,000 percent in the last 8 
years--is a very serious issue and one which we all have to pay 
very close attention to and resolve in some way. If confirmed, 
I certainly will look forward to working with you and your 
colleagues on ways to get after this issue. The issue of the 
cost of education as well as debt repayment kind of go hand in 
hand, and I will look forward to working with you and your 
colleagues should I be confirmed.
    Senator Hatch. Thank you so much. I hope you'll be 
confirmed, and I think you'll make a great Secretary.
    The Chairman. Thank you, Senator Hatch.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much. Put me on 
record as asking for a second round as well. I know that's 
under consideration.
    The Chairman. It's not under consideration, but I'll be 
glad to put you on record.
    [Laughter.]
    Senator Casey. We'll keep trying.
    Ms. DeVos, thank you for being here. We appreciate you and 
your family being with us tonight.
    I wanted to start with a basic question. Would you agree 
with me that the problem--and that's an understatement, in my 
judgment--but the problem of sexual assault on college campuses 
is a significant problem that we should take action on?
    Ms. DeVos. Senator, thank you for that question. I agree 
with you that sexual assault in any form or in any place is a 
problem, and no disagreement there.
    Senator Casey. The second question is would you uphold--let 
me give you a little background here that you might know. In 
2011, the Department of Education issued guidance on title IX 
by this administration, the current administration. I'd ask you 
would you uphold that 2011 title IX guidance as it relates to 
sexual assault on campus?
    Ms. DeVos. Senator, I know that there's a lot of 
conflicting ideas and opinions around that guidance, and if 
confirmed, I would look forward to working with you and your 
colleagues and understand the range of opinions and understand 
the issues from the higher ed institutions that are charged 
with resolving these and addressing them, and I would look 
forward to working together to find some resolutions.
    Senator Casey. I agree with the guidance, so I'm just 
asking for a yes or no. I guess you're not going to give me a 
yes or no answer on committing to upholding that guidance.
    Ms. DeVos. It would be premature for me to do that today.
    Senator Casey. This problem is--to say it's an epidemic is 
also an understatement. The Centers for Disease Control told us 
back in 2009 that one in five women are the victims of sexual 
assault on campus, and yet a lot of those women who are in that 
one in five never have an opportunity or never report 
incidents. It's a major problem for women.
    In so many ways, it's the ultimate betrayal. Parents, for 
generations, have told their daughters,

          ``Study hard in school, get good grades, because when 
        you get good grades, you might have an opportunity to 
        go to college, and if you go to college, the world is 
        open to you, and you can succeed by having a higher 
        education.''

    It happens every year on many campuses around the country. 
Too often, a young woman is a victim, sometimes on the first 
day she's there, or the first week, and sometimes over the 
course of her first year, and her life is destroyed by that.
    We have a long way to go to addressing this problem. We 
took some good action on this issue as part of the Violence 
Against Women Act. It just happened to be my bill that got 
passed into law, the so-called Campus SaVE Act. What we did in 
that bill was, for the first time, say to colleges and 
universities, ``You have to do more than you're doing,'' 
certainly on one broad topic of prevention and on awareness. 
Young men on the campus who are the perpetrators of this have 
to be part of the solution. They have to be part of bystander 
education, a preventative strategy.
    In addition to all kinds of transparency and requirements, 
this is what the act did for women--for victims, I should say, 
or victims of assault. Colleges and universities must provide 
clear statements regarding the procedures followed. They must 
do more than they had been doing when it comes to enforcement, 
and, in particular, with regard to victims, it says the college 
or university must indicate to the victim her right to notify 
law enforcement should the victim choose to, that the 
institution has an obligation to help the victim report the 
incident to law enforcement, including helping her get a 
protective order, among other things that the school has to do.
    That's what the law is now, based upon my bill. In the fall 
of 2015, this went into effect across the country. There's an 
organization called the Foundation for Individual Rights in 
Education. They support a bill that would totally change that. 
They would force a victim to go to a police department to 
report, and they would change the standard of evidence.
    Would you commit, as Secretary of Education, to retaining 
the standard of evidence that is currently the law?
    Ms. DeVos. Senator, let me just say my mom's heart is 
really piqued on this issue. Assault in any form is never OK, 
and I just want to be very clear on that. If confirmed, I look 
forward to understanding the past actions and the current 
situation better and to ensuring that the intent of the law is 
actually carried out in a way that recognizes both the victim, 
the rights of the victims, as well as those who are accused and 
that the institutions----
    Senator Casey. I'm out of time, but let me just--the 
organization that has that position, which is contrary to the 
current law and contrary to the spirit of what we tried to do 
in that piece of legislation, is a recipient of donations from 
you totaling about $25,000 over 4 years. I hope, I hope that's 
not a conflict of interest, but I would hope that you would 
make a definitive commitment as a nominee to enforce the law as 
it relates to sexual assault on college campuses. I'll send you 
more questions about it.
    The Chairman. Thank you Senator Casey.
    Senator Paul.

                       Statement of Senator Paul

    Senator Paul. Congratulations, Ms. DeVos, and thanks for 
your testimony.
    I grew up and went to public schools and got a great 
education, and I'm a big fan of public schools. My kids have 
gone to public schools. There are also some public schools that 
aren't doing very well. Even the Department of Education says 
about half of them aren't doing very well, and half the kids 
that are dropping out are kids of color. I commend you for your 
work, trying to help lower income kids and trying to help 
everybody get a better education.
    I think the status quo just isn't really working. I have 
traveled to a lot of schools, though, and been amazed at some 
of the schools. I went to Josephinum in Chicago, Saint Anthony 
in Milwaukee, Boys' Latin School in Philadelphia--just amazing 
success stories. You see the success in front of you where 100 
percent of the kids are going to college--just amazing stories 
where 50 percent, 40 percent, or 30 percent maybe of their 
contemporaries in their community are going. So there are great 
successes.
    We need to think about the kids. People get so caught up 
in, ``Oh, I don't want any religious schools'' or ``I don't 
want any private schools,'' and all of this, and it's like look 
at the kids and look at the success there. I thought maybe if 
you would take a couple of minutes and tell us about some of 
the things you've seen in Michigan, schools that you've either 
visited that are a success, or just some of what you've seen 
that has excited you about the potential, that all these kids 
do have potential, and we shouldn't leave them behind.
    Ms. DeVos. Thank you, Senator. Thanks for that opportunity. 
I would love to talk about some of the schools and some of the 
individuals that I have seen benefit from the success of being 
able to choose the right educational setting. I've already 
mentioned the Potter's House School and John Booy, who is with 
us here today. That's a school I regularly visit. The students 
there come from a multitude of different countries, speak many 
different languages, and most of them are from very, very low-
income circumstances. It's just amazing to see the 
transformation that those students have made going through 
their Potter's House years.
    There's another student here, right behind me, Denisha 
Merriweather, who I've gotten to know the last few years, who 
is the recipient of a tax credit scholarship program in the 
State of Florida. Denisha will tell you very promptly that she 
had a very troubled early childhood in her grade school years. 
I think she was kicked out multiple times before her godmother 
actually finally found a school that was going to work for her, 
and the transformation was just almost overnight. Denisha is 
the first in her family to have graduated high school. She has 
graduated college, and in May, she's going to get her master's 
in social work degree. She's just a tremendous example of what 
can happen when you get an opportunity to go to the right 
school.
    Nydia Salazar is also here, and she has--her mom took her 
and immigrated from Peru because of the opportunity--she knew 
she would have a much greater opportunity to succeed and 
thrive. Nydia has been the beneficiary of a tax credit 
scholarship program in Arizona, and she is now in college and 
pursuing a higher education there.
    Those are two students. There's many schools that I see 
that are doing amazing things, actually trying new and 
innovative ways of approaching education for children. One of 
them I'd love to mention is called Acton Academy, and it's 
truly a unique model in that it's totally student-directed. 
They form their own constitution, and there's no teacher in the 
classroom. There's just a coach or a guide, and the guide 
cannot answer questions. They can only pose a question back to 
the students. The results from this Acton Academy are simply 
amazing, and the school is actually proliferating pretty 
rapidly throughout the country.
    Those are just a few examples. I could give you dozens 
more.
    Senator Paul. Putting a face on it and meeting these kids 
and seeing that they're going to succeed and looking them in 
the eye and knowing that these young ladies are going to 
succeed is an amazing thing. For those who have this 
philosophic hatred for vouchers and school choice, watch the 
movie ``Waiting for Superman'' and see the mom with tears down 
her face whose child got the lottery and won to get in a good 
school, and then the one who didn't get in.
    Senator Alexander and I went to a Kipp charter school in 
Nashville, and we met a young woman there. She got a full 
scholarship to Boston College, and I'll never forget--here we 
are. We'd like to talk to the media. The media didn't want to 
talk to us at all. They wanted to talk to this young lady, 
because she was just an amazing success story.
    I wish you the best of luck. Thank you.
    Ms. DeVos. Thank you, Senator.
    The Chairman. Thank you, Senator Paul.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Yes. I'm a member of the Minnesota DFL 
Party, the party that the chairman invoked at the beginning of 
this hearing. Charter schools are not the issue here. Minnesota 
is thoroughly in the mainstream. There are 37 States in this 
country that constitutionally prohibit the use of public school 
money for religious schools. It is the DFL Party in Minnesota--
thank you very much--that is in the mainstream and not our 
witness or the chairman.
    Senator Lieberman mentioned proficiency in the NAEP test, 
and it just reminded me of this. When I first got into the 
Senate in 2009, I had a roundtable of principals, and one of 
the principals--in Minnesota--said, ``We think of the NCLB 
tests as autopsies.'' And I knew exactly what he meant, because 
what he was saying is that the students take the tests in late 
April. If they're lucky, they get them back in late June. The 
teachers can't use the results to inform their instruction.
    I saw in Minnesota that in addition to the NCLB tests, a 
lot of schools, a majority of schools, were taking a computer 
adaptive test, a computer test so you get the results right 
away, and adaptive so that you can measure outside of grade 
level. This brings me to the issue of proficiency, which the 
Senator cited, versus growth. I would like your views on the 
relative advantage of doing assessments and using them to 
measure proficiency or to measure growth.
    Ms. DeVos. Thank you, Senator, for that question. If I'm 
understanding your question correctly around proficiency, I 
would also correlate it to competency and mastery so that each 
student is measured according to the advancement that they're 
making in each subject area----
    Senator Franken. That's growth. That's not proficiency. In 
other words, the growth they're making is in growth. The 
proficiency is an arbitrary standard.
    Ms. DeVos. If they've reached a level--the proficiency is 
if they've reached a, like, third grade level for reading, et 
cetera.
    Senator Franken. No, I'm talking about the debate between 
proficiency and growth----
    Ms. DeVos. Yes.
    Senator Franken [continuing]. And what your thoughts are on 
them.
    Ms. DeVos. I was just asking to clarify, then, what----
    Senator Franken. This is a subject that has been debated in 
the education community for years, and I've advocated growth, 
as the chairman and every member of this committee knows, 
because with proficiency----
    Ms. DeVos. You're looking back.
    Senator Franken [continuing]. Teachers ignore the kids at 
the top who are not going to fall below proficiency, and they 
ignore the kid at the bottom who, no matter what they do, will 
never get to proficiency. I've been an advocate of growth. It 
surprises me that you don't know this issue.
    Mr. Chairman, this is a good reason for us to have more 
questions, because this is a very important subject, education, 
our kids' education, and we're selling our kids short by not 
being able to have a debate on it. I didn't know of any rule 
about this--everyone gets one question and then one other 
Senator gets a question. I don't know where that rule comes 
from.
    The Chairman. I'll tell you where it comes from, Senator 
Franken. It comes from the committee precedent and the way we 
treated President Obama's nominees, John King, and the way we 
treated Arne Duncan and the way I was treated when I was the 
Secretary. I'm going to apply--I'm applying the same rules to 
them--or to Ms. DeVos----
    Senator Franken. I think we're selling our kids short by 
not being able to ask followup questions, and I was kind of 
surprised--well, I'm not that surprised that you did not know 
this issue.
    Ms. DeVos, your family has a long history of supporting 
anti-LGBT causes, including donating millions of dollars to 
groups that push conversion therapy, the practice of trying to 
change someone's sexual orientation or gender identity. For 
example, you and your family have given over $10 million to 
Focus on the Family, an organization that currently states on 
its website that, ``homosexual strugglers can and do change 
their sexual behavior and identity.''
    Ms. DeVos, conversion therapy has been widely discredited 
and rejected for decades by every mainstream medical and mental 
health organization as neither medically or ethically 
appropriate. It has been shown to lead to depression, anxiety, 
drug use, homelessness, and suicide, particularly in LGBT 
youth. In fact, many of the leaders and founders of conversion 
therapy, including both religious ministries and mental health 
professionals, have not only publicly renounced it, but have 
issued formal apologies for their work and how harmful it has 
been to the individuals involved.
    Mr. Chairman, I would ask that this be included in the 
record.
    The Chairman. It will be.
    Senator Franken. Ms. DeVos, do you still believe in 
conversion therapy?
    Ms. DeVos. Senator Franken, I've never believed in that. 
First of all, let me say I fully embrace equality, and I 
believe in the innate value of every single human being, and 
that all students, no matter their age, should be able to 
attend a school and feel safe and be free of discrimination. 
Let's start there. Let me just say that your characterization 
of contributions I don't think accurately reflects those of my 
family. I don't----
    Senator Franken. You've been----
    Ms. DeVos. I would hope that you wouldn't include other 
family members beyond my core family.
    Senator Franken. In terms of throwing numbers around, you 
said that student debt has increased by 1,000 percent since----
    Ms. DeVos. Nine-hundred and eighty percent in 8 years.
    Senator Franken. I'm sorry?
    Ms. DeVos. Nine-hundred and eighty percent. That's almost 
1,000.
    Senator Franken. That's just not so. It's increased 118 
percent in the past 8 years.
    I'm just asking if you're challenging my figures, I would 
ask that you get your figures straight about education policy.
    That's why we want more questions, because we want to know 
if this person that we are entrusting or may entrust to be the 
Secretary of Education--if she has the breadth and depth of 
knowledge that we would expect from someone who has that 
important job.
    Thank you.
    The Chairman. Thank you, Senator Franken. I had as many 
disagreements with Secretary King as you apparently do with Ms. 
DeVos, and we're treating her in exactly the same way that we 
treated him, and that's what I would call the Golden Rule.
    Senator Franken. I did not hear one member of the committee 
ask to ask more questions. Here, virtually every member of the 
minority is asking to ask more questions, and that's a very 
substantial difference.
    The Chairman. We have--because you've got a nominee of the 
Republican Party. We're not going to treat a Republican nominee 
differently than we treat a Democratic nominee. We've had the 
same situation with both of President Obama's nominees.
    Senator Franken. I think----
    Senator Murray. Mr. Chairman, I do want to put in the 
record that Michael Leavitt had two rounds.
    The Chairman. Michael Leavitt was never the Education 
Secretary.
    Senator Murray. HHS. Rod Paige under Bush had 10-minute 
rounds. There is other precedent, so that's why my members 
really are asking for more questions.
    The Chairman. I appreciate that, Senator Murray, and I 
appreciate your saying that. I'm trying to be fair by treating 
Ms. DeVos in the same way we treated both of President Obama's 
Education nominees.
    We'll go next to Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. Ms. DeVos, thanks. It's good to see you 
again. I enjoyed our meeting in anticipation of this.
    I am really struck at the kind of reaction your nomination 
has elicited. Let me just ask some questions. Do you support 
public education?
    Ms. DeVos. Absolutely, Senator.
    Senator Cassidy. Man, that's amazing. Some would have us 
think that you do not. Do you believe that all children, all 
children, deserve to have the opportunity to receive quality 
education?
    Ms. DeVos. Absolutely, I do.
    Senator Cassidy. Do you support the rights of all children, 
regardless of income or race--by the way, this means a lot to 
me, this next one--to have the option to choose the school that 
meets their child's needs?
    Ms. DeVos. Absolutely, I do. And I commend you and your 
wife for the school that you've started that's specifically 
focused on dyslexic students.
    Senator Cassidy. I will tell you, by the way, that my son--
he's very bright--graduated from--speaking of dyslexia--
graduated from an inner city school, public school, and then 
graduated with honors from some fancy school in the Northeast. 
My daughter who has dyslexia--we were able to pay the tuition 
so that she can have her needs addressed, and not all parents 
can pay that tuition. It matters very much to me that a parent, 
regardless of her income, can get her child's needs addressed. 
Thank you for doing that.
    Just a few more. Do you support the belief that decisions 
affecting our children's education are best left to the States 
and locals to decide, to allow them to tailor the education 
policies and programs that best meet the needs of their 
students?
    Ms. DeVos. I do, indeed.
    Senator Cassidy. Oh, my gosh. Do you view the role of the 
U.S. Secretary of Education as an opportunity to advance your 
personal education views and agenda?
    Ms. DeVos. Not mine, personally. I'm going to, hopefully, 
be able to advance the President-elect's and also the views of 
many, many parents nationally.
    Senator Cassidy. As Secretary of Education, is it your 
intention to undermine our Nation's public education system?
    Ms. DeVos. Not at all.
    Senator Cassidy. As Secretary, will you carry out the 
implementation of Federal education laws in a way that reflects 
the very letter and intent of the law?
    Ms. DeVos. Indeed.
    Senator Cassidy. Do you intend to mandate, direct, coerce, 
or control any State, local school district, or school on any 
education program that is specifically prohibited by the 
Secretary in Federal law, one such example being Common Core?
    Ms. DeVos. No.
    Senator Cassidy. Do you intend to mandate, direct, coerce, 
or control any State, local school district, or school to 
require school choice policies, including private school 
vouchers or scholarships?
    Ms. DeVos. No.
    Senator Cassidy. Let's just clear that for the record. 
Next, you mentioned dyslexia. I am passionate about that. 
Twenty percent of us are dyslexics, 20 percent. I'm told that 
one out of four children of color by age four reads 
substantially--by fourth grade--reads substantially below grade 
level. That's important because we learn to read, and then we 
read to learn. If you've not learned to read, you're behind the 
eight ball. That is an issue I'm passionate about.
    As Secretary of Education, will you commit to working with 
me and others to find common ways to promote better awareness 
and understanding of dyslexia, and will you commit to working 
with me and this committee to develop better Federal education 
policies to ensure that dyslexic children and all students with 
differences have the resources they need?
    Ms. DeVos. I would look forward to that opportunity, 
Senator.
    Senator Cassidy. As Secretary, you may not agree to this 
one or not. Will you commit to working with me and this 
committee to develop new Federal policies that will ensure the 
early screening for dyslexia in school or universal screenings 
for all students in school to ensure that any learning 
differences are diagnosed early and that the appropriate 
services are provided to students?
    Ms. DeVos. I would look forward to exploring that with you 
to see whether that's a Federal role or whether that's best 
left to the States. I would look forward to that opportunity.
    Senator Cassidy. That is a fair answer. I have a couple 
more I could ask, but this meeting is going long. I will thank 
you for your answers, and I will yield back.
    Ms. DeVos. Thank you, Senator.
    The Chairman. Thank you, Senator Cassidy.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and in view of how 
fair you've been to me and to other members of the committee, 
it pains me to say this. I really wish we had a second round of 
questions, too. I really wish we had the tax returns from this 
nominee.
    I don't believe you are a precedent for this. When you 
became--when you were the nominee, you had been a Governor, you 
had been the president of a university. John King had been a 
school principal, had been the Commissioner of Education in the 
State of New York. Arne Duncan had been the superintendent of 
the Chicago Public Schools. Those were the experiences they 
brought to their committee hearing, and their records were 
well-known and well-established.
    There is no way in the period of time we have here that 
we're going to be able to elicit that level of background. I 
would ask that some consideration be given to our having 
additional questions and that the tax returns be made available 
to the committee.
    I want to thank Ms. DeVos for your willingness to serve and 
for being here, for your passion about education, for your 
family as well. I agree with you--and the committee members 
know this--that our public school system is not working for too 
many of our kids, particularly those living in poverty. That's 
utterly unacceptable, and the fact that we don't pay attention 
to it, the fact that we treat America's children like they're 
someone else's children is something that this generation is 
going to have to pay for in the future.
    Every kid in this country should have access to a great 
public school. I support parents' choices among high-quality 
public schools and charter schools, and it plays a critical 
role in education. The goal for me has never been school choice 
for its own end. The goal is high-quality public schools where 
every kid in every neighborhood can receive a great education.
    For a kid from a low-income family, there's no difference 
between--there may be a philosophical difference, but there's 
no practical difference between being forced to attend a 
terrible school and being given a chance to choose among five 
terrible schools. That's no choice at all, and it's certainly 
not a meaningful one. In Denver, we made a different deal, a 
deal that said we're going to create a public choice system, 
we're going to authorize charters, we're going to create 
innovation schools and strengthen traditional schools.
    Without exception, we demanded quality and implemented 
strong accountability, and as far as I can tell, Detroit and 
Michigan, to a degree, has followed exactly the opposite path. 
According to one analysis that said Detroit public schools--
and, by the way, it's not easy to figure this out because 
there's so little accountability in Michigan. The Detroit 
public schools averaged 9 percent--9 percent of the kids are 
proficient. The charter schools did a little better--14 percent 
of the kids are proficient.
    I'll stipulate that the charter schools are doing better, 
but that's a horrible outcome for everybody involved. According 
to an Education Trust report in 2013, the majority of charter 
schools in Michigan performed worse than the Detroit public--in 
Michigan--performed worse than the Detroit public schools when 
it came to African American students in eighth grade math. 
Nearly half of charter schools in Michigan ranked in the bottom 
quarter of all schools statewide.
    My question is this--not a false choice about whether we 
should have choice or whether we shouldn't have choice. We 
should have choice. What have you learned in the last 20 years 
of this work in Michigan that has changed your mind about what 
it is that kids need in America in the 21st century?
    Ms. DeVos. Senator, thank you for that question, and, first 
of all, I look forward to correcting some of the record 
regarding Detroit. It's really important, first of all, to put 
Detroit in context. In 1950, there were 1.8 million people 
living in the city of Detroit. Today, there's less than 
700,000--675,000, roughly. Anyone with any means in the city of 
Detroit with school-age children has basically left the city, 
and the students there today----
    Senator Bennet. I'm sorry. With respect, I'm not asking for 
a history of Detroit. What I'd like to know--what I asked about 
was the last 20 years of school reform that you've been so 
involved with in Michigan.
    Ms. DeVos. Yes, but you were referring specifically to the 
Detroit schools.
    Senator Bennet. Right.
    Ms. DeVos. The reality today is that 8 out of 10 students 
in Detroit are living in poverty. Nobody accepts that the 
results in Detroit overall are acceptable. There's clearly room 
for a lot more improvement. The reality is that more than half 
of the----
    Senator Bennet. What--I'm sorry. I'm sensitive because I'm 
not going to get a second round of questions. What have you 
learned about the failures of the Detroit public schools and 
Detroit charter schools that has informed your decisionmaking 
as the Secretary of Education? What went wrong there that's 
going to go right in cities all across America as a result of 
your philosophy about how we ought to move the country forward?
    Ms. DeVos. Actually, I believe that there's a lot that has 
gone right in Detroit and in Michigan with regard to charter 
schools, and the notion that there hasn't been accountability 
is just wrong. It's a faulty--it's false news. It's not correct 
at all. The reality is that charter schools in Michigan have 
been accountable, fully accountable, to their overseeing bodies 
and to the State. Since their history, 122----
    Senator Bennet. If that's true, why are there so many 
failing charter schools in Michigan?
    Ms. DeVos. A hundred and twenty-two charter schools have 
been closed since charter schools came into existence in 
Michigan. The reality today is that students attending charter 
schools in the city of Detroit are getting 3 months, on 
average, more learning than their counterparts in the 
traditional public schools.
    The recent legislation that was passed now actually brings 
all schools in Detroit under accountability, including the 
traditional schools. Heretofore, there's never been a 
traditional public school that's been closed due to poor 
performance. And, finally, for the people of Detroit, there is 
accountability across the board, and I'm pleased and thankful 
that that's the case.
    Senator Bennet. Mr. Chairman, I'm out of time, and I 
apologize.
    I'd like to say this, Ms. DeVos. Thank you for your 
willingness to do this, and I'd like to invite you to Denver, 
to the Denver Public Schools, if you'd be willing to come, to 
see what we're working on there.
    Ms. DeVos. I would love to do that.
    The Chairman. Thank you, Senator Bennet.
    Senator Young.

                       Statement of Senator Young

    Senator Young. Thank you, Mr. Chairman.
    Ms. DeVos, I thank you so much for putting yourself forward 
for this position. I think you'll make a fine Secretary of 
Education.
    I'd like to bring to your attention something we discussed 
in our office, and we spent quite a bit of time talking about 
teachers. You actually started talking about teachers, and it 
was encouraging here today that in your prepared remarks, you 
said we are blessed beyond measure by educators who pour 
themselves into their students.
    I shared with you--I'm a father of four young children, age 
10 and under, and I've really come to appreciate how essential 
it is to have prepared teachers, teachers who are empowered to 
do their very best work, and immersed in an atmosphere that's 
supportive. My objective, in part, in sitting on this committee 
is to try and play a constructive role in that process, 
hopefully, working with you. My wife--her family is full of 
teachers. In fact, a number of them are still teaching today in 
a low-income town in Indiana, Paoli, IN.
    I like to look to the evidence, and I'm always open to 
evidence from all comers. There's a 2007 study--not all that 
dated--by McKinsey and Company. They examined education systems 
all around the world to try and figure out what works, what 
makes for an effective education environment, and it wasn't the 
amount of money spent per student. In fact, we've tried that in 
this country. In 1970, the cost to educate a student was 
roughly $57,000. Adjusting for inflation, 40 years later, it 
was $165,000 per student. We know right there it's not money.
    What McKinsey found was that one of the most important 
factors was the quality of our teachers. I feel very strongly 
that we need to remove barriers to quality teaching and enable 
and equip these teachers to do their very best work. As someone 
who has studied this issue extensively, I'd just like to get 
your thoughts on how we might do that.
    Ms. DeVos. Thank you, Senator, and I did enjoy our meeting 
in your office as well, talking about some of these issues. 
First, let me re-state again that a quality teacher cannot be--
the importance of a quality teacher cannot be overstated, and 
the opportunities abound for empowering and re-empowering 
teachers in a new way, unleashing and unencumbering them with a 
lot of rules and regulations today that really prohibit and 
inhibit creativity and innovation with their students.
    When you take a step back and look at how we deliver 
education today, for the most part, it hasn't changed 
significantly in a century and a half, and yet the world has 
changed significantly. There's a great opportunity--and this 
goes for teachers of all kinds of schools and all varieties--
and that is to really empower them in a new way to do what they 
do best.
    I know that in a couple of the States, when charter schools 
were actually introduced, those that founded the charter 
schools were actually teachers who were wanting to express 
themselves in a different way and found a new opportunity to 
unleash from their previous circumstances.
    Senator Young. Thanks. In my remaining 90 seconds here, 
I'll just emphasize that I've spent the last 4 years in the 
House of Representatives, focused, in the main, on trying to 
ascertain whether or not our social support programs, those 
programs that are targeted toward helping the poor, the needy, 
the vulnerable, those who need a hand-up in society--whether or 
not those programs are working. What I discovered is there are 
roughly 80 of these programs, depending upon how you count 
them. Of those 80, only 12 have ever been rigorously evaluated, 
using the gold standard of evaluation, randomized control 
trial, multisite, and of those 12, only one has been found to 
meaningfully work, and even that one is a bit complicated.
    We need to apply evidence-based approaches to the education 
system in the same sort of way and just stare at the evidence 
and let it guide us accordingly, hopefully, in a bipartisan 
way. Do I have your assurance that you'll operate in this 
fashion? It's a threshold issue for me.
    Ms. DeVos. Absolutely, Senator. It's a great opportunity, 
and, if confirmed, I would look forward to working with you on 
that.
    Senator Young. Thank you.
    The Chairman. Thank you, Senator Young.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    Good evening, Ms. DeVos. Welcome to the committee. It is 
reputed, at least, that Sigmund Freud said there are times when 
a cigar is just a cigar. There are times when charter schools 
are just charter schools. When that's the case, everybody in 
this room supports them. Certainly, we have a very strong 
charter school community in Rhode Island.
    There are times when it appears that charter schools are 
used as a wedge to attack public education, and the signals of 
that tend to be that failing charter schools are protected 
compared to failing public schools, that the standards really 
aren't there. As I said, in Rhode Island, we demand a lot of 
our charter schools. They succeed very well. We are proud of 
them.
    I have read that 80 percent of charter schools in Michigan 
are run by for-profit entities, and most of them perform below 
the State average, suggesting that a failing charter school is 
automatically better than a successful traditional public 
school in the view of that system. We, in Rhode Island, 
wouldn't want to see that system moved into Rhode Island or 
moved to a national level.
    The second signal is when the charter school advocates fail 
to recognize--as I believe you have actually recognized--that 
there are ongoing costs and responsibilities that a traditional 
public school must continue to shoulder, even as students leave 
with their funding for charter schools. That is so clear a 
proposition now that the investment service, Moody's, has 
written about it and talked about the danger of a downward 
spiral because it actually adds cost when you have to maintain 
the public traditional school and the charter school until the 
system can adjust.
    Can you assure us that your desire for charter schools is 
sincere, and that as the Secretary of Education you will steer 
away from efforts to deny traditional public schools the 
funding that they need to manage the charter school transition, 
and that you will make sure that charter schools have to live 
up to their promise and you're not just going after traditional 
public schools when they are failing?
    Ms. DeVos. Senator, thanks for that question. Let me just 
begin by, again, stating that my advocacy and my orientation is 
really around parents and students and their choosing the right 
education for their children. When parents choose charter 
schools, they're doing so because they think that it's a better 
spot for their children. You have my commitment that I will be 
an advocate for all great schools, no matter their form, their 
version. I will be an advocate for parents being able to make 
those choices, because they're the primary educator for their 
children.
    Senator Whitehouse. I get that. The question is do you 
understand that when the parent makes that choice and the child 
moves to the charter school and the funding moves with the 
child, that leaves a funding gap at the previous school that it 
can't instantaneously or magically fill, that that is a real 
problem that Moody's respects and has----
    Ms. DeVos. Indeed. This is a good example of an issue that 
is best addressed at the State level by each State, 
acknowledging that each State will have unique circumstances in 
that regard.
    Senator Whitehouse. The problem is that it will be hard to 
address that at the State level if you make the Federal 
Department of Education a crusader for moving kids to charter 
schools without any recognition of the legacy costs of the 
public school system. If it is your intention to create a 
downward spiral, that is not solved by different State 
policies. That's where we need you, as Secretary of Education, 
to commit to recognize that there is this problem and that you 
will keep in mind not only the charter schools and the parents 
going there, but the traditional schools and the parents 
staying there.
    Ms. DeVos. Certainly, as we spoke in your office, this is 
an issue, and it's probably unique to some States more than it 
is to others. Again, I will refer back to the implementation of 
the Every Student Succeeds Act and the opportunities that 
States have to address the unique challenges of their States. I 
will be a crusader for parents and students and the quality of 
their education, not for specific systems and not for specific 
arrangements of how school is delivered.
    Senator Whitehouse. Let me ask you just one other quick 
question. For 10 years, you served on the Board of the Acton 
Institute for the Study of Religion and Liberty, which calls 
climate change unfounded and of undue concern. You and your 
husband have contributed to the Thomas More Law Center, touting 
itself as the sword and shield for people of faith, which has 
repeatedly promoted fake science, even going so far as to 
represent the Dover Area School District of Pennsylvania in a 
lawsuit over the adoption of a biology textbook including 
intelligent design.
    The S in STEM which everybody is for is science. If school 
districts around the country try to teach students junk 
science, will the Department of Education be with the students 
or with the political entities trying to force the junk science 
into the science programs?
    Ms. DeVos. Senator, it's pretty clear that the expectation 
is that science is taught in public schools, and I support the 
teaching of great science and especially science that allows 
students to exercise critical thinking and to really discover 
and examine in new ways. Science is to be supported at all 
levels.
    Senator Whitehouse. I would have liked, Mr. Chairman, to 
make some inquiries about Pell grants, to followup on some of 
these answers which were directed toward the question but maybe 
not completely responsive to the question, and to ask about 
where the department will go on the nightmarish problem of 
college for-profits that have taken these kids and robbed them 
of their education, robbed them of their money, and set them 
loose with a piece of paper that isn't worth anything.
    I believe this is--as I said, I'm very fond of you, and I'm 
very fond of this committee, and I don't recall ever being told 
that I could never have a second round in a hearing as a matter 
of principle before.
    The Chairman. Thank you, Senator Whitehouse.
    I'm going to take my 5-minute round now and go back to 
something that Ms. DeVos brought up and something that several 
Senators have brought up. I want to talk about the law that the 
President called the Christmas miracle that this committee 
produced which fixed No Child Left Behind. It was passed in 
December 2015.
    Under the current administration, the plans are, under the 
law we call ESSA--Senator Franken may have been the first 
person to suggest that--but under the plan----
    Senator Franken. May I ask a question on that?
    [Laughter.]
    The Chairman. No.
    Senator Franken. That was a joke.
    The Chairman. No. I should have known better. Yes, I know.
    The department is planning--is on a path to say to States, 
``Go ahead and''--every State will have to get their new title 
I plan in to get their Federal money and their title II plan, 
which is really a tremendous opportunity to take advantage of 
the innovation States have wanted and the flexibility that we 
have given them.
    The current administration is on a path to say to States,

          ``Get your plans in, and we'll approve them in the 
        spring or in the summer, and you can then implement the 
        plans in the school year that begins next year.''

    Is it your intention to continue on that path, on that 
schedule?
    Ms. DeVos. Absolutely, Senator, and if there's any 
confusion or question around transition, rest assured it would 
be a high priority, if confirmed, for me to ensure that the 
plan is adhered to and that the law is implemented as you all 
intended it.
    The Chairman. My guess is in most of our States, plans are 
being circulated among various groups, and people will--if you 
are confirmed--be looking for a signal from you to go ahead and 
get your plan in the spring and summer and we'll try to approve 
it or consider it so that you can get on in the next year.
    A second question is--as you can tell, we have some 
considerable differences of opinion here in the committee, and 
we resolved them well enough to pass a bill that I think 85 of 
us voted for. We worked out some difficult issues. We even put 
what Senator Murray likes to call guardrails on the States, and 
we even put some guardrails on the Secretary of Education, 
which my colleagues on the Democratic side may now think better 
of, that we did that.
    What is your attitude toward respecting the authority that 
Congress gives you and trying to implement the law according to 
the way it's written rather than trying to legislate from where 
you are? For example, you believe very strongly in giving low-
income parents more choices of schools. We debated that and 
only got 45 votes for Senator Scott's bill and for my bill, so 
it's not in the law. Would you then try to write a regulation 
to implement that through the U.S. Department of Education even 
though Congress couldn't do it?
    Ms. DeVos. Senator, it would be my goal, if confirmed, to 
implement laws as you intended them. I acknowledge that it's 
your role to write laws and pass laws, and it would be the 
department's role to implement as intended, and that's my 
commitment.
    The Chairman. No matter how strongly you feel about school 
choice, for example, you wouldn't be prepared to mandate 
Washington State or Tennessee to adopt a particular school 
choice plan.
    Ms. DeVos. No. I would hope I could convince you all of the 
merit of that in maybe some future legislation, but certainly 
not any kind of mandate from within the department.
    The Chairman. The Scholarship for Kids legislation that I 
proposed that got 45 votes, which wasn't enough, and that 
Senator Scott proposed, a more limited version which had to do 
with students with disabilities, basically said that we could 
take the $24 billion of Federal dollars we now spend--$24 
billion of the Federal dollars we now spend, and a State could 
choose to take its share of that money and turn it into $2,100 
scholarships and let it follow the students to the schools that 
the State chose. If the State did not approve of dollars going 
to private schools or religious schools that were accredited, 
it didn't have to do that. Or if a State did that, which I 
think 25 do, it could do that.
    In that case, it would allow the States to make the 
decision and the parents to make the choice rather than 
Washington giving an order that you have to do school choice. 
Is that the kind of school choice proposal that you would 
support or not?
    Ms. DeVos. Yes, absolutely, and we've seen a wide variety 
of approaches to school choice, including private school 
choice, in the now 25 States in which programs exist. It would 
really be dependent on each State's political realities and 
culture and how they wanted to approach that opportunity and 
that option. Or if they wanted to expand it, that would be 
another alternative as well.
    The Chairman. Thank you.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. I want to weigh 
in also that I hope that we will get additional opportunity to 
ask questions. I would like it to be not in writing but to give 
the American people a chance to hear the exchange and 
responses.
    Mr. Chairman, I also associate myself with the concerns 
raised by our Ranking Member regarding the holding of this 
hearing prior to receipt of the Office of Government Ethics 
plan for elimination of possible conflicts of interest.
    Ms. DeVos, you had the chance to answer questions already 
about your and your family's indirect investments in education-
related, for-profit companies, including Social Finance and 
Performant, which I understand to be a collection agency that 
specializes in student debt collection. I won't repeat those. 
Let me get to that ethics agreement that will be forthcoming.
    What decision you will need to make is whether to take 
advantage of Section 1043 of the Internal Revenue Code, which 
allows you to defer capital gains taxes on the sale of assets 
divested in order to comply with ethics rules. This provision 
can allow wealthy individuals to save hundreds of millions of 
dollars. It's why, when I became aware of this, that I joined 
Senators Whitehouse and Warren on this committee as well as our 
colleague, Senator Feinstein, in introducing a bill to close 
this loophole or at least limit the amount of capital gains 
that could be deferred to $1 million.
    Because we don't have your financial information yet from 
the Office of Government Ethics, my question to you is: Are you 
planning on taking advantage of this tax loophole?
    Ms. DeVos. Senator, thank you for that question. Let me 
just re-state again that I look forward to the ethics agreement 
finalization with the Office of Government Ethics and am 
committed to ensuring that I have no conflicts and will go 
forward with no conflicts. With respect to your specific 
question, I do not intend to take advantage of that loophole. 
I've already made that conclusion, that decision. In fact, it 
probably would be useful to note here that, again, if 
confirmed, I will only take a salary of $1 so I can be 
official, but I don't intend to take a salary, either.
    Senator Baldwin. I also listened carefully to your opening 
statement and your exchange with Senator Franken related to 
your sizable donations to a number of anti-LGBT organizations 
that have been associated with advocacy for the discredited 
practice of conversion therapy. I was heartened by your 
response, I will say. I would note that these same 
organizations, anti-LGBT organizations, also have been hostile 
to nondiscrimination protections, issues like adoption, 
marriage equality.
    Given the alarm that parents have expressed to me about 
these donations to anti-LGBT organizations, I guess I want to 
ask--I assume that there are LGBT students and their parents 
watching tonight. What would you say to them to assure them 
that you're going to use your position as Secretary to support 
LGBT students or students with LGBT parents?
    Ms. DeVos. Thank you, Senator. Let me just re-state again 
that I embrace equality, and I firmly believe in the intrinsic 
value of each individual, and that every student should have 
the assurance of a safe and discrimination-free place to become 
educated. I want to re-state those principles, those values for 
me.
    Let me just comment to the contributions that you've 
referred to again and suggest that you may be confusing some 
other family members in some of those contributions and also 
looking at contributions from 18 or 20 years ago. I just want 
to again refer to what I just said about my approach. As a mom, 
I just can't imagine having a child that would feel 
discriminated against for any reason, and I would want my child 
in a safe environment.
    Senator Baldwin. I note that I have run out of time, and, 
Mr. Chairman, I have many more questions that I would like to 
propound.
    I will say, Ms. DeVos, if you think that there is--and 
we've been fairly general, given our restricted time, about the 
issue of charitable contributions, if you will, or 
contributions to these anti-LGBT advocacy organizations. If you 
feel like there has been a family member who has contributed, 
and you're being identified, and that the public record is 
incorrect, please, in writing, followup. I have certainly seen 
information quite to the contrary.
    The Chairman. Thank you, Senator Baldwin.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman. Thank you for 
holding the hearing, and I thank the Ranking Member as well.
    Ms. DeVos, thank you for being responsive, articulate, 
informed, and, in my view, specific.
    I suppose, Mr. Chairman, all members could submit any 
specific questions they have for the record, and we could have 
a time period on that, and then if they have any concern, they 
could always speak on the Senate floor.
    Thank you for coming by my office. We had a nice visit. 
I'll let you know that way back, I had the opportunity to teach 
also while trying to put out a newspaper on the west side of 
Phoenix, not Kansas, but Phoenix. At any rate, I know you fully 
understand that a one-size-fits-all education system just does 
not work. You just said that in your testimony.
    I told you that I held a roundtable discussion in Kansas at 
Washburn University in Topeka with 12 college presidents--we 
got all of them except a few--and 12 business stakeholders very 
important to those universities to discuss higher education and 
workforce development, given the fact that we are going to 
attempt to pass a higher education bill. In particular, I heard 
from the higher education leaders about the impact of Federal 
programs, obviously, policies, obviously, but more especially 
regulations on Kansas institutions of higher education.
    During our meeting last month in my office, I shared with 
you an information chart--I need a bigger chart. It's like the 
guy who said he needed a bigger boat with a shark coming after 
him. Maybe that's not a proper allegory. At any rate, these are 
34 topics or areas of Federal regulations, some of them very, 
very, very important. The collective judgment was that they 
were so intrusive, so expensive, so time consuming that they 
had to get an Office of Compliance just to look at the Federal 
regulations, and then they assigned bad news bears to go tell 
all the various departments that make up the Johnson County 
Community College, which, by the way, has the highest 
enrollment of any college or university in Kansas, more than 
the Jayhawks, more than the Wildcats, and more than the 
Shockers.
    These 34 areas of Federal regulations, so costly and 
impactful to the school, basically indicate that we need to 
work together to eliminate many of these burdensome regulations 
that hinder the institutions of higher education's main goal to 
educate our students effectively and efficiently. As you know--
and I think I would have agreement on the other side of the 
dais as well--regulations are one of the key areas this 
committee will focus on as we work on reauthorization of the 
Higher Education Act.
    Will you be a partner in addressing many of the time-
consuming regulations?
    Ms. DeVos. Senator, thanks for that question, and thanks 
for the meeting in your office. I appreciate seeing the chart 
again. As I'm a visual learner, I really appreciate that one in 
particular. Yes, I can commit to you that, if confirmed, I will 
look forward to working with you and this committee on that act 
and on the regulations that you've referred to, and wanting to 
help free our institutions of higher learning to the greatest 
extent possible to do what they do best.
    Senator Roberts. Being an ombudsman for Kansas education, 
along with my fellow Senator, it's tough when you try to go 
directly to the person who is in charge of that department, 
namely you. I tried that before, sitting down across from 
President Obama and complaining about regulations to learn of 
his Executive order to make sure every department ascribed to a 
cost-benefit yardstick, if you will, but that didn't happen. 
The person in charge who was supposed to get back to me was his 
top gun, his right arm, Dennis. Dennis was in charge of war and 
peace and other things.
    I'm going to recommend that maybe we ought to do it 
regionally. Obviously, we've had people from rural areas, urban 
areas. It's going to be terribly important that we get to 
somebody that can actually see the problem and report back to 
you or to somebody else in your department. You can't do all 
this. I don't know anybody who can. At least, when we have a 
real problem with the 12 universities or, for that matter, 5, 
6, or even 1, we could say, ``Hey, here's a regulation that 
just doesn't make sense. Can we at least address it?'' Maybe we 
can tweak it. Maybe we can get rid of it, or maybe we can do 
better.
    I hope that you can work out some kind of SWAT team, if you 
will, with regards to over-regulation, because that really was 
the No. 1 issue that I heard. Thank you.
    Ms. DeVos. Thank you, Senator. That sounds like a great 
idea.
    The Chairman. Thank you, Senator Roberts.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman.
    If Senator Alexander decided to allow us more than a meager 
5 minutes of questions, Ms. DeVos, do you have anywhere to be 
tonight? Would you be able to stick around and answer those 
questions?
    Ms. DeVos. I am going to defer to the Chairman on this.
    Senator Murphy. I assume you probably don't have other 
obligations. Let me just count myself in. This is a real shame, 
this rush job, this inability to allow the public to see this 
debate, the imperative to get this hearing in before we have 
all the information. It really violates the best traditions of 
this committee, and it suggests that this committee is trying 
to protect this nominee from scrutiny, and I hope we would 
reconsider.
    Ms. DeVos, let me try to rush through these questions in 
the time that I have. Your family has been investors in a 
company called K12. It's a for-profit online charter operator. 
It gets about 80 percent of its money from the Federal or State 
taxpayers, and it paid its CEO over a million dollars in the 
first year. It's made millions and millions of dollars in 
profit.
    I could go through a long litany of examples in which 
people have made their fortune off of public education 
dollars--a charter school principal in Orlando who got a 
$519,000 payout when her school was closed for poor 
performance. I guess my question is simple. Do you support 
companies and individuals profiting from public education 
dollars that is essentially taking money away from students to 
pay salaries for CEOs in return for investors?
    Ms. DeVos. Senator, thank you for that question. Let me 
just say that when it comes to education, what's important is 
what the outcomes are, what the achievements are, and I don't 
think the delivery mechanism is the issue as much as it is are 
students receiving the benefit of a great education.
    Senator Murphy. Have you met many principals in Detroit 
that say that they have enough, that they don't need more?
    Ms. DeVos. I can't really answer that question. I haven't 
asked them specifically if they have enough.
    Senator Murphy. If we can't agree that folks shouldn't get 
rich off of schools, then maybe we can agree that they 
shouldn't be getting rich off of terrible schools. You and I 
had the chance to talk in my office about the accountability 
regulations that were a big part of the underlying new Federal 
education law. The department has issued final regulations that 
incorporate comments of basically everyone in the education 
field to make sure that to the extent public dollars are 
flowing to private schools that they meet real standards. These 
accountability regulations are supported by the Council of 
Chief State School Officers, the School Superintendents 
Association, civil rights groups, teachers unions.
    Can you assure this committee that you're going to 
implement those accountability regulations to make sure that 
all schools are performing and not throw ESSA implementation 
into chaos for States and districts around the country? Are you 
going to implement those accountability regulations?
    Ms. DeVos. Senator, let me just re-state again that 
accountability is highly important, and I support 
accountability for all schools, which is why I supported the 
most recent legislation in Michigan that is now holding all 
schools, including traditional public schools, accountable for 
performance. I will continue to support accountability, and I 
will continue to support the implementation of Every Student 
Succeeds Act as Congress has intended it.
    Senator Murphy. Let me ask you again. Are you going to 
support the implementation of the existing regulations, again, 
supported by a wide cross-section of the educational community, 
that requires schools to come up with their own accountability 
standards, State- and local-based, that will require that all 
schools meet some basic performance standards? I'm asking you a 
specific question about this existing regulation and whether 
you're willing to support it or whether you're going to use 
your position to undermine it or to change it.
    Ms. DeVos. As would be tradition with a change of 
administrations, I will look forward to reviewing that, and, 
again, I will re-state my orientation to pro-accountability and 
pro-responsibility to parents and taxpayers.
    Senator Murphy. That's going to raise a lot of questions 
for administrators and schools superintendents who are now 
trying to implement that regulation. One final question. Do you 
think that guns have any place in or around schools?
    Ms. DeVos. That's best left to locales and States to 
decide. If the underlying question is----
    Senator Murphy. You can't say definitively today that guns 
shouldn't be in schools?
    Ms. DeVos. I will refer back to Senator Enzi and the school 
that he was talking about in Wapiti, WY. Probably there--I 
would imagine that there's probably a gun in the school to 
protect from potential grizzlies.
    Senator Murphy. If President Trump moves forward with his 
plan to ban gun-free school zones, will you support that 
proposal?
    Ms. DeVos. I will support what the President-elect does. 
Senator, if the question is around gun violence and the results 
of that, please know that I--my heart bleeds and is broken for 
those families that have lost any individual due to gun 
violence.
    Senator Murphy. I look forward to working with you, but I 
also look forward to you coming to Connecticut and talking 
about the role of guns in schools.
    The Chairman. Thank you, Senator Murphy.
    Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    Thank you, Ms. DeVos, for taking the time to be here and 
your willingness to serve. A couple of questions I have as it 
relates to kids who are consistently attending schools that are 
underperforming. If you look at the outcomes of the lives of 
the children, which is very important and should be a central 
part of this conversation that we're having, how is the 
education system that our kids are involved in preparing them 
for the future that we hope we all get to live, a future that 
includes achieving the American dream?
    When we look at the underperforming schools, and 
specifically schools in the rural areas as well as in the inner 
cities, many schools are still underperforming. Kids that come 
from those underperforming schools consistently have 
significantly higher rates of incarceration. They have 
significantly higher rates of unemployment.
    The importance of education can't be emphasized enough for 
the quality of life that the child will experience and the 
responsibilities that the government will bear because of that 
poor education system. What we can do to make sure that there's 
access to quality education in every zip code should be of 
paramount importance for this Nation, for this committee, as 
well as the entire Senate. I'd love to hear your thoughts on 
that before I get into the Perkins CTE Programs.
    Ms. DeVos. Senator, thank you for that question and for the 
thought and your observations and experience behind it. I 
couldn't agree more that we have continued to do a disservice 
to so many young people in our country by continuing to force 
them to attend schools that are simply not working for them or 
not working for many. The fact that 1.4 million students drop 
out of school every year--that's one every 42 seconds--it's a 
human tragedy when you think about the lost human potential 
and, as you've mentioned, essentially a pipeline to prison for 
so many of those students.
    That's why I continue to be an advocate for allowing 
parents and empowering parents with the opportunity to make the 
right choices for their children, and I understand that there's 
a full range of those choices based on the realities of a 
State. That's why States really need to grapple with this issue 
in a meaningful way. If confirmed, I hope to be able to talk 
with Governors and legislators about opportunities and options 
that they have to address the needs of the students to whom you 
have referred.
    Senator Scott. Thank you very much. There's another part of 
the education apparatus that doesn't get enough good attention. 
Often we think of technical schools as a subpar choice, as the 
place you go if you can't get into a 4-year school. It's as if 
we have this bachelor's of diction that may not be in the best 
interest of the student. I hope that you are committed to 
taking a serious look at encouraging and providing great 
support for high-quality technical schools.
    I know in South Carolina, the importance of our technical 
schools can't be overemphasized. When we think about the high-
tech manufacturing hub, it really, for us in South Carolina, 
starts in our technical schools that create the hub, in all 
honesty. The sectors that we benefit from, in the 
transportation sector, from the Boeing 9,000 jobs in 
Charleston, SC, to the BMWs, the Mercedes, the Michelins, the 
Bridgestones--our technical schools are the reason why we're 
succeeding on the high-tech manufacturing jobs.
    One of the things I've noted is that we probably need to 
have a robust conversation about making sure that there's 
flexibility in the course work at some of the technical 
schools, because there's almost 6 million openings in this 
country. Seventy-five percent do not require a college degree, 
which means that if we can align what's available in the 
marketplace with the training in the technical schools, we 
might solve a major part of our unemployment.
    Ms. DeVos. Absolutely, Senator. Students, as they 
anticipate higher education, really need to have a full menu of 
options shared with them, and they need to know and understand 
where the opportunities are, what the costs are for the various 
avenues that they might take, and, certainly, technical 
schools, community colleges, apprenticeships--there's really a 
wide variety of alternative pathways to a really great future 
if students are really made aware of them.
    Senator Scott. I'm about out of time, Mr. Chairman.
    Just to finish, you may be familiar with the 529 plans that 
provide--I think you can put about $50,000 into an account for 
college education. Five-hundred and twenty-nine plans could be 
a wonderful apparatus to be able to pay for or subsidize some 
of the costs, even K through 12. I would love for us to have a 
longer conversation on that.
    Ms. DeVos. I would look forward to that, Senator. Thank 
you.
    Senator Scott. Thank you, ma'am.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Scott.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman. As the only other 
party to the so-called precedent of we don't have a second 
round, I asked my staff to actually pull the record from the 
hearing we had with King, and you said when you called on me, 
``I think we have time for a second round. Senator Warren, you 
can be the first in the second round.'' It just turns out I was 
the only one who stayed and had questions.
    The Chairman. That's why we had time.
    Senator Warren. I understood that precedent meant that 
anybody who had questions for a second round could stay and ask 
them. While we're doing precedents, I also understand that the 
precedent was that President Obama's nominees that came before 
this committee had all filled out their ethics forms and that 
those were available before we had a hearing so that we would 
have a chance to ask questions about them in public. I'm a 
little confused about what precedent means here.
    Ms. DeVos, many of my Democratic colleagues have pointed 
out your lack of experience in K-12 public schools. I'd like to 
ask you about your qualifications for leading the Nation on 
higher education. The Department of Education is in charge of 
making sure that the $150 billion that we invest in students 
each year gets into the right hands and that students have the 
support they need to be able to pay back their student loans. 
The Secretary of Education is essentially responsible for 
managing a trillion-dollar student loan bank and distributing 
$30 billion in Pell grants to students each year. The financial 
futures of an entire generation of young people depend on your 
department getting that right.
    Ms. DeVos, do you have any direct experience in running a 
bank?
    Ms. DeVos. Senator, I do not.
    Senator Warren. Have you ever managed or overseen a 
trillion-dollar loan program?
    Ms. DeVos. I have not.
    Senator Warren. How about a billion-dollar loan program?
    Ms. DeVos. I have not.
    Senator Warren. OK. No experience managing a program like 
this. How about participating in one? It's important for the 
person who is in charge of our financial aid programs to 
understand what it's like for students and their families who 
are struggling to pay for college.
    Ms. DeVos, have you ever taken out a student loan from the 
Federal Government to help pay for college?
    Ms. DeVos. I have not.
    Senator Warren. Have any of your children had to borrow 
money in order to go to college?
    Ms. DeVos. They have been fortunate not to.
    Senator Warren. Have you had any personal experience with 
the Pell grant?
    Ms. DeVos. Not personal experience, but certainly friends 
and students with whom I've worked that have----
    Senator Warren. You have no personal experience with 
college financial aid or management of higher education. Ms. 
DeVos, then, let's start with the basics. Do you support 
protecting Federal taxpayer dollars from waste, fraud, and 
abuse?
    Ms. DeVos. Absolutely.
    Senator Warren. Oh, good. Do I, because now we all know 
that President-elect Trump's experience with higher education 
was to create a fake university, which resulted in his paying 
$25 million to students that he cheated. I'm curious about how 
the Trump administration would protect against waste, fraud, 
and abuse at similar for-profit colleges.
    Here's my question. How do you plan to protect taxpayer 
dollars from waste, fraud, and abuse by colleges that take in 
millions of dollars in Federal student aid?
    Ms. DeVos. Senator, if confirmed, I will certainly be very 
vigilant in----
    Senator Warren. No, I'm asking how.
    Ms. DeVos. The individuals----
    Senator Warren. How are you going to do that? You said 
you're committed.
    Ms. DeVos. The individuals with whom I work in the 
department will ensure that Federal monies are used properly 
and appropriately, and I will look forward to working with----
    Senator Warren. You're going to subcontract making sure 
that what happened with universities that cheat students 
doesn't happen anymore.
    Ms. DeVos. No, I didn't say that.
    Senator Warren. You're going to give that to someone else 
to do? I just want to know what your ideas are for making sure 
we don't have problems with waste, fraud, and abuse.
    Ms. DeVos. I want to make sure we don't have problems with 
that as well, and, if confirmed, I will work diligently to 
ensure that we are addressing any of those issues.
    Senator Warren. Let me make a suggestion on this. It 
actually turns out that there are a whole group of rules that 
are already written and are there, and all you have to do is 
enforce them. What I want to know is will you commit to 
enforcing these rules to ensure that no career college receives 
Federal funds unless they can prove that they are actually 
preparing their students for gainful employment and not 
cheating them?
    Ms. DeVos. Senator, I will commit to ensuring that 
institutions which receive Federal funds are actually serving 
their students well.
    Senator Warren. You will enforce the gainful employment 
rule to make sure that these career colleges are not cheating 
students?
    Ms. DeVos. We will certainly review that rule and see 
that----
    Senator Warren. You will review it? You will not commit to 
enforce it?
    Ms. DeVos [continuing]. See that it is actually achieving 
what the intentions are.
    Senator Warren. I don't understand about reviewing it. We 
talked about this in my office. There are already rules in 
place to stop waste, fraud, and abuse, and I don't understand 
how you cannot be sure about enforcing them. Swindlers and 
crooks are out there doing back flips when they hear an answer 
like this. If confirmed, you will be the cop on the beat, and 
if you can't commit to use the tools that are already available 
to you in the Department of Education, then I don't see how you 
can be the Secretary of Education.
    I look forward to having a second round of questions.
    The Chairman. Thank you, Senator Warren.
    Senator Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, I 
could not help but think that if my friends on the other side 
of the aisle had used their time to ask questions rather than 
complaining about the lack of a second round, they each would 
have been able to get in a second question, and I now have just 
used 15 seconds of my time to make that point.
    Ms. DeVos, first of all, let me say that I have no doubt 
that you care deeply about the education of all children, and I 
say that despite the fact that you and I do not agree on all 
the issues. Given your lifelong work and commitment to 
education, any suggestion such as was made earlier that your 
nomination is linked to your political contributions is really 
unfair and unwarranted, and I just wanted to say that for the 
record.
    I now would like to move on to some questions about how you 
view the Federal role in education versus the State and local 
role. I want to put aside the D.C. Opportunity Scholarship 
Program, because Congress' relationship to the District of 
Columbia is unique, and I want to ask you at what level of 
government do you believe that decisions about charter schools 
and vouchers should be made. Is that a Federal role, or is that 
a State role?
    Ms. DeVos. Thank you, Senator, for that question. Let me 
just say I really enjoyed the conversation we had in your 
office. Let me respond to your question about Federal versus 
State and local role by saying I absolutely support the fact 
that it is a State role and State decision what kind of 
offering there might be with regard to choices in education.
    As we discussed in your office, Maine has some unique--it 
has a unique situation with students attending school on 
islands and in rural areas, and to suggest that the right 
answer for Maine is the same as the right answer for Indiana or 
any other State is just not right, and I would not support a 
Federal mandate and a Federal role in dictating those.
    Senator Collins. I'm glad to hear that. I have heard 
repeatedly from school officials, whether it's superintendents, 
teachers, or school board members, that the single most 
important action that the Federal Government could take would 
be to fulfill the promise of the 1975 Individuals with 
Disabilities Education Act to fund 40 percent of the additional 
cost of educating a special needs child. It's been many years 
since that law was passed. We have never come close to the 40 
percent.
    Would you commit to taking a look at the funding of the 
department to see if we could do a better job of moving toward 
fulfillment of that promise? That is an action that would help 
every single school district in this country.
    Ms. DeVos. Senator, absolutely, I would commit to that, if 
confirmed, and I actually think this is an area that could be 
considered for an approach that would be somewhat different in 
that maybe the money should follow individual students instead 
of going directly to the States. Again, that's something that 
we could discuss and that I would look forward to talking about 
with the members of this committee.
    Senator Collins. Another of my concerns, having worked at a 
college level for a period of time, is the low rate of college 
completion. There's nothing worse than a student being saddled 
with educational debt and not earning the credential or the 
degree that would enable that student to pay off that debt. I'm 
a strong supporter of the Federal TRIO Program, which helps 
prepare students for higher education and helps to raise 
aspirations, particularly of children who come from families 
without experience in higher education.
    Do you have any thoughts on how we can do a better job in 
supporting college success programs so that we can ensure that 
students are able to complete their degrees or earn their 
credentials?
    Ms. DeVos. Senator, thank you. I do think that we can do a 
better job with preparing students, informing them before they 
enter college, and I know the TRIO Program helps to mentor and 
prepare students that might not otherwise have an opportunity. 
That's a very important and valid one to look at--perhaps is 
there another and more effective way to advance that or to 
replicate that or use that in a new way to help increase the 
participation of students that may not otherwise pursue higher 
education and complete it.
    Senator Collins. Thank you.
    The Chairman. Thank you, Senator Collins.
    Senator Hassan.

                      Statement of Senator Hassan

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Murray. I certainly look forward to working on this committee 
with all of you and I appreciate the opportunity to 
participate.
    Ms. DeVos, it's nice to see you again. Thank you for being 
here today and your family as well.
    I think all of us here share a commitment to public 
education and understand the essential nature to our democracy. 
I would echo my colleagues' call for another round, at least, 
of questioning, because our job here is not just to talk about 
ideas, but actually to drill down to how things actually work 
in practice. I want to talk about one of those situations that 
we began to touch on in my office when we met. It echoes a 
little bit of what Senator Collins was just talking about in 
terms of a full commitment to our students with disabilities 
and what Senator Cassidy was talking about in terms of access 
to quality education for children with dyslexia.
    My son, Ben, experiences very severe physical disabilities. 
He has cerebral palsy. He can't speak. He can't use his fingers 
for a keyboard. He doesn't walk. But he's smart and the best 
kid on Earth, if I do say so myself. He got a quality public 
education at our local school. He's a graduate of Exeter Area 
High School in Exeter, NH. The reason he got there was because 
countless advocates and champions, before the Hassan family, 
worked so hard to make sure that he had the right to that 
education.
    I am concerned that when students who experience 
disabilities receive a publicly funded voucher to attend a 
private school, they often don't receive adequate resources 
and, in some cases, have to sign over their legal rights under 
the Individuals with Disabilities Education Act. Do you think 
that families should have a recourse in the courts if their 
child's education does not adequately meet his or her needs, 
whether it's at a school where they get a voucher or in a more 
traditional public school?
    Ms. DeVos. Thank you, Senator, for that question, and, 
again, I appreciated our meeting earlier last week. Let me 
begin by saying I appreciate and am thankful that you've had 
the opportunity with your son, Ben, to find the right setting 
for him, and I would advocate for all parents to be able to 
have that opportunity to choose the right school for their 
child and----
    Senator Hassan. I actually had the opportunity to send him 
to the same public school that my daughter went to, because the 
law required that school provide him resources that were never 
provided before that law was passed, because they're hard. The 
question is will you enforce the law with regard to kids with 
disabilities if a voucher program did allow them to go 
someplace else, and the school said, ``It's just too expensive. 
We don't want to do it.''
    Ms. DeVos. There are great examples of programs that are 
already underway in States. Ohio has a great program, and, in 
fact, Sam and his mom are here today, a beneficiary of the Jon 
Peterson Special Needs Scholarship Program.
    Senator Hassan. I understand that, and because my time is 
limited, excuse me for interrupting. What I'm asking you is--
there is at least one voucher program in Florida, the McKay 
voucher program, which makes students sign away their rights 
before they can get that voucher. That is fundamentally wrong, 
and I think it will mean that students with disabilities cannot 
use a voucher system that a department under your leadership 
might start.
    I want to know whether you will enforce and whether you 
will make sure that children with disabilities do not have to 
sign away their legal rights in order to get a voucher should a 
voucher program be developed.
    Ms. DeVos. I'd love to comment to the McKay Scholarship 
Program in Florida, where I believe today, 31,000 students are 
taking advantage of it, and 93 percent of the parents that are 
utilizing that voucher are very, very pleased----
    Senator Hassan. I'm sorry----
    Ms. DeVos [continuing]. As opposed to 30-some percent 
that----
    Senator Hassan. I'm sorry, but that isn't the question I 
asked. For right now, I'm going to move on to one final 
question. I really do wish we had a second round, because 
there's a lot here that is critical to our children, especially 
with disabilities. With all due respect, Ms. DeVos has not 
answered my question.
    The other question I had--again, because we don't have a 
second round, I'm trying to followup on an answer you gave 
earlier to some of my colleagues. I understand that there is a 
foundation, the Edgar and Elsa Prince Foundation, which I take 
it is a foundation named for your parents. Is that correct?
    Ms. DeVos. It's my mother's foundation, yes.
    Senator Hassan. It's your mother's foundation, and you sit 
on the board.
    Ms. DeVos. I do not.
    Senator Hassan. You do not?
    Ms. DeVos. No.
    Senator Hassan. OK. When it made its over $5 million 
donation to Focus on the Family, you didn't know anything about 
it?
    Ms. DeVos. My mother makes the decisions for her 
foundation.
    Senator Hassan. Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    Ms. DeVos, thank you for agreeing to serve. A lot of 
Americans watch what goes on here and say, ``Never me. I'll 
never go through it,'' and most of us say that after an 
election cycle. It's rare to find somebody who's full monty. 
You don't have to do this. That's apparent. You didn't have to 
choose education as your life's ambition, but you did.
    I thank you for the investment that you made for all the 
kids that have been impacted, for the unbelievable statistics 
that you know about Florida or about wherever--and I'm sure you 
and the Senator from Minnesota can come to an agreement on what 
the numbers were that he was talking about. I've sat here, and 
I remember in my first election, I went in to get the support 
of educators, and I was 10 minutes into what looked to be a 30- 
or 45-minute question and answer, and after 10 minutes, I 
looked and said, ``Are there any questions that deal with kids 
or outcomes?'' And they said no. So I got up and left.
    We can ask you all sorts of questions about you, 
personally, and what you've done. You came into my office, and 
before I ever asked a question, in several minutes, you 
convinced me that you were passionate about making sure that 
every child had the opportunity for a successful education, and 
from that, that every child that got that education would have 
an opportunity to reach for the American Dream of a life that's 
unlimited, an opportunity that's unlimited. You convinced me 
without me asking a question.
    I've only got one question today. Why is it so difficult 
for us to figure out how to focus on outcomes versus to get so 
hung up on process?
    Ms. DeVos. Senator, that's a very good question, and we 
could have a very robust debate in this room about that. Human 
tendency is to protect and guard what is, because change is 
difficult, and yet we see the fact that there are millions of 
students who are simply not getting an equal opportunity for a 
quality education. We try to tinker around from the top, and we 
try to fix things, but it becomes more about the system, I'm 
afraid, than it does about what's right for each child.
    I thank you for your support and your encouragement around 
the notion that every child should have the opportunity--every 
parent should have the opportunity on behalf of their child to 
choose the right educational environment for them. I'm hopeful 
that if we can continue having a robust conversation about this 
that we will talk about the great schools that our children 
have the opportunity to go to 10 years from now, many of which 
may not even exist today or look very different than what 
exists today, because the opportunity to innovate in education 
is virtually unlimited and has been really untested to a large 
extent. I'm very hopeful that we'll have that opportunity and 
that opportunity for that kind of conversation.
    Senator Burr. We will, and I hope that the committee sees 
it in their actions to make sure that you're at the helm of the 
Department of Education. As I look across America and as I look 
across the world, I see an age where technology is going to 
impact things that we didn't even dream about 5 years ago, that 
what we've seen happen to our PDAs is now going into 
healthcare. It's going to drive manufacturing.
    I still remember my father at 90 years old looking at me 
just about 5 years ago, 6 years ago, and saying, ``I don't 
understand how a fax machine works.'' You know what? I never 
was able to explain to him, but that didn't limit my use of it 
and my belief that it served an important purpose. Education is 
going to change drastically. What's most important is to have 
somebody passionate at the top, concerned about every child and 
every child's opportunity. For that, I'm grateful you're here.
    I yield.
    Ms. DeVos. Thank you, Senator.
    The Chairman. Thank you, Senator Burr.
    Senator Kaine.

                       Statement of Senator Kaine

    Senator Kaine. Thank you, our committee leadership, and 
thank you, Ms. DeVos.
    How much information do you have about the finances of the 
President-elect, his family, or Trump-related organizations?
    Ms. DeVos. I don't have any of that information, Senator.
    Senator Kaine. So, I take it that you won't have any way of 
knowing when asked by the President to take official action in 
your capacity as Secretary how those actions might affect his 
personal financial situation.
    Ms. DeVos. I'm not sure I could comment on that.
    Senator Kaine. This isn't theoretical. He owns a 
university. It's relevant to assessing the wisdom of an 
education policy proposal to know how that proposal might 
affect the President's personal finances. Do you disagree with 
me?
    Ms. DeVos. The President-elect has taken steps to ensure 
that his----
    Senator Kaine. Can I ask--do you disagree with me?
    Ms. DeVos. Can you state your question again?
    Senator Kaine. Yes. It's relevant to assessing the wisdom 
of an education policy proposal to know how the proposal might 
affect the President's personal finances. Do you disagree with 
me?
    Ms. DeVos. I don't disagree with you.
    Senator Kaine. Thank you. The nation deserves a Secretary 
of Education who is a champion of kids, parents, State and 
local control, and outcomes, and I also think the Nation 
deserves a Secretary who is a champion of public education. In 
a 2015 speech on education, you were pretty blunt, ``government 
really sucks,'' and you called the public school system a, 
``dead end.'' In order to clarify, you never attended a public 
school, K-12 school, did you?
    Ms. DeVos. Correct.
    Senator Kaine. Your children did not, either, correct?
    Ms. DeVos. That's correct.
    Senator Kaine. And you've never taught in a K-12 public 
school, correct?
    Ms. DeVos. I did not, but I've mentored in one.
    Senator Kaine. I worry about the effect of a leader who 
believes government sucks on the morale of the workforce. 
Teachers and others do better when their morale is high. Would 
you agree with me?
    Ms. DeVos. Absolutely, and I support great teachers.
    Senator Kaine. The attitude of a leader of an organization 
matters a lot to the morale of the workforce. Would you agree 
with me on that?
    Ms. DeVos. Absolutely, and just with reference to the quote 
that you made----
    Senator Kaine. I would like to introduce that for the 
record. I don't have other questions about it, and I have a 
very limited amount of time.
    I want to move on to another quote. You and your husband 
spoke at a conference a number of years ago, and your husband 
said--this is not attributed to you, but you were together at 
the conference, if what I read is correct--``the church has 
been displaced by the public school as the center for activity, 
the center of what goes on in the community.'' Thomas Jefferson 
didn't view public education as contrary to or competitive with 
church or religion. Do you?
    Ms. DeVos. I do not.
    Senator Kaine. Do you think that K-12 schools that receive 
government funding should meet the same accountability 
standards, outcome standards?
    Ms. DeVos. All schools that receive public funding should 
be accountable, yes.
    Senator Kaine. Should meet the same accountability 
standards.
    Ms. DeVos. Yes, although you have different accountability 
standards between traditional public schools and charter 
schools.
    Senator Kaine. I'm really interested in this--should 
everybody be on a level playing field. Public, charter, or 
private K-12 schools, if they receive taxpayer funding, they 
should meet the same accountability standards.
    Ms. DeVos. Yes, they should be very transparent with the 
information, and parents should have that information first and 
foremost.
    Senator Kaine. If confirmed, will you insist upon that 
equal accountability in any K-12 school or educational program 
that receives Federal funding, whether public, public charter, 
or private?
    Ms. DeVos. I support accountability.
    Senator Kaine. Equal accountability for all schools that 
receive Federal funding.
    Ms. DeVos. I support accountability.
    Senator Kaine. Is that a yes or a no?
    Ms. DeVos. I support accountability.
    Senator Kaine. Do you not want to answer my question?
    Ms. DeVos. I support accountability.
    Senator Kaine. OK. Let me ask you this. I think all schools 
that receive taxpayer funding should be equally accountable. Do 
you agree with me or not?
    Ms. DeVos. Well, they don't. They're not today.
    Senator Kaine. I think they should. Do you agree with me or 
not?
    Ms. DeVos. No.
    Senator Kaine. You don't agree with me. Let me move to my 
next question. Should all K-12 schools receiving governmental 
funding be required to meet the requirements of the Individuals 
with Disabilities Education Act?
    Ms. DeVos. I think they already are.
    Senator Kaine. I'm asking you a should question. Whether 
they are or not, we'll get into that later. Should all schools 
that receive taxpayer funding be required to meet the 
requirements of the Individuals with Disabilities in Education?
    Ms. DeVos. That is a matter that's best left to the States.
    Senator Kaine. States might--some States might be good to 
kids with disabilities and other States might not be so good, 
and then what? People can just move around the country if they 
don't like how their kids are being treated?
    Ms. DeVos. That's an issue that's best left to the States.
    Senator Kaine. What about the Federal requirement? It's a 
Federal law, the Individuals with Disabilities Education Act. 
Let's limit it to Federal funding. If schools receive Federal 
funding, should they be required to follow Federal law, whether 
they're public, public charter, or private?
    Ms. DeVos. As the Senator referred to----
    Senator Kaine. Just yes or no. I've only got one more 
question.
    Ms. DeVos [continuing]. In the Florida program, there's 
many parents that are very happy with the program there.
    Senator Kaine. Let me state this. All schools that receive 
Federal funding, public, public charter, or private, should be 
required to meet the conditions of the Individuals with 
Disabilities in Education Act. Do you agree with me or not?
    Ms. DeVos. That is certainly worth discussion, and I would 
look forward to----
    Senator Kaine. So you cannot yet agree with me. And, 
finally, should all K-12 schools receiving governmental funding 
be required to report the same information regarding instances 
of harassment, discipline, or bullying, if they receive Federal 
funding?
    Ms. DeVos. Federal funding certainly comes with strings 
attached.
    Senator Kaine. All such schools should be required to 
report equally information about discipline, harassment, or 
bullying. Do you agree with me or not?
    Ms. DeVos. I would look forward to reviewing that 
provision.
    Senator Kaine. If it was a court, I would say to the court, 
``Let the judge direct the witness to answer the question.'' 
It's not a court. You're not under oath. You're not under a 
subpoena. But you're trying to win my vote.
    Thanks, Mr. Chairman.
    The Chairman. Thanks, Senator Kaine.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. DeVos, thank you for coming to my office. I had an 
opportunity to walk you through the map of Alaska and hopefully 
educate you some to some of the challenges that we face as a 
State in delivering education in what is not a rural State, but 
what has been described as a frontier State in many, many ways. 
Eighty-two percent of the communities in the State of Alaska 
are not attached by road. They are truly islanded in every 
sense of the word.
    I had an opportunity on Saturday to meet with about 400 
teachers from around the State, and I will tell you that they 
are concerned about your nomination. They're concerned because 
they would love to have the choice that we're talking about. 
When you are a small school in Buckland, when you are a small 
school in King Cove, when there is no way to get to an 
alternative option for your child, the best parent is left 
relying on a public school system that they demand to be there 
for their kids.
    I want to make sure--and I think every one of those 
teachers that I met with on Saturday wants to make sure--that 
your commitment to public education, particularly for our rural 
students, who have no choices, is as strong and as robust as 
the passion that you have dedicated to advancing charter 
schools. I appreciated your responses to Senator Cassidy, 
because he was very direct, and you gave very reassuring 
answers there that you are not seeking to undermine or to erode 
public schools. I appreciated what you said in response to 
Senator Alexander's, the Chair's, questions about whether you 
would work to move toward a voucher type of a system if, in 
fact, we in the Congress said no, that is not the direction.
    I tried to assure the teachers that I was talking to that 
there is not this--there are not sufficient votes to, what I 
call, voucherize the system. I appreciated the inquiry that 
Senator Kaine has been making, though, about the level of 
accountability. This was something that was brought up in the Q 
and A section there in Anchorage, a concern that there would 
not be an effort to match that accountability to those schools 
that receive Federal funding either through a voucher program, 
a Federal match, through education saving account dollars, but 
that in addition to performance standards, that there would be 
true accountability with adhering to Federal laws for civil 
rights as well as students with disabilities.
    I will ask for a continuation of that discussion. You have 
provided some very responsive comments that will help our 
teachers in Alaska, where, again, their options and their 
choices are very limited. How can you provide assurance to 
these teachers, these families, these students, for whom 
alternatives and options are severely limited, not because we 
don't want them, but our geography really isolates us?
    Ms. DeVos. Thank you, Senator, for that question, and I 
really appreciated our conversation and a review of the map, 
because it does remind us of these unique challenges that 
Alaska has. I would just say that I can assure you that, if 
confirmed, I will support Alaska and its approach to educating 
its youngsters. I have to say that the creativity and 
innovation that Alaska has employed through the traditional 
public system is one that other States could probably take note 
of and learn some lessons from, and I would hope that they 
would continue to feel that freedom and that drive to continue 
to educate and innovate.
    Senator Murkowski. We are quite proud of some of the 
innovations that we have made. We have a great deal of choice 
within our urban centers. For my colleagues' education and 
edification, Anchorage hosts six of the most ethnically diverse 
schools in the United States of America, and we're sitting in 
Anchorage, AK. I have that level of diversity. But then I have 
rural villages where I may have no more than 60 kids in a 
school, and in order for them to have the same benefits and 
opportunities--the dollars that flow, the commitment that flows 
to those families--there is that level of accountability 
throughout, that remains a very significant challenge.
    I need to have a very clear and a very firm commitment that 
the focus that you will give to not only Alaska, but to States 
that have significant rural populations, that these students 
who will not have alternatives, that that public school system 
is not undermined, eroded, or ignored.
    Ms. DeVos. Absolutely, Senator. You have my commitment, 
and, in fact, as I said, there's so much that Alaska can share 
with others in terms of how to address challenges of a very 
widespread student population.
    Senator Murkowski. Thank you, Mr. Chair.
    The Chairman. I'll now turn to Senator Murray.
    Senator Murray. Mr. Chairman, I just have to start by 
saying--and I hope this doesn't count against my time on 
questions, but it's not a question, for questions sake. I have 
questions that I know all of our committee want to followup, 
including on the response I just heard on IDEA, sexual assault, 
and Pell grants, and a number of other questions.
    Let me just say I'm really disappointed that you have 
preemptively cutoff our members from asking questions. It 
really is unprecedented, and you and I have worked together, 
and I appreciate that. I hope you change your mind. I don't 
know what you're trying to protect Ms. DeVos from. She should 
get robust scrutiny. She's going to oversee the education of 
all of our kids and what's happening in higher education and 
much more.
    To be very clear, this is not what we have done in this 
committee. For Michael Leavitt, President Bush's second 
Secretary of Health and Human Services, five members 
participated in a second round. For Andrew Von Eschenbach, 
President Bush's third FDA Commissioner, three members 
participated in a second round.
    For Hilda Solis, President Obama's first Secretary of 
Labor, three members participated in a second round. The 
hearing was actually over 4 hours. For Tom Daschle, President 
Obama's nominee to be Secretary of Health and Human Services, 
four members participated in a second round. For Alexis Herman, 
President Clinton's second Secretary of Labor, 3\1/2\-hour 
hearing, 10 minutes of questioning. For Rod Paige, as I 
mentioned, Secretary of Education, President Bush's nominee, 10 
questions.
    I hope we're not just cherry-picking Secretary Duncan and 
King, who had a long, broad history behind them when they came 
to this. I really would like to enter these transcripts that I 
have showing the actual precedent of this committee into the 
record. It's important for all of us to remember that.
    [The information referred to may be found in the following 
printed Senate hearings: Michael Leavitt (2004)--S. Hrg. No. 
109-56; Andrew Von Eschenbach (2006)--S. Hrg. No. 109-816; Hild 
Solis (2009)--S. Hrg. No. 11-319; Tom Daschle (2009)--S. Hrg. 
No. 111-469; Alexis Herman (1997)--S. Hrg. No. 105-25; Rod 
Paige(2001)--S. Hrg. No. 107-2; Kent Yoshiho Hirozawa and Nancy 
Jean Schiffer (2013)--S. Hrg. No. 113-808. Donna Shalala's 
information may be found @ www.congress.gov, #PN76-9--(1993) 
103d Congress.]
    Senator Murray. Given the lack of paperwork from the OGE 
and numerous outstanding questions that I know my members 
have--they're still sitting here. It's 8:15 at night. They 
wouldn't be sitting here if they didn't have additional 
questions. I'd like to call at least for a second hearing for 
this nominee.
    The Chairman. Do you want me to respond to that now----
    Senator Murray. I would like you to.
    The Chairman [continuing]. Then will you have additional 
questions?
    Senator Murray. I do have additional questions, yes.
    The Chairman. Let me respond in this way. The respect I 
have for you and for each member of this committee and for how 
we've worked together. What you're asking me to do is to treat 
Ms. DeVos differently than we treated President Obama's two 
Education Secretaries, and I'm not going to do that. We're 
already at--this hearing started at 5:15. It's 8:15. That's 3 
hours and 5 minutes of questions.
    For Secretary Duncan, President Obama's first Secretary, 
the hearing was 2 hours and 2 minutes. For John King, President 
Obama's current Secretary, it was 2 hours and 16 minutes. This 
is already 3 hours, and we're not finished yet.
    As far as questions go, each member of this committee has 
had an opportunity to visit with Ms. DeVos in their office, and 
I believe she has done that. Several members of this committee 
have already sent her written questions, which she will answer 
before we vote on her nomination. She has complied with all the 
rules of the committee. The committee rules do not require that 
the Office of Government Ethics report be in by the time we 
actually have a hearing. She submitted her information there on 
the 12th--I believe the 12th of--on the 4th of January.
    Ms. DeVos, I understand you are working and will continue 
to work with the Office of Government Ethics and sign an ethics 
agreement. Is that correct?
    Ms. DeVos. That's correct, Mr. Chairman.
    The Chairman. The purpose of that, just for those watching, 
is there's a designated government office that works with 
nominees and that comes to an agreement with them if there is 
any conflict of interests. If she, for example, needs to divest 
herself of something, that will be part of the agreement.
    She has said that she will do whatever she needs to do to 
gain an agreement with the Office of Government Ethics so that 
the letter of agreement will say she has no conflicts of 
interest. I have said that that letter will be public, at least 
by Friday, before we vote on her nomination by next Tuesday.
    You will have the opportunity to question her in your 
office, to question her today as extensively as you did either 
of President Obama's nominees. You have an opportunity to 
submit additional written questions after this hearing for up 
to 2 days. When we had Secretary Perez before the committee, 
Senator Harkin only gave us 1 day. I would say 2 days. That's 
by the close of Thursday.
    Then you will have 3 or 4 days after the Office of 
Government Ethics letter of agreement saying she has no 
conflicts of interest is public to decide how to vote. That 
seems to me to be entirely reasonable. I've already agreed to 
move the hearing 1 week at the request of the Democratic and 
Republican leadership so they could consider other nominations.
    And, finally, on the tax returns issue, it is not a 
requirement of this committee that nominees provide us with 
their tax returns. They provide us with their financial 
information, just as Senators provide publicly their financial 
information. It is not a law that she provide her tax return. 
She's doing everything that the rules of the committee say she 
should do, and I'm treating her in terms of questions in the 
same way that we treated President Obama's two Education 
Secretaries.
    I'm not going to have a second round. I'll be happy to 
extend to you, if you would like, a chance to ask questions, 
and then I will do the same, which is consistent with what we 
did with the two previous Obama secretaries.
    Senator Murray. Mr. Chairman, with all due respect, this 
nominee is the only one to not submit OGE paperwork before our 
hearing. Our members have not had a chance to review it or to 
ask questions about it. I appreciate private meetings. I'm sure 
we all do, but all of our constituents want to hear what this 
nominee has to say, too, because of a vast history on the issue 
of education that concerns a lot of people.
    The Chairman. If I may----
    Senator Murray. Let me just say that Tillerson had three 
rounds of hearing, Sessions had two rounds, Carson had two 
rounds, Zinke had three rounds. I'm unclear why education is 
not just as important as these others.
    The Chairman. If it's important under Trump, it's important 
under Obama. I don't know why, suddenly, we have this sudden 
interest as far as--several people have mentioned Secretary 
Paige here tonight. He didn't have his Office of Government 
Ethics letter in before his hearing. It came in after his 
hearing. The same was true with Elaine Chao when she became a 
Cabinet member. That's not been a consistent pattern, either.
    I've tried to be as fair as I can in following what I 
believe to be the Golden Rule, and we've gone for more than 3 
hours in an extensive hearing, which is simply part of a 
discussion as you evaluate how you're going to vote when it 
comes up before the committee.
    Senator Casey. Mr. Chairman.
    The Chairman. Yes, Senator Casey.
    Senator Casey. If the request is reasonable--we're only 
asking for 5 minutes per member on a set of issues that are 
this important at the beginning of a new administration, which 
is a change in party. It's a new--a lot of new policies coming 
forward, and as Senator Murray said, we did have time in our 
office. Most of us probably had half an hour. Our constituents 
weren't there for half an hour. Asking for another 5 minutes I 
don't think is in any way unreasonable.
    The Chairman. Senator Casey, I have enormous respect for 
you, but the Obama administration was also a change in 
administration, and I didn't hear any great cry for a second 
round of questions.
    Senator Casey. Mr. Chairman----
    The Chairman. This is a 3-hour hearing, 3 hours and 10 
minutes now, in addition to all the other information that's 
there, and I don't think it's fair to expect that we'll treat a 
Republican president's Education nominee differently than we 
treated a Democratic president's Education nominee.
    Senator Bennet.
    Senator Bennet. Mr. Chairman, I think you're one of the 
fairest people in this town.
    The Chairman. I thank you for that.
    Senator Bennet. No, you've earned that. You really are. To 
me, the fact that Republican members of the Senate did not want 
to ask a second round of questions for the Obama nominees in 
the Senate--the idea that that should be a precedent for the 
Democrats, eight of whom are here tonight, to ask questions, 
even followups to questions that we've heard tonight, is really 
unfair and uncharacteristic.
    I hope that if we can't have this hearing, that we will 
have--if we can't have the questions here, that we'll have 
another hearing. If we can't have another hearing, that we'll 
have an assurance that every single question asked by every 
single member of this panel submitted in writing is answered 
before this vote can go forward on the floor, and that the 
paperwork is submitted before we can go forward on the vote. I 
don't think that's a satisfactory result. If we can't ask the 
questions today, I hope you and the majority leader will 
consider that.
    The Chairman. I've already said that members will have an 
opportunity to ask questions in writing, which they already 
have--many of you have already done that--and to ask additional 
questions in writing, if you have them in by 5 p.m. on 
Thursday. I also said that's one more day than Senator Harkin 
gave us when Perez was Labor Secretary. I'd say that's fair.
    I said, second, that we will schedule an executive session 
on next Tuesday, when we'll be glad to discuss the tax return 
issue, whether we want to apply tax returns to future nominees 
who come before this committee, and we'll vote on Ms. DeVos, 
but only if the letter agreement with the Office of Government 
Ethics is complete by this Friday and made available to all 
members of the committee so you have 3 or 4 days to see how 
that might affect your vote.
    Senator Franken. Mr. Chairman, a very short question.
    The Chairman. Senator Franken.
    Senator Franken. Are we assured that before this vote on 
Tuesday that we will have the answers to these questions? 
Because what I've heard is that we can submit the questions, 
but here, at least the nominee has to answer them. Are you 
assuring us that before the vote on Tuesday, our questions will 
have been answered?
    The Chairman. The number of questions needs to be 
reasonable and the answers need to be reasonable, and that's in 
the eye of the beholder sometimes. The number of questions--the 
most number of questions that was ever asked a nominee before 
this committee, I'm told, was 191 to Secretary Perez. I won't 
say there's a certain number that is reasonable. Then I'm 
confident that Ms. DeVos will make every effort to give a 
reasonable and as complete an answer to the question as she 
can.
    Senator Franken. The answer is no, we won't be assured of 
that.
    The Chairman. Well, yes, you'll be assured that--Ms. DeVos, 
what would your answer to that be? Will you do your best to 
answer the questions that you will receive by after 5 o'clock 
on Thursday before the possibility of a vote on next Tuesday?
    Ms. DeVos. I will certainly endeavor to have all the 
questions responded to.
    The Chairman. Senator Baldwin.
    Senator Baldwin. Mr. Chairman, did you make any 
announcements about whether there will be more than one round 
of questions tomorrow when we convene to hear Mr. Price's, 
Representative Price's----
    The Chairman. I was not planning on more than one.
    Senator Baldwin. Because I heard various members who have 
done the research during the course of this proceeding indicate 
that there have been additional rounds for witnesses who have--
or nominees who have come before this committee for other 
departments than Education. I can tell you that perhaps half--I 
perhaps got a chance to propound half of my questions today. 
Tomorrow, given the breadth of that department, I have many, 
many more.
    The Chairman. Since I'm talking a lot about precedent 
tonight, let me look at the precedent and see what that says. I 
told Dr. Price that, in my experience, one round of questions 
would pretty well do it, except, usually, we had--Senator 
Murray and I followed up, and occasionally Senator Warren does, 
as a diligent member of the committee and is often here. I 
congratulate her for that. Let me think about that.
    Senator Warren. Mr. Chairman, can I just ask about the 
precedent, just because I want to make sure I understand it. 
When we go back and examine the record, will we find instances 
where people asked for a second round of questions and were 
refused?
    The Chairman. Will you find instances where they were asked 
and refused? I don't know the answer to that. If you go back to 
President Obama's two Education Secretaries, there was one 
round of 5-minute questions, and then the chairman asked a 
question and one other Senator asked a question, and that's 
what we're doing tonight.
    Senator Warren. As you said in that hearing, ``I think we 
have time for a second round.'' Those were your words. Then you 
said, ``Senator Warren, you can be the first in the second 
round,'' which I believe to mean had there been anyone else who 
wanted to ask a question, they could have, that no one was 
refused the opportunity to ask. It's just that people were 
satisfied with the nominee and had no further questions.
    The Chairman. I can guarantee you that many of us were not 
satisfied with the last nominee, but out of deference to the 
President and the institution thought that it would be 
appropriate for us to defer to the President and that it was 
important to have a Secretary in place. You're a very 
exceptional law professor, and I don't want to get into that 
kind of discussion with you. My guess is that I looked over 
there and saw you, and you asked if there could be a second 
round, and I said yes. I think we were the only ones still in 
the room.
    We have to bring this to a conclusion. Ms. DeVos has--we're 
not going to have a second round of questions tonight.
    Senator Warren. Mr. Chairman, I just want to be clear, 
then. Then this is the first time ever that someone has asked 
for a second round and been refused?
    The Chairman. No, no, no. No one ever said that except you.
    [Laughter.]
    Senator Warren. But you haven't said otherwise----
    The Chairman. That's an Alice--Lewis Carroll would be proud 
of that. That's a little exceptional.
    Senator Warren. I'm sorry. Did you say that you had refused 
anyone a second round?
    The Chairman. I said Lewis Carroll would be proud of that 
kind of reasoning. What I am saying is I looked 
straightforwardly at the process that we had with President 
Obama's Education Secretaries and determined that we would do 
the same thing for President-elect Trump's nominee.
    If I were to be even more careful, I would point out that 
she's now spent 50 percent more time here in this hearing than 
either Secretary Duncan or Secretary King did for President 
Obama. She has visited every one of your offices. She asked to 
go in December. Nobody made time to see her in December, so she 
came in January. I believe that's correct. And then she's 
received questions from you, which she's going to answer.
    We have said that she's completed the FBI background. She's 
followed every rule the committee has. I've said we will 
consider the tax return question at an executive session next 
week, about whether we want to change the rules and require 
that of future nominees. You can decide to do that if you wish 
to do that. We Senators don't do it for ourselves, and we don't 
do it for our nominees, so we can talk about that.
    You'll have 2 days to ask additional written questions--a 
reasonable number of them. She'll do her best to give you 
reasonable answers to them, and that we will not go forward 
with a vote on next Tuesday unless her letter agreement is 
public by Friday and available for you to review it.
    That's my decision and that's what we'll do tonight. We'll 
conclude the hearing by inviting Senator Murray if she has any 
additional questions to ask to do that, and I'll ask some, and 
then we'll be finished.
    Senator Murray. Mr. Chairman, I take that as a definitive 
answer?
    The Chairman. That's as definitive as I can be.
    Senator Murray. Since I only have one question, I'll ask 
one you probably won't like.
    Ms. DeVos, President-elect Trump was recorded bragging 
about kissing and groping and trying to have sex with women 
without their consent. He said on tape that when you're a star, 
they let you do it. You can do anything. I was, and I remain, 
very outraged by those comments, and that outrage grew 
following the release of that recording as a series of women 
came forward to publicly accuse President-elect Trump of 
exactly the type of behavior he bragged about on that tape.
    I take accusations of this type of behavior very seriously. 
If this behavior, kissing and touching women and girls without 
their consent, happened in a school, would you consider it a 
sexual assault?
    Ms. DeVos. Yes.
    Senator Murray. One in five young women will experience 
sexual assault while in college. We are joined tonight by 
several sexual assault survivors, who are brave enough to come 
here tonight because this issue is so important to them. Can 
you promise them and me that you will not, as has been in the 
press, consider, ``reining in the Office for Civil Rights and 
the department's work to protect students from campus sexual 
assault?''
    Ms. DeVos. Senator, if confirmed, I commit that I will be 
looking very closely at how this has been regulated and 
handled, with great sensitivity to those who are victims and 
also considering perpetrators as well. Please know that I am 
very sensitive to this as a----
    Senator Murray. I have heard you say that, but you will not 
take back the words that you will reign in the Office for Civil 
Rights?
    Ms. DeVos. I don't believe that those were the words that I 
used.
    Senator Murray. That is a quote that has been attributed to 
you. We've spent--I thank Senator Casey on this as well. This 
is extremely important to women and men across the country, and 
I hope that you will take back the words of reigning in the 
Office of Civil Rights and the department's work on sexual 
assault.
    Mr. Chairman, I'm going to turn to Senator Hassan for the 
last part of my questions.
    Senator Hassan. Thank you, Senator Murray.
    Just two quick things, Ms. DeVos. I just wanted to clarify 
the issue about whether you were on the Board of your mother's 
foundation. I have 1990s up through 2013 where you're listed as 
the vice president and a Board member. Was that just a mistake 
on your part?
    Ms. DeVos. That was a clerical error. I can assure you I 
have never made decisions on my mother's behalf on her 
foundation Board.
    Senator Hassan. So the listing that you were the vice 
president of the Board is incorrect.
    Ms. DeVos. Yes, that is incorrect.
    Senator Hassan. Thank you. The other thing I just wanted to 
circle back to--I want to go back to the Individuals with 
Disabilities in Education Act. That's a Federal civil rights 
law. You stand by your statement a few minutes ago that it 
should be up to the States whether to follow it?
    Ms. DeVos. The law must be--Federal law must be followed 
where Federal dollars are in play.
    Senator Hassan. Were you unaware of what I just asked you 
about the IDEA, that it was a Federal law?
    Ms. DeVos. I may have confused it.
    Senator Hassan. It guarantees absolutely basic protections 
to students with disabilities to ensure that they are afforded 
a high-quality education with their peers. One of the reasons 
that it is difficult to have this hearing and feel that we 
fully understand your perspective is because we do know that 
children with disabilities in at least some of the voucher 
programs that you have supported have gone with a voucher to a 
school, because of their disability, had to leave the school, 
and the school keeps the money, and they go back to public 
schools that now have even less resources to deal with them.
    Many of us see this as the potential for turning our public 
schools into warehouses for the most challenging kids with 
disabilities or other kinds of particular issues, or the kids 
whose parents can't afford to make up the difference between 
the voucher and the cost of private school tuition. I just 
would urge you to become familiar, should you be nominated, 
with the Individuals with Disabilities Education Act, and I do 
have to say I'm concerned that you seem so unfamiliar with it 
and that you seem to support voucher schools that have not 
honored--have made students sign away their rights to make sure 
that the law is enforced. That's very troubling to me.
    Ms. DeVos. Senator, I assure you that, if confirmed, I will 
be very sensitive to the needs of special needs students and 
the policies surrounding that.
    Senator Hassan. With all due respect, it's not about 
sensitivity, although that helps. It's about being willing to 
enforce the law to make sure that my child and every child has 
the same access to public education, high-quality public 
education, and the reality is that the way the voucher systems 
that you have supported work don't always come out that way. 
That's why it's something we need to continue to explore.
    Thank you.
    Ms. DeVos. Certainly.
    The Chairman. Thank you, Senator Hassan, Senator Murray.
    Thank you, Ms. DeVos, for being here. I appreciate your 
being here for 3 hours and 15 minutes and giving us a chance to 
ask you questions. You've set a record in terms of the last 
three Education Secretaries, in any event.
    I'm going to put in the record with consent a letter from 
the Log Cabin Republicans, who wrote to me, as chairman of the 
committee, about a suggestion that you might be anti-gay.
    [The information referred to may be found in Additional 
Materials.]
    The Chairman. According to Gregory T. Angelo, president, he 
said,

          ``Far from being an anti-gay fire breather, Ms. DeVos 
        actually has a history of working with and supporting 
        gay individuals. When her senior adviser, Greg 
        McNeilly, was accosted by a Michigan State Senator who 
        threatened to make his sexual orientation a matter of 
        public record because of his opposition to a 
        constitutional amendment banning marriage equality, Ms. 
        DeVos put an end to the bullying and harassment.
          ``Furthermore, in 2013, Ms. DeVos called for the 
        resignation of then-Republican National Committeeman 
        Dave Agema for posting erroneous and vitriolic anti-gay 
        statements online. Ms. DeVos should be commended for 
        proving that differences of opinion related to marriage 
        equality do not equate to anti-gay animus. Log Cabin 
        Republicans stands in support of her nomination for 
        Secretary of Education and encourages her swift 
        confirmation.''

    Senators who wish to ask additional questions of our 
nominee--those are due----
    Senator Warren. Mr. Chairman.
    The Chairman [continuing]. By the close of business on 
Thursday, January 19. For all other matters, the hearing record 
will remain open for 10 days. Members may submit additional 
information for the record within that time.
    The next hearing of our committee will be tomorrow morning 
at 10 o'clock on the nomination of Tom Price for the United 
States Secretary of Health and Human Services.
    Thank you for being here today.
    Senator Warren. Mr. Chairman, I also have a letter I'd just 
like to have put in the record as well from the Massachusetts 
Charter Public School Association raising questions about 
accountability. They're strong supporters of charter schools, 
but they are very concerned about Ms. DeVos' record with 
accountability for charter schools in Michigan.
    The Chairman. Thank you, Senator Warren. It will be 
included in the record.
    [The information referred to was not available at time of 
press.]
    The Chairman. The committee will stand adjourned.
    Senator Bennet. Mr. Chairman.
    Senator Murray. Mr. Chairman, Senator Bennet has----
    The Chairman. Let me adjourn the committee for a moment. 
Were you trying to get my attention?
    Senator Bennet. I had a suggestion that I hope might 
resolve the problem earlier, which is my understanding is that 
under Rule 26 of the standing rules of the Senate, three of us 
have the right to ask you to call minority witnesses before the 
committee to whom we could address questions. Maybe that's a 
way through this. I'd make that request assuming----
    The Chairman. That request has been made earlier, and I've 
denied it. We've not done that in my experience. Our tradition 
is to invite the nominee, ask the nominee questions, which 
we've done. They go through the process, which I've described 
at length. I appreciate your request, but I'm not going to 
agree to it.
    The committee is adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

                           Letters of Support
                     U.S. House of Representatives,
                                 Washington, DC 20515-2202,
                                                   January 9, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC. 20510.

    Dear Chairman Alexander: I write to support Betsy DeVos, President-
elect Trump's nominee to serve as the next Secretary for the Department 
of Education.
    Betsy DeVos has been at the forefront of the effort to ensure every 
child in America has access to a quality education no matter their zip 
code. I believe that Secretary-designate DeVos will be a tremendous 
advocate for students and parents. She has the knowledge and skill set 
to improve education by cutting bureaucratic red tape, restoring local 
control, and empowering parents to have a greater say in their 
children's education.
    As the U.S. Representative for Michigan's Second congressional 
district, I have watched Betsy dedicate her life to fighting for 
Michigan's children. She disrupted the status quo in the Michigan 
education system, helping to reform school districts where too many at-
risk children were not receiving the kind of education they deserved. 
Because of her efforts, children in Michigan now have access to quality 
and accountable schools that can meet their needs. Even more, 
Secretary-designate DeVos championed Michigan charter schools. They 
were recently named the ``most improved'' in the country by the 
National Association of Charter School Authorizers, an independent 
group that advocates for effective charter schools.
    I witnessed Betsy's passion and discipline firsthand when we served 
together on the board of the Compass College of Cinematic Arts, a Grand 
Rapids-based film and media production college, where we implemented 
strict standards that set compass up for accreditation. She is a 
passionate and dedicated servant with a big heart. I know that Betsy is 
up to the challenge of ensuring our kids are prepared to compete and 
thrive in a global economy and urge the committee to swiftly approve 
her appointment.
            Sincerely,
                                             Bill Huizenga,
                                                Member of Congress.

                                       U.S. Senate,
                                      Washington, DC 20515,
                                                  January 10, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Re: Nomination of Betsy DeVos for U.S. Secretary of Education

    Dear Chairman Alexander: In advance of Mrs. DeVos's January 17 
confirmation hearing in your committee, I share my strong support for 
her confirmation as our next U.S. Secretary of Education.
    Young people in America today are entering a workforce that is the 
most competitive we have seen in our lifetime. Our economy is truly 
global, and how well our students are learning is being measured on an 
international scale.
    We also know that, in too many communities across our country, 
students are receiving an education that is leaving them unprepared for 
next steps after high school--a reality that has a deep impact on the 
success and future of our citizens.
    I devoted much of my post-U.S. Senate career to improving public 
education in Tennessee in an effort to jump start long-term educational 
change in our State and ensure that every child graduates high school 
prepared for college or a career. As a surgeon, I also know that 
education impacts all aspects of our life, including health. Studies I 
led for the Robert Wood Johnson Foundation found that education is one 
of the best predictors of health outcomes from life expectancy to the 
infant mortality rate.
    It is for these reasons that I am both excited and hopeful about 
the nomination of Betsy DeVos as the next U.S. Secretary of Education. 
I have known Mrs. DeVos for many years, and I know firsthand that her 
passion for education comes from a deep desire to do what's best for 
our Nation's children.
    In Tennessee, we have shown what is possible in improving public 
education. Tennessee has gone from 46th in the Nation to 25th in 4th 
grade math in just 4 years.
    We now rank 19th in the country in 4th grade science. More 
Tennessee students are enrolling in and completing education beyond 
high school--education that will help them secure a bright future for 
themselves and their children.
    This progress has been made due to the reforms Tennessee has 
committed to--stronger teacher evaluations, higher expectations for 
students, teacher tenure reform, and expanding high-quality school 
choices for parents, among others--and those reforms must continue in 
order to ensure success for all students. As the center of gravity in 
education moves away from the Federal Government and into locals' 
hands, we need a secretary of education who can both safeguard the 
flexibility States need to advance these reforms and inspire innovation 
that will challenge the status quo. I believe Betsy DeVos is that 
leader.
    She has more than 28 years of experience advocating for policies 
that are good for students, policies like more choices for parents, 
ensuring high-quality teachers in the classroom, and protecting the 
right for every child to receive an excellent publicly funded 
education. With a devotion to transforming our K-12 education system 
that has received wide-ranging bipartisan support at the local and 
national levels, Mrs. DeVos fits the bill for the trailblazer needed at 
the helm of Federal education policy.
    Most importantly, she puts children at the forefront of her 
advocacy efforts. As a mother and grandmother who, together with her 
husband, helped start a high-performing public charter school in 
Michigan, Mrs. DeVos is intimately familiar with education policy from 
all angles. In fact, West Michigan Aviation Academy is the top-rated 
public charter high school in the State of Michigan.
    Betsy DeVos will bring a renewed sense of urgency and focus to 
improving schools in neighborhoods across America. As someone who has 
worked with Mrs. DeVos for years, I urge the U.S. Senate to confirm her 
nomination. She is the public servant our country needs leading the 
U.S. Department of Education.
            Sincerely,
                                    William H. Frist, M.D.,
                                                      U.S. Senator.

                          Commonwealth of Kentucky,
                            Office of the Governor,
                                       Frankfort, KY 40601,
                                                  January 17, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander: From our past conversations, I know that 
both you and I care deeply about the education of our Nation's 
children. As Governor of the Commonwealth of Kentucky, I also know that 
State and local governments bear the chief responsibility for funding 
our K-12 systems. Nonetheless, the Federal Government often imposes 
mandates on States which serve little purpose but to cause unnecessary 
burden on the educational process.
    This is why I am writing to express my strong support for 
President-elect Trump's Secretary of Education nominee, Betsy DeVos. 
She is intelligent, principled, articulate and gracious. She is a 
proven thought leader in education and a proven champion of all 
children seeking educational opportunity. I believe that she will work 
to streamline the Federal education bureaucracy, return authority back 
to States and local school boards, and ensure that more dollars reach 
the classroom unfettered by layers of red tape. This is exactly what 
America needs.
    Betsy DeVos is also a passionate advocate for increasing the role 
of parent engagement in their children's education. She believes in 
harnessing the power of competition to drive school improvement in all 
schools, whether they be public or private. Again, this is exactly what 
America needs.
    I am confident that Betsy DeVos, as Secretary of Education, will 
work with Governors as well as State and local policymakers to craft 
innovative solutions for ensuring that our children receive the 
knowledge and skills needed to succeed in today's workforce.
    There is no doubt in my mind, that Betsy DeVos will fight to ensure 
better educational opportunities for every child. The results will 
empower all of America's children to become the best possible version 
of themselves. This, too, is exactly what America needs.
            Sincerely,
                                          Matthew G. Bevin,
                                                          Governor.

                                     State of Ohio,
                            Office of the Governor,
                                   Columbus, OH 43215-6117,
                                                  January 24, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC. 20510

    Dear Chairman Alexander: I am writing to urge the members of the 
U.S. Senate Committee on Health, Education, Labor, and Pensions (HELP) 
to confirm Betsy DeVos to be our next Secretary of Education.
    Mrs. DeVos has built two of the most successful education reform 
organizations in America, the Great Lakes Education Project and 
American Federation for Children. Her advocacy for school choice, 
parental control of schools and accountability standards has made a 
difference in the lives of thousands of school children. She is well-
qualified to serve as education secretary and she has the compassion 
for children that this job demands.
    I believe we are truly measured by how we treat the most vulnerable 
among us. Betsy DeVos has met this character test. She has long been a 
leader in the mentoring movement, serving as a mentor and helping to 
find role models for at-risk children. You can see her love for 
learning and commitment to kids throughout her 28-year fight for 
education reform.
    Mrs. DeVos understands the proper role for the Federal Government 
is limited. In education, she knows that States, local school boards, 
educators and parents should be the drivers of reform, not the Federal 
Government. As a Governor, I am excited about the prospects of working 
with a U.S. Secretary of Education who is committed to unleashing the 
power of the State laboratories of democracy. I believe Betsy DeVos has 
the potential to usher in an era of real and meaningful education 
reforms in our country. She is a strong leader with the right vision 
and leadership skills to raise the bar on education in America and help 
ensure that our children are receiving the skills they need to compete 
in the global economy.
            Sincerely,
                                            John R. Kasich,
                                                          Governor.

               State of Michigan, Executive Office,
                                         Lansing, MI 48909,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: I'm proud to support the nomination of 
Michigan native, Betsy DeVos, to be the next Secretary of Education.
    I've had the opportunity to meet with and work on education reform 
ideas during my time in public service. Betsy has always put the 
interest of children first and that mindset to make sure every single 
child has access to the best educational opportunities available to 
them will help elevate the education system in our Nation.
    I have seen her passion and energy for children on display in my 
home, west Michigan. Betsy and her family are strong supporters of both 
public and charter schools, making sure the students of our great State 
receive the best possible education.
    Their commitment to higher education is obvious by the sheer number 
of higher education institutions and scholarships they support.
    I'm excited for the opportunities for our children in the future 
with a strong advocate for them as our next Secretary of Education. Our 
future is brighter because Betsy DeVos has accepted the call to serve 
our country.
            Sincerely,
                                              Brian Calley,
                                                      Lt. Governor.

                                  January 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: We are writing to express our strong 
support for Betsy DeVos to be our next Secretary of Education. Mrs. 
DeVos is one of the most dedicated and successful education reformers 
in America.
    For the past 28 years, Betsy has been on the frontlines fighting to 
expand school choice and to give parents a greater voice in how and 
where their children are educated. Thanks to her advocacy, thousands of 
at-risk children have gained access to better schools.
    We need a leader who is willing to challenge the education 
establishment in our Nation. The reality is our K-12 system is failing 
far short of what children deserve and what our Nation requires to 
remain an economic power. Today, America ranks 40th in math education 
and 25thin science, and less than 40 percent of high school graduates 
are college- or career-ready. This is unacceptable.
    Betsy DeVos will be a forceful advocate for the interests of school 
children and their parents, and she will fight to curtail Federal 
overreach into our classroom, and ensure more authority and money is 
sent back to the States. She is a woman of immense character and 
determination who has the leadership skills and vision to bring about 
real change in our education system.
    We enthusiastically endorse her nomination and respectfully ask the 
members of the U.S. Senate Committee on Health, Education, Labor and 
Pensions (HELP) to confirm her promptly.
            Sincerely,
                                               Dick Cheney,
                                              Lynne Cheney.

                 Michigan House of Representatives,
                                      Speaker of the House,
                                                   January 6, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.
    Chairman Alexander and members of the committee: I would like to 
take this opportunity to express my unwavering support for Betsy DeVos 
in her nomination as our Nation's next Secretary of Education. I have 
been heavily involved in Michigan government and politics for many 
years, and I have truly learned the impact Betsy has made in our State. 
In November, I was selected to serve as Speaker of the Michigan House 
of Representatives for my final 2-year term in the House, and while I 
am disheartened that during my tenure as Speaker we may not have 
Betsy's full drive and expertise in Michigan when it comes to education 
reform, I am happy to think about all she can do for the rest of the 
country in her new role.
    Betsy DeVos is a true fighter for the children of Michigan and for 
common sense education reform. She has bravely served on the frontlines 
of the education reform movement, and I know she will continue that 
incredible effort for our entire nation as our Secretary of Education. 
Most importantly, she has been consistently committed to expanding 
access to a quality education for every child in the United States, 
regardless of their parents' income or the quality of their family's 
local traditional school district. She believes--as do I--that the best 
way to do that is by equipping parents with as many options and as much 
control as possible, including public schools, charter public schools, 
home schooling, online education, and more.
    In Michigan, we have seen first-hand how important education 
options can be, especially in communities like Detroit, where the local 
public school system is consistently rated among the lowest performing 
districts in the entire Nation. Thanks in large part to the leadership 
and efforts of Betsy DeVos, families In Detroit now have access to more 
options than ever before, and roughly half of the students in the city 
currently attend a school other than their neighborhood public school, 
including many high quality charter public schools.
    Helping children is Betsy's passion, and I cannot imagine a better 
quality for someone in her role to have. Betsy will make a tremendous 
Secretary of Education, and I urge you to confirm her as soon as 
possible.
            Sincerely,
                                               Tom Leonard,
                                State Representative, 93d District.

                 Michigan House of Representatives,
                                          Lawton, MI 49065,
                                                   January 6, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: I am writing in support of the nomination 
of Betsy DeVos for Secretary of Education and encourage you and your 
colleagues to swiftly approve her nomination for the post. As a west 
Michigan native, former legislative leader, and an advocate for school 
reform, I know that she will follow through with what American's 
demanded on November 8, 2016: empowering the individual over the State. 
And that is exactly what Ms. DeVos will take the lead on--ensuring that 
our families have the power to choose the education that best fits the 
needs of our children.
    Ms. DeVos has served as a tireless advocate for reform over the 
past several decades. She's a reformist that has the best interest of 
the child at heart. She ignores the bureaucrats and union bosses and 
even political leaders in her own party to fight for what experience 
has shown is best for the child: family empowerment. Time and time 
again, her efforts around the Nation have shown that you can stand up 
to the education establishment and win.
    It is evident through President-elect Donald Trump's nomination of 
Ms. DeVos that he wants a change agent to lead the U.S. Department of 
Education. And that is what we will get, somebody who will work 
tirelessly to defend the best interest of the child over the interest 
of bureaucrats.
    I hope after the hearings you will find what I see in Ms. DeVos--a 
tireless advocate, a good administrator, and a reform agent for our 
children.
            With warmest regard,
                                              Aric Nesbitt,
                                                     Former Member,
                                 Michigan House of Representatives.

                                  Attorney General,
                                         State of Michigan,
                                         Lansing, MI 48909,
                                                  January 11, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: We are writing to express our support for 
President-elect Donald Trump's selection of Betsy DeVos to serve as 
Secretary of the U.S. Department of Education.
    Like the President-elect, Betsy DeVos is a champion of change and 
reform. The incoming President has made it clear he expects America to 
win again, and the place to start is in America's classrooms. Providing 
a quality education where students can safely learn to read, write and 
think creatively is the No. 1 goal for the new Secretary of Education.
    Furthermore, Betsy DeVos is committed to excellence across the 
board. She realizes the best way in which to pursue excellence is to 
empower students and parents, so that children are able to attend the 
school that best suits their needs.
    In addition, Betsy DeVos is committed to ensuring that children 
across the country can read. This may be the single most powerful 
reform of all--raising the rates of literacy so all students have a 
chance to achieve the American Dream.
    James Madison wrote,

          ``Knowledge will forever govern ignorance; And a people who 
        mean to be their own Governors, must arm themselves with the 
        power which knowledge gives . . .''

    Betsy DeVos understands the challenge, and with almost 30 years as 
a passionate advocate for children and education, she is uniquely 
qualified to lead the U.S. Department of Education.
            Sincerely,
                                             Bill Schuette,
                                                  Attorney General,
                                                 State of Michigan.

                                               Alan Wilson,
                                                  Attorney General,
                                           State of South Carolina.

                                           Brad D. Schimel,
                                                  Attorney General,
                                                State of Wisconsin.

                                          Patrick Morrisey,
                                                  Attorney General,
                                            State of West Virginia.

                                           Leslie Rutledge,
                                                  Attorney General,
                                                 State of Arkansas.

               Arizona Charter Schools Association,
                                         Phoenix, AZ 85032,
                                                  January 10, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20510.

    Dear Sen. Alexander: As you and your committee colleagues undertake 
the many important tasks before you in Congress, we write on behalf of 
the Arizona Charter Schools Association, as unanimously resolved by its 
Board of Directors, to enthusiastically endorse President-elect Donald 
J. Trump's nomination for U.S. Secretary of Education, Betsy DeVos.
    Betsy DeVos has dedicated her considerable intellect, determined 
energies and material resources for long years in the effort to renew 
and advance American education. We believe that Betsy DeVos is well-
chosen by President-elect Trump as America's next Secretary of 
Education. She has demonstrated a commitment to school choice and 
public charter schools. She brings passion, energy and a skill set to 
the process which gives those working so hard to raise the level of 
education for all students across America the hope that our schools 
will once again lead the world, and our children will grow to be 
lifelong learners, with a sustaining sense of both their heritage and 
their future.
    This nomination signals to our Nation, and indeed the world, that 
President-elect Trump is serious about the continuing improvement of 
American education. Mrs. DeVos' nomination does not signal an ``anti-
public school'' agenda, but rather, follows the great work of both of 
President-elect Trump's immediate predecessors, President George W. 
Bush and President Barack Obama, in committing to quality school 
choices for every American child.
    The Arizona Charter Schools Association represents one of the 
largest public charter school movements in the country, with student 
achievement results outpacing States across the country. On the 
Nation's Report Card, Arizona charter schools, if measured as a State, 
outperformed nearly all other States in the recent National Assessment 
of Educational Progress exams in English, Math and Science. In 
addition, Arizona charter students are also outperforming their peers 
on statewide exams. About 30 percent of Arizona public schools are 
charters, with more than 180,000 students choosing this quality option.
    Over the past decade, Arizona has produced a number of rapidly 
growing, high-achieving public school models in the charter sector, 
which have lengthy wait-lists in Arizona and have now been recruited 
and begun to replicate in States across America. The promising 
developments that school choice is revealing in diverse communities 
across our country are still in their early stages. If access to public 
charter schools is sustained and accelerated in Federal and State 
policy, the opportunity exists to lift student achievement, educational 
attainment and life outcomes for all students.
    The Arizona Charter Schools Association urges the Senate to 
expeditiously confirm Betsy DeVos as U.S. Secretary of Education.
            Sincerely,
                                                Jay Heiler,
                                                          Chairman.

                                            Eileen Sigmund,
                                           Chief Executive Officer.

    Association of Christian Schools International 
                                            (ACSI),
                                      Washington, DC 20005,
                                                  January 17, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Alexander: The Association of Christian Schools 
International (ACSI) would like to express its support for the 
nomination of Betsy DeVos as Secretary of Education. We encourage the 
committee and the full Senate to confirm the nomination.
    Mrs. DeVos is an inspired choice for the position. She is a 
creative thinker who will bring new approaches to the field of 
education. She is a proven bipartisan advocate for policies which 
benefit all students and has stayed true to her conviction that 
``education should be non-partisan''. This commitment to all students--
in the well-known formula: ``no matter their zip code''--brings a fresh 
breath to Washington policy debates. All Americans can appreciate her 
commitment to the widest possible diversity of education options.
    In her statement upon nomination, the Secretary-designate stated 
that, ``the status quo is not acceptable. I am committed to 
transforming our education system into the best in the world.'' Given 
her lifetime of implementing creative policies which give multiple 
education options to parents, this commitment on her part is certain 
and a strong point in her favor. She offers a unique perspective with a 
proven track record of openness to all voices in crafting solutions to 
benefit all students.
    It may help Senators to know that the Association of Christian 
Schools International (ACSI) is a nonprofit, non-denominational, 
religious association providing support services to nearly 24,000 
Christian schools in over 100 countries. ACSI is the world's largest 
association of Protestant schools; our members educate 5.5 million 
children worldwide. In the United States, we serve nearly 3,000 
Christian preschools, elementary and secondary schools, and 90 post-
secondary institutions. ACSI accredits pre-K-12 schools, provides 
professional development and teacher certification, and offers 
curricula, student testing and student activities. Member-schools 
advance the common good by providing quality education and spiritual 
formation to their students. ACSI thanks you for your consideration.
            Respectfully submitted,
                                       P. George Tryfiates,
                                   Director for Government Affairs.

                   The Center for Education Reform,
                                      Washington, DC 20036,
                                                   January 6, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Mr. Chairman: I write to express the strong support of the 
Center for Education Reform for Betsy DeVos, whose nomination to be 
Secretary of Education will be taken up by your committee on January 
11.
    The Education Department needs a fresh thinker, a leader who is not 
beholden to any membership organization. At a time when barely 40 
percent of our students can read or write or do math at even basic 
levels, our Nation needs someone who can see beyond the day to day of a 
multitude of Federal programs and ensure that all efforts are driving 
in the direction of the very purpose of that work--the education of our 
youth.
    Betsy DeVos has devoted much of her adult life to the cause of 
finding and supporting efforts to eradicate illiteracy, to equalize 
education options for children, and to ensure that those who do not 
have what she has been fortunate to have in life have just as many 
opportunities.
    I have had the pleasure of working with Betsy in many places where 
we've shared the ramparts in a common battle for education reform, 
choice and innovation. Most importantly, parents everywhere, especially 
those who despair at finding their children locked into failing schools 
and robbed of hope for their futures, will find that they have a true 
friend in Betsy DeVos.
    It is time to break through political barriers to opportunity for 
all learners, at all levels. We at the Center know that education 
opportunity, combined with the ability to expose our schools to 
unprecedented innovations in teaching and learning, are together, the 
key to the American Dream.
    I urge you and all of your colleagues to look past the political 
posturing and understand that a fresh, worldly, bold thinker is 
precisely what we need today as the helm of the U.S. Department of 
Education.
            Best Regards,
                                              Jeanne Allen,
                                                   Founder and CEO.

                               Charter Schools USA,
                                        Ft. Lauderdale, FL,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Alexander: I am writing you in support of the 
nomination of Betsy DeVos for the position of Secretary of Education. I 
am the founder, president & CEO of Charter Schools USA. Charter Schools 
USA is one of the oldest, largest and fastest-growing education 
management companies in the United States. In AdvancEd awarded CSUSA 
the first Southern Association of Colleges and Schools (SACS) district 
accreditation for an education management company in the United States. 
CSUSA has successfully completed re-accreditation through 2021. We 
successfully manage high performing schools in seven States from pre-
Kindergarten through grade 12. Every one of the schools we manage has 
increased its academic performance over time and closed the achievement 
gap, especially for low-income students.
    I am thrilled that Betsy DeVos has been nominated to be Secretary 
of Education. I know Betsy, and I know that what motivates her is to 
see public education work for all children--not just children from 
families with means. Betsy has worked tirelessly for over 20 years to 
bring more educational options to low-income children. I also know that 
she believes in accountability and that it should be applied to all 
schools. Her dedication, drive and innovative spirit will benefit the 
Department, but more importantly the children of our country.
            Sincerely,
                                          Jonathan K. Hage,
                                                   President & CEO.

            Foundation for Excellence in Education,
                                     Tallahassee, FL 32302,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: It is a 
privilege to support the nomination of Betsy DeVos as Secretary of the 
U.S. Department of Education.
    I have known Betsy for more than 20 years. She started out in 
education at the grassroots level, one person making a difference for 
children in one school--The Potter's House in Grand Rapids.
    That experience touched her personally, and she made the commitment 
to become informed, and to make a difference as much with knowledge, 
ideas and leadership as with generous charitable support.
    Her efforts on behalf of families expanded throughout Michigan and 
then the Nation.
    Simply put, Betsy believes deeply that each child should be 
equipped with the knowledge required to succeed in life. And her 
passion runs deepest when it comes to extending this opportunity to 
disadvantaged children, those who struggle and fail in classrooms that 
don't meet their needs while parents look on helpless to do anything 
about it.
    Betsy has become the voice of mothers and fathers who for too long 
have lacked one in America's education system.
    Two false narratives about the parental choice movement are 
pertinent to this nomination and to the future of our education system.
    One narrative says those who support school choice are hostile to 
traditional public schools. Such simply is not the case. Rather, the 
choice movement seeks flexibility for putting children in the right 
learning environment, embracing all high-quality providers. I can tell 
you that Betsy celebrates every child who succeeds in the public school 
system and supports increasing the choices given to parents within this 
system.
    The second narrative says choice weakens traditional public 
schools. Here in Florida, public schools have improved dramatically 
over the past 16 years, even when a vast increase in options were given 
to parents, including charter schools and private school scholarships. 
And notably, those student groups that have traditionally struggled in 
school made the greatest gains, be it on the fourth grade NAEP reading 
results or successful participation in Advanced Placement and industry 
certification courses in high school. Instead of diminishing student 
outcomes in Florida, choice has been a positive game changer.
    Betsy is a champion of families, not institutions. For her, local 
control of education decisions means local control. She trusts parents 
to choose what is in their unique child's best interests, and she 
believes in providing every parent with the resources to pursue those 
decisions.
    I'm confident that, as Secretary, Betsy will pursue every 
opportunity to improve all of our Nation's schools and empower States, 
districts and parents to maximize the number of high-quality learning 
opportunities available to our kids.
    In my almost 30 years of involvement in education reform, I have 
never met a person better versed in policy or more effective in pursing 
reforms that benefit children.
    There is no one more qualified to lead the U.S. Department of 
Education. I encourage the swift confirmation of Betsy DeVos.
            Sincerely,
                                                  Jeb Bush,
                                                          Chairman.

                           Ferris State University,
                                 Big Rapids, MI 49307-2747,
                                                  January 12, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander and committee members: It is a pleasure to 
provide this letter of strong support for Mrs. Betsy DeVos, who has 
been nominated to be the next Secretary of Education. During my 14 
years as a university president in Michigan it has been my honor and 
privilege to observe, and to be encouraged and supported by the 
extraordinary educational commitment of Mrs. DeVos. I believe it would 
be difficult to find a major institution of higher education in west 
Michigan that has not benefited from her support and determination to 
make a difference for our students and their education experience.
    Beyond higher education, it is clear that Mrs. DeVos has unwavering 
interest and desire to help children receive the best possible 
education. Her commitment to choice for students and their parents 
exemplifies an approach that students and their future is of the 
highest priority and utmost importance.
    Mrs. DeVos is a trustee emeritus of our Kendall College of Art and 
Design in Grand Rapids. When this institution needed increased and 
better space to accommodate its growth, she was quick to support our 
renovation of the historic Federal Building and make this dream a 
reality for our students and faculty there. During my 41 years of 
higher education experience I have observed many in the public sector. 
Few people have demonstrated Mrs. DeVos' passion for educational 
excellence and for helping students have access to the education that 
will shape their future success.
    Education needs a leader who will put students first. I believe 
that Betsy DeVos will be that leader for the Department of Education. 
Thank you for considering these thoughts in support of her nomination.
            Sincerely,
                                           David L. Eisler,
                                                         President.

                               Focus on the Family,
                                Colorado Springs, CO 80920,
                                                  January 12, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Alexander: It's my privilege to write and offer my 
unreserved support of Betsy DeVos to serve as U.S. Secretary of 
Education. I'm familiar with Mrs. DeVos' expertise in this field and 
her wholehearted commitment to ensuring that every child is given the 
opportunity to receive a first-class education. America's children need 
more passionate champions like Mrs. DeVos, and I'm confident her tenure 
as Education Secretary would be marked by excellence, effectiveness, 
and a tireless dedication to advocating for our schoolchildren. I trust 
she will be given all due consideration by your committee.
    Again, I'm honored to add my voice to the many who have come 
forward to testify to Mrs. DeVos' qualifications that make her an 
excellent choice for this vital role. All the best to you and your 
fellow committee members in the days ahead.
            Sincerely,
                                                  Jim Daly,
                                                         President.

                      Idaho Charter School Network,
                                           Boise, ID 83702,
                                                   January 3, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: President-elect Donald Trump should be 
commended for nominating Betsy DeVos to be our next Secretary of 
Education.
    Mrs. DeVos is one of the most dedicated and effective education 
reformers in America. In fact, few citizens have done more in our 
Nation to fight for the interests of students, especially at-risk 
children that are often trapped in failing schools because of their zip 
code.
    In Idaho and Ohio, two States where I have worked on education 
reform issues and have had children in public and charter schools, Mrs. 
DeVos has worked side-by-side with advocates for school choice to 
create greater parental control and drive improvements in all K-12 
schools, whether they be public, private or virtual. She has repeatedly 
taken on powerful teachers' unions and an education establishment that 
too often accepts failure to protect the interests of adults.
    As Education Secretary, Mrs. DeVos will fight to return 
decisionmaking back to State and local government, and empower parents 
to choose better schools for their children. There is a reason that the 
Nation's teachers' unions and education establishment are nervous about 
Mrs. DeVos nomination. They know she will upend a failed status quo.
            Sincerely,
                                                Terry Ryan,
                                                         President.

                             Log Cabin Republicans,
                                      Washington, DC 20005,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Chairman Alexander: This week the Senate Committee on Health, 
Education, Labor, and Pensions will consider the nomination of Betsy 
DeVos for Secretary of the U.S. Department of Education. Log Cabin 
Republicans, the country's original and largest organization of LGBT 
conservatives and straight allies, strongly encourages her 
confirmation.
    Ms. DeVos has been maligned in the media as an ``anti-gay'' 
activist--allegations directly stemming from her personal views on 
marriage (which are now immaterial in the aftermath of the Supreme 
Court's 2015 Obergefell ruling), and contributions from her family 
foundation (to which she was not a direct party).
    Far from an ``anti-gay'' firebreather, Ms. DeVos actually has a 
history of working with and supporting gay individuals.
    When Ms. DeVos' Senior Advisor Greg McNeilly was accosted by a 
Michigan State Senator who threatened to make his sexual orientation a 
matter of public record because of his opposition to a constitutional 
amendment banning marriage equality, Ms. DeVos put an end to the 
bullying and harassment (Prominent Gay Republican Said DeVos Stood Up 
for Him, Detroit News, December 3, 2016).
    Furthermore, in 2013, Ms. DeVos called for the resignation of then-
Republican national committeeman Dave Agema for posting erroneous and 
vitriolic anti-gay statements online (``Filthy homosexuals'': Michigan 
GOP Leader Dave Agema's Facebook Post Sparks Furor, M Live, March 28, 
2013).
    Ms. DeVos should be commended for proving that differences of 
opinion related to marriage equality do not equate to anti-gay animus. 
Log Cabin Republicans stands in support of her nomination for Secretary 
of Education, and encourages her swift confirmation.

                                         Gregory T. Angelo,
                                                         President.

 Michigan Association of Non-Public Schools (MANS),
                                         Lansing, MI 48933,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: President-elect Donald Trump should be 
commended for nominating Betsy DeVos to be the next Secretary of 
Education. Ms. DeVos brings with her excellent credentials and a 
passion for children that will enable the U.S. Department of Education 
to be an effective advocate for all students in America.
    Her passion for educational reform is rooted in her strong belief 
that parents must be empowered to select a school that positions their 
children for long-term success and as contributing members of families, 
the workforce, communities, and society. She recognizes that all 
schools are called to ensure that students achieve at the highest 
level. Most importantly Ms. DeVos understands that education policy 
should be driven by State and local officials, not handed down from 
Washington, DC. The States are the true laboratories for education 
reform and she understands that the role the Federal Government can 
play to support States in pursuing reform is critical.
    Ms. DeVos fully recognizes that our K-12 schools must improve their 
performance, particularly in math, science, engineering and technology 
(STEM) education. I am confident that Mrs. DeVos, through her support 
of expanded school choice, parental control and tougher accountability 
measures, can drive real gains in student achievement, helping to make 
the next generation ready to compete and win in the global economy.
    Betsy Devos values the importance of high-performing schools and 
the role that parents must play in the education of their children. I 
am confident that she will be successful in ushering in an era of 
reform that will give America's current generation of school children 
the skills to compete and succeed. I wholeheartedly encourage her 
confirmation as the next Secretary of Education.
            Sincerely,
                                        Brian D. Broderick,
                                                Executive Director.

                         Michigan State University,
                                    East Lansing, MI 48824,
                                                  January 12, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Senator Alexander: It is a great honor to write in support of 
the nomination of Betsy DeVos to serve as the next Secretary of 
Education.
    I have known Betsy for many years and am familiar with her lifelong 
commitment to education at all levels. Though Betsy's great passion 
focuses on the education of young people from pre-Kindergarten through 
their high school years, I can attest to her commitment to the 
education of all people at all levels.
    As a member of the Michigan State University Board of Trustees for 
over 12 years, having served both as chair of the finance committee and 
vice-chairperson of the board, I have directly witnessed Betsy's impact 
on higher education. Betsy has a deep understanding of how the cost of 
an education can affect accessibility and can directly impact student 
success. She has a unique commitment to low-income, minority and under-
served students and their struggle to achieve a college degree and she 
has directed much of her energy toward making that happen.
    In addition to her policy and advocacy, Betsy has also been 
directly involved in education with a ``hands-on'' approach. She has 
mentored students, she has gone into classrooms and tutored students, 
and she has invited students into her home to work with them 
personally. In short, Betsy's commitment to education goes well beyond 
the theoretical; it is real and it is personal. Betsy wants all members 
of our society to have the skills they need to succeed and she 
appreciates that so often education is one of the most critical 
elements driving that success.
    In addition to her years of experience and her passionate 
commitment to education for all, Betsy is a thoughtful doer who can 
effectively lead the Department of Education. Betsy will be able to 
effectively buildupon your work represented by the Report of the Task 
Force on Federal Regulation of Higher Education, working to lessen the 
regulatory burdens on institutions of higher education and the students 
who attend them and, in doing so, decrease the cost of and increase 
accessibility to a college degree.
    In sum, it is hard to imagine an individual more committed to 
education as a mechanism to create a more robust, productive and 
peaceful society than Betsy DeVos. And it is hard to imagine a person 
more capable of fulfilling that promise, of actually doing the work, 
than Betsy DeVos.
    I appreciate the opportunity to provide the committee with this 
recommendation and thank you for allowing me to do so.
            Sincerely,
                                            Melanie Foster.
                                 ______
                                 
                   Letters of Concern and Opposition
                     Congress of the United States,
                                      Washington, DC 20515,
                                                  January 12, 2017.

Hon. Lamar Alexander, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
455 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: As co-chairs of 
the congressional LGBT Equality Caucus, we write to express our deep 
concern with President-elect Donald Trump's nominee for the Secretary 
of the U.S. Department of Education, Betsy DeVos. While Ms. DeVos' 
stances on a number of public education issues raise concerns, we 
cannot hold our silence regarding her opposition to the rights of 
lesbian, gay, bisexual, and transgender (LGBT) students.
    Betsy DeVos' career has been marked by repeated attempts to 
undermine the rights of the LGBT community. She and her family have 
donated extensively to groups which promote the idea that students who 
identify as LGBT must undergo ``conversion'' therapy and have also 
affiliated with groups that oppose anti-bullying legislation. The next 
Secretary of Education must represent all students in our country. 
Anyone who promotes such fervently anti-LGBT viewpoints is wholly 
unqualified to serve as the Secretary of Education.
    Since 1998, Betsy DeVos and her family's foundations have donated 
at least $6.1 million to Focus on the Family, a right-wing organization 
which has spent millions of dollars attempting to defeat marriage 
equality amendments at the State level. Even more troubling, this 
organization supported by the DeVos family promotes ``conversion 
therapy,'' opposes the right of LGBT parents to adopt children, and has 
referred to transgender individuals as ``mentally ill.'' This 
organization has even gone so far as to oppose anti-bullying policies 
and opposes basic workplace protections for LGBT individuals. The DeVos 
family's support for anti-LGBT groups and policies extends beyond just 
this organization to many other groups known for their anti-LGBT 
activities, such as:

    <bullet> $1,000,000 to the Institute for Marriage and Public 
Policy, which has claimed that the overturning of the Defense of 
Marriage Act amounted to a ``fatwa;"
    <bullet> $15,000 to the Becket Fund for Religious Liberty, which 
has opposed adoption with same-sex couples;
    <bullet> $433,750 to the Council for National Policy, a highly 
secretive group that is led by extremists like Focus on the Family's 
James Dobson among other extremists; and
    <bullet> $13,498,000 to the Heritage Foundation, which has stated 
that ``Despite activist judges' opinions, the majority of Americans 
continue to affirm the reasonable conclusion that marriage is the union 
of one man and one woman.''

    The DeVos family does not stop with contributions to intolerant 
organizations as they also support anti-LGBT politicians. For example, 
the DeVos family--including Ms. DeVos--were top contributors to 
Michigan State Representative Andrea LaFontaine, who sponsored 
legislation allowing adoption agencies to discriminate against LGBT 
parents and deny them the ability to adopt a child.
    The LGBT community has made significant and long overdue 
advancements when it comes to equality in education. During President 
Obama's tenure in office, the Department of Education took important 
steps to combat bullying and ensure that title IX, which prohibits 
discrimination based on sex, appropriately reflects the rights of 
transgender students. It is imperative that the rights of LGBT students 
are adequately protected moving forward.
    As you move to consider the nomination of Betsy DeVos, we strongly 
encourage you to seek out answers regarding Ms. DeVos' stance on 
important education equity issues, including her views on protecting 
LGBT students from bullying and discrimination in K-12 and higher 
education spaces. We are particularly troubled by Betsy DeVos' past 
support for inhumane ``conversion therapy'' treatments and believe it 
is imperative that any Secretary of Education nominee denounce such 
practices before being confirmed.
    As Members of the LGBT community, we know our schools must be a 
safe place for all children. As you consider the nomination of Betsy 
DeVos for Secretary of Education, we strongly encourage you to stand up 
for the civil rights of LGBT students and ensure the next Secretary 
opposes any action to roll back our progress toward equality.
            Sincerely,
                                                Mark Pocan,
                                                Member of Congress.

                                           David Cicilline,
                                                Member of Congress.

                                      Sean Patrick Maloney,
                                                Member of Congress.

                                               Jared Polis,
                                                Member of Congress.

                                               Mark Takano,
                                                Member of Congress.

                     Congress of the United States,
                                      Washington, DC 20515,
                                                  January 17, 2017.

Hon. Lamar Alexander, Chairman,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: As Members of 
the Congressional Tri-Caucus--composed of the Congressional Asian 
Pacific American Caucus, the Congressional Black Caucus, and the 
Congressional Hispanic Caucus--we are dedicated to ensuring that all 
children, particularly children most at-risk in our society, such as 
children of color, low-income children, children with a disability, 
children of migrant and seasonal farmworkers, and children learning 
English, have access to a high quality education. A child's educational 
opportunities should not be determined by their zip code, what language 
they speak at home, or the income of their parents. We are committed to 
advancing a nominee for the Secretary of Education who will continue 
the progress we have made to improve outcomes for these children and 
will enforce education and civil rights laws with fidelity. 
Unfortunately, Betsy DeVos is committed to moving us in the opposite 
direction.
    Betsy DeVos is a billionaire who has spent her career advocating 
for the privatization of vital government services, which has adversely 
impacted the rights and opportunities of historically disadvantaged 
students and families. She advocates for moving taxpayer dollars away 
from public schools and toward unaccountable for-profit and non-public 
schools. DeVos was a key architect of Michigan's 1993 charter school 
law, which allows almost anyone to open a charter school or run a 
failing school for years without providing any recourse for action.\1\ 
In Michigan, where 8 out of 10 charter schools are for-profit,\2\ the 
State's irresponsible charter school law allows such schools to secure 
revenue, even while failing to serve children and families. Despite a 
clear mandate to improve this system, DeVos advocated against 
increasing accountability and transparency for Michigan's failing 
charter school sector, even at the request of a broad, bipartisan 
coalition of community members.
---------------------------------------------------------------------------
    \1\ Hall, Austin. ``Issue Brief: President-elect Trump's Education 
Secretary Selection.'' Washington Partners, November 20, 2016, 
http:wpllc.net/wp-content/uploads/2016/12/DeVos-Bio-Brief.pdf; and 
Prothero, Arianna. ``Betsy DeVos Helped Create Michigan's Charter 
Sector. Here's How it's Doing.'' Education Week, December 7, 2016, 
http//blogs.edweek.org/edweek/charterschoice/2016/12/
betsy_devos_helped_create_michigan_charter_sector_how_its_
doing.html.
    \2\ Gross, Allie. ``Did Michigan waste $3.5 Million on Charter 
Schools with Questionable Futures?'' Detroit Metro Times, November 18, 
2015, http://www.metrotimes.com/detroit/did-the-michigan-department-of-
education-waste-35-million-on-charter-schools-with-questionable-
futures/Content?oid=2381723.
---------------------------------------------------------------------------
    DeVos's privatization agenda has been devastating for the people of 
Michigan, and particularly for children of color in urban areas like 
Detroit and Flint.\3\ Privatization of public education is a failed 
approach, allowing for-profit corporations to maximize value to 
shareholders rather than students. Introducing incentives to make money 
by exploiting the needs of poor students and families is a failing 
strategy that undermines core civil rights protections and jeopardizes 
educational opportunity for our most vulnerable children. The failure 
of privatization in Michigan is staggering--according to the National 
Assessment of Education Progress, Detroit is the lowest performing 
urban school system in the country.\4\ DeVos's advocacy for private 
school vouchers and for-profit charter schools has led to increased 
segregation within Detroit and across Michigan.\5\ Instead of using her 
fortune to support Detroit and Michigan public schools to provide an 
excellent education for all children, DeVos has worked to dismantle and 
defund already cash-strapped school districts to line the pockets of 
profit-seeking corporations. The ideology to which the nominee 
subscribes ultimately treats vulnerable children as a means to a 
profit-seeking end. This worldview is counter to the charge of the U.S. 
Department of Education and has no place in public education.
---------------------------------------------------------------------------
    \3\ Dawsey, Chastity Pratt and Ron French. ``Betsy DeVos's Michigan 
Legacy.'' Bridge Magazine, December 6, 2016, http://bridgemi.com/2016/
12/betsy-devoss-michigan-legacy/.
    \4\ Lewis, Shawn D. ``Detroit Worst in Math, Reading Scores among 
Big Cities.'' The Detroit News, October 28, 2015, http://
www.detroitnews.com/story/news/local/detroit-city/2015/10/28/national-
assessment-educational-progress-detroit-math-reading-results/74718372/.
    \5\ Wilkinson, Michael. ``Betsy DeVos and the Segregation of School 
Choice.'' Bridge Magazine, November 29, 2016, http://bridgemi.com/2016/
11/betsy-devos-and-the-segregation-of-school-choice/.
---------------------------------------------------------------------------
    Additionally, DeVos has advocated against Federal involvement in 
education. The Supreme Court case's decision in Brown v. Board of 
Education affirmed that the Federal Government has a unique and 
important role to play in protecting and promoting civil rights and 
advancing an equitable education system and society. The Elementary and 
Secondary Education Act is fundamentally a civil rights law, aimed at 
ensuring that every American child had access to a quality education 
and the American dream. Tri-Caucus Members were proud to play an 
important role in preserving the Elementary and Secondary Education 
Act's key guardrails for educational equity last year during 
negotiations leading to enactment of the Every Student Succeeds Act. 
However, these guardrails are only as good as their implementation. It 
will be up to the new Secretary of Education to enforce these 
guardrails, and DeVos is clearly not up to this task.
    At a time in which children and families in our districts and 
across the country are concerned about their safety, their rights, and 
their opportunities, the last thing we need is a billionaire Secretary 
of Education with no experience in public schools who has worked to 
turn public education into a windfall for shareholders. We strongly 
urge the Senate Health, Education, Labor, and Pensions Committee to 
vote no on her nomination and instead confirm a Secretary of Education 
who champions civil rights protections and will advance the goal of 
quality education for each and every child.
            Sincerely,

                          Cedric L. Richmond, Chair, Congressional 
                        Black Caucus (CBC); Michelle Lujan Grisham, 
                        Chair, Congressional Hispanic Caucus (CHC); 
                        Judy Chu, Chair, Congressional Asian Pacific 
                        American Caucus (CAPAC); Members of Congress: 
                        Adam B. Schiff, Adriano Espaillat, Alan S. 
                        Lowenthal, Albio Sires, Ben Ray Lujan, Alma S. 
                        Adams, Bonnie Watson Coleman, Andre Carson, 
                        Brenda L. Lawrence, Barbara Lee, Colleen 
                        Hanabusa, Joyce Beatty, Danny K. Davis, Dwight 
                        Evans, G. K. Butterfield, Eddie Bernice 
                        Johnson, Grace F. Napolitano, Eleanor Holmes 
                        Norton, Grace Meng, Elijah E. Cummings, Gwen 
                        Moore, Frederica S. Wilson, Hakeem S. Jeffries, 
                        Alcee L. Hastings, John Conyers, Jr, Henry C. 
                        ``Hank'' Johnson, Jr., John Lewis, Jackie 
                        Speier, Jose E. Serrano, Janice D. Schakowsky, 
                        Juan Vargas, Joaquin Castro, Karen Bass Keith 
                        Ellison, Marc A. Veasey, Raja Krishnamoorthi, 
                        Marcia L. Fudge, Linda T. Sanchez, Mark Takano, 
                        Lucille Roybal-Allard, Maxine Waters, Luis V. 
                        Gutierrez, Bennie G. Thompson, Norma J. Torres, 
                        Ro Khanna, Nydia M. Velazquez, Robert C. 
                        ``Bobby'' Scott, Pete Aguilar, Robin L. Kelly, 
                        Pramila Jayapal, Ruben Gallego, Raul M. 
                        Grijalv, Ruben Kihuen, Salud O. Carbajal, Val 
                        Butler Demings, Sheila Jackson Lee, Wm. Lacy 
                        Clay, Ted Lieu, Yvette D. Clarke, Terri A. 
                        Sewell, A. Donald McEachin, Tony Cardenas, 
                        Donald M. Payne, Jr., Jerrold Nadler, and Doris 
                        O. Matsui,

                                            AFSCME,
                                 Washington, DC 20036-5687,
                                                   January 9, 2017.
    Dear Senator: On behalf of the 1.6 million members of the American 
Federation of State, County and Municipal Employees (AFSCME), I am 
writing to express our strong opposition to the nomination of Betsy 
DeVos to be the next U.S. Secretary of Education .
    The Department of Education plays an essential role for our 
country, ``to promote student achievement and preparation for global 
competitiveness by fostering academic excellence and ensuring equal 
access.''AFSCME recognizes that high quality, accessible public 
education is a lynchpin for individuals to pursue and achieve the 
American dream and to maintain our country's role as a world leader. 
America needs an experienced, qualified Secretary of Education 
committed to upholding the Department's mission to foster, monitor and 
ensure equal access to public education and to continue successful 
efforts to improve underperforming public schools and increase the 
number of students graduating high school and college.
    Betsy DeVos, however, lacks the necessary qualifications. She has 
no public education experience or training. Unlike any previous 
Education Secretary, she has never been a teacher or school 
administrator, served on any board of education, directed any public 
education or higher education programs, attended a public school or 
even had her own children attend a public school.
    Rather, DeVos' only experience in the education sector is as a 
lobbyist and political donor, where her family's wealth has bought 
influence to push for the transfer of public resources to private 
schools, including through voucher programs. Yet, voucher programs have 
been proven ineffective, failing to improve student achievement and 
deprive students of civil rights protections ensured by law to public 
school students. Vouchers also divert the limited resources available 
to public schools away from public schools serving all children to fund 
the education of a few, select voucher students.
    DeVos, through her Great Lakes Education Project PAC, was 
unsuccessful at funding efforts to create private school voucher 
programs with public funding in her home State of Michigan. She pushed 
for the widespread expansion of for-profit charter schools and opposed 
efforts to hold these schools accountable. The results in Michigan are 
devastating. Michigan now diverts $1 billion in public education funds 
to charter schools, 70 percent of which are run by for-profit 
organizations and the majority of which perform below the State 
average. As a result, Michigan's national rankings are now lower in 
math and reading tests than 20 years ago before this failed experiment.
    Betsy DeVos lacks the experience, qualifications and commitment to 
improving public education that Americans expect and deserve from their 
Secretary of Education. AFSCME strongly urges you to continue to 
fulfill your constitutional responsibility to thoroughly review and 
assess her qualifications, commitment to public education, any 
potential conflicts and impact on public education. AFSCME is strongly 
opposed to the nomination of Betsy DeVos to be U.S. Secretary of 
Education.

            Sincerely,
                                                Scott Frey,
                            Director of Federal Government Affairs.

             American Federation of Teachers (AFT),
                                           January 6, 2017.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC. 20015.

    Dear Ranking Member Murray: On behalf of the 1.6 million members of 
the American Federation of Teachers, I strongly urge you to oppose the 
nomination of Betsy DeVos to be secretary of education. DeVos has 
neither the qualifications nor the experience to serve as the Nation's 
secretary of education, and her record clearly demonstrates that, if 
confirmed, she will undermine and seek to privatize public education.
    AFT members are committed to protecting and expanding a public 
education system that reinforces our country's promise of economic 
opportunity, democratic values rooted in pluralism, and equality; that 
nurtures children in a safe learning environment that is adequately 
supported, not defunded or privatized; and that includes public higher 
education that is affordable and inclusive and promotes free inquiry.
    And AFT members are not alone. In a recent poll conducted by Hart 
Research Associates, American voters said they believe we need a 
secretary of education whose priority is strengthening and improving 
all public schools (78 percent) rather than someone whose priority is 
helping parents send their children to private and nontraditional 
public schools (8 percent). Seventy-three percent of voters want a 
secretary of education who will ensure every child has access to a good 
public school in his or her community that provides safe conditions, an 
enriching curriculum with both academics and extras such as music and 
art, and effective teachers.
    DeVos' education agenda is antithetical to the direction Americans 
want the next secretary of education to take. First, she is simply not 
qualified to serve as America's secretary of education. She has no 
public education experience or training of any kind; she has never been 
a teacher or school administrator, served on any public board of 
education, or even attended a public school.
    Indeed, DeVos' only involvement in education has been funding 
efforts to undermine and privatize our public schools. The job of the 
secretary of education is to support and strengthen America's public 
education system. Voters want strong neighborhood public schools that 
are available to all children, not private school vouchers and for-
profit charters. However, DeVos and her family for decades have wielded 
their billions to undermine public education, while promoting private, 
for-profit schooling with little or no regulation, transparency, 
accountability or respect for civil rights or the Constitution's 
separation of church and State.
    To this end, DeVos has made private school vouchers a priority. In 
2000, she and her husband funded a multimillion-dollar and ultimately 
unsuccessful ballot initiative to create school vouchers in Michigan. 
Voters rejected the plan to shift public dollars to private schools by 
a margin of 69 to 31 percent.
    Michigan voters knew then, as we know now, that voucher programs 
have proven ineffective, lack accountability to taxpayers, and deprive 
students of rights provided to public school students. Sixty-eight 
percent of those polled in the recent Hart Research survey stated that 
DeVos should be opposed because of her support for vouchers. Vouchers 
divert desperately needed resources away from public schools, which 
serve all children, to fund the education of a few select voucher 
students. In addition, private school vouchers violate the fundamental 
guarantee of religious freedom by funding religious schools with public 
money.
    DeVos has used her influence to push an anti-public education 
agenda that defunds and destabilizes public schools and communities. It 
is clear that DeVos, who has never had any experience in public 
education or even attended or sent her children to public schools, and 
who seeks to undermine public schools, is not qualified to be the head 
of the U.S. Department of Education.
    Again, I urge you to vote no on the confirmation of Betsy DeVos.
            Sincerely,

                                          Randi Weingarten,
                                                         President.

     Americans United for Separation of Church and 
                                             State,
                                      Washington, DC 20005,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Americans United 
for Separation of Church and State writes to voice our strong 
opposition to the nomination of Betsy DeVos for Secretary of Education. 
We oppose taxpayer-funded private school vouchers because they drain 
funds from our public schools to support private, religious schools. 
Accordingly, we oppose Ms. DeVos, who has been a champion for private 
school vouchers for many years, and has said she will advocate for 
``school choice,'' including vouchers, as the Secretary of 
Education.\1\
---------------------------------------------------------------------------
    \1\ Alyson Klen, Trump, DeVos Call for Ending Common Core at 
Michigan Rally, Educ. Week (Dec. 11, 2016), http://biogs.edweek.org/
edweek/campaign-k-12/2016/12/trump_devos_call
_for_ending_co.html.
---------------------------------------------------------------------------
    Ms. DeVos has pushed for States across the country to adopt private 
school vouchers, in large part to promote her specific religious 
viewpoint. She has stated that private school vouchers are a means ``to 
confront the culture in which we all live today in ways which will 
continue to help advance God's kingdom,'' and a way to let families 
choose to ``educate their children in a school that reflects their 
world view.'' \2\
---------------------------------------------------------------------------
    \2\ Benjamin Wermund, Trump's Education Pick Says Reform Can 
``Advance God's Kingdom'', Politico (Dec. 2, 2016).
---------------------------------------------------------------------------
    Indeed, vouchers primarily flow to private religious schools.\3\ 
This threatens one of the most dearly held principles of religious 
liberty: government should not compel any citizen to furnish funds in 
support of a religion with which he or she disagrees, or even a 
religion with which he or she does agree. Vouchers also threaten the 
autonomy of religious schools by opening them up to government audits, 
control, and interference. Parents certainly may choose a religious 
education for their children, but they may not insist that the 
taxpayers pay for it.
---------------------------------------------------------------------------
    \3\ See, e.g., U.S. Dep't of Ed., Evaluation of the D.C. 
Scholarship Program: Final Report, 17-18 (June 2010) (finding that 
approximately 80 percent of the students participating in the DC 
voucher program attend religious schools).
---------------------------------------------------------------------------
    Private school vouchers have numerous other flaws as well. They 
undermine public schools, fail to improve educational outcomes,\4\ and 
lack accountability and oversight. Private school vouchers also fail to 
provide the same rights and protections to students that they would 
otherwise have in public school, including those in Titles VI and IX of 
the Civil Rights Act, the Individuals with Disabilities Education Act, 
Title II of the Americans with Disabilities Act, and the Every Student 
Succeeds Act.
---------------------------------------------------------------------------
    \4\ Recent studies of both the Louisiana and Ohio voucher programs 
revealed that students who used vouchers actually performed worse on 
standardized tests than their peers who are not in the voucher 
programs. Morgan Winsor, Louisiana's Controversial Voucher Program 
Harms Poor Students, Lowers Grades, New Study Finds, Int'l Bus. Times, 
(Jan. 10, 2016), http://www.ibtimes.com/louisianas-controversial-
voucher-program-harms-poor-students-lowers-grades-new-study-2258417; 
David Figlio and Krzysztof Karbownik, Evaluation of Ohio's EdChoice 
Scholarship Program: Selection, Competition, and Performance Effects 32 
(Fordham Institute 2016), available at https://edex.s3-us-west-
2.amazonaws.com/publication/pdfs/FORDHAM%20
Ed%20Choice%20Evaluation%20Report_online percent20edition.pdf.
---------------------------------------------------------------------------
    Private school vouchers hide under the umbrella of school choice, 
yet paradoxically do not provide any actual choice to parents or 
students in the program; rather, they funnel taxpayer funds to private 
schools that, unlike public schools, have the ability to accept or 
reject students based on a number of characteristics including sex, 
religion, sexual orientation and gender identity, economic status, and 
academic achievement.
    Ms. DeVos' nomination is deeply troubling because she has been 
selected to serve as head of the Department of Education, but has 
repeatedly sought to undermine the public school system through her 
advocacy for private school vouchers. Therefore, we oppose Ms. DeVos' 
nomination to be Secretary of Education. During the committee hearing 
on her nomination, we urge you to question her on her longstanding 
support for private school vouchers and her plans to continue pursuing 
policies that would undercut the very education system she is meant to 
lead.
            Sincerely,
                                            Maggie Garrett,
                                              Legislative Director.

                                    Elise Helgesen Aguilar,
                                       Federal Legislative Counsel.

            The Leadership Conference on Civil and 
                                      Human Rights,
                                      Washington, DC 20036,
                                                   January 9, 2017.

    Dear Senator: On behalf of The Leadership Conference on Civil and 
Human Rights, a coalition of more than 200 national organizations 
committed to promote and protect the civil and human rights of all 
persons in the United States, we are writing to express our strong 
opposition to the confirmation of Betsy DeVos to be the next U.S. 
Secretary of Education. All parents and students in this country--a 
majority of whom are of color or are low-income\1\--want the best 
education, support and dignity for their own children. We stand with 
them and cannot support a nominee who has demonstrated that she seeks 
to undermine bedrock American principles of equal opportunity, 
nondiscrimination and public education itself.
---------------------------------------------------------------------------
    \1\ See: http://www.southerneducation.org/0ur-Strategies/Research-
and-Publicationss/New-Majority-Diverse-Majority-Report-Series/A-New-
Majority-2015-Update-Low-Income-Students-Now.
---------------------------------------------------------------------------
    DeVos argues her opposition to public education serves students, 
especially students who are the most vulnerable.\2\ We reject the 
notion that children are well-served by the dismantling of a public 
school system that serves 90 percent of all American students\3\ or by 
the elimination of civil rights protections that require the Federal 
Government to intervene when students are discriminated against.\4\ The 
civil rights community has served as agitator and critic of schools and 
school systems that failed to meet the needs of students of color and 
low-income students since long before Thurgood Marshall successfully 
argued the Brown v. Board of Education decision.
---------------------------------------------------------------------------
    \2\ See: http://www.federationforchildren.org/wp-content/uploads/
2015/03/Betsy-SXSWedu-speech-final-remarks.pdf?e40fe9.
    \3\ See: https://nces.ed.gov/fastfacts/display.asp?id=372.
    \4\ See: http://c.ymcdn.com/sites/www.copaa.org/resource/resmgr/
2016_Conference/COPAA
_Voucher_paper_final_R6.pdf.
---------------------------------------------------------------------------
    Opportunity and achievement gaps that demonstrate longstanding bias 
against students of color, English learners, Native Americans, girls, 
students with disabilities, low-income students and other marginalized 
students are indefensible and unacceptable and we have fought at the 
Federal, State, local and classroom level to ensure every student the 
quality education to which they are entitled by law and birth. Rather 
than joining with us in support of accountability, oversight and 
intervention, DeVos instead argues for an unaccountable education 
system which serves only to exacerbate inequality of opportunity.\5\
---------------------------------------------------------------------------
    \5\ See: http://www.politico.com/story/2016/12/betsy-devos-
michigan-school-experiment-2323
99.
---------------------------------------------------------------------------
    While parent frustration with schools failing to meet their child's 
need is real and parents have waited far too long for meaningful action 
by policymakers, the result of anti-public education agendas such as 
DeVos' has often, as in Louisiana\6\ been worse outcomes for vulnerable 
students. The Michigan example, where DeVos' impact on education policy 
and the proliferation of unregulated and for-profit charter schools is 
considerable, demonstrates clearly that this agenda does not result in 
the improved outcomes students, parents and communities deserve.\7\
---------------------------------------------------------------------------
    \6\ See: http://www.nber.org/papers/w21839.
    \7\ See: http://bridgemi.com/2016/12/betsy-devos-michigan-legacy/.
---------------------------------------------------------------------------
    Equal access to education is a cornerstone of the civil rights 
movement. The Secretary of Education's role as the enforcer of 
education and civil rights laws\8\ is central to advancing our shared 
vision of an inclusive and diverse system of high-quality public 
education that enables every student to live up to their potential. 
DeVos has demonstrated no previous commitment to ensuring equal 
educational opportunity in schools.
---------------------------------------------------------------------------
    \8\ Department of Education Organization Act (Public Law 96-88).
---------------------------------------------------------------------------
    While she is entitled to her personal views as a private citizen, 
government officials are charged with enforcing our laws equally. 
DeVos' connections to anti-LGBTQ organizations including those that 
promote dangerous and discredited ``conversion therapy'',\9\ groups 
that seek to limit a woman's right to health care\10\ and civil rights 
protections for survivors of violence,\11\ and her opposition to 
affirmative action policies\12\ demonstrate a lack of respect and 
appreciation for the diversity of our Nation's classrooms and fail to 
recognize a long and pernicious history of discrimination against 
groups of students. While we have heard little of DeVos' record with 
regard to the rights and interests of English learners, immigrant 
students, students with disabilities and religious minorities, we are 
deeply troubled by the unacceptable rhetoric of the President-elect 
during his campaign and the absence of a record of DeVos' support for 
these students.
---------------------------------------------------------------------------
    \9\ See: http://www.politico.com/story/2016/11/betsy-devos-
education-secretary-civil-rights-gay-transgender-students-231837.
    \10\ See: https://rewire.news/article/2016/03/21/devos-family-
promoting-christian-orthodoxy-political-donations/.
    \11\ See: https://www.insidehighered.com/news/2016/11/28/betsy-
devos-trumps-choice-educa-
tion-secretary-has-unclear-higher-ed-priorities.
    \12\ See: http://www.insidephilanthropy.com/home/2016/3/1/school-
choice-but-much-more-ma-
king-sense-of-devos-family-phi.html.
---------------------------------------------------------------------------
    When compared with Secretaries of Education through the history of 
the department, DeVos' lack of experience stands out.\13\ She has never 
been an educator or worked directly with children and families in 
public schools. She has never led a school, district or State agency 
tasked with educating students. She has never been a public school 
parent or a public school student. This lack of experience makes her 
uniquely unfamiliar with the challenges and opportunities facing the 
Nation's students, families, educators and schools.
---------------------------------------------------------------------------
    \13\ See: http://blogs.edweek.org/edweek/campaign-k-12/2016/12/
betsy_devos_would_
be_first_ed_.html.
---------------------------------------------------------------------------
    The U.S. Department of Education is responsible for implementing 
and enforcing laws protecting students from discrimination on the basis 
of race, color, national origin, sex and disability and those laws that 
provide for educational opportunity from early childhood through 
graduate school. The person responsible for leading that department 
must absolutely be committed to respecting, valuing and protecting 
every single student in this country--without regard to LGBTQI status, 
family income, race, home language, gender, religion, disability or 
immigration status. Our nation's laws, economy, future and children 
deserve no less.
            Sincerely,
                                            Wade Henderson,
                                                   President & CEO.

                                              Nancy Zirkin,
                                          Executive Vice President.

                                 Legal Aid At Work,
                              San Francisco, CA 94104-4244,
                                                   January 9, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: We write to 
strenuously oppose the confirmation of Betsy DeVos as Secretary of 
Education. Legal Aid at Work (formerly Legal Aid Society-Employment Law 
Center) is a 100-year-old nonprofit providing free legal services 
across California to low-income individuals and their families who face 
unlawful discrimination and other injustices. We advance equality and 
access in the workplace, schools, and other community and public 
facilities, including through enforcement of title IX.
    Given Ms. DeVos' long-running record of hostility toward public 
schools and the rights of those who are most vulnerable in our 
educational systems, we believe she is unfit to serve as the Nation's 
overseer of public education. Further, Ms. DeVos has a history of 
supporting causes that promote diversion of public funding toward 
religious and private education, effectively rendering many schools 
exempt from title IX's crucial civil rights protections.
    America's schoolchildren, teachers and administrators deserve an 
Education Secretary who is deeply committed to protecting and serving 
all students--regardless of their gender, religion, race, class, or 
sexual orientation and one who will strengthen the public school system 
while ensuring that every person has quality educational access. 
However, Ms. DeVos' record includes the following troubling actions, 
suggesting her lack of fitness with respect to protecting and enforcing 
civil rights in the educational context.

    <bullet> Establishing the DeVos Center for Religion and Civil 
Society, within the Heritage Foundation, which funds research and 
publications opposed to same-sex marriage and transgender rights;
    <bullet> Financially supporting a number of organizations that 
oppose LGBT equality;
    <bullet> Funding groups that seek to limit women's reproductive 
freedom, and;
    <bullet> Supporting school vouchers in a manner risking 
discrimination and lower educational outcomes.

    Furthermore, both the lacking transparency and inadequacy of Ms. 
DeVos' responses to the committee's questionnaire reflect red flags 
regarding her capacity to serve.
    For these reasons, we believe Ms. DeVos is unqualified to serve as 
Education Secretary and we urge you to oppose her confirmation.
            Sincerely,
                                                Kim Turner,
                                             Senior Staff Attorney.

           National Council of Jewish Women (NCJW),
                                                  January 11, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
90,000 members and supporters of the National Council of Jewish Women 
(NCJW), I write to urge you to reject the nomination of Betsy DeVos to 
be Secretary of the U.S. Department of Education.
    Betsy DeVos has spent most of her adult life promoting charter 
schools at the expense of public education and pushing for publicly 
funded vouchers for religious schools. She has used her considerable 
family wealth in her home State of Michigan to denigrate public 
education, shift funds from public school budgets to vouchers and 
charter schools, and undermine the very idea of public education, which 
she terms a ``government monopoly.''
    Government funding of religious institutions threatens the First 
Amendment by putting the government in the position of endorsing or 
rejecting religious groups when deciding how to award scarce humans-
needs funding. NCJW vigorously opposes Federal funding for faith-based 
institutions that discriminate in their hiring policies. Religious 
liberty and the separation of religion and State are constitutional 
principles that must be protected and preserved in order to maintain a 
democratic society.
    In addition to her support of school vouchers, DeVos has donated 
millions of dollars to anti-LGBTQ causes under the auspices of her 
family's charities. DeVos' own foundation donated hundreds of thousands 
of dollars to Focus on the Family, an organization that labels 
transgender people ``broken.'' The Department of Education is 
responsible for implementing and enforcing laws protecting students 
from discrimination on the basis of race, color, national origin, sex 
and disability and those laws that provide for educational opportunity 
from early childhood through graduate school. The person responsible 
for leading that department must absolutely be committed to respecting, 
valuing and protecting every single student in this country--without 
regard to LGBTQ status, family income, race, home language, gender, 
religion, disability or immigration status. DeVos' history raises 
doubts as to whether she will protect the safety of LGBTQ students in 
our schools.
    If confirmed, DeVos would undermine one of the crowning 
achievements of American democracy--free public education for all 
students through high school. We urge you to reject her confirmation.
            Sincerely,
                                          Nancy K. Kaufman,
                             CEO, National Council of Jewish Women.

              National Education Association (NEA),
                                      Washington, DC 20036,
                                                   January 9, 2017.

U.S. Senate,
Health, Education, Labor, and Pensions Committee,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senator(s): On behalf of the three million members of the 
National Education Association and the students they serve, we wish to 
express in the strongest terms, our opposition to the nomination of 
Betsy DeVos to be Secretary of Education. As the committee begins its 
hearing process, we note that based on her record, Mrs. DeVos lacks the 
experience and qualifications to lead the U.S. Department of Education 
in furthering its mission to foster educational excellence and ensure 
equal access to education for all students.
    Public education is the foundation of our 21st-century democracy. 
Educators strive every day to make public schools a place that welcomes 
every student and prepares them to reach their full potential and 
contribute to our society, economy, and citizenry. We expect our 
elected leaders and policymakers, regardless of party affiliation, to 
value and support this uniquely American vision for a strong and 
inclusive public education system that ensures that all students can 
succeed, regardless of their ZIP code.
    Sadly, Mrs. DeVos has consistently worked against these values, and 
her efforts over the years have done more to undermine public education 
than support all students. Further, Mrs. DeVos has zero experience with 
the public school system, either as a student, educator, administrator, 
or even as a parent. She would be the first Secretary of Education with 
no experience with public schools, including in early childhood and 
higher education.
    As an advocate and political donor, Mrs. DeVos has consistently and 
systematically worked to dismantle and privatize our public schools. As 
chair of multiple education reform advocacy groups, Mrs. DeVos has been 
a national leader in supporting and promoting private school vouchers 
and attacking political adversaries who do not support these schemes to 
privatize public education.\1\ Through aggressive political action 
committees, Mrs. DeVos has sought to wield significant influence over 
policymakers but has also done so outside of the lines of campaign 
finance laws. Not only did her All Children Matter Political Action 
Committee knowingly violate Ohio campaign finance law but as of 
December 2016 it had not paid the fines for breaking the laws despite 
the events taking place 10 years ago.\2\ Yet if confirmed as Secretary 
of Education, Mrs. DeVos will have oversight of the Nation's Federal 
student loan program, including ensuring borrowers repay loans on time.
---------------------------------------------------------------------------
    \1\ Philanthropy Roundtable, Spring 2013.
    \2\ Politico, November 29, 2016.
---------------------------------------------------------------------------
    For decades, Mrs. DeVos has lobbied for and bankrolled failed 
schemes, like private school vouchers and tuition tax credits--which 
take away funding and local control from our public schools that 
educate 9 out of 10 students--to fund private schools at taxpayers' 
expense. These schemes fail to help our most vulnerable students and 
they ignore or exacerbate glaring opportunity gaps. Vouchers do not 
create choice for parents so much as choice for private schools--they 
can reject students based on economic status, academic achievement, 
disabilities, or even gender.
    Importantly, vouchers deprive students of the rights and 
protections they receive in public schools. Despite receiving public 
money, private schools that participate in voucher programs are not 
subject to the same civil rights laws, and do not face the same 
accountability and transparency standards that public schools must 
meet, including those in Title VI, Title IX, and the Individuals with 
Disabilities Education Act.
    There is no significant evidence that schemes like vouchers or for-
profit charters improve the performance of either the students 
receiving them or those who remain in public schools. In Mrs. DeVos' 
home State of Michigan, where she is considered an architect of the 
for-profit charter school system, 8 in 10 Michigan charters had 
academic achievement below the State average in both reading and math, 
according to the Center for Research on Educational Outcomes.\3\ In 
2011, Mrs. DeVos and the Great Lakes Education Project, an education 
reform advocacy group she founded, successfully lobbied to lift a cap 
on the number of charter schools in Detroit including repealing the 
requirement to issue yearly reports monitoring charter school 
performance.\4\ After the cap was lifted the number of charter schools 
increased dramatically and 18 charters whose existing schools were at 
or below the district's performance expanded or opened new schools.\5\ 
The situation constructed by DeVos has been described by charter 
advocates as the biggest school reform disaster in the country.\6\
---------------------------------------------------------------------------
    \3\ Center for Research on Educational Outcomes, January 1, 2013.
    \4\ New York Times, December 12, 2016.
    \5\ New York Times, June 28, 2016.
    \6\ New York Times, November 25, 2016.
---------------------------------------------------------------------------
    We also wish to raise concerns regarding the application of 
students' civil rights protections based on Mrs. DeVos' background. The 
Secretary of Education oversees the Office of Civil Rights (OCR), which 
works to vigorously enforce civil rights for students across the Nation 
in an effort to ensure equal access, one of the main tenets of the 
Department of Education. Among other things, OCR has issued guidance 
around school discipline--especially for students of color, English 
language learners and students with disabilities; greater enforcement 
of title IX on college campuses--particularly around sexual assault; 
discrimination issues and protection of LGBTQ students. Mrs. DeVos has 
given financial support to organizations whose missions contradict such 
equality and protection. Her support of anti-LGBTQ organizations 
includes Focus on the Family,\7\ which has pushed the discredited 
practice of ``conversion therapy''; and the Foundation for Individual 
Rights in Education, which argues that current administration 
directives hinder rights of those students accused of sexual 
assault.\8\ We are deeply troubled by her support of organizations like 
these with a history of discriminatory positions and are concerned that 
it reflects how Mrs. DeVos would work to further minimize these 
populations if confirmed.
---------------------------------------------------------------------------
    \7\ Conservativetransparencv.org, accessed January 8, 2017.
    \8\ Politico, November 28, 2016.
---------------------------------------------------------------------------
    Educators believe that the chance for the success of a child should 
not depend on winning a lottery or gaining admission to a private 
school, or living in the right ZIP code. It is our duty to ensure all 
students have access to a great public school in their community and 
the opportunity to succeed no matter their background or circumstances.
    The public deserves a Secretary of Education who will champion 
innovative strategies that we know help to improve student success, 
including creating more opportunities and equity, classes small enough 
for one-on-one attention, a well-rounded education, and safe, welcoming 
learning environments for every student. Further, we need a Secretary 
of Education who is qualified and experienced enough to take on the 
monumental task of leading the Department of Education in its mission 
to foster educational excellence and ensure equal access. Regrettably, 
Mrs. DeVos is not that person, and we urge you to oppose her nomination 
for Secretary of Education.
            Sincerely,
                                                 Marc Egan,
                                  Director of Government Relations.

             National Organization for Women (NOW),
                                      Washington, DC 20005,
                                                  January 16, 2017.

Hon. Lamar Alexander, Chair,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chair Alexander, Ranking Member Murray and committee members: 
On behalf of the National Organization for Women (NOW), the largest 
grassroots feminist activist organization in the United States with 
hundreds of chapters in every State and the District of Columbia and 
hundreds of thousands of members and contributing supporters, we wish 
to state our strong opposition to the confirmation of Ms. Betsy DeVos 
as Secretary of the Department of Education (DoEd). There is nothing in 
Ms. DeVos's education, training or experience that indicates she is 
qualified for a position of leadership in what is one of our Nation's 
most important Federal agencies--an agency whose primary mission is 
strengthening public education and assuring that all students are 
treated fairly and have access to a quality education.
    Strong public support exists for locally controlled, accountable 
public schools which follow the law, and which strive to serve all 
students. Public education must remain the central concern for the 
Department of Education and its resources should not be diverted to 
for-profit private schools or to vouchers for religiously affiliated 
schools or for-profit online schools. Our organization is deeply 
concerned that Ms. DeVos may use her position as secretary to undermine 
longstanding programs and policies on which States and local districts 
depend. And we fear that if confirmed she would pursue her vision of 
using taxpayer money to promote schools which teach religious dogma and 
to attempt to move the Nation's education system closer to sectarianism 
and privatization. Ms. DeVos is reported to have described her work as 
a way to ``advance God's kingdom.''
    Remarkably, Ms. DeVos has no experience with the public school 
system, not as a student, an educator, an administrator or as a parent. 
Neither has she experience with early childhood education programs or 
higher education--both important to helping economically disadvantaged 
students achieve. The nominee's well-financed efforts over many years 
to divert taxpayer funding from public schools to vouchers is well-
documented. In many cases, this diversion has undermined States' and 
local districts' capacity to adequately fund public schools.
    A billionaire, DeVos's activities have financed numerous 
organizations and campaigns that promote the privatization of 
education. Reportedly, Ms. DeVos has attacked political adversaries who 
do not support her efforts and deployed substantial funds through 
aggressive political action committees to pressure education 
policymakers, spending millions to elect and lobby State legislators. 
She has also provided financial support to organizations that work to 
undermine protections for survivors of sexual harassment and sexual 
assault, including important protections for LGBTQIA students.
    Students who use vouchers are deprived of the rights and 
protections all other students receive in public schools; voucher-
supported schools are often not subject to the same accountability and 
transparency standards that public schools have to meet. There have 
been numerous reports from various States of financial mismanagement by 
voucher-supported school administrators, often resulting in the loss or 
theft of substantial sums of taxpayer dollars. Education historian 
Diane Ravitch reports that corruption becomes a problem when for-profit 
charter school operators have purchased property for their schools and 
then rented it to themselves at a rate that is up to 10 times the 
market rate, making a tremendous profit at public expense.
    In California, an investigation by the San Jose Mercury News 
revealed that K12 Inc., the Nation's largest operator of for-profit 
charter and online schools which receives hundreds of millions of 
dollars in State funds, had a dismal record of academic achievement. 
After several State agency investigations and lawsuit against K12 Inc., 
a $168.5 million settlement agreement with K12 Inc. was reached in July 
2016. According to a statement by California Attorney General Kamala D. 
Harris,

          ``K12 and its schools misled parents and the State of 
        California by claiming taxpayer dollars for questionable 
        student attendances, misstating student success and parent 
        satisfaction, and loading nonprofit charities with debt.''

    Betsy DeVos and her husband, Dick DeVos, are investors in K12 Inc. 
The company pays its executives millions, gets most of its funding from 
taxpayer funds to operate ``virtual'' schools and pays millions to 
lobby State legislators and donate to their campaigns. Education Week 
reported in November 2016 that political influence and cash overwhelms 
any accountability for online charter schools' poor performance, as 
noted by People for the American Way (PFAW--http://www.pfaw.org/media-
centeripublications/betsy-devos-nomination-new-high-water-mark-right-
wing-s-long-war-public-ed). A 2015 national study by economists at the 
Center for Research and Educational Outcomes, Stanford University, 
found that ``math scores for online schools were so low, it was almost 
as if the students didn't attend school,'' (https://credo.stanford.edu/
pdfs/Online%20Charter%20Study%20Final.pdf)
    There is little evidence that voucher-supported schools and for-
profit charter schools result in improved student achievement. Of the 
20 studies conducted by the Friedman Foundation for Educational Choice, 
an advocacy organization for school vouchers, half of those ``found 
vouchers had no effect on participants' tests scores'' at all, 
``according to a report by Libby Nelson of www.vox.com. Recent studies 
of voucher programs in Louisiana and Ohio found that students who use 
vouchers to attend private schools, on average, score lower on 
standardized tests than demographically similar students who do not use 
vouchers, according to education writer and New York Times best-selling 
author Dana Goldstein. In Michigan, where Ms. DeVos has focused much 
energy over two decades, more than $10 billion in education funds are 
sent to charter schools annually, 80 percent of which are for-profit 
organizations; the State's rank on national reading and math tests has 
fallen. As a report in the New York Times noted, most charter schools 
in Michigan perform below the State average. A November 2016 report by 
the Economic Policy Institute on the effects of charter school 
expansion in cities across the U.S. cited increased stress on public 
schools along with numerous problems with conflicts of interest and 
financial malfeasance among private school managers and charter school 
management companies.
    The emphasis on evidence-based policy which has become more fully 
embraced in recent years has helped the Department and education 
leaders to revise counter-productive educational reforms based on 
standardized test results. Hopefully, this more productive focus will 
help increase investment in effective teacher training, combined with a 
clearer determination of the needs of students--especially students of 
color in free and reduced lunch schools--and in helping States and 
local district access the necessary resources. An effective Secretary 
of Education must continue on that path and provide informed leadership 
as this is the most promising process for closing a yawning achievement 
gap between students from mostly white, wealthier school districts and 
poorly resourced schools whose students are mainly African American and 
Hispanic. An effective Secretary must also be dedicated to 
strengthening public education policies and programs at every level, 
must be committed to equal educational opportunity for all and to 
transparency and accountability in education programs. The Secretary 
should be well-informed of the progress made in the last few years in 
adjusting policies and programs to adequately support teachers and 
focus more effectively on the educational challenges of at-risk 
students, rather than exacting punishment when schools do not improve 
student test scores.
    We have found nothing in Ms. DeVos's record to reassure us that she 
would do so.
    The National Organization for Women maintains a primary interest in 
the continuing effective implementation of equal educational access 
under Title IX of the Education Amendments of 1972 [Public Law No. 92-
318, 86 Stat. 235, codified at 20 U.S.C. 1681-1688] for girls and young 
women, boys and young men to academic and athletic programs at all 
grade levels, as well as in post-secondary institutions. Sex 
discriminatory practices, unfortunately, remain a factor at all grade 
levels and both sexual harassment and sexual assault serve to deter 
girls and young women, especially at secondary and post-secondary 
institutions, from equal education opportunities. Additionally, LGBTQIA 
students, students with disabilities and girls of color bear the brunt 
of discriminatory, neglectful and often punishing practices in schools. 
Students--many of whom experience violence and economic insecurity in 
their lives--suffer from depression, anxiety, eating disorders, 
withdrawal from school activities and increased absences. As a result, 
they frequently fail to graduate, have encounters with law enforcement 
and the juvenile justice system, and suffer from a lifetime of under-
and unemployment, among numerous other negative outcomes. It is the 
responsibility of schools to protect all students and to assure that 
they receive equal educational opportunity as title IX requires.
    A critical concern for the National Organization for Women is the 
continuation of the important work of the Department's Office of Civil 
rights (OCR) in ensuring that schools meet their obligations to prevent 
sexual harassment and violence on campus. We urge that the Secretary 
uphold the principles outlined in the Department's 2011 Dear Colleague 
Letter (DCL) on Sexual Violence (https://www2.ed.gov/about/offices/
list/ocr/letters/colleague-201104.pdf) and 2014 Guidance Documents 
Clarifying Schools' legal responsibilities to prevent and address 
sexual harassment under title IX (https://www2.ed.gov/about/offices/
list/ocr/docs/qa-201404-title-ix.pdf). Sexual violence and forms of 
sexual harassment threaten students' ability to learn and remain in 
school and for those institutions which receive Federal funding, they 
are required to take certain actions under title IX and the Clery Act 
of 1990 [Public Law 101-542, codified at 20 U.S.C. 1092]. We believe 
that it is essential that every effort be made in accordance with the 
law to protect survivors, provide a fair and equitable process for 
complainants and respondents in school grievance procedures and to 
prevent, respond to, and address the effects of sexual harassment 
within all of the recipient's educational programs and activities. We 
have seen scant evidence that Ms. DeVos would prioritize these goals 
over her stated commitment to ``advance[ing] God's kingdom.''
    The Education Department's 2011 Dear Colleague Letter made clear 
that schools must promptly respond when rape or sexual assault occurs 
in that these types of sex-based harassment constitutes a hostile 
environment that constrains a survivor's civil right to equal education 
access. This principle was affirmed by the courts a decade prior and 
has been repeatedly reaffirmed in case law. However, because many 
schools have ignored their obligations under that law or failed to 
understand the law, gender-based sexual harassment and sexual assault 
was pervasive on campus. The law and the 2011 DCL provides schools with 
a useful framework to meet their legal obligations and provides tools 
needed to comply with the law, while affording students the information 
they need to defend their rights. The Department's role in assuring 
that schools meet these legal responsibilities is critically important 
for the post-secondary education success of young women and LGBTQIA 
persons, in particular, as they are most often the targets of gender-
based harassment and violence.
    A key factor in assuring protection for students is the maintenance 
of transparency in title IX enforcement. Accordingly, the Department 
regularly publishes a list of higher education institutions under 
investigation for mishandling gender violence complaints. In addition, 
schools that had requested and received religious exemptions from legal 
requirements not to discriminate against students on the basis of 
pregnancy, reproductive health decisions, sexual orientation or gender 
identity are listed. The exemptions allow schools to punish, refuse to 
admit or even expel pregnant students or those who identify as LGBT. 
Continuing disclosure of the identity of exempted schools must be 
assured to allow for students and parents to make informed decisions. 
We can find no basis for hoping, let alone believing, that Ms. DeVos 
would honor this critical practice.
    The Department of Education's 2015 Dear Colleague Letter on 
Transgender Students (https://www2.ed.gov/about/offices/list/ocr/
letters/colleague-201605-title-ix-transgender.pdf) is an important 
guide in helping schools better protect transgender and non-conforming 
students who suffer from high rates of harassment, bullying and 
violence. It is essential that schools develop policies and practices 
which will better protect transgender students who face severe 
mistreatment and are at a higher risk of leaving school. Both the 
Department of Education and the Department of Justice agree that 
harassing a student for not conforming to the sex they were assigned at 
birth is clearly discrimination on the basis of sex.
    The Fourth Circuit Court of Appeals recently granted a preliminary 
injunction ordering a school board to allow a transgender student to 
use a restroom facility that correlates with his gender identity. It is 
important to note that for more than 15 years, courts have held that 
Federal laws prohibiting sex discrimination protect transgender people 
from discrimination on the basis of gender identity. Federal appeals 
courts for the First, Sixth, Ninth and Eleventh Circuits have made this 
same determination. This important protective policy must be sustained. 
We are deeply concerned that if confirmed Ms. DeVos would not do so.
    In closing, much important work remains to fully achieve equal 
educational access for all. We know that girls and young women--though 
excelling at school in many ways--encounter bias and barriers. For 
girls of color, their educational challenges are very similar to those 
of boys of color and, in some ways, are even more daunting. Well-
trained teachers and counselors who can provide appropriate 
interventions are key for at-risk students to stay in school and to 
thrive. Better access to science, technology, engineering and 
mathematics (STEM) programs as well as to an array of advanced 
placement opportunities should be available for every student who 
aspires. Full equality for girls and young women to participate in 
athletic programs, including access to playing fields, equipment and 
competitive opportunities has not yet been achieved in all schools and 
remains an important title IX equal education objective.
    NOW believes that the progress that has been made over many decades 
to advance equality in public education and the very foundation of our 
public education system will suffer a serious setback under Ms. DeVos 
and urges committee members to reject this nominee.
            Sincerely,

                                             Terry O'Neill,
                                                         President.

                       National Women's Law Center,
                                      Washington, DC 20036,
                                                   January 9, 2017.

Hon. Lamar Alexander,Chairman,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20515.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
525 Dirksen Senate Office Building,
Washington, DC 20515.

    Dear Chairman Alexander & Ranking Member Murray: The National 
Women's Law Center has worked for 45 years to advance and protect 
equality and opportunity for women and girls and, from its founding in 
1972, has had a focus on title IX and its importance in ensuring all 
girls and women have equal access to a quality education. Given the 
centrality of educational opportunity to the lives and futures of 
women, the Center strongly opposes the confirmation of Betsy DeVos to 
be Secretary of Education.
    The Secretary of Education has the responsibility of ensuring that 
all students have equal access to a quality education. Key to that work 
is the enforcement of the Federal statutes that prohibit discrimination 
in education, including title IX. Over the last 8 years, the 
Department's Office for Civil Rights (OCR), has resolved 66,000 civil 
rights cases and proactively investigated 204 cases. OCR's work is 
especially important in light of the uptick in hate crimes after the 
election, with the majority of those incidents occurring in schools.\1\ 
The Secretary is also responsible for enforcing and implementing the 
Every Student Succeeds Act. Effective implementation of this law will 
be critical to ensuring that all students are prepared for college and 
careers, including requirements that State and districts intervene in 
schools that repeatedly fail to close the achievement gap and important 
transparency requirements around student performance, resource 
disparities, exclusionary discipline and harassment.
---------------------------------------------------------------------------
    \1\ Southern Poverty Law Center, Update: 1,094 Bias-Related 
Incidents In the Month Following the Election, Hatewatch, Dec. 16, 
2016, https://www.splcenter.org/hatewatch/2016/12/16/update-1094-bias-
related-incidents-month-following-election.
---------------------------------------------------------------------------
    Ms. DeVos' record stands in stark contrast to the Department's 
crucial function of ensuring equal access to high-quality education for 
all students. Her strong and vocal opposition to commonsense oversight 
of charter schools and her efforts to dramatically expand vouchers 
would threaten the Department's goal of providing a quality education 
that provides a pathway to economic stability and prosperity. Just last 
summer, Ms. DeVos aggressively lobbied State legislators and spent 
$1.45 million to derail provisions that would have provided more 
oversight of Detroit charter schools, including one that would ``stop 
failing charter operators from creating new schools.'' \2\ Shielding 
charter schools from oversight hardly better serves students, but 
rather removes accountability, including with regard to civil rights 
principles of equality of opportunity.
---------------------------------------------------------------------------
    \2\ Kate Zernike, How Trump's Education Nominee Bent Detroit to Her 
Will on Charter Schools, N.Y. Times, Dec. 12, 2016, http://
www.nytimes.com/2016/12/12/us/politics/betsy-devos-how-trumps-
education-nominee-bent-detroit-to-her-will-on-charter-schools.html.
---------------------------------------------------------------------------
    Moreover, many of the provisions proposed in Michigan are common in 
many States and accepted by many charter school proponents, but Ms. 
DeVos' stance appears to go beyond that of many charter school 
proponents. She has reportedly ``pushed back on any regulation as too 
much regulation'' \3\--a stance that has contributed to Detroit's 
charter system being recognized as one of the greatest school reform 
failures in the country.\4\
---------------------------------------------------------------------------
    \3\ Id.
    \4\ Douglas N. Harris, Betsy DeVos and the Wrong Way to Fix 
Schools, N.Y. Times, Nov. 25, 2016, http://www.nytimes.com/2016/11/25/
opinion/betsy-devos-and-the-wrong-way-to-fix-schools.html?_r=0; see 
also Erin Einhorn, Why Detroit Is an Education-Funding Vacuum, The 
Atlantic, July 31, 2016, http://www.theatlantic.com/education/archive/
2016/07/why-detroit-is-an-education-funding-vacuum/493589/ (noting how 
Detroit's charter system has resulted in a lack of infrastructure, 
decreased school quality, which is one of many reasons philanthropies 
have slowed investment in the city's school reform efforts).
---------------------------------------------------------------------------
    Furthermore, Ms. DeVos has a history of supporting controversial 
organizations whose work undermines the protections of students, often 
those most at need. For instance, through her foundation--the Dick and 
Betsy DeVos Foundation--Ms. DeVos has contributed to the Foundation for 
Individual Rights (FIRE),\5\ which has fought efforts to enforce title 
IX and protect students because they are subjected to gender violence. 
FIRE has lobbied to eliminate schools' obligation to address sexual 
assault, as required by title IX, which is crucial for survivors' 
continued education in the wake of violence and to prevent others from 
being subjected to such harassment and assault. FIRE also supports 
bills that would force police to intervene in student incidents, even 
when the victims do not want to pursue criminal prosecution but would 
prefer school accommodations so they can continue their education free 
from harassment or continued trauma. In fact, the Department's recent 
work has contributed to increased awareness and understanding by 
educational institutions of gender-based violence and has started to 
correct unfair processes and responses that for too long pushed 
survivors out of school. Ms. DeVos' support for a group aggressively 
seeking to undermine that work and the protections afforded by one of 
the laws she would be charged with enforcing reinforces why she is not 
suited to fulfilling the obligations that would be entrusted to her as 
Secretary.
---------------------------------------------------------------------------
    \5\ Financial Record Search on FIRE & the DeVos Family Foundation, 
http://conservativetransparency.org (follow ``By Donor'' hyperlink; 
then select ``Dick and Betsy DeVos Family Foundation'' from dropdown 
menu; then search ``Enter Search Query'' by ``Foundation for Individual 
Rights in Education''; then follow ``Submit'' hyperlink ; see also, Dan 
Berret, et al., What Does Betsy DeVos Have in Mind for Higher Ed?, The 
Chronicle of Higher Educ., Nov. 23, 2016, http://www.chronicle.com/
article/What-Does-Betsy-DeVos-Have-in/238514.
---------------------------------------------------------------------------
    Ms. DeVos has also given millions of dollars to anti-choice causes 
and organizations, including ``crisis pregnancy centers.'' \6\ Reports 
show that the primary goal of crisis pregnancy centers is to dissuade 
pregnant individuals from having an abortion, often by using misleading 
marketing practices and providing anti-abortion propaganda and 
misinformation about abortion and birth contro1.\7\ At least two of the 
centers\8\ to which Ms. DeVos donated have inaccurate information about 
abortion on their websites. In addition, Ms. DeVos has given $6.5 
million to ``pass-through'' organizations, which have in turn donated 
to groups that promote policies and legislation to restrict access to 
reproductive health in the States.\9\ This support raises concerns 
about Ms. DeVos' ability to be the lead enforcer of title IX's ban on 
discrimination against students and teachers who have had an abortion 
or who use contraceptives, or even unmarried students who are pregnant.
---------------------------------------------------------------------------
    \6\ Ally Boguhn, The DeVos Family: Promoting Conservative Religious 
Values Through Political Donations, Rewire, Mar. 21, 2016, https://
rewire.news/article/2016/03/21/devos-family-promoting-christian-
orthodoxy-political-donations/.
    \7\ See, e.g., U.S. House of Representatives Comm. on Gov't Reform, 
False and Misleading Health Information Provided by Federally Funded 
Pregnancy Resource Centers (2006), at http://www.chsourcebook.com/
articles/waxman2.pdf.
    \8\ See Pregnancy Resource Center of Mid-Michigan--Risks of 
Abortion, http://www.prcmidland.org/Pregnancy/What-Are-My-Options/
Abortion/Risks-of-Abortion (last visited Jan. 9, 2017); see also 
Abortion Pill Reversal--Pregnancy Resource Center, http://
www.prcgr.org/abortion-pill-reversal/ (last visited Jan. 9, 2017).
    \9\ See Boguhn, supra note 6.
---------------------------------------------------------------------------
    Additionally, Ms. DeVos has poured millions into anti-LGBTQ 
efforts, including the campaign against marriage equality and an 
organization that supports ``conversion therapy.'' \10\ Conversion 
therapy is a practice that has been widely discredited as ineffective, 
and those who are subject to it are almost nine times more likely than 
their peers to consider or attempt suicide.\11\ One of the recipients 
of this support, Focus on the Family, even opposed efforts to combat 
bullying against LGBTQ students. Ms. DeVos' support of anti-LGBTQ 
organizations further underpins why she is not suited to fulfill the 
Secretary's responsibility as the lead Federal enforcer of the rights 
of girls and women who are LGBTQ students.
---------------------------------------------------------------------------
    \10\ Benjamin Wemund, Trump's education secretary pick supported 
anti-gay causes, Politico, Nov. 25, 2016, http://www.politico.com/
story/2016/11/betsy-devos-education-secretary-civil-rights-gay-
transgender-students-231837.
    \11\ Zach Stafford, Gay conversion therapy ruins lives. We cannot 
afford to keep it legal, The Guardian, May 28, 2015, https://
www.theguardian.com/commentisfree/2015/may/28/gay-conversion-therapy-
ruins-lives-lgbt-rights.
---------------------------------------------------------------------------
    While what we do know about Ms. DeVos is deeply troubling, we also 
emphasize the need for a thorough and comprehensive hearing and process 
to inform Americans of Ms. DeVos' other qualifications--or lack 
thereof--for Education Secretary. She does not have a record of general 
engagement in the educational system at every level. Little is known 
about her stance on a host of many educational issues in general, and 
with respect to students most in need of the Department of Education's 
programs. Further exploration is essential of her positions on the 
rights and interests of students of color, English learners, immigrant 
students, students with disabilities and religious minorities.
    Time for a thorough public inquiry into issues affecting civil 
rights, early childhood education, K-12 schools, higher education, and 
career and technical education programs is necessary. Additionally, the 
lack of transparency and adequacy in the nominee's responses to the 
committee's questionnaire makes going forward now unacceptable. Failure 
to provide copies of published op-eds she has written or to indicate 
potential conflicts of interests--despite media reports indicating a 
potential conflict in student lending\12\--are prime examples. To 
ensure members have a complete record from which to draw questions, we 
urge you to delay the hearing until the nominee discloses potential 
conflicts and makes her previous writings publicly accessible.
---------------------------------------------------------------------------
    \12\ Anupreeta Das & Peter Rudegeair, Trump Education Secretary 
Pick Has Indirect Stake in Student Lender, Wall St. J., Dec. 5, 2016, 
http://www.wsj.com/articles/trump-education-secretary-pick-has-
indirect-stake-in-student-lender-1480977577.
---------------------------------------------------------------------------
    Given Ms. DeVos' record, the Center urges you to reject Betsy 
DeVos' nomination to be Secretary of the Department of Education, and 
to delay hearings on her nomination until a complete record on her 
conflicts and public statements are produced.
            Sincerely,
                                        Marcia Greenberger,
                                                      Co-President.

                                       Nancy Duff Campbell,
                                                      Co-President.

             OCA--Asian Pacific American Advocates,
                                      Washington, DC 20036,
                                                   January 5, 2017.

     embracing the hopes and aspirations of asian pacific americans
    Chairman Alexander, Ranking member Murray, members of the 
committee, on behalf of OCA--Asian Pacific American Advocates and our 
100 chapters and affiliates around the country, we thank you for the 
opportunity to submit this statement for inclusion in the record for 
today's hearing.
    Since its inception in 1979 by President Jimmy Carter, the 
Department of Education's mission has been to ``promote student 
achievement and preparation for global competitiveness by fostering 
educational excellence and ensuring equal access.'' \1\ The Secretary 
of Education is tasked with ensuring that this promise is upheld in all 
of America's classrooms. The current nominee, Betsy DeVos, lacks the 
experience necessary for the position having no professional experience 
as an educator, having never attended public schools, and having never 
sent her children to public schools. The extent of her exposure to 
education is as a lobbyist that advocates for the use of public dollars 
to support private schools and the privatization of public school 
systems. Both of these systems tout themselves as an innovative 
solution to provide social mobility to title I students, but instead 
have problematic effects for civil rights.
---------------------------------------------------------------------------
    \1\ https://www2.ed.gov/about/overview/mission/mission.html.
---------------------------------------------------------------------------
    Diverting public funds to private schools through vouchers will 
hinder our efforts to provide a quality education for all students. 
Theoretically, vouchers are seen as a system to assist low-income 
students transfer out of struggling public schools. In practice, data 
indicates that students who traditionally are able to use vouchers are 
less likely to be low-income than their counterparts in the public 
schools, and are also less likely to come from low performing 
schools.\2\ Moreover, school vouchers rarely cover the full cost of 
private school tuition, which limits the utility of vouchers for truly 
low-income students.\3\ From 2007 to 2011, the number of Asian 
Americans in poverty increased by 37 percent and Pacific Islander 
poverty increased by 60 percent, which far surpasses the national 
average of 27 percent.\4\ School accessibility is a top concern for the 
AAPI community and Betsy DeVos' commitment to these school systems call 
into question her ability to analyze the exclusionary affects of 
voucher models to our community.
---------------------------------------------------------------------------
    \2\ http://www.policymattersohio.org/wp-content/uploads/2011/09/
ClevelandVouchers.pdf.
    \3\ http://www.edchoice.org/wp-content/uploads/2016/02/2016-ABCs-
WEB-2.pdf.
    \4\ https://cdn.americanprogress.org/wp-content/uploads/2014/08/
AAPI-IncomePoverty.pdf.
---------------------------------------------------------------------------
    When schools accept publicly funded vouchers they are not obligated 
to comply with all Federal anti-discrimination laws.\5\ Private schools 
have the right to deny entrance to students with high-cost special 
needs like limited English proficiency. A U.S. Department of Education 
report found that 85 percent of large central city private schools 
would ``definitely or probably'' not be willing to participate in a 
voucher program if they were required to accept students with special 
needs, including limited English proficiency.\6\ Limited English 
proficient children are twice as likely to live in poor families 
compared to children who speak only English very well and 1 in 3 AAPI 
individuals are limited English proficient; therefore, the AAPI 
students that need vouchers the most are the most likely to be 
discriminated against by schools accepting vouchers.\7\ AAPI students 
deserve to have a Secretary of Education with experience in schools 
systems that have a working infrastructure to prevent systemic 
discrimination.
---------------------------------------------------------------------------
    \5\ http://www.aclu-md.org/uploaded_files/0000/0484/
nonpublic_schools_discrim_factsheet.pdf.
    \6\ https://www.pfaw.org/sites/default/files/file_186.pdf.
    \7\ http://www.migrationpolicy.org/article/spotlight-limited-
english-proficient-students-united-states#9.
---------------------------------------------------------------------------
    The United States must continue to support innovation in school 
systems to allow increased social mobility for America's most 
disadvantaged students. However, the privatization of public school 
systems and voucher models that DeVos purports as beneficial to 
disadvantaged students and their families is damaging in a financial 
and civil rights aspect. OCA strongly recommends that the committee 
solely confirm a Secretary of Education that has experience with many 
models of innovative school systems and further, understands the 
ramification of privatizing schools and allowing voucher systems on the 
Asian American and Pacific Islander community.

                                  Outright Vermont,
                                      Burlington, VT 05401.

Hon. Lamar Alexander, Chair,
Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Hon. Lamar Alexander: The confirmation hearing of Ms. Betsy DeVos 
as education secretary is of utmost concern to the lesbian, gay, 
bisexual, transgender, and queer youth we are dedicated to serving at 
Outright Vermont. Ms. DeVos's utter lack of professional experience 
with public schools, coupled with her enthusiastic promotion of charter 
schools and tax-funded vouchers for private and religious schools, pose 
unique and intersectional risks to marginalized youth.
    The school policies Ms. DeVos has a record of championing 
disproportionately impact the most vulnerable youth by funneling public 
dollars to institutions who have no obligation to accommodate youth 
with learning disabilities, behavioral challenges, or marginalized 
gender and sexual identities. Such policies, actively endorsed by Ms. 
DeVos in Michigan, will push youth into private institutions with no 
obligation to ensure equal access to public accommodations. This will 
put the emotional and physical safety of LGBTQ youth directly in harm's 
way, all in the interest of promoting a religious agenda by leveraging 
the full clout of the Federal Government.
    Ms. DeVos's overwhelming financial support of religious 
organizations who proselytize conversion therapy for LGBTQ youth 
compounds that concern. While such interventions have recently been 
made illegal in the State of Vermont, youth across the country remain 
in jeopardy of this dangerous, damaging practice. Ms. DeVos's 
nomination begs a very serious question: Will she use the office to 
bolster religious and private institutions at the direct expense of 
LGBTQ and other marginalized youth?
    Outright Vermont has been dedicated to building safe, healthy, 
supportive environments for lesbian, gay, bisexual, transgender, queer, 
and questioning youth in Vermont since 1989. We ask that you continue 
that work on the national level by strenuously objecting to the 
confirmation of Ms. DeVos.
            With gratitude,

                                         Amanda Rohdenburg,
                             Director of Advocacy, Outright Vermont

                       People for the American Way,
                                      Washington, DC 20005,
                                                  December 9, 2016.

U.S. Senate,
Washington, DC 20510.

    Dear Senator: On behalf of the hundreds of thousands of members and 
activists of People For the American Way, I write to urge you to reject 
the nomination of Betsy DeVos to be Secretary of the U.S. Department of 
Education.
    American students deserve a Secretary of Education who is committed 
to helping public schools deliver an excellent education, not one who 
has worked relentlessly to undermine public education. As a report on 
DeVos's nomination in The New York Times noted, ``It is hard to find 
anyone more passionate about the idea of steering public dollars away 
from traditional public schools than Betsy DeVos.''
    The nomination of DeVos, who has been called ``the four-star 
general of the voucher movement,'' is a fox-guarding-the-chicken-coop 
moment if ever there were one. After voters rejected a series of 
voucher initiatives around the country, she turned her efforts to 
buying legislators and legislation with aggressive political spending 
and lobbying. DeVos and her family have used their considerable 
financial resources to target and defeat legislators who support public 
education and replace them with others who are willing to assist in the 
dismantling of public education through vouchers, tax schemes, and 
other projects.
    From the perspective of using money to buy political influence, 
DeVos's efforts have been impressive. But the results are less 
impressive from the point of view of students. For example, DeVos and 
her family have been the biggest political and financial supporters of 
a major experiment with school choice in her home State of Michigan, 
where 80 percent of charter schools are run by for-profit organizations 
and where the DeVos family spent nearly $1.5 million to prevent 
Michigan from strengthening charter school oversight.
    But, as The New York Times has noted,

          ``If Michigan is a center of school choice. it is also among. 
        the worst places to argue that choice has made schools better. 
        As the State embraced and then expanded charters over the past 
        two decades, its rank has fallen on national reading and math 
        tests. Most charter schools perform below the State average.''

    As one of the architects of Detroit's charter school system, DeVos 
``is partly responsible for what even charter advocates acknowledge is 
the biggest school reform disaster in the country,'' according to 
Tulane University professor Douglas Harris, founding director of the 
Education Research Alliance for New Orleans. And while charter schools 
have provided mixed educational results, the outcomes are even worse 
for the kind of unregulated vouchers DeVos has championed, making her 
nomination, in Harris's words, ``a triumph of ideology over evidence 
that should worry anyone who wants to improve results for children.''
    As an editorial from the Madison, WI Capital Times said in 
describing DeVos as a ``horrible'' choice for Secretary of Education:

          Michigan billionaire Betsy DeVos has sought for years to 
        undermine public education as an advocate for irresponsible and 
        discredited schemes to steer money away from the programs and 
        the public school students that need them most.
          She's a special-interest power player who has used her money 
        to warp the politics of Wisconsin and States across the country 
        in order to advance an education agenda that is as unworkable 
        as it is irresponsible. . . . Trump could not have chosen a 
        worse nominee than DeVos. . . .

    In short, Betsy DeVos is one of the leading figures in a decades-
long campaign by Religious Right leaders and anti-government ideologues 
to divert public education funds into religious schools and replace 
public education with a profit-maximizing marketplace model.
    People For the American Way believes that public education is a 
core democratic institution, one that has provided generations of 
Americans with the tools to become productive members of society, and 
has helped integrate generations of immigrants more fully into our 
communities.
    We believe that a thorough review of Betsy DeVos's record will make 
it clear that she is unfit to serve as U.S. Secretary of Education.
            Sincerely,

                                               Marge Baker,
                   Executive Vice President for Policy and Program,

                                         YouthCare,
                                         Seattle, WA 98105,
                                                   January 9, 2017.

Hon. Patty Murray,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Murray: On behalf of YouthCare, I'm writing to express 
our alarm regarding President-elect Trump's cabinet nominees. As one of 
the largest service providers for homeless youth and young adults in 
King County, we are particularly concerned about the nomination of Ben 
Carson to head the Department of Housing and Urban Development and Tom 
Price to head the Department of Health and Human Services.
    In the past 6 months, we've partnered with attorneys from the Legal 
Counsel for Youth and Children who provide free, legal aid to youth in 
our drop-in center. The No. 1 request made by youth is help signing up 
for medical benefits.
    On Fridays, YouthCare's James W. Ray Orion Center runs a health 
clinic where young people can meet with a doctor. Their needs are many: 
blood infections, back problems, diabetes, abscesses, cellulitis, MRSA, 
pneumonia, broken bones, foot necrosis, seizure disorders, Hepatitis C, 
HIV/AIDS, kidney/liver damage from substance abuse, mental health 
disorders, and drug treatment. The Patient Protection and Affordable 
Care Act has been essential for paying for tests and lab work that are 
not available in our clinic, such as MRIs, X-rays, and CT imaging. 
Indeed, of the 6-8 young people who visit the clinic each Friday, 
between 1-2 young people are referred to the hospital following their 
visit. It is hard to stay healthy without a home. Our clinic has been a 
lifesaver.
    For example, we recently had a young man visit the clinic because 
of an injury that caused him to pass out. The clinic doctor was able to 
call the hospital and order imaging. The results showed that he was 
also suffering from a heart condition and complex migraines. He was 
able to get treatment and his health has improved. Without the ACA, we 
would not have been able to get him this care.
    Repealing the ACA would have a devastating impact on youth who have 
regular prescriptions, are pregnant, and are having serious medical 
problems--which, over the course of the year, includes many of the 
young people we serve.
    Additionally, YouthCare serves a disproportionately high rate of 
youth who identity as LGBTQ as well youth who have been trafficked. 
Approximately 20-40 percent of the youth we serve identity as LGBTQ. 
The anti-women and anti-LGBTQ rhetoric of both Mr. Carson and Mr. Price 
scares us. These are our most vulnerable youth. They need support, not 
further marginalization.
    YouthCare also serves over 200 unaccompanied, undocumented minors 
per year through our Casa De Los Amigos program. This program is 
supported almost entirely by the Office of Refugee Resettlement. 
Because Casa De Los Amigos is the only residential shelter services 
program in the Seattle area for undocumented minors, and the least 
restrictive residence in western Washington, it fulfills an important 
need in the regional ORR continuum of care for unaccompanied children. 
We are very worried about the sustainability of this program and our 
ability to serve these youth under Mr. Price's leadership.
    Finally, we'd like to express our concern about the nomination of:

    <bullet> Jefferson Sessions for Attorney General due to his racist 
record and staunch anti-immigrant, anti-Muslim, and anti-LGBTQ 
positions.
    <bullet> Andrew Puzder for the Department of Labor due to his 
opposition to a higher minimum wage, paid overtime, and paid sick 
leave, and his hostility toward unionization and government assistance.
    <bullet> Betsy DeVos for the Department of Education due to her 
lack of experience in both public office and education, and her 
advocacy of school choice and unregulated, free-market charter schools.

    We thank Senator Murray for her steadfast support of our most 
vulnerable youth. We respectfully urge her to oppose these 
confirmations.
            Sincerely,

                                Melinda A. Giovengo, Ph.D.,
                                                Executive Director.

    Response by Betsy Devos to Questions of Senator Murray, Senator 
  Collins, Senator Young, Senator Roberts, Senator Murkowski, Senator 
   Sanders, Senator Casey, Senator Franken, Senator Bennet, Senator 
 Whitehouse, Senator Baldwin, Senator Murphy, Senator Warren, Senator 
                       Kaine, and Senator Hassan
                             senator murray
    Question 1. The President-elect who has nominated you has promised 
to ``end Common Core.'' ESSA prohibits the Secretary or Department from 
encouraging the adoption of any set of standards. As his Education 
Secretary, what specifically would you do to deliver on that promise 
while also complying with the law?
    Answer 1. If confirmed, I will implement the statutory requirements 
of the Every Student Succeeds Act (ESSA), including by adhering to the 
prohibitions on the Secretary interfering with decisions concerning the 
academic standards States choose to adopt. I believe in high standards 
of excellence and achievement and it is the job of States to set those 
standards. While the Federal Government can highlight their successes, 
Congress was explicit that there be no Federal role in determining 
standards.

    Question 2. We have to measure what all students learn in order to 
ensure that all students receive an equitable education. In fact, 
before the 95 percent testing participation rate required by the No 
Child Left Behind Act, schools could engage in unscrupulous practices 
that kept low performing students from taking required tests. Keeping 
students with disabilities or English Learners from taking these tests 
made school's performance look better and hid achievement gaps. It was 
not until the 95 percent testing rate requirements of No Child Left 
Behind that we had data to prove the achievement gap existed on a 
national scale. Requiring testing participation is an important lever 
to ensure that all students are taught at high standards. Given this 
important lever for equity, and the Federal Government's role in 
ensuring equity, do you intend to allow opt-out to continue and 
overlook the law's requirement requiring that 95 percent of all 
students and each group of students participate in annual tests?
    Answer 2. If confirmed, I will implement the statutory requirements 
of Every Student Succeeds Act (ESSA) including ensuring compliance with 
the requirement that States must annually measure not less than 95 
percent of students on annual reading and math assessments. At the same 
time, I will respect the intent of Congress under ESSA to defer to 
State and local laws and decisions concerning both parents' 
determinations about whether their children participate in such 
assessments and State approaches to holding schools accountable where 
less than 95 percent of students or students within subgroups are 
assessed.

    Question 3. The regulations implementing ESSA incorporate the 
valuable feedback that the Department received through the public 
comment process, while maintaining the focus on providing States with 
new flexibility to ensure that every child gets a high-quality and 
well-rounded education, and enhancing equity and preserving critical 
civil rights protections for all students. Do you agree to fully and 
faithfully execute the existing ESSA regulation concerning 
accountability, State plan approval, data requirements and the ESSA 
regulation concerning assessments and any other regulations from the 
day you would assume office? Are there any current regulations you 
would seek to modify or change? If there are regulations you would seek 
to modify or change, please list the regulations and provide the 
statutory authority, legislative history, and public policy reasons to 
support a change.
    Answer 3. If confirmed, I will carefully review all existing 
regulations to ensure they adhere to the law.

    Question 4. The Every Student Succeeds Act requires States to 
identify schools for targeted intervention if they have a consistently 
underperforming subgroup of students. ESSA and the accountability 
regulations issued under the Obama administration allow States to 
define what it means to be ``consistently underperforming,'' and also 
allows districts and schools to determine what interventions will be 
implemented when schools are identified. As Secretary, how will you 
work with States to ensure they define the term ``consistently 
underperforming'' rigorously and implement effective interventions to 
ensure that all students have the opportunity to graduate from high 
school prepared for post-secondary education?
    Answer 4. If confirmed, I will implement the requirements of the 
Every Student Succeeds Act (ESSA) as Congress intended, including 
allowing States to define what it means to be a ``consistently 
underperforming'' subgroup of students when identifying schools for 
intervention in their State-designed accountability systems. While it 
is necessary and critical for States to have flexibility to determine 
how to identify and improve schools, the Department has an important 
role to play in providing States and local educational agencies with 
technical assistance and guidance to aid with successful implementation 
of the law.

    Question 5. On September 22, 2016, House Education and Workforce 
Ranking Member Bobby Scott and I sent a letter to the Secretary of 
Education, Dr. John King, asking him to prioritize the critical issue 
of addressing teacher shortages as the U.S. Department of Education 
works to help States implement the Every Student Succeeds Act (ESSA). 
Later that fall, the title II guidance outlined ways that States and 
districts could use their title II funds to eliminate teacher shortages 
by recruiting excellent teachers, providing meaningful evaluation and 
support, and creating teacher leadership structures. Do you plan to 
maintain this guidance? What other guidance do you think needs to be 
issued to ensure successful implementation of the Every Student 
Succeeds Act? Will you commit to transparency and commit to having the 
Department's previously issued guidance being readily available online 
for the students, families and schools who rely on it?
    Answer 5. If confirmed, and in keeping with past practice when 
there is a shift to a new administration, I will carefully review the 
guidance and confirm it serves as a helpful tool to States, local 
school districts, teachers, school personnel, and others charged with 
implementation. I support great schools--in all forms--and great 
teachers and school leaders who dedicate their lives to help students 
achieve and succeed.
    Congress took steps under the Every Student Succeeds Act (ESSA) to 
provide States and local school districts with more flexibility in how 
they use Federal funds, including under the title II-A program, to 
improve the quality and effectiveness of teachers, principals, and 
other school leaders. I intend to adhere to that flexibility and 
provide appropriate guidance to ensure successful implementation of the 
law.

    Question 6. Will you commit to holding schools accountable by 
continuing to publish the list of schools with title IX investigations?
    Answer 6. Yes, schools that violate civil rights statutes will be 
held accountable. But let's be clear, we are a rule of law nation. 
Opening a complaint for investigation in no way implies that the Office 
for Civil Rights (OCR) has made a determination about the merits of the 
complaint. Any decision to release information must balance the desire 
for transparency with mechanisms needed to conduct an appropriate 
investigation. If confirmed, I look forward to discussing this with the 
OCR leadership to understand how the release of information addresses 
its mission.

    Question 7. To identify and prevent discrimination, OCR has 
provided technical assistance to school districts through the release 
of policy guidance documents, which, unlike the law and regulations are 
not legally binding, but play a significant role in helping 
administrative personnel understand the law and regulations, and how to 
apply it. How would you utilize these policy documents to advise State 
and local educational recipients of Federal funds on how to comply with 
civil rights laws?
    Answer 7. Technical assistance and policy guidance are important 
tools to prevent discrimination and respond to policies and procedures 
that may have an impact on protecting civil rights in our Nation's 
schools. If confirmed, I will continue to examine opportunities to 
provide guidance as has been the practice of previous administrations 
to facilitate compliance with the laws that the Department is charged 
to enforce.

    Question 8. Do you think it's important for OCR to continue to 
investigate complaints alleging violations of title VI's disparate 
impact provisions? Do you think there continues to be a need for laws 
prohibiting policies and practices that have a disparate impact on 
minority students? Why or why not?
    Answer 8. The Office for Civil Rights (OCR) has been charged with 
enforcing Title VI of the Civil Rights Act of 1964. If confirmed, I 
will support OCR fulfilling that responsibility, including 
investigating and responding to evidence alleging disparate impact on 
students.

    Question 9. OCR has provided vigorous legal defense of improvements 
to gender equity in schools and on college campuses across the country 
and at the U.S. Supreme Court. Would you withdraw from any current 
civil rights litigation pending before any court in which the 
Department of Education, any of its agencies, or employees acting in 
the scope of their employment are listed? Please list those cases and 
provide relevant case law, legislative history and statutory authority, 
as well as the public policy purpose served by withdrawing from those 
cases.
    Answer 9. If confirmed, I will work with the Office of General 
Counsel as well as the Department of Justice to receive their advice 
and counsel on this matter and decide on a case-by-case basis.

    Question 10. Office for Civil Rights (OCR) also is directed to 
receive and act upon the complaints of families when student's civil 
rights are not being upheld. In your role at ED, how will you assure 
that OCR continues to provide an effective system of checks and 
balances when State systems of monitoring and compliance fail?
    Answer 10. If confirmed, the Office for Civil Rights (OCR) would 
have my strong and continued support in carrying out its statutory 
obligations to enforce the civil rights laws under its jurisdiction.

    Question 11. If you are confirmed as Secretary of Education, would 
you change the structure or role in enforcing title IX complaints 
(including claims regarding admissions, athletics, different treatment/
exclusion/denial of benefits, discipline, dissemination of policy, 
employment discrimination, financial assistance/scholarships, grading, 
pregnancy/parenting, procedural requirements, retaliation, sexual/
gender harassment/sexual violence)? Please be specific in how you would 
change the role and please include in your answer relevant legislative 
history and statutory authority, as well as the public policy purpose 
served by structural or role changes.
    Answer 11. The Office for Civil Rights' (OCR) investigations of 
allegations of violations of the statutes it enforces, including title 
IX, are guided by principles and processes outlined in its Case 
Processing Manual. If confirmed, I would look forward to working with--
and receiving the advice and recommendations from--OCR with respect to 
any changes proposed to be undertaken which may impact enforcement 
procedures, structures or roles.

    Question 12. Given the high volume of complaints related to 
education received by the U.S. Department of Justice in recent years, 
do you believe that there continues to be a need for the OCR to 
investigate complaints of discrimination in our Nation's public 
schools? Why or why not?
    Answer 12. The Office for Civil Rights (OCR) is statutorily charged 
with enforcing civil rights laws in our Nation's schools, colleges and 
universities. Unless that obligation is statutorily revised it remains 
an affirmative obligation of the Department and the Office for Civil 
Rights, which I will vigorously enforce if confirmed.

    Question 13. Given the enormity of the job, what qualifications, 
experience, and skills will you be looking for when you nominate your 
Assistant Secretary for Civil Rights to lead the Office for Civil 
Rights? Do you anticipate any changes to the role of the Assistant 
Secretary for Civil Rights or the Office for Civil Rights under your 
leadership?
    Answer 13. The Assistant Secretary for Civil Rights should be a 
person of integrity, knowledge, and commitment to public service 
capable of leading and managing a large organization with multiple 
offices throughout the United States. Knowledge of legal processes, 
appreciation of the need for fair and efficient enforcement of the laws 
that protect our Nation's students, and a desire to work with a team 
dedicated to analysis and application of the rule of law are additional 
desired qualities.

    Question 14. Do you believe that the rights of a victim of sexual 
violence to continue his or her education is just as important as the 
right of an accused student to continue his or her education? Will you 
commit to continuing to catalog the complaints by types listed above so 
the public and Congress can have a clear picture about trends in title 
IX enforcement? Will you commit to providing this report annually and 
making it available publicly on the website and to Congress?
    Answer 14. Students have a right to feel safe and protected in 
their learning environment. Sexual violence is particularly disturbing 
as its victims often are reluctant to pursue action by the criminal 
justice system. Protecting the victim's right to privacy and right to 
decide how and whether to pursue all the legal avenues afforded him/her 
must be respected.
    Sexual violence can impact a student in profound ways, destroying 
trust and potentially re-victimizing the victim as the most private of 
relationships is on display for judgment, ridicule and challenge. 
Innocent victims and survivors of sexual violence who want to continue 
their education deserve our strong, and unrelenting support. Alleged 
perpetrators of this violence are also entitled to certain protections, 
including the right to be considered innocent until proven guilty.
    In a non-criminal context, many schools have a zero-tolerance 
policy for violence as well as honor codes that set these expectations 
for the entire student body. It is expected that schools will have in 
place mechanisms to respond to allegations of violence, and processes 
to fully investigate and respond to allegations of criminal activity, 
including sexual violence, on their campuses. Those procedures must be 
fair, accessible, and consistent. If confirmed, I will work to ensure 
robust enforcement of laws that protect students from violence and 
commit to working with the leadership at the Department to examine 
mechanisms that improve public access to information and empower 
students, parents, and others to ensure a safe environment.

    Question 15. Do you have any experience working with adult learners 
or adult basic education programs? If so, please describe this 
experience, what it has taught you, and how you will use that 
experience in your oversight of these programs.
    Answer 15. Too many Americans are suffering in the current economy. 
President-elect Trump made improving the employment opportunities of 
these Americans a cornerstone of his campaign, and his administration 
will work to improve the prospects of those forgotten individuals.
    Reforms enacted in the Adult Education and Family Literacy Act, 
which was reauthorized in 2014 as part of the Workforce Innovation and 
Opportunity Act, were meant to help States and communities improve 
services for adult learners to better provide them the education and 
skills they need to obtain employment and increase self-sufficiency. If 
confirmed, I will work through the Office of Career, Technical, and 
Adult Education to implement these reforms to improve outcomes for 
adult learners. Combined with other efforts across the government, we 
have an opportunity to restore the American Dream for all Americans.
    I have had personal experience mentoring students in our local 
public school system. I became very well acquainted with one student's 
mother, and encouraged her to pursue her GED. Her experience made me 
realize how difficult the system made this for a single working mother. 
Many courses were only available during routine business hours, 
creating an additional hardship for her and her family. The lack of 
flexibility and adaptability in the system itself is all too often a 
barrier to success for nontraditional students.

    Question 16. What role do you believe the U.S. Department of 
Education should play to disseminate, promote, or incentivize the 
policies, practices, initiatives, or programs that you believe 
contribute to creating a high-quality, accountable, autonomous charter 
school sector? How would you use your funds for National Activities 
under the Federal Charter Schools Program program to do so?
    Answer 16. I believe the primary responsibility for creating a 
high-quality, accountable, and autonomous charter school sector rests 
with States, local communities, and the broader charter school sector 
itself, not with the Federal Government or the U.S. Department of 
Education.
    At the same time, I support high quality, accountability, autonomy, 
and transparency. If confirmed, I look forward to working with you to 
discuss how funds for National Activities under the Federal Charter 
Schools Program can most effectively be used to disseminate technical 
assistance and best practices to States, local school districts, 
charter schools, and charter school authorizers to help improve 
quality, strengthen accountability, and protect the autonomy of charter 
schools.

    Question 17. At a 2015 South by Southwest education conference, you 
told a story about Aviation Academy, the charter school you and your 
husband founded. You said,

          ``There's also, you know a contract that parents will sign--
        parents and students will sign--that talks about what the 
        expectations are for personal behavior and commitment to one's 
        education and so forth.''

    And you said that, ``some students self-disqualify based on what 
expectations are communicated.'' Based on this statement, should we 
conclude that you believe that charter schools do not have an 
obligation to serve all students--that is that some students--maybe, 
using your example, students with challenging behaviors do not need to 
be served by public charter schools?
    Answer 17. To your first question, no, you should not conclude 
anything other than what I said. To correct the record further, the 
school you reference--the West Michigan Aviation Academy--was founded 
by my husband.
    Parents may choose not to enroll their children in a charter school 
or a student may decide that a particular charter school is not right 
for them. These scenarios are perfectly acceptable and, in no way, 
suggest that charter schools are unwilling to serve all students. 
Hopefully local communities encourage school cultures where 
transparency around expectations and culture are communicated honestly, 
openly and freely.
    Public charter schools serve all children.

    Question 18. Will you continue Federal data collection efforts to 
link charter schools with their management entities; specifically, will 
you continue collecting information on Charter Management Organizations 
and Charter Contracts listed in the SY2016-17 EDFacts files C196, C197, 
and C198?
    Answer 18. If confirmed, I will review these data collection 
efforts and determine what is necessary for effective charter school 
management. As well, I will look forward to working with charter school 
officials, management organizations and other stakeholders.

    Question 19. In a report released by the Office of the Inspector 
General for the U.S. Department of Education on September 29, 2016, the 
U.S. Department of Education outlined ways it intends to help Federal 
agencies and States assess and mitigate the financial risks posed by 
charter schools with Charter Management Organizations (CMO) 
relationships. This included providing guidance and technical 
assistance to States, convening a formal oversight group within the 
U.S. Department of Education, and working with external partners and 
interest groups like charter schools and charter school authorizers. 
Under your tenure, what actions will the Department of Education take 
to honor these commitments?
    Answer 19. If confirmed, I will review the Inspector General's 
report and issues raised. I am committed to giving parents high quality 
educational options from which to choose the right learning environment 
for their children. I will work with States, local communities, charter 
management organizations, charter schools, and other stakeholders to 
hold schools accountable for educating students and providing them the 
skills and knowledge they will need to be successful.

    Question 20. Your record speaks to being a big believer in free 
markets and competition, but the record of for-profit virtual schools 
shows that they operate in anything but a ``free'' market. K-12, Inc.--
where you and your husband were previously investors--spends millions 
of dollars lobbying in State capitals around the country to weaken 
accountability for virtual schools. Kevin Huffman, an education 
reformer who served as education commissioner for a Republican Governor 
in Tennessee, described his unsuccessful efforts to close the failing 
virtual school there as one of his biggest regrets during his tenure as 
commissioner. The value-added scores measuring how much students learn 
were dead last for that K-12, Inc. school out of 1,600 schools in the 
State in its first year and in the lowest level of performance in 
subsequent years. Yet through intense lobbying pressure the school has 
remained open. In a true free market, this school would have closed 
down long ago. As Secretary, how would you support State leaders 
wanting to hold these failing schools accountable for results?
    Answer 20. I have not had a financial interest in K12, Inc. in 
nearly a decade. I believe States have the obligation to set 
accountability standards and if schools consistently fall below those 
standards, they should be closed whether they are virtual, place-based, 
traditional, or charter schools. I will certainly support States in 
their efforts to hold all schools accountable and will provide 
technical assistance, training, or other support as appropriate.

    Question 21. You've been on the record supporting full-time virtual 
schools. But recent studies of virtual charter schools funded by the 
charter-supporting Walton Family Foundation, the conservative Fordham 
Foundation, reports published by the National Alliance for Public 
Charter Schools and National Association of Charter School Authorizers, 
and an investigation by Education Week painted a very concerning 
portrait of their performance. In particular, the Walton funded study 
from CREDO found that students in virtual charter schools had far less 
growth in math and reading compared to similar students in traditional 
public schools. Those gaps equate to 72 fewer days of growth in reading 
and 180 days--a full school year--in math. Given those results, do you 
think it is appropriate to continue to advocate for virtual schools? 
Why do you think their performance is so poor?
    Answer 21. I support great schools in all forms--public, private, 
magnet, home, religious and virtual. Unlike other public schools, 
charter schools can--and should--be closed when they fail to meet the 
obligations outlined in their charters. We need to bring traditional 
neighborhood schools up to the same high-level of accountability as 
public charter schools.
    High quality virtual charter schools provide valuable options to 
families, particularly those who live in rural areas where brick-and-
mortar schools might not have the capacity to provide the range of 
courses or other educational experiences for students. Because of this, 
we must be careful not to brand an entire category of schools as 
failing students. For example, the following virtual academies have 4-
year cohort graduation rates at or above 90 percent:

    Idaho Virtual Academy (IDVA): 90 percent,
    Nevada Virtual Academy (NVVA): 100 percent,
    Ohio Virtual Academy (OHVA): 92 percent,
    Oklahoma Virtual Charter Academy (OVCA): 91 percent,
    Texas Virtual Academy (TXVA): 96 percent,
    Utah Virtual Academy (UTVA): 96 percent, and
    Wisconsin Virtual Academy (WIVA): 96 percent.

    As the Chairman of the Senate Committee on Health, Education, 
Labor, and Pensions has said, ``Washington, DC should not be a national 
school board.'' We need to respect the differences between rural, urban 
and suburban communities and help ensure every community has the tools 
to succeed.
    If confirmed, I will implement each Federal program under my 
jurisdiction consistent with the requirements spelled out by Congress 
to ensure that taxpayer funds are spent well and students are well-
served.

    Question 22. The White House Initiative on Educational Excellence 
for Hispanics is critical in shedding light on the educational 
disparities facing Hispanic students. What are your plans for WHIEEH? 
The White House Initiative on Educational Excellence for African 
Americans is critical in shedding light on the educational disparities 
facing African American students. What are your plans for WHIEEAA? The 
White House Initiative on Asian American and Pacific Islanders is 
critical in shedding light on the income and educational disparities 
facing the AAPI community. What are your plans for WHIAAPI and other 
affinity groups that contribute to monitoring the needs of AAPIs?
    Answer 22. If confirmed, I look forward to reviewing these 
initiatives and their outcomes on behalf of Hispanics, African 
Americans, and Asian Americans and Pacific Islanders. All students 
deserve to have access to high-quality educational environments where 
they can learn, thrive and succeed.

    Question 23a. The U.S. Department of Education Office for Civil 
Rights' mission is to ensure equal access to education and to promote 
educational excellence through vigorous enforcement of civil rights in 
our Nation's schools.
    Under your leadership, how will students, parents, educators and 
other community stakeholders access important data and information to 
interpret civil rights laws set forth by Congress, promote 
accountability and transparency, and ensure equal educational 
opportunity?
    Answer 23a. In addition to several large data sets and collections 
maintained by the Department of Education, the Office for Civil Rights 
(OCR) is statutorily authorized to collect or coordinate the collection 
of data necessary to ensure compliance with civil rights laws within 
the jurisdiction of OCR.
    Additionally, the Assistant Secretary for Civil Rights is required 
to make an annual report to the Secretary, the President-elect, and the 
Congress summarizing the compliance and enforcement activities of OCR 
and identify significant civil rights or compliance problems on which, 
in the judgment of the Assistant Secretary, adequate progress is not 
being made. If confirmed, I will continue to support this information 
being made available as required by law.

    Question 23b. Will you prioritize funding for Civil Rights Data 
Collection?
    Answer 23b. The Civil Rights Data Collection is an important, 
longstanding tool of the Department. If confirmed, it will continue to 
have my support.

    Question 23c. Will you provide resources for technical assistance 
to districts seeking to address student discipline, racial and gender 
diversity, accommodations for students with disabilities, and pregnant 
and parenting students?
    Answer 23c. Yes. If confirmed, I will work to ensure schools, 
colleges and universities have access to the information and technical 
assistance needed to address these issues.

    Question 23d. Between fiscal year 2009 and fiscal year 2016, OCR 
resolved over 66,000 civil rights cases. Will you prioritize funding 
for investigations into potential civil rights violations?
    Answer 23d. If confirmed, I will work to ensure that the Office for 
Civil Rights has the requisite resources to fulfill its statutory 
mission.

    Question 24a. OCR has issued a number of guidance documents on the 
topic of rethinking discipline to address disparities on the basis of 
race, sex, and disability and reduce the use of exclusionary discipline 
practices.
    Do you intend to maintain these documents and enforce the 
protections and support the approaches outlined in them?
    Answer 24a. If confirmed, I will look forward to reviewing those 
documents and encouraging all stakeholders to dialog on the right next 
steps.

    Question 24b. Exclusionary discipline practices (e.g., suspensions, 
expulsions, referrals to law enforcement, and school-based arrests) 
disproportionately impact Black and Latino students, students with 
disabilities, and students who identify as lesbian, gay, bisexual, 
transgender, or queer (LGBTQ) in both traditional public schools and 
charter schools. What should be done to address this problem?
    Answer 24b. Ensuring that schools are safe learning environments 
for all students--as well as safe work environments for all staff--is 
an important shared priority. If confirmed, I look forward to exploring 
this important issue with State Education agencies, local education 
agencies and other key stakeholders and to examining ways to 
disseminate effective best practices.

    Question 25. While 39 percent of White girls tested at or above 
proficient on the science portion of the 8th grade National Assessment 
of Educational Progress (NAEP) exam in 2011, only 9 percent of Black 
girls, 13 percent of Hispanic girls, and 15 percent of American Indian 
and Alaska Native girls achieved proficiency. Similar disparities exist 
across multiple subjects and multiple grade levels. What will you do to 
close the STEM gender and racial gap?
    Answer 25. A strong pipeline of students interested in pursuing 
STEM careers, including research in these subject areas, is important 
to our Nation's success. And this strong pipeline would not be complete 
if we do not work to dramatically increase the number of girls and 
minorities who pursue STEM careers. If confirmed, I will work closely 
with other agencies, including the NSF, to improve coordination of STEM 
education and research initiatives and to highlight best practices 
related to engaging more girls and minorities in these fields of study.

    Question 26. Many hoped ESSA would require disaggregation of 
student data for all AAPI subgroups. While there is no Federal 
statutory requirement in ESSA, States and school districts can (and do) 
disaggregate their student data by AAPI subgroups. Will the Department 
continue grant programs such as the Asian American and Pacific Islander 
Data Disaggregation Initiative (the ``D2 Program''), issue guidance, 
and provide technical assistance to help and encourage States and local 
school districts to obtain and evaluate disaggregated data on AAPI 
subpopulations?
    Answer 26. It is critical for all parents, including Asian American 
and Pacific Islander (AAPI) parents, to know their children are 
learning and how schools are performing. If confirmed, I will look 
carefully at these grant programs to ensure States and local school 
districts have the information they need to serve all populations well 
and provide high-quality educational environments that encourage all 
children to learn, thrive, and succeed.

    Question 27. If you claim to support accountability and 
transparency, why do the model voucher policies from the American 
Federation for Children that you chaired fail to require students in 
private schools receiving vouchers to take the same assessments and 
report the same data as those in public schools?
    Answer 27. The model voucher policies include strong accountability 
provisions. I've included the language below for your review:

    (C) Academic Accountability Standards. There must be sufficient 
information about the academic impact Parental Choice Scholarships have 
on participating students in order to allow parents and taxpayers to 
measure the achievements of the program, and therefore:

        (1) participating schools shall:

             (a) annually administer either the State achievement tests 
        or nationally norm-referenced tests that measure learning gains 
        in math and language arts, and provide for value-added 
        assessment, to all participating students in grades that 
        require testing tinder the State's accountability testing laws 
        for public schools;
             (b) provide the parents of each student with a copy of the 
        results of the tests on an annual basis, beginning with the 
        first year of testing;
             (c) provide the test results to the State or an 
        organization chosen by the State on an annual basis, beginning 
        with the first year of testing;
             (d) report student information that would allow the State 
        to aggregate data by grade level, gender, family-income level, 
        and race; and
             (e) provide rates of high school graduation, college 
        attendance and college graduation for participating students to 
        the Department or an organization chosen by the State in a 
        manner consistent with nationally recognized standards.

    Question 28. Since our Nation's Federal Government continues to 
face tightening budgets and growing demand for services, we need to 
invest taxpayer dollars in the most efficient and effective ways 
possible. Building evidence of what works in education and then making 
decisions based on that information could help address this situation. 
The Federal Government has taken some important steps in this 
direction, including setting aside funds for rigorous, independent 
evaluations to build the evidence base of interventions that are most 
effective; structuring Federal competitive grant programs using a 
tiered-evidence approach that gives greater funds to grantees with 
greater evidence and less to those with less evidence; and giving 
preference points in Federal competitive grant programs to grantees 
demonstrating evidence of effectiveness. But surely more can be done to 
ensure tax dollars are spent efficiently and effectively. Secretary, 
what do you think the Department can and should do to use evidence, 
data and evaluation to inform policy and drive continuous improvement 
in federally funded education programs?
    Answer 28. To be responsible with taxpayer dollars and ensure that 
our programs are effective, responsive and impactful, we should use 
reliable data, strong research and rigorous evaluations.

    Question 29. Personnel shortages in special education are the 
result of recruitment and retention challenges. There is both a 
shortage of professional to fill available positions and a shortage of 
positions to meet the growing demand for services for America's six 
million children and youth with disabilities who receive special 
education services. Shortages of fully certified personnel and unfunded 
positions impede the ability of students with disabilities to reach 
their full academic potential and hinder work of districts to prepare 
all students to be college- and career-ready. The National Commission 
on Teaching and America's Future estimates that the national cost of 
public school teacher turnover could be over $7.3 billion a year. As a 
result of high turnover, high need urban and rural schools are 
frequently staffed with inequitable concentrations of under-prepared, 
inexperienced teachers. The constant retraining of new staff means that 
high-needs schools can neither close the teacher quality staff nor the 
student achievement gaps. As the U.S. Secretary of Education what is 
your plan to ensure a well-prepared, sufficient special education 
workforce?
    Answer 29. Educating, training and preparing great teachers is 
critical work. All students, including our special education students, 
deserve effective teachers to help them achieve and succeed. If 
confirmed, I will work with States, universities, colleges of education 
and other stakeholders to ensure we have a strong pipeline of well-
prepared and effective teachers to meet the important demands of 
today's student population. We must also strive to attract new teachers 
to the workforce to address the teacher shortage in urban and rural 
schools.

    Question 30. Research shows that at-risk children who participate 
in high-quality preschool programs are dramatically less likely to be 
retained in school, be placed in special education classes, drop out of 
high school, or depend on public benefits when they are adults. What 
will you do to help States expand high-quality, affordable early 
childhood education programs?
    Answer 30. Early childhood education is important. This is why it 
is exciting to see so many States invest in and support early education 
programs for families. If confirmed, I look forward to working with 
State and local leaders to support their efforts to provide early 
childhood education. As you know, the Every Student Succeeds Act (ESSA) 
included the authorization of Preschool Development Grants to help 
States improve the services they are providing. If confirmed, I will 
work with the Secretary of Health and Human Services to confirm the 
efficiency and effectiveness of all early childhood education programs 
and initiatives.

    Question 31. Have you invested in pay for success programs or 
social impact bonds? Do you support using ``pay for success'' contracts 
in early childhood education?
    Answer 31. Not to my knowledge, no. It is an idea worth looking 
into.

    Question 32. As you may know, the Department of Education's Office 
of Early Learning has played a crucial role in improving access to 
high-quality early learning across the country. In addition to jointly 
administering the Preschool Development Grants program, the Office will 
need to provide technical assistance to States regarding the new 
provisions around early learning in ESSA. Can we count on you to 
maintain and strengthen the Office of Early Learning if confirmed?
    Answer 32. Early childhood education is important and can help put 
a child on a path to success and the workforce. That is why it is 
exciting to see so many States invest in and support early education 
programs for families. If confirmed, I look forward to working with 
State and local leaders to support their efforts to provide early 
childhood education. As you know, ESSA included the authorization of 
Preschool Development Grants to help States improve the services they 
are providing. I will work with the Secretary of Health and Human 
Services to ensure the efficiency and effectiveness of early childhood 
education programs.

    Question 33. Back in the 1970s, the Supreme Court held in Lau v. 
Nichols that it was discriminatory for schools to fail to provide 
meaningful English language instruction. Today, there are 4.5 million 
English learners in public schools across the United States. Do you 
believe in bilingual education? If not, what is the best way to teach 
those students English, so they can become full members of the 
classroom and productive members of our society? What can we expect 
your office to do when schools tell parents to bring their own 
interpreters to parent teacher conferences or IEP meetings? Do you 
believe this is a violation of Lau v. Nichols?
    Answer 33. I support bilingual education. If confirmed, I'll 
support States and districts in their efforts to provide English 
learners the resources they need to be successful. We want all students 
to know English and be active participants in our Nation's community.

    Question 34. Your organization, American Federation for Children, 
which helped craft Mr. Trump's education proposal, has advocated for 
portability of title I funding within a national school privatization 
model. Nationally, around 9 million low-income students rely on title I 
funding. A study from The Education Trust points to the likelihood that 
under a portability structure, districts with the highest poverty 
levels are likely to lose a significant share of title I funding, and 
districts with the lowest poverty levels are likely to gain funding. 
Why should we endanger the funding for some of the most vulnerable 
children in our Nation to prop up a system that has not yielded 
discernibly better results in your State; and what specific steps would 
you take to ensure that title I funding is not stripped from the 
communities that need it most?
    Answer 34. All parents, regardless of zip code or income level, 
want to enroll their children in the learning environment that best 
meets their individual needs. If the local assigned school is not a 
good fit--perhaps the child has a need that is going unmet--a parent 
should have the ability to move that child to a different school. As 
well, what might work for one child, may not work for a sibling, hence 
the need to give parents options. They know that a one-size-fits-all 
model of education no longer works for all and that other options exist 
to personalize and individualize learning. If confirmed, I look forward 
to working with the President-elect to enhance educational options for 
all students.

    Question 35a. Our financial aid rules allow for-profit colleges to 
get up to 90 percent of their funding from Federal student aid (known 
as the ``90/10'' rule) but a loophole in current law does not count 
veteran and military benefits as student aid. Recent data released by 
the Department showed that more than 180 colleges are exceeding 90 
percent Federal funding when Department of Defense and Veterans Affairs 
benefits are included, which results in approximately $8 billion in 
Federal aid throwing through this loophole. Many have raised concerns 
that this loophole also leads to colleges seeing servicemembers and 
veterans as nothing more than dollar signs in uniform, and to use 
aggressive marketing to draw them in. For every $1 attached to a 
service member or veteran (or spouse or child, in the case of the post-
9/11 G.I. bill) enrolled at a for-profit college and paying with 
military education funds, that college can then enroll nine more 
dollars from other students who are using nothing but title IV money. 
Some colleges could derive 100 percent of their revenue from Federal 
funds, and many come quite close. For these reasons, I am interested to 
know your thoughts to the following questions.
    Do you believe Department of Veterans Affairs Post-9/11 GI bill and 
Department of Defense Tuition Assistance benefits, paid for by Federal 
taxpayers, are Federal funds?
    Answer 35a. I believe that both the 9/11 GI bill and the Department 
of Defense tuition assistance programs are benefits earned by our 
veterans and service-
members for their dedicated service to our country.

    Question 35b. Do you believe it is reasonable to close the 90/10 
loophole and count veteran and military benefits as part of the 90 
percent cap? If not, please explain why you do not think this is 
reasonable.
    Answer 35b. If confirmed, as Secretary I will enforce the Higher 
Education Act (HEA) as written. When Congress wrote this rule into the 
HEA, GI bill benefits were not included. Should Congress change this 
calculation, I will ensure that its implementation is carried out as 
prescribed.

    Question 35c. Do you believe it is reasonable to expect that 
colleges receive at least 15 percent of their revenues from sources 
other than taxpayer dollars? If not, please explain why you do not 
think this is reasonable.
    Answer 35. Originally when this provision was added to the Higher 
Education Act, Congress set the ratio at 85/15; however, in subsequent 
legislation Congress changed the ratio to the current 90/10. Should 
Congress change this calculation, I will ensure that its implementation 
is carried out as prescribed.

    Question 36a.  I've been troubled by behavior from a number of 
colleges over the past several years that have blatantly misused 
taxpayer dollars and defrauded their students. Unfortunately, in too 
many instances, the executives that ran these colleges and the 
accreditors that oversaw bad behavior have not been held accountable. 
For each of the following questions, please indicate ``yes'' or ``no'' 
whether you believe that their actions represent acceptable or 
allowable behavior.

    (a) Northwestern Polytechnic University: Operated as a Potemkin 
college that changed failing grades by hand and faked classes and a 
librarian when it was visited. Do you believe this is acceptable and 
allowable behavior by a college?
    (b) FastTrain College: A college whose owner used exotic dancers to 
recruit students and was sent to jail for committing fraud in the 
Federal aid programs. Do you believe, this is acceptable and allowable 
behavior by a college?
    (c) Minnesota School of Business and Globe University: Found guilty 
of committing fraud in marketing and recruitment. Do you believe this 
is acceptable and allowable behavior by a college?
    (d) American Commercial College: A college sued by the Department 
of Justice for lying about the percentage of its revenue received from 
the U.S. Department of Education. Following the suit, the college's 
owner was sentenced to 24 months in prison and ordered to repay 
$975,000 after pleading guilty to theft of Federal financial aid. Do 
you believe this is acceptable and allowable behavior by a college?
    (e) Anamarc College: A college that was raided by the FBI in 2014 
after an abrupt closure. Family members of the college's owners were 
later sued and settled a lawsuit for stealing more than $450,000 from 
the school. Do you believe this is acceptable and allowable behavior by 
a college?
    (f) Corinthian Colleges Inc. (Everest): A company that refused to 
comply with Department of Education requests for data on job placement 
data and for which investigations by attorneys general in California 
and Massachusetts later found evidence of widespread falsification of 
job placement rates and other problems. Do you believe this is 
acceptable and allowable behavior by a college?
    (g) Alta Colleges Inc. (Westwood College, Redstone College): A 
company sued by Department of Justice for falsifying claims for Federal 
financial aid, the Colorado attorney general for misleading students, 
and the Illinois attorney general for abusive marketing practices. The 
company settled all three for a total of $26.5 million. Do you believe 
this is acceptable and allowable behavior by a college?
    (h) Career Education Corporation (Brooks Institute, Harrington 
College of Design, International Academy of Design and Technology, Le 
Cordon Bleu, Missouri College, Pittsburgh Career Institute, Sanford-
Brown): A corporation that settled a lawsuit for $10.25 million with 
the New York State attorney general in 2013 for falsifying job 
placement rates and was separately investigated by nearly 20 States' 
attorneys general for potential violations of statutes and regulations. 
The U.S. Securities and Exchange Commission, or SEC, and the Federal 
Trade Commission, or FTC, are also investigating the company. Do you 
believe this is acceptable and allowable behavior by a college?
    (i) Computer Systems Institute: A college that was denied re-
certification to participate in Federal student aid programs in 2016 
for falsifying job placement rates. Do you believe this is acceptable 
and allowable behavior by a college?
    (j) Daymar College: A college that settled a $12.4 million lawsuit 
with the Kentucky attorney general for violating the Consumer 
Protection Act, including lying about transferability of credits. Do 
you believe this is acceptable and allowable behavior by a college?
    (k) Education Affiliates Inc. (Fortis): A college that settled a 
$13 million lawsuit for using fake high schools to help students 
illegally obtain Federal student aid. Do you believe this is acceptable 
and allowable behavior by a college?
    (l) Education Management Corporation (Art Institutes, Brown 
College, Brown Mackie College): A company that settled lawsuits with 
the Department of Justice and several States attorneys general for 
$198.3 million for using illegal and deceptive recruiting practices. Do 
you believe this is acceptable and allowable behavior by a college?
    (m) ITT Educational Services Inc.: A company with schools 
investigated by State attorneys general, the SEC, and the DOJ for 
illegal recruitment practices. The company was also sued by the 
Consumer Financial Protection Bureau for concerns around its private 
student loans. Do you believe this is acceptable and allowable behavior 
by a college?
    (n) Lincoln Technical Institute: A college that settled lawsuit 
with the Massachusetts attorney general for $1 million for falsifying 
job placement rates. Do you believe this is acceptable and allowable 
behavior by a college?
    (o) National College: A college sued by the Kentucky attorney 
general in 2011 for misrepresenting job placement rates. Do you believe 
this is acceptable and allowable behavior by a college?
    (p) Salter College: A college that settled a lawsuit by the 
Massachusetts attorney general for $3.75 million over questionable 
recruitment tactics and falsifying job placement rates. Do you believe 
this is acceptable and allowable behavior by a college?
    (q) Spencerian College: A college sued by the Kentucky attorney 
general for misrepresenting job placement numbers. Do you believe this 
is acceptable and allowable behavior by a college?
    Answer 36a. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws.

    Question 36b. With regard to the colleges and examples listed in 
the previous question, please indicate your views on the following 
questions with a ``yes'' or ``no'' answer.
    (r) If you were someone tasked with overseeing the quality of these 
schools, would you consider it acceptable behavior to name many of 
these colleges to your ``honor roll'' 90 times over a 5-year period?
    (s) If you were someone tasked with overseeing the quality of these 
schools would you consider it acceptable to have your approval allow 
institutions like the ones described above receive more than $5.7 
billion in Federal funds over 3 years?
    (t) If you were someone tasked with overseeing the quality of these 
schools would you consider it acceptable behavior to have on your board 
an employee of a school who was accused by the California attorney 
general of intentionally faking job placement rates?
    (u) If you were someone tasked with overseeing the quality of these 
schools would you consider it acceptable behavior to have one-third of 
your board come from institutions facing lawsuits or other forms of 
investigations?
    (v) Do you believe that failing to do anything about the above 
examples represents someone who is a reliable authority regarding the 
quality of education and training?
    (w) As a parent, would you be concerned about your child attending 
an institution of higher education that was being investigated or sued 
by several State attorneys general or Federal agencies for unfair, 
deceptive, or abusive practices?
    (x) If confirmed, will you ensure that accreditation agencies 
maintain high standards and are held accountable when they fail to act?
    Answer 36b. If confirmed as Secretary of Education, my legal role 
would not be to determine the quality of a school but rather ensure 
that they meet all of the eligibility standards for participation in 
title IV programs as dictated by the Higher Education Act. Each member 
of the so-called ``triad''--States, accreditors, and the Federal 
Government--has a role in ensuring accountability and protecting 
students, under current law.
    If any one of them discovers information that raises concerns, then 
that information should be shared among them all so that each may 
conduct a thorough review and investigation according to their specific 
role in protecting students.

    Question 37. The U.S. Department of Education recently published 
final ``borrower defense'' regulations to ensure borrowers who are 
defrauded receive the relief to which they are entitled under the HEA. 
These rules contain provisions that would also protect taxpayers from 
the abuse committed by colleges and universities. Unfortunately, there 
are far too many examples of this sort of abuse. In November 2015, the 
U.S. Department of Education and then-California Attorney General 
Kamala Harris announced a review of job placement rates at locations of 
Corinthian Colleges, Inc. For example, they found that Everest 
University accounting associate degree at Brandon had a posted 
placement rate of 92 percent, but an actual placement rate of 12 
percent. Everest University computer information sciences associate 
degree at Brandon had a posted placement rate of 62 percent, but an 
actual placement rate of 13 percent. These are just two examples of 
substantial misrepresentations to students.
    (a) Do you commit to implementing provisions in the recently issued 
``borrower defense'' rule that would hold schools accountable for 
abuses through early warning indicators for potential risks to the 
taxpayer?
    (b) Do you think schools that embellish students' job prospects 
should have access to taxpayer dollars?
    (c) Do you believe there should be consequences for institutions 
that engage in manipulation of job placement rates?
    (d) For students who were in these programs where there is verified 
proof of problems with job placement rate data, will you commit to 
ensuring that these borrowers receive student debt relief, including 
discharges and refunds, for having been defrauded?
    (e) In what other ways do you intend to disincentivize 
inappropriate treatment of students, including widespread fraud and 
abuse?
    Answer 37. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws. If confirmed, I will review the regulations issued by 
the Department and utilize those tools to ensure a fair review that 
protects all parties, including student and taxpayer interests.

    Question 38. Nearly five million parents of dependent children are 
enrolled in college in the United States. However, access to on-campus 
childcare continues to decline, which hinders student parents' ability 
to persist and graduate. Research also shows that parenthood is more 
common among undergraduate students than many realize, and women, 
students of color, low-income students, and first-generation students 
are especially likely to be parents. Yet, many colleges do not track 
the number of student parents enrolled at their specific school, making 
it difficult for institutions to understand student parents' needs and 
improve their educational outcomes. At your nomination hearing, you 
said that you ``understand the challenge that young mothers face in 
deciding how to best serve her child's needs.'' Given what we know 
about national trends and the importance of higher education to a 
family's economic security and their children's future success, I am 
interested to know your thoughts on ways we can support.
    (a) Given this, how will you make sure student parents have access 
to the resources, such as affordable, quality child care, that they 
need to earn a degree?
    (b) As Secretary of Education, how will you work with colleges and 
universities to ensure that data on students' parental status and their 
academic outcomes are collected and reported?
    Answer 38. If confirmed, I will provide technical support to 
institutions on best and efficient practices in addressing students' 
child care needs. In addition, I will review the information the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary.

    Question 39. In 2015, the Department released nearly 20 years' 
worth of higher education data spanning across all 7,000-plus 
institutions within the United States. This data was made available 
through the College Scorecard, a web-based tool aimed at helping 
students and families make more informed decisions when choosing a 
college. Other government websites, like the GI Benefits Comparison 
Tool hosted through Veterans Affairs, also use information from the 
college scorecard to provide information to veterans who are in the 
process of considering their post-secondary options. How do you plan to 
continue to expand the information available to consumers so that they 
can make the best choices with their investment in higher education?
    Answer 39. If confirmed, I will review the information that the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary. Further, I 
will ensure the information provided conforms with the requirements of 
the Higher Education Act for the college navigator and college cost 
information.

    Question 40. As part of a package of regulations in 2011, the U.S. 
Department of Education created a definition for ``credit hour'' of at 
least 1 hour per week in lecture and 2 hours on work outside of class. 
The definition creates a baseline for how colleges measures how much 
time students spend in class and on coursework and, critically, how 
that time translates into Federal aid dollars. As a result, it also 
creates a basic level of insurance that taxpayer dollars are not being 
used to fund wildly different amounts of student work. Do you think 
it's appropriate for the same level of work done by two students to get 
different taxpayer support?
    Answer 40. If confirmed, I will work to ensure that taxpayer 
dollars are protected and that rules encourage--not discourage--the 
creation or expansion of innovative delivery systems. I look forward to 
working with members of the committee in addressing these issues and 
striking a reasonable balance that protects taxpayers, but also allows 
institutions to offer education in a manner that best meets the needs 
of students.

    Question 41. One way to reduce regulatory burden on colleges and 
universities, increase transparency, and improve the focus on outcomes 
in higher education would be to establish a student level data system. 
Information on employment outcomes already exists (at the Federal 
level) within data sets at the Internal Revenue Service and Social 
Security Administration, and this data can easily be provided a secure, 
anonymized, and aggregate basis for institutions and programs as it is 
for other student aid operations. But policymakers, accreditors, 
institutions and students do not have access to that information 
because of a 2008 provision in the Higher Education Opportunity Act to 
block access to student-level data. An analysis by the New America 
Foundation suggests colleges could save 633,000 hours of burden if the 
Federal Government used a more efficient student-level data system. 
Will the Administration support be reducing regulatory burden by 
lifting the ban on transparent, student-level data?
    Answer 41. As you note, Section 134 of the Higher Education Act 
(HEA) prevents the Department of Education from implementing a student 
unit record system. As Congress works to reauthorize the HEA, I look 
forward to working with you, if confirmed, to ensure that privacy 
concerns are addressed and implementing the law.

    Question 42. The U.S. Department of Education has maintained the 
Federal Student Aid Data Center to collect and provide information 
about the Federal student aid programs. Will you commit to maintaining 
the public availability of each data item below (please indicate yes or 
no):

    (a) Quarterly updates on loan and grant volume by an institution, 
including breakdowns of recipients by loan and grant type, as well as 
unduplicated counts.
    (b) Financial responsibility scores.
    (c) Overall portfolio analytics, including but not limited to 
delinquency rates, repayment plans, loan statuses, and usage of income-
driven repayment plans.
    (d) FAFSA completion data by high school and by State.
    (e) Final program reviews.
    (f) Required letters of credit.
    (g) 90/10 revenue percentages for proprietary schools.
    (h) VA and DOD estimates on the amount and percentage of funds 
received by institutions from each Federal educational program, 
including VA's Post-9/11 GI bill benefits and Military Tuition 
Assistance.
    Answer 42. The Federal Student Aid Data Center provides information 
that is used by students, institutions, researchers, and policymakers. 
If confirmed, I look forward to reviewing the information that is 
provided and ensuring that the Data Center is providing useful 
information about activity related to title IV programs.

    Question 43. Cohort default rates (CDRs) are currently used by the 
U.S. Department of Education to determine institutional eligibility for 
title IV student aid. Yet using CDR's as a barometer for borrower 
outcomes often does not show the full picture of how borrowers are 
faring while repaying their loans. CDRs do not account for the 
percentage of students who borrow, nor do they indicate whether or not 
a borrower is actually paying down the principle of their loan. Many 
have suggested using loan repayment rates in lieu of default rates as 
an accountability metric. One commonly used definition of repayment 
measures the number of borrowers who have repaid at least $1 of their 
principal balance over a certain period of time (1, 3, 5, or 7 years 
after entering repayment).
    (a) Do you believe that repayment rates are a better indicator of 
borrower behavior than cohort default rates?
    (b) Do you believe students and parents should be able to easily 
see the percentage of students who borrow when viewing any indicator of 
borrower behavior or success?
    (c) What metric do you believe should be used to measure borrower 
outcomes and determine institutional eligibility for student aid?
    Answer 43. If confirmed, I will gather stakeholders and look 
carefully at this issue to determine whether the use of cohort default 
rates is the best tool for determining institutional eligibility for 
title IV student aid. I believe students and parents need reliable 
information and transparency about student loans, default rates, and 
repayment rates to make informed choices. We, as a country, have simply 
not done a good job of giving students and their families the best 
possible information upon which to base their choices.
    We need to work together to find solutions. As you consider the 
reauthorization of the Higher Education Act, and if I am confirmed, I 
look forward to working with you to find the right way to get that 
valuable information to students and families.

    Question 44. For students, the most critical relationship they have 
when managing their student loans is with their servicer, who is 
responsible for helping to manage students' accounts, process their 
monthly payments, and communicate directly with them about their 
repayment options. However, a 2015 report by the Consumer Financial 
Protection Bureau found that many servicers are failing to provide the 
basic level of support necessary to meet borrowers' needs, including 
losing key paperwork, misapplying payments, or not giving students 
accurate information about their repayment options. A June 2016 report 
by GAO found widespread customer service problems with Federal student 
loan servicers, including no minimum standard for servicer call center 
hours. As a result, each student loan servicer sets its own hours, and 
some borrowers have limited access to assistance. The same GAO report 
acknowledged there may be a disincentive, in terms of lack of 
compensation, for servicers to counsel borrowers on debt relief 
programs that may benefit the borrower but necessitate loan transfer to 
a different servicer. Finally, as you may know, the Department of 
Education is currently in the process of recompeting the Federal 
contracts for servicing the Direct Loan portfolio. Two critical 
components of this recompete are: (a) streamlined borrower experience 
via a single web portal through which all borrowers can find the latest 
information about their loans, make payments and apply for benefits, 
and (b) better customer service practices that will be common for all 
borrowers and that meet high standards to ensure borrowers' needs are 
met consistently, regardless of what contractor is providing that 
customer service.
    (a) The single web portal and consistent standards would eliminate 
these problems. If confirmed, do you commit to continuing the 
development of a single web portal for borrowers and to implementing 
new servicing standards to ensure borrowers receive the help they 
deserve?
    (b) If confirmed, do you commit to promptly implementing the GAO's 
recommendation that the Secretary of Education should develop a minimum 
standard that specifies core call center operating hours to provide 
borrowers, including those on the West Coast?
    (c) What actions will you take as Secretary to hold servicers 
accountable and help to create consistent and transparent standards for 
all servicers so that students are getting the help they need to manage 
their loans?
    (d) What other actions do you think should be done to continue to 
improve service to borrowers?
    Answer 44. We should do everything possible to ensure our students 
are getting excellent servicing on their student loans. As you consider 
the reauthorization of the Higher Education Act, and if I am confirmed, 
I look forward to working with you to find the right way to improve the 
experience of students regarding the servicing of their student loans.

    Question 45. Millions of young people across the country have 
access to higher education only because of the Federal loan and grant 
programs. In 2010, Congress passed legislation that ended the Federal 
Family Education Loan (FFEL) program, requiring all Federal loans since 
that time to be made through the direct lending program. The 
partnership established through the Direct Loan program between private 
loan servicers and the Federal Government has saved American taxpayers 
billions of dollars while increasing the efficiency of delivery. CBO 
has estimated that ending costly subsidies to banks and private lenders 
would save the Federal Government more than $60 billion over a decade. 
But there have been conversations to re-instate this type of indirect 
lending program back into the Federal student loan system, once again 
diverting critical taxpayer money away from student supports to private 
banks. President-elect Trump has said that the Federal Government 
should not be making money off of student loans, so I am very 
interested in your views on how to support current and future borrowers 
with student loans.
    (a) Do you support bringing private banks back into the student 
loan program and subsidizing them with taxpayer dollars?
    (b) If confirmed, will you commit to taking no action that will 
undermine the operational capacity, financial health, or long-term 
viability of the Direct Loan program?
    (c) If confirmed, will you oppose a change in accounting rules that 
merely hides student loan revenues and does not actually improve 
benefits for students or borrowers?
    (d) Do you think there are any changes we should make to the 
defaulted student loan debt collection process?
    Answer 45. As you know, the U.S. Department of Education is now one 
of the country's largest banks. I think we must look carefully at how 
the direct loan program is functioning. It's the responsible thing to 
do, especially with taxpayer dollars at stake. If confirmed, I look 
forward to working with the committee during the reauthorization of the 
Higher Education Act to find the best ways for students, institutions, 
States and the Federal Government to share the risk of bearing the 
costs of higher education. A lot has changed since 2008, when the Act 
was last reauthorized. I think the law needs to be updated to reflect 
those changes and we need to think more innovatively about how we help 
students finance their post-secondary education.

    Question 46. The Consumer Financial Protection Bureau has been an 
enormously effective regulatory body. The agency has highlighted cases 
of deceptive financial practices, pursued this misconduct, and 
recovered nearly $12 billion for consumers. Specifically, the CFPB's 
Office of Students and Young Consumers has highlighted poor student 
loan servicing practices and in doing so, has not only given students a 
voice, but has also advocated and defended the rights of our service 
members. How will your Department support, collaborate, and work with 
the CFPB?
    Answer 46. I will collaborate with other agencies and applicable 
regulatory bodies to ensure that students and their families are 
getting transparent data and reliable information about the 
institutions or services in which they are interested so they can make 
informed decisions.

    Question 47. Many students and families are concerned by the 
complexity and time needed to complete the Free Application for Federal 
Student Aid (FAFSA) in order to receive critical financial aid. During 
your committee testimony, you agreed it was a worthwhile effort to 
simplify the FAFSA, saying ``I don't think we should make it any more 
difficult than absolutely necessary for students to be able to further 
their education.'' With that in mind:
    (a) In any effort to simplify the FAFSA, which population(s) of 
students do you believe should receive the greatest decreases or 
increases in ``burden'' as measured by time to complete the 
application?
    (b) Do you believe low-income students and families should have an 
easier process of applying for aid than students and families with more 
complicated financial circumstances?
    (c) Do you support letting students and families know about all the 
benefits they might qualify for after they complete the FAFSA, 
including means-tested benefits?
    Answer 47. I agree we need to simplify the Free Application for 
Federal Student Aid. The act of applying for student aid should never, 
in and of itself, be a barrier to post-secondary education.

    Question 48. As you may know, misconduct related to the use of 
taxpayer dollars at for-profit colleges is not a new phenomenon, with 
previous major scandals occurring in the 1950s, 1970s, and the late 
1980s. When the problems emerged in the Reagan administration, 
Secretary of Education William Bennett released a report about for-
profit colleges in 1988 that said, among other things, that,

          ``You will find accounts of semi-literate high-school 
        dropouts lured to enroll in expensive training programs with 
        false hopes for a better future cruelly dashed. You will read 
        of falsified scores on entrance exams, poor-quality training, 
        and harsh refund policies. The pattern of abuses revealed in 
        these documents is an outrage perpetrated not only on the 
        American taxpayer but, most tragically, upon some of the most 
        disadvantaged, and most vulnerable members of society.''

    Secretary Bennett pledged to ``put some of them out of business 
right now . . . to get institutions that are exploiting kids and 
exploiting taxpayers out of the business.'' In 2012, a Senate HELP 
Committee investigation and report on for-profit college abuses was 
released to help guide the Department in developing policy.
    (a) Will you commit to reviewing the institutional history of the 
Department of Education's actions to constrain abuses by for-profit 
colleges since the inception of the Higher Education Act of 1965?
    (b) Have you seen and read the 2012 Senate HELP Committee report? 
If not, will you commit to reading it before you are confirmed?
    Answer 48. Let me be clear: Fraud should never be tolerated. 
Period. Bad actors clearly exist--in both public and nonpublic 
institutions. When we find them, we should act decisively to protect 
students and enforce existing laws. What I do not want to do is 
discriminate against or be intolerant of an institution of higher 
education simply because of its tax status. If confirmed, my role as 
Secretary, in part, would be to ensure the Higher Education Act is 
faithfully implemented and I will work to ensure faithful 
implementation across the board--whether the school is a public, 
private non-profit, or a for-profit school. Accountability is for ALL 
schools, and I intend to use the various tools at my disposal to 
enforce the law. If I am confirmed, I believe the Department can play a 
role in highlighting the best and worst practices in this regard.

    Question 49a. One of my key areas of focus for higher education 
policy and regulation will be institutional accountability, and how the 
Federal Government can better protect the approximately $150 billion 
that colleges and universities receive from students from the Federal 
student grant and loan programs. For-profit institutions only enroll 
about 10 percent of all post-secondary students but receive a 
disproportionate share of Federal dollars and account for 35 percent of 
all student loan defaults. Owners and executives of for-profit colleges 
can also pocket as much of the tuition money as they want, while public 
and other nonprofit schools must commit their resources to education 
and instruction and are not allowed to allocate net revenue to 
themselves.
    Do you believe that protecting students and taxpayers is an 
ideological or partisan matter?
    Answer 49a. No.

    Question 49b. If confirmed, what steps will you take to address the 
disparity of for-profit institutions using a disproportionate share of 
Federal aid?
    Answer 49b. If confirmed, I look forward to reviewing the data 
related to the use and flow of Federal student aid, as well as the 
factors behind the data.

    Question 49c. If confirmed, what steps will you take to reduce the 
outsized number of defaulters coming from for-profit colleges?
    Answer 49c. If confirmed, I look forward to engaging with Congress, 
borrowers, and institutions of higher education regarding ways to 
reduce student loan defaults.

    Question 49d. Do you believe that fundamentally different types of 
corporate control structures governance by owners versus governance by 
trustees--results in different decisions and behaviors by for-profit 
institutions compared to nonprofit and public schools?
    Answer 49d. No.

    Question 49e. What do you see as the advantages and disadvantages 
of each form of institutional control?
    Answer 49e. I believe institutions have a responsibility to serve 
their students in the best manner possible regardless of tax status, or 
organizing structure.

    Question 50. Last year, ITT Educational Services, Inc. (``ITT 
Tech'') announced that it would close 137 campuses and declared 
bankruptcy following oversight actions by the Department. This national 
for-profit college chain was told by its own accreditor that the 
company ``is not in compliance, and is unlikely to become in compliance 
with [ACICS] Accreditation Criteria.'' However, the company took in 
more than $11 billion from students and from taxpayer-financed grants 
and loans over the last decade. ITT Tech was under investigation or 
sued in recent years by the Securities and Exchange Commission, the 
Consumer Financial Protection Bureau, and the attorneys general of New 
Mexico, Arkansas, Arizona, Connecticut, Idaho, Iowa, Kentucky, 
Missouri, Nebraska, North Carolina, Oregon, Pennsylvania, and 
Washington. But these investigative actions have stalled as a result of 
ITT Tech's legal tactics and its Federal bankruptcy trustee, which have 
sought to halt any new evidence against the company from becoming 
public.
    (a) Do you believe that students and taxpayers have a right to know 
the truth about the company's actions potentially fraudulent actions, 
or do you believe that investigations should stop in order to protect 
the company's executives?
    (b) If the Department obtains any information that would be 
pertinent to these investigations, do you commit to making that 
information public?
    Answer 50. Fraud should not be tolerated. Period. If confirmed, I 
will use the tools available to address these types of concerns.

    Question 51. A recent working paper from the National Bureau of 
Economic Research (NBER) by Stephanie R. Cellini, Rajeev Darolia, and 
Lesley J. Turner explored the enrollment implications of sanctioning 
colleges that fail to serve students, and in particular colleges that 
leave too many students unable to repay their student loans. Ensuring 
that students are able to continue their educational pursuits when 
their colleges harm their prospects through default or unmanageable 
debt is critically important. This NBER study found that enrollment 
losses from sanctioned colleges, which are predominantly in the for-
profit sector, are offset by gains in enrollment in local community 
colleges. This suggests that the loss of Federal student aid for poor-
performing for-profit colleges does not reduce overall college-going 
but instead shifts students across higher education sectors and to more 
affordable options. The NBER study also found that sanctions are 
associated with sizable reductions in county-wide borrowing and 
default, which is unsurprising given lower costs and better job 
placement at community colleges.
    (a) Do you believe it is a positive outcome to protect students and 
taxpayers from poorly performing colleges, particularly when the 
evidence shows that impacted students can and do find alternative 
programs to fit their needs?
    (b) Given that there is little to no negative impact on college 
access, is there any reason you would not take action to protect 
students and taxpayers by enforcing current Federal laws and 
regulations?
    Answer 51. If confirmed, I will protect students and taxpayers. As 
such, I will faithfully implement the provisions of the Higher 
Education Act.

    Question 52a. One reason much of the deception and fraud in the 
for-profit industry went unnoticed for so long was the use of 
restrictive clauses by the institutions to silence students and 
employees from speaking out when they encountered problems, also known 
as ``gag orders.'' Additionally, some institutions choose to use pre-
dispute or ``forced'' arbitration to prevent students from seeking 
legal redress to fraud and abuse through the courts. I find these 
practices very concerning.
    Do you believe that students who have concern or complaints about 
their institutions have the right to raise those concerns publicly?
    Answer 52a. Yes.

    Question 52b. Will you work on behalf of students, former students, 
and employees to provide them with a choice for how they can file and 
pursue a complaint?
    Answer 52b. Numerous complaint processes exist through the States 
and courts.

    Question 52c. When students are defrauded by their college, do you 
believe they have a right to seek legal remedies in court?
    Answer 52c. Yes.

    Question 52d. If students who believe they were defrauded by Trump 
University were able to get some of their money back in a $25 million 
settlement with the President-elect, do you believe our Federal loan 
borrowers should also get relief when their schools mistreat them?
    Answer 52d. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions. If confirmed, 
I will act decisively to protect students and enforce existing laws.
    I should note, Trump University was not a recipient of Federal 
student aid, nor an accredited college or university, and therefore 
would not fall under my jurisdiction as Secretary of Education.

    Question 52e. What role will you play as Secretary to ensure that 
all institutions of higher education remain transparent in their 
dispute resolution processes, to allow students to complain publicly 
and to go to court if they so choose?
    Answer 52e. If confirmed, I will use the tools available to the 
Secretary outlined in the Higher Education Act.

    Question 53. A promising practice to improve student success at 
community colleges around the country is ``career pathways.'' The 
current Administration has improved coordination between the 
Departments of Education and Labor to promote and support the expansion 
of this innovative practice.
    (a) If confirmed, would you direct the Department of Education to 
continue its collaboration with the Department of Labor on career 
pathways?
    (b) In what other ways might the coordination between the 
Departments of Education and Labor be improved?
    Answer 53. I strongly believe there needs to be alignment between 
post-secondary education and workforce needs. But to be clear, 
productive employment is not the only purpose of higher education.
    Too many people are unemployed and underemployed while many good 
jobs are being left unfilled. This is an issue that I hope we can work 
together on as Congress considers the reauthorization of the Higher 
Education Act, if I am confirmed. I am interested in the coordination 
between the Departments of Education and Labor around career pathways 
and, if confirmed, will look carefully at these coordination efforts 
and consider how the Department of Education can work with other 
agencies to do everything possible to help students find a successful 
path to a fulfilling job or career.

    Question 54. According to a recent report, racial gaps in college 
completion between white and African American and Hispanic students 
have widened significantly since 2007. At the same time, the face of 
the American college student is changing. Students from low income 
backgrounds, as well as older students and students with children, are 
increasingly enrolling in colleges across the country. Yet, retention 
and graduation rates are low for these students compared with so-called 
``traditional college'' students.
    (a) With 65 percent of jobs by 2020 requiring education beyond high 
school, how will you as Secretary help ensure that our historically 
disadvantaged students are able to access and complete college at a 
rate comparable to their white classmates, in order to ensure that 
students from all backgrounds have a fair shot of getting the jobs they 
need to be successful in a 21st century economy?
    (b) Given that creating a highly skilled, competitive American 
workforce increasingly requires a college degree, what will you do to 
ensure that traditionally underserved students are able to enter and 
succeed in college?
    Answer 54. The goal of the Federal student aid programs is to 
ensure access to post-secondary education for traditionally underserved 
populations. These programs are supported by college access programs 
like TRIO and GEAR UP. If confirmed, I will review these and other 
programs to ensure they are operating as effectively as they can be. 
Should these programs need reform because they are not producing 
appropriate outcomes, I look forward to working with you and your 
colleagues to strengthen them during the upcoming reauthorization of 
the Higher Education Act.

    Question 55. Many students who attend community colleges plan to 
transfer onto a 4-year university, which can save them a lot of money 
on tuition and fees. About 40 percent of all of America's undergraduate 
students are enrolled at community colleges, and a large majority (81 
percent) say their ultimate goal is to earn at least a bachelor's 
degree. However, there have been numerous reports documenting the 
difficulty that community college students face due to the loss of 
credits from courses that 4-year institutions do not accept or do not 
count toward a major. A 2014 study from the City University of New York 
found that than more than 1 in 10 community college students lose 
nearly all of their course credits and must essentially start over 
after transferring, and a further 17 percent transferred less than 10 
percent of their credits.
    (a) What responsibilities do you believe that receiving 
institutions have to accept student credits?
    (b) Do you think States should establish articulation agreements to 
smooth this process and give students assurance about which credits 
will transfer to in-State institutions?
    Answer 55. Matters related to the transfer of credit are academic 
in nature and the Higher Education Act specifically prohibits the 
Secretary from being involved in matters of an academic nature.

    Question 56. As you well know, while some adults enrolled in adult 
education are still seeking their high school diploma or equivalent, a 
surprising number of American adults with a high school diploma still 
struggle with basic skills. Twenty percent (20 percent) of adults with 
a high school diploma have less-than-basic literacy skills and 35 
percent of adults with a high school degree have less-than-basic 
numeracy skills. According to a recent study, conducted by OECD's 
Program for International Assessment of Adult Competencies (PIAAC), at 
least three million low-skilled American adults would like to enroll in 
Adult Education services, but cannot access a program. Without access, 
undereducated, underprepared adults cannot qualify for jobs with family 
sustaining incomes that require not only a high school equivalency, but 
also some college--preferably a 1- or 2-year certificate. Adults 
without a high school diploma or functioning below high school level 
have a difficult time qualifying for community college programs or 
access high demand occupations. If confirmed, how do you envision the 
Department and the Administration incorporating Adult Education into 
its competitiveness agenda?
    Answer 56. In raising the issue of ``undereducated, underprepared 
adults'' you make a case for the need to improve education. When 
schools fail our students, there are long term consequences, both for 
individuals who are deprived of the knowledge and skills they need to 
be successful and our Nation which is dependent on the innovative, 
creative and economic contributions of it citizens. It is why we need 
to do more to provide parents with high quality educational options.
    Sadly, too many Americans are suffering from a lack of skills. 
President-elect Trump made improving the employment opportunities of 
these Americans a cornerstone of his campaign, and his administration 
will work to improve the prospects of those left behind in this 
economy. If confirmed, I will work with the Office of Career, 
Technical, and Adult Education and other relevant agencies to improve 
outcomes for adult learners. Combined with other efforts across the 
government, we have an opportunity to restore the American Dream for 
all Americans.

    Question 57. The price of college textbooks has increased 
substantially over past decades. For many students, this cost can 
represent a significant portion of the overall costs of attendance. 
Some students avoid or postpone expensive textbook and access code 
purchases, putting them at risk of missing valuable course content and 
assessment activities. However low- or no-cost digital resources have 
rapidly expanded in recent years. Not only do these resources reduce 
the cost of education, but many community colleges have found that 
overall course retention and success increases when all students access 
course materials at the same time, at the start of a course.
    (a) If confirmed, will you help to advance the use of ``open 
textbooks'' which are freely used, adapted, and distributed--and can 
save students significant money?
    (b) Do you support requiring recipients of competitive Federal 
grant dollars to make any content they generate with taxpayer dollars 
more freely available?
    (c) Would you support the development of a Federal open course 
library to share course materials that are freely available to 
students?
    Answer 57. The 2008 reauthorization of the Higher Education Act 
(HEA) created a number of new requirements designed to help students 
better understand the cost of textbooks and get the appropriate 
information so they could shop for their books. If confirmed, I would 
first ensure the law is being implemented appropriately. If confirmed, 
I will work with you and your colleagues to explore any remaining 
issues, including the question about the proliferation of ``open 
textbooks'' during the HEA reauthorization.

    Question 58. Today, more than 42 million Americans owe a collective 
$1.4 trillion in student loan debt. About 70 percent of bachelor's 
degree graduates borrow for college.
    (a) Do you believe that student debt holds back some borrowers from 
starting a family?
    (b) What do you believe should be done to reduce current levels of 
debt for existing borrowers?
    Answer 58. I think we can all agree the growing amount of student 
debt in America is a serious challenge. A key component of the American 
Dream is the belief that tomorrow will be better than today, especially 
for the next generation. Yet, that opportunity is now at risk. For too 
many Americans, higher education has become unaffordable and 
disconnected from the Nation's economic realities.
    As I said during my confirmation hearing, there is no magic wand to 
make the debt go away, but we do need to act. It would be a mistake to 
shift that burden to struggling taxpayers without first addressing why 
tuition has gotten so high. For starters, we need to embrace new 
pathways of learning. The old and expensive brick-mortar-and-ivy model 
is not the only one that will lead to a prosperous future. Students 
should be able to make informed choices about what type of education 
they want to pursue post-high school and have access to a variety of 
high quality options. President-elect Trump and I agree we need to 
support all post-secondary avenues, including credentials, trade and 
vocational schools and community colleges.
    In addition, President-elect Trump spoke about several ways to 
address the issue of student debt during the campaign. One of the best 
ways to address this issue is ensure students can get jobs after they 
complete their post-secondary program. And President-elect Trump has 
spoken extensively about his plans to put Americans back to work and 
boost the Nation's stagnant economy.
    We are also interested in making sure students have good 
information about the costs of college and the labor market outcomes of 
fields so they can make informed decisions.

    Question 59. Campus-based aid is a key source of support for 
millions of post-secondary students. Yet the distribution of campus-
based aid has been based on a formula that largely considers past 
participation in the program as well as institutional cost, neither of 
which are closely associated with level of need that students have for 
this aid. The result is that institutions serving the largest number of 
low-income students, such as community colleges, often receive less aid 
for their students under Supplemental Educational Opportunity Grants 
and Federal Work Study. Would you support efforts to reform the campus-
based programs to align it more closely with the number or percentage 
of needy students served?
    Answer 59. If confirmed, I look forward to working with you during 
the reauthorization of the Higher Education Act to review the campus-
based aid program.

    Question 60. In late 2015, Congress reached a bipartisan deal to 
extend the Federal Perkins Loan program on a limited basis. That deal 
provided institutions with the ability to disburse new Perkins Loans to 
undergraduate students through September 30 of this year, while winding 
down any new graduate student eligibility. The Perkins Loan program 
provides support to more than 500,000 students who rely on this low-
cost loan program to afford college, and required colleges to put some 
of their own ``skin in the game'' by providing contributions to a 
revolving fund. After this current deal expires on September 30, many 
students and institutions of higher education will be left in an 
extremely difficult position, so I am interested in your thoughts on 
how we should deal with this urgent problem.
    (a) Do you agree that the Perkins Loan is an important part of the 
financial aid package that participating institutions create for their 
students?
    (b) Do you believe that students who have exhausted their Direct 
Loan eligibility should have additional Federal resources made 
available to help them cover college costs?
    (c) If confirmed, will you support congressional efforts to replace 
the Perkins Loan program with other affordable Federal loan options for 
undergraduates who rely on it?
    Answer 60. If confirmed, I look forward to working with Congress 
and engaging in discussions about the structure and future of the 
Federal aid system during the reauthorization of the Higher Education 
Act.

    Question 61. As you may know, Michigan, North Carolina, and 
Louisiana are a few of the growing number of States to designate a 
``single point of contact'' on college campuses for homeless and foster 
youth. These contacts help homeless and foster youth navigate higher 
education and connect them to college and community resources. In light 
of the tremendous success of the single point of contact model in these 
States, do you support requiring all institutions of higher education 
to designate such a contact?
    Answer 61. Foster care and homeless youth face unique challenges in 
accessing post-secondary education, and I am eager, if confirmed, to 
help States and institutions of higher education continue to develop or 
improve policies that prove effective at helping foster and homeless 
students across our country.

    Question 62. Due to the complexity of the unaccompanied homeless 
youth determination process, many homeless students must go to great 
lengths to prove that they are homeless and to obtain the required 
documents to do so. Large numbers of homeless youth report that this 
documentation is often lost or discarded between academic years, 
causing them great difficulty in maintaining their eligibility for 
financial aid. Do you believe that institutions of higher education 
should retain all required documents for continuously enrolled students 
that are unaccompanied and homeless?
    Answer 62. The reauthorization of the Higher Education Act will 
provide an excellent opportunity to consider ways to more effectively 
support homeless students, address their unique challenges in accessing 
post-secondary education, and help States and institutions of higher 
education develop or improve policies that are effective at helping 
these vulnerable students.

    Question 63. Homeless and foster youth often lack the financial 
resources they need to stay enrolled in higher education, and are at a 
greater disadvantage than other low-income students due to their 
extreme poverty, lack of family support, and histories of trauma. Work-
study programs can help these students earn additional financial 
resources and stay in school. Do you support policies that would 
require institutions of higher education to prioritize work-study 
opportunities for homeless and foster youth?
    Answer 63. Foster care and homeless youth face unique challenges in 
accessing post-secondary education, and I am eager, if confirmed, to 
help States and institutions of higher education continue to develop or 
improve policies that prove effective at helping foster and homeless 
students across our country. The reauthorization of the HEA will 
provide an excellent opportunity to look at these issues and consider 
ways to more effectively support homeless and foster students.

    Question 64. Homeless youth face unique barriers to accessing the 
higher education that is their best hope of escaping poverty. A May 
2016 GAO report found that burdensome financial aid program rules and 
extensive documentation requests can hinder the ability of homeless 
youth to access Federal supports. This same report found that limited 
academic preparation, family support, and awareness of resources make 
it harder for homeless youth to pursue college. What will you do to 
ensure that financial aid administrators understand the specific 
vulnerabilities of homeless youth, and do not force homeless youth to 
provide unnecessary documentation of their status?
    Answer 64. The reauthorization of the Higher Education Act will 
provide an excellent opportunity to consider ways to more effectively 
support homeless students, address their unique challenges in accessing 
post-secondary education, and help States and institutions of higher 
education develop or improve policies that are effective at helping 
these vulnerable students.

    Question 65. Lesbian, Gay, Bisexual, Transgender or Questioning 
students are particularly susceptible to be homeless and make up the 
largest group of college students affected by seasonal or permanent 
homelessness. According to the National Conference of State 
Legislatures, between 20 and 40 percent of homeless youth identify as 
LGBTQ. This population often lacks a fixed, regular, or adequate 
nighttime residence. Often, they report themselves to be ``couch 
surfers,'' transitioning from friend's or family's homes but having no 
established residence. Without a permanent mailing address, financial 
aid and educational correspondence is often not received and further 
hinders the ability for these students to complete their studies. How 
will you ensure that LGBTQ students are provided with the opportunity 
to afford college as ``independents,'' while also creating a safe 
campus climate for them?
    Answer 65. All students deserve an opportunity to pursue their 
education in a safe and supportive environment. Additionally, as I have 
stated, I support equality.
    If confirmed, I will work with States and institutions of higher 
education to continue to develop or improve policies that will be 
effective in helping LGBTQ homeless students. I know homeless youth 
face unique challenges in accessing post-secondary education and I am 
eager to help ensure that they have access to education that will 
enable them to lead happy and productive lives.
    The reauthorization of the Higher Education Act will also provide 
an excellent opportunity to look at these issues and consider ways to 
more effectively support homeless students.

    Question 66. The Department's Student Loan Ombudsman is a neutral, 
informal, and confidential resource to help students resolve disputes 
about their Federal student aid. Sometimes, unaccompanied homeless 
youth encounter difficulties in completing the process of accessing 
their financial aid due to conflicts with their college or university 
financial aid office over the homeless youth determination process. For 
example, some students are asked to provide documentation that is not 
required by law or guidance and which would be impossible for those 
students to obtain--placing them in a terrible position that often 
leads to the students dropping out. Do you commit to utilizing the 
Ombudsman group to help homeless youth resolve these disputes and 
access their financial aid?
    Answer 66. If confirmed, I will look closely at the role of the 
Student Loan Ombudsman and evaluate if there are changes needed to 
better assist homeless youth in accessing financial aid.

    Question 67. Unaccompanied homeless youth and foster youth face 
numerous barriers to staying enrolled in higher education, including a 
lack of housing between terms, including winter and summer breaks. This 
is often a problem even at colleges and universities that offer on-
campus housing, but close these facilities between terms.
    (a) Do you support policies that would require institutions to have 
a plan to secure housing for unaccompanied homeless youth and foster 
youth between terms and academic years?
    (b) What additional resources such as financial aid, counseling, 
and tutoring services do you believe should be offered at the 
institutional, State, and Federal levels to support unaccompanied 
homeless youth in higher education?
    Answer 67. The reauthorization of the Higher Education Act will 
provide an excellent opportunity to look at these issues and consider 
ways to more effectively support homeless and foster students. If 
confirmed, I am eager to support homeless and foster care youth as they 
address their unique challenges in accessing post-secondary education 
and to help States and institutions of higher education continue to 
develop or improve policies that are effective at helping these 
vulnerable students.

    Question 68. Several recent studies have found that roughly a 
quarter of college students are going hungry due to a lack of money for 
basic food, even among students who are employed, participate in a 
campus meal plan, or receive other financial aid or material help. 
Thankfully, there are some means-tested benefits programs that serve 
students or families who have high levels of economic need. I am 
interested in better ways to integrate government services to make it 
easier for the most at-risk students to be able to access and persist 
in higher education.
    (a) Do you believe that the Department of Education should be able 
to work with the Department of Agriculture to conduct outreach to 
students that could be eligible for the Supplemental Nutrition 
Assistance Program (SNAP)?
    (b) How would you utilize the abilities and resources of the 
Department of Education, such as the FAFSA, to inform students and 
families of other financial resources and benefit programs they may be 
eligible for?
    (c) What strategies would you employ to address barriers to other 
Federal, State, or local benefit programs that could assist students 
with financial need?
    (d) What should institutions of higher education do to similarly 
assist students?
    Answer 68. Students and families should be able to avail themselves 
of programs and benefits offered by the Federal Government without 
having to fight reams of red tape. If confirmed, I look forward to 
discussing ways the Department of Education and other agencies, 
including the Agriculture Department, and institutions of higher 
education can assist our Nation's students as they pursue their post-
secondary education. I will look closely at the budget to determine the 
best allocation of taxpayer dollars to programs when making a proposed 
budget for future fiscal years, and will consider carefully the 
financial needs of all our institutions during that review. Finally, I 
plan to review the various ways in which the Federal Government is 
making its programs known to students and families and will take action 
should I determine the information is not reaching its intended 
audience.

    Question 69. A 2014 report by the University of Pennsylvania 
Graduate School of Education's Center on MSIs found that, when making 
appropriations, State governments prioritize predominantly white 
institutions and flagship institutions at the expense of Minority-
Serving Institutions (MSIs). Hispanic-Serving Institutions (HSIs), 
Historically Black Colleges and Universities (HBCUs), Asian American 
and Native American Pacific Islander Serving Institutions (AANAPISIs), 
and Tribal Colleges or Universities (TCUs), also enroll a 
disproportionate number of first-generation and low-income students. 
Combined, these MSIs have historically had fewer resources to meet the 
needs of this growing student population. Do you think that MSIs having 
fewer resources to serve the students with the greatest need is a 
problem? If you are confirmed as U.S. Secretary of Education, will you 
commit to using your position and resources to address this problem and 
what specific actions do you plan to take to address this funding 
disparity?
    Answer 69. If confirmed as Secretary, I look forward to discussing 
ways the Department of Education and institutions of higher education 
can assist our Nation's students as they pursue their post-secondary 
education and thrive while they are in school. I will look closely at 
the budget of the Department of Education to determine the best 
allocation of taxpayer dollars to programs when making a proposed 
budget for future fiscal years, and will consider carefully the 
financial needs of all our institutions, including Minority Serving 
Institutions, during that review.

    Question 70. Every President since President Carter has issued an 
Executive order on HBCUs in order to strengthen the capacity of HBCUs 
to provide the highest-quality education to a greater number of 
students, and to require Federal entities to establish annual plans to 
increase the participation of HBCUs in Federal programs and 
initiatives. Would you recommend that the Trump administration re-issue 
an HBCU Executive order and continue a White House Initiative on HBCUs?
    Answer 70. Yes.

    Question 71. Historically Black Colleges and Universities (HBCUs) 
play a key role in our higher education system, and like all colleges 
and universities, undertake capital projects to ensure their students 
have well-maintained, functional, and safe facilities. Yet, because 
HBCUs were created to educate a historically underserved community, 
they have faced challenges achieving financial stability. This is due, 
in part, to the legacy of discrimination which has, at times, affected 
their ability to access capital for construction or renovation. To help 
ensure HBCUs have access to funding for capital projects, the 
Department of Education provides grants through the Strengthening HBCUs 
Program and low-cost loans through the HBCU Capital Financing Program 
which can be used to construct or renovate facilities. There have been 
concerns, however, that these programs may be underutilized. In order 
to gain a better understanding of the issue, I wrote--along with House 
Education and Workforce Ranking Member Bobby Scott, Senate Subcommittee 
on Children and Families Ranking Member Bob Casey, and Congressional 
Black Caucus Chairman G.K. Butterfield--to the Government 
Accountability Office on July 1, 2016 to ask them to evaluate the 
capital project needs of HBCUs, the extent that HBCUs are using these 
existing programs to address their needs, and what steps, if any, can 
the Federal Government take to better ensure HBCUs have access to 
funding for capital projects. If you are confirmed as Secretary of 
Education, will you commit to closely reviewing the GAO report when it 
is released and, if feasible, incorporate their recommendations for 
better administering the programs?
    Answer 71. If confirmed, I will review the GAO report and 
thoughtfully consider the recommendations.

    Question 72. The Higher Education Act was last reauthorized in 
2008. One important provision in the law for Hispanic-Serving 
Institutions is title III, part F, which is intended to support STEM-
focused grants and articulation programs between 2- and 4-year 
institutions. This provision is set to expire in fiscal year 2019, 
during your tenure as Secretary of Education. Considering the dearth of 
Latinos in STEM fields and the threat this represents to American 
economic success, will you support congressional efforts to extend the 
authority and the funding of title III, part F?
    Answer 72. I know many of these programs will be a part of a robust 
discussion as we all examine outcomes of the various programs 
authorized by the Higher Education Act. We share a goal of ensuring 
taxpayer dollars are being spent well. If confirmed, I look forward to 
engaging in that dialog with you and your colleagues.

    Question 73. Over 8 million people rely on Pell Grants to afford 
higher education and attend a college or university of their choice. 
However, the Pell Grant now covers just 29 percent of college costs at 
public university compared to 79 percent shortly after the grant was 
created 40 years ago--forcing low-income and middle-class students to 
more heavily rely on loans today. To make matters worse, after this 
year, statutory adjustments that make sure the Pell Grant keeps pace 
with inflation will expire, thereby freezing critical grant aid for 
students with financial need as college costs only continue to rise. 
The declining value of the Pell Grant is also affecting women. And 
around 40 percent of part-time or part-year undergraduate women, and 
around 50 percent of full-time, full-year undergraduate women, use Pell 
Grants to attend college. Many of these women seek education in order 
to provide a better life for their families. So I am very focused on 
protecting the Pell Grant to help keep college affordable. During the 
campaign, President-elect Trump said that he would help students pay 
for college and manage their debt. However, Republican budget 
resolutions over the past several years have proposed making staggering 
cuts to Pell Grants and allowing interest to accrue and balloon for 
student borrower while they are going to school.
    (a) What policy steps will you take not only to protect Pell, but 
to expand and strengthen it for the next generation of students?
    (b) In the President-elect's 2018 budget, will you advise him to 
make sure the Pell Grant continues to keep up with inflation, or will 
you let these increases expire, causing 8 million Pell Grant recipients 
to have fewer resources to cope with rising college costs?
    (c) If confirmed, will you stand up against harmful proposals to 
cut Pell Grants and balance other funding needs on the backs of college 
students who are working hard to pay for school?
    Answer 73. I, too, am concerned with the increasing costs of higher 
education. For too many Americans, higher education has become 
unaffordable and disconnected from the Nation's economic realities. 
Calls for free college and debt elimination in response are in stark 
contrast to an approach that seeks to address the core challenges in 
higher education. If confirmed, I look forward to working with you, the 
Senate Committee on Health, Education, Labor, and Pensions and the 
Congress to find solutions to these concerns.

    Question 74. The Public Service Loan Forgiveness Program (PSLF) 
provides a path to higher education for critically needed work in 
public service fields such as first responders, teachers, social 
workers, and public defenders. Each year, public service employers 
report difficulty in recruiting and retaining talented staff, leaving 
many Americans without critically needed services. In particular, our 
rural, tribal, or other under-resourced communities report enormous 
difficulties with recruitment and retention of public service workers, 
and the PSLF program has been of great benefit to these communities. 
However, there has been a lot of hype from political opponents of PSLF 
about how many people could benefit from the program. According to the 
Government Accountability Office report in 2015, only about 643,000 
direct loan borrowers repaying their loans through IBR, PAYE, and ICR 
are likely employed in public service, which would represent less than 
1 percent of more than 130 million U.S. workers. I am very interested 
in your views on protecting this program and making it work better for 
borrowers.
    (a) Will you protect the Public Service Loan Forgiveness program to 
ensure that thousands of students enrolled in the program can obtain 
the debt relief they were promised?
    (b) Will you actively oppose any efforts to undermine the Public 
Service Loan Forgiveness program through statute or regulation?
    Answer 74. If confirmed, I will faithfully implement the Higher 
Education Act and will look forward to discussing these issues with you 
as Congress considers its reauthorization.

    Question 75. Do you believe it is appropriate for institutions of 
higher education to be able to use Federal dollars for marketing, 
advertising, and recruitment?
    Answer 75. I recognize this has been a topic of debate among the 
members of the Committee in both the House and Senate. If confirmed, I 
will faithfully implement the Higher Education Act.

    Question 76. I am extremely concerned about poor outcomes in higher 
education, particularly when it comes to students who struggle with the 
crushing burden of student debt.
    (a) What do you propose as solutions for students who have amassed 
enormous and unmanageable levels of student debt but are unable to 
obtain licenses or careers in their field of study?
    (b) Do you believe it should be permissible for taxpayer dollars to 
loans for higher education programs from which the bulk of its 
borrowers that leave the institution persistently fail to earn above 
the poverty line?
    Answer 76. I agree student debt can create strains on individuals. 
That is why, if confirmed, I look forward to working with Congress on 
ways to ensure that borrowers of Federal student loans continue to have 
manageable repayment options that are simple and easy to understand.

    Question 77. Federal law prohibits the payment of commissions, 
bonuses, and financial incentives from being directly or indirectly 
based on enrolling a student or obtaining their financial aid. On 
October 30, 2002, then-Deputy Secretary of the U.S. Department of 
Education William Hansen wrote a memo on the policy for violations of 
the incentive compensation that dramatically changed the Department's 
enforcement. In the memo, Hansen stated that, while the Department had 
historically ``measured the damages resulting from a violation as the 
total amount of student aid provided to each improperly recruited 
student,'' he was directing Federal Student Aid to no longer view 
violations of incentive compensation as resulting in monetary loss to 
the Department. Therefore, Mr. Hansen indicated that the sanction for 
violations would largely be smaller fines and penalties. Shortly 
thereafter, the Department also created 12 so-called regulatory ``safe 
harbors'' to further codify enforcement loopholes in the incentive 
compensation bans. These actions were very concerning to me and other 
Members of Congress who viewed them as an end-run around congressional 
intent in the Higher Education Act. Thankfully, these safe harbors have 
largely been revered. On October 29, 2010, the Department published 
final regulations to eliminate the safe harbors. In the preamble of its 
regulations, the Department stated that,

          ``Unscrupulous actors routinely rel[ied] upon these safe 
        harbors to circumvent the intent of section 487(a)(20) of the 
        HEA. As such, rather than serving to effectuate the goals 
        intended by Congress through its adoption of section 487(a)(20) 
        of the HEA, the safe harbors have served to obstruct those 
        objectives and have hampered the Department's ability to 
        efficiently and effectively administer the title IV, HEA 
        programs.''

    If confirmed, you will be in charge of administering the incentive 
compensation regulations.
    (a) Do you believe that high-pressure sales have any place in 
higher education recruitment?
    (b) Will you commit to enforcing the incentive compensation ban 
with integrity and without reinstating any loopholes for ``unscrupulous 
actors'' that the previous safe harbor provisions created?
    (c) Considering that Federal financial aid represents a $150 
billion taxpayer investment in the higher education system, if 
confirmed, will you commit to viewing a violation of the incentive 
compensation ban as resulting in monetary loss to the U.S. Department 
of Education?
    Answer 77. I will faithfully implement the Higher Education Act.

    Question 78. There are more than 5.5 million distance education 
students at degree-granting institutions, including nearly 3 million 
exclusively online students. As you may know, the oversight of students 
enrolled in online or distance education can pose challenges, because 
students often take courses from institutions that are not located in 
the State in which they reside. To ensure that institutions offering 
distance education are legally authorized and monitored by States, as 
required by the Higher Education Act, the Department recently published 
rules that clarify State authorization requirements for institutions to 
participate in Federal student aid programs.
    (a) If a student has a complaint with an institution that only 
provides distance education, where and how should that student file 
their complaint, given that distance education colleges are often 
located in different States than their institutions?
    (b) Do you agree that institutions should document the State 
process for resolving student complaints regarding distance education 
programs?
    (c) Do you believe that the Federal Government or other States 
should be able to pre-empt other States' laws?
    Answer 78. I believe it is important to ensure students have a 
clear and transparent way to make complaints. If confirmed, I will 
review the current regulations and complaint process already on the 
books to determine whether it is effective in meeting the needs of 
students, and act accordingly.

    Question 79. In 1990, tuition made up less than 40 percent of 
revenue at public colleges and universities in your home State of 
Michigan. Today, it makes up nearly 70 percent, far higher than the 
national average. Per-student funding, adjusted for inflation, has 
dropped by over $2,000 per student. In other words, what used to be 
paid for by the public is now funded by individuals and families. This 
has all occurred with the simultaneous stagnation of household income. 
In your home State of Michigan, median household income has actually 
declined since 1990. Do you view this increasing reliance on tuition, 
lowering of student funding, and decrease in college affordability is a 
problem that the Federal Government should have a role in addressing?
    Answer 79. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education is affordable. If confirmed, I would work with 
States and institutions to ensure they are holding up their end of the 
bargain.

    Question 80. Last year, the U.S. Department of Education announced 
a new process to proactively identify and assist Federal student loan 
borrowers with disabilities who may be eligible for Total and Permanent 
Disability (TPD) loan discharge because they are totally and 
permanently disabled. The Department sent customized letters to 
potentially eligible borrowers who collectively owe nearly $7.8 billion 
in student loan debt. Still, about 179,000 of these likely TPD-eligible 
borrowers are currently in default, and the government is prepared to 
garnish the Social Security benefits of more than 100,000 of them. Many 
others are facing a tax bill on their TPD discharge as this benefit is 
treated as income. I believe this process can and should be improved.
    (a) Do you believe that it is appropriate for borrowers who should 
otherwise have their loans discharged to have their Social Security 
benefits garnished?
    (b) If confirmed, will you support efforts to eliminate taxation of 
TPD discharges?
    (c) How do you see yourself working with other Federal agencies to 
verify that students who are deemed permanently disabled, including 
U.S. veterans, are actually receiving the appropriate benefits of the 
loan discharges they are owed?
    (d) Will you commit to disclosing on at least an annual basis the 
data on the number of notices sent to potentially TPD-eligible 
borrowers and the number of discharges actually processed?
    (e) If confirmed, will you commit to continuing an agreement 
between the Departments of Education Veterans Affairs to identify 
veterans with service-connected disabilities and help them apply for 
TPD discharge?
    (f) If confirmed, will you proactively send notifications related 
to TPD discharge to borrowers in an accessible format, such as braille, 
so that those who are visually impaired or otherwise unable to complete 
a paper form will be able to access their benefits?
    Answer 80. If confirmed, I plan to review the regulations and the 
processes put in place to ensure the Higher Education Act is being 
implemented faithfully.

    Question 81. I'm very concerned that any attempt to involve Wall 
Street, banks, or private capital in new ways in the Federal student 
loan program would mean many students borrower losing benefits and 
access to higher education. Therefore, it is important to understand 
where you believe improvements can be made in our current student loan 
system. For each of these questions please indicate whether you 
``agree'' or ``disagree'' with each statement.
    (a) Borrowers should be able to repay their loans based on a 
percentage of their income.
    (b) Borrowers should be able to have their loans forgiven after no 
more than 20 years in repayment while making payments no greater than 
10 percent of their discretionary income.
    (c) Borrowers that require a co-signer should not be punished if 
their co-signer dies.
    (d) If a loan is co-signed and either the student or the co-signer 
dies, the loan should not be automatically collected on or sent to 
default.
    (e) Loan forgiveness at the end of the maximum years of repayment 
should not be taxed.
    (f) Student loans should be dischargeable in bankruptcy without 
having to prove undue hardship.
    (g) Borrowers that were defrauded should have their loans forgiven.
    (h) Borrowers who have their loans discharged or refunded due to 
being defrauded should not have to pay taxes on that relief.
    (i) Borrowers should be able to pay fixed interest rates as defined 
by the Bipartisan Student Loan Certainty Act.
    Answer 81. I, too, have concerns with student debt. There are 
numerous factors that contribute to students borrowing and the Federal 
Government may or may not be the appropriate entity to address all of 
them. If confirmed, I look forward to working with you, the Senate 
Committee on Health, Education, Labor, and Pensions, and the Congress 
in finding viable and appropriate solutions for addressing issues 
related to student debt as the Congress debates the reauthorization of 
the Higher Education Act.

    Question 82. Last fall, President-elect Trump proposed an income-
based repayment plan for student debt that allows borrowers to cap 
their monthly student loan payments based on their income and then have 
their student loans forgiven after a certain period of time. In a 
speech in Ohio he said, ``Students should not be asked to pay more debt 
than they can afford.'' I wholeheartedly agree. Thankfully, borrowers 
have access to income-driven repayment (IDR) options to help them pay 
back their loans based on their income. The Master Promissory Note 
(MPN) is a legally binding document that all student loan borrowers 
must sign when they take out a Federal student loan. Borrowers signing 
and MPN promise to repay their loans and any accrued interest and fees 
to the U.S. Department of Education under specified terms and 
conditions of their loan.
    (a) Do you believe it is acceptable to change the terms and 
conditions of loan repayment programs for borrowers currently 
participating in them?
    (b) Do you promise that, if you are confirmed, that you will not 
approve any action that would result in steps that would change the 
benefits, terms, or conditions of borrowers who have already signed 
their master promissory notes?
    (c) Will you commit to ensuring that any changes to income-driven 
repayment plans do not negatively impact existing borrowers or force 
them to change their repayment plans?
    Answer 82. I believe changes to the loan programs should be made 
carefully and will study this issue before making any decisions if 
confirmed. Students deserve certainty and an understanding of the terms 
and conditions of their loans. I look forward to discussing these 
issues with you as the committee works on the reauthorization of the 
Higher Education Act.

    Question 83. Improving access to student supports on college 
campuses, such as transportation and housing assistance, accessible 
childcare, food pantries, and the availability of emergency aid, is 
critical to improving post-secondary retention rates, and therefore, 
creating a more educated and competitive American workforce. This is 
especially true for underserved student populations, including low-
income students, independent students, and students with dependent 
children. As Secretary of Education, what will you do to ensure that 
students across the country have access to nonacademic student supports 
that acknowledge the multiple demands on nontraditional student 
populations?
    Answer 83. I am aware of the needs of what used to be considered 
``non-traditional'' college students. If confirmed, I look forward to 
working with you and your colleagues in reauthorizing the Higher 
Education Act to ensure its provisions are flexible enough to allow all 
students to be served.

    Question 84. My State has a large number of farm workers. Due to 
the nature of their parent's work, children of farm workers frequently 
move from State to State and face many challenges in getting their 
education. These frequent disruptions and other factors contribute to 
very high dropout rates and low rates of enrollment in higher education 
opportunities. To addresses these challenges, the Federal Government 
created the High School Equivalency Program (HEP) and the College 
Assistance Migrant Program (CAMP) to ensure these students receive the 
educational assistance and support they need to succeed in K-12 and 
higher education. Given the need for and success of the HEP/CAMP 
programs, will you commit to continuing these programs? Will you also 
commit to advocating for increased funding for these critical programs?
    Answer 84. If confirmed, I look forwarding to working with you to 
address these issues through the Higher Education Act reauthorization.

    Question 85. The first Federal TRIO Program, Upward Bound, was 
established in the Educational Opportunity Act of 1964 and was created 
to remove barriers to college access and completion for disadvantaged 
youth. Since then, TRIO has grown to eight programs serving nearly 
800,000 students in 2,800 programs across the country. Current 
citizenship requirements for TRIO participants, however, mandate that 
only students who are U.S. citizens, national, or legal permanent 
resident can benefit from these services. The U.S. Department of 
Education has the power to allow all students regardless of immigration 
status benefit from these programs. As Secretary of Education, will you 
commit to changing the Federal regulation that limits which students 
can have access to these programs?
    Answer 85. The Personal Responsibility and Work Opportunity 
Reconciliation Act prohibits Federal post-secondary assistance or other 
similar benefits to those who are not otherwise ``qualified aliens.'' 
Similarly, under the student eligibility requirements for title IV-
authorized programs under the Higher Education Act, a student must be a 
citizen or national of the United States, a permanent resident of the 
United States, or able to provide evidence from the Immigration and 
Naturalization Service that he or she is in the United States for other 
than a temporary purpose with the intention of becoming a citizen or 
permanent resident.

    Question 86. The TRIO and Gaining Early Awareness and Readiness for 
Undergraduate Programs (GEAR UP) are competitive grant programs that 
identify and seek to increase the number of low-income students who are 
successful in K-12 and higher education. These programs have strong 
bipartisan support and play a critical role in ensuring that promising 
students from low-income families have the resources and the community 
that they need to be successful. Do you think that students who face 
greater barriers to success in their education, such as the students 
who participate in TRIO/GEAR UP, need additional resources such as 
tutoring and financial assistance to be successful in K-12 and higher 
education? If so, do you think the Federal Government has any role in 
providing those services?
    Answer 86. The Higher Education Act (HEA) has several programs 
designed to help underserved students gain access to higher education 
and be successful in their pursuits. If confirmed, I look forward to 
reviewing the effectiveness of these programs and working with you and 
your colleagues to strengthen programs with a demonstrated track record 
of success in the HEA reauthorization.

    Question 87. In recent years, we have made considerable progress 
standing up for veterans and servicemembers in higher education. This 
has been in part due to the passage of legislation I helped develop to 
require transparency from schools receiving GI bill money. But this 
progress is also due to critical administrative and regulatory steps. 
On April 27, 2012, President Obama signed Executive Order 13607, 
directing the Department of Veterans Affairs (VA), the Department of 
Defense, and the Department of Education to undertake a number of 
measures to ``stop deceptive and misleading'' promotional efforts that 
target the GI bill educational benefits of servicemembers, veterans, 
and eligible family members and survivors. Trademarking ``GI Bill'' was 
part of that order to protect military families from being misled by 
schools that target their Federal education benefits. The Department of 
Education has also withdrawn recognition of an accrediting body that 
failed to provide any meaningful oversight of the schools for which it 
was responsible, and Congress responded by ensuring GI eligibility 
would continue in the case of recognition being withdrawn.
    (a) Do you believe that some veterans and servicemembers are taken 
advantage of in higher education? If so, does that concern you?
    (b) If confirmed, what actions would you take to ensure that 
veterans and servicemembers receive a high-quality higher education?
    (c) If confirmed, will you advise the President-elect to maintain 
current Executive orders protecting veterans and servicemembers?
    (d) Will you continue to implement a recent data sharing agreement 
to calculate cohort default rates, median loan debt, and repayment 
rates at the aggregate and institutional level for veterans and their 
beneficiaries who are using Post-9/11 GI bill education benefits and 
who also receive Federal student loans?
    (e) If confirmed, will you vigorously enforce all laws, 
regulations, guidance, or other policies that protect veterans and 
servicemembers?
    Answer 87. We owe a large debt of gratitude to our Nation's 
veterans and servicemembers, and their commitment to preserving our 
Nation's freedoms should not go unnoticed. If confirmed, I commit to 
faithfully implement the provisions of the Higher Education Act that 
protect all students, including our veterans and service members from 
fraudulent and other illegal actions.

    Question 88. Under the Obama administration, there has been 
enhanced collaboration between HHS, HUD, and ED regarding the 
intersection between homelessness and education. For instance, 
Secretaries King, Fox, and Castro supported an inter-agency effort to 
help promote school and community integration by examining the 
interplay between housing, schools, and transportation. Will and how 
will the Department of Education continue that collaboration under your 
direction, if confirmed?
    Answer 88. We can agree that homeless students are a particularly 
vulnerable population. If confirmed, I look forward to reviewing these 
collaborative efforts and examining their effectiveness in assisting 
the homeless population.

    Question 89. Child homelessness continues to skyrocket in the Unitd 
States, with 1 in 30 children experiencing homelessness at some point. 
Homelessness is a complex problem beyond a lack of affordable housing 
and interventions to address child and family homelessness must be 
designed and implemented in true partnership between housing agencies, 
homeless service providers and other systems such as human service 
agencies and early childhood providers that understand the trauma and 
complex barriers faced by homeless children and their families. What do 
you see as the role of the U.S. Department of Education in addressing 
child and family homelessness? What specific steps will you take to 
ensure that homeless students are appropriately identified, especially 
in rural and suburban communities? How will you ensure that the title I 
part A program appropriately and adequately serves homeless students, 
including through the mandatory LEA reservation of funds?
    Answer 89. Homeless students are a particularly vulnerable 
population. If confirmed, I look forward to engaging in collaborative 
relationships with stakeholders to ensure the Department of Education 
is meeting the needs of these students. Often, the best solutions come 
from the local level and the Federal Government can help disseminate 
best practices so communities can learn from one another. As far as the 
provisions included in the Every Student Succeeds Act, I commit to 
faithfully implementing the law as it was written.

    Question 90. In the past year, the Department of Education has 
worked collaboratively with the Department of Health and Human Services 
to provide guidance to States, local educational agencies, and child 
welfare agencies concerning the new requirements to support students in 
foster care in the Every Student Succeeds Act and Fostering Connections 
to Success and Increasing Adoptions Act. How do you plan to collaborate 
with HHS to ensure that States, local educational agencies, and child 
welfare agencies follow through with their commitments to support 
students in foster care?
    Answer 90. Students in foster care are a particularly vulnerable 
population. If confirmed, I look forward to reviewing these 
collaborative efforts and examining their effectiveness for foster care 
students. I know there were many provisions included in the Every 
Student Succeeds Act intended to help and support students in foster 
care and I am committed to faithfully implementing these provisions to 
ensure that these students have the opportunity to achieve and succeed 
in school.

    Question 91. As Secretary of Education, how would you ensure that 
all students in public and charter schools--most particularly, students 
of color, impoverished students, undocumented students, students with 
disabilities and those with particular disadvantages such as 
homelessness--gain equitable access (not just a chance to apply but 
actual inclusion in) to selective enrollment, higher performing and 
magnet schools, or schools of choice like charter schools and 
specialized programs? What resources will you dedicate to ensure that 
transportation is provided to students who require it in order to 
attend or remain in such schools?
    Answer 91. Charter schools are public schools and are subject to 
the same standards of compliance as traditional public schools. Given 
your role on the Labor-HHS-ED appropriations subcommittee, I would be 
willing to dialog with you on the transportation needs for students 
attending public charter schools, if confirmed.

    Question 92. In 2014, The U.S. Government Accountability Office 
(GAO), published the ``Education of Homeless Students: Improved Program 
Oversight Needed'' found that Homeless Liaisons only have about 2 hours 
a week to spend with students experiencing homelessness, what do you 
believe is an adequate investment to sufficiently carry out the duties 
of a LEA and SEA homeless liaison, and how will you insure this 
investment is made?
    Answer 92. In general, I believe it is best to defer to the 
judgment of State and local officials about how best to implement 
education policies and spend their education dollars. As the Chairman 
of the Senate Committee on Health, Labor, Education, and Pensions has 
noted, ``Washington, DC. should not be a national school board.''
    If confirmed as Secretary, I would welcome the opportunity to share 
data and research from the Department of Education with State and local 
officials seeking to improve educational opportunities for homeless 
students. I will travel the country to identify best practices and 
successful programs and then disseminate that information to encourage 
others to try adapting these successful approaches to their unique 
circumstances.
    I also hope that States and local leaders will think outside the 
box and innovate, looking for new solutions to vexing educational 
problems. I know of your long history in advocating for homeless 
students and I look forward to working with you to help States and 
school districts more successfully meet the needs of these vulnerable 
students.
    Personally, I have helped support an organization in my hometown 
focused on helping homeless minors, including homeless LGBT youth. This 
nonprofit organization has been helpful in providing a safe and stable 
place to meet the basic needs of these vulnerable youth. It is clear, 
for these youth, basic needs must first be met before educational goals 
can be realized.

    Question 93. In May 2016, Senators Murray, Hatch, Wyden, Grassley, 
and Franken sent a letter asking for joint guidance and technical 
assistance for States, school districts, and child welfare agencies to 
implement the new foster care requirements under ESSA. The Department 
of Education responded promptly, providing helpful guidance to 
implement the new law. Will you maintain this guidance and provide 
technical assistance as requested by this joint group of Senators?
    Answer 93. If confirmed, I will carefully review all existing 
guidance to ensure it serves as a helpful tool to States, local school 
districts, teachers, school personnel and others, and not as a 
hindrance to State and local efforts to follow the laws.
    Foster care children face unique challenges in accessing a high-
quality education and I am eager to help States continue to develop or 
improve policies that prove effective at helping foster students 
succeed.

    Question 94. As a result of the monumental changes made for 
students in foster care under ESSA, the Department of Education 
designated a staff person solely in charge of implementing the foster 
care portfolio. Will you continue this practice if confirmed as 
Secretary of Education?
    Answer 94. If confirmed as Secretary, I will carefully review the 
personnel policies and staffing responsibilities within the Department 
to ensure that the mission and responsibilities of the Department are 
fully met.

    Question 95. In the past month, there have been many incidences of 
bullying and harassment of students based on their actual or perceived 
immigration status. What do you think the role of the Department of 
Education is to ensure all children, regardless of their immigration 
status, have unrestricted access to an equal education?
    Answer 95. I am opposed to bullying and harassment of any student 
for any reason. Schools should be a place of learning and improving 
oneself, and, if confirmed, I will work with the First Lady to speak 
out against bullying and harassment and encourage States and school 
districts to improve policies and procedures to prevent and deter 
bullying and harassment. I believe the role of the Department of 
Education is to help States and local school districts enforce the law 
and improve education for all students.
    While the focus on bullying is important, it is also important to 
focus on encouraging positive behavior. Simply put, let's share best 
practices which encourage students to be kind, civil and treat everyone 
with dignity and respect.

    Question 96. In an interview with 60 minutes, the President-elect 
has said he plans to immediately deport 2 to 3 million undocumented 
persons living in the United States. Presumably, with numbers this 
large, he is including some children under the age of 18.
    (a) Do you plan to enact his agenda by removing young students who 
are undocumented from our public schools?
    (b) Do you support allowing Federal authorities to arrest 
undocumented students at school and other sensitive locations?
    (c) If the new administration pursues a rollback of DACA, will you 
oppose punitive actions toward campuses that, absent a Federal Court 
order or valid Federal warrant, resist attempts to cooperate with 
immigration enforcement efforts that would disrupt enrollment of 
students who are currently enrolled? If no, explain your reasoning and 
how this benefits the education system in the United States?
    Answer 96. Many young people were brought here at a very young age 
and for those whose caregivers brought them here illegally, these 
students came through no fault of their own. President-elect Trump 
recently said that he wanted to find a future accommodation for them 
that makes us ``happy and proud.'' We need to be sensitive to these 
situations. Because enforcement of our Nation's immigration laws falls 
under the responsibility and jurisdiction of the Department of Justice 
and the Department of Homeland Security, I would respectfully defer to 
those agencies as they address this matter. But where the Department of 
Education may have a role, if confirmed, my default approach is founded 
upon the twin principles of compassion and sensitivity.

    Question 97. President-elect Trump's proposed restrictions on 
immigration and new visa rules would greatly limit the ability of 
colleges to recruit immigrant and international students. Despite this 
rhetoric, many colleges and universities around the country are 
striving to welcome immigrants to study and learn.
    (a) In particular, some institutions have re-stated that they will 
not release private student information to third parties or the Federal 
Government without permission from the student, a judicial warrant, a 
subpoena, or a court order based on probable cause. Will you commit to 
taking no action to punish or challenge in any way institutions that 
exercise their Fourth Amendment rights?
    (b) The President-elect has made troubling statements related to 
limiting the ability of Muslims to enter the country, leading to many 
countries warning their own citizens about traveling and studying in 
the United States. Reports indicate that more than 1 million 
international students contributed more than $30 billion to the U.S. 
economy, supporting more than 400,000 jobs in the United States. This 
figure includes more than $1 billion in economic benefits from 
international students last year in Michigan. Approximately 15 percent 
of foreign students come from Muslim-majority nations. Do you support 
banning all Muslims from entering our country, and have you 
communicated your views to the President-elect?
    (c) Do you support limitations or caps on students coming from 
Muslim-majority countries?
    Answer 97. First, I believe prejudice and intolerance are 
unacceptable and un-American. Second, I support two-way educational 
exchange at the post-secondary level; it's a wonderful way to expose 
international students to America and the rich resources that are a 
part of our higher education system. Similarly, such exchanges enable 
American students to experience other cultures.

    Question 98a. I have introduced legislation for several years to 
support undocumented college students by incentivizing States to 
provide some form of need-based financial aid and in-state tuition 
rates to students, without discriminating based on their immigration 
status, through my IN-STATE for DREAMers Act. And during bipartisan 
negotiations on ESSA, I ensured that programs for English learners 
(ELs) were improved so that ELs, including students who are 
undocumented, could gain an education.
    If confirmed, how do you intend to support undocumented DREAMer 
students at the Department of Education?
    Answer 98a. Many young people were brought here at a very young age 
and for those whose caregivers brought them here illegally, these 
students came through no fault of their own.
    President-elect Trump recently said that he wanted to find a future 
accommodation for them that makes us ``happy and proud.'' We need to be 
sensitive to these situations. Because enforcement of our Nation's 
immigration laws falls under the responsibility and jurisdiction of the 
Department of Justice and the Department of Homeland Security, I would 
respectfully defer to those agencies as they address this matter. But 
where the Department of Education may have, if confirmed, my default 
approach is founded upon the twin principles of compassion and 
sensitivity.

    Question 98b. Do you believe that students who were brought to this 
country as children should qualify for in-State tuition and State 
financial aid, if a State chooses to provide that using non-Federal 
resources?
    Answer 98b. I believe this is a decision for the States.

    Question 99. You and your family have donated large sums of money 
to organizations that support anti-LGBTQ ``pray-the-gay-away'' 
conversion therapy, oppose LGBTQ marriage equality, refer to 
homosexuality as a ``sexual disability,'' and oppose same-sex couples 
from being able to adopt, among other anti-LGBTQ causes. What can you 
tell this committee about how your personal views on homosexuality 
would become part of how you approach your job as the Nation's watchdog 
to protect the civil rights of all children?
    (a) There is case law finding that title IX forbids schools from 
discriminating against students on the basis of their sexual 
orientation and gender identity.
    (b) Under your leadership, what would the position of the 
Department be regarding LGBT students' right to receive an education 
free from discrimination?
    (c) Do you support LGBT students right to use the facilities 
consistent with their gender identity? If yes, will you commit to 
ensuring the Department works to uphold those rights? If no, can you 
please explain how your position is consistent with title IX and other 
civil rights laws?
    (d) Are you familiar with the Supreme Court's unanimous decision in 
Oncale v. Sundowner Offshore Services, which held that same-sex sexual 
harassment may establish a claim under title VII?
    (e) Do you agree with Justice Scalia's statement in the Court's 
unanimous opinion that ``it is ultimately the provisions of our laws 
rather than the principal concerns of our legislators by which we are 
governed''?
    (f) Are you familiar with the Supreme Court's decision in Price 
Waterhouse v. Hopkins, which held that discrimination based on sex 
stereotyping constitutes sex discrimination and therefore violates 
title VII? Based on Price Waterhouse, do you believe title IX's 
prohibition on gender discrimination covers harassment or other 
discrimination based on sex stereotypes?
    (g) In 2015, a Federal court ruled in favor of Haley Videckis and 
Layana White, two young women who were harassed and discriminated 
against by staff at Pepperdine University, where they were students, 
because they were in a same-sex relationship. They sued the school for 
title IX discrimination, and the Court allowed the case to move 
forward, agreeing that discriminating against a student on the basis of 
their sexual orientation is a form of discrimination based on gender 
stereotyping. Do you agree with the Court in Videckis v. Pepperdine 
that discrimination against students on the basis of sexual orientation 
is prohibited by title IX?
    Answer 99. Every student deserves to attend school in a safe, 
supportive environment where they can learn, achieve and thrive and are 
not discriminated against. Period.

    Question 100. Have you, either personally or through any 
foundation, PAC or other entity that you are affiliated with ever 
donated to Focus on the Family? Focus on the Family operates a website 
titled ``The right to counseling for unwanted same-sex attractions'', 
in which it disregards the well-established position of professional 
medical and mental health provider organization when it states,

          ``The mental health professions haven't really discovered 
        anything new about human sexuality or homosexuality; they are 
        just more ideologically and politically driven.''

    And continues, ``There are no scientific studies that demonstrate 
that adolescents have been harmed through [sexual orientation change 
efforts].'' Focus on the Family includes a long list of resources and 
referrals, which includes Hope for Wholeness, National Association for 
Research & Therapy of Homosexuality (NARTH), and other organizations, 
several of which have been identified by the Southern Poverty Law 
Center as organizations associated with conversion therapy. Will you 
disavow these statements made by Focus on the Family, an organization 
that you and your family have donated large sums of money to? Do you 
accept that subjecting children to conversion therapy is widely 
considered to be harmful to their mental health, or do you deny this 
fact?
    Answer 100. As I said at my hearing, I have never believed in, nor 
supported, conversion therapy. I fully embrace equality and believe in 
the innate value of every single human being. All students, no matter 
their age, should be able to attend school and feel safe and be free of 
discrimination.

    Question 101. Have you, either personally or through any 
foundation, PAC or other entity that you are affiliated with ever 
donated to Family Research Council? The Family Research Council has 
been designated a hate-group by the Southern Poverty Law Center, one of 
our Nation's leading voices to protect civil rights and combat hate-
groups, such as the Klu Klux Klan, Aryan Brotherhood, and Westboro 
Baptist Church. The Family Research Council is well known for 
advocating in support of anti-LGBT laws, including promoting so-called 
conversion therapy. Peter Sprigg, senior fellow for policy studies at 
the Family Research Council, authored a 2010 brochure touting ``The Top 
Ten Myths about Homosexuality.'' In the brochure, Sprigg claimed that 
ex-gay therapy works, that sexual orientation can change, that gay 
people are mentally ill simply because homosexuality makes them that 
way. The Family Research Council is also known for criticizing the ``It 
Gets Better'' campaign, which Secretary of Education, Arne Duncan, and 
Director of the U.S. Government's independent educational research 
organization, Institute on Education Studies (IES), John Easton, 
participated in. In a Family Research Council fundraising letter in 
August 2011, Tony Perkins wrote about the ``It Gets Better'' campaign. 
He wrote,

          ``They are aimed at persuading kids that although they'll 
        face struggles and perhaps bullying for ``coming out'' as 
        homosexual (or transgendered or some other perversion), life 
        will get better. . . . It's disgusting. And it's part of a 
        concerted effort to persuade kids that homosexuality is OK and 
        actually to recruit them into that lifestyle.''

    Records indicate your family donated large sums of money to the 
Family Research Council, in fact, the Family Research Council has said 
it was able to establish its Washington, DC, office only with the 
financial assistance of your family. Do you agree with the anti-LGBT 
positions of this well-known hate-group? And, will you disavow the 
Family Research Council's hateful rhetoric about the ``It Gets Better'' 
campaign and their advocacy in support of conversion therapy? Follow-
Up: Given the history of contributions by you, your foundations, PACs, 
entities you are associated with, and that of your family to anti-LGBTQ 
causes, would you clarify the extent to which your personal beliefs are 
consistent with the rhetoric espoused by those groups? Do you agree 
that being gay or transgender is a ``perversion,'' which is what the 
Family Research Council said in its fundraising letter?
    Answer 101. As I said at my hearing, I fully embrace equality and 
believe in the innate value of every single human being. All students, 
no matter their age, should be able to attend a school and feel safe 
and be free of discrimination.

    Question 102. Have you, either personally or through any 
foundation, PAC or other entity that you are affiliated with ever 
donated to Campus Crusade for Christ, which is active on college 
campuses? Its 2013 conference attended by 300 African college students 
featured Dr. Seyoum Antonios, a ``powerful homophobe'' and head of 
United for Life Ethiopia who said that gay people were pedophiles, 
stole children from Africa to turn them gay, were more likely to commit 
murder, and were part of a Western plot to kill Africans. What is your 
stance on these ideas? If you do not agree, why would you contribute 
funding to such an entity.
    Answer 102. As I said at my hearing, I fully embrace equality and 
believe in the innate value of every single human being. All students, 
no matter their age, should be able to attend a school and feel safe 
and be free of discrimination. To be equally clear, the sentiments you 
attribute to Dr. Antonios, do not reflect my beliefs.

    Question 103. Have you ever supported efforts to require private 
schools that receive public funding provide the same rights and 
protections that traditional public schools must offer to the parents 
of children with disabilities? Yes or no. If yes, please describe the 
effort, including specific dates, details, and your personal 
involvement.
    Answer 103. No educational program, public or private, is ideal for 
all students, especially students with disabilities. Even today, there 
are public school districts that do not have the services to meet the 
needs of all students with disabilities and suggest to those parents 
that they should enroll their children in nearby charter schools or the 
district arranges to have those students to go to another district to 
have their needs met. So, let's be honest. No individual public school 
provides the full range of high quality services for every student with 
a disability; this is true for private schools as well.
    Public school systems have the right to establish specialized 
programs at certain schools for students with specific disabilities 
and, through the IEP process, to assign students with specific 
disabilities to these schools in order to meet their needs more 
effectively. When this occurs, the public schools that do not offer 
these services within the system are not ``discriminating'' against the 
students with these disabilities.
    In far too many cases, the parents of students with disabilities in 
the public schools are currently not satisfied with the services their 
children are receiving. In fact, public schools contract out 
educational services for almost 2 percent of students with special 
needs to ensure they receive their education in private schools where 
the student's educational needs are better met. But too often the only 
way that parents can obtain what is best for their child is through 
legal recourse. This can take months and sometimes years. Children 
don't have years to wait for courts to decide. I believe they should 
not have to wait.
    Offering parents of students with disabilities the opportunity to 
choose between a private school, a different public school, or a non-
public school setting empowers the parents to receive what works best 
for their child. Just like in the public schools, not every private 
school will offer every service for every student with a disability. It 
would be misguided to seek to impose on individual private schools a 
standard that is also not imposed on every individual public school. If 
parents are not satisfied with the private options available, they 
maintain all of their current options and rights within their local 
public school system.

    Question 104. The U.S. Department of Education has an incredible 
opportunity to encourage and support collective efforts that seek to 
help close achievement gaps, increase parent and family engagement, 
meet the need of vulnerable children, provide after school and summer 
programs that supplement what kids learn when in school, and ensure 
children have access to healthy meals and snacks during out-of-school 
time hours by partnering with community-based organizations. As 
Secretary, how can community-based partners further your priorities to 
help children succeed during and out of school? Under your leadership, 
will the department support and lift up community-based organizations 
as critical school partners and players in meeting the academic and 
non-academic needs of our Nation's children?
    Answer 104. The Every Student Succeeds Act appropriately restored 
responsibility to States and local school districts to decide with whom 
to partner to improve education in their local communities. If 
confirmed, I will encourage States and local school districts to reach 
out to community-based partners to ensure that students receive the 
services they need to achieve and succeed.

    Question 105. Some view school choice systems as giving families an 
opportunity to have more control over their child's education. However, 
these choice systems rely on the premise that parents and family 
members have the adequate, objective, appropriate and transparent 
information about what a voucher program can offer their child. 
Furthermore, while public schools educate every child that walks 
through the door, private schools can reject students with vouchers for 
a variety of reasons, ranging from disability to ability to pay. Do you 
believe that giving tax payer funds to private schools which are able 
to accept or reject students is giving families a real choice in their 
child's education? What recourse should a parent have if a school 
rejects their child for admission?
    Answer 105. Moms and dads in cities across this great Nation 
participate in school lotteries in hopes that they can enroll their 
children in schools other than those to which they have been assigned 
based on zip code. Traditional public schools don't work for every 
child.
    We need to help communities move children out of lotteries, off 
wait lists and into schools that fit them and meet their needs. With a 
diverse array of great schools, every family should be able to find the 
best match of school for their child's individual needs.

    Question 106. Research in special education demonstrates the 
connection between full preparation and the effectiveness of special 
education teachers. Specifically, fully prepared special education 
teachers provide more effective instruction as demonstrated through 
performance on valid observations and student value-added scores. As 
Secretary, how will you ensure that students with disabilities have 
access to fully prepared special education teachers?
    Answer 106. I applaud the efforts of dedicated special educators in 
schools throughout our country, and, if confirmed, I will work with 
States and districts to get them the tools they need to help students 
with disabilities achieve and thrive. Teacher certification and 
licensure requirements are appropriately determined by the States. It 
is a local responsibility to determine hiring, professional 
development, and personnel placement practices to meet the needs of all 
students, including students with disabilities. I will encourage States 
to ensure that their teacher certification and licensure requirements 
are designed to help recruit and retain good teachers for all our 
students, including special education teachers.

    Question 107. What actions will you take to ensure the rights of 
students with disabilities in higher education under the Rehabilitation 
Act of 1973 and the Americans with Disabilities Act are enforced?
    Answer 107. If confirmed, I will work with the Office of Special 
Education and Rehabilitative Services and the Office for Civil Rights, 
leaders of the higher education community, and representatives of the 
disability community to continue to enforce the Rehabilitation Act of 
1973 and the Americans with Disabilities Act and determine what the 
Department could do better to help colleges and universities comply 
with the law.

    Question 108. The Perkins Career and Technical Education Act exists 
at the intersection of K-12, higher education, and workforce 
development policy. One of my goals for the next reauthorization of the 
Perkins CTE Act is to increase alignment between these policy areas to 
improve the efficiency of the programs authorized by the Act as well as 
lower the burden for States and districts. Do you agree that alignment 
is a key goal for the next Perkins CTE Act reauthorization? If so, 
which areas of the Perkins CTE Act can be better aligned with the Every 
Student Succeeds Act, the Higher Education Act, and the Workforce 
Innovation and Opportunity Act?
    Answer 108. I agree that reauthorization of the Perkins Career and 
Technical Education Act is an important priority, and, if confirmed, I 
look forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions and other interested Members of Congress to update 
and improve the law.
    We should work to align Federal laws to ensure consistency across 
programs, reduce duplication and unnecessary requirements, and provide 
coherent policies. It is also important to provide flexibility at the 
State and local levels so officials on the ground can create and run 
programs that help educate students to attain the skills needed to work 
in those in-demand jobs. Finally, I support transparency of data so 
parents, students, and other taxpayers can see how well their programs 
are working.

    Question 109. What are your views on the impact that extended 
learning time has on student outcomes inside and outside of the 
classroom? Are you committed to the continued funding of 21st Century 
Community Learning Centers in urban and rural settings?
    Answer 109. Extended learning time, when implemented well, can be a 
very powerful tool for States, local school districts, schools, 
teachers, parents, and students to improve academic achievement. If 
confirmed, I will look closely at the budget of the Department of 
Education to determine the best allocation of taxpayer dollars to 
programs when making a proposed budget for future fiscal years.

    Question 110. Ninety percent of American school children spend all 
or a significant portion of their time in the public school system. 
Vast swaths of the country are rural, where students only have public 
schools as a practical choice. Your previous focus on parochial and 
charter schools is functionally meaningless in most rural places. How 
will you meet the Nation's responsibility to the vast majority of 
public education students?
    Answer 110. More and more, technology is being used to bring 
greater and richer content to classrooms, both rural and urban. It is 
helping to close the opportunity gap and personalize learning in ways 
we never thought possible just a few years ago. As an entrepreneur, I 
support innovation and, if confirmed, look forward to embracing new 
ways of reaching students in the learning environments in which they 
are enrolled.

    Question 111. Regardless of your political ideology, all can agree 
that Trump ran an incredibly divisive campaign. He was quoted regularly 
making personal attacks on private citizens and has on more than one 
occasion mocked the appearance of women. He publicly mocked a 
journalist with a disability. Since Trump was elected, educators have 
reported that incidents of bullying and harassment in schools have 
significantly increased. Do you condone Trump's use of bullying in the 
public stage?
    (a) The Center for Disease Control and Prevention notes that 
lesbian, gay, bisexual, transgender, and queer youth face many 
challenges at school. They are at higher risk for being bullied, higher 
risk for substance abuse, higher risk for depression and suicide, and 
higher risk for poor school attendance. All of these issues affect 
learning. According to a 2015 survey, more than 85 percent of LGBTQ 
youth experienced verbal harassment (e.g., called names or threatened) 
at school based on a personal characteristic, most commonly sexual 
orientation or gender expression. More than a quarter of LGBTQ students 
were physically harassed (e.g., pushed or shoved) in the past year 
because of their sexual orientation or because of their gender 
expression. About 17 percent were physically assaulted (e.g., punched, 
kicked, and injured with a weapon) in the past year alone. Widespread 
bullying of LGBTQ students becomes a barrier to their education--
research shows that bullying and victimization among LGBTQ youth is 
correlated with lower academic outcomes. How do you propose the 
Department ensure LGBTQ students have an opportunity to learn, free 
from violence and harassment?
    (b) What do you believe is the appropriate role of the Department 
of Education in ensuring that LGBTQ students are not victims of 
bullying, harassment, or discrimination?
    (c) Why should parents of LGBTQ children feel comfortable with you 
being entrusted to oversee and implement our Nation's education laws, 
and enforcing our laws that are designed to protect their civil rights 
in school?
    (d) One survey found that nearly 10 percent of LGBTQ students who 
reported harassment, bullying, and assault to their schools were 
themselves disciplined instead. How do you propose the Department of 
Education fight retaliation against LGBTQ students who come forward to 
report harassment?
    (e) Many schools work hard to create a safe, accepting environment 
for LGBTQ youth. They have support programs in place; they have Gay-
Straight Alliances; and they work to foster a culture of acceptance for 
all youth. Teachers in many areas of the country, particularly the 
Midwest and South, report that the political climate in their State 
prevents any schools from offering tangible support to this cohort of 
at-risk kids. As Secretary of Education, how would you encourage 
schools to address the social-emotional needs of LGBTQ youth so that 
they would have a better chance of academic success?
    Answer 111. Every child deserves to attend school in a safe, 
supportive environment where they can learn, thrive, and grow. I am 
opposed to bullying and harassment of any student for any reason. 
Schools should be a place of learning and personal growth, and, if 
confirmed, I will work with the First Lady to speak out against 
bullying and harassment and encourage States and local school districts 
to improve policies and procedures to prevent and deter bullying and 
harassment.
    While the focus on bullying is important; it is also important to 
focus on encouraging positive behavior. Simply put, let's share best 
practices which encourage students to be kind, civil and treat everyone 
with dignity and respect.

    Question 112. Do you believe in Federal investment in school mental 
health, school climate, student supports and academic enrichments as a 
path toward increasing student achievement?
    Answer 112. Every child deserves to attend school in a safe, 
supportive environment where they can learn, thrive, and grow. If 
confirmed, I will look closely at the budget of the Department of 
Education to determine the best allocation of taxpayer dollars to 
programs when making a proposed budget for future fiscal years.

    Question 113. There are at least 200 cases of unresolved school 
segregation. Data shows that all children, including white children, 
benefit from integrated and diverse classrooms. Meanwhile, the 
achievement gap between children of color and white children remains 
wide open. This is largely due to the fact that students of color 
receive fewer resources and opportunities and less-qualified teachers, 
which are concentrated in affluent schools. Putting aside your belief 
in school choice and considering the many public school children who do 
not currently have other choices, such as in rural communities, do you 
believe the Office for Civil Rights has a role in helping to ensure the 
mandate of Brown v. Board of Education is achieved?
    Answer 113. Yes.

    Question 114. If a school choice plan was presented to the 
Department for funding, but there was compelling evidence to indicate 
this plan would increase segregation by race and/or by socioeconomic 
status, would the Department approve it? How can you justify this 
decision?
    Answer 114. I do not support programs that would lead to increased 
segregation. Empirical evidence finds school choice programs lead to 
more integrated schools than their public school counterparts.

    Question 115. Do you agree or disagree with Supreme Court Justice 
Anthony Kennedy's comment in his 2007 Parents Involved in Community 
Schools v. Seattle School District No. 1 opinion that ``A compelling 
interest exists in avoiding racial isolation, an interest that a school 
district, in its discretion and expertise, may choose to pursue?''
    Answer 115. I believe we are better as a nation when we celebrate 
and acknowledge our rich diversity of race and ethnicity. I believe 
government policies should not be established to intentionally create 
racial isolation, especially in our elementary and secondary schools.
    But I do believe that individuals, families and parents should 
remain free to make their own choices about the communities they live 
in, the schools they attend, and the colleges and universities in which 
they enroll. For example, the student body of Morehouse College is 97.1 
percent African American, and is one of our Nation's finest 
institutions of higher education, with an important mission of serving 
historically underserved African Americans, along with others who 
choose to attend. Diversity is important, as is finding a common bond 
that brings us together.

    Question 116. Academic and scientific research has demonstrated 
that racial and socioeconomic integration in our schools has positive 
effects on students. For example, Roslyn Arlin Mickelson found in her 
research on school integration and K-12 outcomes that students 
attending diverse schools had a higher achievement in mathematics, 
science, language and reading than students in segregated schools. 
Additionally, students who attended diverse schools are found to have 
higher occupational and income attainments as adults. Yet as a GAO 
report released in April 2016 highlights, racial and socioeconomic 
isolation in K-12 public schools grew from 9 percent to 16 percent 
between school years 2000-01 and 2013-14. This trend threatens the 
positive outcomes generated by racial and socioeconomic integration 
previously mentioned. In your view, what role should the Department 
have in supporting integrated schools?
    Answer 116. The Department has an important role in helping States 
and local school districts understand the benefits of diversity and its 
correlation to academic achievement. Through the Magnet School 
Assistance Program, the Department helps support local school districts 
in their effort to remedy pockets of racial and economic isolation. If 
confirmed, I look forward to working with States and local school 
districts to enhance opportunities for all students and to help them 
improve racial and socioeconomic integration.

    Question 117. In today's economy every student needs to have a 
strong foundation in the STEM subjects in order to land and succeed in 
virtually any job--from the shop floor to the research lab to the 
boardroom. Further, the best, most highly paying jobs are nearly all in 
the STEM fields. If we are going to enable our students to compete in 
the global economy we must maintain a strong Federal commitment to 
improve teaching and learning in the STEM fields. What is your view on 
the best role the Department of Education can play in supporting 
improvements in STEM education at the State and local level in K-12 
education, in out-of-school time, career and technical education, and 
higher education?
    Answer 117. STEM education is an important and necessary part of 
our education system and, if confirmed as Secretary, I look forward to 
highlighting the successful programs that are happening around the 
country. I believe that the Department can continue research into best 
practices of STEM education, promote the importance of STEM education 
to States and local school districts, and encourage States and local 
school districts to prioritize funding for those activities.

    Question 118. The September GAO study found that many if not most 
voucher-aided private schools charge tuition or fees above and beyond 
the value of the voucher. Does this not discriminate against students 
from families of limited resources, given that about half of all public 
school students in the Nation qualify for free or reduced price school 
lunches?
    Answer 118. I agree that it is unfortunate that many voucher 
programs do not provide a voucher that is sufficient, on its own, to 
pay tuition and fees at some schools. Just as the Pell Grant is not 
always enough to pay for the cost of tuition and fees at many 
institutions of higher education, vouchers in the K-12 arena sometimes 
fall short, but still provide meaningful support to enable students to 
attend the institution of their choice.
    If confirmed, I look forward to working with the President-elect 
and Congress to pass legislation that would create Federal support, 
with Federal funds, for voluntary voucher programs, and I hope that we 
will be able to secure sufficient resources to address this concern so 
more children can attend a school of their choice.

    Question 119. Studies show that vouchers channel taxpayer dollars 
to schools where students can be discriminated against or denied 
admission. Furthermore, voucher programs do not guarantee greater 
achievement. The final report by the U.S. Department of Education on 
the District of Columbia voucher program found that students who 
received vouchers to attend private schools were at similar levels in 
math and reading 4-5 years later as students who sought the vouchers 
but who were not awarded them. Vouchers divert public funds from public 
education, do not guarantee improved educational achievement, and allow 
schools to cherry pick the students they wish to serve. How do you 
align your support for vouchers with your responsibility to ensure the 
best educational outcomes for all American students?
    Answer 119. Since you raised the D.C. Opportunity Scholarship 
Program (DCOSP), it would be worth noting a 2010 Department of 
Education Institute for Education Sciences report that found students 
who used a scholarship had a 91 percent graduation rate, 21 percent 
higher than those who sought, but did not receive a scholarship.
    The DCOSP provides students a high-quality education, costs 
taxpayers less money, and includes several accountability mechanisms to 
protect student safety and performance. Ninety-seven percent of 
families participating in DCOSP are African American or Latino and 60 
percent receive SNAP or TANF benefits. These students should have the 
same opportunity as any other students to go to a great school. If 
confirmed, I look forward to working with you to address the 
educational needs of all students.

    Question 120. Do you believe that a school should be able to take 
taxpayer-funded vouchers and then, as one voucher school identified in 
a 2016 GAO report did, require all students to agree to follow a 
specified list of religious principles?
    Answer 120. Yes, if that is the decision that the family makes. 
Pell grants and pre-K vouchers also allow this type of choice.

    Question 121. You advocated for (and contributed substantially to 
funding) a voucher initiative in 2000 in the State of Michigan. Voters 
rejected that initiative in by a margin of 61 to 39. And John Engler, 
the Republican Governor at the time, strongly discouraged you from 
pursuing the initiative. We have had voucher votes here in the Senate. 
Like in Michigan, they have failed. Do you plan to pursue a voucher 
program at the national level despite the fact that multiple voucher 
votes failed in the U.S. Senate in 2015?
    Answer 121. The President-elect has made a robust parental choice 
proposal a centerpiece of his platform, and, if confirmed, I look 
forward to working with you on our proposal and hope that you will keep 
an open mind about this voluntary program that will simply allow 
interested families to choose the school setting that best meets the 
unique needs of their individual child.
    However, to be clear, I do not and will not advocate for any 
Federal mandates requiring vouchers. States should determine the 
mechanism of choice, if any.

    Question 122. According to the U.S. Bureau of Labor Statistics, the 
2015 unemployment rate for people with disabilities was approximately 
11 percent, almost double the unemployment rate for people without 
disabilities. As Secretary of Education with jurisdiction over the 
Rehabilitation Services Administration and the State vocational 
rehabilitation program (VR), what is your opinion of the pervasive 
unemployment and low workforce participation rate of people with 
disabilities? In your administration, how will you prioritize the 
improvement of employment and independent living outcomes for people 
with disabilities? Do you support competitive, integrated employment 
for people with disabilities, including people with the most 
significant disabilities and youth in transition? From your 
perspective, what are ways to increase competitive, integrated 
employment for people with disabilities?
    Answer 122. The unemployment rate for people with disabilities is 
troubling. If confirmed, I will work with the President-elect and 
Congress to find bipartisan solutions to address this significant 
issue.

    Question 123. The Department of Education's Office of Special 
Education and Rehabilitative Services has stressed the importance of 
improving transition services from high school to post-secondary 
education or employment for youth with disabilities, and the Federal 
Government has assumed a key role in stimulating State efforts to 
improve transition services through a variety of policy efforts. What 
is your philosophy on transition services? What is the role of the 
Federal Government in ensuring post-secondary education and employment 
success for youth with disabilities?
    Answer 123. One of the best ways to help a child with a disability 
get a job or pursue post-secondary education is to ensure that they 
have the skills and resources they need to move on from high school.
    If confirmed, I will work with States, local school districts, 
employers, and institutions of higher education to identify best 
practices in transition services and disseminate those findings to 
encourage the replication of successful programs.

    Question 124. The Rehabilitation Act is a critical law that 
authorizes the formula grant programs for vocational rehabilitation, 
supported employment, independent living, and client assistance 
throughout the Nation. Sections 501 of the law directs the Federal 
Government to recruit and hire people with disabilities. Section 503 
requires Federal contractors to recruit and hire people with 
disabilities. Section 508 describes accessibility requirements for 
federally funded programs. Section 508 specifies accessibility 
standards in technology. Although legislation such as the 
Rehabilitation Act has served to advance and expand the opportunities 
of people with disabilities in the workforce, there are still many 
barriers that must be considered and overcome to increase employment 
for people with disabilities to comparable levels for people without 
disabilities. Because the Rehabilitation Act and State vocational 
rehabilitation agencies have been incorporated into the broader 
workforce development system under the Workforce Innovation and 
Opportunity Act, will your Department work closely with the Department 
of Labor to ensure that people with disabilities seeking employment and 
training services are able to avail themselves of all necessary 
services under State workforce systems? How will your Department engage 
in this work? What will your administration do to support the work of 
the Rehabilitative Services Administration and its State vocational 
rehabilitation agencies?
    Answer 124. If confirmed, I will work closely with the Department 
of Labor to ensure the Workforce Innovation and Opportunity Act is 
implemented as Congress intended to benefit individuals with 
disabilities. Also, I look forward to bringing to the Department well-
qualified individuals to serve in the Rehabilitative Services 
Administration to ensure those programs get the attention they deserve.

    Question 125. The Americans with Disabilities Act and other 
legislation prohibit the discrimination against people with 
disabilities in employment. However, employer attitudes toward workers 
with disabilities and their ADA employment rights continue to be a 
major barrier for hiring and retaining works with disabilities. As a 
business owner in the private sector, how have you included people with 
disabilities in the workforce of companies and organizations that you 
are associated with?
    Answer 125. Yes. To the best of my knowledge, all organizations I 
have been engaged with have made appropriate accommodations for people 
with disabilities.

    Question 126. Investment in K-12 computer science education is 
essential to ensuring our future workforce is equipped with the skills 
needed to fill critical U.S. jobs and keep America competitive and safe 
for decades to come. What are your strategies to ensure that more 
students have access to computer science education?
    Answer 126. Computer science is a very important part of education. 
Most jobs today require a much higher degree of technical competence 
than even 5 years ago. if confirmed, I will work with States and school 
districts to encourage them to develop computer science education where 
needed, or continue their focus on computer science as a critical 
skill. I will help identify best practices wherever possible.

    Question 127. Maximizing the effectiveness and reach of any Federal 
funding program for computer science requires close coordination and 
organization with other agencies and branches of government outside of 
the Department of Education. How would you coordinate any activities at 
the Department related to computer science with these other agencies 
and entities, particularly the National Science Foundation, to expand 
their reach?
    Answer 127. If confirmed, I will work closely with other agencies, 
including the National Science Foundation, Defense Department, Commerce 
Department, Energy Department, and the Agriculture Department to 
improve coordination of computer science programs and help States and 
local school districts gain a better understanding of Federal programs 
that support computer science programs.

    Question 128. As you know, there are at least 15 million students 
living in poverty in this country. The majority of these students 
attend 60,000 public schools with funds designated for schools with the 
highest percentages of children from low-income families. Known as 
title I, this funding stream is dedicated to educating low-income 
students in schools with additional funds to serve their students. It 
also provides mechanisms to ensure that title I funds are actually 
spent on these students. Will you commit to protecting the title I 
funding stream as it's written in the bipartisan Every Student Succeeds 
Act?
    Answer 128. Title I is the major Federal spending program in K-12 
education and is very important to States and local school districts. 
If confirmed, I will look closely at the budget of the Department of 
Education to determine the best allocation of taxpayer dollars to 
programs when making a proposed budget for future fiscal years.

    Question 129. Please provide a list of any and all financial 
holdings that involve or touch on education as of the date that 
President-elect Trump announced his intent to nominate you to the 
position as Secretary of Education. Please include the date of the 
initial investment, the amount of the investment, the value of the 
investment as of the date of the announcement (or any date within 30 
days of that date), whether it is a direct investment or underlying 
asset (i.e., whether through a direct investment or through a private 
equity limited partnership or some other investment vehicle), and the 
date of sale if you have disposed of this asset. Please provide such a 
list regardless of whether divestiture of any such asset or holding is 
part of an ethics agreement you have or expect to enter into with the 
Office of Government Ethics.
    Answer 129. Please see my Senate Committee on Health, Education, 
Labor, and Pensions questionnaire, completed December 30, 2016 and my 
OGE Form 278e, which was submitted Thursday, January 19, 2017.

    Question 130. On January 3, the Office of Government Ethics posted 
a notice in the Federal Register requesting public input on the 
application of the criminal conflict of interest prohibition to certain 
beneficial interests in discretionary trusts. Are you or your husband 
an income beneficiary of a discretionary trust(s)?
    Answer 130. Yes we are beneficiaries of discretionary trusts and 
they have been reported on OGE Form 278e consistent with current OGE 
guidelines, in accordance with Federal law.

    Question 131. Due to the confusion that occurred in the hearing on 
January 17, please confirm our current understanding that you have been 
on the Board of the Edgar and Elsa Prince Foundation for a period of 17 
years from approximately 1998 until January 2017, or is that a mistake 
on the forms that your mother and others have been signing? Can you 
confirm that you took the first steps to remove yourself from the Board 
on January 13, 2017.
    Answer 131. I have never served as an officer or director of the 
Elsa and Edgar Prince Foundation, nor have I made any decisions for 
that Foundation's contributions. Upon review of documents in 
preparation for the Senate hearing, the Foundation representatives were 
alerted to these errors, and several Foundation tax filings and State 
of Michigan corporate filings were amended to correct them.

    Question 132. We understand that at some point you were invested in 
K12 Inc., the largest for-profit operator of online schools. It is a 
publicly traded company and its revenue has quadrupled from $226 
million in 2008 and $948 million in 2016. Please describe your current 
state of your investment in K12 Inc., if any, including the amount of 
your initial investment, the date and value of the investment at the 
time you sold your interest if applicable, and/or the current status of 
the investment in this now public company.
    Answer 132. To my knowledge, neither I nor anyone whose interests 
are imputed to me (pursuant to 5 CFR 2640.103(c); citation hereinafter 
omitted) have any direct or indirect ownership interests in K12 Inc. 
Shares in K12 Inc. were acquired in 2002 and 2003, but were sold in 
2008.

    Question 133. You and your family have extensive investments in a 
range of areas. On Monday December 5th, the Wall Street Journal 
reported that you and your husband--your husband through your family's 
investment company, RDV Corporation--own a part of the online lender 
Social Finance Inc., also known as SoFi. Much of the lender's business 
is refinancing student loans, including the Federal student loans over 
which you would set policy as Secretary. SoFi is able to take highly 
performing loans out of the Federal pool, which affects the overall 
revenues of the Federal loan portfolio. Do you commit to eliminating 
all conflicts of interest with private companies that refinance, 
originate, securitize, or otherwise issue student loans while being the 
head of a Federal agency responsible for overseeing more than $1 
trillion in Federal student loan debt?
    Answer 133. Yes, I will comply with all ethics requirements 
required by the Office of Government Ethics and the Ethics Office at 
the Department of Education.

    Question 134. Have you or anyone in your family ever invested in, 
owned, served as a high-level executive or board member for, or in any 
other way, been financially involved with a for-profit college? If yes, 
please provide details of the relationship, including the name of the 
school, who was involved, in what capacity, the amount of the financial 
involvement, the current state of the relationship, and your plans for 
recusal for any issues related to the oversight of such colleges.
    Answer 134. I never served as a high-level executive or board 
member of any for-profit college. Any financial interest in any for-
profit colleges held by me or anyone whose interests are imputed to me 
will be divested in accordance with the terms of my ethics agreement.

    Question 135. According to your nomination questionnaire, you were 
a board member of the RDV Corporation for 18 years; could you explain 
your role in that capacity and the level of involvement you had in the 
financial dealings of RDV Corporation?
    Answer 135. I participated on various board committees of the 
corporation. I served on the corporation's investment committee from 
October 2001 to February 2013.

    Question 136. As you are aware, the Department of Education 
contracts with private collection agencies (PCAs) to encourage full 
student loan repayment while ensuring defaulted borrowers are aware of 
both the consequences of their failure to repay and the options 
available to help them get out of default--Performant Financial 
Corporations is one of these PCAs. According to Performant's fiscal 
year 2015 SEC filing, 23.8 percent of the company's revenue is tied to 
its Department of Education contracts. On December 12, 2016, the 
Department of Education announced seven contractors for its major 
unrestricted recovery contract; Performant was not named as a 
contractor and submitted a formal bid protest on January 3d of this 
year. According to Performant's publicly available quarterly SEC filing 
for the third quarter of fiscal year 2014, the company received a 
$147.5 million loan in that period. One of the parties to that loan is 
an entity known as LMF WF Portfolio I, LLC. According to the State of 
Michigan's Department of Licensing and Regulatory Affairs, an entity 
known as LMF WF Group Investors I, LLC, uses Ottawa Avenue Private 
Capital, LLC--a private equity fund formed by the DeVos family to serve 
as an investment firm for RDV Corporation--as a registered agent. All 
three entities LMF WF Group Investors I, LLC; Ottawa Avenue Private 
Capital, LLC; and RDV Corporation share a common address: 126 Ottawa 
Ave, Suite 500, Grand Rapids, MI 49503.
    Answer 136. Answer not available.

    Question 137. Have you or any member of your family either 
directly, or through RDV and any of its associated ventures, had a 
stake in Performant Financial Corporation? If so please provide the 
date of the investment, a narrative description of the investment, and 
the value of the investment as of the date that President-elect Trump 
announced his intent to nominate you to the position of Secretary of 
Education.
    Answer 137. Any indirect ownership interest in Performant will be 
divested pursuant to the terms of my ethics agreement.

    Question 138. Do you believe that it is likely that your extended 
family will continue their longstanding pattern of giving to 
candidates, PACs, parties and other 527 organizations at the State and 
Federal level if you are confirmed?
    Answer 138. Yes.
                            senator collins
    Question 1. The majority of Maine's schools and school districts 
are small and rural, which means they are often at a disadvantage when 
it comes to applying for competitive Federal funds. In 2002, I co-
authored the Rural Education Achievement Program (REAP), and I worked 
in 2015 to reauthorize the program in the Every Student Succeeds Act. 
REAP has worked well to help level the playing field when it comes to 
securing additional Federal funding for small rural and low-income 
rural schools and districts.
    In Maine, for example. the school district in Frenchville, one of 
our most northern towns, has used REAP funds to supplement the high 
school's technology efforts with hardware, software, and teacher 
training. In Machias, REAP supports art, music, and extended school 
activities, and has helped schools purchase more calculators. REAP 
funds the Island Reading Program, which uses video conferencing to 
facilitate book discussions among students living on Maine's coastal 
islands. Will you commit to supporting REAP and other rural outreach 
activities at the Department?
    Answer 1. I am pleased with the steps that Congress took under the 
Every Student Succeeds Act to reauthorize the Rural Education 
Achievement Program and other provisions in the law to provide more 
flexibility to rural school districts in how they apply and compete 
for, as well as combine and utilize, Federal funding to meet local 
needs.
    As you and I have discussed, I know each State has unique 
characteristics and challenges and a one-size-fits-all approach simply 
will not work. If confirmed, I look forward to working with you to 
achieve the best possible outcomes for students in your State.

    Question 2. I am a strong supporter of apprenticeship education, 
and I think we can do more to prepare young people for many of the 
unfilled, high-skill jobs that industry needs. Will you commit to 
looking at ways to encourage more alignment between local employment 
needs and education? Could this include improving adult education 
programs as well?
    Answer 2. I agree apprenticeships are a great way to improve skills 
for students, and coordination between local employers and education 
officials on strategies to improve opportunities for students and adult 
learners to succeed in the workforce is important. And while generally, 
States and local officials will know best how to implement education 
policies and align programs with the needs of employers, I believe the 
Federal government broadly and the Department of Education have 
important roles to play.
    Too many Americans are suffering in the current economy. President 
Trump made improving the employment opportunities of all Americans a 
cornerstone of his campaign, and his administration will work to 
improve the prospects of those left behind in this economy. Reforms 
enacted in the Adult Education and Family Literacy Act, which was 
reauthorized in 2014 as part of the Workforce Innovation and 
Opportunity Act (WIOA), were meant to help States and communities 
improve services for adult learners to better provide them the 
education and skills they need to obtain employment and increase self-
sufficiency.
    If confirmed, I will work with States, local educational agencies, 
and institutions of higher education to help identify best practices 
and provide appropriate technical assistance and guidance to assist in 
program coordination and alignment with local employer needs. I will 
also work through the Office of Career, Technical, and Adult Education 
to implement reforms enacted by Congress as part of WIOA to improve 
outcomes for adult learners. Combined with other efforts across the 
government, we have an opportunity to restore the American Dream for 
all Americans.
                             senator young
    Question 1. I commend the members of the Senate HELP Committee--
particularly Chairman Alexander and Ranking Member Murray--on their 
efforts last year in reauthorizing the Elementary and Secondary 
Education Act. The bipartisan legislation that was signed into law by 
the President--the Every Student Succeeds Act--is a critical step to 
return education authority back to the States. The next Secretary of 
Education has a responsibility to issue guidance to implement the Every 
Student Succeeds Act. The purpose of this guidance is to offer 
technical assistance to States and school districts, and not to 
introduce new regulation that bypasses Congress. Would you agree with 
that statement?
    Answer 1. Yes.

    Question 2. I would like to bring a matter to your attention 
regarding an important issue to Indiana, and school districts across 
the country. It is my understanding that in the Every Student Succeeds 
Act, Congress expressed the intent of the law for several allowable 
uses of Federal funding in title II, including certification of 
Athletic Administrators. I bring this to your attention, because 
letters from former Senator Coats, and from others, have not been 
adequately answered--or have not been answered at all--under the 
current Secretary of Education. In fact, in title II guidance released 
in September of last year, there was no mention of athletic 
administrators--leaving many States and school districts in the dark.
    Do you share this understanding, and think that subsequent guidance 
can address allowable reimbursements for the professional development 
of athletic administrators? As the next Secretary of Education, how do 
you envision addressing this issue, or similar issues?
    Answer 2. It is unfortunate that questions from Senator Coats and 
others have gone unanswered by the previous administration.
    If confirmed, I will be responsive and implement the requirements 
of the Every Student Succeeds Act (ESSA), particularly in providing 
States and local education agencies with maximum flexibility in their 
use of Federal title II dollars on activities to improve and support 
the professional development of teachers, principals, and other school 
leaders, including athletic administrators. I will also carefully 
review all existing ESSA guidance, including the title II guidance you 
referenced above, to ensure consistency with the statute and enable 
successful implementation of the law.

    Question 3. International and foreign language education is 
critical to ensure our national security and understanding of cultures 
worldwide. There is now a high demand for skilled employees who possess 
international expertise and skills. For decades, the Department of 
Education has sponsored the title VI and Fulbright-Hays international 
education programs. These programs provide funding to universities and 
students, to support international and global studies, international 
business, and foreign language education. Many title VI students 
transition into careers in the Federal Government and military. What is 
your plan for the continued support of international education, 
including title VI and Fulbright-Hays programs at the Department?
    Answer 3. International education, and particularly foreign 
language skills along with an understanding of different cultures, is 
increasingly important to our national security and success in the 
global market. If confirmed, I will look closely at these programs to 
ensure that they are getting the requisite support to prepare our 
students.

    Question 4. Several suggestions exist on simplifying title IV 
student financial aid programs. I support and push policies that offer 
students an alternative to student loan financing without burdening the 
taxpayers. An example of this is income share agreements. Legislation 
that I authored in the House of Representatives last year would create 
a regulatory framework that income share agreements would operate 
under. In fact, Purdue University funded its first students last fall 
through their pilot program, ``Back a Boiler''.
    Under your direction, how will the Department of Education view 
efforts to create innovative forms of student loan financing?
    Answer 4. Very positively.
                            senator roberts
    Question 1. In 2015, Congress passed the Every Student Succeeds Act 
(ESSA). I am proud the bill includes language I drafted to permanently 
end the Federal Government's ability to coerce States to adopt Common 
Core.
    In fact, here's what my language says, . . .

          "No officer or employee of the Federal Government, including 
        the Secretary, shall attempt to influence, condition, 
        incentivize, or coerce State adoption of the Common Core State 
        Standards . . . or any other academic standards common to a 
        significant number of States, or assessments tied to such 
        standards."

    Unfortunately, it is evident that the outgoing Department of 
Education did not follow the spirit and intent of the Every Student 
Succeeds Act last year while working to implement the legislation.
    Since many of my colleagues and I have expressed concerns with the 
current Administration's attempt to implement ESSA, can I count on you 
to respect the CLEAR intent (local and State control) as well as the 
binding prohibition language of ESSA?
    Answer 1. Yes. I agree that the Every Student Succeeds Act (ESSA) 
clearly prohibits the Federal Government from requiring States to adopt 
or change standards. If confirmed, I intend to ensure ESSA is 
implemented as intended.
                           senator murkowski
    Question 1. What are your priorities for the next 4 years with 
regard to supporting rural public schools and schools that serve Native 
Americans and Alaska Natives? What will you do to ensure that public 
school education flourishes for rural and Native students?
    Answer 1. Clearly, more can be done to support rural schools. Many 
of our rural communities have not shared in the same economic 
prosperity of our urban and suburban areas. Schools serving these 
communities and populations continue to face unique challenges, 
including, but not limited to, resources, staffing, and services for 
students.
    I am pleased with the steps Congress took under the Every Student 
Succeeds Act (ESSA) to reauthorize the Rural Education Assistance 
Program (REAP) and other provisions in the law to provide more 
flexibility to rural school districts in how they apply and compete 
for, as well as combine and utilize, Federal funding to meet local 
needs. I look forward to helping States and rural school districts 
fully take advantage of the change in the law.
    More and more, technology can bring greater and richer content to 
classrooms, both rural and urban. Access to the requisite 
infrastructure to enable these innovations is an important conversation 
for the current Administration and Congress.
    It is my understanding, that even at the U.S. Department of 
Education, competitive grants often ignore the realities of rural areas 
or unintentionally exclude them based on their requirements.
    As for challenges facing Native American and Alaska Native 
students, like most students, I do not believe there is a one-size-
fits-all solution. It is why I am pleased that ESSA includes more 
flexibility for States, local education agencies (LEAs), and tribal 
organizations to decide how to design and implement programs, and use 
their Federal dollars, to best meet local needs. I will also provide 
any needed guidance or technical assistance to help facilitate ESSA's 
new requirement that States and LEAs consult with tribal 
representatives. I am hopeful the flexibility provided in ESSA will 
lead to improved educational outcomes for all students, including rural 
and Native students.

    Question 2. What approach will you take to proactively consider the 
unique opportunities and obstacles our rural schools face?
    Answer 2. I will never forget that more than half of our Nation's 
public school districts are in rural areas and educate nearly one in 
four public school students. I am pleased with the steps Congress took 
under the Every Student Succeeds Act (ESSA) to reauthorize Federal 
programs serving small, rural, and low-income schools and provide more 
flexibility to rural local education agencies (LEAs) in how to apply 
for, combine, and spend Federal funding to meet their needs.
    Additionally, new provisions in ESSA are designed to ensure that 
rural LEAs can compete for funds at the same level as more populated 
and better resourced school districts.
    If confirmed, I will review how the Department is addressing the 
needs of rural LEAs in administering programs and developing 
regulations and policies. Based on the findings of this review, I will 
implement appropriate actions within my authority as Secretary to 
increase consideration of rural needs in Federal education programs, 
regulations, and policies. I will ensure that this review and the 
development and implementation of its findings by the Department are 
conducted in close and ongoing consultation with rural LEAs and a broad 
representation of stakeholders from rural communities.
    Furthermore, the Department needs to do a better job finding peer 
reviewers and other experts from rural areas with practical, hands-on, 
experience in rural parts of the country. Far too often, the Department 
has relied on those who were available or who work in Washington, DC as 
peer reviewers. I firmly believe we can find new people, with 
experience running schools in different parts of our country, to serve 
as peer reviewers and otherwise assist the Department of Education in 
implementing the laws. I hope that I can call on your office for 
suggestions of peer reviewers when the time comes.

    Question 3. Will you give me your commitment to visit schools in 
both rural and urban Alaska during your first year as Secretary?
    Answer 3. Yes. If confirmed, I look forward to working closely with 
you and your staff to plan a visit to Alaska. I have talked with some 
of my predecessors who have traveled to Alaska with you and your 
congressional delegation; and I look forward to seeing for myself the 
distance your students travel, the small sizes of your schools due to 
the population, and the challenges that Alaska Natives and Alaska's 
residents face.

    Question 4. Will you commit to providing robust support for the 
21st Century Community Learning Centers program, which funds 
afterschool programs that allow working parents to have peace of mind 
that their children are safe and engaged in learning after school?
    Answer 4. After-school programs are critical to the safety and 
continued learning for many students. There are many programs offered 
by wonderful local community groups and schools that offer valuable 
opportunities for learning. The Every Student Succeeds Act (ESSA) 
included the reauthorization of the 21st Century Community Learning 
Centers, a program that helps to provide afterschool services to many 
children. I know that the program was included in the law with your 
strong leadership, and I look forward to working with you to ensure the 
program is implemented as you and Congress wrote it.
    If confirmed, I will look closely at the budget of the Department 
of Education to determine the best allocation of taxpayer dollars to 
programs, including the 21st Century Community Learning Centers 
program, when making a proposed budget for future fiscal years. 
Furthermore, if Congress continues to provide annual appropriations for 
this program, I intend to implement it as the law requires.

    Question 5. How do you plan to help States and school districts 
meet the requirement in ESSA that they engage in meaningful 
consultation with tribal representatives in planning how they will use 
Federal dollars to serve Native students?
    Answer 5. Congress took important steps in the Every Student 
Succeeds Act (ESSA) to promote coordination and collaboration between 
tribal organizations, States, and local education agencies (LEAs) to 
enhance tribal self-determination in education. This includes 
provisions requiring timely and meaningful engagement and consultation 
between States, LEAs, and tribal representatives in the development of 
their education plans, as well as greater flexibility for tribes and 
tribal organizations to administer federally funded education programs. 
I support what Congress intended when including these new provisions in 
the law to help State and local school officials meet the unique 
educational needs of Native students.
    Tribal representatives best know the needs of their children, can 
provide critical guidance on how to meet those needs, and should be 
consulted at the Federal, State, and local level before important 
decisions are made about how to best serve Native students in their 
schools. Tribal leaders face many challenges dealing with the trust 
relationship they have with the Federal Government, and I hope to learn 
more about what solutions we can find together to improve those 
relationships and responsibilities.
    While the ultimate responsibility rests with States, LEAs, and 
local communities, I believe the Department can play an important role. 
If confirmed, I will ensure the Department provides State and local 
education officials with the necessary and appropriate guidance and 
technical assistance to comply with these consultation requirements, 
and to support the flexible use of Federal dollars provided for in the 
law. I also look forward to working with you, your staff, and other 
Members of Congress on further steps the Department can take to ensure 
that all the aspects of the new law affecting Native students are 
implemented as intended.

    Question 6. How important is the privacy of student data to you, 
and what do you plan to do to ensure that all data collected by the 
Department is kept safe from hackers and other unauthorized access?
    Answer 6. Protecting the privacy of student data is very important. 
Data is critical to education. Data can help inform decisions by 
teachers and school leaders, as well as help parents make more informed 
decisions about their child's education choices. And data can help 
taxpayers know if their tax dollars are being spent well.
    However, the Federal Government can do more to ensure parents' 
trust that sensitive student educational data are private and secure. 
We also need to limit the data government collects to only that which 
is necessary. Furthermore, parents need to know that the technology 
used by the Federal Government to collect and store sensitive 
information is trustworthy and adheres to the highest standards of 
security. I understand the collection, storage, and analysis of student 
data by the Federal Government has changed dramatically in recent 
years. I also understand how difficult it is for Federal policies to 
keep up with the rapid pace at which technology is changing.
    If confirmed, I will pursue the development and implementation of a 
balanced approach to student data in the Department that empowers 
students, parents, and educators, while protecting sensitive data. I 
also look forward to working with Congress as you consider ways to 
update and modernize Federal laws protecting student data.

    Question 7. Will you commit to working with me to help States with 
high rates of domestic and dating violence to adopt or develop 
curriculum to give youth the tools they need to stay safe?
    Answer 7. I agree addressing the problems of domestic and dating 
violence are important issues and am concerned about students who are 
either direct victims of such violence and/or deal with the indirect 
trauma of witnessing these unacceptable acts. I have seen estimates 
that trauma has affected as many as one in four students attending 
school. We all know trauma can affect students in different ways. I am 
pleased Congress, under Title IV of the Every Student Succeeds Act 
(ESSA), provides States and local education agencies (LEAs) with 
funding that may be used on a wide variety of activities to support 
safe and healthy students, including to improve instructional practices 
around the recognition and prevention of teen and dating violence, 
stalking, domestic abuse, and sexual violence and harassment.
    If confirmed, I will work with States and local school districts to 
provide appropriate assistance to help them implement the new 
flexibilities provided in Title IV of ESSA and other Federal programs 
to address issues of violence and related trauma. However, the 
development of curricula and instructional content is solely a 
responsibility of States and local school boards. Accordingly, I will 
adhere to the multiple provisions in Federal law, including those under 
ESSA, which prohibit any officer or employee of the Federal Government 
from, among other things, interfering with any State, LEA, or school's 
instructional content, curricula, or program of instruction.
                            senator sanders
    Question 1. Before the Senate Health, Education, Labor, and 
Pensions (HELP) Committee votes on your nomination to serve as 
Education Secretary will you be able to give us an exact dollar figure 
for you and your family's campaign contributions--this includes your 
immediate family (which includes your husband, your four children and 
their spouses) and the coordinated giving of both the DeVos (which 
includes Richard and Helen DeVos, Douglas and Maria DeVos, Daniel and 
Pamella DeVos, Suzanne DeVos, and Bob VanderWeide) and Prince families 
(which includes Elsa Prince Broekhuizen and Rennselaer Broekhuizen, 
Edgar Prince, and Erik Prince)--to the Republican Party, State party 
committees, candidates for elected office, political action committees, 
right-wing conservative groups, and other politically active entities, 
since the year 1980? Please be sure to include a complete list of 
donations after January 21, 2010, and donations made after you were 
nominated as well.
    Answer 1. I submitted the information about political donations 
required by the HELP Committee on January 5, 2017.

    Question 2a. Most of the questions below were sent to you on 
January 6, 2017, in a letter from Senators Udall, Merkley, Brown, 
Markey, and myself, regarding the failure of All Children Matter, Inc. 
to pay Ohio $5.3 million in fines and late fees for violating the 
State's campaign finance laws. You never responded. Please explain why 
you did not respond.
    Answer 2a. A response letter, dated January 30, 2017 has been sent 
to the Senators. The responses to subparts A through F below reflect 
similar responses. Thank you for the opportunity to address certain 
issues relating to All Children Matter (ACM) in Ohio. At the outset, 
let me explain that:

    <bullet> ACM engaged voters participating in our democratic process 
to advocate for progressive improvements to education including the 
creation of the Jon Peterson Special Needs Scholarship Program that 
gives the parents of children with disabilities the choice to send 
their child to special education programs other than the one operated 
by their school district of residence to receive the education and the 
services outlined in their individualized education program (IEP);
    <bullet> ACM entities were fined by the Ohio Elections Commission 
for contributions that were made between the ACM entities;
    <bullet> It is my understanding that ACM sought to settle the 
matter in or around 2011, but Ohio authorities refused to settle;
    <bullet> An Ohio court upheld fines against the ACM entities, but 
also held that an officer of ACM was not liable for the fines in 
question;
    <bullet> I was an unpaid volunteer director for ACM, and I did not 
have day-to-day management responsibilities;
    <bullet> I was never a party to the legal proceedings;
    <bullet> In light of the Citizens United decision and its progeny, 
the regulations that gave rise to the fines may be unconstitutional; 
and
    <bullet> ACM PAC no longer exists.

    Question 2b. Please provide a detailed explanation of the decision 
to contribute more than the legally allowed amount from All Children 
Matter, Inc. to its Ohio affiliate that led to the record fine imposed 
by the Ohio Elections Commission and upheld by a State court. Include 
the names of all individuals involved in the decisionmaking process, 
the role of each individual in the organization, and copies of records 
related to your involvement throughout the process.
    Answer 2b. The events you reference took place between 9 and 11 
years ago. Although I was an ACM board member, I did not manage the 
daily activities nor make the decisions on a day-to-day basis. 
Therefore, I cannot provide specific details of any discussion or 
``detailed explanation'' that took place between 9 and 11 years ago. I 
do not have the documents requested in subpart a. It is my 
understanding that the ACM PAC formally ceased to exist January 6, 
2016.

    Question 2c. Please provide a detailed explanation of the decision 
to disregard the Ohio Elections Commission's advisory opinion stating 
that aggregate contributions of greater than $10,000 in a year to the 
Ohio affiliate would violate the law. Include the names of all 
individuals involved in the decisionmaking process, the role of each 
individual in the organization, and copies of records related to your 
involvement throughout the process.
    Answer 2c. In addition to the letter I sent you on January 30, 
2017, let me add this:

    The events you reference took place between 9 and 11 years ago. 
Although I was an ACM board member, I did not manage the daily 
activities nor make the decisions on a day-to-day basis. Therefore, I 
cannot provide specific details of any discussion or ``detailed 
explanation'' that took place. It is my understanding that the ACM PAC 
formally ceased to exist in January 2016.
    As a general matter, the interpretation and validity of 
restrictions on political expenditures have long been the subject of 
legal debate. In fact, considering the Citizens United decision and its 
progeny, the regulations that gave rise to the fines may be 
unconstitutional. A news article in the Columbus Dispatch dated July 
18, 2014 explained:

          Two years after the multimillion-dollar penalty was leveled 
        against All Children, the U.S. Supreme Court ruled in Citizens 
        United v. Federal Election Commission that the government 
        cannot restrict independent political expenditures by unions or 
        corporations.
          If the situation arose today, Brey [ACM's attorney] said, All 
        Children would not have to create PACs in Virginia and Ohio. 
        Rather, it could just allow for unlimited contributions for an 
        independent expenditure.
          ``The penalty is for doing something that Citizens United 
        later said they had a constitutional right to do,'' Brey said.
          As a result of procedural issues, ACM was unable to raise the 
        Constitutional arguments and resolve the permissibility of the 
        activity.

    Question 2d. Please provide a detailed explanation of the decision 
to not pay the fine imposed on All Children Matter, Inc. and its Ohio 
affiliate by the Ohio Elections Commission and later upheld by a State 
court. Include the names of all individuals involved in the 
decisionmaking process, the role of each individual in the 
organization, and copies of records related to your involvement 
throughout the process.
    Answer 2d. ACM PAC has ceased political activity and does not have 
funds either to resolve legal issues, or pay the fines that have been 
imposed.
    Your assertions that I should personally pay the fine or that I am 
using a ``legal loophole'' to avoid personally paying the fine are both 
incorrect and unfair. As you know, I was never a party to the lawsuit, 
and the trial court judge expressly ruled that an ACM officer could not 
be held personally liable for the fine. A Court's ruling is not a 
loophole.
    Ohio's Revised Code (ORC) sets the limits for contributions and the 
Secretary of State currently adjusts individual donation limits to a 
State political action committee in a calendar year. I am advised that 
the ORC would therefore preclude my personal payment of the fine, 
without subjecting myself and the ACM entities to additional fines 
under the Ohio interpretation of its law. See ORC 3517.102.

    Question 2e. Describe the organizational structure of All Children 
Matter, Inc. in 2006, 2007, and 2008. Include the number of employees, 
the leadership of the organization with decisionmaking authority, and 
your duties and authority as a board member and contributor.
    Answer 2e. During the period in question I was an unpaid volunteer 
director at ACM, and my duties were advisory in nature. I have and will 
continue to provide information and documents regarding myself in 
response to Senate inquiries ahead of my nomination. As you weigh my 
nomination, I understand and acknowledge your right to request 
information regarding my past activities but not those of others.

    Question 2f. Please provide copies of the articles of incorporation 
and bylaws of All Children Matter, Inc.
    Answer 2f. Please see the letter dated, January 30, 2017 sent to 
your office.

    Question 2g. Some prior tax filings for All Children Matter, Inc. 
list the organization's address as 201 Monroe Avenue NW, Suite 300, 
Grand Rapids, MI, 49503. List the individuals who worked at that 
location in 2006, 2007, and 2008.
    Answer 2g. As you weigh my nomination, I understand and acknowledge 
your right to request information regarding my past activities but not 
those of others.

    Question 2h. The year-end IRS form 8872 filings for All Children 
Matter, Inc. show the organization had little activity after 2009. In 
the years 2010, 2011, 2012, and 2014 the filings show no contributions 
and expenditures of only $1,111 in 2010 and $512 in 2011. However, in 
2013 there were contributions of $24,000 made by you and John Bryan 
($12,000 each). There were expenditures that year of $24,212 made to 
the Bopp Law Firm ($8,000) and Taft Stettinius & Hollister LLP 
($16,212) for legal fees. Similarly, in 2015, there were contributions 
of $20,000 made by you ($5,000), Richard DeVos, Jr. ($5,000), and 
William Oberndorf ($10,000). Shortly after those contributions were 
made to All Children Matter, the organization paid the Bopp Law Firm 
$20,000 for legal fees.
    Who was the client for the legal work done in 2013 by the Bopp Law 
Firm and Taft Stettinius & Hollister? If it was All Children Matter, 
Inc., what was the nature of the legal work for an organization that 
had been non-operational for several years? If the client was not All 
Children Matter, Inc., why was money funneled through the organization 
to pay the legal fees for a different client?
    Answer 2h. As previously indicated, it is my understanding that ACM 
sought to settle the matter, but Ohio authorities refused to settle. 
That time period was 2011 and subsequent years, and the legal fees paid 
in 2013 related to those legal costs, as I understand it.

    Question 2i. Who was the client for the legal work done in 2015 by 
the Bopp Law Firm? If it was All Children Matter, Inc., what was the 
nature of the legal work for an organization that had been non-
operational for several years? If the client was not All Children 
Matter, Inc., why was money funneled through the organization to pay 
the legal fees for a different client?
    Answer 2i. As previously indicated, an Ohio court upheld fines 
against the ACM entities, but also held that an officer of ACM was not 
liable for the fines in question. That period was 2013 and subsequent 
years, and the legal fees paid related to those legal costs, as I 
understand it.

    Question 3. In January 2016, Governor Snyder of Michigan signed a 
bill that included massive last minute changes that dramatically 
altered Michigan's campaign finance law. The changes suppressed 
education and information around ballot initiatives and bond measures 
and made it easier for corporations to deduct money for their own PACs 
from their employee's paychecks while at the same time prohibiting 
similar deductions on behalf of labor unions. You were a strong 
champion of this effort, which was designed to strengthen corporations 
at the cost of the voice of the working class. In thinking about our 
education, our schools must empower the voices of all kids, with a 
laser focus on increasing equity for those less advantaged. Your 
history in this example and with similar efforts shows a complete 
disregard for this value. If confirmed as Secretary, do you intend to 
promote policies that will actively weaken the capability of your 
opponents? How does that align with what we what to teach our children?
    Answer 3. I can assure you that I am a strong champion of children. 
If confirmed, I will advocate for policies that allow all parents, 
regardless of their socioeconomic status, the opportunity to select the 
best educational environment for their children.

    Question 4. Your money and advocacy helped create Michigan's 
charter school law. In that State 80 percent of charter schools are run 
by for-profit companies, compared to the national average for charter 
schools run by for-profit companies of 13 percent.
    A Detroit Free Press investigation found, ``wasteful spending and 
double-dipping. Board members, school founders and employees steering 
lucrative deals to themselves or insiders.''
    The largest for-profit charter school company, Heritage Academy, 
was found to charge 14 of its schools excess amounts in rent--in the 
amount of $1 million or more.
    Despite Michigan spending $1 billion a year on charters schools, 
basic information about these schools' spending like salaries and 
budgets are often hidden from public view. State Board of Education 
President John Austin, said,

          ``With many schools, we don't know where the money we're 
        spending now is going, who's getting rich, and at what price to 
        the taxpayer. And worst, we're not seeing good educational 
        outcomes.''

    The Department of Education has a budget of over $70 billion a 
year--how can we be sure you will not bring this record of profiteering 
and poor management to the Federal level?
    Answer 4. First, I believe our focus needs to be on serving 
students and expecting results. Systemic failure must not be tolerated.
    Second, I disagree with your characterization of charter schools in 
Michigan. Let's start with a few facts: Detroit charters outperform 
their traditional counterparts on the M-STEP, Michigan's State tests; 
and, charter students in Michigan gain an additional 2 months of 
learning in reading and math over their traditional public school 
peers. In Detroit, it's 3 months.
    A lot has been said about Detroit in the past several weeks. Here's 
some context: in 1993, around 20 percent of all individuals in Detroit 
over the age of 25 did not have a high school diploma; African American 
high school-aged males had a dropout rate of close to 45 percent; and, 
according to a study by the National Institute for Literacy, 47 percent 
of all individuals in Detroit were functionally illiterate despite 
annual expenditures by DPS of nearly a billion dollars. Over the last 
two decades, anyone who could has moved outside the city to escape a 
failed system. For generations, DPS continually failed its students. As 
a result, nearly half of the adult population of Detroit is illiterate. 
These statistics are unacceptable.
    As for my role, I could not watch the devastation any longer and 
helped to bring change in the way of educational options to families 
because the traditional public schools were not getting the job done. 
While it is true that not all charters have been successful, those that 
have not done well have been closed. The same cannot be said for public 
schools.
    For the record, let's note that less than 50 percent of charter 
public schools in Michigan are managed by for-profit companies, and 
these are among the highest performing charters in the State. And, over 
90 percent of charter management companies operating in Michigan are 
small, in-State businesses.

    Question 5. It is no secret that your family has given tens of 
millions of dollars to shape education policy in Michigan and 
throughout the Nation. You have helped craft the original charter 
school law in Michigan and you have fought every attempt to increase 
accountability on these schools.
    According to the Center for Educational Research on Education 
Outcomes (CREDO), 80 percent of charter schools in Michigan perform 
below the State average in math and reading. Michigan's State test 
found that in the 2013-14 school year nearly half of all charter 
schools rated by the State ranked in the bottom quarter of all schools 
in the States--meaning 75 percent of all schools in the State performed 
better. Michigan's charter schools have been described by advocates of 
quality charter schools like the Executive Direct of the Education 
Trust-Midwest, Amber Arellano, as ``a national embarrassment,'' and 
your efforts have been characterized as the ``triumph of ideology over 
evidence.''
    By any measure, your efforts to expand charter schools and fight 
real accountability have been a failure. Is it your intention to 
continue these failed efforts on the Federal level as Secretary of 
Education?
    How do you expect us to promote someone to the top education job in 
the Nation with this kind of track record?
    Answer 5. As I said during my confirmation hearing, I support 
accountability for all schools. In your question, you suggest 
otherwise--which could not be farther from the truth--and referenced 
legislation in Michigan. Here is the background. Critics of parental 
choice sought to limit options for families and called that 
accountability. Their real effort was to create a new layer of 
bureaucracy--an eight-person unelected mayoral appointed board that 
sought to limit the growth of charters and dictate their operations. 
This legislation, which was supported by the unions, would have 
hamstrung charter schools and kept many failing public schools open at 
the expense of vulnerable students. I joined with parents and other 
reformers to oppose this scheme, which undermined the good work of so 
many charters. Instead, I supported legislation--now law--that imposed 
the same accountability on all schools. Parents need and deserve to 
know how their children are performing. Any and all obstacles to good 
information should be removed.

    Question 6. Researcher and charter school expert, Doug Harris, has 
said that,

          ``As one of the architects of Detroit's charter school 
        system, [you are] partly responsible for what even charter 
        advocates acknowledge is the biggest school reform disaster in 
        the country.''

    Of the 159 traditional public and charter schools in Detroit--only 
three schools perform above the State average in reading or math. 
Charters were supposed to dramatically increase student achievement but 
perform about the same as the Detroit Public Schools in reading and 
math despite charters serving a much smaller percentage of students 
with disabilities.
    It defies logic than that you and your family spent $1.45 million 
in 7 weeks to kill a bipartisan reform package to increase 
accountability for all of Detroit schools--public and charter. It's 
what the Detroit Free Press Editorial Page called,

        ``a filthy, monied kiss to the charter school industry at the 
        expense of kids who've been victimized by those schools' 
        unaccountable inconsistency.''

    Given your record of ideology over evidence, how can we entrust 
that you will put what is best for kids and communities over ideology 
as the top education official in our Nation?
    Answer 6. I disagree with your characterization of Michigan charter 
schools. Charter students in Michigan gain an additional 2 months of 
learning in reading and math over their traditional public school 
peers. In Detroit, the gain is 3 months. As for the legislation you 
referenced, I opposed the bill that would have added an additional 
layer of bureaucracy and given the city's traditional schools a free 
pass on accountability. I advocated for a different bill--now law--that 
provided uniform and tough accountability measures for all schools, not 
just charter schools in Detroit. Because of my support and that of many 
others, for the first time in State history, both charter schools and 
traditional public schools are now subject to mandatory State closure 
or restructuring if they do not demonstrate results.

    Question 7. Your advocacy for for-profit schools is well-
documented. The terrible outcomes for an unacceptable number of 
children enrolled in for-profit schools, whether it is a brick-and-
mortar for-profit school or for-profit online school, is also well-
documented.
    The results of for-profit online public schools are the most 
egregious. A 2015 report by the Center for Educational Research on 
Education Outcomes (CREDO) on online charter schools found that they 
have an overall negative impact on student learning growth. These 
schools are so terrible that children are losing nearly half a year of 
learning in reading and a full year's worth of learning in math.
    Yet the education ``advocacy'' organizations you run, like the 
American Federation for Children, promote online schools, and you have 
been an investor in K-12 Inc., the largest operator of online for-
profit schools in the Nation. K-12 Inc. is notorious for its rank 
profiteering at the expense of kids and taxpayers.
    Just last year, K-12 Inc. lined the pockets of its executives to 
the tune of $16 million for the top six executives while posting 
terrible academic outcomes like a 37 percent graduation rate at its 
Ohio Virtual Academy. On top of these poor outcomes, over 80 percent of 
K-12 Inc.'s revenue comes from taxpayers.
    As someone who openly declared in an op-ed in the Grand Rapids 
Press that ``student achievement is the bottom line,'' how can you 
justify the abysmal education these online companies provide, or is 
this simply a means of generating obscene profits?
    Answer 7. I believe all schools must be accountable to the parents 
and communities they serve. Schools must be transparent about their 
performance with all students so that parents can make informed 
decisions about what is best for their children. If confirmed, I look 
forward to discussing with this committee ways to expand educational 
freedom for parents and the information parents need to meaningfully 
exercise those freedoms.
    To be clear, I support quality schools regardless of governance or 
delivery model, and my approach to failing schools is the same.

    Question 8. Republicans have long been proponents of local control 
in education. In fact, the 2016 Republican Platform speaks to this 
belief saying that local control in education is in fact fading, ``as 
centralizing factors outside of the family and community have sought to 
remark education in order to remake America.''
    As someone who ran an education-focused Political Action Committee 
that has spent over $5 million nationwide since 2010 alone to push 
private school vouchers, and who founded the Great Lakes Education 
Project PAC which has spent $2.1 million solely to influence Michigan 
education policy since the year 2001, do you think you have played a 
contributing role of moving education decisionmaking from the family 
and community to the centralized control of wealthy plutocrats?
    Answer 8. No.

    Question 9. Would you say this centralization of control by 
billionaires is a key Republican value? Is it fair to communities? Is 
it healthy for our democracy?
    Answer 9. To your first question, no. To your subsequent questions, 
I don't accept your premise.
    I trust parents to make decisions about the education of their 
children.

    Question 10. Throughout your life you have used your family's 
fortune to privatize public education in the form of for-profit charter 
schools and taxpayer-funded vouchers for private school.
    In the year 2000, you and your family spent $4.5 million to 
bankroll a failed initiative in Michigan to provide for publicly funded 
private school vouchers.
    You helped create Michigan's charter school law, where today 80 
percent of charter schools are run by for-profit corporations.
    In order to create hostility toward the public school system your 
husband encouraged conservatives to call our public schools 
``government schools.''
    In a 2015 speech you said the ``government really sucks.'' And in a 
February 2016 op-ed, you said ``we need to retire the Detroit Public 
Schools.''
    Given your record of hostility toward public education, how can we 
count on you to support the 90 percent of children in this Nation that 
attend public schools?
    Answer 10. I believe you are referring to a speech I gave at SXSW 
last year where I talked about six inconvenient truths. What I said--
and what I continue to believe--is that too often government approaches 
problems from the top down with a one-size-fits-all solution. I prefer 
solutions developed at the grassroots level. As I said during my 
committee testimony, I fully support public education and will be an 
advocate for great schools in all forms.

    Question 11. Climate change is the single greatest threat facing 
our planet and the scientific jury is in--it is caused by human 
activity.
    You and your family have given nearly $5 million to the Acton 
Institute that battles against environmental regulation. This group 
pushes the belief that climate change is a hoax and has marketed this 
idea through their DVD titled ``Resisting the Green Dragon.''
    Do you believe that climate change is real and caused by human 
activity? Do you believe that children should be taught climate science 
in our schools?
    How can we be sure you have a firm commitment to children if you 
fund groups like Acton that fight the right for children to inhabit a 
healthy planet?
    Answer 11. The Department of Education is prohibited from dictating 
curricula in our Nation's schools. If confirmed, I would respectfully 
defer to my colleagues in other agencies, like the Department of 
Energy, on the issue of climate change.

    Question 12. I am hearing concerns nationally and in Vermont about 
your support for taxpayer-funded private school vouchers and their 
impact on students with disabilities.
    Heather Lanier, of Bennington, VT, wrote to me with this very 
concern.

          ``Having a nonverbal daughter with disabilities, I was 
        initially very nervous about sending my child to kindergarten. 
        But my child's full inclusion in a typical classroom, along 
        with the extensive supportive services she receives, has made 
        me want to sing the National Anthem.''
          ``So I was very distraught to learn that Betsy DeVos is 
        Trump's Secretary of ED nominee. She believes in school 
        privatization and vouchers. She believes in channeling 
        taxpayers' dollars into private schools, which as you know are 
        exempt from having to provide services to kids like my 
        daughter. The marketplace solution of DeVos will destroy our 
        democratically governed community schools, let alone the 
        Nation's special education services. DeVos' hostility toward 
        public schools disqualifies her.''

    What do you have to say to allay the concerns of those parents like 
my constituent Heather?
    Answer 12. I believe that all students, including students with 
disabilities, deserve an equal opportunity to lead full, productive and 
successful lives. To that end, I am committed to supporting the 
remarkable parents and educators who make this vision a reality for 
students with disabilities in States and communities in Vermont and 
across our great Nation. If confirmed, I will bring a sense of urgency 
around all of these issues: implementation and enforcement of IDEA at 
Federal, State and local levels, improving the quality of IEPs, and 
expanding the conversation about school choice opportunities for 
parents of students with disabilities. To me, IDEA is a wonderful 
example of what happens when parents are regarded as full partners in 
their child's educational decisionmaking.

    Question 13. You have been called the four-star general of the pro-
voucher movement--the movement to use taxpayer dollars to pay for 
private and religious schools.
    The countries of Finland and Sweden have taken two different 
approaches to education. Finland focuses on whole child development 
rather than teaching to the test, treats their teachers like 
professionals and compensates them well, and did not privatize its 
public education system through taxpayer-funded vouchers. 
Internationally, Finland is consistently a top performer on the 
Programme for International Student Assessment or PISA, consistently 
scoring well above the OECD average in math and reading. Sweden on the 
other hand, widely implemented vouchers in the 1990s and saw its PISA 
scores plummet since the year 2000 by over 25 points. The difference 
could not be clearer, today Sweden performs at about the OECD average 
while Finland performs at least 20 points higher than the average.
    Given these results do you still think it is a good idea to spend 
$20 billion--an amount $5 billion larger than Title I of ESEA--to 
privatize public education through vouchers?
    Answer 13. The initiative proposed by the President during the 
campaign is a voluntary program in which interested States offer a 
range of educational options to low income families. I look forward to 
working with the President and Congress to support and improve public 
schools and increase high quality educational options.

    Question 14. In your opening statement you said ``we are blessed 
beyond measure with educators that pour themselves into students,'' yet 
you and your family have spent hundreds of thousands of dollars to 
pressure the Michigan legislature to dismantle collective bargaining 
for workers in your home State. Additionally, according to the 
Washington Post and other news outlets, you failed to include a 
$125,000 donation to an anti-collective bargaining group on the 
disclosures you submitted to this committee.
    After teachers in Detroit protested poor working conditions you 
proposed slashing their retirement, dismantling proper certification, 
and prohibiting the use of using sick days to protest poor teaching and 
learning conditions in Detroit.
    In Michigan, where you were the architect of the State's charter 
law, teachers in charter schools make about $20,000 less a year than 
their traditional public school counter parts.
    Given that teachers are the most important in-school factor that 
impacts student learning and that teachers' working conditions directly 
affect students' learning conditions, how can you justify your attacks 
on teachers' ability to earn a living wage?
    Answer 14. For the record, I have never attacked a teacher's 
ability to earn a living wage. And, if confirmed, I will continue to 
support great teachers. On a separate note, the Department of Education 
does not have any jurisdiction over salaries for our country's 
educators so I would defer to States and local school districts on how 
best to compensate teachers.

    Question 15. I worry that, given your record of supporting 
privatization of education in many forms, you may be seeking to 
privatize our Federal student loan program.
    The Heritage Foundation, to which you and your family have donated 
over $13 million, has called for eliminating the Federal PLUS loan 
program, the only Federal loan program for parents, and for putting 
Wall Street in charge of deciding who is worthy of higher education.
    You are also an investor in a company that stands to profit from 
siphoning off loans from the Federal loan program.
    Goldman Sachs, the Wall Street firm that the President-elect has 
populated his cabinet with, has made it clear that it has eyes on $150 
billion of Federal student loans that it would like to profit from.
    I have a very simple question about your priorities. Do you commit 
that you will oppose any action that further enriches Wall Street and 
private banks at the expense of our student loan program? Yes or no?
    Answer 15. If confirmed, I will commit to doing everything I can to 
make college more accessible and affordable for all our students and I 
look forward to working with you during the reauthorization of the 
Higher Education Act to further this commitment.

    Question 16. Concerns have been raised about your family's 
derivative financial interest in the success of Social Finance, 
Incorporated (more commonly known as ``SoFi,'' the student loan 
company). Will you and your family divest from any and all business and 
philanthropic interests that could benefit directly or indirectly from 
your potential position at the U.S. Department of Education?
    Answer 16. Social Finance is a holding that has already been 
divested. Additionally, I will comply with all the requirements of the 
Office of Government Ethics and the Ethics Office at the Department of 
Education. Please see my Senate Committee on Health, Education, Labor, 
and Pensions form and my OGE form, which was completed Thursday, 
January 19, 2017.

    Question 17. I am deeply troubled by you and your family's anti-
LGBT activity and giving. Children in this Nation regardless of their 
sexual orientation or gender identity deserve a right to a high-quality 
education. Likewise, children who have LGBT parents also deserve to be 
treated with dignity and respect.
    In 2004, Republicans led the charge to turn out voters based on 
hate by putting on the ballot constitutional amendments to ban same-sex 
marriage in the States. As chair of the Michigan Republican party that 
year you helped lead the charge declaring,

          ``Republicans support traditional marriage. We support 
        marriage between one man and one woman because that is the way 
        God set it up and because children need a mother and a father 
        to love and care for them.''

    You and your husband then spent $200,000 to help ensure Michigan 
would amend its State constitution to discriminate against gays and 
lesbians. It worked. Thanks to your advocacy and money, Michigan banned 
same-sex marriage that year. Ten other States also put in place these 
disgraceful bans.
    You and your family have donated to anti-LGBT groups and causes. 
Since at least 2001, you have sat on the board of the Edgar and Elsa 
Prince foundation which has contributed at least $6.1 million to the 
Family Research Council (FRC), an entity the Southern Poverty Law 
Center labels a hate group. The FRC has called for criminal sanctions 
for being gay, advocates for allowing businesses to discriminate bases 
on sexual orientation, supports State and Federal bans on same sex-
marriage, and called giving transgender individuals legal rights and 
protections a ``threat to public safety of women and children.''
    In fact, in December the group called for rolling back civil rights 
protections for LGBT Americans put in place by the Obama 
administration, including the Department of Education's protections for 
transgender students.
    Additionally, your family has given over $6.7 million to Focus on 
the Family, a group that pushes the fraudulent and dangerous conversion 
therapy--the belief that gays and lesbians can change their orientation 
to straight. Mainstream medical and health organizations have 
discredited this practice decades ago. Further, the American people do 
not support such a barbaric practice.
    You and your family have donated to anti-LGBT politicians like 
former Governor Pat McCory of North Carolina and Andrea LaFonatine, the 
sponsor of a Michigan bill that allows adoption agencies to 
discriminate against gay and lesbian people.
    The Secretary of Education is in charge of enforcing the civil 
rights of all students including LGBT students. Given your track record 
how can we be sure that you will enforce civil rights protections for 
LGBT students? Do you plan on keeping in place the Department of 
Education's guidance for schools for transgender students? Do you plan 
on keeping the Office of Civil Rights at the Department of Education 
and requesting at a minimum its current funding level?
    Will you urge all Members of Congress to pass the Student Non-
Discrimination Act and Safe Schools Improvement Act to protect all 
students from discrimination and bullying?
    Answer 17. I believe that all students should have a safe and 
supportive learning environment free from discrimination.
    To be clear, I have never served as an officer or director of the 
Elsa and Edgar Prince Foundation, nor have I made any decisions for 
that Foundation's contributions.

    Question 18. President Obama increased accountability on for-profit 
colleges and rightfully so.
    For-profit colleges enroll only 10 percent of all students but 
account for nearly 30 percent of student loan borrowers, and 35 percent 
of all defaults.
    One of the protections put in place is the gainful employment rule 
which ensures that students get a quality education that allows them to 
get a job that pays enough for them to reasonably pay down their 
student loan debt. Last week, of all the schools subject to this 
regulation--98 percent of those in violation were for-profit schools, 
and the biggest culprits were the mammoth, for-profit, publicly traded 
chains like the Education Management Corporation. After Trump's 
election the stocks of many for-profit college chains soared.
    If confirmed, do you plan on keeping this regulation in place or 
rolling it back to enrich your billionaire friends?
    Answer 18. I believe all institutions of higher education 
participating in the title IV programs should provide value to students 
and taxpayers alike. There are many tools to provide information to 
students, parents, and the public and if confirmed, I look forward to 
working with Congress to reform the Higher Education Act in a way that 
will allow all institutions to appropriately demonstrate their value to 
students and the public. Regarding the gainful employment regulations, 
the Department has had significant implementation issues, including 
questions as to the accuracy of the data originally reported, the 
designing of a system that would allow schools to challenge incorrect 
data, and providing the necessary technical assistance required. The 
last thing any of us want is to unnecessarily close important 
programs--putting students on the street with limited or no other 
options. As President Trump has directed, we will review and assess all 
regulations and make determinations once that review is complete.

    Question 19. 1 have introduced legislation to make public colleges 
and universities tuition- and fee-free.
    At a time when tuition and fees have nearly quadrupled since the 
1980s and student loan debt stands at $1.3 trillion--this is an 
imminently reasonable proposal. In fact, President-elect Trump said he 
``would lower the cost of college'' and ``make 2- and 4-year colleges 
affordable.''
    In your home State of Michigan, tuition at in-State colleges and 
universities has been eliminated for all children of the Kalamazzo 
public schools--regardless of income--through the generosity of an 
anonymous donor. States like Oregon and Tennessee have eliminated 
tuition and fees at community colleges. New York just announced that it 
will eliminate tuition and fees at 4-year public schools.
    At a time when getting a higher education is one of the strongest 
paths to the middle class, don't you think it is time that we eliminate 
tuition and fees at public colleges and universities? If confirmed, 
will your Department of Education join me in putting forth a plan in 
your budget to eliminate tuition and fees at public 4-year schools?
    Answer 19. If confirmed, I look forward to working with you, the 
committee and other stakeholders about ways to make college more 
affordable and accessible in the context of the Higher Education Act 
reauthorization.

    Question 20. At a time when 40 million Americans have over $1.3 
trillion in student loan debt, and the Federal Government makes a 
profit off of the student loan program, the least we can do is allow 
borrowers to refinance their debt at lower interest rates. It makes no 
sense that in this country that you can refinance your car loan or home 
mortgage to low rates but you cannot refinance your student loans to 
lower interest rates. I have introduced legislation that allows 
borrowers to refinance their loans to dramatically lower interest rates 
than what many current Federal borrowers now have. Do you support 
giving borrowers much-needed relief by allowing them to refinance their 
loans to the interest rates provided in my bill?
    Answer 20. I am very concerned about the level of student debt in 
this country. If confirmed, I look forward to talking with you, the 
committee and other stakeholders about how best to tackle this problem 
in the context of the Higher Education Act reauthorization.

    Question 21. You have had investments in Social Financial, a 
company that allows high-income earners to refinance their private and 
Federal student loans. Do you support plans to allow all Federal 
student loan borrowers to refinance their loans to lower interest rates 
offered by the Federal Government? Or do you think the wealthy should 
be the only ones that have access to the ability to refinance their 
loans?
    Answer 21. The issue of loan refinancing has been a topic of 
conversation for the past several years. If confirmed, I look forward 
to discussing whether loan refinancing is the best use of taxpayer 
resources as you and your colleagues move forward with the 
reauthorization of the Higher Education Act.

    Question 22. The College for All Act also lowers interest rates for 
new borrowers by restoring an interest rate structure that was in place 
under Presidents Clinton and George W. Bush. Do you support lowering 
Federal student loan interest rates for new borrowers? If not, why not?
    Answer 22. As you know, the Higher Education Act (HEA) is due for 
reform and I know Congress joins me in its eagerness to move forward 
with the rewrite. In fact, the House and Senate, combined, have already 
held over two dozen hearings on many important issues. I look forward 
to engaging in a robust discussion, if confirmed, on this issue--and 
others--as you move forward with the reauthorization of the HEA.

    Question 23. In your testimony you said,

          ``For too long a college degree has been pushed as the only 
        avenue for a better life. The old fashioned brick-mortar-and-
        ivy model is not the only one that will lead to a prosperous 
        future.''

    While we must support high-quality avenues for higher education or 
skill training, we must not foreclose on the opportunity to earn a 4-
year degree due to one's economic circumstances. The New York Times 
recently reported that the so called ``brick-mortar-and-ivy'' schools 
you mentioned serve a disproportionate share of students from the 1 
percent. In fact, the article found that one in four children from the 
Nation's richest families attend an ``elite college'' while only one-
half of 1 percent of children from the bottom fifth of the economic 
ladder attend an ``elite college.'' More than half of children at the 
bottom fifth of the economic ladder did not enroll in college at all. 
Is it your intention as Education Secretary to keep these so called 
``elite colleges'' as havens for the wealthy? If not, what are your 
plans to increase college affordability, support, and access for those 
Americans that are not children of the 1 percent?
    Answer 23. I believe the question of college affordability and 
accessibility are vital to the success of our country. To accomplish 
these goals, the Federal Government must work in concert with States, 
institutions of higher learning, and families. As Congress reauthorizes 
the Higher Education Act, I look forward, if confirmed, to working with 
you and the committee to ensure that all students have access to 
affordable post-secondary educational options.

    Question 24. You have said we must ``embrace new pathways of 
learning'' when it comes to higher education. I fear that these ``new 
pathways of learning'' will reflect your advocacy for online learning 
for children and your past investments in the largest provider of for-
profit online schools, K-12 Inc., which has had terrible results for 
children at the taxpayer's expense. Can you please explain the criteria 
of quality and protections for students you would expect in these ``new 
pathways of learning'' in higher education?
    Answer 24. I believe innovation is vital to meeting the needs of 
America's future college students. One of those innovations could be 
exploring new models of teaching, which maybe exciting for teachers and 
students. If confirmed, I would hold these new methods accountable in a 
similar way to the more traditional modes of teaching.

    Question 25. Veterans deserve a high-quality higher education. A 
recent analysis from the Department of Education found that if the 
post-9/11 GI benefits were counted as Federal financial aid under the 
current 90/10 rule, almost 200 for-profit institutions would be in 
violation up from the 17 who currently violate the rule through title 
IV aid only. I am a cosponsor of Senator Durbin's POST (Protecting Our 
Students and Taxpayers) Act of 2015, which would target this loophole 
that incentivizes for-profits to prey on veterans. The POST Act would 
also change the current 90/10 rule for for-profit colleges to an 85/15 
rule. This would ensure that at least 15 percent of revenue from for-
profit higher education institutions would have to be from sources 
other than title IV Federal student aid and military personnel and 
veterans benefits.
    Do you support including veteran's benefits in the calculation of 
allowable Federal revenue that can flow to for-profit colleges and 
universities? Do you support an 85/15 rule, where only up to 85 percent 
of a for-profit's revenue can be from veteran's benefits and title IV 
aid, as a way to protect veteran's access to quality higher education?
    Answer 25. The Higher Education Act (HEA) currently defines what 
should be counted as part of the 90/I0 rule. If confirmed, I look 
forward to engaging in this discussion as part of the reauthorization 
of the HEA.

    Question 26. Managing student loan debt can be challenging for all 
Americans. It is imperative that all students have access to reliable 
information to payback their loans, especially servicemembers and 
veterans who have put their lives on the line. The Consumer Financial 
Protection Bureau (CFPB) found that many servicemembers--who have an 
average student loan debt of over $25,000--rely on loan servicers for 
information about managing student debt, but are not receiving the best 
information regarding loan repayment plans, deferment, and forbearance. 
How will you hold student loan servicers accountable to ensure they are 
providing servicemembers and veterans with accurate information 
regarding the best ways to manage their student loan debt?
    Answer 26. If confirmed, I will strive to do a better job than the 
previous administration at managing all the Department's contractors 
and will ensure they follow all the appropriate consumer protection 
laws as those laws were written and work to ensure students are being 
made aware of their repayment options. I look forward to working with 
you, during the reauthorization of Higher Education Act, to give 
certainty to borrowers about their loan repayment options.

    Question 27. Grand Rapids, MI had a branch of the now-defunct 
Corinthian Colleges that enrolled nearly 1,000 students and took in 
$6.7 million in Federal money in 2014 alone. Do you believe that these 
former students should pay for what the industry admits were 
``mistakes?''
    Answer 27. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws.

    Question 28. In 1973, the Pell Grant covered more than 75 percent 
of the total cost of college at a 4-year public institution. Today, the 
Pell Grant covers just over 35 percent of the expense of that same 
education. What are your plans to increase funding for the Pell Grant 
program so it can once again give low and moderate income students a 
path to college without crushing student loan debt?
    Answer 28. If confirmed as Secretary, I look forward to working 
with you and other members of the HELP Committee to find ways that we 
can strengthen the Pell Grant program while ensuring it is flexible 
enough to meet the needs of today's students during the reauthorization 
of the Higher Education Act. I will also look closely at the budget of 
the Department of Education to determine the best allocation of 
taxpayer dollars to programs, including the Pell Grant program, when 
making a proposed budget for future fiscal years.

    Question 29. Last year, I joined Senator Schatz to introduce the 
Restoring Education and Learning (REAL) Act, which would restore the 
ability of prisoners to receive Pell Grants by reversing the disastrous 
decision made by Congress in 1994 that robbed incarcerated individuals 
from a chance of rehabilitation. We know that in order for incarcerated 
individuals to thrive when they reenter society they need a quality 
education so they can secure a good paying job. Do you believe that 
individuals who are incarcerated should have access to a higher 
education? Will you join Senator Schatz and me in the push to restore 
eligibility for higher education aid to incarcerated individuals hoping 
to get a higher education?
    Answer 29. The Higher Education Act (HEA) prohibits Pell funds from 
going to specific incarcerated individuals. I am aware that 
experimental sites are underway and, if confirmed, I'll be interested 
in knowing what has been learned from those sites. I look forward to 
engaging with you on this issue and expect that it will also be 
discussed in the course of the HEA reauthorization.

    Question 30. The Supplemental Educational Opportunity Grant (SEOG) 
provides funding to institutions to grant additional aid to the 
neediest students. Do you commit to maintaining the SEOG program? Do 
you have any plans of expanding funding for this ``skin-in-the-game'' 
program?
    Answer 30. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Supplemental Educational Opportunity 
Grant program, when making a proposed budget for future fiscal years. 
Furthermore, I look forward to working with you and members of the HELP 
Committee as we seek to make college more affordable for all students 
during the reauthorization of the Higher Education Act.

    Question 31. Tuition has continued to skyrocket, especially when 
States have slashed their funding for higher education. Per-student 
funding is down 18 percent from before the recession. What would you 
propose that we do to help States reinvest in students?
    Answer 31. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education is affordable. If confirmed, I would work with 
States to ensure they are holding up their end of the bargain

    Question 32. The Government Accountability Office has found that 
public colleges are receiving more funding from tuition than from their 
own State coffers. In Michigan, were you or the organization you funded 
and created--the Great Lakes Education Project--ever involved in 
efforts to urge the State to increase funding or support for public 
institutions of higher education? If so, please provide evidence. If 
not, please explain why not.
    Answer 32. The Great Lakes Education Project (GLEP) was, to the 
best of my knowledge, during the time I was previously affiliated with 
it, focused solely on K-12 education issues. It is also my 
understanding that GLEP has advocated for an increase in funding for 
public schools.

    Question 33. Thanks to our work in Congress and the Obama 
administration the Pell Grant has grown in value by over $1,000 since 
President Obama took office. The 2017-18 term is the last school year 
that the Pell Grant award will be increased according to inflation. Do 
you commit to putting forth a budget that ensures at the very least 
that the Pell Grant's value does not erode due to yearly inflation?
    Answer 33. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Pell Grant program, when making a 
proposed budget for future fiscal years. Furthermore, I look forward to 
working with you and members of the HELP Committee as we seek to make 
college more affordable for all students during the reauthorization of 
the Higher Education Act.

    Question 34. The Work Study Program reaches nearly 700,000 students 
with an average yearly award of about $1,670. Because college cost are 
so high, I have proposed tripling the size of this program and making 
it more equitable so it reaches colleges that serve the neediest 
students. What are your plans for the Work Study Program? Do you plan 
on increasing funding to this vital program?
    Answer 34. if confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Work Study program, when making a 
proposed budget for future fiscal years. Furthermore, I look forward to 
working with you and members of the HELP Committee as we seek to make 
college more affordable and accessible for all students during the 
reauthorization of the Higher Education Act.

    Question 35. At a time when over 40 million Americans have over 
$1.3 trillion in student loan debt we should be protecting the tools we 
have in place to help these students. One of these tools is our Income-
Driven Repayment (IDR) Plans, the most generous of which allows 
students to pay 10 percent of discretionary income and receive 
forgiveness after 20 years of on-time payments.
    Do you promise to not weaken these IDR plans by increasing the 
amount that students must pay a month, extending repayment terms, or 
capping the amount of loan debt that can be forgiven after the 
requisite amount of on-time payments?
    Answer 35. One of President Trump's campaign promises was to put 
forward an income-driven repayment plan that capped borrowers' monthly 
payments at 12.5 percent of their discretionary income and provided 
forgiveness after 15 years of on-time payments. If confirmed, I look 
forward to working with Congress through the Higher Education Act 
reauthorization to make that campaign pledge a reality.

    Question 36. In 2007, I was proud to help create the Public Service 
Loan Forgiveness (PSLF), which encourages Americans to go into vital 
public service fields without fearing that they will be buried under 
crushing student loan debt.
    PSLF allows qualifying borrowers that have made 10 years' worth of 
payments to have their remaining student loan debt forgiven. For almost 
a decade Americans have made decisions about getting a higher education 
and choosing a career in public service because of this program. In 
fact, the first borrowers will become eligible for forgiveness in less 
than a year and more than half a million have already voluntarily 
certified themselves as eligible for benefits, with an estimated four 
million Americans eligible for PSLF.
    If confirmed as Education Secretary, do you commit to protecting 
PSLF from cuts or curtailment? What are your plans to make young 
Americans thinking about a career in public service aware of this 
program?
    Answer 36. If confirmed, I look forward to discussing this issue--
among others with you and your colleagues as you move forward with the 
reauthorization of the Higher Education Act.

    Question 37. A December report by the Government Accountability 
Office (GAO) found that in fiscal year 2015, 114,000 older borrowers 
had their Social Security earnings garnished to pay their student loan 
debt, with 58 percent of borrowers 65 years or older subject to Social 
Security garnishment living below the poverty line. At a time when many 
Americans cannot save a dime for retirement, I have been vocal that we 
should not be making any cuts to Social Security. Plunging older 
Americans into poverty in order to collect on student loan debt is 
deeply troubling to me. Do you believe it is appropriate that this is 
happening on the wealthiest country on Earth? What do you think the 
Department of Education and Department of Treasury should do to fix 
this problem?
    Answer 37. I think we can all agree that the growing amount of 
student debt in America is a serious challenge. And the solutions to 
the problem of growing student debt should be multifaceted. I believe 
that one of the best ways to tackle the student debt issue is to ensure 
that students are able to get jobs after they complete their post-
secondary program. President Trump has spoken extensively about his 
plans to put Americans back to work and boost the Nation's stagnant 
economy and I am confident that a revitalized workforce will help 
ensure that graduates get jobs after they complete their schooling.
    We also need to simplify and streamline the repayment options 
offered to borrowers and ensure that they receive clear information 
about the different plans. While on the campaign trail, President Trump 
spoke about his plan to streamline the income-driven repayment plans 
into one plan that will cap a borrower's monthly payment at 12.5 
percent of his or her discretionary income, and ensure a borrower has 
relief from his or her loan after 15 years of payment.
    If confirmed, I look forward to working on all of these issues as 
the committee begins the process of reauthorizing the Higher Education 
Act.

    Question 38. This same GAO report also found that many older 
borrowers with loans in offset may be eligible for Total and Permanent 
Disability Discharge, but have not applied. If confirmed as Secretary 
of Education, how would you ensure that older Americans with Federal 
student loans receive timely and plain English information regarding 
eligibility and application requirements for TPD Discharge that they 
may be entitled to?
    Answer 38. If confirmed, I plan to review all facets of the 
Department of Education, including how individuals are informed of the 
benefits of the Federal student aid programs afforded to them. Should 
this review result in a finding that individuals are not receiving the 
information, I will take steps to rectify the situation.

    Question 39. Borrowers who get their loans forgiven due to death or 
total and permanent disability still face a tax penalty. Bipartisan 
legislation has been introduced to put an end to this practice. Do you 
support ending the tax penalty for loans forgiven due to death or total 
and permanent disability? If so, will you include this in the 
Department's Budget Request?
    Answer 39. I share your concerns about this issue. I think that 
when an individual dies, the last thing they and their survivors should 
be worried about is a bill from the Government. Chairman Hatch has 
publicly stated that tax reform is a top priority of the Senate Finance 
Committee and, if confirmed, I look forward to working with him and 
other Members of Congress to address the need for reform of the tax 
code.

    Question 40. If the 115th Congress takes up the reauthorization of 
the Higher Education Act, what level of student loan relief should be 
available for teachers teaching in underserved schools, including 
teachers of the well-rounded subject areas?
    Answer 40. The Higher Education Act currently provides certain 
teachers with opportunities for loan forgiveness. If confirmed, I look 
forward to reviewing the effectiveness of these programs and engaging 
in a conversation with you--and your colleagues--about the best ways to 
incentivize teachers to serve in underserved schools.

    Question 41. Contingent or non-tenure-track faculty now make up 
more than 50 percent of all faculty appointments. Many of these faculty 
are part-time, are paid low compensation per course, receive no health 
or retirement benefits, and often commute across various campuses to 
cobble together a livable salary. I am concerned about these dire 
working conditions for the faculty in our community colleges and 
universities, and the implications they have for student learning and 
success. That is why my College for All legislation would, in addition 
to making public colleges and universities tuition and fee-free, 
require institutions to dramatically increase their full-time, tenure-
track faculty workforce.
    Do you agree with me that colleges and universities are becoming 
overly reliant on a contingent instructional workforce? If confirmed, 
what specific steps would you take to reduce the reliance on contingent 
and non-tenure-track faculty?
    Answer 41. If confirmed, I would welcome the opportunity to share 
data and good research from the Department of Education with leaders of 
institutions of higher education looking for improvements. I do not 
believe that it is the role of the Secretary of Education to tell 
institutions of higher education how to run their campuses, or whom to 
hire, but I can encourage these institutional leaders to think outside 
the box and innovate, looking for new solutions to educational 
problems.

    Question 42. Native American leaders have sought to govern their 
own people for more than two centuries. In 1975, President Ford signed 
the Indian Self Determination and Educational Assistance Act into law, 
allowing tribes to take control over education for their people. 
Consistent with that law, which remains in effect today, would you 
support providing deference to tribes who wish to keep Indian schools 
tribally controlled?
    Answer 42. Yes. And, if confirmed, I look forward to sitting down 
with Native American leaders to gain a better understanding of the 
needs of our Native American communities.

    Question 43. Vermont has a great high-school graduate rate of 88 
percent--which is higher than the national average of 82 percent--but 
only 53 percent of students enroll in college directly after graduating 
high school in our State, a rate that is nearly 10 points below the 
national average. What are your plans to help more students enroll in 
and succeed in higher education?
    Answer 43. I believe it is important to help students consider a 
range of post-secondary options and not assume that all students must 
pursue a 4-year college degree. If confirmed, I will look forward to 
working with you and your colleagues on strengthening college access 
and support programs to ensure they are effectively helping students. 
Our students deserve a range of high quality post-secondary options.

    Question 44. The Federal TRIO programs provide critical services to 
low-income, first-generation students and underrepresented high school 
and college students to support them in their transition to college and 
graduate school. Started in the 1960s as part of President Lyndon B. 
Johnson's ``Great Society,'' I am proud to support these programs, 
which serve almost 800,000 students, including those in one of the 
eight TRIO programs in Vermont.
    In order for our Nation to have the best educated workforce and be 
competitive in the global economy, we need to prepare all students to 
reach their full potential. At a time when a higher education is more 
important than ever, we need to ensure that our low-income and first 
generation students have all of the tools they need to succeed. That is 
why I believe it is necessary to support and increase funding for the 
Federal TRIO programs.
    If confirmed, do you commit to putting forth a budget that robustly 
funds these programs?
    Answer 44. I think high quality college access programs provide a 
vital service to helping students achieve their dream of a post-
secondary education. If confirmed, I look forward to reviewing the 
results of these programs and putting forward a budget request that 
supports high quality, effective programs.

    Question 45. How will first-generation, low-income students and 
students of color be supported on their path to and through college 
under the Trump administration?
    Answer 45. There are a multitude of ways first-generation, low-
income students and students of color are supported in their desire to 
pursue a post-secondary education under both the Every Student Succeeds 
Act and the Higher Education Act. If confirmed, I will review these 
pathways and support those that are successfully assisting students in 
meeting their goals, recognizing that there is not a one-size-fits-all 
approach.

    Question 46. Minority Serving Institutions, such as HBCUs, TCUs, 
HSIs, and AANAPISIs, play a pivotal role in providing high quality 
post-secondary education to students of color and helping us achieve 
our goal to lead the world in college graduates. They enroll more than 
5 million students a year, many who have overcome significant barriers 
to get to college.
    What are your plans for your continued support of these 
institutions?
    What steps will you take to make sure students who attend these 
institutions are able to complete in a timely fashion, without taking 
on burdensome debt?
    What will you do to ensure that the students they serve succeed and 
thrive in college and in the job market post-graduation?
    Answer 46. I believe our minority-serving institutions play an 
important role in helping address our goal for college accessibility. 
If confirmed, I look forward to working with you--and your colleagues--
on these important issues.

    Question 47. Women continue to be underrepresented in the Science, 
Technology, Engineering, and Mathematics (STEM) fields, an area of 
growing importance in the Nation's economy. Women make up less than 25 
percent of STEM jobs and earn STEM degrees at disproportionately lower 
levels compared to men. Gender bias and lack of role models can 
contribute to this lack of representation. Do you agree that the 
representation of women in the STEM fields is an area of concern for 
the Department of Education? Do you have any plans to support programs 
that broaden participation of women and girls in STEM subjects in K-12 
and/or higher education?
    Answer 47. If I am confirmed, I will work with this committee and 
across government agencies to identify best practices for encouraging 
the participation of girls and women and other underrepresented 
populations in STEM subjects and fields. As a strong proponent of local 
control, I believe States and school districts are best positioned to 
determine the most effective ways to engage girls and women in STEM 
subjects. But I will work with those entities and partners across the 
Federal Government to streamline the many STEM programs currently in 
operation to ensure the Federal Government is providing the most 
effective and efficient support for those locally driven solutions.

    Question 48. Do you believe that title IX protections against sex 
discrimination can be applied to areas related to the 
underrepresentation of women in STEM?
    Answer 48. Title IX prohibits discrimination on the basis of sex 
under any education program or activity receiving Federal education 
assistance, and if confirmed, I will work with the Office for Civil 
Rights to fully enforce the law. To the extent underrepresentation of 
women in STEM is the result of discriminatory practices by recipients 
of Federal education assistance, they will be held accountable.

    Question 49. Common sense and research show that strong funding for 
schools is essential for student success. In fact, recent research by 
the National Bureau of Economic Research study documented that State 
spending on low-income students predicted a significant boost in a 
student's future earnings, with a return on investment of around 40 
percent over a student's lifetime.
    Yet you have opposed increasing funding to public schools and have 
advocated diverting existing funds to for-profit charters or private 
school vouchers.
    In 2002, you opposed the ability of Michigan school districts to 
raise more money for their schools. Since 2010, your American 
Federation for Children has donated over $5 million to State-level 
candidates and parties that support draining public schools of money.
    In 2015, lobbyists with close ties to you and your family helped 
slip a provision in a bill the Michigan legislature passed but was 
later met with a legal challenge that would have made it harder for 
local school boards to take action to raise more money for their 
schools. At the time, Moody's, the credit rating agency, said,

          ``Michigan schools will likely suffer the brunt of the impact 
        because the vast majority rely on periodic voter approval of 
        local operating levy renewals for property taxes.''

    When 31 States are spending less on K-12 education than before the 
recession and over half of all public school students are from low-
income families, do you think it is appropriate for Congress to confirm 
a candidate for Secretary of Education that is intent on cutting 
funding for public schools by any means necessary.
    Answer 49. I reject your characterization. I am a strong advocate 
of great public education. Period. I believe we can--and must--both 
challenge the status quo, and support public education.
    Unfortunately, our current approach is not working for far too 
many. Last year, the National Assessment of Educational Progress (NAEP) 
recorded declines in fourth- and eighth-grade reading and math 
following flat in 2013 results, marking a downturn after years of 
steady gains. Recently, the Program for International Student 
Assessment (PISA) reported that U.S. performance has declined steadily 
since 2009 in reading, math, and science--after a decade of rising 
scores. In fact, the United States is now 35th in math (down from 
28th). In science, we're 25th and in reading, we're now in 24th place. 
Surely we can all agree that is indefensible.
    I believe that a choice for children in education is a powerful 
start. But we should all think of choice in the widest terms: excellent 
traditional public schools, public charters, nonpublic schools, home 
schooling, online or distance learning and forms of education that we 
haven't yet considered. We need to be open to progress.

    Question 50. At a time when more than half of public school 
children come from low-income families, we cannot back down from a 
commitment to robustly fund Title I-A of the Elementary and Secondary 
Education Act.
    There has been bipartisan agreement in every reauthorization of 
ESEA, and these funds must not be meddled with to fund schemes that do 
not benefit the education of low-income students.
    What we must do is commit to increasing funding for title I-A, 
which has not even kept pace with inflation, let alone the reality that 
our schools are serving more low-income students. Real title I-A 
funding is down 4 percent since fiscal year 2005 while the percentage 
of low-income kids in public schools has increased by 29 percent over 
the same time period. If, at a bare minimum, title I-A funding had kept 
pace with inflation since fiscal year 2005, appropriations for title I-
A would have been $15.5 billion in fiscal year 2016 instead of $14.9 
billion--a difference of more than half a billion dollars. Furthermore, 
if title I-A funding had kept pace with both inflation and the growing 
number of children coming from low-income families since fiscal year 
2005, title I-A funding would have hit $20.1 billion in fiscal year 
2016, a gap of $5.2 billion when considering reality versus actual 
funding.
    If confirmed, would you commit to dramatically increasing title I-A 
funding to catch up to the reality of increased needs in our public 
schools and the loss of funds due to past under funding?
    Do you commit to protecting title I-A funds from any taxpayer-
funded private school vouchers that will drain our most needy public 
schools from vitally needed funding?
    Answer 50. Title I provides funding to support our most vulnerable 
school-age children. If confirmed, I will work with the Administration 
and Members of Congress to ensure that this important program provides 
effective services to the students who are its beneficiaries. It is 
important to note that these funds are intended to benefit students 
and, if a State wanted to design a choice program which allowed parents 
to direct their child's share of these dollars to a school that better 
meets their child's needs, I would support that if they made a proposal 
that was consistent with the law.

    Question 51. It is of vital importance that our teachers and school 
leaders get the ongoing professional development needed to educate 
every child. Title II of the Elementary and Secondary Education Act, 
Supporting Effective Instruction State Grants, provides funding to 
ensure that schools get the funding necessary to provide teachers and 
school leaders with professional development. Do you find it acceptable 
that funding for title II has been essentially flat for the last 4 
fiscal years? Do you commit to increasing funding for this program? If 
not, why not?
    Answer 51. I agree that ongoing professional development is 
essential for increasing the skills and knowledge of our educators. If 
confirmed, I will review the Department's resources and work with the 
Administration and Congress to determine how best to allocate funding 
across K-12 programs. I look forward to working with stakeholders and 
this committee to determine how best to support strategies that have 
been proven successful.

    Question 52. Research shows that teachers with more experience help 
increase student achievement, while novice teachers can actually have a 
negative effect on student learning. The Department of Education's 
Office for Civil Rights has found that Black, Latino, American Indian, 
and Alaskan Native students attend schools with higher concentrations 
of first-year teachers at a higher rate than their white peers. 
Further, Black and Latino students are four times more likely to attend 
schools where one in five teachers or more are not fully certified. Do 
you think it is acceptable that low-income and children of color are 
taught at disproportionate rates by first-year and not fully certified 
teachers? What are your plans to ensure that every child has access to 
a fully prepared teacher?
    Answer 52. The Every Student Succeeds Act (ESSA), which you 
supported, maintains a requirement that States report data on 
disproportionality and take steps to address this problem. States 
recently renewed those plans with the Obama administration and are 
working now to implement improvements to teacher recruitment, 
retention, and other policies and strategies. If confirmed, I will 
enforce and implement ESSA as written.

    Question 53. Providing all students with excellent educators is one 
of the most important drivers of a well-functioning education system--a 
system that must prepare diverse students to participate in today's 
knowledge-driven economy. However, many States are facing a teacher 
shortage that threatens their ability to deliver a quality education to 
all children. Shortages are most severe in certain fields (special 
education, math, science, and bilingual education) and in high-poverty 
districts and schools, where students most need highly skilled 
teachers. A recent surge in the demand for teachers, alongside a 
diminishing supply and ongoing high attrition rates, has left schools 
scrambling to staff classrooms. These schools face a small number of 
undesirable options: increase class sizes, cancel classes, or hire 
underprepared teachers.
    All of these stopgap solutions undermine the quality of education. 
While it can be tempting for States to turn to short-term solutions to 
a teacher shortage, often by lowering the standards to become a 
teacher, such solutions can exacerbate the problem over the long haul. 
For example, if teachers are hired without having been fully prepared, 
the much higher turnover rates that result (from two to three times as 
high as for fully prepared teachers) are costly in terms of both 
dollars spent on the replacement process and decreases in student 
achievement. High turnover is costly to both students and districts, 
reducing student achievement and increasing district costs for 
replacement, which can run as much as $20,000 per teacher.
    In efforts to address teacher shortages, investments should be made 
at the Federal, State, and local level to implement and support 
evidence-based strategies and activities.
    How will your administration support evidence-based strategies at 
the Federal, State, and local level to address teacher shortages in the 
implementation of the Every Student Succeeds Act, the reauthorization 
of the Carl D. Perkins Career and Technical Education Act, and the 
Higher Education Act?
    Answer 53. As you correctly point out, the teacher shortage problem 
involves policy challenges at every level of government. If confirmed, 
I will work with States, school districts, and stakeholders to explore 
ways the Department of Education can support their efforts to recruit, 
retain, and develop effective teachers. I will also work with the 
Institute of Education Sciences to disseminate research and other 
information that would be helpful to school districts and States 
seeking evidence-based strategies. I will also work with this committee 
to advance the work of the Every Student Succeeds Act (ESSA) in 
returning more authority to States and school districts. Returning more 
decisionmaking to the local level will give teachers stronger ownership 
of their classrooms, which I believe will encourage higher numbers of 
effective educators to stay in the classroom.

    Question 54. I was proud to work with Senator Susan Collins during 
the last reauthorization of the Elementary and Secondary Education Act 
(ESEA) that will allow States to move away from the current stale form 
of standardized testing to new innovative assessments that will be able 
to measure deeper learning, be embedded with instruction, utilize 
performance-based measures, and other ideas that States may come up 
with. Ultimately, these new assessments will focus on what students are 
learning and how well they are applying what they have learned, rather 
than on how well they can take a test. Last year, the Department of 
Education promulgated rules on this innovative assessment pilot. States 
are eager to participate in this pilot. If confirmed, what are your 
plans with regards to supporting States that want to take part in this 
assessment pilot?
    Answer 54. If confirmed, I look forward to working with States to 
implement this innovative pilot program.

    Question 55. Research indicates that most students participating in 
a choice system (such as private vouchers) attend racially and 
economically isolated schools at higher rates than traditional public 
school students. This increased segregation leads to vastly inequitable 
educational offerings for many students living under choice regimes, 
which can be seen clearly in places like Detroit and Milwaukee. Do you 
believe that increasing segregation in America's K-12 schools is a 
problem? If so, why are you supporting policies that would increase 
segregation?
    Answer 55. Yes, I do believe that segregation in our schools is a 
problem and I do not support policies that would increase segregation. 
In fact, school choice programs have not been shown to increase 
segregation. Rather, the research shows that students in school choice 
programs often attend more integrated schools than their public school 
counterparts.

    Question 56. I have joined with Senator Murphy to introduce the 
Stronger Together School Diversity Act, which creates a $120 million 
grant program to help local communities take voluntary efforts to 
address segregation and isolation by race and socioeconomic status in 
schools. This is a common sense approach that addresses the fact that 
our students are attending schools that are more segregated by race and 
income than 15 years ago--with nearly 20 percent of children attending 
schools that are highly segregated by race and income.
    If confirmed, do you plan on following in your predecessor's 
footsteps and including the Stronger Together proposal in your budget? 
If not, why not?
    Answer 56. If confirmed, I will look carefully at the Stronger 
Together School Diversity Act and determine how best to support States 
and local communities as they seek to reduce segregation by income or 
race. Our Nation is stronger and a better place for all when we are 
educated, work and live together with people from different 
backgrounds, races and socioeconomic levels.

    Question 57. The reauthorization of the Elementary and Secondary 
Education Act includes the Full-Service Community Schools program. This 
program provides comprehensive services to ensure all students' needs--
both academic and non-academic--are met. At a time when over half of 
all students come from low-income families and schools are dealing with 
challenges to learning that exist outside of the school day, what are 
your plans for the Full-Service Community Schools program?
    Answer 57. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Full-Service Community Schools 
program, when making a proposed budget for future fiscal years. 
Furthermore, if Congress appropriates funding for this program, I 
intend to implement it as Congress intended and the law requires.

    Question 58. Learning occurs outside of the traditional school day 
and school year. That is part of the reason why, when I was Mayor of 
Burlington, I created a Youth Office, which among other important 
endeavors implemented afterschool programming.
    The bipartisan reauthorization of the Elementary and Secondary 
Education Act (ESEA) recognizes the importance of afterschool and 
summer programming by reauthorizing the 21st Century Community Learning 
Centers Program as a standalone program. In fact, I was proud to join 
the lead sponsor of this amendment, Senator Lisa Murkowski (R-AK), in 
making sure that 21st CCLC was its own program in the reauthorization 
of ESEA.
    With research showing that afterschool programming helps children 
get better grades, reduces risk taking behavior, increases physical 
activity, improves school attendance, helps close the achievement gap, 
and more, do you commit to putting forth a budget that strongly funds 
this vital program?
    Answer 58. Afterschool programs are critical to the safety and 
continued learning of many students. There are many afterschool 
programs offered by wonderful local community groups and schools that 
offer valuable opportunities for learning. If confirmed, I will look 
closely at the budget of the Department of Education to determine the 
best allocation of taxpayer dollars to programs, including the 21st 
Century Community Learning Centers program, when making a proposed 
budget for future fiscal years.

    Question 59. The Vermont Principals Association polled their 
members, and a lot of great questions concerning your nomination came 
forth. One question was straightforward: is your goal to eliminate 
public schools?
    Answer 59. No, I have always supported great public schools and 
will continue to do so. However, if a school is struggling or unsafe or 
not meeting the needs of students--such as those with special needs--I 
believe that we need to help those parents get access to schools that 
will educate those children well. Children do not have time to wait for 
the adults to fix the problems. They deserve a high quality education 
immediately and we should all work to ensure this.

    Question 60. What is your position on oversight of schools, 
including the need for accountability based on publicly elected school 
boards?
    Answer 60. The Every Student Succeeds Act (ESSA) made great strides 
in returning responsibility for education primarily to States and local 
communities and I applaud your efforts in this regard. I believe that 
decisions regarding publicly elected school boards and other local 
accountability measures like this are best left to State and local 
decisionmakers and I believe it best to defer to their judgment in this 
regard.

    Question 61. The bipartisan Every Student Succeeds Act includes the 
Student Support and Academic Enrichment Grant Program. This program is 
authorized at over $1.6 billion. We have yet to see funding for this 
program due to the Republican Congress's inability to pass a full-year 
funding bill. It is of the utmost importance that this new program--
which consolidated numerous existing programs--be funded at its 
authorized level, at a minimum. Our children deserve a well-rounded 
education and safe school environments--this program is the vehicle to 
make these promises a reality. Do you commit to requesting funding that 
is at least at its authorized level?
    Answer 61. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Student Support and Academic 
Enrichment Grant program, when making a proposed budget for future 
fiscal years.

    Question 62. What is your plan for addressing in a timely and 
skilled manner the mental health needs of many students who have been 
exposed to violence and substance abuse, are refugees with trauma or 
children with other traumatic experiences which impact their ability to 
learn?
    Answer 62. I have seen estimates that trauma has affected as many 
as one in four students attending school. We all know trauma can affect 
students in different ways, both silently and outwardly, but can cause 
challenges to a child's education in any form. It is important for 
families and school officials to be able to recognize the signs of 
trauma and access help for students.
    Programs like ProjectSERV, authorized in the Every Student Succeeds 
Act (ESSA), can help provide help to schools to address issues of 
trauma. Additionally, the funding under the Student Support and 
Academic Enrichment Grants can be used by school districts to help 
address the unique needs of their students. If confirmed, I look 
forward to working with State and local school officials and parents to 
help share best practices and the tools they need to address these 
important issues.

    Question 63. In recent research reports from Arizona and 
California, data shows that charter schools provide less access to a 
well-rounded education, including music and arts, than district 
schools. How have charter schools you have helped fund supported a 
well-rounded education, and how would you support a well-rounded 
educational experience, including music and arts, for all students in 
charter schools across our country?
    Answer 63. If confirmed, I would welcome the opportunity to share 
data and research from the Department of Education with State and local 
officials looking to improve educational opportunities. I look forward 
to identifying and disseminating best practices in schools, districts 
and States throughout the country so that they can learn from each 
other and incorporate successful strategies and programs. I would 
encourage States and local leaders to think outside the box and 
innovate, looking for new solutions to vexing educational problems. As 
it relates to arts and music education, I hope that with the greater 
flexibility provided to States and local school districts through ESSA, 
education leaders at the local level can find new ways to provide 
opportunities to students in the music and arts.

    Question 64. Estimates suggest we spend over $1 billion a year on 
college remediation. According to NCES, 68 percent of beginning college 
students at public 2-year institutions and 40 percent of public 4-year 
students took at least one remedial course during college. Even when 
students are able to enter college, they may be spending many semesters 
stuck in remedial or developmental courses, using their financial aid 
for basic-level courses that often times do not count toward a degree. 
What are your specific plans to improve college remediation?
    Answer 64. I am aware that remedial education is a growing problem 
for our students. The fact that they have to spend limited Federal aid 
dollars on remedial courses is completely unacceptable. Simply put, our 
students should graduate from high school ready to do college level 
work. If confirmed, I look forward to working with you and your 
colleagues to address this issue through the Higher Education Act 
reauthorization. I am also hopeful that ESSA's return of educational 
decisionmaking to States and local communities will enable those 
closest to the students to improve elementary and secondary education 
so that the need for remedial education is significantly reduced.

    Question 65. Do you support increased investments in our high 
schools, where data from the Office of Civil Rights at the Department 
of Education shows clear gaps to the access of rigorous coursework in 
too many of our Nation's high schools?
    Answer 65. High schools face many challenges, and, if confirmed, I 
hope to work with Governors, State legislators, and local school 
officials to address the needs of our Nation's high schools. While 
coursework decisions are best left to those closest to the students, I 
do believe that it's important for rigorous coursework to be available 
for all students. To make these courses more readily available, online 
or distance learning could be utilized. I would also welcome the 
opportunity to share data and high quality research from the Department 
of Education with State and local officials looking to improve 
educational opportunities. I also hope that States and local leaders 
will think outside the box and innovate, looking for new solutions to 
vexing educational problems.

    Question 66. Teachers and other educational professionals have 
becoming increasingly concerned about the ``Trump effect'' in schools, 
where Mr. Trump's rhetoric is reflected in incidents of racism and 
discrimination on the basis of ethnicity, gender, sexual orientation, 
or religion on schools and campuses.
    Schools and universities need to be inclusive environments, where 
all students are able to feel safe and welcome, to see themselves in 
the curriculum, and to be equipped to succeed.
    In the weeks following the election, the Southern Poverty Law 
Center documented 867 hate incidents, in over 300 schools and college 
campuses. I have been critical of President-elect Trump when he has 
used rhetoric or put forth polices that seek to divide us up by race, 
ethnicity, gender, sexual orientation, gender identity, nation of 
origin, immigrant status, religion, or any other form of identity-based 
bigotry.
    Have you ever been troubled by any comments that President-elect 
Trump has said publicly?
    Do you agree with teachers and other educational professionals that 
there is a ``Trump effect'' happening right now in schools? Why or why 
not?
    Regardless of whether or not one agrees with the assessment of the 
``Trump effect,'' I hope we can all agree that schools should be safe 
and inclusive environments where all children can learn.
    What specific measures will you take to promote inclusion at all 
levels of the U.S.-education system?
    What will you do to ensure that students of color have safe 
learning environments in schools and on college campuses?
    How will you ensure that students of all faith and non-faith 
traditions are supported in public schools and universities?
    How will you ensure that students can thrive in school regardless 
of their sexual orientation or gender identity?
    What are your plans to combat racism, sexism, and other forms of 
bigotry in schools and colleges campuses? How specifically will you 
ensure that schools and colleges are places that support inclusion?
    Can you point to specific examples in your background where you 
have worked to promote diversity, inclusion, or have curbed bullying in 
schools?
    Answer 66. I believe that all children should be able to learn in 
safe and supportive learning environments and, if confirmed, I will 
work to promote a positive and inclusive climate in all our schools and 
on all college campuses. I believe that every student should be treated 
with decency and respect.

    Question 67. Over 30 million adult Americans lack even a high 
school degree or a GED--double the population of New York City, 
Chicago, and Los Angeles combined. These Americans include veterans and 
others with significant barriers to better employment. The challenge is 
multi-generational: half of their children will also fail to complete 
high school. As a result, our economy suffers, our Nation isn't as 
competitive as it should be, and people cannot advance in careers and 
life. If confirmed as Secretary, how would you address this critical 
issue?
    Answer 67. The fact that millions of Americans lack a high school 
degree or a GED is a terrible situation that contributes to a 
persistent unemployment problem. In addition, nearly 1.4 million 
students drop out of high school each year, significantly limiting 
their job prospects and resulting in tremendous untapped potential. If 
confirmed, I hope to work with you and other Members of Congress as 
well as the Trump administration which has made job creation a central 
part of its efforts to revitalize our communities and renew the 
American dream.

    Question 68. The Carl D. Perkins Career and Technical Education Act 
supports career and technical education (CTE) in our Nation. It is 
currently funded at a little over $1 billion. That is $1 billion for 
our Nation's main investment in supporting CTE for over 50 million K-12 
kids and over 13 million students in public higher education that may 
want to pursue a career in the CTE fields. To put this in perspective, 
your family's net worth is about five times more than what we spend on 
CTE a year.
    From a historical perspective, we are not doing well. Today's 
Perkins funding is $60 million less than funding allocated in 1996--
without adjusting for inflation. Further, if we had frozen funding for 
Perkins as a share of its percentage of national GDP in 1996 (0.019 
percent, it would have received over $2.7 billion last fiscal year 
(FY). Today, we are $1.6 billion below that amount at $1.125 billion 
for Perkins.
    In Vermont, our Tech Centers and the Vermont Technical College rely 
on this funding.
    A promise of President-elect Trump's was to increase support for 
CTE. How will you do this? Do you pledge to request an increasing in 
CTE funding through Perkins?
    Answer 68. If confirmed, I look forward to reviewing the resources 
and demands of each program at the Department as I assist in developing 
a budget.
    In many instances, career and technical education programs are 
providing students with the skills necessary to gain quality employment 
upon completion of their program. As such, I look forward to reviewing 
all regulations to ensure they are adhere to the law as Congress 
intended and comport to the priorities of the President. If changes are 
warranted, I look forward to working with stakeholders and Congress to 
ensure changes go smoothly.

    Question 69. What is your knowledge base about employment programs 
for people with disabilities, specifically the Rehabilitation Services 
Administration within the Department of Education and the Vocational 
Rehabilitation Programs in each State?
    Answer 69. I am aware that this program provides grants to States, 
based on a formula that covers the cost of a wide range of services, to 
assist individuals with disabilities to participate in training 
programs and obtain employment. If confirmed, I look forward to 
learning more about what the States are doing to increase employment 
access and outcomes for people with disabilities.

    Question 70. Given the very high unemployment rate for people with 
disabilities, are you committed to supporting the existing or a higher 
level of appropriation for the Public Vocational Rehabilitation 
Program?
    Answer 70. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, and look for ways to improve the rate of 
employment for people with disabilities.

    Question 71. If confirmed as Education Secretary, what steps will 
you take to support trauma-informed education approaches and positive 
behavioral supports and interventions?
    Answer 71. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to support evidence-based programs and strategies aimed at 
helping teachers and other educators work with students whose lives 
have been affected by trauma. In addition, I will examine ways to 
support effective approaches to improving school climate such as 
positive behavioral interventions and supports.

    Question 72. Small, rural States like Vermont often do not have the 
resources and capabilities to aggressively pursue competitive funding 
like larger States, putting them at a significant disadvantage. 
Further, formula funding for the basic necessities of a high-quality 
public education--pre-kindergarten, aid to high-need schools, 
professional development for teachers, well-rounded course offerings, 
safe and healthy schools, and more--should not be up for competition.
    If confirmed, will you commit to working to strongly fund our 
formula-based education programs? If confirmed, will you avoid 
including competitive grant programs in your budget that put rural 
States at a disadvantage?
    Answer 72. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including formula funds and competitive grants, 
when making a proposed budget for future fiscal years. I am very aware 
of the concerns of rural communities. Many believe they have been left 
behind or ignored for too long. I look forward to working with 
President Trump on efforts to assist rural areas so that all Americans 
have an opportunity to achieve.

    Question 73. The United States needs a revolution in early 
learning. Today 84 percent of 3-year-olds and 59 percent of 4-year-olds 
lack access to publicly funded preschool. We lag far behind other 
developed counties in the enrollment of young children in early 
learning. Across the member nations of the Organization of Economic 
Cooperation and Development (OECD), 86 percent of 4-year-olds are 
enrolled in early education--this number is nearly 90 percent for the 
same age group of children that live in European Union nations of the 
OECD. In Vermont, we are national leaders in terms of access to 
preschool--but even in our State, we have far too many children that do 
not have access to full-day public preschool or lack access all 
together.
    The research is clear that early learning is a sound investment, 
giving a 13 percent return on investment. We know from brain science 
that 90 percent of brain development occurs before the age of five. We 
know that investments in early learning help close achievement gaps 
between rich and poor. In short, we know what works; we just need to 
investment in high-quality programs and make them a reality.
    Fortunately, the Every Student Succeeds Act--which passed both 
chambers of Congress with overwhelming bipartisan majorities--includes 
the Preschool Development Grant (PDG) Program, a tool in making 
universal preschool a reality. It is vitally important that this 
program is robustly funded. If confirmed, do you commit to working with 
the Department of Health and Human Services to put forth a budget 
request that significantly increases funding for PDG?
    Answer 73. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Preschool Development Grant program, 
when proposing budgets for future fiscal years. I will also work 
closely with the new Secretary of Health and Human Services to support 
early childhood education as the vast majority of funding and 
programmatic support for early childhood education falls under the 
responsibility of that agency.

    Question 74. You have said you ``believe every child, no matter 
their zip code or their parents' jobs, deserves access to a quality 
education.'' At what age do you believe this ``access to a quality 
education'' should begin?
    Answer 74. I believe that education begins at home. Additionally, 
many families make the decision to utilize early childhood education 
and care providers. I know that Congress has recently reauthorized the 
Child Care and Development Block Grant, making significant improvements 
in the program, increasing quality, and encouraging States to raise the 
bar. Congress provides nearly $6 billion in funding for this program in 
which parents use vouchers to choose the provider that best meets their 
needs. Child care vouchers, much like Pell Grants, allow individuals to 
choose the provider that is best for them.

    Question 75. The embarrassingly low wages paid to child care 
workers and early learning educators--the vast majority of whom are 
women--is well-documented and a national disgrace. The median annual 
salary for child care workers is $20,320. According to the Department 
of Education (ED) and the U.S. Department of Health and Human Services 
(HHS), those caring for children at the most vulnerable stage of their 
lives--from birth to age 3--earn $10.40 an hour on average. Early 
learning educators with a bachelor's degree earn over $12 less an hour 
than the average earnings of all those with a bachelor's degree. If we 
are a compassionate nation, we should at the very least pay people--
especially professionals caring for our children--a living wage. Do you 
find the embarrassingly low wages paid to child care workers and early 
learning educators acceptable?
    Answer 75. The pay of early learning educators is not within the 
purview of the Federal Government nor within the scope of the 
Department of Education. But their job is an important one. If 
confirmed, I will look for opportunities to highlight successful pre-K 
teachers and work closely with the new Secretary of Health and Human 
Services to find ways to call attention to successful pre-K programs.

    Question 76. Do you find it acceptable that child care workers and 
early learning educators often cannot afford child care for their own 
children, and often have to take advantage of our social safety net 
programs in order to survive?
    Answer 76. The cost of childcare is a struggle for many. I look 
forward to working with the President's daughter, Ivanka Trump, and 
others, on this issue.

    Question 77. What do you consider a fair wage for childcare and 
early learning educators?
    Answer 77. The Department of Education does not have the authority 
to determine the wages for educators; States and local communities are 
the appropriate place for these decisions to be made.

    Question 78. If confirmed, how specifically will you work with HHS 
to address the pay and working conditions of early childhood educators?
    Answer 78. Pay for early childhood educators is a State and local 
issue. If confirmed, I will work with the Secretary of Health and Human 
Services to ensure the efficiency and effectiveness of early childhood 
education programs.

    Question 79. According to the same ED and HHS report, low earnings 
and insufficient resources can contribute to turnover among early 
learning educators; early learning centers with lower turnover and 
higher wages have more time for positive developmental activity for 
children. What steps will you take to ensure that there is a robust and 
stable early learning workforce?
    Answer 79. Development of a robust early learning workforce is a 
State and local issue. I will work with the Department of Health and 
Human Services to highlight best practices and where appropriate to 
provide technical assistance.

    Question 80. During the campaign, President-elect Trump made 
hardline immigration policy a central part of his campaign. And, after 
the election, he stated he would deport two to three million 
undocumented immigrants immediately. He stated that he would end the 
Deferred Action for Childhood Arrivals (DACA) program, which allowed 
many DREAMers, brought to the U.S. as children, to come out of the 
shadows. Later, in an interview, the President-elect was asked about 
the future of the DACA students, and stated he ``was going to work 
something out that's going to make people happy and proud.'' Yet, you 
have virtually no public record on issues pertaining to undocumented 
children, including in public school. Do you plan to support any 
potential effort by the Administration to force schools to divulge 
confidential information about undocumented students or parents who are 
undocumented?
    If yes, explain why this subversion of local control is consistent 
with your views on education.
    Answer 80. Many young people were brought to America at a very 
young age and came through no fault of their own. We need to be 
sensitive to these situations. As for which agencies have jurisdiction 
over enforcement of immigration policy, the Departments of Justice and 
Homeland Security have that responsibility. I'm pleased that President 
Trump is looking for solutions that will make people ``happy and 
proud.''

    Question 81. Do you support the Supreme Court's decision in Plyler 
v. Doe, which held that K-12 education must be provided to undocumented 
children at no cost?
    Answer 81. Yes.

    Question 82. Do you support or oppose efforts by States to pass 
laws that would require schools to report the number and cost 
associated with providing a free K-12 education to undocumented 
children?
    Answer 82. This is not an issue that falls within the scope of the 
Department of Education.

    Question 83. If confirmed, will the Department of Education 
continue to provide educational resources for educators and studs who 
are immigrants or minorities?
    Answer 83. Yes, as per relevant laws.

    Question 84. What, as head of the Department of Education, would 
you publicly say to school districts such as Los Angeles Unified and 
others about resisting efforts to turn over student records to the 
Federal Government?
    Answer 84. Development and enforcement of immigration policies 
falls under the jurisdiction of the Departments of Justice and Homeland 
Security. If confirmed, I would respectfully defer to my colleagues in 
those agencies about the enforcement of immigration policies.

    Question 85. Do you think Immigration and Customs Enforcement 
should be given free and unfettered access to engage in immigration 
enforcement activity on school campuses and in students' classrooms?
    Answer 85. Development and enforcement of immigration policies 
falls under the control of the Departments of Justice and Homeland 
Security. If confirmed, I would respectfully defer to my colleagues in 
those agencies about the enforcement of immigration policies.

    Question 86. Do you believe that undocumented students who were 
brought to this country at a young age and have spent almost their 
entire life in U.S.-school systems deserve a fair and equal education 
in our public school and university systems?
    Answer 86. I will follow the law of the land, and I understand that 
the U.S. Supreme Court has already spoken on this issue. Unless 
Congress acts to change the law, elementary and secondary schools must 
provide a free public education to all students in the community, 
regardless of immigration status.

    Question 87. If confirmed, do you promise to not punish 
universities that financially and academically support undocumented 
students?
    Answer 87. I believe institutions of higher learning should be free 
to use their own non-Federal resources in whatever legal way they see 
fit. However, the use of Federal funds must comport with Federal law 
and as you know, to receive title IV student aid, a student must be a 
citizen or national of the United States, a permanent resident of the 
United States, or able to provide evidence from the Immigration and 
Naturalization Service that he or she is in the United States for other 
than a temporary purpose with the intention of becoming a citizen or 
permanent resident.

    Question 88. If confirmed, will you commit to removing barriers to 
higher education for undocumented students? As a start, would you 
advocate for DREAMer students to be eligible for Federal financial aid?
    Answer 88. As a mom and grandmother, my heart goes out to those 
whose families and loved ones are impacted by these policies.
    Decisions, directives and enforcement in this area are made by the 
Departments of Homeland Security and Justice so I will respectfully 
defer to those agencies. The Higher Education Act governs eligibility 
for Federal financial, and I am sure this is an issue Congress will 
grapple with when it moves forward with the reauthorization of that 
law, and, if confirmed, I look forward to working with you on that.

    Question 89. Many scholars in non-profit higher education receive 
support from the National Endowment for the Humanities (NEH). What is 
your view on NEH? Do you support its programs?
    The National Science Foundation and the Department of Education 
collaborate on STEM research. Do you intend to collaborate with NSF on 
important STEM education initiatives?
    The Institute for Education Sciences (IES) and the National Center 
for Education Statistics (NCES) provides critical funding and 
infrastructure to research in education. Because of NCES and IES, we 
have data on school enrollment, teacher and school staff demographics, 
college enrollment, costs, and attainment, and many other key 
indicators needed to assess the State and future of education. IES has 
also funded many critical K-12 and higher education studies. We are 
learning more about increasing participation in STEM education, 
improving remedial education in community colleges, supporting early 
childhood education, and evaluations of important educational 
inventions. What role do you see federally funded educational science 
research playing during your tenure as Secretary, if confirmed?
    Do you support the work of NCES and IES? How will you make the case 
that Congress adequately funds and supports NCES?
    Answer 89. I fully support educational research with the goal of 
determining what programs are producing successful outcomes for our 
country's students and families. While Congress ultimately decides on 
funding, if confirmed, I will review the initiatives undertaken by IES 
and NCES to ensure they are using taxpayer dollars efficiently and 
effectively.

    Question 90. The Office for Civil Rights (OCR) enforces Federal 
civil rights laws and works to prohibit discrimination by sex, race, 
disability, age, color, and national origin in schools and campuses 
throughout the Nation. Yet for years, OCR's funding was flat-lined 
until it received a slight boost in fiscal year 2016. This agency 
receives about 10,000 complaints a year but does not have the adequate 
staffing levels to address the complexity of the cases that come before 
it in a timely enough fashion. What are your plans for funding this 
vital agency?
    Answer 90. If confirmed, I will carefully review the personnel 
policies and staffing responsibilities within the Department to ensure 
that the Department is being efficient with taxpayer funding and that 
the mission and responsibilities are being met. Once that review is 
complete, I will work with President Trump to create a budget request 
in accordance with the findings of that review.

    Question 91. Do you commit to ensuring that the Office of Civil 
Rights is a continued part of the Department of Education and not 
consolidated or merged with another entity?
    Answer 91. Yes. The Office for Civil Rights will remain at the 
Department of Education. If confirmed, I look forward to reviewing all 
the divisions within the Department to ensure they are operating in the 
most efficient and effective way to implement our Nation's education 
laws in the way Congress intended.

    Question 92. Under your charge, how would you ensure that the 
Office for Civil Rights protects all students?
    Answer 92. I fully support ensuring all students have a safe place 
in which to learn. If confirmed, I plan to review all laws, guidance, 
and policies within the Department to ensure the letter and spirit of 
the law are being met.

    Question 93. It is completely unacceptable that 1 in 5 female 
undergraduate students and 1 in 16 men are victims of sexual assault. 
Many campuses do not have proper protocols for investigating and 
responding to these incidents. I have cosponsored the Campus 
Accountability and Safety Act, which would require institutions to 
designate confidential advisors for survivors on campus; establish 
uniform standards of discipline; conduct a biennial campus survey; 
enter a memorandum of understanding with local law enforcement agencies 
on responsibilities regarding crimes and sexual violence; and face 
penalties for falling out of compliance with the Act. Do you support 
this legislation, and if confirmed would you urge Congress to enact it?
    Answer 93. We must work to ensure all students have safe places in 
which to learn. If confirmed, I look forward to discussing this 
legislation with you and others, and working with you and your 
colleagues on the many issues raised by it.

    Question 94. What role do colleges and universities receiving 
Federal funds have in investigating cases of campus sexual assault?
    Answer 94. We must work to ensure our colleges and universities are 
safe havens for student learning. The title IX regulations require 
schools receiving Federal funds to investigate any complaints alleging 
noncompliance with the regulations. Recipients of funds are required to 
designate at least one employee to coordinate efforts (``Title IX 
Coordinator'') to comply with a school's responsibilities including any 
investigations.

    Question 95. Do you support the Department's current policies with 
regard to sexual violence, as expressed in the 2011 Dear Colleague 
Letter and 2001 Guidance? How will your administration enforce title IX 
in relation to campus sexual assault?
    Answer 95. I want to ensure all students have a safe environment in 
which to learn. Sexual violence perpetrated against any person is 
wrong. If confirmed, I will carefully review these and other guidance 
documents to ensure they are in accord with the law and serve as 
helpful tools to institutions of higher learning.

    Question 96. Do you agree with the Republican Party platform that 
the current application of title IX is ``wrongly redefining sex 
discrimination to include sexual orientation or other categories'' ? If 
so, how will LGBT individuals be protected from sexual harassment and 
discrimination in educational institutions while you are Secretary?
    Answer 96. If confirmed, I intend to uphold title IX as interpreted 
by the courts.

    Question 97. With regards to campus sexual assault, harassment, and 
discrimination, do you support a ``preponderance of the evidence'' 
standard? If you do not support a ``preponderance of the evidence'' 
standard, what standard do you think is appropriate?
    Answer 97. As a mother and grandmother of both boys and girls--we 
must get the evidentiary standard right, as it has implications for 
victims and the accused. There is not universal agreement on the 
appropriate standard. If confirmed, I look forward to working with and 
hearing from concerned individuals, organizations and institutions to 
ensure that Department guidance and regulations are clear and 
effective. It will always be my goal to ensure that our Nation provides 
safe learning environments for all students.

    Question 98a. The State of Vermont does not allow taxpayer money to 
pay for religious schooling. Our Nation's Constitution calls for a firm 
separation between church and State.
    You've called the big money you have used to remake education 
systems in localities across the Nation as all having been done for 
``greater Kingdom gain.'' Your husband explicitly said that if voucher 
policies are passed, ``more and more churches will get more active and 
engage in education.'' The 2016 Republican Platform calls for teaching 
the Bible in schools.
    In Indiana, where then-Governor Pence expanded the State's voucher 
program, almost all of the $135 million of taxpayer money that normally 
goes to public schools now flows to religious schools.
    In a pluralistic and diverse nation like ours, with many different 
faith and non-faith traditions, and clear separations between church 
and State, why do you think it is appropriate to send public dollars to 
private religious schools?
    Answer 98a. The U.S. Supreme Court long ago settled the question of 
whether or not it is appropriate for public dollars to be sent to 
private religious schools. As Secretary, I would not contradict their 
ruling.

    Question 98b. Public schools exist for all children, regardless of 
race, gender, disability status, and religion. Do you think it is fair 
that religious schools that receive taxpayer vouchers can discriminate?
    Answer 98b. Parents or guardians should have the opportunity to 
send their children to the schools they believe will best serve them, 
including a private, religious school, if that is their choice.

    Question 99. Do you agree with the 2016 Republican Platform that 
the Bible should be used as ``literature curriculum as an elective in 
America's high schools?'' As Secretary, would you encourage States to 
adopt the Bible into their curriculums?
    Answer 99. It is not the responsibility of the Federal Government 
to dictate curricula. In fact, the Elementary and Secondary Education 
Act, General Education Provisions Act and the Department of Education 
Organization Act all forbid such interference. I believe these issues 
are best left up to local school districts.

    Question 100. Do you support and promise to uphold the merit system 
principles set forth in Chapter 23 Title 5 U.S. Code, which prohibit 
factors other than merit from consideration in civil service employment 
decisions?
    Answer 100. If confirmed as Secretary, I will carefully review the 
personnel policies and practices of the Department to ensure they are 
in accord with the law.

    Question 101. If confirmed as Secretary, do you believe that 
Congress' use of the Holman Rule, which allows any Member of Congress 
to propose amending an appropriations bill to single out a government 
employee or cut a specific program, to be an appropriate measure when 
used against your Department? Will you support Congress in passing an 
amendment under the Holman Rule or would you oppose such an amendment?
    Answer 101. It is the legislative branch's prerogative to determine 
what amendments it may include as part of the appropriations process.

    Question 102. If confirmed as Secretary, do you believe that you 
will be better able to recruit and retain top talent if Congress is 
able to individually target employees based on their political whims?
    Answer 102. The Department, as a part of the executive branch of 
government, has the responsibility to faithfully implement personnel 
laws, as well as other laws, as written by Congress.

    Question 103. If confirmed as Secretary, do you support Congress 
targeting and altering the salaries of individuals within your 
Department?
    Answer 103. It is the legislative branch's prerogative to determine 
what amendments it may include as part of the appropriations process.

    Question 104. What is your view of the division of responsibility 
and authority between Congress and the Department you may lead on 
personnel issues?
    Answer 104. I respect the ability of Congress to determine what 
amendments it may include as bills are moving through the legislative 
process. If confirmed, I will ensure the Department is a good steward 
of taxpayer dollars and that the mission and responsibilities of the 
Department are fully met.
                             senator casey
    Question 1. Do you believe that any school that accepts public 
funds should be accountable to the public? If so, how? How would that 
accountability extend to all students, including students from minority 
groups and students with disabilities--as required by ESSA?
    Answer 1. I believe all schools should be accountable to the 
parents and communities they serve. Schools must be transparent about 
their performance with all students so that parents can make informed 
decisions about what is best for their children.

    Question 2. How do you plan to advocate for adult learners in your 
role as the Secretary of Education?
    Answer 2. If confirmed, I look forward to helping adult learners 
receive the education and services they need to be successful in the 
global economy. I will work with the Department of Labor, in 
particular, to ensure we are providing those services effectively.
    Reforms enacted in the Adult Education and Family Literacy Act, 
which was reauthorized in 2014 as part of the Workforce Innovation and 
Opportunity Act, were meant to help States and communities improve 
services for adult learners to better provide them the education and 
skills they need to obtain employment and increase self-sufficiency. If 
confirmed, I will work through the Office of Career, Technical, and 
Adult Education to implement these reforms to improve outcomes for 
adult learners.

    Question 3. Adult education State grants support programs that 
assist (1) adults in becoming literate and in obtaining the knowledge 
and skills necessary for employment, (2) parents in obtaining the 
skills necessary to become full partners in the education of their 
children, and (3) adults in the completion of a secondary education. 
Some adults enrolled in adult education are students seeking their high 
school diploma or equivalent but a surprisingly large number of 
American adults who have earned a high school diploma still struggle 
with basic skills. Twenty percent (20 percent) of adults with a high 
school diploma have less-than-basic literacy skills and 35 percent of 
adults with a high school degree have less-than-basic numeracy skills. 
According to a recent study conducted by OECD's Program for 
International Assessment of Adult Competencies (PIAAC), at least three 
million low-skilled American adults would like to enroll in Adult 
Education services, but cannot access a program. Without access, 
undereducated, under-prepared adults cannot qualify for jobs with 
family sustaining incomes that require not only a high school 
equivalency, but also some college preferably a 1- or 2-year 
certificate in a high demand occupation. And, adults without a high 
school diploma or functioning below high school level cannot qualify 
for either community college programs or high demand occupations. Tax 
reform and relaxing regulations can improve the macroeconomy, but it 
will not address the needs of millions of Americans who lack the skills 
to find meaningful work in an increasingly competitive economy. How do 
you envision the Administration incorporating Adult Education into its 
competitiveness agenda?
    Answer 3. Too many Americans are suffering in the current economy. 
President Trump made improving the employment opportunities of these 
Americans a cornerstone of his campaign, and his administration will 
work to improve the prospects of those left behind in this economy. As 
stated before, reforms enacted in the Adult Education and Family 
Literacy Act, which was reauthorized in 2014 as part of the Workforce 
Innovation and Opportunity Act, were meant to help States and 
communities improve services for adult learners to better provide them 
the education and skills they need to obtain employment and increase 
self-sufficiency. If confirmed, I will work through the Office of 
Career, Technical, and Adult Education to implement these reforms to 
improve outcomes for adult learners. Combined with other efforts across 
the government, we have an opportunity to help more Americans achieve 
the American dream.

    Question 4. ESSA requires that States not preclude students who 
participate in an alternate assessment from attempting to meet the 
requirements of a regular high school diploma. However, many schools 
report that the students won't be permitted any modifications of 
assignments if they are to meet the requirements of the regular high 
school diploma. This practice defeats the point of the statutory 
provision because by definition students who participate in an 
alternate assessment work on enrolled grade content--but with 
substantial supports, adaptations, and different expectations for 
achievement. Will you provide guidance to States to ensure they provide 
appropriate supports including accommodations, adaptations, and 
modifications in order to allow students taking the alternate 
assessment to meet the requirements of the regular high school diploma?
    Answer 4. If confirmed, I will carefully review all existing 
guidance documents that are in effect to ensure that guidance from the 
Department of Education serves as a helpful tool to States, school 
districts, educators, and parents as they work to implement Federal law 
and ensure all students receive the education they deserve. I will also 
work with stakeholders to determine what additional guidance is needed 
to ensure that the Every Student Succeeds Act (ESSA) is implemented as 
Congress intended and all students are well-served.

    Question 5. What are your plans for Federal engagement in charter 
school funding or regulation? If you endorse such funding, what 
safeguards would you introduce to strengthen the performance and 
accountability of such schools and to ensure that all other public 
schools also are supported to perform well?
    Answer 5. I support the Federal charter school program, which was 
reauthorized as part of the Every Student Succeeds Act (ESSA). The 
reforms made to the program will allow for the expansion and 
replication of high-quality charter schools as well as the opening of 
new charter schools. If confirmed, I will implement programs consistent 
with the law passed by Congress. In addition, I will seek ways to 
increase cooperation between public charter schools and traditional 
public schools. I believe both sectors can learn from each other ways 
to improve educational outcomes for students, and I believe the 
Department of Education can better highlight and encourage that 
cooperation.

    Question 6. Do you think the Department should award hundreds of 
millions of dollars to States because States want it, rather than 
because States can demonstrate a track record of launching high quality 
charter schools and having processes in place to close ineffective 
charter schools?
    Answer 6. I support the Federal charter school program, which was 
reauthorized as part of the Every Student Succeeds Act. The reforms 
made to the program will allow for the expansion and replication of 
high-quality charter schools as well as the opening of new charter 
schools. Those reforms also encouraged States to improve charter school 
authorizing to ensure that only high-quality schools expand or 
replicate, and low-performing schools are closed. If confirmed, I will 
implement programs consistent with the law passed by Congress.

    Question 7. As you implement the Charter Schools Program, how will 
you ensure a State that fails to demonstrate its commitment to quality 
and accountability does not receive Federal taxpayer funds to grow more 
charter schools?
    Answer 7. I support the Federal charter school program, which was 
reauthorized as part of the Every Student Succeeds Act. The reforms 
made to the program will allow for the expansion and replication of 
high-quality charter schools as well as the opening of new charter 
schools. Those reforms also encouraged States to improve charter school 
authorizing to ensure that only high-quality schools expand or 
replicate, and low-performing schools are closed. If confirmed, I will 
implement that program consistent with the law passed by Congress.

    Question 8. Charter schools are known for having disproportionately 
harsh discipline practices, including higher rates of suspension for 
Black and Latino students over their white peers. Do you see this as a 
problem contributing to the School to Prison Pipeline? How do you 
intend to address this if confirmed as Secretary of Education?
    Answer 8. I oppose unfair discipline practices that unnecessarily 
punish students rather than supporting them. I also know parents are 
seeking educational options that will provide their children the 
education they deserve. This is why tens of thousands of students, many 
of whom are low-income or students of color, are on public charter 
school waiting lists nationwide. These families are desperately seeking 
safe learning environments that will allow their children to thrive. If 
confirmed, I look forward to working with this committee to find ways 
to increase the options available to these families.

    Question 9. A number of different studies have shown that attending 
an online charter school leads to worsening academic performance 
compared to students attending brick and mortar schools. Indeed, 
students who switch from a traditional public school to an online 
charter experience a significant drop in academic achievement compared 
to students who stay in traditional schools. For instance, a middle or 
elementary school student starting at the 50th percentile of 
performance in math would, on average, fall to the 36th percentile 
after 1 year at a virtual school. In addition, a number of reports have 
documented serious mismanagement at online charters. Despite the 
terrible academic results of online schools and misuse of taxpayer 
dollars, why have you supported diverting taxpayer dollars away from 
traditional public schools and toward online schools?
    Answer 9. Unlike traditional public schools, public charter schools 
can be closed when they fail to meet the expectations outlined in their 
charters. Public charter schools, whether brick-and-mortar or virtual, 
that are failing to provide students a quality education as outlined in 
their charters should be closed.
    However, high-quality virtual charter schools provide valuable 
options to families, particularly those who live in rural areas where 
brick-and-mortar schools might not have the capacity to provide the 
range of courses or other educational experiences a student desires. 
Because of this, we must be careful not to brand an entire category of 
schools that is working for many students. For example, the following 
virtual academies have 4-year cohort graduation rates of at least 90 
percent:

    <bullet> Idaho Virtual Academy (IDVA): 90 percent;
    <bullet> Nevada Virtual Academy (NVVA): 100 percent;
    <bullet> Ohio Virtual Academy (OHVA): 92 percent;
    <bullet> Oklahoma Virtual Charter Academy (OVCA): 91 percent;
    <bullet> Texas Virtual Academy (TXVA): 96 percent;
    <bullet> Utah Virtual Academy (UTVA): 96 percent; and
    <bullet> Wisconsin Virtual Academy (WIVA): 96 percent.

    If confirmed, I will implement each Federal program under my 
jurisdiction consistent with the requirements spelled out by Congress 
to ensure that taxpayer funds are well-spent and students are well-
served.

    Question 10. Balancing transparency with important accountability 
requirements is critical to ensuring that all students receive a 
quality education. Unfortunately, Michigan charter law has freed 
authorizers from most of their regulatory obligations resulting in a 
general lack of accountability and reduced transparency including in 
the required financial reporting for charter schools. For students, the 
impact of this ``free to be you and me policy'' has had a disastrous 
impact on academic achievement, particularly for vulnerable populations 
of students, including students with disabilities. How committed are 
you to this model? Do you believe that it has been successful? What 
lessons have you learned, if any, that will be utilized as you oversee 
the approval and implementation of charter grants at the U.S. 
Department of Education?
    Answer 10. I am committed to ensuring families have options. In 
Detroit, the statistics are appalling. Per the National Assessment of 
Educational Progress, only 7 percent of students are proficient in 
reading and 4 percent are proficient in math. None of us would leave 
our children in schools performing so poorly.
    Public charter schools have provided a viable alternative. 
Detroit's public charters schools outperform their traditional 
counterparts on the State assessments. Charter students in Michigan 
gain an additional 2 months of learning in reading and math over their 
traditional public school peers. In Detroit, the gain is 3 months. In 
both reading and math, African American students in Detroit's public 
charter schools have significantly larger growth compared to African 
American students in Detroit Public Schools. Hispanic charter students 
in Detroit show significantly better outcomes in math compared to their 
Hispanic peers in Detroit Public Schools. If I am confirmed, I hope to 
work with this committee to expand educational choices for families. I 
have seen firsthand the positive impact of increased choice in my home 
State of Michigan.

    Question 11. A recent study of Michigan schools found that 
overwhelmingly, the biggest financial impact on school districts was 
the result of declining enrollment and revenue loss, especially where 
school choice and charters are most prevalent. The research shows that 
as charter schools started to expand, schools in cities statewide in 
particular, lost about nearly half of their revenue in a span of 10 
years. Even more, findings from the report showed that the higher the 
charter penetration, the higher the adverse impact on district 
finances. Yet with nearly two decades of school choice growth, Michigan 
has dropped from its earlier rating near the top of the States to its 
current rank near the bottom for fourth-and eighth-grade math and 
fourth-grade reading on NAEP. In addition, the advocacy group, EdTrust 
reports that roughly half of Michigan's charter schools ranked in the 
bottom quarter of all public schools for academic performance. Based on 
this, what do you think needs to be changed in Michigan's approach to 
funding and managing schools--including charter schools--and how would 
the failures of Michigan's reform strategy inform your actions as 
Secretary of Education?
    Answer 11. Public charter schools in Michigan are a success story. 
Charter students in Michigan gain an additional 2 months of learning in 
reading and math over their traditional public school peers.
    In Detroit, the gain is 3 months. In both reading and math, African 
American students in Detroit charter schools have significantly larger 
growth compared to African American students in Detroit Public Schools. 
Hispanic charter students in Detroit show significantly better outcomes 
in math compared to their Hispanic peers in Detroit Public Schools. I 
believe in funding what works, and in Michigan, particularly in 
Detroit, charter schools are demonstrating their value by improving 
student achievement.

    Question 12. Providing evidence, do you believe the current model 
of choice without uniform accountability has been successful in 
Michigan and will you commit to upholding the kinds of strong charter 
accountability that we put in place during ESSA so we're not wasting 
tax payer money? Please describe how you will go about implementing 
measures of accountability.
    Answer 12. As I said during my confirmation hearing, I support 
accountability for all schools. In your question, you imply that 
charter schools have different accountability than traditional public 
schools in Michigan. This is not the case. Instead, I supported 
legislation--now law--that imposed the same accountability on all 
schools. Parents need and deserve to know how their children are 
performing. Any and all obstacles to good information should be 
removed. There was an effort by critics of parental choice to limit 
options for families and call that accountability. Their real effort 
was to create a new layer of bureaucracy--an eight-person unelected 
mayoral appointed board that sought to limit the growth of charters and 
dictate their operations. This legislation would have hamstrung charter 
schools and kept many failing public schools open at the expense of 
vulnerable students. I joined with parents and other reformers to 
oppose this scheme.
    If I am confirmed, I will implement ESSA, including the strong 
accountability measures found in the charter school program.

    Question 13. Aside from the market-based approaches that you've 
advocated for, which do not appear to be helping students and families 
in Michigan (demonstrated, in part, by Michigan's precipitous drop in 
NAEP score rankings over the last two decades), what can be done to 
improve the education for students who attend traditional public 
schools?
    Answer 13. The Every Student Succeeds Act (ESSA) calls for locally 
developed plans tailored to each school's and community's specific 
needs and I believe this is the right approach. From my experience, I 
have seen increased student performance when schools improve quality, 
increase accountability and expand choice and if confirmed, I will look 
forward to meeting with stakeholders to discuss ways that we can work 
to improve student achievement for all students.

    Question 14. How do you propose to deal with groups of children who 
are targeted and disciplined at a much higher rate on the basis of 
their race, disability, primary language--at a disproportionate rate 
than white students?
    Answer 14. I oppose discrimination of any kind against students. If 
confirmed, I will enforce all civil rights laws under the Department of 
Education's jurisdiction to protect students' access to equal 
educational opportunity.

    Question 15. How do you plan to enforce the legal requirements 
clarified in guidance by the Office for Civil Rights explaining 
schools' and districts' nondiscrimination requirements with regard to 
school discipline or equitable distribution of resources?
    Answer 15. If confirmed, I will carefully review all existing 
guidance documents that are in effect to ensure that guidance from the 
Department of Education serves as a helpful tool to States, local 
school districts, teachers, school personnel, and others who implement 
Federal education law.

    Question 16. Do you believe the Department of Education has a role 
in ensuring pregnant and parenting K-12 students have access to the 
same educational environments as non-parenting students? If so, what 
role should the Department of Education play?
    Answer 16. Schools should be a place of learning and personal 
growth, and, if confirmed, I will ensure that the Department of 
Education fulfills its critical role in ensuring all students, 
including students who are pregnant or parenting, have equal access to 
educational opportunity.

    Question 17. As Secretary how will you work to eliminate the 
educational disparities that exist for students of color? How will you 
work with diverse communities to ensure that their perspective, 
knowledge and expertise are valued and utilized in the policies of the 
Department of Education?
    Answer 17. Seeing the lack of educational opportunities for 
students of color and other disadvantaged students is what inspired me 
to become involved in the education reform effort. I have worked with 
diverse communities across the country to expand educational 
opportunities for all students, but particularly for students of color.

    Question 18. Please describe how you will ensure that students with 
disabilities have access to accommodations provided by Section 504 of 
the Rehabilitation Act of 1974, including the importance of oversight 
and enforcement provided by the Office of Civil Rights.
    Answer 18. If confirmed, I will work with the Office for Civil 
Rights to enforce Section 504 of the Rehabilitation Act of 1973. I will 
also work with that office and the Office of Special Education and 
Rehabilitative Services to learn more about what the Department could 
do better to support efforts to provide students appropriate 
accommodations.

    Question 19. How would you ensure the family of a student, who uses 
a voucher to attend a school other than the public school they would 
normally attend, that they would not have to pay for access to 
specialized instructional support personnel and other related services 
to provide the student with the tools needed to graduate and succeed in 
a higher education institution or the workforce?
    Answer 19. I believe parents should have the freedom to choose 
between a high-quality public school, a public charter school, a magnet 
school, or a nonpublic school. I believe a competitive marketplace in 
our elementary and secondary education system will work as well as it 
does in our diverse higher education system, where colleges and 
universities compete for students, and students and their parents get 
to choose which school to attend. With a diverse array of good schools, 
every family should be able to find the best match of school for their 
child's individual needs. Just as the Pell Grant is not always enough 
to pay for the cost of tuition and fees at most institutions of higher 
education, vouchers in the K-12 arena sometimes fall short, but still 
provide meaningful support to enable students to attend the institution 
of their choice.

    Question 20. If the goal of ESSA's annual assessments is to gauge 
the knowledge and skill of a student, do you support allowing students 
with disabilities to use assistive technology and other types of 
accommodations to access the assessment, provided these tools do not 
undermine the testing construct?
    Answer 20. I believe that we need to enable as many students as 
possible to participate in the State regular assessments. The Every 
Student Succeeds Act requires that, to the extent that is practical, 
all State assessments must be developed using the principles of 
universal design. For students with disabilities who receive 
accommodations under the IDEA, States must provide those accommodations 
on the State regular and alternate assessments. If confirmed, I will 
work with States to ensure that both laws are properly implemented.

    Question 21. Do you believe that due process rights and protections 
are important to maintain for students with disabilities and their 
families? If yes, how do you reconcile this position with your position 
on private school vouchers, which supports Federal funding to follow 
the child with disabilities but not these necessary protections?
    Answer 21. Yes. The procedural safeguards enshrined in IDEA for 
students with disabilities in public schools are essential to 
protecting their rights to the free, appropriate public education 
provided by IDEA, and I will continue to strongly enforce the law if I 
am confirmed as Secretary.
    But I do not believe that there is a conflict between protecting 
IDEA and ensuring that those rights are enforced and offering parents a 
different opportunity. Offering parents of students with disabilities 
the opportunity to choose between a private school, a different public 
school, or a non-public school setting empowers the parents to receive 
what works best for their child. Just like in the public schools, not 
every private school will offer every service for every student with a 
disability. It would be misguided to seek to impose on individual 
private schools a standard that is also not imposed on every individual 
public school. If parents are not satisfied with the private options 
available, they maintain all their current options and rights within 
their local public school system. I believe that all students, 
including individuals with disabilities, deserve an equal opportunity 
to lead full, productive and successful lives.

    Question 22. What changes would you make to ensure family 
engagement for students with disabilities is improved in special 
education services?
    Answer 22. I have heard from many frustrated parents that the 
Individuals with Disabilities Education Act has not well served their 
children. If confirmed, I will work with Congress to examine what 
reforms are needed to that law to make it work better for parents and 
educators. I will reach out to parents and advocates who have spent 
years working to make the public school system provide a better 
education for their child. I look forward to learning from them what 
improvements they would seek, and then working with Congress, 
Governors, State legislators and school districts to make those changes 
that would help improve opportunities for students with disabilities.

    Question 23. Please explain your views on the identification of 
students with learning disabilities and whether you believe the current 
Federal policies outlining identification of specific learning 
disabilities are effective. How do you think we could strengthen early 
intervention services for all disabilities?
    Answer 23. Many schools have made significant strides, through 
efforts like Response to Intervention, to improve the education and 
identification of students with learning disabilities. More can 
certainly be done. For students with the most common learning 
disability in reading and language, research suggests early 
intervention using evidence-based programs and strategies makes a big 
difference in ongoing achievement levels. ESSA and IDEA give schools 
flexibility to develop and implement these programs, and if confirmed, 
I will work with the Office of Special Education Programs and 
stakeholders to ensure that States and school districts are aware of 
this flexibility.

    Question 24. Please describe your plans as Secretary to support 
students, parents, educators, and schools to have access to special 
education and related services.
    Answer 24. IDEA guarantees parents and their eligible children with 
disabilities access to special education and related services. If 
confirmed, I will work with the Office of Special Education Programs to 
ensure that IDEA is properly implemented and enforced, and I will work 
with Congress to explore any needed reforms to make IDEA work better.

    Question 25. We know from decades of research that an inclusive 
classroom is the best for all students. Do you believe that students 
with disabilities should learn alongside their peers? How do you 
believe students with disabilities should be supported in general 
education classrooms?
    Answer 25. IDEA requires States to provide a free appropriate 
public education in the least restrictive environment. For most 
students, this means special education and related services in a fully 
inclusive classroom, and, if confirmed, I will work to ensure students' 
access to these classrooms is fully protected and that they have access 
to the supports and accommodations to which they are entitled. I will 
also work with stakeholders to ensure that IDEA is properly implemented 
to provide appropriate learning environments for those students for 
whom a fully inclusive classroom is not appropriate.

    Question 26. Students with disabilities often exit the school 
system with little planning for transition from school to work or post-
secondary education. What is your philosophy on transition services to 
help ensure career and post-secondary success for students with 
disabilities and how will your Department of Education support schools 
and States in supporting students during this critical time? What would 
you do to build on the improvements made in the Workforce Investment 
and Opportunity Act?
    Answer 26. One of the best ways to help a child with a disability 
get a job or pursue post-secondary education is to ensure that they 
have the skills and resources they need to move on from high school. If 
confirmed, I will work with States, local school districts, employers, 
and institutions of higher education to identify best practices in 
transition services to ensure students with disabilities receive the 
help they need to pursue their post-secondary goals.
    In addition, if confirmed, I will work with States to ensure full 
implementation of the provision in IDEA that requires students with 
disabilities by age 16 (or earlier) to have a transition plan that is 
``results-oriented.''
    The reforms to the Rehabilitation Act of 1973 made by the Workforce 
Innovation and Opportunity Act require vocational rehabilitation 
agencies to work with schools to provide transition services to 
students with disabilities. If confirmed, I will work with the 
Rehabilitation Services Administration to ensure that these reforms are 
properly implemented.

    Question 27. Parent Information Centers provide parents of children 
with disabilities free access to information related to the law and 
their child's rights. These PTIs are woefully under-resourced. How do 
you plan on supporting the PTIs, if at all?
    Answer 27. Parents need good information to make informed decisions 
about their child's rights and educational plan. If confirmed, the 
Department will examine the effectiveness and efficiency of current 
outreach programs, centers, and events that focus on providing parent 
information while also exploring new opportunities to use technology to 
improve this outreach. Our goal is to increase parent and family access 
to information across the range of essential issues, from evidence-
based practices to legal rights for parents of students with 
disabilities.

    Question 28. Describe your vision for how the public school system 
should address the needs of nearly 6 million children with 
disabilities, beyond offering school choice options. Should private 
schools receiving public dollars through vouchers meet the same 
standard of addressing those needs?
    Answer 28. I support great public schools and applaud the high 
quality education and services they provide to students with 
disabilities. Enforcing IDEA is a priority, and making sure that local 
school districts follow the law and provide the services and education 
that children with disabilities deserve is essential. At the Federal 
level, we must encourage States to work with parents, schools and 
districts to create more effective IEPs that are useful for increasing 
learning gains for students with disabilities. IEPs must include 
measurable annual goals for monitoring progress and clear information 
for parents about student progress toward high but achievable 
expectations.
    The IEP should be viewed as a practical blueprint for action. 
Students with disabilities are accomplishing great things in States and 
districts that recognize their uniqueness. We can shine a light on 
these successes so that others know what is possible. If confirmed as 
Secretary, I will make it a priority to highlight what works best for 
students with disabilities.
    I also believe that parents should have the choice of school to 
attend, especially for children with disabilities. I will continue to 
look for ways to increase access by students with disabilities to a 
broader range of educational options. I have seen exciting changes in 
students with disabilities when they attend schools that meet their 
needs. My friends, Sam Myers and his mother Tera, attended my 
confirmation hearing last week. Sam, who has Down's Syndrome, was a Jon 
Peterson Special Needs Scholarship recipient. The program exemplifies 
how States can--and do--implement the Federal law and use their 
flexibility to ensure parents can choose the learning environment in 
which their children with disabilities will achieve and thrive.

    Question 29. I'm sure you're aware that most private school voucher 
programs permit schools to discriminate in their admission policies and 
refuse to admit students with a disabilities. As a result, students 
with disabilities are often systematically excluded from voucher 
programs. For instance, most private schools in the Milwaukee voucher 
program ``lack the full complement of educational programs that 
students with disabilities are entitled to if they receive their 
education in the public sector,'' and as a result, students with 
disabilities have been discouraged or excluded from participating. This 
has also occurred in the District of Columbia. Do you believe private 
schools should be prohibited from denying admission to students with 
disabilities? Yes or no? If Yes: Then how would you hold private 
schools that receive Federal education funding accountable for 
providing special education services and supports? If No: If families 
are left with no protections, which data shows is incredibly 
detrimental, how would you ensure that students with disabilities were 
able to receive high quality services?
    Answer 29. No educational program, public or private, is ideal for 
all students, especially students with disabilities. Even today, there 
are public school districts that do not have the services to meet the 
needs of all students with disabilities and suggest to those parents 
that they should enroll their children in nearby charter schools or the 
district arranges to have those students to go to another district to 
have their needs met. So, let's be honest. No individual public school 
provides the full of range of high quality services for every student 
with a disability; this is true for private schools as well.
    Public school systems have the right to establish specialized 
programs at certain schools for students with specific disabilities 
and, through the IEP process, to assign students with specific 
disabilities to these schools to meet their needs more effectively. 
When this occurs, the public schools that do not offer these services 
within the system are not ``discriminating'' against the students with 
these disabilities.
    In far too many cases, the parents of students with disabilities in 
the public schools are currently not satisfied with the services their 
children are receiving. In fact, public schools contract out 
educational services for almost 2 percent of students with special 
needs to ensure they receive their education in private schools where 
the student's educational needs are better met. But too often the only 
way that parents can obtain what is best for their child is through 
legal recourse. This can take months and sometimes years. Children 
don't have years to wait for courts to decide. I believe they should 
not have to wait.
    Offering parents of students with disabilities the opportunity to 
choose between a private school, a different public school, or a non-
public school setting empowers the parents to receive what works best 
for their child. Just like in the public schools, not every private 
school will offer every service for every student with a disability. It 
would be misguided to seek to impose on individual private schools a 
standard that is also not imposed on every individual public school. If 
parents are not satisfied with the private options available, they 
maintain all their current options and rights within their local public 
school system.

    Question 30. Studies in a number of States have indicated there has 
been systematic over-representation of students of color in special 
education, specific categories of special education eligibility, and 
the use of discipline. What is your understanding of over-
representation or disproportionality of students of color in special 
education? If there is over- or under-representation, specifically how 
would your Department of Education address the issue? What is your 
understanding over representation of students of color in specific 
categories of eligibility for special education (e.g., intellectual 
disability)? If there is over representation in specific categories, 
specifically how would your Dept. of Education address the issue? What 
is your understanding of overuse of discipline procedures for students 
with disabilities, particularly students of color who have 
disabilities? Specifically, how would your Department of Education 
address the overuse of discipline procedures?
    Answer 30. If confirmed, I will work with States, school districts, 
and other stakeholders to address over-identification of students of 
color in special education where it is occurring, and address 
discriminatory discipline practices that may rob students of their 
right to an education. IDEA requires such efforts, and I will work to 
ensure that the law is properly implemented and enforced.

    Question 31. Under your leadership, will the Department of 
Education enforce the disproportionality regulation? Please describe 
how you will enforce the regulation or your reasoning of why you will 
not enforce the regulation.
    Answer 31. If confirmed, I will carefully review all new 
regulations to ensure they are consistent with the relevant statute as 
Congress wrote them and are necessary to enable successful 
implementation of Federal law.

    Question 32. ESSA made a number of changes designed to improve the 
continuum of learning from birth through 3d grade. In particular, ESSA 
now allows for joint professional development between kindergarten and 
preschool teachers. How will you support this continuum if confirmed as 
Secretary of Education?
    Answer 32. If confirmed, I will work to implement the Every 
Students Succeeds Act and all laws as written. In this case, I will 
work to ensure States and school districts are aware of the 
flexibilities they have under ESSA to meet their unique local needs.

    Question 33. Early childhood educators are the linchpin of quality 
in early childhood education. They benefit from strong professional 
development and higher education systems that help to prepare them with 
the knowledge, skills and competencies they need to be successful in 
caring for and educating our Nation's youngest learners. As Secretary, 
what resources, regulations and policies will you direct toward 
supporting excellence in the teaching profession, beginning in the 
early years and continuing throughout K-3?
    Answer 33. Research is clear that early childhood education is 
important and can help put a child on a path to success. That is why it 
is exciting to see so many States invest in and support early education 
programs for families. If confirmed, I will work to ensure that States 
and school districts are aware of the flexibilities they have under 
Federal law to meet their unique needs. I am also aware that the 
overwhelming majority of the Federal Government's early childhood 
efforts fall under the jurisdiction of the Department of Health and 
Human Services. If confirmed, I will work with that Department as 
appropriate to support educators and students throughout the early 
grades.

    Question 34. According to the 2013 National Survey of Early Care 
and Education, the median wage for center-based early childcare staff 
was $9.30 an hour, or about $19,000 a year. This means child care 
workers on average make less than parking lot attendants, manicurists, 
and massage therapists. One amazingly dedicated worker I met told me 
she had to choose between paying for food and her medicine. This 
problem is repeated in Head Start as well. We say that children are our 
most valuable resource, so we should be paying the individuals who take 
care of them accordingly. I believe high quality early learning 
opportunities for all children are critical for success later in life--
if children learn more now, they'll earn more later. What will you do 
to help increase wages for our child care and early childhood 
workforce?
    Answer 34. This issue falls primarily under the responsibility and 
jurisdiction of the Department of Health and Human Services, so I would 
respectfully defer to that agency. If confirmed, I will work with that 
Department as appropriate to improve coordination between our two 
agencies so we can help States and local school district maximize their 
Federal resources more efficiently.

    Question 35. Given the critical need for more access to more high 
quality early learning services, how will you work to strengthen and 
expand our system of early learning so more children can receive high 
quality supports?
    Answer 35. This issue falls under the responsibility and 
jurisdiction of the Department of Health and Human Services so I would 
respectfully defer to that agency. If confirmed, I will work with that 
Department as appropriate to support educators and students throughout 
the early grades.

    Question 36. Early childhood educators--including those working in 
publicly funded preschools--are often paid less than their equally 
qualified counterparts in K-12. Do you believe the pursuit of 
compensation parity is important? If yes, how would you support States 
to promote and implement policies that support it?
    Answer 36. This issue falls primarily under the responsibility and 
jurisdiction of the Department of Health and Human Services so I would 
respectfully defer to that agency. If confirmed, I will work with that 
Department as appropriate to improve coordination between our two 
agencies so we can help States and local school district maximize their 
Federal resources more efficiently.

    Question 37. Please describe whether you will support policies that 
support access to a regular high school diploma for the overwhelming 
majority of students with disabilities? What steps will you take to 
uphold the ESSA definition of ``regular high school diploma'' as it 
relates to students with disabilities? Describe under what conditions 
you believe a lesser, non-regular diploma should be provided to 
students with disabilities.
    Answer 37. ESSA appropriately assumes the vast majority of students 
can obtain a regular high school diploma and requires States to 
incorporate graduation rates into State accountability systems. ESSA 
also acknowledges students with the most significant cognitive 
disabilities assessed using the alternate assessment aligned to 
alternate academic achievement standards may be awarded State-
determined alternate diplomas. If confirmed, I will work to implement 
these provisions of ESSA.

    Question 38. As our next Education Secretary, what would your 
priorities be regarding ESSA implementation?
    Answer 38. If confirmed, the Every Student Succeeds Act (ESSA) 
implementation will be one of my top priorities. I will work with this 
committee and stakeholders around the country to ensure implementation 
is carried out as the law was written. I would like to encourage States 
and local school districts to innovate and think outside the box on how 
better to improve education in their local communities.

    Question 39. Universal Design for Learning (UDL) is a 
scientifically valid framework for creating and sustaining educational 
systems that are responsive to the needs of each learner, including the 
students in the many subgroups that are referenced in the Every Student 
Succeeds Act (ESSA), by offering multiple ways of engaging students, 
representing information and demonstrations of mastery. ESSA recognizes 
UDL as a best practice in numerous sections of the law. It is the 
umbrella which encompasses many other strategies such as personalized 
learning and is the underpinning for the successful implementation of 
other strategies, such as multi-tiered systems of support and positive 
behavioral interventions and supports (PBIS). What would you do to 
encourage States to implement UDL in a robust way to ensure that the 
diversity inherent in all learners is addressed?
    Answer 39. Universal Design for Learning (UDL) strategies can be an 
effective tool for ensuring educational systems are appropriately 
tailored to the needs of all students. The Every Student Succeeds Act 
(ESSA) encourages States and school districts to utilize UDL strategies 
where appropriate. If confirmed, I will work with States and school 
districts to ensure they understand the flexibilities they have under 
ESSA to implement UDL and other strategies to support all learners.

    Question 40. In November 2015 the Department issued guidance 
indicating that the Individualized Education Program (IEP) of a student 
with a disability must contain annual IEP goals that ``are aligned with 
the State academic content standards for the grade in which [the] child 
is enrolled,'' and must

        ``include the specially designed instruction necessary to 
        address the unique needs of the child that result from the 
        child's disability and ensure access of the child to the 
        general education curriculum, so that the child can meet the 
        State academic content standards that apply to all children.''

    How will you uphold this guidance and ensure IEP teams around the 
country are ensuring students with disabilities access to general 
education?
    Answer 40. If confirmed, I will carefully review all existing 
guidance to ensure that guidance is helpful to States, local school 
districts, teachers, school personnel, and others who implement Federal 
education law.

    Question 41. What is the role of Federal funding, including formula 
funds and discretionary grants, in supporting schools serving large 
numbers of low-income students and students of color?
    Answer 41. While Federal funding makes up a relatively small 
percentage of all education funding, the purpose of most Federal 
education funding is to support our Nation's most vulnerable children. 
I believe we can do better, though, in giving States and school 
districts sufficient flexibility to use those funds to best support the 
students the funding is intended to serve. If confirmed, I look forward 
to working with the committee to determine how best to utilize Federal 
resources to support student learning.

    Question 42. The College Scorecard, released in September 2015 by 
the Obama administration, provided new data which could potentially be 
accountability measures for institutions of higher education. Data in 
the College Scorecard was from numerous data sets across the Federal 
Government and contained no personally identifiable information. if 
confirmed, will you continue to release the College Scorecard in its 
current form? Will you commit to maintaining public access to all of 
the data that is currently available on the College Scorecard? If not, 
please indicate which data items you plan to eliminate and your 
reasoning for why you do not believe students and taxpayers should be 
able to access each data point.
    Answer 42. If confirmed, I will review the information that the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary. Further, I 
will ensure that the information provided conforms with the 
requirements of the Higher Education Act for the College Navigator and 
college cost information.

    Question 43. Do you believe everyone should be able to go to 
college? Yes or no. If no, who do you think should not be able to go to 
college? If no, who do you believe should choose who should not go to 
college?
    Answer 43. Yes, I believe everyone should have the opportunity to 
pursue a college education if they believe it is the most appropriate 
post-secondary education option for them. I also believe greater access 
to high-quality career and technical education is needed, and that we 
need to explore other innovative post-secondary education options. 
Students should have a wide range of post-secondary options so they can 
identify the most appropriate opportunity for them.

    Question 44. Not all students who enter post-secondary education do 
so on an equal academic, financial, or emotional footing. Those who 
start with greater deficits will need more assistance to reach their 
potential. How will the Department of Education under your leadership 
work to advance and promote equitable outcomes among disparately 
impacted populations?
    Answer 44. If confirmed, I will work with this committee to ensure 
that all students have an equal opportunity for educational success. 
This has been my life's work in Michigan and around the country. I 
believe this starts by providing all students with an equal opportunity 
for a quality elementary and secondary education, so that fewer 
students enter post-secondary education needing remedial instruction.
    If confirmed, I also look forward to working with this committee to 
explore ways to provide support to students who have been poorly served 
by the elementary and secondary system.

    Question 45. Do you believe that liberal arts education, which 
cultivates knowledge that informs active citizenship, is at risk of 
becoming a domain restricted to highly selective private universities? 
Do you believe the Federal Government should support students that 
choose to enter into a liberal arts program?
    Answer 45. I believe liberal arts education plays a vital role in 
our society and that all students need access to an education that 
prepares them for a career and to be engaged and informed members of 
society. One of the great things about our higher education system is 
that the Federal Government supports a broad array of post-secondary 
choices. What President Trump and I agree is students should be given 
good information to be able to make those choices wisely. We do not 
force students into one-size-fits-all education models or instructional 
programs.

    Question 46. The education, employment, and community outcomes for 
individuals with intellectual disability (ID) have historically been 
bleak in our country, with the vast majority living in poverty and 
relegated to subminimum wage jobs in sheltered workshops, or living at 
home with aging parents and little opportunity for productive work or 
activities. Prior to 2008, a number of higher education programs for 
students with ID had sprung up around the country, but there was no 
Federal financial aid or federally funded technical assistance, and 
there were no model programs to encourage the expansion of this 
important educational movement. The Higher Education Opportunity Act 
(HEOA) enacted in 2008 created exciting opportunities for students with 
ID to access certain forms of Federal financial aid, and authorized new 
model Transition and Post-Secondary Programs for Students with 
Intellectual Disabilities (TPSIDs). A National Coordinating Center 
(NCC) was also authorized to provide technical assistance and 
evaluation of the TPSID projects and to develop model accreditation 
standards for such programs. According to a recent count, we now have 
246 higher education programs in the United States, including new model 
programs due to the HEOA. As colleges and universities open their doors 
to students with ID, these individuals are experiencing substantially 
better outcomes in employment, social engagement, and community living. 
TPSIDs have been funded since fiscal year 2010 and the National 
Coordinating Center evaluation is showing very positive results, 
including favorable exit outcomes. For instance, the percentage of 
students who were engaged in employment or career development within 90 
days of program exit has increased from 30 percent in fiscal year 2010 
to 76 percent in fiscal year 2015. Will you support the continuation of 
TPSID model demonstration programs and a National Coordinating Center 
in the reauthorization of the Higher Education Act? Will you support 
continued funding for the TPSIDs and NCC?
    Answer 46. You correctly point out the challenges students with 
intellectual disabilities (ID) have faced in pursuing post-secondary 
education opportunities and employment. If confirmed, I will work with 
the Senate Committee on Health, Education, Labor, and Pensions to 
ensure students with 1D have opportunities to pursue education and 
work. I will work with this committee and stakeholders to review all 
our efforts to support students with ID, including through the TPSID 
program, to ensure we strengthen successful efforts to improve student 
outcomes.

    Question 47. Students with disabilities are graduating high school 
at higher rates than ever before and going on to higher education. 
Unfortunately, their graduation rate from college still lags behind 
students without disabilities. What will you do to ensure higher 
education is more accessible and responsive to the needs of students 
with disabilities? What will you do to help raise the graduation rate 
for students with disabilities?
    Answer 47. If confirmed, I will work with the Office of Special 
Education and Rehabilitative Services and the Office for Civil Rights, 
leaders of the higher education community, and representatives of the 
disability community to ensure that students receive the services and 
accommodations they are entitled to under Section 504 of the 
Rehabilitation Act of 1973 and the Americans with Disabilities Act, and 
will learn more about what the Department could do better to help 
colleges and universities meet the needs of students with disabilities 
on their campuses.

    Question 48. With regard to the ongoing application process for the 
new student loan servicing contract, what will you do to ensure that 
this process proceeds smoothly so that loan servicing is not disrupted 
when current contracts expire in 2019?
    Answer 48. If confirmed, I look forward to reviewing existing 
policies and procedures currently underway at the Office of Federal 
Student Aid, comparing them to efficiencies used in the financial 
sectors, and implementing policies that ensure students and borrowers 
are receiving quality treatment and care that is responsive to 
individual needs while maintaining proper protections for taxpayers.

    Question 49. In his New Deal for Black America, President-elect 
Trump has indicated that he will ensure funding for Historically Black 
Colleges and Universities, which for over 100 years have played a major 
role in educating disadvantaged minorities for the workforce and 
leadership roles in society. Can you explain what this commitment means 
and how this will be achieved?
    Answer 49. President Trump acknowledges the important role 
Historically Black Colleges and Universities play in helping our 
country's youth achieve their dreams of a post-secondary education. 
These institutions should be commended for all the good work they 
accomplish. If confirmed, I look forward to working with you and other 
Members of Congress to engage this community and help strengthen their 
efforts.

    Question 50. Since graduate students no longer qualify for 
subsidized Stafford Loans, taking on student debt to pursue an advance 
degree has become challenging. Borrowers who plan to utilize Public 
Service Loan Forgiveness commit to a career of service for America 
while paying their loans on an income-driven plan. Can you guarantee 
that you will not support policies that will increase costs for 
graduate students or increase the burden of their student debt?
    Answer 50. I am very concerned about the rising costs of college. 
And I recognize the importance of graduate education. If confirmed as 
Secretary, I hope to put forward policies that will help lower student 
debt while also increasing access to post-secondary education, 
including graduate education. I look forward to a robust discussion on 
these issues during the upcoming reauthorization of the HEA.

    Question 51. While the first recipients of the Public Service Loan 
Forgiveness program will receive the benefits of the program in late 
2017, it will be important to track this first group's progress of how 
they maintained their payments during these past 10 years and to take 
steps to address any confusion that may arise when borrowers submit the 
complex forms required for forgiveness and determine which payments 
qualified. Will you commit to reaching out to public service entities 
and borrowers who have submitted any PSLF documents in the past to 
provide them with guidance and support?
    Answer 51. If confirmed, I will ensure that the Department is 
appropriately answering any technical assistance request we receive 
from entities or individuals interested in learning more about the 
Public Service Loan Forgiveness program.

    Question 52. In the 2015-16 school year, 46 States recorded 
spending less per student for higher education than they did at the 
start of the recession. Thus, tuition costs at 4-year public colleges 
have risen by 33 percent since 2008. Prior to these tuition increases, 
studies identified that the share of students coming from communities 
of color at public 2- and 4-year colleges had risen significantly. In a 
study conducted at New York University, researchers found that with all 
else equal, a $1,000 tuition increase for full-time undergraduate 
students is associated with a decrease in campus diversity of almost 6 
percent. Do you believe that higher education today is reinforcing 
economic inequality? What will you do to reverse this trend toward 
excluding lower and middle income people from higher education?
    Answer 52. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education remains affordable. If confirmed, I will work with 
States to ensure that they are holding up their part of the bargain.
    Additionally, I look forward to working with you and your 
colleagues on the Senate Committee on Health, Education, Labor, and 
Pensions on reauthorization of the Higher Education Act to ensure that 
the Federal student aid programs are flexible enough to meet the law's 
goals of providing students with access to post-secondary education.

    Question 53. Data show that 70 percent of Income-Based Repayment 
participants and 83 percent of Pay As You Earn participants earned less 
than $20,000 per year. How will you ensure that students do not default 
on their Federal loans, and how will you expand these repayment plans 
for those from low-income backgrounds?
    Answer 53. If confirmed, I will work to ensure all students are 
aware of all the benefits, including the numerous repayment plans, 
associated with their Federal student loans. I will also look forward 
to working with you and your colleagues to move forward with President 
Trump's campaign proposal to create a new income-driven repayment plan 
that will cap borrowers' repayment at 12.5 percent of their 
discretionary income and offer loan forgiveness after 15 years.

    Question 54. I have heard from many constituents who are deeply 
concerned over the future of individuals protected under the Deferred 
Action for Childhood Arrivals (DACA) program. These young individuals 
who are protected under the DACA program were brought to the country as 
children by their parents, have never been in trouble with the law, and 
are frequently pursuing education or productively contributing to 
society. What would you do to reassure these young people they have 
nothing to fear and that they will be able to remain a vital part of 
the fabric of our Nation?

    Question 55. If the Trump Administration rescinds the DACA 
policies, do you have a plan for DACA recipients who are currently 
pursuing higher education to remain at their institutions, continue 
with their education, work to support themselves, and, if applicable, 
maintain residency for in-State tuition and State financial aid? Please 
describe how you plan to address this issue.
    Answers 54-55. Enforcement of our Nation's immigration laws falls 
under the responsibility and jurisdiction of the Department of Justice 
and the Department of Homeland Security so I would respectfully defer 
to those agencies.

    Question 56. What do you see as the necessary supports for 
providing a well-rounded education for our Nation's children, including 
music and arts, in our Nation's schools--be they district or charter 
schools? And what role does the Federal Government play in insuring 
those supports are available for all students and in all schools?

    Question 57. According to a recent National Endowment for the Arts 
(NEA), only 26 percent of Hispanics ages 18-24 surveyed reported 
getting any arts education, in comparison to 28 percent of African 
Americans and 59 percent of whites. Further, 3.9 million public 
elementary school students do not have access to visual arts classes 
and 1.3 million public elementary school students have no access to 
music classes. What policy measures can be put in place to create 
access for more minorities to receive a music and arts education?
    Answers 56-57. In general, I believe it is best to defer to the 
judgment of State and local officials about how to implement education 
policies. If confirmed, I would welcome the opportunity to share data, 
best practices, and strong research from the Department of Education 
with State and local officials so they can adapt it to their needs. But 
I also hope States and local leaders will think outside the box and 
innovate, looking for new solutions to vexing educational problems. 
Regarding arts and music education, I agree they can be an important 
part of a well-rounded education and hope that local education leaders 
can find new ways to expand student opportunities in these areas, 
particularly with the greater flexibility provided to States and local 
school districts.

    Question 58. How do you propose to ensure that the rights of 
lesbian, bisexual, gay, and transgender students' under Title IX of the 
Education Amendments Act and students with disabilities under Section 
504 of the Rehab Act and Title II of the ADA aren't violated?

    Question 59*. In the last fiscal year, the OCR continued to face an 
increasing number of complaints from students who attend schools that 
may have violated their civil rights, while at the same time working 
with a very low number of staff to handle enforcement. Under your 
leadership, will the Dept. continue to pursue the many complaints and 
compliance reviews that will be pending with OCR at the time of the 
transition between administrations? Will you prioritize funding for 
this critical office?
    Answers 58-59. The Office for Civil Rights has an important mission 
to play in enforcing the law. If confirmed, I will ensure that the 
Department enforces the law appropriately to protect all of our 
Nation's students. I will look closely at the budget of the Department 
of Education to determine the best allocation of taxpayer dollars when 
proposing budgets for future fiscal years.

    Question 60. The Office of Civil Rights Civil Rights Data 
Collection has provided parents, educators, and policymakers with 
invaluable data on critical issues that impact a student's access to a 
meaningful education. Do you support the continuation of this 
collection? If yes, please explain how you will ensure that this data 
is provided to parents & public in a transparent way, and how you will 
use the findings to inform policy decisions. If no, how do you intend 
to provide parents, educators and policymakers with data on key issues?
    Answer 60. If confirmed, I will carefully review all existing data 
collections conducted by the Department to ensure that they serve as a 
helpful tool and provide meaningful information.

    Question 61. Over the last 8 years, OCR has enhanced transparency 
by posting on its website many more resolution agreements and letters, 
policy guidance documents, technical assistance materials and 
information about OCR's enforcement processes. Will you commit to 
continuing such transparency in the Department's publications and 
online resources so that Congress and the public can readily track the 
Department's enforcement of each anti-discrimination law?
    Answer 61. I believe in transparency and accountability. If 
confirmed, I will carefully examine this issue before making such a 
commitment, but I look forward to discussing this with you after I have 
studied this further.

    Question 62. How should charter schools be monitored by the 
Department of Education's Office of Civil Rights for compliance with 
the Americans with Disabilities Act and Section 504 of the 
Rehabilitation Act? Should charter schools be held to different 
standards for compliance than traditional public schools? If so, why? 
What should be the standard for compliance for charter schools and how 
do you legally justify such a difference?
    Answer 62. Charter schools are public schools and are subject to 
the same standards of compliance with the Americans with Disabilities 
Act and Section 504 of the Rehabilitation Act as traditional public 
schools.

    Question 63. The Rehabilitation Services Administration is located 
within the U.S. Department of Education and implements the multi-
billion dollar Vocational Rehabilitation (VR) Program that helps adults 
with disabilities obtain employment and access independent living 
supports. Despite its budget, not every eligible adult can access VR 
services. Moreover, the Bureau of Labor Statistics reports that the 
unemployment rate for adults with disabilities is 10 percent compared 
to the general population rate of 4.2 percent. What specific actions 
will you take to increase the employment rate of adults with 
disabilities?
    Answer 63. I believe the underemployment of individuals with 
disabilities speaks volumes about low expectations. If confirmed, I am 
interested in working with Congress, States, and other stakeholders to 
conduct a complete examination of the VR programs to improve 
effectiveness and efficiency.

    Question 64. In recent years, Congress has made significant 
progress toward preparing youth and young adults with disabilities to 
succeed in the 21st century workforce. The workforce Innovation and 
Opportunity Act (WIOA) was a shining example of bi-partisan legislation 
that will empower a future generation of workers with disabilities. 
Although, we can't ignore the millions of older working age adults who 
find themselves faced with an age-related disability like blindness or 
significant hearing loss, and who do not have the resources to retire 
early or sustain themselves on our safety net programs. To this end, 
are you committed to strengthening our rehabilitation system in a 
manner that provides opportunity for the millions of Americans who have 
worked hard their entire life, but find their labors threatened by the 
onset of an age-related disability? If so, what pathways do you 
envision as a solution through the department's Rehabilitation Services 
Administration?
    Answer 64. If confirmed as Secretary, I look forward to working 
with Congress, the Department of Health and Human Services, the 
Department of Labor, States, and other stakeholders to review ways to 
increase access to services and materials for individuals with age-
related disabilities.

    Question 65. The Office of Special Education and Rehabilitative 
Services has promoted inclusion, equity and opportunity. Please explain 
whether you intend to uphold this focus and what changes in direction, 
if any, you envision. Additionally, please explain how your policy 
direction will embrace these areas.
    Answer 65. I agree that inclusion, equity, and opportunity are 
important principles in working with individuals with disabilities. If 
confirmed, I will review the actions and guidance of the Office of 
Special Education and Rehabilitative Services and determine what, if 
any, changes need to be made. I will also consult with the President's 
nominees for Assistant Secretary and Commissioner of Rehabilitation 
Services when nominated.

    Question 66. In 2014, the Department of Education announced a 
revised accountability system called Results-Driven Accountability 
(RDA), which the Department would shift its accountability efforts from 
a primary emphasis on compliance to a framework that would focus on 
improved results for students with disabilities. RDA emphasizes student 
outcomes such as performance on assessments and graduation rates. 
Should the Department maintain its focus on outcomes for students with 
disabilities through RDA, or do you think the Department should 
discontinue RDA? Why or why not? If the Department discontinues RDA, 
will it continue to hold States and school districts accountable for 
the outcomes of students with disabilities? How? If the Department 
maintains RDA, how will it hold States and school districts accountable 
for the outcomes of students with disabilities?
    Answer 66. I believe in accountability for all students, including 
students with disabilities. If confirmed, I will review the actions and 
guidance of the Office of Special Education and Rehabilitative Services 
and determine what, if any, changes need to be made.

    Question 67. Following a 2012 Government Accountability Office 
report, various Federal agencies have acknowledged that they must 
better coordinate programs to support the needs of individuals with 
disabilities. This will require deliberate, strategic program 
alignment. Please explain how you intend to further this necessary 
work.
    Answer 67. If confirmed, I will review the 2012 GAO Report. But in 
general I agree government needs to improve its efforts to support the 
needs of people with disabilities. I look forward to working with my 
colleagues to find ways that the Trump Administration can improve those 
services and help Americans with disabilities thrive.

    Question 68. Historically, the Personnel Preparation program, 
funded through the Office of Special Education Programs, has had a 
demonstrated impact on increasing the number of special education 
teachers produced in States. Additionally, this program has produced 
thousands of special education faculty members who are responsible for 
preparing special education teachers and conducting the intervention 
work that has been so vital to schools. Do you believe that funding for 
this program should be continued at its current level and even 
increased? Will you work with the President and Congress to ensure that 
funds available for this program are maintained at current levels or 
increased?
    Answer 68. If confirmed I will work with Congress to evaluate 
effective ways to increase the number of qualified special education 
teachers. Having an effective teacher is essential to student success.

    Question 69. As you may be aware, the House and Senate came close 
last Congress to passing a reauthorization of the Perkins Career & 
Technical Education Act, which I spent a great deal of time working on. 
We were able to get agreement on a lot of positive areas like greater 
employer involvement, streamlined requirements for participating 
schools, support for innovation, and greater supports for individuals 
with disabilities. We were unable to agree on the issue of secretarial 
authority. Like many in PA, I believe that the Secretary of Education 
should maintain oversight of State CTE performance targets that has 
existed in Perkins for decades. Do you have any ideas on how we can 
further enhance the areas of agreement I've outlined above?
    Answer 69. Career and technical education programs are vital for 
many students who need the skills to enter into quality employment upon 
completion of their program. As such, if confirmed, I look forward to 
working with you, the committee, and the Congress as the debate to 
reauthorize the Carl D. Perkins Career and Technical Education Act 
unfolds.

    Question 70. Some in the manufacturing community say there are many 
jobs that could come back to the United States, if the United States 
had a workforce with the baseline academic and nonacademic skills 
needed to be trained in new technologies. How can the Department of 
Education under your tenure provide leadership in this area?
    Answer 70. As a proponent of local control, I believe that those 
closest to student and to the needs of regional economies have the best 
knowledge about the types of training needed to close the skills gap. 
If confirmed as Secretary, I would welcome the opportunity to work with 
Congress as you reauthorize the Perkins Career and Technical Education 
Act. Additionally, as Secretary I can share data, best practices, and 
strong research with State and local officials so they can adapt it to 
their particular needs. But I also hope that States and local leaders 
will think outside the box and innovate, looking for new solutions to 
vexing educational problems. if I can be a resource to help as 
Secretary, I would welcome that opportunity.

    Question 71. Today's global economy demands investment in a highly 
qualified and technical workforce. While more women are working more 
than ever before, they tend to be overwhelmingly clustered in low-wage, 
low-skill jobs. In many high-wage, high-skill fields, women's 
representation falls well below the 25 percent threshold. Equitable 
opportunity to high-wage, high-skill fields is critical to ensuring 
that the United States remains competitive and continues to meet the 
needs of the Nation's evolving high-tech workplaces. The Carl D. 
Perkins Career and Technical Education Act includes critical gender 
equity provisions intended to increase the number of women in 
nontraditional careers. How do you plan to enforce performance measures 
and ensure States are taking aggressive steps to increase women's 
enrollment and completion in nontraditional careers?
    Answer 71. I agree reauthorization of the Perkins Career and 
Technical Education Act is an important priority, and, if confirmed, I 
look forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions along with other interested Members of Congress to 
update and improve the law. I believe we should work to align Federal 
laws to ensure consistency across programs, reduce duplication and 
unnecessary requirements, and provide a seamless set of policies. It is 
also important to provide flexibility at the State and local level so 
local officials on the ground can create and run programs educate 
students to attain the skills needed to work in those in-demand jobs. 
Finally, I support transparency of data so parents, students, and other 
taxpayers can see how well their programs are working.

    Question 72. Given your limited managerial experience with public 
school systems and higher education, if confirmed, will you commit to 
appointing undersecretaries and assistant secretaries with deep 
experience working in and managing public school systems and 
institutions of higher education?
    Answer 72. Leadership skills and experience are transferrable. If 
confirmed, I commit to putting a team of highly capable and experienced 
individuals together to work on behalf of all students of all ages and 
life-stages.

    Question 73. As Secretary, will you commit to strengthening and 
investing in the public system--and keeping it public?
    Answer 73. I am a strong supporter of public education, and will 
continue to look for ways to support and strengthen our public schools 
so that all children receive a high quality education. In addition, I 
support great schools in all forms--public, nonpublic, magnet, home, 
religious, and virtual. If confirmed, I will work with States to 
increase educational opportunities to ensure that all students have 
equal access to a quality education.

    Question 74. A recent report indicated that, in Michigan, special 
education students in both Michigan's traditional public schools and 
Michigan's charter schools made significantly smaller gains in 
proficiency in reading and math than students not receiving special 
education services. But charter school students with disabilities made 
significantly smaller gains in both reading and math than did students 
at traditional public schools. Why do these disparities exist in 
Michigan? Do you think these disparities are a problem? Why or why not? 
What, if anything, should the Department of Education do about such 
disparities in academic achievement between special education students 
in charter schools and special education students in traditional public 
schools?
    Answer 74. The enrollment percentage of special education students 
in Detroit is 16 percent in DPS and 9 percent in charter schools, with 
roughly 1,100 (or 10 percent of special education students) enrolled in 
center-based programs outside of DPS or charter buildings. The 
statewide average is 11.8 percent.
    While proficiency rates of special education students at DPS 
schools and in charters are very similar, data from the 2015 CREDO 
study showed smaller learning gains for special education students in 
charters when compared to DPS, and it was the only subgroup to have 
this performance. This was the first known comparison of these 
particular students, and we're looking forward to a deeper dive into 
this particular issue.
    As you know, each child with a disability faces unique 
circumstances and Individualized Education Programs vary for each 
child. It's entirely possible that the future reports of the study will 
show that these problems have been corrected. We also know that 
academic progress can take time. Sometimes students do not make 
progress in the year when they change a school, only to make dramatic 
improvements in future years after they have acclimated. Other times 
the school proves not to be a good fit, and the parents decide to move 
their child to another school.
    However, if confirmed, I would work with the State of Michigan to 
maintain vigilance on this issue, and encourage them to include this in 
their monitoring and enforcement systems to ensure that students with 
disabilities are being provided the services they need to make 
appropriate learning gains.

    Question 75. What do you think are some of the main challenges 
faced by teachers in today's classrooms? What about the teaching 
profession as a whole? What do you think would be the best strategy for 
improving teachers skills so that they are better able to drive student 
learning?
    Answer 75. Educating, training and preparing great teachers is 
critical work. All students, including our special education students, 
deserve effective teachers to help them achieve and succeed. If 
confirmed, I will work with States, universities, colleges of education 
and other stakeholders to ensure we have a strong pipeline of well-
prepared and effective teachers to meet the important demands of 
today's student population. We must also strive to attract new teachers 
to the workforce to address the teacher shortage in urban and rural 
schools.

    Question 76. Teacher turnover is a significant problem in many 
high-need schools and high-need fields. Research tells us that a large 
degree of teacher turnover has a negative impact on student 
performance. As Secretary of Education, how would you envision reducing 
teacher turnover and extending the retention of teachers in the 
profession so that our workforce is more experienced, particularly for 
high-need schools and students?
    Answer 76. I agree that reducing teacher turnover is an important 
part of improving educational outcomes for students and I look forward 
to further conversations with stakeholders. As a proponent of local 
control, I believe State and local officials know best how to implement 
policies to improve teacher recruitment and retention. If confirmed I 
would welcome the opportunity to share data, best practices, and strong 
research from the Department of Education and other agencies with State 
and local officials so they can adapt it to their particular needs. But 
I also hope that States and local leaders will think outside the box 
and innovate, looking for new solutions to vexing educational problems.

    Question 77. Do you think teachers are paid too much or too little? 
Why? Do you think paying teachers more for their work would change the 
profession? Why or why not?
    Answer 77. Teacher compensation is a decision made at the local 
level. I would certainly encourage local school districts to use their 
resources wisely and pay teachers what they can within the constraints 
of their budgets.

    Question 78. Under what circumstances do you believe a school or 
college receiving Federal funds would not be required to follow parts 
or all of title IX, which bans discrimination against students and 
educational professions on the basis of their gender? Please provide 
facts, legislative history, statute, regulation, and public policy 
reasons that support your answer.
    Answer 78. Schools that receive Federal funds must comply with 
Federal laws. But in some cases institutions may choose to use the 
exemption that is provided in the statute to exempt themselves from 
title IX or parts of it. If confirmed, I will enforce the laws under 
the jurisdiction of the Department of Education.

    Question 79. If the Department receives a complaint from a 
transgender student that she has been bullied severely at her school 
after coming out as transgender, and the student and her family asked 
the school repeatedly and the school did nothing about the bullying, 
and the student is now suffering every day and struggling in classes--
is that a case the Department should investigate for possible 
violations of title IX?
    Answer 79. Bullying and harassment of any student should not be 
tolerated. Schools should be an environment of learning and, if 
confirmed, I will work with the First Lady, who has indicated she 
intends to make this issue a priority, and State and local school 
officials to prevent bullying and harassment.
    If a school is failing to protect any student from bullying and 
harassment and a complaint is made to OCR, I would expect that office 
to investigate as required under the law.
    While the focus on bullying is important, it is also important to 
focus on encouraging positive behavior. Simply put, let's share best 
practices which encourage students to be kind, civil and treat everyone 
with dignity and respect.

    Question 80. How will you work with States, LEAs and schools to 
ensure that they have the resources necessary to support the work of 
title IX coordinators through training, education, and outreach to 
students and employees about title IX?
    Answer 80. I will look closely at the budget of the Department of 
Education to determine the best allocation of taxpayer dollars to 
programs when proposing budgets for future fiscal years.

    Question 81. Are you in favor of expanding the Child Care Access 
Means Parents In School program, which provides childcare grants for 
colleges with high concentrations of student parents?
    Answer 81. I will look closely at the budget of the Department of 
Education to determine the best allocation of taxpayer dollars to 
programs when proposing budgets for future fiscal years, and will 
consider carefully the financial needs of students and parents.

    Question 82. If a student enrolled in a virtual school requires 
behavioral interventions, how is this need addressed and who is 
responsible for ensuring effective implementation of interventions? 
When a student's disability requires related services such as speech or 
occupational therapy, who is responsible for paying for this and 
providing the services and how? When a student with a disability 
requires accommodations to access an online learning environment, who 
is responsible for providing the accommodations and ensuring access?
    Answer 82. All public schools are obligated to provide special 
education and related services to IDEA-eligible students. This includes 
virtual public schools. Like any other school, the virtual school would 
work with parents as part of an IEP process to determine what services 
the child needs, how they will be provided, and who will provide them. 
And the IEP team would periodically review the services to ensure the 
child is making appropriate progress. Parents that have chosen a 
virtual public school are entitled to the same IDEA protections as any 
other child.

    Question 83. Public education is one of the cornerstones of our 
Nation. Public schools serve students of all economic, geographic, 
ethnic, religious, gender, and racial backgrounds. History has shown 
that American public schools are a significant unifying factor in our 
society, bringing together students of diverse backgrounds. What are 
your top three priorities for strengthening public education in the 
United States?
    Answer 83. As a strong supporter of public schools, I will use 
evidence-based best practices to encourage strong accountability, high 
achievement, and successful school leaders and teachers. While in 
general I believe it is best to defer judgment to State and local 
officials about how best to improve public education, if confirmed, I 
will welcome the opportunity to share data and good research from the 
Department of Education with State and local officials looking to 
improve educational opportunities.

    Questions 84. What accountability measures or quality controls 
would you recommend regarding where vouchers may be used, such as only 
at schools with proven records of success?

    Question 85. You have advocated to allow for title I dollars to be 
used for private school vouchers. I strongly oppose this idea and 
during ESEA reauthorization, it was an idea that was not supported by 
Congress and left out of the Every Student Succeeds Act. Will you 
respect the will of Congress and agree not to pursue, in any form, a 
policy that Congress has explicitly rejected including shifting title I 
dollars to private vouchers?

    Question 86. If for whatever reason, a student leaves a private 
school whose tuition was paid for, at least in part, with Federal 
funding, before finishing out the academic school year, should the 
school be required to return the remaining money? If no, why not?

    Question 87. If a school voucher program was enacted at the State 
or Federal level, what oversight would your Department of Education 
recommend so as to ensure that students with disabilities, students of 
minority faiths and no faith, and LGBT students receive the same legal 
protections they would be afforded in public schools?
    Answers 84-87. President Trump has made a robust school choice 
proposal a centerpiece of his platform, and, if confirmed, I look 
forward to working with you on our proposal and hope to convince you to 
support the legislation. When we have more details I look forward to 
meeting with you to discuss the proposal and see if we can develop a 
consensus.

    Question 88. The Workforce Innovation and Opportunity Act (WIOA) 
strengthened the Rehabilitation Act to increase emphasis on employer 
involvement in the vocational rehabilitation program. WIOA added a new 
section that permits State vocational rehabilitation agencies to use 
their Federal grants to target relationships with employers. Based on 
your experience as an employer and the laws protecting the employment 
rights of people with disabilities, what recommendations do you have 
for the vocational rehabilitation program to improve outreach and 
services to employers?
    Answer 88. From my experience as an employer, I have found working 
with local business and civic groups to inform employers is a good way 
to create greater awareness of vocational rehabilitation programs.

    Question 89. Youth with disabilities are often denied the 
opportunities to learn job skills through work in their youth and early 
adulthood, leading to unemployment and underemployment throughout their 
lives. How would your Department engage youth with disabilities in pre-
employment opportunities that will lead to successful transitions from 
school to work or higher education? How would you ensure that the 
public workforce system fully integrates people with disabilities, 
especially youth with disabilities, into the economic development of 
regional economies?
    Answer 89. The unemployment rate for people with disabilities is 
very disturbing and something President Trump and I, if confirmed, 
would like to work with Congress to find bipartisan solutions to remedy 
at the pre-employment and employment levels.

    Question 90. How will you ensure that sufficient resources are 
allocated for States and programs to successfully implement the 
programmatic changes required by Title II of the Workforce Innovation 
and Opportunity Act?
    Answer 90. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years.

    Question 91. Will you pledge to protect and expand the Pell Grant 
which has been such a bedrock support for first generation and low-
income college students?
    Answer 91. I look forward to working with you, the Senate Committee 
on Health, Education, Labor, and Pensions and the Congress during the 
debate of the reauthorization of the Higher Education Act to ensure 
that the Federal role of access remains a core goal of that law.

    Question 92. What are your views on the current title IV student 
aid programs? Will you seek to make changes to any of these programs 
either through the budget/appropriations process or reauthorization 
process?
    Answer 92. The Federal aid program includes several areas of 
confusion, first among them is the number of repayment options, and 
number of income-driven repayment options. If confirmed, I look forward 
to working with you to reduce the confusion in the Federal aid system, 
including repayment options, so that students and families may better 
understand and navigate the programs and to provide borrowers with the 
opportunity to repay their loans at reasonable amount for a reasonable 
period of time.

    Question 93. The Institute of Education Sciences (IES), provides 
rigorous and independent research and evaluation on our Nation's 
education programs. What are your views on IES and will you pledge to 
support it?
    Answer 93. This is an important component of the Department of 
Education, and serves a valuable role in providing high-quality 
research to benefit the country. If confirmed, I look forward to 
finding ways to help translate that research into effective practice.

    Question 94. What specific actions do you believe could be taken to 
improve struggling rural schools?
    Answer 94. Clearly, more can be done to support rural schools. Many 
of our rural communities have not shared in the same economic 
prosperity of our urban and suburban areas. Schools serving these 
communities and populations continue to face unique challenges, 
including, but not limited to, resources, staffing, and services for 
students.
    I am pleased with the steps Congress took under the Every Student 
Succeeds Act (ESSA) to reauthorize the Rural Education Assistance 
Program (REAP) and other provisions in the law to provide more 
flexibility to rural school districts in how they apply and compete 
for, as well as combine and utilize, Federal funding to meet local 
needs. I look forward to helping States and rural school districts 
fully take advantage of the change in the law.
    More and more, technology can bring greater and richer content to 
classrooms, both rural and urban. Access to the requisite 
infrastructure to enable these innovations is an important conversation 
for the current Administration and Congress.
    It is my understanding, that even at the U.S. Department of 
Education, competitive grants often ignore the realities of rural areas 
or unintentionally exclude them based on their requirements.

    Question 95. The Kirwan Report issued in 2013 presents views on the 
regulation of higher education as well as specific policy 
recommendations. What plans, if any, do you have for implementing or 
supporting congressional action based on the recommendations included 
in the report?
    Answer 95. I applaud the bipartisan group of Senators that put 
together this Commission and the work that the Commission did. If 
confirmed, I look forward to working with the committee to develop a 
specific plan for implementation of these recommendations, as well as 
reviewing and evaluating those items the report identifies the 
Department can address on its own.

    Question 96. There have been policy proposals from within the Trump 
administration that suggest privatizing the Corporation for Public 
Broadcasting (CPB). The CPB plays a critical role in supporting public 
television across Pennsylvania and the Nation. Given the overlap 
between the Department of Education and CPB, do you support 
privatization?
    Answer 96. I would respectfully refer you to Congressman Mulvaney, 
President Trump's nominee for the Office of Management and Budget, for 
any answer to that question.
                            senator franken
    Question 1. In your 2001 comments at the Christian philanthropist's 
conference, ``The Gathering,'' you said that the work you were doing to 
change the education system in the United States would lead to 
``greater Kingdom gain in the long run.'' What did you mean by this and 
what do you believe to be the role of religion in the taxpayer-funded 
U.S.-public education system?
    Answer 1. My faith is very important to me and informs my work. In 
education, it teaches me that every child is special and deserves the 
best we can offer them. That said, I do not believe in imposing my 
faith on others and, if confirmed, I will implement the laws as 
intended by Congress. That includes the provisions about the 
prohibition against religious instruction in schools.

    Question 2. Given that one in five youth between the ages of 13-18 
have or will have a serious mental illness, mental health is one of the 
country's most pressing unmet needs. The Every Student Succeeds Act 
(ESSA) that became law last year included provisions to increase access 
to mental health services in schools. If you are confirmed by the 
Senate, what can the Department of Education do to support school 
districts that are trying to expand mental health services at the local 
level?
    Answer 2. Mental health is an important issue many families, 
schools, and communities struggle with. Provisions in the Every Student 
Succeeds Act, such as the Full Service Community Schools, is just one 
example of how the new law can help local school officials and families 
address the issues facing their children, such as mental health issues.
    Another is through the Student Support and Academic Enrichment 
Grants which provides funding for local districts to utilize funding to 
address the needs in their schools. This funding could be used to 
provide critical support for mental health issues. If confirmed, I 
intend to implement the law as written and I look forward to working 
with Congress to do so.

    Question 3. Children in foster care often change schools when they 
move between foster homes--this can have a devastating impact on their 
education. There are an estimated 260,000 children of school-age in 
foster care. They often are victims of abuse or neglect, have been 
separated from their parents and siblings, and have been taken into 
custody of the child welfare system and placed in unfamiliar new 
families and neighborhoods. An estimated 56 to 75 percent of them 
change schools when they first enter into foster care. Data show that 
more than one-third of the 17- or 18-year-olds in foster care have 
experienced five or more school changes. A General Accountability 
Office (GAO) study found that changing schools negatively affects 
student academic outcomes. In fact, foster youth score significantly 
lower than their peers on standardized tests and drop out of school at 
higher rates. A stable educational experience is essential for children 
in foster care. School may be the only stable familiar connection they 
have. In June 2016, the Department of Education released non-regulatory 
guidance on Ensuring Educational Stability for Children in Foster Care. 
If confirmed by the Senate, how will you work to increase the 
educational stability of and improve educational outcomes for students 
in foster care?
    Answer 3. Children in foster care face unique challenges in 
accessing a high-quality education, and I am eager to help States 
continue to develop or improve policies that prove effective at helping 
foster students pursue their education.
    If confirmed, I will carefully review all existing guidance 
documents that are in effect to ensure that guidance from the 
Department of Education serves as a helpful tool to States, local 
school districts, teachers, school personnel, and others who implement 
Federal education law, and not as a hindrance to State and local 
efforts to follow the laws as Congress wrote them.

    Question 4. We need to make sure that kids have a safe, enriching 
place to be afterschool gets out. After school programs play a critical 
role in increasing student achievement, keeping students safe, and 
helping working families. There are over 100 21st Century Community 
Learning Centers across Minnesota that provide high-quality afterschool 
enrichment for young people. My amendment to the Every Student Succeeds 
Act (ESSA) re-authorized a current program for community learning 
centers that provide academic enrichment opportunities during 
afterschool hours for children, particularly students who attend high-
poverty and low performing schools. If confirmed by the Senate, how do 
you plan to support rich and high-quality afterschool learning 
experiences for students?
    Answer 4. Afterschool programs are critical to the safety and 
continued learning for many students. There are many programs offered 
by wonderful local community groups and schools that offer valuable 
opportunities for learning.
    As you noted, the Every Student Succeeds Act included the 
reauthorization of the 21st Century Community Learning Centers, a 
program that helps to provide afterschool services to many children. If 
confirmed, I will implement the law as intended and funded by Congress, 
including the 21st Century Community Learning Centers program.

    Question 5. Many of our Nation's children live in extreme poverty. 
Such children may experience physical abuse and neglect, they may have 
parents that misuse drugs and alcohol, and they may witness domestic 
violence and violence in their neighborhoods. Have you heard of 
research on trauma and adverse childhood experiences? Do you know how 
it relates to the ability of children to learn?
    Answer 5. I have seen estimates that trauma has affected as many as 
one in four students attending school. We all know trauma can affect 
students in different ways, both silently and outwardly, but can cause 
challenges to a child's education in any form. It is important for 
families and school officials to be able to recognize the signs of 
trauma and access help for students.

    Question 6. The Department of Education administers many programs 
in K-12 and early childhood education. For example, the STEM Master 
Teacher Corps is a program I have championed through legislation that 
is now part of the Every Student Succeeds Act (ESSA). This program was 
designed to address the shortage of teachers in STEM fields--science, 
technology, engineering, and math. Given you will have the ability to 
determine funding levels for various programs, which ESSA programs will 
you prioritize?
    Answer 6. The need for more STEM teachers is important and programs 
like the STEM Master Teacher Corps is one way to address that need. If 
confirmed, I will implement the law as written by Congress.
    Additionally, I will look closely at the budget of the Department 
of Education to determine the best allocation of taxpayer dollars to 
programs when proposing budgets for future fiscal years. I look forward 
to talking with local school officials and other stakeholders to better 
understand the needs in our schools and communities, and to helping 
provide support for the activities and programs they need.

    Question 7. I have been fighting hard to make college more 
affordable and improve college access for all students. Our Federal 
student aid programs are what, in large part, make college accessible 
for the vast majority of America's college-going youth. What do you 
believe are some of the most important Federal student aid programs 
that increase access to higher education for populations such as low-
income families, first-generation college students, foster youth, or 
single parents? If confirmed by the Senate as Education Secretary, what 
will you do to support and expand these programs?
    Answer 7. As I understand it, the Higher Education Act (HEA) was 
designed with many of the students you mentioned in mind. The goals of 
the Federal student aid programs such as grants, loans, and work study 
are to ensure access to post-secondary education for traditionally 
underserved populations. I think it is important to ensure that these 
students understand the programs that are available to them so they can 
make informed choices about their post-secondary options. I look 
forward to working with you and your colleagues to strengthen the 
Federal student aid programs for these very students during the 
upcoming reauthorization of the HEA.

    Question 8. I have long supported full equality for LGBT 
individuals and strongly advocated for protecting LGBT students from 
bullying and harassment at school. More than 30 percent of LGBT kids 
report missing at least 1 day of school in the previous month because 
they felt unsafe. In the hearing you said that you feel that you 
believe in equality and that every student should have a right to a 
safe education environment. Please explain what you mean by this and 
elaborate on your plan to specifically protect LGBT students from being 
bullied, harassed, or even physically harmed based on their sexual 
orientation and/or gender identity in our public schools.
    Answer 8. Like you, I too have long supported equality.
    As a parent, I cannot imagine the helplessness, fear, and anger 
that parents feel when confronted with the unfortunate reality that 
their child is being targeted by these actions and hurt in terrible 
ways. This is an issue for all students, including LGBT students, 
students with disabilities, and children harassed because of their race 
or religion.
    If confirmed, I look forward to working with the First Lady's 
office on this important issue, as she has indicated this will be a 
priority for her. And, I look forward to working with State and local 
school officials and parents to help them protect students from 
bullying.

    Question 9. There has been considerable evidence published over the 
years demonstrating that not only are the first 5 years of a child's 
life the most important in terms of developmental abilities and 
preparing them for school, but it is also the best age range to 
``invest'' in and get a rate of return. In particular, Dr. James 
Heckman found that for every dollar spent on early childhood education, 
there is an $8 return. Former senior vice president and director of 
research at the Federal Reserve Bank of Minneapolis, noted economist 
and Minnesota early childhood education researcher Art Rolnick has 
said,

          ``We think of early childhood development as economic 
        development in human capital . . . the public gets a better 
        return on its investment if government focuses its resources on 
        human capital (education, especially education in the very 
        early years) than on physical capital (businesses). The problem 
        with promoting early childhood development as economic 
        development is that it is a much longer term project and a much 
        less visible one than an investment in physical capital. 
        Investments in early childhood education do not result in a 
        factory or an office tower or a sports arena. Early childhood 
        development is mostly invisible to the public and its benefits 
        are mostly in the distant future.''

    In other words, investing in these children is great for the 
economy, and the Obama administration (via the Office of Early 
Learning) and many Republican and Democratic Governors invested a 
considerable amount of new funding to expand and enhance quality 
childcare and early childhood development programs. What is your view 
on investing in children ages birth to 5, and what would the Office of 
Early Learning's priorities be under your leadership?
    Answer 9. Research is clear that early childhood education is 
important and can help put a child on a path to success. That is why it 
is exciting to see so many States invest in and support early education 
programs for families.
    If confirmed, I look forward to working with State and local 
leaders to support their efforts to provide early childhood education. 
As you know, the Every Student Succeeds Act included the authorization 
of the Preschool Development Grants which will help States improve the 
services they are providing. I will work with the Secretary of Health 
and Human Services to ensure that program serves as a tool for States 
to improve the efficiency and effectiveness of their early childhood 
education programs.

    Question 10. When I talk to employers around Minnesota, they 
constantly tell me that they are starving for workers who have a good 
grasp of science, technology, engineering, and math (STEM). This is not 
just a problem for Minnesota--it's an issue all over the country. 
Nearly all of the top 30 fastest growing jobs nationwide require STEM 
skills, but our students in the United States are lagging behind the 
rest of the world. Given that you have donated to and served on the 
board of directors for several anti-science organizations and 
foundations including the Acton Institute, which has funded efforts to 
promote teaching creationism in schools and supported efforts to deny 
climate change, please explain how, if confirmed by the Senate, you 
will make sure our students are prepared for the 21st century careers 
in STEM fields that are so important for our country's economic future?
    Answer 10. STEM is an important part of education, no matter a 
student's background. Most jobs today require a much higher degree of 
technical competence than even 5 years ago. If confirmed, I will work 
with States, local school districts and institutions to encourage them 
to prioritize STEM education, and I will help identify best practices 
wherever possible to serve as models of where it is being done well.

    Question 11. Over 25 percent of all Federal financial aid goes to 
students attending for-profit colleges and universities. While there 
are good actors in the for-profit sector, many of these institutions 
have been putting their own financial gains above the best interests of 
their students. Even the President-elect himself was recently forced to 
pay out $25 million to settle multiple State and Federal lawsuits 
against Trump University for deceptive claims and sales tactics which 
allegedly cheated students out of thousands of dollars. Over the last 
several years, tens of thousands of students throughout the country 
have been victims of fraud and predatory lending practices by for-
profit institutions. In my home State of Minnesota, Globe University 
and Minnesota School of Business are two examples of institutions whose 
fraudulent actions have left their students deep in debt, with 
worthless degrees and futures compromised by bad credit. I have written 
multiple letters urging the Department of Education to take action 
against these for-profit institutions and to help students get the debt 
relief that they deserve. More has to be done to make sure that 
students are not left with worthless degrees and buried under large 
amounts of debt. In order to protect students and taxpayers, if 
confirmed by the Senate, are you willing to uphold and continue to 
increase oversight and accountability among for-profit schools?
    Answer 11. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws. If confirmed, I will review the current tools authorized 
by the Higher Education Act at the Secretary's disposal to address 
situations involving bad actors.

    Question 12. If confirmed as Secretary of Education, are you 
committed to ensuring that students who have been victims of fraudulent 
behavior receive the debt relief that they deserve by continuing the 
Department's work in processing all current and future claims from 
students eligible for borrower defense to repayment?
    Answer 12. As it relates to the Borrower Defense regulations issued 
in November, if confirmed as Secretary, I will carefully review all 
regulations to ensure they are consistent with the relevant statute as 
Congress wrote them and are necessary to enable successful 
implementation of Federal law. There should be a fair process for the 
discharge of student debt that looks out for interests of students, 
institutions, and taxpayers. As I review the process that has been put 
in place, I'll be looking to ensure it meets that standard.

    Question 13. The 2015 CREDO study out of Stanford University shows 
that student outcomes for online charter schools are worse than for 
students in public schools. The report shows gaps in online charter 
schools that equal a loss of 72 days of learning in reading and 180 
days of learning in math out of a 180-day school year. This means that 
students enrolled in online charter schools can be up to a full year 
behind in math. Under President-elect Trump's school choice plan, rural 
students may be relegated to online charter schools. If confirmed by 
the Senate, how will you make sure that students living in rural areas 
will have equal access to high-quality education?
    Answer 13. Students in rural communities deserve access to high-
quality education options as well as their urban counterparts. State 
and local officials and public charter school authorizers must work 
diligently to ensure they are promoting quality school options for 
rural communities. In addition to virtual schools and choosing a 
different school, there are also options to implement course choice, 
allowing students to take one or more classes online, while still 
attending a traditional public school. If confirmed, I will share best 
practices for providing high quality choices in rural areas.

    Question 14. Nearly 90 percent of American students attend 
traditional public schools. Over and over, you have offered school 
choice as the solution to improving our Nation's education system. 
However, attending private schools or charter schools isn't a viable 
option for everyone, and many students will prefer to attend public 
schools. Other than urging 90 percent of our Nation's youth to go to 
private or charter schools, what are some of the plans that you have to 
specifically improve our neighborhood public schools?
    Answer 14. Congress recently reauthorized the Every Student 
Succeeds Act (ESSA), and many of those provisions are designed to help 
improve public schools. Those provisions and programs are just 
beginning to take effect, and, if confirmed as Secretary, I will work 
with Congress to implement the law as intended.

    Question 15. While Federal student aid makes college possible for 
students, many students leave college with substantial debt. The amount 
that Americans owe in student loan debt exceeds credit card debt, car 
loans, and is now second only to mortgage debt. This is a huge problem 
for both new borrowers and those who are struggling to make their 
monthly payments. What is your plan for addressing the issue of student 
debt, and what actions will you take to make sure that college is more 
affordable for future generations?
    Answer 15. I think we can all agree the growing amount of student 
debt in America is a serious challenge. I think solutions to this 
challenge must be multi-faceted. One of the best ways to tackle student 
debt is to ensure students are able to actually get jobs after they 
complete their post-secondary program. President Trump has spoken 
extensively about his plans to put Americans back to work and boost the 
Nation's stagnant economy.
    Finally, we need to simplify and streamline the repayment options 
offered to borrowers to help them better understand their options. 
While on the campaign trail, President Trump spoke about his plan to 
streamline the income-driven repayment plans into one plan that will 
cap a borrower's monthly payment at 12.5 percent of his or her 
discretionary income, and ensure a borrower has relief from his or her 
loan after 15 years of payment.
    If confirmed, I look forward to working on these issues as the 
committee begins the process of reauthorizing the Higher Education Act.

    Question 16. In 2004, as Chairwoman of the Michigan Republican 
State Committee, you stated that Republicans,

        ``support marriage between one man and one woman because that 
        is the way God set it up and because children need a mother and 
        a father to love and care for them.''

    Since making this statement, several studies have proven that this 
is just not true. Research by the Department of Health and Human 
Services and the Centers for Disease Control and Prevention have shown 
no difference between families with same-sex parents and those with 
opposite-sex parents with regard to children's health and well-being. 
As many as 6 million Americans have at least one LGBT parent, and over 
200,000 of our Nation's school children under the age of 18 live in a 
household headed by a same-sex couple. Please explain how you plan to 
make sure that schools do not discriminate against these families and 
how you plan to make sure that schools offer an inclusive and 
supportive culture for all families within their school community?
    Answer 16. If confirmed, I will ensure the Office for Civil Rights 
continues to enforce the civil rights laws under the Department's 
jurisdiction.
    For the record, my statement was in the role in which I served. As 
you may know, the evidence demonstrates I worked to prevent that ballot 
proposal from being placed for a vote. I support equality.

    Question 17. School health and safety programs including Safe and 
Drug-Free Schools and Communities, National Center for School and Youth 
Safety, Elementary and Secondary School Counseling Programs, and Grants 
to Improve the Mental Health of Children were consolidated in ESSA into 
a block grant called the Student Support and Academic Enrichment Grants 
program (SSAEG). ESSA authorizes $1.65 billion for SSAEG, although 
Congress is not obligated to actually appropriate the full amount. In 
fact, the President's proposed budget only allocates $500 million to 
this program for fiscal year 2017. The total fiscal year 2016 funding 
for the programs that were consolidated into this new block grant is 
$275 million. Do you acknowledge that school mental health programs are 
important and if so, how will you work, if confirmed, to support school 
health programs?
    Answer 17. As I responded earlier, I believe this program can help 
school officials meet the unique needs of their students, such as 
mental health issues. If confirmed, I will work to implement the law as 
written by Congress and that includes protecting the flexibility of 
this program so school officials can tackle those difficult issues they 
may face.

    Question 18. Children in foster care have some of the worst 
educational outcomes of any group of children. They are more likely to 
be: suspended or expelled, score lower on standardized tests in reading 
and math, and to drop out of high school. ESSA took steps to address 
high mobility rates for children in foster care by requiring that 
children in foster care receive transportation to their school of 
origin when they move placements and therefore schools. This language 
was a product of bipartisan compromise, and one that many Senators 
support. How will you monitor States, school districts, and child 
welfare agencies to ensure that every child in foster care receives 
such transportation if it is in their best interest to stay in their 
original school?
    Answer 18. Foster care children face unique challenges in accessing 
a high-quality education and I am eager to help States continue to 
develop or improve policies that prove effective at helping foster 
students pursue and achieve a high quality education.

    Question 19. Do you believe we are adequately funding States to 
ensure any student with disabilities receives the support and resources 
they need to succeed in school? If not, in what ways will you work to 
increase funding for special education services without cutting funding 
for other programs that support teachers, students, and parents?
    Answer 19. If confirmed, I look forward to talking with school 
officials and parents to look at ways to support the educational needs 
of students with disabilities. This is not only through funding, and I 
do support adequate funding for IDEA, but also through helping to share 
best practices between schools so programs with greater effectiveness 
and efficiency may be used by schools to better educate their students.

    Question 20. Given that student debt in this country exceeds $1 
trillion, do you support allowing the opportunity for students to more 
easily refinance their student loans at a lower interest rate?
    Answer 20. The issue of loan refinancing has been a topic of 
conversation for the past several years. If confirmed, I look forward 
to discussing whether loan refinancing is the best use of taxpayer 
resources as you and your colleagues move forward with the 
reauthorization of the Higher Education Act.

    Question 21. Do you believe it is important for our international 
competitiveness to be able to have an assessment that accurately 
compares student progress from State to State and is also linked to 
high quality standards?
    Answer 21. I believe it is important for States to have strong 
assessments that provide a good look at their schools and give parents 
the information needed to accurately determine how their schools are 
performing and to ensure students are being prepared to compete in the 
global economy. The Every Student Succeeds Act requires States to 
develop their assessments to ensure they are adequately measuring 
student achievement against the rigorous State standards. Parents and 
local, State, and Federal education policymakers can look at this 
information from schools and review the results from NAEP to understand 
how education across the Nation is measuring.

    Question 22. Our Nation is faced with serious teacher shortages 
across all States and regions, and especially has challenges in 
recruiting minority teachers into the profession. What will you do to 
help recruit more minorities to become educators?
    Answer 22. Teacher hiring is a local issue, but a common issue 
shared amongst school districts. A diverse workforce is helpful to 
schools, especially in diverse communities. If confirmed, I look 
forward to working with State and local school officials and help 
facilitate the sharing of best practices to bring more teachers into 
the schools. We need more good teachers.

    Question 23. As you may know, ESSA requires States to test students 
in grades 3 through 8 and once in high school, in math and reading. Are 
you in support of these testing requirements?
    Answer 23. Testing is important, but it needs to be done the right 
way. Used the right way, tests can be an effective tool for educators 
to know the content they have taught is being understood and retained. 
Testing is one measure of learning and is required under the law. If 
confirmed, I will faithfully implement the law, including the testing 
requirements under the Every Student Succeeds Act.

    Question 24. In light of the Every Student Succeeds Act's (ESSA) 
requirement for States, school districts, and child welfare agencies to 
provide students in foster care with greater protections (including a 
right to remain in their school of origin), why would a student in 
foster care be better served by a private school that does not have to 
guarantee the new services and protections for students in ESSA?
    Answer 24. School choice is about the student finding the right 
education environment for their unique learning needs. I am not 
familiar with any school choice program that would force a student into 
a school the student or their parents or guardians do not believe 
adequately meets their needs.

    Question 25. Do you believe that every school should receive 
comparable amounts of title I funding per poor student? Should schools 
receive comparable amounts of State and local funding per poor student? 
Why or why not?
    Answer 25. Title I funding is about supporting students in school. 
I would like to see the funding follow the individual child to give 
each child a chance for a better education. However, Congress 
determines how the title I funding is provided to the States and, if 
confirmed, my job as Secretary of Education will be to implement the 
law as Congress intended.

    Question 26. What are your ideas/priorities for supporting at-risk 
students (including those in foster care/those who are experiencing 
homelessness) enrolled on college campuses?
    Answer 26. The Higher Education Act was designed with many of the 
students you mentioned in mind. The goals of Federal student aid is to 
ensure access to post-secondary education for traditionally underserved 
populations. These programs are supported by college access programs 
like TRIO and GEAR UP. If confirmed, I will review these programs and 
any others we determined helpful to supporting this population of 
students to ensure they are operating as effectively as they can be. 
Should these programs need reform, I look forward to working with you 
and your colleagues to strengthen them during the upcoming 
reauthorization of the Higher Education Act.

    Question 27. More than ever before, girls are studying and 
excelling in science and mathematics. Yet the dramatic increase in 
girls' educational achievements in scientific and mathematical subjects 
has not been matched by similar increases in the representation of 
women working as engineers and computing professionals. Just 12 percent 
of engineers are women, and the number of women in computing has fallen 
from 35 percent in 1990 to just 26 percent today. The numbers are 
especially low for Hispanic, African American, and American Indian 
women. Black women make up 1 percent of the engineering workforce and 3 
percent of the computing workforce, while Hispanic women hold just 1 
percent of jobs in each field. American Indian and Alaska Native women 
make up just a fraction of a percent of each workforce. Women continue 
to face environmental and social barriers--including stereotypes, 
gender bias, and an adverse climate in science and engineering 
departments at colleges and universities that continue to block their 
progress in STEM. If confirmed by the Senate as Secretary of Education, 
how do you plan to close the systemic achievement gap currently faced 
by women and minorities in high demand, high paying STEM fields such as 
computer science and engineering?
    Answer 27. A strong pipeline of students interested in pursuing 
STEM careers, including research in these subject areas, is important 
to our Nation's success. This strong pipeline will not be complete if 
we do not work to dramatically increase the number of girls and 
minorities who pursue STEM careers. If confirmed, I will work closely 
with other agencies, including the National Science Foundation, to 
improve coordination of STEM education and research initiatives and to 
highlight best practices related to engaging more girls and minorities 
in these fields of study.

    Question 28. Gender and racial gaps continue to persist in STEM 
fields. Although women fill close to half of all jobs in the U.S. 
economy, they hold less than 25 percent of STEM jobs. Eight States have 
fewer than 10 girls take the AP Computer Science exam and two States 
have zero girls who took the exam, a strong example of the inequities 
within computer science education. What will you do to address core 
equity issues in K-12 computer science education?
    Answer 28. Computer science is an important discipline. Most jobs 
today require a much higher degree of technical competence than even 5 
years ago. The gaps that exist in this and other STEM fields must be 
addressed. If confirmed, I will work with States and local school 
districts to encourage them to prioritize computer science education, 
and I will help identify best practices wherever possible to serve as 
models of where it is being done well. I will also look closely at the 
budget of the Department of Education to determine the best allocation 
of taxpayer dollars to programs when proposing budgets for future 
fiscal years.

    Question 29. What, if any, Federal policies around the collection, 
use, storage, security, and destruction of student data and educational 
records do you recommend implementing for schools and districts?
    Answer 29. The current Federal law covering student privacy is the 
Family Educational Rights and Privacy Act, known as FERPA. I believe 
the intent of that law is as important to follow today as it was over 
40 years ago when it was first adopted by Congress. The law provides 
parents' and student's rights and protections over the content of their 
education records.
    However, that law is very outdated and does not contemplate the 
technology used in classrooms today. If confirmed, I look forward to 
working with Congress to update the law so that it will continue to 
provide clear guidelines on privacy protections and proper access for 
parents and families to the individual records, but the law should not 
stifle the use of technology in the classroom nor should it be used to 
stifle the use of data for accountability in schools.

    Question 30. As Secretary of Education, how would you make sure 
States, school districts, and schools are transparent and engaged with 
families on the development, implementation, and notification of 
student data privacy policies and procedures?
    Answer 30. As a part of the update to Family Educational Rights and 
Privacy Act, I believe it is important to talk with State and local 
school officials and parents to understand what their concerns are 
about student privacy and what protections they would like to see in 
the law. I also believe it is important for school officials to work 
with parents and students to develop their data safety plans and data 
privacy policies and procedures.

    Question 31. Do you believe that Christian schools should be 
allowed to kick out or ban LGBT students or students with LGBT parents? 
If yes: Do you stand by that position when public tax-payer funding is 
used to pay for part, or all, of the tuition at that private school?
    Answer 31. I believe it is important to enforce the laws faithfully 
and fully. When an entity is in receipt of Federal funding the entity 
must abide by the rules governing that funding. If confirmed, I will 
ensure every grantee and subgrantee is in compliance with the law, 
including all anti-discrimination laws.
    I will use the bully pulpit of my office to work to make sure that 
every child and their parents feel welcome and safe in the school of 
their choice. I will use the powers of my office to enforce every 
Federal law against discrimination wherever they apply.

    Question 32. Research shows that access to quality early learning 
programs can have positive outcomes for students later in life. If 
confirmed by the Senate, how will you support work in quality early 
learning programs including Early Head Start, Head Start, the Child 
Care and Development Block Grant and the Maternal, Infant and Early 
Childhood Home Visiting Program?
    Answer 32. If confirmed, I will work with the Secretary of Health 
and Human Services (HHS) to support early childhood education. As I 
previously responded, one program that I will have a specific role in 
implementing is the Preschool Development Grants. I will work with the 
Secretary of HHS to implement that program, which can be a valuable 
tool for States to support their efforts in early childhood education.

    Question 33. States, even within a framework of flexibility, look 
for direction from the Federal Department of Education. Will you 
provide direction to States that supports their inclusion of early 
learning in their ESSA plans and their use of Federal funding to invest 
in early childhood education?
    Answer 33. If confirmed, I will implement the law as Congress 
intended. In some instances, that may require guidance from the 
Department to States. However, one of the hallmarks of the Every 
Student Succeeds Act is giving States increased flexibility over how to 
prioritize spending Federal funds.

    Question 34. For-profit entities have the obligation to maximize 
revenues. How does that obligation square with the obligation to put 
students first in our education system at both the K-12 and post-
secondary levels?
    Answer 34. I believe that a school's tax status does not determine 
its effectiveness. Most families and students judge a school based on 
its quality, not its management structure. Those schools that succeed 
in attracting families and students and providing a quality education 
the family or student is looking for should be allowed to continue to 
operate. Those that fail to meet standards should shut down.

    Question 35. While it grew during the 1990s, the University of 
Phoenix was, by many accounts, of reasonable quality. Many people, 
including one of the co-founders, John Murphy, say that what kept the 
school from going rogue was its reliance on market accountability 
without Federal aid. In particular, many of the students, half or more 
in fact, had their tuition payments supported by their employers or 
they were paying on their own. This type of value-for-the-price 
accountability is the original concept behind what is known as the 90/
10 rule, which was first implemented as a GI bill reform in the 1950s 
to prevent for-profit colleges from pricing their programs at the 
highest level that the government would pay for. The 90/10 rule, 
however, does not work well the way it is currently designed. Will you 
commit to working with Congress to close the 90/10 loophole so that it 
actually provides the market-value accountability that was originally 
intended? Do you think schools that actively recruit veterans but leave 
them with meaningless degrees and dead-end jobs should get taxpayer 
dollars?
    Answer 35. If confirmed, I will enforce the Higher Education Act as 
written. G.I. bill benefits are not currently included. Should Congress 
change this calculation, I will ensure that its implementation is 
implemented in the manner Congress prescribes.

    Question 36. What potential consequences could you foresee 
resulting from a large-scale rollback on regulations that apply to 
post-secondary institutions as a condition of receiving Federal student 
aid? Please include the specific potential impact on students and 
families.
    Answer 36. As is customary at the beginning of all new 
Administrations, if confirmed, I will review all regulations. If 
changes are warranted, I look forward to working with stakeholders and 
Congress to ensure changes go smoothly.

    Question 37. Over the past 6 years, the intermediaries who 
guaranteed loans for banks, known as guaranty agencies, have grown 
their war chests of Federal dollars to the billions by charging 
defaulted borrowers unreasonable percentages of their loan balances to 
rehabilitate loans. One of these guaranty agencies is even suing the 
agency for the ability to continue to charge these overburdened 
borrowers extra fees equal to 18.5 percent of their loan balance. What 
will you do as Secretary to make sure that these large companies no 
longer take advantage of the system and serve the public interest as 
their charity status requires them to do?
    Answer 37. As you well know, the U.S. Department of Education is 
now one of the country's largest lenders. Managing the caseload is a 
large undertaking and one that I believe needs a thorough review to 
ensure borrowers are being treated fairly and the Department can 
adequately manage the workload so as not to harm borrowers. If 
confirmed, I will review how this program is working and look forward 
to discussing these issues with you as a part of the reauthorization of 
the Higher Education Act.

    Question 38. What is your opinion on the Department of Education's 
move to Results Driven Accountability for the education and support of 
students with disabilities? What aspects of the initiative do you 
believe have been the most effective thus far and how would you plan to 
bolster the results as Secretary of Education?
    Answer 38. If confirmed, I will carefully review this initiative to 
determine if it provides meaningful access to special education and 
related services for students with disabilities. I would appreciate 
hearing your thoughts on the initiative as I consider it.

    Question 39. What role do you see schools--both public and charter, 
playing in regards to supporting foster youth to stay in their school 
of origin--for example, transportation--when they are moved to a new 
foster care placement outside the school district of origin?
    Answer 39. First, I want to clarify charter schools are public 
schools. Second, if confirmed, I will ensure the laws are implemented 
as intended. Foster care students are among our most vulnerable 
students and schools must do what they can to work with the foster care 
system to provide a quality education for students and that includes 
getting them to school.

    Question 40. As you probably know, the gainful employment 
regulations were put into place in 2014 to address major concerns in 
about the lack of quality in for-profit colleges. Many students across 
the United States were enrolling in, and sometimes being aggressively 
recruited into, programs that left them unable to find work and saddled 
in unmanageable debt. According to newly released gainful employment 
earnings data, there are over 1,700 career college programs across the 
country where graduates typically earn less than the Federal poverty 
line. And over 3,400 programs failed to have over 50 percent of their 
students successfully repaying their loans. Should you be confirmed by 
the Senate, can we be assured that you will continue to hold these 
programs accountable and protect our tax dollars from funding programs 
that are not providing a benefit to students who take out loans to 
attend?
    Answer 40. I believe all institutions of higher education 
participating in the title IV programs should provide value to students 
and taxpayers alike. There are many tools to provide information to 
students, parents, and the public and if confirmed, I look forward to 
working with Congress to reform the Higher Education Act in a way that 
will allow all institutions to appropriately demonstrate their value to 
students and the public.
    Regarding the gainful employment regulations, the Department has 
had significant implementation issues, including questions as to the 
accuracy of the data originally reported, the design of a system that 
would allow schools to challenge incorrect data, and providing the 
necessary technical assistance required. The last thing any of us want 
is to unnecessarily close important programs, putting students on the 
street with limited or no other options. As President Trump has 
directed, we will review and assess all regulations and make 
determinations once that review is complete.

    Question 41. The Congressional Budget Office found in 2016 that 
repealing the Gainful Employment Rule would increase spending by $1.3 
billion over 10 years. Do you agree that taxpayers should not subsidize 
career education programs that consistently leave students with debts 
they cannot repay?
    Answer 41. If confirmed, I will faithfully implement the Higher 
Education Act, including the use of all tools authorized in that law to 
ensure institutions are treating students fairly.

    Question 42. Do you acknowledge that more than 6 in 10 (61 percent) 
of the programs passing the gainful employment rule are at public 
colleges?
    Answer 42. While I have not had the opportunity to review the data 
issued by the Department, if confirmed I look forward to reviewing it 
and ensuring its validity.

    Question 43. The U.S. Court of Appeals for the District of Columbia 
Circuit has noted that,

          ``It would be strange for Congress to loan out money to train 
        students for jobs that were insufficiently remunerative to 
        permit the students to repay their loans. And it would be a 
        perverse system that, by design, wasted taxpayer money in order 
        to impose crippling, credit-destroying debt on lower income 
        students and graduates. Had Congress been uninterested in 
        whether the loan-funded training would result in a job that 
        paid enough to satisfy loan debt, it would have created a 
        Federal grant system instead of a Federal loan system focusing 
        on preparation for gainful employment.''--(Association of 
        Private Sector Colleges and Universities, Appellant v. Arne 
        Duncan, in his Official Capacity as Secretary of the Department 
        of Education. No. 1:14-cv-01870. March 8, 2016).

    Do you agree with the Court's statement? Do you believe it makes 
sense to allow institutions and programs access to student loans when 
they do not prepare students for gainful employment?
    Answer 43. I believe this is a very important issue to evaluate. If 
confirmed, I look forward to working with you, the Senate Committee on 
Health, Education, Labor, and Pensions, and the Congress to address the 
best direction for Federal aid programs in a manner that protects 
students and taxpayers during the reauthorization of the Higher 
Education Act.

    Question 44. If you are confirmed as Secretary of Education, will 
you ensure that the U.S. Department of Education will do everything in 
its power to prevent recruiters at colleges and universities from using 
deceptive or misleading tactics to recruit students whose background 
and prior education may not have prepared them to be successful in 
their programs?
    Answer 44. If confirmed, I will use the tools at the Secretary's 
disposal and faithfully implement the provisions of the Higher 
Education Act in a manner that protects students to the extent 
allowable under the law.

    Question 45. Given a number of State and Federal complaints and 
investigations into for-profit schools at both the K-12 and post-
secondary level, should States be able to regulate for-profit schools 
differently than not-for-profit schools?
    Answer 45. I believe schools in receipt of Federal funds should be 
held accountable for the provisions of the law for which they have 
received funding. The tax status of these grantees should be 
irrelevant. If confirmed, I will work to ensure all grantees are in 
full compliance with the law as Congress intended.

    Question 46. In the 2015-16 school year, 46 States recorded 
spending less per student than they did at the start of the recession 
in higher education. Thus, tuition costs at 4-year public colleges have 
risen by 33 percent since 2008. Prior to these tuition increases, 
studies identified that the share of students coming from communities 
of color at public 2- and 4-year colleges had risen significantly. In a 
study conducted at New York University, researchers found that with all 
else equal, a $1,000 tuition increase for full-time undergraduate 
students is associated with a decrease in campus diversity of almost 6 
percent. Continual price hikes and spikes in student debt amount to the 
privatization of higher education as public institutions are weakened 
and become more reliant on tuition revenue. Do you agree that higher 
education today is reinforcing economic inequality? If confirmed by the 
Senate, what will you do to reverse this trend toward excluding lower 
and middle income people from higher education?
    Answer 46. I, too, am concerned with the increasing costs of higher 
education, for all students, but especially those who are already 
struggling to afford it. For too many Americans, higher education has 
become unaffordable and disconnected from the Nation's economic 
realities. I believe we need to work with higher education leaders and 
State leaders to address the core challenges in higher education. If 
confirmed, I look forward to working with you, the Senate Committee on 
Health, Education, Labor, and Pensions, and the rest of Congress to 
find viable solutions to help address these concerns.

    Question 47. What would you do in your role as Secretary of 
Education to ensure that students in U.S. schools are academically 
prepared to participate competitively in the global economy?
    Answer 47. Education is largely a local issue, and parents and 
State and local school officials work hard to prepare students for the 
workforce. If confirmed, I will work with States and local school 
officials to implement the new provisions under the Every Student 
Succeeds Act to ensure the law is implemented as intended by Congress. 
These new provisions provide greater transparency to families and the 
local community so they can push schools to do their job in educating 
students ready to compete in the global economy.

    Question 48. Native American leaders have sought to govern their 
own people for more than two centuries with little recognition of the 
deference due tribes. In 1975, President Ford signed the Indian Self 
Determination and Educational Assistance Act into law, allowing tribes 
the ability to assume authority of education for their people. 
Consistent with that law, which remains in effect today, would you 
support providing deference to tribes who wish to keep Indian schools 
tribally controlled and who also have concerns about funding private 
schools through the already-limited funds provided for their schools 
serving Native students?
    Answer 48. Native American students deserve an opportunity for 
excellent education, just as all other students do. If confirmed, I 
look forward to working with Tribal leaders and the Secretary of the 
Department of Interior to help ensure Native American students have 
access to a quality education.

    Question 49. You have said you are a supporter of increased control 
of education at the local level. Native communities and tribes across 
the country have long advocated for Native control of Native education, 
as a recognition of the respect due to tribes consistent with Article 
I, Section 8 of the Constitution. As Secretary would you support 
increased tribal control of Native education?
    Answer 49. Yes. Native American students deserve an opportunity for 
excellent education, just as all other students do. If confirmed, I 
look forward to working with Tribal leaders and the Secretary of the 
Department of Interior to help ensure Native American students have 
access to a quality education. The reauthorized ESSA requires 
meaningful consultation with Tribal leaders. I will ensure States and 
school districts fully comply with the law.

    Question 50. Do you agree with the following statement: Federal 
funding should support the whole child, from physical and mental health 
to the development of fundamental lifelong learning skills?
    Answer 50. I believe Federal funding supports State and local 
funding for a child's education. Federal funding, especially after the 
passage of the Every Student Succeeds Act, allows for additional 
flexibility for States to support the needs of the students in their 
schools and districts.

    Question 51. Too often, family engagement in education is not 
systematically included in policy proposals, thereby reducing the 
opportunity to have an impact. As Secretary of Education, what would 
you do to integrate family engagement into all appropriate policy 
initiatives in the next administration?
    Answer 51. As reauthorized, the Every Student Succeeds Act requires 
more consultation in several policy areas. If confirmed, as a part of 
the Department's role in monitoring States' proper implementation of 
the law I will ensure families are a part of the development of State 
and local plans as required under the new law.

    Question 52. During a 2015 talk to SXSWEdu, you said that anyone 
who believed that our education system will ever be fixed by political 
parties was ``delusional.'' Why do you now believe that the Republican 
political party, with you at the helm at the Department of Education, 
can fix the educational system, when just a year ago you thought that 
idea was ``delusional''? The exact quote is:

          ``How many of you believe that our education system will ever 
        be fixed by political parties? Well good, if you raised your 
        hand for that last group, I was just going to say, I have some 
        bad news for you: you are delusional. I was once in that group, 
        though, and there is hope for you.''

    Answer 52. Thank you for your question about my 2015 SXSWedu 
speech. The quote you reference was a rhetorical question to begin my 
speech. What I said, and what I continue to believe is education must 
innovate.
    We are the beneficiaries of startups, new ventures, and innovation 
in every other area of life, but we don't have that in education. It 
still operates like it did 150 years ago. My job, if confirmed, will be 
to work to provide every child, regardless of zip code, with the best 
possible opportunities this great Nation can provide. Later in my 
speech I referenced political leaders from both parties who worked 
across the aisle to advance student-centric education reforms.

    Question 53. Are you concerned at all that President Trump's 
bigoted rhetoric is deeply affecting children across the Nation--making 
students who fall into one of the many groups of people that Trump has 
attacked feel like they don't belong in their own communities and in 
their own schools?
    Answer 53. All students deserve access to a quality education. If 
confirmed, I will enforce the laws under my jurisdiction to ensure the 
laws are faithfully implemented.

    Question 54. How will you support the need for school-based mental 
health providers like school social workers and school psychologists to 
effectively address the social, emotional and mental health barriers 
that impact a student's academic success and achievement?
    Answer 54. As I responded earlier, I believe Student Support and 
Academic Enrichment Grants can help school officials meet the unique 
needs of their students, including issues involving mental health. If 
confirmed, I will work to implement the law and that includes 
protecting the flexibility of this program so school officials can 
tailor their responses to difficult issues.

    Question 55. If confirmed by the Senate as Secretary of Education, 
will you commit to maintaining the important resources on school mental 
health that exist now on the Department of Education's website? Will 
you ensure that other resources--promoting rigorous research and best 
practice--of value and use to local educational agencies, schools, 
principals, parents, students, universities and teachers be maintained 
on the Department of Education's website under your leadership?
    Answer 55. If confirmed, I will carefully review all existing 
guidance documents that are in effect to ensure that guidance from the 
Department of Education serves as a helpful tool to States, local 
school districts, teachers, school personnel, and others who implement 
Federal education law, and not as a hindrance to State and local 
efforts to follow the laws as Congress wrote them. This process will 
include a review of the resources posted on the Department website.

    Question 56. Please describe how you, if confirmed by the Senate as 
the leader of the Department of Education, plan to work with business 
and industry leaders to identify key education and workforce issues and 
use Federal resources to empower State and local education leaders and 
their communities, as well as public universities, with the resources 
they need to promote STEM as a priority and to drive change.
    Answer 56. If confirmed, I look forward to engaging with business 
and industry leaders to help schools and institutions of higher 
education better communicate about what is needed to prepare students 
for important jobs in the STEM fields. One way to do this is to 
implement the Career and Technical Education program (CTE) and, if 
confirmed, I look forward to working with Congress to reauthorize the 
Perkins Career and Technical Education Act to better connect the CTE 
programs with in-demand jobs, including STEM jobs.

    Question 57. How is the Department of Education during the Trump 
administration specifically planning to support education for 
historically underrepresented minorities, especially those in 
economically and educationally disadvantaged rural and urban 
communities?
    Answer 57. If confirmed I will work to implement statutory 
responsibilities assigned to the Department, including provisions 
intended to support disadvantaged youth.

    Question 58. In 1984, Congress passed and President Ronald Reagan 
signed into law the Equal Access Act, requiring public secondary 
schools to provide equal access for extracurricular clubs. In the years 
since, several courts have ruled that under the Equal Access Act 
schools cannot ban a Gay-Straight Alliance from meeting on school 
grounds and ensures they be treated like other student groups. These 
groups can be a lifeline for many students and can promote the values 
of tolerance and understanding in our school communities. On June 14, 
2011, the Department issued a Dear Colleague letter to schools making 
them aware of this case law and providing guidelines for compliance 
with the Equal Access Act. Will you commit to fully enforcing the Equal 
Access Act for all student groups and to maintaining the 2011 guidance 
if confirmed by the Senate?
    Answer 58. As I previously responded, if confirmed, I will 
carefully review all existing guidance documents that are in effect to 
ensure that guidance from the Department of Education serves as a 
helpful tool to States, local school districts, teachers, school 
personnel, and others who implement Federal education law.

    Question 59. What are your thoughts on how the Federal Government 
can better support English language learners?
    Answer 59. As reauthorized, the Every Student Succeeds Act has 
improved provisions to support English learners. If confirmed, I will 
ensure those provisions of the law are implemented as Congress 
intended.

    Question 60. What is your formal training in education policy and 
how are you qualified to be Secretary of Education?
    Answer 60. It would be an honor to lead the Department of 
Education. As I mentioned during the hearing, this is personal.
    As my husband and I began thinking about schools for our children 
we learned about a small urban school that served a different 
population than where we lived. As I became more involved in helping 
that school, my passion grew for changing policy more broadly to help 
more children. I now have more than 30 years of engagement in education 
reform and education policy.
    If confirmed, I look forward to bringing the skills I have acquired 
while leading businesses, nonprofits, and other organizations with 
hundreds of employees and complex challenges to the Department. Through 
the years I've spent years working with Governors, State legislators, 
and other policymakers, I have learned that moving policy takes a 
strong plan and leadership to direct an organization and deliver 
results.

    Question 61. Do you believe that title IX protects individuals from 
discrimination on the basis of their sexual orientation?
    Answer 61. If confirmed, I will carefully review the law and all 
existing guidance documents that are in effect on title IX to ensure 
the Department is faithfully implementing the law.

    Question 62. Do you believe that title IX protects individuals from 
discrimination on the basis of their gender identity?
    Answer 62. If confirmed, I will carefully review the law and all 
existing guidance documents that are in effect on title IX to ensure 
the Department is faithfully implementing the law.

    Question 63. Do you believe that title IX protects individuals from 
discrimination for not conforming to sex stereotypes (i.e., harassment 
against a male for engaging in activities considered to be 
stereotypically female)?
    Answer 63. If confirmed as Secretary, I will carefully review the 
law and all existing guidance documents that are in effect on title IX 
to ensure the Department is faithfully implementing the law.

    Question 64. If the Department of Education were to receive a 
complaint from a transgender student saying that they have been 
severely bullied at school after publicly identifying as transgender, 
repeatedly requesting that the school intervene with no action from the 
school, how would you direct the Department of Education to respond? Do 
you believe that the department should investigate for possible 
violations of title IX?
    Answer 64. Bullying and harassment of any student should not be 
tolerated. Schools should be an environment of learning, and, if 
confirmed, I will work with the First Lady, who has indicated she 
intends to make this issue a priority of hers, and State and local 
school officials to prevent bullying and harassment. If a school is 
failing to protect any student from bullying and harassment and a 
complaint is made to the Office for Civil Rights I will expect that 
office to investigate.

    Question 65. In a 2010 Dear Colleague Letter, the Department of 
Education made clear that failure to address harassment based on gender 
stereotypes, actual or perceived sexual orientation, or gender 
identity, is sex discrimination under title IX. Will you maintain the 
2010 guidance? If no: Do You realize such a position flies in the face 
of a majority of Federal circuit courts who have said that 
discrimination based on gender stereotypes is prohibited under title 
IX? How would you justify such action? Are you aware that LGBT students 
face some of the highest rates of harassment and violence?
    Answer 65. If confirmed, I will carefully review the law and all 
existing guidance documents that are in effect on title IX to ensure 
the Department is faithfully implementing the law.

    Question 66. In May, the Department of Education released guidance 
explaining that title IX prohibits schools receiving Federal funding 
from discriminating against transgender students on the basis of their 
sex, sending a message to transgender students across the country that 
they deserve a safe academic environment where they can thrive free 
from discrimination. Will you uphold the Department's guidance ensuring 
equal educational access for transgender students? If not, what is your 
plan for the guidance? If you rescind the guidance, do you believe that 
action changes the requirements under the law that schools are 
prohibited from discriminating against lesbian, gay, bisexual, or 
transgender students on the basis of their gender identity or sexual 
orientation?
    Answer 66. If confirmed, I will carefully review the law and all 
existing guidance documents that are in effect on title IX to ensure 
the Department is faithfully implementing the law as intended by 
Congress.

    Question 67. In response to a statement of concern about your past 
record released by members of the civil rights community, your 
spokesperson said that you were ``fully committed to ensuring that all 
children are safe to learn and thrive in high-quality schools.'' Does 
your commitment extend to protecting the civil rights of all students 
regardless of sex, sexual orientation, or gender identity?
    Answer 67. Enforcement of civil rights laws are an important 
responsibility of the Secretary of Education. If confirmed, I will work 
with State departments of education and local educational agencies to 
ensure civil rights of all students are protected. This administration 
takes its responsibility to ensure equal access to education seriously 
and is committed to working with State and local school officials to 
root out any vestiges of discrimination.

    Question 68. Do you support measures of socio-emotional learning--
soft skill development--in addition to traditional measures of 
achievement to assess gains in students growth who have extensive 
trauma histories?
    Answer 68. As reauthorized, the Every Student Succeeds Act allows 
States to include both achievement measures and other measures as 
determined by the State in their accountability systems. If confirmed, 
I will enforce the law as intended by Congress, which includes States 
determining which measures are appropriate.

    Question 69. You were quoted saying,

          ``My family is the biggest contributor of soft money to the 
        Republican National Committee. I have decided to stop taking 
        offense at the suggestion that we are buying influence. Now I 
        simply concede the point. They are right. We do expect 
        something in return. We expect to foster a conservative 
        governing philosophy consisting of limited government and 
        respect for traditional American virtues. We expect a return on 
        our investment.''

    In your role as Secretary of Education, if confirmed by the Senate, 
what return are you expecting from your previous investments?
    Answer 69. None. I will comply with all ethics requirements 
required by the Office of Government Ethics and the Ethics Office at 
the Department of Education.

    Question 70. In 2001, you singled out education reform as a way to 
``advance God's kingdom'' and said that school choice would lead to 
``greater kingdom gain.'' Your husband added:

          ``We are working . . . . to allow for our Christian world 
        view, which for us comes from a Calvinist tradition, and to 
        provide for a more expanded opportunity someday for all parents 
        to be able to educate their children in a school that reflects 
        their world view and not each day sending their child to a 
        school that may be reflecting a world view that may be quite 
        antithetical to the world view they hold in their families.''

    Do you believe that the separation of church and State should be 
eliminated in public education?
    Answer 70. No. As I stated previously, my faith is very important 
to me and informs my personal life. In education, it teaches me that 
every child is special and deserves the best we can offer them. That 
said, I do not believe in imposing my faith on others and, if 
confirmed, I will implement and respect the law, including provisions 
prohibiting religious instruction in public schools.

    Question 71. Do you have ideas/plan for how to reduce teacher 
turnover and increase teacher preparation for teachers who will be or 
are currently employed in alternative high schools?
    Answer 71. Teacher hiring is a local issue, but a common issue 
shared amongst school districts. If confirmed, I look forward to 
talking with State and local school officials, helping facilitate the 
sharing of best practices to bring more teachers into the schools, 
especially in alternative and high-need schools.

    Question 72. By all accounts, you have had very big influence on 
the education system in Michigan through your foundations, political 
contributions, and lobbying efforts. And yet, school conditions are so 
bad that Detroit students filed a civil rights suit charging that the 
State has

        ``violated the 14th Amendment's equal protection clause by 
        effectively excluding them from the State's system of free 
        public education and denying them the right to literacy.''

    What do you say to the public and especially to parents of children 
in Detroit--who do not have the influence that you have had, when they 
ask about the policies that you've helped enact that has led to 
atrocious conditions in Detroit schools?
    Answer 72. First, I love Detroit and that is why I have worked so 
hard to bring quality education options to those families and students. 
And to clarify, the policies I have supported have led to improved 
conditions for the school children of Detroit.
    Let's consider the facts--in 1993, around 20 percent of all 
individuals in Detroit over the age of 25 did not have a high school 
diploma, African American school-aged males had a dropout rate of close 
to 45 percent, and per a study by the National Institute for Literacy 
47 percent of all individuals in Detroit were functionally illiterate. 
Over the last two decades, families who have the ability to, have left 
the city. In short, for the past few decades the students in the city 
of Detroit have been failed.
    The families in Detroit needed help. I, and many others, did what 
we could to help provide those families a better life and better 
opportunities for their children. I, organizations I support, and 
others advocated for bills in the Michigan legislature that helped 
protect the individual rights of Detroit parents to make education 
choices that are best for their family, while also strengthening the 
Detroit Public Schools. Because of this legislation, the traditional 
school district is today much stronger than it was last year or the 
year before last. When you consider the past academic and financial 
failures in Detroit Public Schools, the policies we've helped enact 
have given over 100,000 students in Detroit a chance for better 
outcomes. There is undoubtedly more work to be done and I will continue 
to do what I can to help the children in Detroit, and, if confirmed, 
help more students gain access to a quality education.

    Question 73. Do you support the guidance letter the Department of 
Education published on October 26, 2010 on harassment and bullying on 
the basis of race, color, national origin, sex, or disability? Would 
you maintain and continue to enforce this guidance in schools across 
the country?
    Answer 73. I have previously responded about my concern about 
bullying and belief that it is important for everyone to work together 
to prevent bullying so students have a safe learning environment. If 
confirmed, I will carefully review all existing guidance documents that 
are in effect to ensure that guidance from the Department of Education 
serves as a helpful tool to States, local school districts, teachers, 
school personnel, and others who implement Federal education law.

    Question 74. As you consider a role overseeing all public schools 
in the United States, do you think it is the Federal role to foster 
positive school climates? If so, what specific steps would you take to 
ensure that all schools are held accountable for this element of a 
child's experience?
    Answer 74. Students deserve to have an opportunity not only to 
learn in a safe environment free from bullying and harassment, but also 
in a positive and nurturing environment. School leaders have the 
responsibility to educate and to set the tone for their schools and 
classrooms. If confirmed, I will implement and enforce the laws under 
my jurisdiction and look forward to talking and working with school 
leaders to do what I can to help them meet their obligations.

    Question 75. Studies continue to show that quality dual enrollment, 
concurrent enrollment, and early college high school programs help all 
students access and complete college at higher levels by giving them a 
jump start on college while in high school and saving students time and 
money. Under your leadership, if confirmed by the Senate, how will the 
Department of Education support the growth of these successful 
programs, and what can Congress do to ensure that more students have 
access to these innovative tools to boost college access and 
completion?
    Answer 75. I believe programs like dual or concurrent enrollment 
are important to help increase access, reduce remediation and help 
students complete college more quickly. When done well, they have the 
added benefit of helping reduce college costs. If confirmed, I also 
look forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions in the effort to reauthorize the Higher Education 
Act to explore ways to support innovative efforts that will increase 
access to post-secondary education and boost students' chances of 
success.

    Question 76. Dual enrollment, concurrent enrollment, and early 
college high school provide successful options to help students in high 
school prepare for and succeed in college. The Every Student Succeeds 
Act (ESSA) contains a number of new provisions to support these 
programs to ensure that more students have the option to start college-
level work while in high school. But despite clear research showing the 
benefits of these programs to students, they fall through the 
bureaucratic cracks at the Department of Education due to the 
separation between K-12 and Higher Education functions. Do you believe 
that the Department should increase its focus on the transition between 
high school and college, and would you commit to examining the role 
that post-secondary transition can play in any plans to reorganize the 
Department's structure?
    Answer 76. I concur that this is an area ripe for focus. If 
confirmed, I will examine the structure of the Department of Education 
and would welcome dialog on better approaches to organizing the offices 
to support improving student outcomes and transitions.

    Question 77. While dual enrollment, concurrent enrollment, and 
early college high school are effective, evidence-based tools for 
increasing college access and completion, a number of States are facing 
challenges in ensuring that their high school teachers have the right 
qualifications to teach college coursework and that college professors 
have the right certifications to teach in a high school setting. What 
role do you think the Department of Education can play in helping 
States solve these challenges so that we can bring more opportunities 
for high school students to complete college coursework nationwide?
    Answer 77. As you know, the challenge you cite above is a growing 
problem as more and more States are enacting and implementing dual 
enrollment programs. Research is limited, but if confirmed, I look 
forward to sharing that research with States and highlighting effective 
best practices as they develop. I also look forward to working with 
Congress as you begin your work to reauthorize the Higher Education Act 
where many important issues will be addressed.

    Question 78. The Carl D. Perkins Career and Technical Education 
Act, which supports the capacity of secondary and post-secondary 
educational institutions to offer high-quality career and technical 
education (CTE), is currently awaiting congressional reauthorization. 
What are your top three priorities for the Perkins Act reauthorization?
    Answer 78. I agree reauthorization of the Perkins Career and 
Technical Education Act is an important priority, and, if confirmed, I 
look forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions and other interested Members of Congress to update 
and improve the law.
    I believe we should work to align Federal laws to ensure 
consistency across programs, reduce duplication and unnecessary 
requirements, and provide a seamless set of policies. It is also 
important to provide flexibility at the State and local level so 
officials on the ground can create and run programs that help students 
attain the skills needed to work in those in-demand jobs. Finally, I 
support transparency of data so parents, students, and other taxpayers 
can see how well their programs are working.

    Question 79. You and your husband co-founded West Michigan Aviation 
Academy, which is a charter high school that offers educational 
pathways for careers in aviation. As an advocate for the expansion of 
charter schools, do you believe that Federal policies should promote a 
larger role for charters in delivering career and technical education?
    Answer 79. First, let me clarify that my husband, Dick, founded the 
West Michigan Aviation Academy. I am very proud of the work being done 
there, and believe it represents the kind of innovation that is needed 
in education. I believe one of the purposes of education is to prepare 
students for their future after high school, which is likely college or 
a meaningful career. To do that, charter schools should be engaged in 
career and technical education, just as other traditional public and 
private schools should be. CTE is an important program that can help 
many individuals find work in in-demand jobs in their communities. If 
confirmed, I look forward to working with Congress as you work to 
reauthorize the law.

    Question 80. As we look toward reauthorization of the Higher 
Education Act, how will you work to, should you be confirmed, help 
students to better access, pay for, and complete post-secondary 
education, including 2-year college and short-term training programs at 
technical institutions?
    Answer 80. In responding to these written questions, I have 
suggested several areas where I believe we can work together, if I am 
confirmed, to help students to better access, pay for, and complete 
post-secondary education. President Trump and I agree that an important 
part of that answer is 2-year colleges and short-term training 
programs. They play an important part in our Nation's economic success. 
In addition to working with you on broader Higher Education Act issues, 
I look forward to engaging you and your colleagues in a dialog about 
how we can ensure students are aware of 2-year and shorter term 
colleges and programs and have the ability to pursue their offerings.

    Question 81. Career and technical education plays an important role 
in strengthening the American economy, closing the skills gap and 
helping more students to become college- and career-ready. The Perkins 
State grant program, the primary source of Federal funding for career 
and technical education (CTE), serves 11 million students nationwide by 
ensuring access to high-quality CTE programs aligned to the needs of 
business and industry. Will you make a commitment to, should you be 
confirmed, supporting our Nation's high schools, technology centers and 
community colleges through an increased investment in Perkins?
    Answer 81. I agree reauthorization of the Perkins Career and 
Technical Education Act is an important priority, and, if confirmed, I 
look forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions and other interested Members of Congress to update 
and improve the law. I believe that we should work to align Federal 
laws to ensure consistency across programs, reduce duplication and 
unnecessary requirements, and provide a seamless set of policies.
    It is also important to provide flexibility at the State and local 
level so local officials on the ground can create and run programs that 
help educate students to attain the skills needed to work in those in-
demand jobs. I also support transparency of data so parents, students, 
and other taxpayers can see how well their programs are working. I will 
look closely at the budget of the Department of Education to determine 
the best allocation of taxpayer dollars to programs when making a 
proposed budget for future fiscal years.

    Question 82. You have an extensive record of working to promote 
education voucher systems in which tax dollars that would normally go 
to the public schools serving 90 percent of our Nation's children end 
up going to private and religious schools. The tuition for religious 
schools is typically lower than that of a non-religious private school. 
In fact, recent data from the National Center for Education Statistics 
reveals that the tuition for non-religious private schools is, on 
average, $21,810, while the average tuition for Catholic schools is 
only $6,890 and $8,690 for other religious schools. Pushing for 
vouchers that most often do not cover the full cost of tuition for 
private schools ends up being an efficient way of diverting taxpayer 
dollars from public schools to religious schools. If confirmed by the 
Senate, will you advocate for the use of taxpayer dollars to provide 
vouchers for religious schools?
    Answer 82. Every child should be given the opportunity to succeed 
and parents should feel empowered to make choices that best fit their 
child. If there is a mismatch between the school and their child, 
parents can pick an educational setting that best meets the needs of 
their child. They need the best information possible upon which to make 
those decisions. However, those specific choices should not be 
mandated, nor directed, by the Federal Government. If confirmed, I do 
look forward to working with Congress to develop President Trump's 
proposal that would provide the opportunity for choices to be offered.

    Question 83. Successful charter schools are one way to provide a 
high-quality education to all students regardless of their zip code. 
However, public charter schools relying on taxpayer money to operate 
must be held accountable for providing that high-quality education. You 
have played a role in promoting charter schools in your home State of 
Michigan including serving as the chairwoman to several education 
interest groups that promote school choice. And, until recently, you 
fought against oversight and accountability for charter schools in 
Michigan. On November 29, 2016, the Office of Elementary and Secondary 
Education in the Department of Education released the final regulations 
for the implementation of accountability, data reporting, and State 
plan provisions of the Every Student Succeeds Act (ESSA). The 
collection and reporting of student achievement data is critical in 
protecting certain minority subgroups of children--specifically, those 
who are Hispanic, black, low-income, learning English or disabled--from 
falling through the cracks. If confirmed by the Senate, how do you plan 
to ensure the oversight necessary to hold all publicly funded schools 
including charter schools accountable for providing equitable and 
effective educational services for all students?
    Answer 83. As I have said before, I support accountability in all 
public schools. If confirmed, I will implement the law as intended by 
Congress.

    Question 84. The Every Student Succeeds Act provided for increased 
spending on title I, part A (title I) which provides Federal funding to 
low-income school districts. The Every Student Succeeds Act, as signed 
into law, allows for no title I portability whatsoever. You have 
advocated for the use of title I money for vouchers for public charter 
schools as well as religious and private schools. What are your plans 
for ensuring that title I funding provides financial assistance to 
local educational agencies (LEAs) and schools with high numbers or high 
percentages of children from low-income families to help ensure that 
all children meet challenging State academic standards?
    Answer 84. If confirmed, I will implement the law as passed and 
intended by Congress.

    Question 85. Through political donations, your group All Children 
Matter (ACM) spent millions of dollars to promote the use of taxpayer 
money for private schools through school vouchers. You claim that 
vouchers allow low-income students to attend the school of their 
family's choice. However, vouchers actually do little to help low-
income students because they do not cover the entire cost of tuition 
and other fees required to attend private schools. In reality, vouchers 
end up mainly benefiting those families who can afford the excess 
tuition, transportation, uniforms, and other supplies needed to attend 
a private school. Vouchers often just end up subsidizing families who 
already send their children to private school and can afford it even 
without vouchers. In Indiana, for example, where you were actively 
involved in developing their voucher program, more than half of the 
State's voucher recipients are students who never actually attended 
Indiana public schools in the first place. So, in Indiana, taxpayers 
are covering private school tuition for children whose parents were 
already footing that bill, including families earning up to $150,000. 
In other words, local public schools subsidize the costs for high-
earning families to send their kids to private school. Do you agree 
that our public school dollars should go to families who are able to 
pay tuition for private schools?
    Answer 85. I believe every child is entitled to a publicly funded 
education. For most children, that will be in a traditional public 
school, but in 25 States families can use public funds or publicly 
incented funds to attend a nonpublic school. You make an incorrect 
assumption that ``vouchers actually do little to help low-income 
students because they do not cover the entire cost of tuition.'' Also, 
I disagree with your assertion that taxpayers are paying for families 
who can afford private school tuition.
    In fact, many of these private school choice programs are focused 
on helping poor children only and they have been very successful in 
helping these children access private schools. For instance, for more 
than a decade the Nation's largest scholarship tax credit program in 
Florida served tens of thousands of students whose family incomes were 
so low that they qualified for Free and Reduced Price Lunch. The same 
was true for many years in the DC Opportunity scholarship program where 
poor families could send their children to high tuition schools like 
Sidwell Friends. To this day, in Washington, DC, the average income of 
a participating family is $21,434. Private schools across America 
routinely accept students who cannot afford to pay the full amount for 
tuition--and this includes students with vouchers.

    Question 86. When vouchers do not fully cover the costs of 
attending private schools including the full cost of tuition, uniforms, 
supplies, or other costs associated with attending, private schools are 
not an option for low-income families. According to a report in the 
Grand Rapids Press, your husband said of this discrepancy that ``he was 
convinced parents concerned about their children's education will earn 
the extra money.'' In other words, according to your husband, parents 
can just ``earn the extra money'' to make up for the costs that 
vouchers don't cover. This suggests that you may be unaware of the 
myriad of issues that low-income parents face that relate to the issue 
of school choice. Can you please explain what you know about these 
issues and how you would propose that low-income families make up the 
difference between what they may receive in a voucher and the cost of 
the private schools that they want to attend?
    Answer 86. That quote, as you noted, is attributed to my husband. I 
speak for myself. However, I know there is nothing stronger than a 
parent's will to provide for their child and I believe that's what my 
husband was referencing.
    Most of the Nation's more than 50 nonpublic school choice programs 
are designed to help children disadvantaged by income or disability. As 
noted in my answer to Question 85, because of publicly funded school 
choice programs and because nonpublic schools routinely accept students 
who cannot pay the full tuition or fees, tens of thousands of children 
from poor families are presently attending a school that was previously 
not an option for them. Much like our Nation's colleges, private 
elementary and secondary schools work with families to make up the 
difference between the funds available to the family and the costs of 
attending the school through things like private scholarships, tuition 
discounts and counting parental volunteer hours as a contribution.

    Question 87. Many of our Nation's early childhood education 
programs are housed at the Department of Health and Human Services. If 
confirmed by the Senate, how would you work with the Department of 
Health and Human Services to support Head Start and other early 
childhood education programs?
    Answer 87. As the Secretary of Education I would not have a direct 
role in Head Start or many other Federal early childhood care programs. 
However, as I previously responded, the Preschool Development Grants 
authorized under the Every Student Succeeds Act does require the 
agencies to work together and I would look forward to that 
collaboration to help States better utilize State and Federal funding 
to support early childhood education.

    Question 88. Are there specific programs at the Department of 
Education that you see as wasteful, duplicative, or obsolete? If so, 
which one(s)?
    Answer 88. If confirmed, I will review the programs I am 
responsible for implementing and if, during that review, I determine 
there are wasteful, duplicative, or obsolete programs, I will recommend 
to Congress those programs be eliminated.

    Question 89. Every year, the Department of Education releases its 
list of nationwide Teacher Shortage Areas (TSA). This report shows the 
Nation's teacher shortage areas by State. For the 2016-17 school year, 
``rural areas'' was named as a geographic shortage area. If confirmed 
by the Senate, how do you plan to support rural schools by attracting 
and retaining excellent teachers in rural areas?
    Answer 89. Teacher hiring is a local issue, but a common issue 
shared amongst school districts. Teacher hiring can be even more 
difficult for rural communities. If confirmed, I look forward to 
talking with State and local school officials and help facilitate the 
sharing of best practices to bring more teachers into the schools.

    Question 90. In your work for charter schools and professional 
background, you advocated for religion to be taught in schools. As 
Secretary, would you push for religion to be taught as part of the 
curriculum in public schools and will you enforce the law and agency 
authority to prohibit public schools from mandating religion in the 
curriculum?
    Answer 90. If confirmed, I will implement and respect the laws as 
intended by Congress. That includes provisions about the prohibition 
against religious instruction in schools. In addition, I believe that 
curriculum decisions are best determined at the State and local level.

    Question 91. Overwhelmingly, students of color are more likely to 
be suspended and/or expelled than their Caucasian peers in our Nation's 
schools which leads to further widening of achievement gaps in 
education. What will you do to ensure that all students are treated 
fairly when it comes to discipline practices? How will you promote 
restorative justice and solutions instead of suspensions and 
expulsions?
    Answer 91. Discipline is a local issue and State and district 
school officials should work with their school leaders to develop 
appropriate policies to promote proper discipline techniques that limit 
any time out of school or class for students. If confirmed, I will work 
with school officials to help share best evidence-based practices as 
appropriate so that they may be developed and implemented.

    Question 92. More and more research is showing that being bilingual 
has benefits for children's learning beyond just language learning. 
What are your thoughts on existing Federal law or regulations that 
encourage students to learn a second language?
    Answer 92. Being bilingual is a great benefit for individuals as it 
not only helps them be more competitive in a global market, some 
studies have shown it helps improve cognitive abilities. If confirmed, 
I will ensure any laws passed by Congress are implemented as intended, 
including any programs supporting foreign language learning.

    Question 93. As part of the sale of the University of Phoenix, the 
U.S. Department of Education put conditions in place to protect 
students and taxpayers. Do you think these conditions are important? 
Will you commit to ensuring that the institution meets the legal 
requirements established by the Department?
    Answer 93. I cannot make a judgment about this question now. If 
confirmed, I plan to review the conditions of this sale as compared to 
the conditions placed on other sales over a period. I will also review 
the law to determine whether the conditions placed on this sale are 
within the scope of what is permitted under the law. Once that review 
is complete, I will decide about this matter.

    Question 94. Have you or your family ever invested in, owned, or 
been in any way involved with Apollo Global Management? If yes, please 
provide details.
    Answer 94. An interest is held in Apollo Investment Fund IV, which 
holds an interest in Hexion Inc., a producer of specialty chemicals and 
performance materials.
    An interest is held in SwanCap Opportunities Fund SCS--SIF, which, 
in turn, holds interests in Apollo Investment Fund VI, Apollo 
Investment Fund VII, and Apollo Investment Fund VIII. The interest in 
SwanCap Opportunities Fund SCS--SIF will be divested in accordance with 
the terms of the ethics agreement.
    More generally, I want to assure the Senate Health, Education, 
Labor, and Pensions Committee, if confirmed, I will comply with all 
ethics requirements required by the Office of Government Ethics and the 
Ethics Office at the Department of Education.

    Question 95. Your brother-in-law, Dan DeVos, serves on the board of 
Alticor along with Allen Weiss. Alan Weiss also serves on the board of 
the Apollo Group, a company that owns several for-profit colleges, 
including the University of Phoenix, one of the largest for-profit 
colleges in the country. UoP has been investigated by the FTC for 
deceptive marketing practices, accused of aggressively recruiting 
veterans, and at one point, banned by the Department of Defense from 
recruiting on military bases after finding that it did not get proper 
approval to hold events. The Department of Education recently approved 
the sale of Apollo Group to a group of investors. Given your family's 
connection to someone on the board of Apollo, will you recuse yourself 
from the conditions of sale?
    Answer 95. If confirmed, I will comply with all ethics requirements 
required by the Office of Government Ethics and the Ethics Office at 
the Department of Education.

    Question 96. During our questioning, you told Senator Hassan that 
you had never served on the board of the Edgar and Elsa Prince 
Foundation. You stated that there was a clerical error on the 
foundation's 990 tax forms, which listed you as a vice president on the 
board. This alleged clerical error took place since at least 2001. Who 
made this clerical error? Why was this error repeatedly made since 
2001? Why didn't you correct this clerical error over the years? Did 
you attend any board meetings or participate in any other official 
action on behalf of, or related to, the foundation during the period in 
which you were listed as a vice president on the board? Can you confirm 
that your attendance is not noted in the minutes of any foundational 
board meeting?
    Answer 96. I have never served as an officer or director of the 
Elsa and Edgar Prince Foundation, nor have I made any decisions for 
that Foundation's contributions. Upon review of documents in 
preparation for the Senate hearing, the Foundation representatives were 
alerted to these errors, and several Foundation tax filings and State 
of Michigan corporate filings were amended to correct them.
                             senator bennet
    Question 1. How do you think about your role as Secretary of 
Education with respect to schools, districts, cities, and States?
    Answer 1. If confirmed, I view my role as working with Governors, 
legislators, students, parents, teachers and other school personnel, 
institutions of higher education, and business and community leaders to 
expand--and improve--educational opportunity for all students.
    I believe the role of the Department of Education is to empower 
States and localities to provide an excellent education for all their 
students. Since these educators are ultimately responsible for a 
students' academic success, they must be empowered to make decisions 
about their education and given the resources, flexibility, and 
opportunities to succeed. That is what was intended with the passage of 
the Every Student Succeeds Act (ESSA). I will work with you to 
implement the law, if confirmed.
    As we go forward, I would look to streamline the Department of 
Education by consolidating programs and creating flexible funding 
streams; promoting research and overseeing State accountability 
systems; modernizing the Pell grant program to meet the needs of 
today's students; making college more accessible and affordable; and 
creating pathways for lifelong learning.

    Question 2. If a school, district, or city came to you and asked 
for advice, suggestions, and strategies to improve schools that are 
struggling, what would you say? What evidence is there that your 
response would prove effective?
    Answer 2. I would encourage them to look to neighboring or other 
high performing districts to see what programs are being successfully 
implemented to improve student achievement. Since it is not proven that 
what works in one State would necessarily work in another State, I 
think that it is best to foster a collaborative local effort to learn 
from best practices. As a strong supporter of public schools, my 
approach is to use evidence-based best practices to encourage 
accountability, achievement, and high-quality school leaders and 
teachers.

    Question 3. What is your plan to improve the whole system of 
education for our country?
    Answer 3. We must empower States and localities. To ``make America 
great again,'' those closest to students must be empowered to make 
decisions about their education and given the resources, flexibility, 
and opportunities to succeed. That is what was intended with the 
passage of the Every Student Succeeds Act.
    If confirmed, I intend to work with you to implement the law as 
intended. As we go forward, I would look to streamline the Department 
of Education by consolidating programs and creating flexible funding 
streams; promoting research and overseeing State accountability 
systems; modernizing the Pell grant program to meet the needs of 
today's students; making college more accessible and affordable; and 
creating pathways for lifelong learning.
    We must reduce regulatory burdens in our education system. States 
and localities are burdened by red tape and restrictions from 
Washington. Educators spend too much time focusing on complying with 
Federal regulations.
    As Chairman Alexander likes to say, the department of education was 
never intended to be the national school board.
    We must provide incentives for innovation in education. Innovation, 
both at the K-12 and post-secondary levels, can only come with the 
input of parents, educators, and business and civic leaders. Industry 
is critical to creating an American workforce that can meet the demands 
of an ever-changing world and global economy. We have experienced 
innovation in every other area of our lives--why not education?
    We must be a voice for parents. Low-income and special-needs 
students in our Nation deserve the opportunity to receive the best 
education available, regardless of their resources or zip code. Parents 
must be afforded the ability to make the best educational choices for 
their children. What is right for one child may not be a good fit for 
another--hence the need for good choices.

    Question 4. When I was superintendent, I found it very useful to 
spend 2 hours each morning in a different school in the district. Will 
you commit to a schedule that allows you to spend a substantial amount 
of time in different public schools across the country?
    Answer 4. If confirmed, I look forward to traveling the country, 
meeting with education stakeholders, and promoting what works in all 
sorts of schools across the Nation. Additionally, I would be happy to 
join you in visits to schools in Colorado.

    Question 5. In September, President-elect Trump proposed 
reprioritizing $20 billion in Federal funding to create a new private 
school choice initiative. States would be able spend this funding on 
public or private schools.
    From where would this $20 billion be reprioritized? Are you 
proposing to ``reprioritize'' title I funding? Title II? Title III? 
Title VI? IDEA?
    Answer 5. The President made a robust school choice proposal a 
centerpiece of his platform, and, if confirmed, I look forward to 
working with you on our proposal and hope to convince you to support 
the legislation.
    As we finish developing this proposal, I will look closely at the 
budget of the Department of Education to determine the best allocation 
of taxpayer dollars to programs when proposing budgets for future 
fiscal years.

    Question 6. Do you think ESEA is a civil rights law?
    Answer 6. The Elementary and Secondary Education Act is a law 
designed to make grants, through both formulas and competitions, to 
States and local school districts. It has its foundation in the war on 
poverty and the civil rights era. I believe that education is a civil 
right and hope to expand opportunities for all students to attend the 
best school that meets their individual needs.

    Question 7. In your opinion, what is the difference between 
transparency and accountability?
    Answer 7. Transparency is the simple act of reporting information 
about the performance of students and schools (in an education 
context). Accountability is the process of taking information and 
deciding what to do about results, whether by offering support for 
doing well or assistance to improve where results are less than needed.

    Question 8. In your opinion, what, if any, were the strengths of No 
Child Left Behind?

    Answer 8. I think that the No Child Left Behind Act had positive 
goals behind it, helping States develop accountability systems, 
ensuring transparency of data for all students, and encouraging States 
to help schools that need the most assistance. However, it was far too 
prescriptive from ``Washington, DC'' and ignored the wisdom of 
empowering local and State education agencies.

    Question 9. Ensuring access to a high quality education is about 
more than just the low performing schools. It is about making sure that 
all groups of students, including kids from low-income families and 
kids of color are succeeding. In ESSA, we worked to ensure that schools 
and districts must be held accountable for all kids, including when our 
historically disadvantaged students live in some of our most advantaged 
communities.
    Will you commit to enforce these core accountability and civil 
rights protections vigorously in ESSA?
    Answer 9. If confirmed, I will enforce the Every Student Succeeds 
Act as Congress wrote it.

    Question 10. ESSA includes a very important requirement that States 
identify schools where one or more groups of students are consistently 
underperforming. What do you think is the best approach to defining 
``consistently underperforming?'' What approaches are inconsistent with 
the language and intent of the law?
    Answer 10. The law defers to States to determine how best to define 
and identify ``consistently underperforming'' schools and I look 
forward to working with States to see what proposals they put in their 
State plans.

    Question 11. How will you enforce the accountability provisions in 
ESSA? How would you use regulations, guidance, the peer review process 
and State plan review, approval and denial to ensure that States meet 
the accountability requirements in the law?
    Answer 11. I believe regulations and guidance documents should be a 
helpful tool to States, local school districts, teachers, school 
personnel, and others who implement Federal education law to improve 
their understanding of the law and how to comply with the requirements 
of the law as Congress wrote it.

    Question 12. In the next decade, the country will need to hire 
somewhere between 1.5 million and 3 million teachers. To put that in 
perspective, today, the entire teacher workforce is about 3.5 million. 
We know that nothing in school makes a bigger difference for student 
learning than great teaching. But, many poor children do not have 
access to the education they need to succeed.
    We need a system of recruiting, training, supporting, and retaining 
educators to work in high poverty schools that are attractive to the 
most effective teachers and school leaders in the country.
    How do you think we can create such a system?

    Question 13. What specifically should we change about our existing 
approach?

    Question 14. How as Secretary of Education will you ensure the 
country has the 1.5 million or more high-quality teachers it needs? Do 
you believe creating more school choice will alone produce the number 
of high-quality teachers we need? What evidence is there that your 
approach will prove effective?

    Question 15. What do you think are the challenges of recruiting 
strong students to teaching? What do you think are the challenges of 
recruiting great teachers to high-poverty schools? What policies do you 
support to address these challenges?
    Answer 12-15. If confirmed, I look forward to working with you, and 
others in Congress and around the country, to explore this issue and 
determine what the combination of Federal, State, local, and 
institutional efforts could do to help encourage more qualified 
individuals to pursue a teaching career, keep those good teachers in 
the field longer, and help those teachers who need to improve their 
skills do so.
    We need more good teachers. Hopefully that is a goal that can earn 
bipartisan support.

    Question 16. Do you believe we should pay teachers more? How do you 
think schools and States should achieve that objective?
    Answer 16. Teacher compensation is a decision made at the local 
level. I would certainly encourage local school districts to use their 
resources wisely and pay teachers well.
    For the record, I have supported more and better pay for good 
teachers.

    Question 17. Do you think we need to improve teacher preparation? 
If so, how do you think we achieve that and what will you do as 
Secretary of Education?
    Answer 17. Yes, I believe that we need to improve teacher 
preparation. I look forward to working with you and other Members of 
Congress as you undertake reauthorization of the Higher Education Act 
to develop bipartisan, consensus proposals to improve title I's ability 
to strengthen our teacher preparation programs.

    Question 18. In the recent reauthorization of the Elementary and 
Secondary Education Act, we worked hard to include language and funding 
to support strong school leadership, particularly in high-poverty 
schools. How will you and the Department of Education work to ensure 
that all schools have access to strong school leaders, including 
teacher leaders, assistant principals, principals, and principal 
supervisors?
    How will you and the Department implement and support schools, 
districts, and States to implement the school leadership provisions and 
grant program?
    Answer 18. if confirmed, I will enforce the law. I will work with 
States and local school districts to encourage them to take advantage 
of the flexibility and resources made available under the Every Student 
Succeeds Act to improve the number of well-qualified school leaders.

    Question 19. As Secretary of Education, how will you support 
teacher leadership opportunities?
    Answer 19. If confirmed, I will work with States and local school 
districts to encourage them to take advantage of the flexibility and 
resources made available under the Every Student Succeeds Act to 
improve the number of well-qualified school leaders.

    Question 20. As Secretary of Education, how will you implement 
title II and support schools, districts, and States to provide high 
quality, personalized, evidence-based professional development for 
public school teachers?
    Answer 20. If confirmed, I will work with States and local school 
districts to encourage them to take advantage of the flexibility and 
resources made available under the Every Student Succeeds Act to 
improve the number of well-qualified school leaders.

    Question 21. Right now, we often spend more money in our high-
income schools than we spend in our low-income schools. Do you think 
this approach to school funding will close the achievement gap?
    Answer 21. There are many ways to close the achievement gap. Some 
schools can operate with great efficiency and efficacy with their 
resources, while others need more support.
    In general, I believe it is best to defer to the judgment of State 
and local officials about how to implement education policies and close 
the achievement gap. If confirmed, I look forward to sharing data, best 
practices, and strong research from the Department of Education with 
State and local officials so that they can adapt it to their needs. But 
I also hope that States and local leaders will think outside the box 
and innovate, looking for new solutions to vexing educational problems. 
If I can be a resource to help as Secretary, I would welcome that 
opportunity.

    Question 22. Do you support creating more equitable funding systems 
in order to reverse the trend and invest more money in the schools that 
need it most? Will you commit to work with me to support and encourage 
such systems?
    Answer 22. State and local funding systems are complicated and vary 
from State to State. Decisions about those systems are best left to 
States and their elected officials who have a better understanding of 
their resources and needs. If confirmed, I will commit to discussing 
this issue with you to gain a better understanding of your goals and 
see what the appropriate Federal role might be, if any.

    Question 23. According to some rough estimates, there are around 
725,000 elementary and secondary students who are undocumented. Are you 
familiar with Plyler v. Doe?

    Question 24. Will you commit to enforce Plyler vigorously to ensure 
schools and districts are providing an education to all kids, 
regardless of immigration status?
    Answer 23-24. If confirmed, I will follow and respect the law of 
the land, including the Plyler decision.

    Question 25. Will you commit to enforce Plyler consistent with the 
policy set forth in the Department of Education's May 8, 2014 Dear 
Colleague and accompanying guidance?

    Question 26. Will you commit to enforcing the Dear Colleague's 
statement that,

          ``Enrollment practices that may chill or discourage the 
        participation, or lead to the exclusion, of students based on 
        their or their parents' or guardian's actual or perceived 
        citizenship or immigration status . . . contravene Federal 
        law?''

    Answer 25-26. If confirmed, I will carefully review all existing 
guidance documents and Dear Colleagues that are in effect to ensure 
that guidance from the Department of Education serves as a helpful tool 
to States, local school districts, teachers, school personnel, and 
others who implement Federal education law, and not as a hindrance to 
State and local efforts to follow the laws as Congress wrote them.

    Question 27. As Secretary of Education, what will you do if a 
school, district, or State stopped enrolling or educating students who 
are undocumented?
    Answer 27. If confirmed, I would consult with Department lawyers 
and the Department of Justice about what actions are required under the 
law to address any allegations of failure to follow the law.

    Question 28. In Colorado, about 17,000 and across the country 
roughly 750,000 kids and young adults have signed up for DACA. We have 
heard from students, families, teachers, and districts about their 
feelings of uncertainty and anxiety about the future for these young 
DREAMers. They are scared and looking to hear that they will be safe.
    Will you oppose any efforts by the Administration to force schools 
and districts to divulge confidential information about students and 
their parents, particularly as it relates to immigration status? Will 
you support schools and districts efforts to protect students?
    Answer 28. Enforcement of our Nation's immigration laws falls under 
the responsibility and jurisdiction of the Department of Justice and 
the Department of Homeland Security, so I would respectfully defer to 
those agencies. But know that where the Department of Education has a 
role, my guiding principles are founded in compassion and sensitivity.

    Question 29. As Secretary of Education, you will be responsible for 
implementing the Federal Charter Schools Program. Chairman Alexander 
and I worked hard to reauthorize, improve and expand this program in 
the new Every Student Succeeds Act. We introduced the Expanding 
Opportunity Through Quality Charter Schools Act and worked to include 
this in the new law.
    The new law includes the definition of a high-quality charter 
school. This definition includes a requirement that the school:

    (A) shows evidence of strong academic results, which may include 
strong student academic growth, as determined by a State;
    (B) has no significant issues in the areas of student safety, 
financial and operational management, or statutory or regulatory 
compliance;
    (C) has demonstrated success in significantly increasing student 
academic achievement, including graduation rates where applicable, for 
all students served by the charter school; and
    (D) has demonstrated success in increasing student academic 
achievement, including graduation rates where applicable, for each of 
the subgroups of students, as defined in section 1111(c)(2), except 
that such demonstration is not required in a case in which the number 
of students in a group is insufficient to yield statistically reliable 
information or the results would reveal personally identifiable 
information about an individual student.

    The replication and expansion of high-quality charter schools 
program provides Federal funding directly to high-quality charter 
schools or charter management organizations to expand or replicate. The 
State grants provides support to open more charter schools or replicate 
high-quality schools.
    Will you commit to enforce the definition of ``high-quality charter 
school'' in the replication and expansion program and in the State 
grant program? If not, what specific components, words, or phrases in 
the definition do you object to?
    Answer 29. Yes, I will enforce the law.

    Question 30. Will you commit to ensure that Federal funds only 
support the replication and expansion of charter schools that have 
demonstrated academic success?
    Answer 30. Yes, I will enforce the law.

    Question 31. Under the reauthorized Charter School Program, a State 
must demonstrate its commitment to provide strong accountability in 
order to receive one of the State grants to grow more schools. Will you 
commit to implementing the Charter School Program as authorized and to 
make quality and accountability heavily weighted factors in deciding 
how to award Federal funds to States?
    Answer 31. Yes, I will enforce the law.

    Question 32. I have advocated for increasing funding for the 
Federal Charter Schools Program. Last spring, I led a letter to the 
Labor, Health and Human Services and Education Appropriations 
Subcommittee requesting an increase in funding for the program. As 
Secretary of Education, will you commit to work with me to increase 
funding for the Federal Charter Schools Program?
    Answer 32. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when making a proposed budget for future fiscal 
years. I strongly support the public charter school program in the law 
and look forward to working closely with you and others in Congress to 
continue and expand this program.

    Question 33. In a September 2016 speech, President-elect Trump said 
his school choice proposal would ``create a massive education market 
that is competitive and produces better outcomes.'' He is reported to 
have also said, ``Competition always does it.''
    In the context of education, do you agree with President-elect 
Trump that ``competition always does it''?

    Question 34. In an education market of low-performers, where 
slightly better than terrible is the success story, what incentive is 
there to do the hard work to open and operate a good school?

    Question 35. In education, does the market alone create that 
incentive?

    Question 36. In your opinion, does relying solely on the market in 
education ever fail to produce high-quality outcomes? Why or why not? 
Can you please give examples of where and when?
    Answer 33-36. Traditional public schools don't work for every 
child. A traditionally assigned public school might not work for a 
child because they may need something different than what is offered at 
their neighborhood school. We can make other options available in this 
country. I believe that every child is special and unique; they are 
individuals to be developed. Often parents tell me that a public school 
worked for one of their children, but not another. They need choices, 
like those of us from different neighborhoods or families with 
different financial means.
    We are no longer in an industrial age. We are changing at warp 
speed. We're seeing so many developments where technology can help us 
individualize and personalize education in different settings. 
Traditional public schools, public charters, private schools, 
homeschooling, online or distance learning, and forms of delivery that 
we haven't yet thought of, so I believe we need to embrace progress.
    I believe parents should have the freedom to choose between a high-
quality public school, a public charter school, a magnet school, or a 
private school. I believe a competitive marketplace in our elementary 
and secondary education system will work as well as it does in our 
higher education system, where colleges and universities compete for 
students, and students and their parents get to choose which school to 
attend. With a diverse array of good schools, every family should be 
able to find the best match of school for their child's individual 
needs.
    Rural areas obviously face more challenges in providing a range of 
educational choices. In those situations, we can and should do 
everything possible to improve the school in the community and consider 
ways that technology might add to the educations options for students, 
such as greater course offerings.

    Question 37. What do you believe should happen if schools, charters 
or traditional, do not improve?
    Answer 37. I believe States and local school districts should 
develop accountability systems for schools, both traditional and public 
charter schools, that meet the needs and desires of their communities.

    Question 38. Is closing down very low-performing schools enough to 
ensure a high-quality option for all kids? What if this results in a 
cycling through of low-quality schools?
    Answer 38. Closing a low-performing school is an important part of 
a robust accountability system. It sends a signal to other schools that 
accountability works, it sends a signal to parents and students that 
their success is important, and it creates pressure for other schools 
to improve and help their students improve.

    Question 39. What should happen after those schools are closed? How 
would you ensure the new schools that open are better? How would you 
ensure the new schools are opening in the neighborhoods where they are 
needed?
    Answer 39. Deciding what to do after a school closes is a State and 
local decision. If confirmed, my responsibility is not to make 
decisions for States or local school districts, but to create an 
environment where they have the freedom and flexibility to decide what 
to do to improve education in their local communities.

    Question 40. Do you believe a choice among five low-performing 
schools is a meaningful choice?
    Answer 40. No.

    Question 41. What do you believe are best practices and policies 
for creating a strong public choice system? Where do you believe those 
practices and policies have been best carried out?
    Answer 41. If confirmed, my responsibility is not to make decisions 
for States or local school districts, but to create an environment 
where they have the freedom and flexibility to decide what to do to 
improve education in their local communities. It is also my desire to 
challenge States and local districts to share best practices, and to 
challenge their counterparts to excellence.

    Question 42. The Coalition for the Future of Detroit School 
Children proposed creating citywide performance standards. Do you 
support such a proposal?
    If not, why? How would high performance standards limit choice? 
Don't they just limit the existence of low performing schools?
    Answer 42. In the Michigan context, I have supported a statewide 
level of accountability. It is, in my opinion, inappropriate to have 
one standard for Detroit and another standard for the rest of the 
State.

    Question 43. The National Alliance for Public Charter Schools 
recently updated its model State charter law that it believes would

          ``increase the focus of State-level charter school laws on 
        creating high-quality charter schools while holding 
        underperforming schools and authorizers accountable.''

    There is growing evidence that State policies matter to create 
effective charter systems. How do you think the Department should 
contribute to those efforts to improve the quality of State charter 
school policies and practices?
    Answer 43. If confirmed, I will work with Governors, State 
legislators, and local leaders to ensure that there is an environment 
for charter schools to succeed, grow, and thrive. I believe that 
charter schools provide an important opportunity for parents, students, 
and teachers to improve their education.

    Question 44. In your hearing statement, you said students are 
``having increasing difficulty accessing affordable higher education.'' 
You specifically mentioned ``escalating tuition'' and debt.
    Can you describe your plans to make college more affordable and to 
reduce student debt? What do you hope to achieve in reauthorization of 
the Higher Education Act? What evidence is there that your approach 
will prove effective for all students?
    Answer 44. See below.

    Question 45. We need a higher education system that promotes 
quality, rewards success, and holds programs accountable. We need to 
ensure the billions of dollars the Federal Government invests is 
actually producing the outcomes we need.
    Federal programs should incent States and colleges to keep costs 
lower and focus on strong outcomes, while taking money away from 
institutions that do not produce quality results or show a return on 
investment.
    Do you support creating such a system that rights incentives in 
higher education and creates strong accountability, in addition to 
better transparency? Will you commit to advocating for this and working 
with me on it during reauthorization of the Higher Education Act?

    Question 46. How do you think we should create accountability in 
higher education? What approach do you support? How does your approach 
move beyond just better transparency?
    Answer 44-46. Chairman Alexander has said that the reauthorization 
of the Higher Education Act is one of his top priorities this Congress. 
If confirmed, I look forward to working with you and all members of the 
Senate Committee on Health, Education, Labor, and Pensions to develop 
bipartisan, consensus proposals to improve our institutions of higher 
education, reduce student debt, and ensure that taxpayers are not 
burdened with additional costs.

    Question 47. Will you commit to work with me to better align 
workforce education and training and higher education within the 
Department of Education and across agencies, specifically at the 
Department of Labor, in the Federal Government?
    Answer 47. Yes.

    Question 48. Is there anything that, in your view, the Obama 
administration and the U.S. Department of Education have done right 
that you are hoping to continue or emulate in the incoming 
administration?
    Answer 48. My mother, a public school teacher, taught me to always 
find something good to say about someone. I believe that both Arne 
Duncan and John King tried their best to be strong advocates for their 
views and work with States and local school districts to improve 
education. If confirmed, I will follow their model of speaking up when 
I have a view that I want to share.

    Question 49. As Secretary of Education, how will you and the 
Department of Education work to improve the quality of early childhood 
education as well as expand the opportunity for low-income children to 
participate in early childhood education through title I?
    Answer 49. If confirmed, I will work with States, local school 
districts, early childhood providers, and the Department of Health and 
Human Services to better coordinate early childhood education programs 
and services and encourage States to continue their efforts to expand 
early childhood education programs appropriately.

    Question 50. Will you support programs that foster innovation and 
invest in building the evidence base such as the Education Innovation 
and Research grant and the Supporting Effective Educator Development 
program?
    Answer 50. Yes.

    Question 51. As Secretary, what will you and the Department do to 
increase the use of evidence, data and evaluation to inform policy and 
drive continuous improvement in education programs?
    Answer 51. If confirmed, I will work with the Office of Educational 
Research and Improvement to expand awareness of best practices that are 
evidence-based and encourage States and local school districts to 
review the findings of Department-sponsored research to improve their 
schools.

    Question 52. How will you ensure that LGBT kids are free from 
discrimination in school?
    Answer 52. I am opposed to bullying and harassment of any student 
for any reason. Schools should be a place of learning and improving 
oneself, and, if confirmed as Secretary, I will work with the First 
Lady to speak out against bullying and harassment and encourage States 
and local school districts to improve policies and procedures to 
prevent and deter this shameful behavior. On the flip side, I will work 
to promote a culture of kindness and respect for others.

    Question 53. As part of the recent reauthorization of the 
Elementary and Secondary Education Act (ESEA), the Congress made clear 
that a set of well-rounded educational activities can be funded through 
title I, title II, and the Student Support and Academic Enrichment 
Grant program. Among the activities that make up a well-rounded 
education is the arts. The arts play a strong role in ensuring that our 
Nation's students can express themselves confidently and think 
critically in response to complex problems.
    Prior to the passage of the recent ESEA reauthorization, confusion 
too often existed over whether Federal funds could be used to support 
the arts as an academic area. With these thoughts in mind, how will the 
Department under your leadership as Secretary implement the well-
rounded education provisions across the programs within ESEA?
    Answer 53. In general, I believe it is best to defer to the 
judgment of State and local officials about how to implement education 
policies. If confirmed as Secretary, I would welcome the opportunity to 
share data, best practices, and strong research from the Department of 
Education with State and local officials so they can adapt it to their 
particular needs. But I also hope that States and local leaders will 
think outside the box and innovate, looking for new solutions to vexing 
educational problems. If I can be a resource to help as Secretary, I 
would welcome that opportunity. With regard to arts and music 
education, I agree that they can be an important part of a well-rounded 
education and hope that local education leaders can find new ways to 
expand student opportunities in these areas, particularly with the 
greater flexibility provided to States and local school districts and 
the reduced focus on standardized tests seen under new accountability 
systems.

    Question 54. In the recent reauthorization of ESEA, we worked to 
include a new weighted student funding pilot to focus on improving 
equity in the way a district allocates funds to public schools in the 
district. Will you commit to implement this pilot as it was intended to 
create more equitable within-district public school funding systems 
that ensure districts provide more State and local resources to high 
poverty public schools and that Federal programs continue to serve the 
students they intended to benefit?
    Answer 54. If confirmed as Secretary, I look forward to working 
with States and local school districts as they submit innovative 
proposals under this exciting new pilot program. I believe the law 
provides a great opportunity to be creative and flexible, and I look 
forward to seeing what the States propose.
                           senator whitehouse
                     k-12 education--middle schools
    Question 1. During our meeting on January 4, I provided you with a 
copy of my letter to Secretary King outlining a series of requests for 
guidance outlining best practices for how States and districts can meet 
the requirements in ESSA to support middle school students. Please 
respond to that letter outlining the steps you will take in support of 
middle level education if confirmed Secretary of Education as well as 
your timeline for initiating these steps.
    Answer 1. If confirmed as Secretary, I look forward to responding 
to letters you send to me. I do believe that an appropriate role of the 
Department is to share best practices.

    Question 2. The middle grades represent a tremendous opportunity to 
intervene with at-risk students and get them back on track. Evidence 
shows that up to 60 percent of high-poverty sixth graders who 
demonstrated at least one negative indicator relating to either 
attendance, behavior, or failing a course did not graduate high school 
on time. Supporting them before they get too far off track is easier 
and more effective than late stage interventions. What measures will 
you promote to incentivize States to focus on the middle grades? What 
direction on this matter will you give to States as they submit their 
draft plans for review?
    Answer 2. I agree that middle school education is an important 
issue. However, I do not believe that it is wise to look to Washington 
for an answer or to try to impose a top-down system of education from 
the Nation's capital. In our decentralized system, States are 
responsible to develop and maintain their own systems of education and 
I think that is preferable.
    The role of the Department of Education, and, if confirmed, mine as 
Secretary, is to work with people around the country to identify best 
practices, highlight what works, call out educational failures where we 
see them in order to help people on the ground in the States, local 
school districts, and colleges and universities improve their own 
operations.

    Question 3. Chronic absenteeism is a problem at all grade levels 
but is especially an issue in the middle grades. Nationally, 12 percent 
of middle school students miss at least 10 percent of school days per 
year in 2015. Thankfully, students in this age are exceptionally 
responsive to interventions even though they are largely overlooked by 
the current educational system. Do you agree chronic absenteeism is a 
problem? What specific actions will you take to combat chronic 
absenteeism? Will you direct the Department to release guidance about 
attendance best practices?
    Answer 3. I agree that absenteeism is a problem. However, I do not 
believe that it is wise to look to Washington for an answer or to try 
to impose a top-down system of education from the Nation's capital. In 
our decentralized system, States are responsible to develop and 
maintain their own systems of education and I think that is preferable.
    The role of the Department of Education, and, if confirmed, mine as 
Secretary, is to work with people around the country to identify best 
practices, highlight what works, call out educational failures where we 
see them in order to help people on the ground in the States, local 
school districts, and colleges and universities improve their own 
operations.
                               innovation
    Question 4. During our meeting on January 4, I provided you with a 
copy of my letter to Secretary King outlining a series of requests for 
guidance regarding the opportunities for innovation that were included 
in ESSA. Please respond to that letter outlining the steps you will 
take to support greater innovation within the public school system, 
other than vouchers, if confirmed Secretary of Education as well as 
your ideal timeline for initiating these steps.
    Answer 4. If confirmed as Secretary, I look forward to promptly 
responding to letters from you and other Members of the House and 
Senate. ESSA was a bipartisan effort and the law includes many 
opportunities for greater innovation, which can be facilitated by, for 
example, the Department's Office of Innovation and Improvement. ESSA 
also was an effort to give States more authority, something I fully 
support. I want the Department to be a partner with the States in 
implementing the new law and putting the interests of students first. 
If confirmed, as I stated at the hearing, I am 100 percent committed to 
supporting great public schools and I am committed to ensuring the 
Department continue to identify and share innovative methods and 
practices nationwide.

    Question 5. In speaking with Rhode Island educators, I have found 
that the most innovative solutions for improving education often come 
from teachers themselves. Will you commit to meeting with public school 
teachers on a regular basis to discuss their ideas for improving public 
schools? How will you work with States and districts that have 
collective bargaining agreements to ensure that teachers have the 
flexibility to do what is best for their students without undermining 
the protections for their jobs?
    Answer 5. Parents, students and teachers should have a voice in 
education innovation. If confirmed, I look forward to meeting with all 
stakeholders, including about how to innovate.
                            juvenile justice
    Question 6. During our meeting on January 4, I provided you with a 
copy of my letter to Secretary King outlining a series of requests for 
guidance to support the implementation of Title I, Part D of ESSA, 
which addresses intervention programs for children and youth who are 
neglected, delinquent or at-risk. Please respond to that letter 
outlining the steps you will take if confirmed Secretary of Education 
as well as your ideal timeline for initiating these steps.
    Answer 6. If confirmed as Secretary, I look forward to responding 
to letters you send to me. I will carefully review all existing 
guidance to ensure it is consistent with relevant statutes and 
necessary to enable successful implementation of Federal law. I will 
also work with stakeholders to determine what additional guidance is 
needed to ensure statutes are implemented as Congress intended and this 
population of students are well-served.

    Question 7. In ESSA, I authored several provisions to help keep 
kids who encounter the juvenile justice system stay on track, including 
having States establish procedures around timely transitions, back to 
school or re-entry programs upon release, and to better facilitate 
transferring academic credits and records between school and juvenile 
justice facilities. What steps do you believe are needed to ensure that 
students are able to transition smoothly back into their schools?
    Answer 7. I agree that helping kids in the juvenile justice system 
stay on track is important. However, I do not believe that it is wise 
to look to Washington for an answer or to try to impose a top-down 
system of education from the Nation's capital. In our decentralized 
system, States are responsible to develop and maintain their own 
systems of education and I think that is preferable.
    The role of the Department of Education, and, if confirmed, mine as 
Secretary, is to work with people around the country to identify best 
practices, highlight what works, call out educational failures where we 
see them in order to help people on the ground in the States, local 
school districts, and colleges and universities improve their own 
operations.

    Question 8. In the Obama administration, efforts to reform the 
criminal justice system were coordinated and spanned across agencies 
and included the Department of Education. Will you commit to keeping 
the Department of Education involved in Trump Administration efforts on 
criminal justice reform?
    Answer 8. Yes.

    Question 9. What are your priorities when it comes to addressing 
the needs of individuals who have been involved in the criminal justice 
system? What specific policies will you promote or what guidance will 
you issue regarding the education of individuals who have had contact 
with the criminal justice system?
    Answer 9. I agree that helping kids in the juvenile justice system 
stay on track is important.
    However, I do not believe that it is wise to look to Washington for 
an answer or to try to impose a top-down system of education from the 
Nation's capital. In our decentralized system, States are responsible 
to develop and maintain their own systems of education and I think that 
is preferable.
    The role of the Department of Education, and, if confirmed, mine as 
Secretary, is to work with people around the country to identify best 
practices, highlight what works, call out educational failures where we 
see them in order to help people on the ground in the States, local 
school districts, and colleges and universities improve their own 
operations.

    Question 10. Do you oppose ``zero tolerance'' school discipline 
policies that mandate the suspensions, expulsions, or arrest of 
students for certain misconduct? Why or why not?
    Answer 10. In general, I believe it is best to defer to the 
judgment of State and local officials about how best to implement 
education policies. If confirmed, I would welcome the opportunity to 
share data and good research from the Department of Education with 
State and local officials looking to improve educational opportunities. 
I will travel around the country hoping to identify best practices of 
what is working in the hopes that it encourages others to look to 
solutions that have worked and adapt it to their particular needs. But 
I also hope that States and local leaders will think outside the box 
and innovate, looking for new solutions to vexing educational problems. 
I have seen remarkable things happen in schools that use positive 
behavioral supports and interventions, and I would welcome the 
opportunity to encourage more States and local school districts to make 
use of the tremendous research behind that system.

    Question 11. Do you support the presence of police in schools as 
``school resource officers'' ? Why or why not? What is the proper role 
of police in schools?
    Answer 11. I believe that School Resource Officers can serve a 
vital role in helping schools maintain order, deescalate violent 
situations, and make students, teachers, and parents feel safe in their 
schools. I am grateful that the ESSA provides significant flexibility 
on the use of professional development dollars and can help School 
Resource Officers get and maintain the education they need to improve 
their important skills.

    Question 12. What specific actions have you taken to ensure that 
the charter schools you have supported examine their discipline 
practices to safeguard against policies that disproportionately impact 
students of color and students with disabilities?
    Answer 12. Michigan's charter Authorizers require the annual 
submission and review of student handbooks which detail discipline 
policies and behavioral expectations for all students in their schools. 
Additionally, the MDE collects and disaggregates discipline data at the 
school building-level. Details are here; http://www.michigan.gov/mde/
0,4615,7-140-6530_6598-378103--,00.html.
    However, while MDE collects subgroup data they do not publicly 
report it, so it's difficult to answer your questions with more 
specificity. In the end, we have no evidence that discipline issues 
with minority students in charter public schools are disproportionately 
occurring as compared to traditional public schools.

    Question 13. Do you believe it is appropriate for the Department to 
work to mitigate the demonstrated or potential disparate impact of 
discipline policies? Do you believe the Department of Education should 
issue regulations or guidance on this issue? If so, what regulations or 
guidance will your Department release to ensure that schools work to 
improve in this respect?
    Answer 13. I have seen remarkable things happen in schools that use 
positive behavioral supports and interventions, and, if confirmed, I 
would welcome the opportunity to encourage more States and local school 
districts to make use of the tremendous research behind that system.

    Question 14. In many schools across the Nation, students, 
particularly students of color, are suspended, expelled or even 
arrested for minor or status offenses. Many times this behavior stems 
from a history of abuse, neglect, poverty, or learning disabilities. 
However, instead of getting much-needed treatment and rehabilitation, 
these students are forced out of school. Most of these students do not 
succeed when removed from school in this manner, and some become 
hardened, stigmatized by their peers, and end up falling further behind 
in their studies. Often these students end up committing crimes as 
young adults, and become involved in the justice system, where we spend 
$70 billion annually on incarceration, probation and parole. What 
specific actions will your department initiate to combat this so-called 
``school-to-prison pipeline'' ?
    Answer 14. I believe that a good education is the foundation to 
becoming a good citizen. A good school can provide a lifeline to a 
struggling student and help prevent them from slipping through the 
cracks and into our justice system. If confirmed as Secretary I would 
look forward to working with you and others in Congress to better 
understand what an appropriate Federal role could be to help our State 
and local leaders address this important issue.

    Question 15. What role do you see for the Department of Education 
in re-engaging disconnected youth who have exited high school without 
earning a high school diploma?
    Answer 15. I would encourage States and local school districts to 
address this issue with the flexibility that the Federal law provides.

    Question 16. Please explain your understanding of the application 
of ``Restorative Justice'' in schools. As Secretary of Education would 
you promote the use of restorative justice in public schools?
    Answer 16. I would welcome the opportunity to work with the 
Attorney General, after he is confirmed, as well as you and other 
Members of Congress to determine what the appropriate Federal role 
would be in helping States and local school districts address the need 
to help those who have been incarcerated re-enter society.
                          scientific integrity
    Question 17. Research universities have played an important role in 
the development of advances that allow us to live longer and healthier 
lives than ever before. Climate scientists, who help us understand how 
our world is changing as a result of CO2 emissions, are increasingly 
under attack by an apparatus of denial organizations funded by the 
fossil fuel industry. Do you believe in anthropomorphic climate 
changes? As the Secretary of Education, how will you work to protect 
scientific integrity and ensure that scientists have both the resources 
and the intellectual freedom to address questions raised by climate 
change?
    Answer 17. The Department of Education does not have any 
jurisdiction over climate change or climate issues so, if confirmed, I 
would respectfully defer to my colleagues in other agencies, like the 
Department of Energy, on these issues. Additionally, the Department of 
Education is prohibited from dictating curricula in our Nation's 
schools so I respectfully defer to State and local school districts 
about what they will or will not teach.

    Question 18. Soon after the election, the conservative non-profit 
Turning Points USA released the Professor Watchlist, which intends to 
``expose and document college professors who discriminate against 
conservative students and advance leftist propaganda in the 
classroom.''
    So far, 162 professors have been identified. Do you denounce the 
targeting of these or any other professors for their viewpoints? What 
will you do as Secretary to protect the teachers and professors who are 
individually targeted by this or other similar websites? What will you 
do as Secretary to protect the right of professors to disagree and 
ensure that civil discourse is not threatened on our college campuses?
    Answer 18. Freedom of speech is a very important issue, especially 
on our college campuses. If confirmed as Secretary, I will encourage 
civil discourse and help colleges and universities understand what 
their responsibilities are to protect all who wish to speak freely on 
college campuses.

    Question 19. The President-elect has said climate change is a hoax 
``created by and for the Chinese in order to make U.S. manufacturing 
non-competitive.'' Do you agree with that argument? What steps are you 
going to take to ensure fact-based scientific instruction does not come 
under attack in the Trump Administration?
    Answer 19. The Department of Education does not have any 
jurisdiction over climate change or climate issues so, if confirmed, I 
would respectfully defer to my colleagues in other agencies, like the 
Department of Energy, on these issues. Additionally, the Department of 
Education is prohibited from dictating curriculum in our Nation's 
schools so I respectfully defer to State and local school districts 
about what they will or will not teach.

    Question 20. In the aftermath of the election, there was a national 
outpouring of frustration regarding the false news. As Secretary of 
Education, you will have a role in setting the tone for the national 
conversation regarding instruction and have a responsibility to ensure 
that all schools are teaching facts. Does the Department have an 
interest in ensuring that taxpayer dollars are not being spent to 
promote false news or instruction that is not fact-based?
    Answer 20. The Department of Education is prohibited from dictating 
curriculum in our Nation's schools so I respectfully defer to State and 
local school districts about what they will or will not teach.

    Question 21. Your foundation has donated over $1,200,000 to the 
Acton Institute for the Study of Religion of Liberty. Acton counts 
ExxonMobil as one of its biggest donors and calls climate change 
``unfounded and [of] undue concern''. Were you aware of their views on 
climate change when you made these contributions? Do you agree with 
these views?
    Answer 21. The Department of Education does not have any 
jurisdiction over climate change or climate issues so, if confirmed, I 
would respectfully defer to my colleagues in other agencies, like the 
Department of Energy, on these issues.
                  secular education/religious freedom
    Question 22. Please articulate your views on the establishment 
clause of the First Amendment and your views on how that clause should 
be applied to our Nation's schools?
    Answer 22. As you know, the courts have spent much time over the 
years interpreting the meaning of the Establishment Clause in the 
schoolroom setting. If confirmed, you can be assured I will abide by 
the law, and seek the advice and counsel of Department of Education and 
Department of Justice lawyers on constitutional issues affecting our 
Nation's schools.

    Question 23. In the past, you have been a staunch advocate for 
Christian education and, in 1995, you stated,

          ``[t]he fact is that every time legislation is passed, its 
        passed from someone's view of right and wrong. It's not a 
        question of if we are legislating morality, but whose morality 
        are we legislating.''

    How will your religious beliefs affect your decisions as Secretary 
of the U.S. public education system?
    Answer 23. If I am confirmed, I will have a duty as an officer of 
the Department and the Federal Government, to uphold the U.S. 
Constitution and the laws of the land. I intend to do so.

    Question 24. Do you believe that every student--regardless of 
religion, family income, sexual orientation, gender, or ethnic 
background--has the same rights in their school and to a quality 
education? If so, what have you done in your career to ensure those 
rights?
    Answer 24. The civil rights laws of our land provide for 
protections against various forms of discrimination. You can be assured 
that I will uphold the laws of our land, and will seek the advice and 
counsel of Department of Education and Department of Justice lawyers as 
such issues arise. Additionally, my own beliefs decry discrimination in 
any form.

    Question 25. Will you oppose efforts to allow any school that 
receives funding from public sources to choose students based on their 
or their parents religion?
    Answer 25. If confirmed, I will respect and follow the laws 
relevant to these issues.

    Question 26. Do you believe intelligent design should be taught in 
schools alongside and/or instead of evolution?
    Answer 26. The Department of Education is prohibited from dictating 
curriculum in our Nation's schools so I respectfully defer to State and 
local school districts about what they will or will not teach.
                         role of the secretary
    Question 27. Please list the topics of guidance you would direct 
the Department to release on ESSA in the first year of your term. What 
procedural steps will you implement to ensure that the final 
regulations of ESSA are consistent with the intent of the underlying 
statute?
    Answer 27. If confirmed as Secretary, I will implement the 
requirements of ESSA as Congress specified and carefully review all 
existing regulations to ensure they too adhere to the law.

    Question 28. What do you believe is the purpose of title I funding? 
Do you believe that there is too little, just enough or too much title 
I funding? In your answer please cite examples and data.
    Answer 28. The purpose of title I is to support our Nation's most 
vulnerable children. Appropriate funding is a perennial issue and, if 
confirmed, I will look across all parts of the Department's budget to 
determine the right balance.

    Question 29. Please list your view of the most appropriate uses of 
title I funds.
    Answer 29. To provide a high quality education to our Nation's most 
vulnerable children.

    Question 30. In ESSA, a number of programs were consolidated under 
title IV, part D to become the Student Support and Academic Enrichment 
Grants. These grants are intended to provide schools with flexibility 
to best address the needs of their students in creating a well-rounded 
education, improving conditions for student learning and increasing the 
access of technology. If confirmed, will you commit to using your 
purview as Secretary to promote fully funding these grants at 
authorized levels?
    Answer 30. If confirmed as Secretary, I will look closely at the 
budget of the Department of Education to determine the best allocation 
of taxpayer dollars to programs, including the Student Support and 
Academic Enrichment grants program, when proposing budgets for future 
fiscal years.

    Question 31. You have previously been an advocate of A-F rating 
systems of public schools. As Secretary of Education how will you 
promote transparency and accountability systems that allow parents and 
leaders to know how students are performing? Do you support the use of 
``data dashboards'' in accountability systems? What measures of 
resource equity do you believe are important for parents to know? Do 
you support ratings that show student performance relative to State 
standards? What about systems that allow comparisons to peers across 
the State?
    Answer 31. In general, I believe it is best to defer to the 
judgment of State and local officials about how best to implement 
education policies. To me, the most exciting thing about the Every 
Student Succeeds is how much it returned power back to States to 
grapple with these important issues. The top-down accountability 
structure of No Child Left Behind was well-intentioned, but proved to 
be ineffective at helping our States over the long term improve their 
systems. If confirmed, I look forward to reviewing what States propose.

    Question 32. In 2015, you were asked whether you had considered 
other alternatives to competition and choice for the improvement of 
public schools. You said no and that you were

          ``convinced pretty conclusively that the system is not going 
        to change of its own accord and that it is only with other 
        options being presented from the outside . . . that we're 
        ultimately going to have fundamental change for everyone.''

    In speaking with Rhode Islanders, many of them are concerned about 
your laser-like focus on school choice at the expense of all other 
concepts. The role of the Secretary of Education is not to be the 
``Secretary of School Choice and Charter Schools'', but to represent 
and advocate for the education of all students--those in traditional 
public schools too. Do you remain committed to the comments you made in 
2015, that school choice is the only way to improve our education 
system?
    Answer 32. I am a strong advocate of great public education. 
Period. I believe we can provide parents and students with choices and 
support public education.
    Our current approach is not working for far too many. Last year, 
the National Assessment of Educational Progress (NAEP) recorded 
declines in fourth- and eighth-grade reading and math following flat 
2013 results, marking a downturn after years of steady gains. Recently, 
the Program for International Student Assessment (PISA) reported that 
U.S. performance has declined steadily since 2009 in reading, math, and 
science--after a decade of rising scores. In fact, the United States is 
now 35th in math (down from 28th). In science, we're 25th and in 
reading, we're now in 24th place. Surely we can all agree that is 
indefensible.
    I believe that a choice for children in education is a powerful way 
to start. But we should all think of choice in the widest terms: 
Excellent traditional public schools, Public Charters, Non-government 
schools, Homeschooling, Online or Distance Learning and forms of 
education that we haven't yet thought of . . . we need to be open to 
progress.
    We have to keep the focus on students and not on the adult issues 
that too often gum up the conversation.
                         charter accountability
    Question 33. Moody's has warned repeatedly that the proliferation 
of charter schools destabilizes public school district finances, making 
it harder for schools to provide the resources that children need to 
learn. The ratings agency singled out Michigan's loose policies as 
harmful to Detroit's schools. In pushing for looser regulations, was it 
your intent to undermine public education in Detroit, or was it just a 
byproduct of privatization?
    Answer 33. Charter schools in Michigan are a success story. Charter 
students in Michigan gain an additional 2 months of learning in reading 
and math over their traditional public school peers. In Detroit, the 
gain is 3 months. In both reading and math, African American students 
in Detroit charter schools have significantly larger growth compared to 
African American students in Detroit Public Schools. Hispanic charter 
students in Detroit show significantly better outcomes in math compared 
to their Hispanic peers in Detroit Public Schools. I also believe that 
traditional public education is capable of changing and improving, and 
I expect we will see movement in that regard.

    Question 34. Public charter schools have mixed success levels and 
some perform below the standard of their traditional public school 
neighbors. In these cases, what would you like to see the Department of 
Education do to ensure quality of charter schools? Are you in favor of 
revoking charters from charter schools and/or charter management 
organizations that underperform?
    What are the roles and obligations of each level of government--
Federal, State and local--in preventing financial mismanagement by 
charter school operators?
    Answer 34. I support great schools in all forms--public, private, 
magnet, home, religious and virtual. Charter schools can--and should--
be closed when they fail to meet the expectations outlined in their 
charters.

    Question 35. If a State allows charter schools to remain open 
despite evidence of weak student achievement, should that State or 
those schools be eligible for Federal incentives or funding to expand 
or create more charter schools?
    Answer 35. I will follow the law as Congress wrote it.

    Question 36. In ESSA we were able to reach bipartisan agreements 
that supported greater local autonomy providing local school 
committees, principals, and teachers more control over classrooms. How 
will you support teacher innovation while ensuring that teachers use 
and maintain high standards for students?
    Answer 36. In general I believe it is best to defer to the judgment 
of State and local officials about how best to implement education 
policies. I look forward to reviewing what States propose in their 
State plans. if confirmed, I will work with teachers, Governors, 
legislators, and local school officials to encourage them to take 
maximum advantage of the flexibility of the law to meet the needs in 
their local schools so that teachers have the freedom to teach, instead 
of focusing relentlessly on the test as happened under No Child Left 
Behind.

    Question 37. Under what circumstances should charter schools be 
allowed to exclude high needs students, including English learners and 
students with disabilities?
    Answer 37. I believe that the primary responsibility for creating a 
high-quality, accountable, and autonomous charter school sector rests 
with States, local communities, and the broader charter school sector 
itself, not with the Federal Government or the U.S. Department of 
Education. At the same time, I support quality, accountability, 
autonomy, and transparency. Parents may choose not to enroll their 
children in a charter school or a student may decide that a particular 
charter school is not a right for them. These scenarios are perfectly 
acceptable and, in no way, suggest that charter schools are unwilling 
to serve all students. Charter schools can and do engage in contracts 
with families confirming behavioral, academic, volunteer and other 
expectations. For families who do not want to engage in such 
agreements, they can choose a different learning environment for their 
children. Charter schools, like all public schools, do serve children 
with disabilities if that is the choice that the parents and the IEP 
team make for the child. But, like a traditional public school, if a 
charter school is part of a local educational agency, that local 
educational agency is the entity responsible for providing special 
education to a student with a disability and the charter school, like a 
traditional public school, must follow the policy of the local 
educational agency.

    Question 38. Please explain your decision to oppose the efforts by 
the bipartisan Coalition for the Future of Detroit Schoolchildren to 
require greater oversight and accountability for charter schools in 
Michigan?
    Answer 38. I disagree with the premise of the question. Charter 
schools in Michigan are a success story. Charter students in Michigan 
gain an additional 2 months of learning in reading and math over their 
traditional public school peers. In Detroit, the gain is 3 months. 
Students in Detroit charter schools outperform students in the Detroit 
Public Schools (DPS) in both proficiency (MEAP, M-STEP) and growth 
(CREDO 2013, 2015).
    I opposed the effort you referenced, because it did not promote 
accountability. Just the opposite. It would have added an additional 
layer of bureaucracy and given the city's traditional schools a free 
pass on accountability. I advocated for a different bill--one that 
provided uniform and tough accountability measures for all schools, not 
just charter schools in Detroit. Because of my support and that of many 
others, for the first time in State history, both charter schools and 
traditional public schools are now subject to mandatory State closure 
or restructuring.

    Question 39. In your past work to expand charter schools, can you 
provide a list of specific actions that you have taken or for which you 
have advocated to ensure these charter schools examine discipline 
practices to ensure such practices do not disproportionately impact 
students of color and students with disabilities?
    Answer 39. Michigan's charter Authorizers require the annual 
submission and review of student handbooks which detail discipline 
policies and behavioral expectations for all students in their schools. 
Additionally, the MDE collects and disaggregates discipline data at the 
school building-level. Details are here; http://www.michigan.gov/mde/
0,4615,7-140-6530_6598-378103--,00.html.
    However, while MDE collects subgroup data they do not publicly 
report it, so it's difficult to answer your questions with more 
specificity. In the end, we have no evidence that discipline issues 
with minority students in charter public schools are disproportionately 
occurring as compared to traditional public schools.
                                vouchers
    Question 40. The best research to date finds little difference in 
achievement for students offered education vouchers as compared to 
similar non-voucher students. A review of research on vouchers from the 
Center on Education Policy, including evidence about the impact of 
vouchers on student test scores from long-term studies about the 
publicly funded voucher programs in Milwaukee, Cleveland, and 
Washington, DC, conclude that ``studies have generally found no clear 
advantage in academic achievement for students attending private 
schools with vouchers.'' Do you agree with the conclusions from this 
report? What research have you relied upon to support your positions 
about the impact of vouchers for public school students? Please cite 
the name, authors, and dates of the research.
    Answer 40. No, I do not agree with the conclusions above. In fact, 
several studies have found exactly the opposite: students participating 
in choice programs have higher test scores, better graduation rates and 
higher parental satisfaction levels than their public school 
counterparts. For example, long-term evaluations of the Milwaukee and 
DC scholarship programs found higher graduation rates and increased 
academic achievement (Milwaukee Parental Choice Program Evaluation, 
2012; Evaluation of the DC Opportunity Scholarship Program, 2010). In 
addition, studies have found that vouchers have a positive impact on 
public schools, including the Figlio and Hart Study of Florida Tax 
Credit Scholarship Program, 2014.

    Question 41. We have previously spoken about the process of how 
ESSA came together under the smart, pragmatic leadership of this 
committee under Chairman Alexander and Ranking Member Murray. In this 
bipartisan process, we decided not to make changes to title I funding 
that would let the money follow the child, so-called ``Pell for Kids''. 
Do you pledge to not reopen a controversial issue and do you agree it 
would be counterproductive to do so?
    Answer 41. President Trump has made a robust school choice proposal 
a centerpiece of his platform, and, if confirmed, I look forward to 
working with you on our proposal and hope to convince you to support 
it. As we finish developing this proposal I will look closely at the 
budget of the Department of Education to determine the best allocation 
of taxpayer dollars to programs when proposing budgets for future 
fiscal years.
                           newcomer students
    Question 42. In Rhode Island we welcome families who are new to our 
country, seeking better opportunities for themselves and their 
children. However, the students from these families have often had 
incomplete or inconsistent formal schooling and as a result have far 
greater needs than their peers. In Providence, our largest school 
district, we have 245 newcomer students. Teachers and parents of these 
students agree that these students need specially trained teachers 
along with wrap-around services to give them the support they need to 
succeed. What can I tell my constituents in Rhode Island about how you 
will use the resources of the Department of Education to address the 
particular needs of these students?
    Answer 42. In general, I believe it is best to defer to the 
judgment of State and local officials about how best to implement 
education policies. If confirmed, I would welcome the opportunity to 
share data and good research from the Department of Education with 
State and local officials looking to improve educational opportunities 
for newcomer students.
                            early education
    Question 43. The national median annual wage for pre-school 
teachers is a little more than half of what kindergarten teachers make, 
and yet pre-school is a critical early learning experience that helps 
shape children as they enter the K-12 system. Such persistently low 
wages are a challenge when it comes to promoting high quality pre-
school programs. Do you also believe these low-wages for pre-school 
teachers are a problem? What should the Department do to ensure that 
early learning educators are better compensated for their important 
work?
    Answer 43. Early childhood education is important and can help put 
a child on a path to success in life. That is why it is exciting to see 
so many States invest in and support early education programs for 
families. However, pay for early childhood educators is a State and 
local issue.
                                teachers
    Question 44. Please discuss what you view as the role of the State 
and the role of the Federal Government in ensuring certain groups of 
students--whether minority children, children from low-income families, 
or children with special education needs--are not disproportionately 
taught by brand new teachers? Or given lower quality academic 
instruction?
    Answer 44. Teacher hiring and assignment is a local issue, but a 
common issue shared amongst school districts. If confirmed, I look 
forward to talking with State and local school officials and help 
facilitate the sharing of best practices to bring more teachers into 
the schools, especially in alternative and high-need schools.

    Question 45. At a 2015 South by Southwest Education conference 
presentation, you said that you believed that ``teaching has become 
very de-professionalized over the years, as it's been part of an 
industry that has been very closed to itself and, I would argue, very 
self-serving.''
    Can you elaborate on what you meant by saying the teaching 
profession was both ``de-professionalized'' and ``self-serving``?
    Answer 45. During my SXSWedu speech, I made very clear my deep 
respect for teachers and the teaching profession.

          ``Teaching is hard. It takes a lot of skill. Not everyone who 
        tries can do it well. We need to admit that and act 
        accordingly. We should reward and respect great teachers by 
        paying them more, and we should stop rewarding seniority over 
        effectiveness.''

    I also stated very clearly, we don't pay teachers enough. If 
confirmed, I look forward to continuing to advocate for great teachers 
and elevating the importance of the teaching profession.

    Question 46. One of the priorities of the HELP Committee is the 
reauthorization of the Higher Education Act. What changes would you 
propose to Title II of the HEA to address your comments and 
characterization of the teaching profession?
    Answer 46. Improving teacher education and encouraging and 
rewarding high quality teachers is an important issue. if confirmed, I 
look forward to working with you on this issue in the context of the 
Higher Education Act (HEA) reauthorization.

    Question 47. Do you support the existence of labor unions? Do you 
support right-to-work laws? Do you support collective bargaining for 
teachers and the right to unionize?
    Answer 47. I support freedom for individual citizens to make such 
decisions for themselves and their situations.

    Question 48. Many parts of the Nation are suffering from teacher 
shortages, which are often most prevalent in high-poverty schools with 
our most disadvantaged students. As Secretary of Education, what 
strategies would you employ to identify and address the issues causing 
our teacher shortages?
    Answer 48. Teacher hiring is a local issue, but a common issue 
shared amongst school districts. If confirmed, I look forward to 
talking with State and local school officials and help facilitate the 
sharing of best practices to bring more teachers into the schools, 
especially in alternative and high-need schools.

    Question 49. How will the Department of Education, under your 
leadership, support or work to improve working conditions for teachers? 
Particularly those in high-poverty schools where excellent teachers are 
sorely needed and teacher turnover is frequently high?
    Answer 49. Teacher conditions are a local issue, but a common issue 
shared amongst school districts. If confirmed, I look forward to 
talking with State and local school officials and help facilitate the 
sharing of best practices to bring more teachers into the schools, 
especially in alternative and high-need schools.
                               curriculum
    Question 50. In the last two decades, the focus of K-12 education 
has centered around standardized tests as a primary metric for school 
performance. This resulted in a narrowing of the curriculum to focus 
solely on English and math at the expense of many other worthwhile 
subjects. As Secretary, what would you do to support a more well-
rounded education?
    Answer 50. It is not the responsibility of the Federal Government 
to dictate curriculum. In fact, the General Education Provisions Act 
forbids such interference. I believe these issues are best left up to 
local school districts. I would hope, however, that with the new 
flexibility provided under the Every Student Succeeds Act, that States 
and local school districts would examine what is needed for a well-
rounded 21st Century education.

    Question 51. Is there a minimum standard of basic competency that 
American students should be expected to learn and know upon high school 
graduation? Is there a minimum standard that American students need to 
attain in order to be competitive in today's globalized economic 
environment?
    Answer 51. I believe it is important for States to have high 
standards and strong assessments that provide a good look at their 
schools and give parents the information needed to accurately determine 
how their schools are performing. They need to be able to ensure 
students are being prepared to compete in a global economy. ESSA 
requires States to adopt high standards and develop their assessments 
to ensure they are adequately measuring student achievement against the 
rigorous State standards. Parents and local, State, and Federal 
education policymakers can look at this information from schools and 
review the results from NAEP to understand how education in the Nation 
is measuring.

    Question 52. Do you support States to voluntarily collaborating on 
the development of academic standards for K-12 students?
    Answer 52. Yes.

    Question 53. Should the Department promote civic education in 
public schools? If so, what is your definition of civics education. 
Please identify what research you have reviewed on this topic, 
including names, authors and dates of any reports.
    Answer 53. It is not the responsibility of the Federal Government 
to dictate curriculum. In fact, the General Education Provisions Act 
forbids such interference. I believe these issues are best left up to 
local school districts. Generally speaking, however, if confirmed, I 
will happily encourage educators to include robust civics education in 
their curriculum.
                       bullying & student safety
    Question 54. After the election many teachers experienced an 
increase in school violence, aggression, hostility, etc. In your home 
State of Michigan, there was a video of middle school students chanting 
``build the wall.'' As the Secretary of Education, what will you do to 
prevent bullying and ensure that all students have a safe environment 
at school?
    Answer 54. I am opposed to bullying and harassment of any student 
for any reason. Schools should be a place of learning and improving 
oneself, and, if confirmed, I will work with the First Lady to speak 
out against bullying and harassment and encourage States and local 
school districts to improve policies and procedures to prevent and 
deter bullying and harassment. I believe that the role of the 
Department of Education is to help States and local school districts 
enforce the law and improve education for all students in their 
schools.

    Question 55. What specific actions have you taken to address the 
needs of LGBT students? Please identify what research you have reviewed 
on this topic, including names, authors and dates of any reports.
    Answer 55. The needs of all students, including LGBT students, 
students with disabilities, and children harassed because of their race 
or religion are of deep concern to me. If confirmed, I look forward to 
working with the First Lady's office on this important issue, as she 
has indicated this will be a priority for her. And, I look forward to 
working with State and local school officials and parents to ensure all 
students are treated with respect.

    Question 56. Have you ever spoken with an LGBT student about his or 
her experiences in a public school? If so, what did you learn? Is 
bullying, harassment, and violence on the basis of students' actual or 
perceived sexual orientation or gender identity a problem in schools 
today?
    Answer 56. Bullying is never the right behavior. In my support for 
a local homeless center that serves young people--including LGBT 
youth--it has always been very clear that these students face unique 
challenges. I believe every student deserves to be in a learning 
environment where they are safe to learn, grow, and thrive.
                       students with disabilities
    Question 57. The Supreme Court case of Endrew F. v. Douglas County 
School District will help determine the level of educational benefit 
that school districts provide to meet the free appropriate public 
education (FAPE) guarantee. What is your view on this case?
    Answer 57. As you know, oral arguments were conducted on January 
11, 2017. If confirmed, I will abide by the Court's decision and make 
appropriate changes at the Department of Education to comply with their 
decision.

    Question 58. In June 2016, the Council of Parent Attorneys and 
Advocates (COPAA) released a report titled ``School Vouchers and 
Students with Disabilities: Examining Impact in the Name of Choice''. 
The report found that students with significant cognitive disabilities 
are the least likely to be admitted to these schools, especially in 
general education classrooms. Have you reviewed this report? What other 
research about this issue has informed your thinking? Please list 
names, authors and dates of any reports. As Secretary of Education how 
will you oversee such programs and ensure they are not creating a 
publicly financed (in whole or in part) segregated education system for 
students with disabilities?
    Answer 58. I am unfamiliar with the report, and look forward to 
reviewing it. I take your concerns seriously and I've worked hard over 
the past 28 years to expand educational options for families with 
special needs, especially those with no recourse but to sue their 
traditional public school system when the traditional schools fail to 
live up to their legally mandated responsibility to provide children 
with special learning needs and education. With regard to your concerns 
about voucher schools, I would refer you to a 2-year investigation 
conducted by the U.S. Department of Justice in Milwaukee that was 
closed and found no evidence of discrimination. According to news 
reports,

          ``The U.S. Department of Justice has closed a long-running 
        investigation into whether the Milwaukee private school voucher 
        program discriminates against students with disabilities, with 
        no apparent findings of major wrongdoing.''
                           school facilities
    Question 59. Many students attend inadequate, outdated school 
buildings. In some areas, children go to school in trailers, or their 
schools lack high-quality Internet connections. Not long ago, heavy 
snow helped to bring down the roof of an elementary school outside of 
Boston, while students in Baltimore stayed home because their school 
did not have air conditioning. And of course, Detroit made national 
news this year because students were attending schools that were 
decrepit, unheated, and infested with rodents. What would you do as 
Secretary to address this issue?
    Answer 59. Facilities funding is currently a State and local issue. 
If Congress were to make changes to that and give the Department 
responsibility in this area, I would follow the law as Congress wrote 
it.
                  higher education--pell grant program
    Question 60. In your view, why is the Pell Grant program important?
    Answer 60. It satisfies the Federal Government role for providing 
access to an opportunity to post-secondary education for low-income 
individuals.

    Question 61. What changes to the program would you pursue as 
Secretary of Education?
    Answer 61. If confirmed, I look forward to working with you, the 
committee and Congress in ensuring that the role of access is 
maintained during the reauthorization of the Higher Education Act.

    Question 62. Do you believe the Pell Grant program currently has 
too much, just enough, or too little funding?
    Answer 62. If confirmed, I look forward to assisting with a budget 
submission that includes sufficient Pell Grant funding to meet the 
President's goals.

    Question 63. On average what percentage of a public, 4-year 
education should the maximum Pell Grant cover?
    Answer 63. I do not think it is appropriate to establish a funding 
benchmark for Federal programs. We have seen historically that 
establishing such percentages creates a level of expectation that 
traditionally goes unmet.

    Question 64. Data from the College Board's report ``Trends in 
College Pricing 2016'' demonstrate that in 2016 a full Pell Grant 
covered less than 30 percent of the costs to attend a public 4-year 
university; down dramatically from the over 70 percent it covered in 
the 1970s. Due to this drop in purchasing power, students, particularly 
low-income students and students of color, are left with high rates of 
unmet financial need. This sometimes funnels students into cheaper and 
frequently poor performing schools. Do you believe this is a problem? 
If so, what specific steps will you take to address this issue?
    Answer 64. The increasing costs of higher education are a concern 
to me. I believe that we need to encourage innovative solutions that 
are more cost-effective in order to keep costs reasonable. If 
confirmed, I look forward to working with you, the committee and 
Congress during the reauthorization of the Higher Education Act in 
order to address these concerns.

    Question 65. Students with unmet financial need are often required 
to work more hours, take out more loans, and sometimes even drop out. 
Do you believe this is a problem? If so, what specific steps will you 
take to address this issue?
    Answer 65. In general, I do not think that every concern or issue 
needs to have a Federal solution; however, if confirmed, I look forward 
to working with you, the committee and Congress in addressing these 
issues during the upcoming reauthorization of the Higher Education Act.

    Question 66. Most Pell Grant recipients come from low-income 
families that depend these funds from the Federal Government to make 
college affordable and put a college education within reach. How do you 
propose supporting these students and future students from low-income 
backgrounds?
    Answer 66. As I have indicated, a primary role of the Federal 
financial aid system is to provide post-secondary educational 
opportunity through access for low-income individuals. If confirmed, I 
look forward to working with you in maintaining this commitment.

    Question 67. Speaker Ryan has proposed freezing Pell Grants at 
their current levels for 10 years and would eliminate the mandatory 
spending funds of the program. Do you support this or other proposals 
to reduce Pell per student?
    Answer 67. I have not studied the House Republican 2016 budget, but 
if confirmed, I look forward to working with Members of Congress from 
both parties in both chambers to appropriately fund the Department's 
programs. In doing so, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years.

    Question 68. There is currently a surplus of $8 billion in the Pell 
Grant program. As Secretary of Education, would you support 
congressional efforts to use this funding to shore up Pell Grants or to 
support higher education programs serving low-income and/or first-
generation students?
    Answer 68. If confirmed, I look forward to working with Members of 
Congress from both parties in both chambers to appropriately fund the 
Department's programs. In doing so, I will look closely at the budget 
of the Department of Education to determine the best allocation of 
taxpayer dollars to programs when proposing budgets for future fiscal 
years.

    Question 69. As Secretary, would you support using the Pell Grant 
surplus to restore the year-round Pell Grant?
    Answer 69. Yes. If confirmed, I look forward to working with 
Members of Congress from both parties in both chambers to appropriately 
fund the Department's programs. I agree that year-round Pell Grants 
would be an effective tool to help students complete college on-time 
and hopefully at reduced cost, and look forward to working with you on 
this issue.

    Question 70. What is your view on the current Satisfactory Academic 
Progress requirements and the definition of full-time?
    Answer 70. If confirmed, I will carefully review all regulations to 
ensure they are consistent with the relevant statutes as Congress wrote 
them and are necessary to enable successful implementation of Federal 
law.

    Question 71. A provision in the Violent Crime Control and Law 
Enforcement Act of 1994 banned access to Pell Grants for incarcerated 
adults. At the time, Pell grant usage among inmates constituted less 
than 1 percent of Federal Pell spending, but its removal all but 
eliminated post-secondary opportunities for inmates. Since that time, 
research has found that access to correctional education (i.e., adult 
education, post-secondary courses, and workforce training) correlates 
with significantly reduced chances of recidivism, increased employment 
prospects, and greater public safety. Under the Obama administration 
the Department initiated a pilot program reinstating some incarcerated 
individuals' access to Pell Grants to pursue higher education. Do you 
have an opinion on whether providing post-secondary for prisoners helps 
reduce recidivism, increase employment, and improve safety? If 
appointed would you continue these pilots? If so, can you describe any 
changes to the program you are considering? If appointed would you 
support the expansion of these sites? If appointed would you support 
the removal of the congressional ban on Pell grants for incarcerated 
adults?
    Answer 71. The Higher Education Act prohibits Pell Grant funding to 
go to certain incarcerated individuals. I am aware that experimental 
sites are underway and, if confirmed, I'll be interested in knowing 
what was learned from those sites. I look forward to engaging with you 
on this issue and expect that it will also be discussed in the course 
of the HEA reauthorization.
                  consumer information & transparency
    Question 72. Under the Obama administration, the Department of 
Education created the new College Scorecard which provides students to 
clear and accurate data on college cost, graduation, debt and post-
college earnings. What is your opinion of the College Scorecard? Will 
you commit to continue to allow annual updates to this useful and 
important source of consumer information?
    Answer 72. If confirmed, I will review the information that the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary. Further, I 
will ensure that the information provided conforms with the 
requirements of the Higher Education Act for the College Navigator and 
college cost information.

    Question 73. Please list the indicators that you think are the most 
important for students to know about colleges and universities. Do you 
believe that students have a right to this information before making 
their college decisions?
    Answer 73. If confirmed, I will review all the data published by 
the Department of Education in order to evaluate its compliance with 
the Higher Education Act and usefulness by consumers.

    Question 74. There have been congressional efforts to improve and 
expand the information available to students and families regarding a 
number of metrics including, but not limited to: veterans' graduation 
rate, Pell grantees' graduation rate, and more accurate college 
transfer rates. Do you believe that greater transparency for students 
and parents is important? As Secretary, what steps will you take to 
provide more transparency in higher education?
    Answer 74. I do believe that greater transparency for students and 
parents is important. If confirmed, I look forward to working with you 
to address this issue as part of HEA reauthorization.
                                title ix
    Question 75. According to the Republican Party platform, the 
Department of Education has no role in adjudicating campus sexual 
violence cases. Do you believe there is a role for institutions of 
higher education when responding to these incidents?
    Answer 75. We have one of the most sought-after systems of higher 
education in the world and we must work to ensure our colleges and 
universities provide safe havens for student learning. However, our 
higher education system is exceptionally diverse. The Federal 
Government should not force colleges to serve as courts of law. The 
title IX regulations require schools receiving Federal financial 
assistance to investigate any complaint communicated to the school 
alleging noncompliance or alleging actions prohibited by the 
regulations. The regulations also require colleges and universities to 
adopt and publish grievance procedures providing for prompt and 
equitable resolution of complaints. If confirmed, I will work to 
enforce these laws and regulations.

    Question 76. Is there anything that Secretaries King and Duncan did 
on sexual assault that you would support?
    Answer 76. I agree with them that sexual assault is a horrific 
crime and that we as a nation need to do more to protect victims and 
prevent assault in the first place, as well as treat victims with 
respect.

    Question 77. As Secretary, how would you work to ensure that 
institutions of higher education and local law enforcement work 
together effectively to respond to sexual assault?
    Answer 77. Many colleges and universities and local law enforcement 
are already working well together. Many have pre-existing agreements or 
memoranda of understanding governing how they work together. If there 
are particular instances where they are not working together 
effectively, I would look forward to discussing further with you.

    Question 78. Given President Trump's statements about women, will 
you commit to the committee that the important topic and crime of 
sexual assault will not receive less attention and fewer resources in 
your Department than it did under the previous Administration?
    Answer 78. I can certainly agree that campus sexual assault will 
not receive less attention. I will need to carefully review the 
Department's budget to ensure that all resources are being used wisely.
                             affordability
    Question 79. According to the College Board's report ``Trends in 
College Pricing 2016'', the average tuition at a public 4-year 
university has quadrupled from $2,600 to $9,650. The President-elect 
has referred to the ``tremendous bloat'' in total cost of attendance. 
If confirmed, how will you address the upwards trend of the price of 
college?
    Answer 79. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education remains affordable. If confirmed, I would work with 
institutions to ensure they are holding up their part of the bargain.

    Question 80. In 2015, former Senator David Vitter, who received 
$40,000 from the Louisiana Federation for Children, said,

          ``We need to get out of this cycle of slashing State funding 
        and replacing it with tuition increases because that can't go 
        on without limit. It really risks affordability.''

    Do you believe this pattern of State divestment is a problem? If 
confirmed, what would you do to help combat State divestment in higher 
education?
    Answer 80. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education remains affordable. If confirmed, I would work with 
States to ensure they are holding up their part of the bargain.
                        higher education finance
    Question 81. The William D. Ford Federal Direct Loan program has 
been a key pillar of the financial aid landscape in higher education. 
However, the President-elect has made references to privatizing the 
program, increasing its costs, and returning to a setup that puts 
students at risk for predatory lending. What assurances will you make 
to students who are depending on this program to finance their 
education?
    Answer 81. President Trump is interested in ensuring the Federal 
student loan program is serving students in the most efficient and 
effective way. If confirmed, I look forward to discussing this issue--
among others--with you and your colleagues as you move forward with the 
HEA reauthorization.

    Question 82. In 2010, the Federal Family Education Loan Program 
ended. Do you support bringing the program back?
    Answer 82. President Trump is interested in ensuring the Federal 
student loan program is serving students in the most efficient and 
effective way. If confirmed, I look forward to discussing this issue--
among others--with you and your colleagues as you move forward with the 
HEA reauthorization.

    Question 83. Over the last several years private student loans have 
made up approximately 10 percent of the total outstanding student loan 
balance, and Federal Direct Loans have made up the remainder. Do you 
believe this is the appropriate balance?
    Answer 83. I am interested in ensuring students and taxpayers are 
well-served by the Federal student-aid program.

    Question 84. Students who enroll in income-driven repayment plans 
have significantly lower default rates. During the campaign, the 
President-elect discussed a new income-based repayment plan where 
students would pay a maximum of 12.5 percent of their income and have 
their debt forgiven in 15 years. Is this a policy priority of yours?
    Answer 84. Yes.

    Question 85. As an indirect investor of SoFi, the policies you 
implement or advocate for will affect the work and profitability of 
this company. Will you and your husband continue to divest from SoFi if 
you are confirmed as Secretary of Education?
    Answer 85. My husband and I have divested from our indirect 
interest in SoFi. Also, please see my HELP Committee questionnaire and 
my OGE form, which was completed Thursday, January 19, 2017.

    Question 86. Students of color are often burdened with higher 
amounts of loan debt due to a number of factors including increased 
youth unemployment, lower earnings, and differences in enrollment. 
Additionally, the Federal Government shows that over 90 percent of 
African American and 72 percent of Latino students leave college with 
student loan debt, compared to 66 percent of white students and 51 
percent of Asian American students. Do you agree that this disparity is 
an issue? How would you approach solving this problem?
    Answer 86. One of the goals of the Higher Education Act is to 
ensure traditionally underserved individuals, like the student you 
mention, are able to pursue their dream of a post-secondary education. 
If confirmed, I look forward to discussing how we can ensure all 
students, especially those who are frequently underserved, are able to 
pursue their dreams.

    Question 87. How do you intend to address the growing problem of 
college tuition inflation and the burden of educational loan debt that 
limits students' opportunities even with a bachelor's degree?
    Answer 87. I think we can all agree that the growing amount of 
student debt in America is a serious challenge. I think the solutions 
to this challenge must be multi-faceted.
    One of the best ways to tackle the student debt issue is to ensure 
that students are able to actually get jobs after they complete their 
post-secondary program. President Trump has spoken extensively about 
his plans to put Americans back to work and boost the Nation's stagnant 
economy.
    Beyond that, we need to embrace new pathways of learning, such as 
competency-based education. The old and expensive brick-mortar-and-ivy 
model is not the only one that will lead to a prosperous future.
    We need to support all post-secondary avenues, including programs 
offering credentials. There are many great jobs available that do not 
require a traditional 4-year degree.
    We also need to support students and families so they are able to 
make informed choices about what type of education they want to pursue. 
In this vein, I am interested in making sure students have good 
information about the costs of college and the labor market outcomes of 
particular fields so they can make good decisions at the beginning of 
their educational pursuits about what program may work best for them 
and their situation.
    Finally, we need to simplify and streamline the repayment options 
offered to borrowers to help them better understand their options. 
While on the campaign trail, President Trump spoke about his plan to 
streamline the income-driven repayment plans into one plan that will 
cap a borrower's monthly payment at 12.5 percent of his or her 
discretionary income, and ensure a borrower has relief from his or her 
loan after 15 years of payment.
    If confirmed, I look forward to working on all of these issues as 
the committee begins the process of reauthorizing the Higher Education 
Act.

    Question 88. What is your view on the currently used Federal 
definition of ``cost of attendance'' ? Do you believe it offers 
institutions too much or too little flexibility?
    Answer 88. I know there has been a lot of conversation about all of 
the components of ``cost of attendance'' and believe this issue should 
be discussed and debated as part of the HEA reauthorization. If 
confirmed, I look forward to being an engaged partner in that 
discussion.
                    education as an economic driver
    Question 89. Making decisions about careers, coursework, and 
programs of study can be difficult for college students, especially 
those who are first-generation college goers, those juggling family 
obligations, or students coming back to college after time away. These 
students can benefit significantly from guidance and support. Do you 
support expanding and enhancing programs that provide career counseling 
and support for low-income and underserved populations?
    Answer 89. I believe career counseling and support for students in 
need are a priority to help those students succeed. I look forward to 
working with institutions of higher education to find innovative ways 
to address these issues.

    Question 90. According to Georgetown University's Center on 
Education and the Workforce, the percentage of jobs that will require 
post-secondary education and training will reach a new high of 65 
percent by 2020. Over the past several decades, we have seen more 
students enroll in college but, because completion rates are not high 
enough to meet demand alone, we continue to see a mismatch in the 
credentials needed for jobs and what job seekers have to offer. Far too 
many students are entering college but leaving without a certificate, 
credential, or degree they can translate to career success. Under your 
leadership, how will you help States, colleges, and students tackle 
this college completion and skills mismatch challenge?
    Answer 90. More than 40 percent of students who pursue a post-
secondary education do not complete college. Too many incur debt and 
leave school with no degree, making it very difficult to repay their 
loans. At the same time, students are taking longer than ever to 
complete college--making it ever more costly. And our solutions are too 
often geared to traditional students which does not reflect the reality 
of today's student body.
    This is a systemic failure, affecting our Nation and its citizens 
in a way that is unacceptable.
    The Federal investment in higher education--primarily through our 
financial aid programs--allows for students and families to make 
choices about post-secondary education. What we haven't done a good job 
of, is giving students and their families the best possible information 
upon which to base those choices.
    We need to work together to find solutions. As you consider the 
reauthorization of the Higher Education Act, and if I am confirmed, I 
look forward to working with you to find the right way to get that 
valuable information to students and families.
    Additionally, many States are implementing policies to address 
college completion--from setting completion goals, to career pathways 
to transfer and articulation, to performance funding to name a few. If 
confirmed, I will highlight and share these State best practices.
                            adult education
    Question 91. In 2014, by large bipartisan margins, Congress 
reauthorized the Workforce Innovation and Opportunity Act (WIOA), which 
oversees Federal support for adult education. Adult education, under 
WIOA Title II, encourages integrated education and training with 
workforce development and community college partners, but WIOA Title II 
funding continues to be cut in the appropriations process. Do you 
believe the program should be funded up to the amount authorized under 
the law?
    Answer 91. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs, including the Adult Education program, when 
proposing budgets for future fiscal years.

    Question 92. Title II of WIOA provides Federal funds to States for 
adult education and training. Up to 20 percent of those funds can be 
used for correctional education, specifically ``transition to reentry 
initiatives and other post-release services with the goal of reducing 
recidivism which must support the educational needs of the 
individual.''
    Do you support Federal dollars in this title being used for these 
purposes?
    Answer 92. Yes.
                        for-profit institutions
    Question 93. What is your view of the Department's Gainful 
Employment rule effective July 1, 2015? Do you believe it is 
appropriate to use debt-to-earnings ratios of graduates to determine a 
program's utility, success, or worth of Federal taxpayer investment?
    Answer 93. I believe that all institutions of higher education 
participating in the title IV programs should provide value to students 
and taxpayers alike. There are many tools to provide information to 
students, parents, and the public and if confirmed, I look forward to 
working with Congress to reform the Higher Education Act in a way that 
will allow all institutions to appropriately demonstrate their value to 
students and the public. With regard to the gainful employment 
regulations, the Department has had significant implementation issues, 
including questions as to the accuracy of the data originally reported, 
the design of a system that would allow schools to challenge incorrect 
data, and how best to provide the necessary technical assistance 
required. The last thing any of us want is to unnecessarily close down 
important programs, putting students on the street with limited or no 
other options. As President Trump has directed, I will review and 
assess all regulations and make determinations once that review is 
complete.

    Question 94. Many have argued that it is unacceptable for students 
who are enrolled in higher education to graduate with high debt-to-
earnings ratios. Do you agree with this assessment? What is the highest 
debt-to-earnings ratio you believe is appropriate for average graduates 
to have after graduating from a 4-year college? What about 5 years 
after graduation?
    Answer 94. If confirmed, I look forward to working with you, the 
committee and Congress on this important issue as Congress reauthorizes 
the Higher Education Act.
                            borrower defense
    Question 95. The Department of Education recently released 
regulation clarifying the process for students who have attended for-
profit colleges that defrauded students or misrepresented information. 
So far, over 62,000 students have applied after the closure of both 
Corinthian Colleges and ITT Tech and many more are expected to apply. 
However, the Department has only been able to process a fraction of 
these applications due to a lack of resources. Will you, in your 
capacity as the Secretary, increase the resources to this critical work 
and ensure that all students receive the debt relief they are entitled 
to?
    Answer 95. As it relates to the Borrower Defense regulations issued 
in November, if confirmed, I will carefully review all regulations to 
ensure they are consistent with the relevant statutes and are necessary 
to enable successful implementation of Federal law. I will also work 
with stakeholders to determine what additional guidance is needed to 
ensure statutes are implemented so that all students are well-served.
                           political spending
    Question 96. You are listed as an officer of All Children Matter 
and have called yourself the chair of that group. It owes the State of 
Ohio more than $5.3 million in election fines for violating the law in 
2008 in several States by funneling $870,000 in contributions from a 
nationwide PAC to State affiliates. The fine is now almost a decade old 
and accrues additional penalties daily. Why hasn't your organization 
paid this fine?
    Answer 96. I was never a party to that lawsuit and a trial court 
judge ruled that an ACM officer could not be held liable for the fine.
    Additionally, as a general matter, the interpretation and validity 
of restrictions on political expenditures have long been the subject of 
legal debate. In fact, I have been advised by ACM counsel that, under 
the Buckley v. Valeo and Citizens United decisions and their progeny, 
the regulations that gave rise to the fines may be unconstitutional.

    Question 97. In 2011, you and the political groups that you founded 
worked to remove the cap on the number of charter schools in Michigan. 
One of the elected officials that had previously supported your policy 
views--a Republican who said he ``toed the line'' on your proposals, 
who'd even campaigned for your husband's gubernatorial race voted 
against the measure to remove the cap on the number of charters. The 
next year, your organization, the Great Lakes Education Project donated 
nearly $185,000 to his opponent's campaign in the primary. While he won 
the primary by 137 votes, a local news outlet reported spending had

          ``a chilling effect on fellow legislators who feared the 
        steep price they would pay for disagreeing on education policy 
        with the DeVos family''.

    It looks like you used your money to essentially target, and punish 
an individual who, basically, stepped out of line. Doesn't that set a 
disturbing precedent for anyone who wants to work with you or your 
Department should you disagree?
    Answer 97. I disagree with the premise of your question. This 
office-holder committed in writing to support raising the cap on 
charter schools and then led the charge against the bill in the 
legislature. GLEP supported a stronger school-choice advocate in the 
next election.

    Question 98. In your January 17 response to the request that 
Senators Sanders, Baldwin, Warren, Franken, Casey and I sent to you 
regarding your 501(c)4 spending, you provided an addendum of more than 
one foot of public State tax filings for the American Federation of 
Children Action Funds/PACs. In your response, however, you denied our 
request to

          ``provide a list of all donations made by you, members of 
        your family, and foundations or organizations with which you 
        are affiliated, to any other 501(c)4 organizations over the 
        past 5 years.''

    You claimed that ``[t]he information sought by this request has no 
bearing upon the office to which I have been nominated nor the duties 
of the Department of Education.''
    To be clear, if you, your family members or the organizations you 
are associated with have contributed to any 501(c)4 organization that 
has any bearing on any issue that may come before the Department of 
Education then it is, in fact, relevant to your nomination.
    Answer 98. No response.

    Question 99. If confirmed, you will only be required to report the 
political contributions and donations that you and your husband make. 
Do you and your husband plan to continue participating when your family 
bundles contributions for a specific candidate?
    Answer 99. No.

    Question 100. You have been an active political donor for many 
years, if you are confirmed as Secretary of Education, a position in 
which you are expected to serve all Americans, will you continue to 
make partisan political contributions and raise money for, personally 
fund, or otherwise participate in paid private political advocacy 
campaigns at either the State and/or Federal level?
    Answer 100. If confirmed, I will not make any personal political 
financial contributions during my tenure as Secretary of Education.

    Question 101. You've stated that,

          ``One of the most American values is our freedom of speech 
        and our freedom to speak out in the political process and to do 
        so as vigorously and as loudly as we please.''

    Given your strong support of the Citizens United decision and your 
family's significant political spending, it seems that your view of 
freedom of speech in the political process is limited to money. What 
steps will you take as Secretary to ensure you are listening to all 
stakeholders, regardless of the ability to make political donations?
    Answer 101. If confirmed as Secretary, I will have an open door to 
all stakeholders and look forward to working together with them to 
improve education for all students.

    Question 102. What steps will you take to ensure that members of 
your family do not lobby or make political contributions related to 
matters that may come before you as Secretary?
    Answer 102. I will comply with all requirements of the Office of 
Government Ethics and the Ethics Office of the Department of Education.

    Question 103. Do you commit not to make any political contributions 
related to any matters that may come before you as Secretary?
    Answer 103. I will comply with all requirements of the Office of 
Government Ethics and the Ethics Office of the Department of Education.

    Question 104. I understand that at some point you were invested in 
K12 Inc., the largest for-profit operator of online schools. K12 Inc. 
has a student-to-teacher ratio as high as 275 to 1 and the percentage 
of K12 Inc. students achieving proficiency on State math and reading 
tests is generally below State averages. Do you believe that K12 Inc. 
adequately addresses the educational needs of its students? What 
factors did you use to make the determination?

    Question 105. What factors did you use to evaluate whether to 
invest in K12 Inc.?

    Question 106. Do you think that for-profit schools should be 
diverting money from students to spending on lobbying? K12 has spent 
$1,888,992 over multiple years in State and Federal lobbying. Is there 
a limit on how much these schools should divert from their students to 
lobbying their own interests?
    Answer to 104-106. The interests in K12 Inc. were acquired in 2002 
and 2003 and sold in 2008. I believe that companies have an obligation 
to decide the best use of their resources in providing the services 
they offer, marketing to attract customers, lobbying to advocate for 
policies they support, and many other uses of their funds. However, I 
do not support the use of taxpayer dollars being used for any lobbying 
purposes.
    In your January 17 letter responding to the request that Senators 
Sanders, Baldwin, Warren, Franken, Casey and I sent to you regarding 
your 501(c)(4) spending, you provided information regarding your 527 
organization, the American Federation of Children Action Fund--
information which was comprised of publicly available disclosures. 
However, you failed to provide any information regarding the American 
Federation for Children 501(c)(4).

    Question 107. Again we request, please provide a list of all 
donors, total donations, and affiliations of those who have contributed 
to the American Federation for Children 501(c)(4) since its inception.
    Answer 107. Please see the referenced letter of January 17, 2017.

    Question 108. Please provide a list of all donors, total donations, 
and affiliations of those who have contributed to the Great Lakes 
Education Project 501(c)(4) since its inception.
    Answer 108. Please see the referenced letter of January 17, 2017.

    Question 109. Please include the IRS Form 990 for any of your 
501(c)(4) organization(s) for the tax year 2015.
    Answer 109. Please see the referenced letter of January 17, 2017.

    Question 110. What specific steps will you take to ensure that you 
will recuse yourself from any matters at the Department of Education 
involving any individuals or entities who have donated to any of the 
501(c)(4) organizations?
    Answer 110. I will comply with all requirements of the Office of 
Government Ethics and the Ethics Office of the Department of Education.
                            senator baldwin
    Question 1. The mission of the Department of Education's Office for 
Civil Rights (OCR) is to ensure equal access to education and to 
promote educational excellence throughout the Nation through vigorous 
enforcement of civil rights, resolving complaints of discrimination and 
dealing with acute compliance problems at all levels. Do you think this 
is a valuable mission? Would you support funding OCR at its current 
budget?
    Answer 1. The Office for Civil Rights has an important mission to 
play in enforcing the law as Congress wrote it. If confirmed, I will 
ensure that the Department enforces the laws appropriately to protect 
all of our Nation's students. I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when crafting proposed budgets for future fiscal 
years.

    Question 2. OCR's mandate to eliminate discriminatory barriers in 
education impacts more than 79 million individuals at institutions that 
receive Federal funds, including all State educational agencies; 
approximately 18,200 local educational agencies; approximately 7,200 
post-secondary institutions, including proprietary schools and 
community colleges; 80 State vocational rehabilitation agencies and 
their sub-recipients; and other institutions that receive U.S. 
Department of Education financial assistance, such as libraries, 
museums, and correctional institutions. OCR serves our Nation's 
students through a headquarters office and 12 regional offices located 
across the country. Its headquarters and DC Metro enforcement offices 
are located in Washington, DC, and the remaining 11 enforcement offices 
are in Atlanta, Boston, Chicago, Cleveland, Dallas, Denver, Kansas 
City, New York, Philadelphia, San Francisco, and Seattle. OCR is also 
required by law to perform investigations of educational institutions 
to ensure that they are complying with nondiscrimination laws. How 
would you carry out this legal obligation?
    Answer 2. The Office for Civil Rights has an important mission to 
play in enforcing the law. if confirmed, I will ensure that the 
Department allocates its resources in such a way that allows for the 
appropriate enforcement of the laws to protect all students.

    Question 3. If you are confirmed as Secretary, will OCR continue to 
enforce Title IX of the Education Amendments of 1972 to protect 
students from discrimination based on gender identity or transgender 
status?
    Answer 3. If confirmed as Secretary, I will carefully review the 
law and all existing guidance documents that are in effect on title IX 
to ensure the Department is faithfully implementing the law as 
intended.

    Question 4. A recent National Science Foundation study found that 
women continue to lag behind men in obtaining jobs in science, 
technology, engineering and mathematics (STEM) fields, despite earning 
an increasing number of relevant graduate degrees. At a time when our 
Nation faces a serious shortage of expert workers and teachers in the 
STEM disciplines, what actions do you intend to take as Secretary that 
will increase recruitment and retention of women and minorities in 
high-demand, high-paying STEM fields, such as computer science and 
engineering?
    Answer 4. STEM, including computer science, is a very important 
part of education. And, increasing the number of women and minorities 
in these fields is vital to our economic security as a Nation. Most 
jobs today require a much higher degree of technical competence than 
even 5 years ago. If confirmed, I will work with States, local school 
districts and institutions to encourage them to prioritize STEM 
education, and I will help identify best practices wherever possible to 
serve as models of where it is being done well.

    Question 5. How would you characterize the State of career and 
technical education in the United States today? Do you believe funding 
for career and technical education programs at the secondary level is 
adequate?
    Answer 5. The reauthorization of the Perkins Career and Technical 
Education Act is an important priority, and, if confirmed, I look 
forward to working with the Senate Committee on Health, Education, 
Labor, and Pensions along with other interested Members of Congress to 
update and improve the law. I believe that we should work to align 
Federal laws to ensure consistency across programs, reduce duplication 
and unnecessary requirements, and provide a seamless set of policies. 
It is also important to provide flexibility at the State and local 
level so local officials on the ground can create and run programs that 
help educate students to attain the skills needed to work in those in-
demand jobs. Finally, I support transparency of data so parents, 
students, and other taxpayers can see how well their programs are 
working. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years.

    Question 6. Do you believe the Federal Government should support 
the improvement of career and technical education, and if so, how?
    Answer 6. Career and technical education is important. If 
confirmed, I look forward to sharing best practices of efficient and 
successful programs so that others may learn from them and adapt 
practices in a manner that will prove successful. Decisions about what 
programs to implement and how to run them should only be made at the 
State and local level.

    Question 7. You are seeking to lead the Federal Government agency 
charged with administering Federal education law--including the 
bipartisan Every Student Succeeds Act that reaffirms the important role 
of the Federal Government in ensuring States are held to account for 
serving all students well. These reforms must be aggressively 
implemented. Please explain how you would implement these tools. Are 
there any accountability reforms that you believe should not be 
aggressively applied by the Federal Government?
    Answer 7. If confirmed, I will implement the requirements of the 
laws under the agency, including the Every Student Succeeds Act, as 
Congress intended. While it is necessary and critical for States to 
have flexibility to determine how to identify and improve schools for 
accountability purposes, as the law states, the Department has an 
important role to play in ensuring States are meeting their 
responsibilities under the law, including fully meeting the 
accountability provisions established in the new law.

    Question 8. If a State only offered advanced placement courses in 
their urban school districts and none in suburban or rural districts, 
would that be acceptable? What if the State only offered AP courses in 
affluent districts and not lower-income districts? If the State took no 
action to correct these disparities, what do you believe the Department 
should do?
    Answer 8. This is exactly why alternative options are necessary and 
one of the reasons I've worked to bring additional education options to 
families. Families in all types of communities need access to rigorous 
courses. If confirmed, I would work with State and local education 
leaders to help bring more opportunities for rigorous coursework to all 
students.

    Question 9. Federal law requires States to ensure that minority and 
low-income students are not taught at disproportionate rates by out-of-
field and inexperienced teachers. If States did not comply with this 
Federal requirement, what do you believe the Department should do? Does 
that standard apply only to public schools or to all schools receiving 
public money, including private schools? Do you believe the standard 
should apply if the school is receiving State or local funding and not 
Federal funding?
    Answer 9. The Department has an important responsibility to monitor 
compliance with the law to ensure States, districts and schools are 
meeting their responsibilities by complying with the law.

    Question 10. Do States have an obligation to ensure every group of 
students has access to an equally high quality of education or is it 
acceptable for some to get a great education and others to get a 
mediocre or poor education?
    Answer 10. Yes, States have an obligation to ensure every child has 
access to a high quality education. It has been my life's work in 
Michigan and around the country to improve the opportunities available 
to those who currently do not have such access, and if confirmed, I 
look forward to working with this committee to continue those efforts.

    Question 11. ESSA encourages school districts to partner with their 
local workforce development boards to implement employment and 
education interventions focused on dropout recovery for out of school 
youth through the 2014 Workforce Investment and Opportunity Act (WIOA). 
How will the Department of Education support these partnerships?
    Answer 11. As a proponent of local control, I am convinced that 
State and local officials have the experience to implement these 
partnerships. If confirmed, I would welcome the opportunity to share 
data and good research from the Department of Education with State and 
local officials looking to improve educational opportunities. I will 
also work to highlight partnership opportunities presented by the Every 
Student Succeeds Act and other education and workforce laws. I will 
travel around the country, sharing best practices so others adapt them 
to their particular needs. But I also hope that States and local 
leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems. If confirmed, and if I may be 
a resource to help as Secretary, I welcome that opportunity.

    Question 12. Could you explain your understanding of the importance 
of the trust relationship between the Department of Education and 
Native communities? Will you support continued tribal consultation and 
cross-collaboration with the Bureau of Indian Education, especially 
relative to implementation of Title VI of ESSA?
    Answer 12. Native American students deserve an opportunity for 
excellent education, just as all other students do. If confirmed, I 
look forward to working with Tribal leaders and the Secretary of the 
Interior to help ensure Native American students have access to a 
quality education. The reauthorized Every Student Succeeds Act requires 
meaningful consultation with Tribal leaders, as a requirement unto the 
law. I will ensure States and school districts are fully complying with 
the law.

    Question 13. Are you familiar with programs that support social and 
emotional learning (SEL)? Do you believe Federal funding should support 
and expand these programs?
    Answer 13. I agree that supporting the whole child can be a very 
valuable way of helping children learn and achieve. In general, I 
believe it is best to defer to the judgment of State and local 
officials about how best to implement education policies. However, if 
confirmed, I would welcome the opportunity to share data and good 
research from the Department of Education with State and local 
officials looking to improve educational opportunities. I will travel 
around the country sharing best practices in the hopes that they will 
want to adapt them to their particular needs. But I also hope that 
States and local leaders will think outside the box and innovate, 
looking for new solutions to vexing educational problems. If I can be a 
resource to help as Secretary, I welcome that opportunity.

    Question 14. Charter schools serve approximately 6 percent of the 
K-12 students in this country. Should charter schools be required to 
serve any child who enrolls? Should charter schools be required to 
serve children with disabilities? Should charter schools be required to 
serve any child with a disability? What would you do to ensure that 
charter schools equitably serve subpopulations of students such as 
students of color, students with disabilities, students who are English 
learners, and students living in poverty? What responsibilities do 
charter schools have for assuring equal access to their services?
    Answer 14. I believe the primary responsibility for creating a 
high-quality, accountable, and autonomous charter school sector rests 
with States, local communities, and the broader charter school sector 
itself, not with the Federal Government or the U.S. Department of 
Education. At the same time, I support quality, accountability, 
autonomy, and transparency. Parents may choose not to enroll their 
children in a charter school or a student may decide that a particular 
charter school is not a right for them. These scenarios are perfectly 
acceptable and, in no way, suggest that charter schools are unwilling 
to serve all students.
    As you may know some traditional public schools screen enrollment 
based upon a variety of characteristics including academic achievement, 
often called ``magnet'' schools.
    Charter schools can and do engage in contracts with families to 
confirm behavioral, academic, volunteer and other expectations. For 
families who do not want to engage in such agreements, they can choose 
a different learning environment for their children. Charter schools, 
like all public schools, do serve children with disabilities if that is 
the choice that the parents and the IEP team make for the child. But, 
like a traditional public school, if a charter school is part of a 
local educational agency, that local educational agency is the entity 
responsible for providing special education to a student with a 
disability and the charter school, like a traditional public school, 
must follow the policy of the local educational agency.

    Question 15. In the Department of Education's fiscal year 2018 
budget, would you support providing full funding at the congressionally 
authorized level of $1.65 billion for the ESSA Student Support and 
Academic Enrichment Grants Program (SSAEG, title iv, part a), which 
would ensure every State and district has funding that can be used at 
their discretion to support a well-rounded education, student health 
and safety, and educational technology?
    Answer 15. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years.

    Question 16. As part of ESSA, Congress authorized grants to States 
to help them conduct audits of their assessment systems, designed to 
identify and eliminate redundant and unaligned testing at the State, 
district and school level and thus ease the testing burden on educators 
and students. Senator Cassidy and I sponsored the amendment creating 
this program and it enjoined broad, bipartisan support. If confirmed, 
would you commit to using funds reserved to your office under ESSA to 
provide grants to States for this important program?
    Answer 16. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years. I 
agree that helping States reduce unnecessary testing is a priority and 
look forward to working with you on this issue.

    Question 17. What role do you feel student assessments and measures 
of student growth play in determining a teacher's overall effectiveness 
in the classroom--including for well-rounded educators, such as in 
music and arts, who do not have standardized assessments?
    Answer 17. The Every Student Succeeds Act appropriately prohibits 
the Department from interfering in State teacher evaluation systems, 
and I will follow the law.
    As reauthorized, ESSA allows States to include both achievement 
measures and other measures as determined by the State. If confirmed, I 
look forward to assisting States which choose to include measures they 
have deemed appropriate.

    Question 18. Will you support policies that will help diversify the 
teaching profession?
    Answer 18. I agree that we need more high quality teachers of all 
races and ethnicities in our schools. If confirmed, I will work with 
the committee and Congress, during the reauthorization of the Higher 
Education Act, to find creative ways to attract more diverse candidates 
to the teaching profession. While I believe it is best to defer to the 
judgment of State and local officials about staffing policies, the need 
for excellent teachers is of national importance. I will share best 
practices and research with States and other stakeholders and will 
continue to look for ways to encourage diverse candidates to enter this 
important profession.

    Question 19. What will the Department of Education do to address 
the upcoming teacher shortage?
    Answer 19. Teacher hiring is a local issue, but a common issue 
shared amongst school districts. If confirmed, I look forward to 
talking with State and local school officials and helping facilitate 
the sharing of best practices to bring more teachers into the schools, 
especially in alternative and high-need schools.

    Question 20. Recently, the Department began to allow students to 
use prior-prior year tax data to make it easier for them and their 
families to fill out the Free Application for Federal Student Aid or 
FAFSA. This change will potentially allow millions more students to 
access higher education. Would you continue this practice if confirmed 
as Secretary?
    Answer 20. Yes.

    Question 21. Will you continue the use of the college scorecard, 
which provides clear information to students and their families about 
costs, graduation rates, student debt and earnings after school?
    Answer 21. If confirmed, I will review the information that the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary. Furthermore, 
I will ensure that the information provided conforms to the 
requirements of the Higher Education Act for the college navigator and 
college cost information.

    Question 22. The scorecard currently excludes graduate and 
professional schools. This makes little sense given that the majority 
of graduate and professional students are borrowing Federal student 
loans to finance these degrees, and it prevents students, researchers, 
and the public from having better information on the return on 
investment of these programs. If confirmed as Secretary, will you 
commit to adding graduate and professional school debt and earnings 
information to the college scorecard?
    Answer 22. If confirmed, I will review the information that the 
Department currently collects from institutions and evaluate how that 
data aligns with requirements in the Higher Education Act, including 
determining what additional information may be necessary. Further, I 
will ensure that the information provided conforms to the requirements 
of the Higher Education Act for the college navigator and college cost 
information.

    Question 23. Will you commit to supporting year-round Pell Grants, 
as included in the Senate-passed Labor, HHS and Education 
appropriations measure last year, to help students complete their 
degrees more quickly and with less debt?
    Answer 23. If confirmed, should Congress pass an appropriations 
bill with a provision that reinstates year-round Pell Grants, as 
Secretary I will implement the provision as required.

    Question 24. Recently, we have seen a number of colleges and 
universities that have failed to fulfill their commitment to students, 
including Corinthian Colleges, which was found to have defrauded its 
students by providing false information and making fake promises. Do 
you believe that students who have been defrauded deserve to recover 
the funds they have invested in higher education, including by having 
their Federal student loan debt forgiven?
    Answer 24. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws. If confirmed, I will review the current regulations 
issued by the Department and apply them in accordance with the Higher 
Education Act.

    Question 25. Colleges and universities owned by publicly traded 
companies are required to inform their investors promptly of 
significant events, such as major lawsuits alleging fraud or heightened 
oversight by Federal or State governments or accreditors. Do you 
believe that students at these colleges and universities should be 
informed along with investors of such events? Would you support a 
requirement to notify students and investors?
    Answer 25. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws. If confirmed, I will use the tools at the Secretary's 
disposal to ensure that institutions are complying with the Higher 
Education Act.

    Question 26. Private, for-profit colleges spend less on educating 
students than any other sector of higher education. While for-profit 
colleges serve only about 10 percent of students, one-third of all 
individuals who have defaulted on their Federal student loans attended 
such institutions. In fact, 47 percent of for-profit college student 
borrowers default within 5 years. After a few years in repayment, 
three-quarters of for-profit college student borrowers owe more on 
their loans than they did the day they entered repayment. Do you think 
it is appropriate for the Department of Education to make Federal 
financial aid available to institutions that produce a majority of 
borrowers owing more after being in repayment than they did before 
entering?
    Answer 26. As I stated during the hearing, I am interested in 
ensuring all institutions are accountable for their use of taxpayer 
dollars. If confirmed, I look forward to discussing institutional 
eligibility issues with you and your colleagues as you work to 
reauthorize the Higher Education Act.

    Question 27. We need to work together to end waste, fraud, and 
abuse, and we need to protect our students from any fraud. Will you 
dedicate your Department to rooting out the fraud, fighting it 
preventively, and taking steps to help students who have been 
defrauded?
    Answer 27. Yes.

    Question 28. Which elements of the House Republican budget 
proposals for education in fiscal year 2016 do you support or oppose? 
For example, recent House-passed budgets have proposed to (1) eliminate 
all mandatory spending for the Pell Grant program, (2) freeze the 
maximum Pell Grant for 10 years, (3) eliminate the in-school interest 
subsidy for undergraduate loans, (4) eliminate the Public Service Loan 
Forgiveness Program, and (5) roll back recently extended eligibility 
for more affordable income-based repayment plans. Do you support or 
oppose each of these proposals?
    Answer 28. I have not studied the House Republican 2016 budget, but 
if confirmed as Secretary, I look forward to working with Members of 
Congress from both parties in both chambers to appropriately fund the 
Department's programs. In doing so, I will look closely at the budget 
of the Department of Education to determine the best allocation of 
taxpayer dollars to programs when proposing budgets for future fiscal 
years.

    Question 29. Do you believe there is anything the Federal 
Government can or should do to encourage States to reinvest in their 
higher education systems and lessen the financial burden on students 
and families paying for college?
    Answer 29. It takes a partnership between the Federal Government, 
States, institutions of higher learning, and families to ensure post-
secondary education remains affordable. If confirmed, I would work with 
States to ensure they are holding up their part of the bargain and I 
look forward to working with you and other interested Members of 
Congress on this issue as part of the reauthorization of the Higher 
Education Act.

    Question 30. Under Income-Based Repayment (IBR) Plans, the 
remaining balance of a participant's loans are forgiven after 25 years, 
if the individual makes all qualifying payments. Will you maintain this 
important safeguard for students and families, which gives them peace 
of mind that their student loans will not burden them for their entire 
lives?
    Answer 30. The number of repayment options, and number of income-
driven repayment options, has led to much confusion for borrowers about 
the right plan for their financial situation. As you may know, 
President Trump proposed a streamlined income-driven repayment plan 
that will cap a borrower's monthly payment at 12.5 percent of his or 
her discretionary income, and ensure a borrower has relief from his or 
her loan after 15 years of payment. Hopefully we can all agree that we 
should make it more simple and less confusing for students.
    If confirmed, I look forward to working with you on this matter as 
Congress considers the reauthorization of the Higher Education Act.

    Question 31. Income-driven repayment is a program with bipartisan 
support and President-elect Trump has proposed a high-level income-
driven repayment reform, saying that the No. 1 issue voters spoke to 
him about on the campaign trail was struggling with student debt. 
Income-driven repayment is a vital protection that should be available 
to all student loan borrowers. Do you support income-driven repayment 
plans? Will you commit to student loan borrowers that you will act in 
their best interests against efforts to gut income-driven repayment 
protections? Will you commit to improving student loan servicing so 
that borrowers are better informed about their income-driven repayment 
options?
    Answer 31. See Question #30.

    Question 32. Nearly one million community college students across 
the Nation do not have access to Federal student loans, the safest and 
most affordable way to borrow for college, because their schools choose 
not to participate in the title IV financial aid programs. What would 
you do to help these students gain access to loans they need to afford 
college?
    Answer 32. Many community colleges have found that the regulatory 
burden of, and risk associated with, participating in the Federal 
student loan program outweighs the benefit for their students. If 
confirmed, I look forward to engaging in a conversation with you and 
your colleagues during the Higher Education Act reauthorization about 
ways in which we can streamline these burdens and eliminate many of the 
risks that are keeping community colleges out of the program.

    Question 33. By 2020, it is estimated that 65 percent of all jobs 
will require some sort of post-secondary education or training. 
Currently, only 42 percent of Americans hold an associate's degree or 
higher. Increasing the number of Americans who hold a post-secondary 
degree is an economic imperative and essential if our Nation wishes to 
remain globally competitive. The Obama administration viewed community 
colleges as a centerpiece to its post-secondary agenda by providing an 
affordable and accessible pathway for millions of student to obtain a 
post-secondary degree or credential. Will supporting community colleges 
remain a priority for the Department of Education under your 
leadership? How do you plan to support community colleges and their 
students?
    Answer 33. President-elect Trump championed the role of community 
colleges and other forms of vocational education during the campaign 
and, if confirmed, I plan to continue to support this avenue as one way 
a student could obtain a post-secondary education. I look forward to 
discussing the best ways the Federal Government can support community 
colleges through both the Carl D. Perkins Career and Technical 
Education Act and Higher Education Act reauthorizations.

    Question 34. In 2015, President Obama announced America's College 
Promise, a proposal to eliminate the cost of 2 years' tuition and fees 
for eligible students at community colleges through a new Federal-State 
partnership. I introduced legislation, the America's College Promise 
Act, which would make this plan a reality. Some have argued that the 
proposal is unnecessary because the Pell Grant often fully covers the 
cost of tuition for low-income students at community colleges. However, 
the college board found that during the 2015-16 academic year, after 
grant aid, full-time students at community colleges must cover an 
average of around $7,160 in other costs of attendance, including 
housing, food, books and supplies, transportation, and other living 
expenses. Community college students who attend full-time are more 
likely to complete their degrees in a timely manner. Therefore, I 
believe financial incentives and institutional supports that enable 
full-time attendance are essential. Do you believe the Federal 
Government has a role in providing community college students the tools 
necessary to attend full-time without having to borrow thousands of 
dollars in order to do so?
    Answer 34. I believe answers to the question of college 
affordability and accessibility are vital to the success of our 
country. I think community colleges play an important role in helping 
us reach those goals. If confirmed, I look forward to discussing these 
issues with you during the Higher Education Act reauthorization.

    Question 35. Many students who enter higher education drop out 
after earning a few credits because they do not see a clear path to a 
career and better life. The guided pathways movement is an effort to 
help colleges provide students with clearer road maps to credentials 
and help students get there. Guided pathways save time and money and 
significantly boost student success. Do you support programs that help 
students chart a clear path to an industry-demanded credential? Under 
your leadership, how will the Department of Education help identify and 
spread evidence-based best practices like guided pathways throughout 
the higher education sector?
    Answer 35. Yes, I believe guided pathways can be an important tool 
to help more students succeed. if confirmed, I look forward to working 
with you on this issue as Congress considers the reauthorization of the 
Higher Education Act.

    Question 36. In recent years, increased attention has been paid to 
the potential that competency-based education (CBE) models have for 
helping individuals attain the skills and credentials needed for high-
demand careers on an accelerated basis. Many of these programs have 
been very successful. How would you support the expansion of CBE 
programs? What metrics would you use to measure the success of these 
programs, and to ensure that they are using taxpayer dollars 
appropriately and producing the maximum value for students? 
Specifically, please describe how you would ensure that CBE programs 
monitor student progress proactively and maintain ready access to 
qualified faculty and academic assistance for all students.
    Answer 36. I agree that CBE presents exciting opportunities at both 
the post-secondary and K-12 levels, and I look forward to working with 
States on these efforts, if confirmed.
    In terms of higher education (CBE, specifically), I know that 
several institutions are developing or implementing programs and there 
are concerns about how the Department delivers financial aid to these 
programs. I look forward to reviewing the information gathered by the 
Department as it worked on this issue during the past few years and 
discussing this issue with Congress as part of Higher Education Act 
reauthorization.

    Question 37. During your hearing, you indicated that you did not 
have a decisionmaking role in the contributions made by the Elsa and 
Edgar Prince Foundation, including the millions of dollars given to 
anti-LGBT groups, including Focus on the Family and Family Research 
Council. You also indicated that your designation as a vice president 
of that foundation on the organization's IRS Form 990 was a clerical 
error. In a review of the Elsa and Edgar Prince Foundation's 990 
submissions for every year from 2001 through 2014, however, you are 
also listed as a vice president. Furthermore, according to tax 
documents, in 2001 the Dick and Betsy DeVos Foundation, led by you and 
your husband, contributed $75,000 to Focus on the Family. Please 
clarify, is each of the Forms 990 filed with the IRS listing you as a 
vice president of the Elsa and Edgar Prince Foundation in error? If so, 
can you confirm that you did not have a decisionmaking role in that 
Foundation's choice to contribute significant financial resources to 
Family Research Council and Focus on the Family? Regardless of your 
role with the Elsa and Edgar Prince Foundation, you are a principal for 
the Dick and Betsy DeVos Foundation and that entity's tax records list 
a 2001 contribution to Focus on the Family. As we discussed in your 
hearing, that group supports a number of anti-LGBT positions, including 
conversion therapy. Do you disavow the anti-LGBT positions of that 
organization, to which you and your husband's foundation contributed?
    Answer 37. I have never served as an officer or director of the 
Elsa and Edgar Prince Foundation, nor have I made any decisions for 
that Foundation's contributions. Upon review of documents in 
preparation for the Senate hearing, the Foundation representatives were 
alerted to these errors, and several tax filings and State of Michigan 
corporate filings for the Foundation were amended to correct them.
    As I said at my hearing, I fully embrace equality and believe in 
the innate value of every single human being and that all students, no 
matter their age, should be able to attend a school and feel safe and 
be free of discrimination.

    Question 38. In 2008, All Children Matter, the pro-voucher lobbying 
organization that you ran, was fined $2.6 million by the Ohio Elections 
Commission for moving nearly a million dollars into its Ohio branch, in 
violation of the limits placed by Ohio law. This was the largest fine 
the commission had ever handed down. All Children Matter sought the 
Commission's guidance regarding the legality of this act beforehand. 
While the Commission indicated it was not permissible under Ohio law, 
All Children Matter still made the transfer. Today, almost a decade 
after the fine was levied--and with interest, it totals more than $5.3 
million--not a cent has been paid. Please explain the justification for 
All Children Matter disregarding the opinion of the Commission on Ohio 
law and for failing to pay the fine.
    Answer 38. I was never a party to that lawsuit and a trial court 
judge ruled that an ACM officer could not be held liable for the fine.
                             senator murphy
    Question 1. The Every Student Succeeds Act maintains the full 
enforcement powers of the Department of Education to ensure that States 
are fulfilling their obligations under the law. If States do not follow 
the law, the Department of Education can take certain enforcement 
actions against a State, including withholding funding from the States 
and require States to enter into compliance agreements. Should you be 
confirmed as Secretary of Education, will you commit to using these 
enforcement powers for any State or district that is not meeting the 
requirements of ESSA, for example if States do not identify low 
performing subgroups of students, or create super-subgroups in their 
accountability systems, or do not follow the law's requirements 
regarding test-participation?
    Answer 1. If confirmed, I will implement and enforce the statutory 
requirements of the Every Student Succeeds Act as intended.

    Question 2. We, in Congress, will also be vigilantly monitoring 
State plans and implementation of the law. If we do not believe that 
States are living up to their obligations under ESSA, will you commit 
to answering our letters and requests for information about how you are 
holding States accountable for any violations of ESSA, which could 
include appearing before this committee to answer questions about how 
you are enforcing the law?
    Answer 2. Yes.

    Question 3. The Elementary and Secondary Education Act (ESEA) was 
first passed back in 1965 to ensure that all children, regardless of 
background or income, are given the opportunity to succeed in K-12 
education. Recently, in December 2015, Congress reauthorized the 
bipartisan Every Student Succeeds Act (ESSA), with the stated purpose 
of ``rais[ing] student academic achievement and clos[ing] the 
achievement gap.'' How will you work to close achievement gap between 
racial and ethnic groups, English learners, students with disabilities, 
and economically disadvantaged students?
    Answer 3. As a proponent of local control, I am convinced that 
State and local leaders understand how best to implement education 
policies for their students and schools. That seems to be the main 
thrust behind the Every Student Succeeds Act. It is their 
responsibility to educate all students in their States and local school 
districts, and to close the achievement gaps they find. If confirmed, I 
would welcome the opportunity to share data and good research from the 
Department of Education with State and local officials looking to 
improve educational opportunities. But I also hope that States and 
local leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems.

    Question 4. The Century Foundation highlighted in a 2016 report 
entitled ``A New Wave of School Integration'' the increase in schools 
using socioeconomic status and race as factors in student assignment. 
In 1996, there were only two districts that employed conscious plans 
using socioeconomic factors to pursue integration. By 2016, there were 
91, including 83 school districts and 8 charter schools or networks. 
Your predecessor, Secretary King, viewed this development as beneficial 
to students and society. He took concrete steps to encourage the 
integration of schools, such as supporting the Stronger Together School 
Diversity Act of 2016, which I introduced. This legislation was 
designed to have the Department assist school districts who on a 
voluntary basis are interested in developing integration plans. What is 
your position on the Stronger Together School Diversity Act? If 
confirmed as Secretary of Education, how would you encourage greater 
racial and socio-economic integration in our public schools, including 
charter schools?
    Answer 4. If confirmed, I would be happy to discuss this 
legislation with you. In general I believe it is best to defer to the 
judgment of State and local officials about how best to implement 
education policies. As you may know, public charter schools are often 
more integrated than their neighboring traditional public schools.
    If confirmed, I would welcome the opportunity to share data and 
good research from the Department of Education with State and local 
officials looking to improve educational opportunities. I will travel 
around the country sharing best practices in the hopes that those 
practices encourage others to look to solutions that have worked and 
adapt them to their particular needs. But I also hope that States and 
local leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems. If I can be a resource to 
help as Secretary, I would welcome that opportunity.

    Question 5. I am strongly supportive of the work the Office of 
Civil Rights conducts each year, and the Civil Rights Data Collection 
is the best source of information that researchers, advocates, and 
practitioners have regarding seclusion and restraint--as well as 
``school-pushout'' indicators like suspensions, expulsions, and 
referrals to law enforcement. This data gives us a glimpse at the 
epidemic of seclusion and restraint and the harmful ``school-to-prison 
pipeline.'' Although CRDC has been conducted every 2 years since 1968, 
some of these new school climate and discipline data points were only 
added within the last few years. Can you assure me that you will 
preserve the Civil Rights Data Collection and not limit these important 
questions? When school districts fail to report data as required, what 
steps will you take to bring these school districts into compliance? 
Will you accept and investigate Office of Civil Rights complaints about 
schools that fail to report their restraint and seclusion data?
    Answer 5. I believe that providing parents and students with 
transparent information is vital to their being able to make informed 
decisions. If confirmed, I will carefully review all existing data 
collections conducted by the Department to ensure they serve as a 
helpful tool and provide meaningful information.

    Question 6. Black girls are suspended at higher rates (12 percent) 
than girls of any other race or ethnicity, and at higher rates than 
White boys (6 percent) and White girls (2 percent); American Indian/
Alaska Native girls (7 percent), and Latinas (4 percent) are also 
suspended at rates that exceed those of White girls. Racial disparities 
in out-of-school suspensions start early: Black children represent 18 
percent of preschool enrollment, but 42 percent of the preschool 
children suspended once, and 48 percent of the preschool children 
suspended more than once. Similarly, students with disabilities are 
more than twice as likely to receive one or more out-of-school 
suspensions as students without disabilities. This is important because 
suspension from school increases the likelihood of dropping out of 
school and having contact with the juvenile justice system, with long-
term consequences that include a greater prevalence of low-wage work 
and unemployment. Great progress has been made to identify school 
discipline disparities and the Department of Education has taken steps 
to provide guidance to schools for decreasing the use of exclusionary 
discipline. As Secretary of Education, how will you lead the Department 
of Education in incentivizing positive school discipline policies that 
keep children in school and learning over exclusionary discipline 
policies (suspension and expulsion) that tends to exacerbate a child's 
behavior problems by pushing students out of school?
    Answer 6. I have seen remarkable things happen in schools that use 
positive behavioral supports and interventions, and I would welcome the 
opportunity to encourage more States and local school districts to make 
use of the tremendous research behind that system. As a proponent of 
local control, I believe that States and schools districts are best 
positioned to make decisions about suspensions and other matters of 
discipline. If confirmed, I would welcome the opportunity to share data 
and good research from the Department of Education with State and local 
officials looking to improve their policies and address disparities in 
this area. I will travel around the country, sharing best practices in 
the hopes that it encourages others to look to solutions that have 
worked and adapt it to their particular needs. But I also hope that 
States and local leaders will think outside the box and innovate, 
looking for new solutions to vexing educational problems.

    Question 7. In just the 2013-14 school year, more than 100,000 
students were locked in rooms or held down by teachers and school 
employees through the use of practices called ``seclusion and 
restraint.'' Students' bones have been broken, they've sustained 
psychological trauma, and some have even been killed. These practices 
disproportionately affect students with disabilities and students of 
color. For example, students with disabilities represent 12 percent of 
public school students nationally, but 67 percent of students subjected 
to seclusion or restraint. Do you believe teachers and school employees 
should be allowed to restrain children, for example three adults 
holding a child face down on the floor? Do you believe teachers and 
school employees should be allowed to put children in seclusion, for 
example locking them in closets without food, water, or interaction for 
hours on end? What about other aversive interventions, for example 
spraying a child's skin with undiluted bleach?

    Question 8. In the Every Student Succeeds Act, I fought for a 
provision requiring State plans to address how the State will assist 
districts in reducing the use of aversive behavioral interventions, 
including seclusion and restraint. And over the last several years, the 
Department of Education has taken significant steps to educate school 
employees and reduce the use of seclusion and restraint. Just 2 weeks 
ago, the Office of Civil Rights released new guidance clarifying how 
these practices may violate the rights of students with disabilities 
under ADA and the Rehabilitation Act of 1973 and offering ways to 
reduce the use of seclusion and restraint. Will you continue and expand 
the Department of Education's efforts to reduce the harmful practices 
of restraint and seclusion in schools that receive taxpayer dollars?
    Answers 7 and 8. I am aware of some of the incidents of 
inappropriate and horrific treatment of children, especially children 
with disabilities and minority students. This cannot be tolerated. If 
confirmed, I will carefully review what the Department of Education has 
done in this area to help States and local school districts address 
these issues.

    Question 9. Recent months have seen accounts of small elementary-
age children being handcuffed at school by School Resource Officers, 
including in: Covington, KY; Flint, MI; Kansas City, MO; and Southlake, 
TX. Often these are children of color with disabilities. Handcuffing 
small children with disabilities causes trauma and is unnecessary. What 
do you think is the appropriate role of School Resource Officers?
    Answer 9. I believe that School Resource Officers can serve a vital 
role in helping schools maintain order, deescalate violent situations, 
and make students, teachers, and parents feel safe in their schools. I 
am grateful that the Every Student Succeeds Act provides significant 
flexibility on the use of professional development dollars and can help 
School Resource Officers get and maintain the education they need to 
improve their important skills.

    Question 10. There is research that practices such as Positive 
Behavior Interventions and Supports and Trauma Informed Practices can 
be highly effective in addressing inappropriate student behavior. How 
will your Department of Education help support States and local school 
districts to implement these appropriate and effective strategies to 
ensure the safety of children with disabilities and school personnel?
    Answer 10. I have seen remarkable things happen in schools that use 
positive behavioral supports and interventions, and I would welcome the 
opportunity to encourage more States and local school districts to make 
use of the tremendous research behind that system. In general I believe 
it is best to defer to the judgment of State and local officials about 
how best to implement education policies. If confirmed, I would welcome 
the opportunity to share data and good research with State and local 
officials looking to improve policies in this area. I will travel 
around the country to share best practices in the hopes that I can help 
others to look to solutions that have worked and adapt them to their 
particular needs. But I also hope that States and local leaders will 
think outside the box and innovate, looking for new solutions to vexing 
educational problems.

    Question 11. The Promise Neighborhoods program, which was 
permanently authorized under ESSA, has been instrumental in helping 
some of the most distressed communities in the United States build 
capacity to better serve children and families. Do you support this 
program and believe that funding should continue to be appropriated for 
it?
    Answer 11. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when proposing budgets for future fiscal years.

    Question 12. According to a 2015 report by the American Enterprise 
Institute and the Brookings Institution, Social Emotional Learning 
(SEL) competencies are critically important for the long-term success 
of all students in today's economy. The authors noted that major 
educational and school reforms over the past few decades have not 
sufficiently focused on the SEL factors that are necessary for 
education, employment, and family life. The report also recommends an 
effort to scale up high-quality, evidence-based SEL programs as a core 
component of education for children. The report recommends that Federal 
and State governments: (1) scale evidence-based SEL practices and 
policies; (2) implement high-quality State SEL standards, preschool 
through high school; and (3) establish SEL centers of excellence. A 
2015 national study published in the American Journal of Public Health 
found statistically significant associations between SEL skills in 
kindergarten and key outcomes for young adults years later in 
education, employment, criminal activity, substance use, and mental 
health. The study concluded that early prosocial skills decreased the 
likelihood of living in or being on a waiting list for public housing, 
receiving public assistance, having any involvement with police before 
adulthood, and ever spending time in a detention facility. How will you 
use this research and incorporate this evidence on a national level to 
promote standards that not only ensure academic success but ensure that 
every student is college- and career-ready?
    Answer 12. If confirmed, I will review this research and share best 
practices with States and local school districts, which are best 
positioned to use this type of information when developing their 
educational approaches.

    Question 13. A 2016 audit report by the Department of Education's 
Office of Inspector General looking at Charter Management 
Organizations, or CMOs, noted that the Michigan Department of Education 
``has limited authority to monitor and oversee its 37 authorizing 
agencies.'' Do you think it's problematic that 37 different entities in 
Michigan can authorize charter schools? Does this lead to inconsistent 
standards and oversight?
    Answer 13. On the contrary, Michigan law grants the State 
Superintendent the authority to suspend any charter authorizer if he/
she believes they are not exercising appropriate oversight over their 
schools (MCL 380.507(5)). Also, legislation passed this year eliminates 
the ability of failing schools to shop for a new authorizer, and it 
requires any authorizer wanting to sponsor a school in Detroit to be 
nationally accredited.

    Question 14. That same OIG audit report noted that Michigan's State 
charter law does not include rules regarding conflicts of interest. 
When we're dealing with public dollars, and especially when the well-
being of children is at stake, do you think it is important to have 
mechanisms to ensure that the individuals who found and run charter 
schools are not using them for self-enrichment, steering management and 
facilities contracts to friends and family?
    Answer 14. According to Michigan law, public charter public schools 
have more strict requirements to avoid conflicts of interest than in 
traditional public schools. For example, traditional district school 
board members must recuse themselves from making decisions that impact 
family members employed by the district, while it is illegal for anyone 
to serve on a charter school board if they have any family members 
employed by the school.

    Question 15. Approximately 80 percent of charter schools in 
Michigan are operated by for-profit companies, and the authorizers 
receive 3 percent of a charter school's operating revenue. With 
unchecked growth, limited oversight, and profit incentives, there are a 
lot of factors here that can accrue to the detriment of students. Do 
you consider Michigan's charter sector a successful model and would you 
hope to see Michigan's charter laws replicated nationally? If not, can 
you tell me what sort of framework for charter schools you would 
promote as Secretary of Education that would ensure strong 
accountability and excellent academic outcomes for students?
    Answer 15. Public Charter schools in Michigan are held to more 
oversight and accountability than traditional public schools. My 
expectations for accountability and academic outcomes are the same for 
all schools whether traditional public or charter public schools.
    Michigan charter schools are a success story. Students in these 
charter schools gain an additional 2 months of learning in reading and 
math over their traditional public school peers. In Detroit, the gain 
is 3 months. In both reading and math, Black students in Detroit 
charter schools have significantly larger growth compared to Black 
students in Detroit Public Schools. Hispanic charter students in 
Detroit show significantly better outcomes in math compared to their 
Hispanic peers in Detroit Public Schools. I believe in funding what 
works, and in Michigan, particularly in Detroit, charter schools are 
demonstrating their value by improving student achievement.

    Question 16. You were Chairman, until your nomination, as well as a 
major funder of the American Federation for Children, the preeminent 
voucher school advocacy group. AFC's website features seven model bills 
for State legislatures to use in creating voucher systems, and they all 
have nearly identical accountability provisions. This accountability 
framework includes requirements that students receiving a voucher to 
attend a private school must take either a State achievement test or 
national norm-referenced test. However, students do not have to take 
the same test as public school students in the State, so there is no 
way to compare their performance. The school must report the grade 
level, gender, income, and race of students receiving vouchers. 
However, they are not required to report disability or ELL status. 
Under these model bills, the State must aggregate the results for all 
students receiving vouchers, but critically, results are not required 
to be aggregated by school. Parents may know how all students receiving 
vouchers perform on average statewide, but they would not know how 
students perform at a given school. Finally, a State may bar a school 
from participating in the voucher program if it ``routinely fails to 
comply with the accountability standards. But ``routinely'' is not 
defined, and nothing in the accountability framework gives the State 
the authority to cutoff a school's eligibility to accept vouchers 
because of poor student outcomes.
    Answer 16. AFC's model legislation is a guide and starting point 
for States. Each State will customize legislation to fit their own 
State's needs and can promulgate further rules or regulations around 
the removal of schools from private school choice programs.

    Question 17. When ESSA first came to the Senate floor, lacking a 
strong accountability framework, I voted against it. I can assure you 
that if any education bill came to the floor with the framework of your 
former organization's model bills, it would not earn my vote. Do you 
think parents deserve to know how students perform at a school before 
they enroll their child? Do taxpayers also deserve to know that their 
money is being well-spent at schools that ensure their students 
succeed? How can you justify denying the State the ability to cutoff 
the use of vouchers at a school with poor academic performance?
    Answer 17. As you know, the legislative process puts any proposal 
through many changes, improvements, negotiations, and compromises. The 
model legislation that AFC puts on its website is intended as a 
starting point for a legislative process. President-elect Trump has 
made a robust school choice proposal a centerpiece of his platform, 
and, if confirmed as Secretary, I look forward to working with you on 
our proposal and hope to convince you to support the legislation. I 
will certainly keep your concerns in mind as we further develop our 
proposal.

    Question 18. The President-elect recently settled a $25 million 
lawsuit over misrepresentations made to consumers who bought his real 
estate training program. Although ``Trump University'' was not a real 
college and did not accept Federal financial aid, the alleged abuses 
that led to the lawsuit closely mirror what we've seen over and over 
again in the for-profit college sector. This leaves me concerned about 
how students would be protected from predatory colleges under this 
administration. Do you think it is acceptable for colleges to 
misrepresent their graduates' earnings or job placement rates or 
otherwise lie to prospective students? If confirmed, will you commit to 
aggressively root out any fraud and abuse, and stop the flow of 
taxpayer dollars to any college that is found to have engaged in fraud, 
as authorized by Section 487 of the Higher Education Act and the 
misrepresentation regulations?
    Answer 18. Fraud should never be tolerated. Period. Bad actors in 
all sectors of higher education exist. When we find them, we should act 
decisively to protect students and enforce existing laws. If confirmed, 
I will work to ensure faithful implementation across the board--whether 
the school is a public, private non-profit, or a for-profit school. 
Accountability is for ALL schools, and I intend to use the various 
tools at my disposal to enforce the law. If confirmed, I will look 
forward to working with you and your colleagues on reforming the Higher 
Education Act in such a way that ensures that all actors in the higher 
education system--States and accreditors--have the ability to 
faithfully execute their appropriate role to hold institutions 
accountable and protect students.

    Question 19. The Federal Government provides about $150 billion of 
taxpayer dollars for higher education each year in the form of Federal 
student loans and grants. Some bad actors have played fast and loose 
with the facts about their students' postgraduate success because it is 
so easy to access this pot of student aid dollars if they can just get 
students in the door. Federal law prohibits colleges from paying 
commissions, bonuses, and financial incentives either directly or 
indirectly for enrolling a student or obtaining their financial aid. In 
order to protect students and the taxpayers' investment in higher 
education, do you commit to upholding these compensation laws if you 
are confirmed as Secretary? Will you promise to reclaim any and all 
illegally obtained student aid dollars for our taxpayers?
    Answer 19. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions--and when we 
find them, we should act decisively to protect students and enforce 
existing laws. If confirmed, I will review the current regulations 
issued by the Department and apply them appropriately.

    Question 20. Over 6 years ago, the Department of Education did away 
with the bank-based, Guaranteed Student Loan program and created the 
Direct Loan program. With this change, the Department of Education was 
able to save tens of billions of dollars which went toward Pell 
increases and more forgivable repayment options for distressed 
borrowers. In this midst of rising costs in higher education, will you 
continue to support the cost-saving Direct Loan program?
    Answer 20. I am interested in ensuring the Federal student loan 
program is serving students in the most efficient and effective way. If 
confirmed, I look forward to discussing this issue--among others--with 
you and your colleagues as you move forward with the Higher Education 
Act reauthorization.

    Question 21. The U.S. Department of Education promulgated the 
gainful employment rule in order to protect students and taxpayers from 
investing time and money into programs with poor performance in 
relation to debt, earnings, and loan repayment. Additionally, the 
gainful employment rule has provided prospective students with critical 
information as they consider institutions and programs of study. Do you 
believe this type of information is valuable to consumers and the 
Department? What role do you think the Department should have in 
protecting students from investing time and money into programs that 
lead them into debt they cannot repay?
    Answer 21. I believe that all institutions of higher education 
participating in the title IV programs should provide value to students 
and taxpayers alike. There are many tools to provide information to 
students, parents, and the public, and, if confirmed, I look forward to 
working with Congress to reform the Higher Education Act in a way that 
will allow all institutions to appropriately demonstrate their value to 
students and the public.
    With regard to the gainful employment regulations, as President-
elect Trump has directed, we will review and assess all regulations and 
make determinations once that review is complete. But I do know that 
the Department has had significant implementation issues, including 
questions as to the accuracy of the data originally reported, the 
design of a system that would allow schools to challenge incorrect 
data, and the ability to provide the necessary technical assistance 
required. The last thing any of us want is to unnecessarily shutter 
important programs--putting students on the street with limited or no 
other options.

    Question 22. Adult education State grants support programs that 
assist (1) adults in becoming literate and in obtaining the knowledge 
and skills necessary for employment, (2) parents in obtaining the 
skills necessary to become full partners in the education of their 
children, and (3) adults in the completion of a secondary education and 
transition to occupational training and high demand jobs. Without 
access, under-educated, under-prepared adults cannot qualify for jobs 
with family sustaining incomes that require not only a high school 
equivalency, but also some college--preferably a 1- or 2-year 
certificate in a high demand occupation. And, adults without a high 
school diploma or functioning below high school level cannot qualify 
for either community college programs or high demand occupations. How 
do you envision the Administration incorporating Adult Education into 
its competitiveness agenda?
    Answer 22. Too many Americans are suffering in the current economy. 
President-elect Trump made improving the employment opportunities of 
all Americans a cornerstone of his campaign, and his administration 
will work to improve the prospects of those left behind in this 
economy. Reforms enacted in the Adult Education and Family Literacy 
Act, which was reauthorized in 2014 as part of the Workforce Innovation 
and Opportunity Act (WIOA), were meant to help States and communities 
improve services for adult learners to better provide them the 
education and skills they need to obtain employment and increase self-
sufficiency. If confirmed, I will work with States, local educational 
agencies, and institutions of higher education to help identify best 
practices and provide appropriate technical assistance and guidance to 
assist in program coordination and alignment with local employer needs. 
I will also work through the Office of Career, Technical, and Adult 
Education to implement reforms enacted by Congress as part of WIOA to 
improve outcomes for adult learners. Combined with other efforts across 
the government, we have an opportunity to restore the American Dream 
for all.
                             senator warren
    Question 1. You have a lengthy history of advocating for 
privatization of public education, particularly through private school 
voucher programs.\1\ But the reality is that more than 9 out of 10 
American children attend public schools. If confirmed, how would you 
fight to ensure that all students in America including students with 
disabilities, English learners, and students of color--have access to 
high-quality public schools after spending the majority of your career 
advocating against public education?
    Answer 1. I am a strong advocate of great public education. Period.
    I believe we can both challenge the status quo and support public 
education to help it improve. Our current approach is not working for 
far too many. Last year, the National Assessment of Educational 
Progress (NAEP) recorded declines in fourth- and eighth-grade reading 
and math following flat 2013 results, marking a downturn after years of 
steady gains. Recently, the Program for International Student 
Assessment (PISA) reported that U.S. performance has declined steadily 
since 2009 in reading, math, and science--after a decade of rising 
scores. In fact, the United States is now 35th in math (down from 
28th). In science, we're 25th and in reading, we're now in 24th place. 
This is indefensible.
    We must be open to progress, to moving ahead, to challenging the 
old ways that aren't working. I believe that a choice for children in 
education is a powerful way to start. But we should all think of choice 
in the widest terms: Excellent traditional public schools, Public 
Charters, Non-government schools, Home schooling, Online or Distance 
Learning and forms of education that we haven't yet thought of--we need 
to be open to progress.
    We have to keep the focus on students and not on the adult issues 
that too often gum up the conversation.

    Question 2. If confirmed, would you use your position as Secretary 
of Education to promote the expansion of private school voucher 
programs funded with taxpayer dollars?
    If so, which States, regions, or types of school systems do you 
intend to include in this expansion?
    Answer 2. Every child should be given the opportunity to succeed 
and parents should be empowered to make choices that best fit their 
child. If there is a mismatch between the school and their child, 
parents need to have access to multiple opportunities--and be able to 
pick an educational setting that best meet the needs of their child. 
And they need the best information possible upon which to make those 
decisions.
    But those specific choices should not be mandated by the Federal 
Government. It is up to States to determine what works with their 
unique situations. If confirmed, I do look forward to working with 
Congress to develop President-elect Trump's proposal that would provide 
the opportunity for choices to be offered.

    Question 3. Will you commit to only pursuing education policy 
initiatives that have solid, reliable, and rigorous bases in actual 
peer-reviewed evidence of improved student outcomes?
    What specific evidence do you believe should be considered as part 
of these decisions about education policy initiatives?
    Answer 3. To be responsible with taxpayer dollars and ensure that 
our programs are as effective as possible, we should use reliable data, 
strong research and rigorous evaluations. First, data is critical to 
education. It helps inform decisions by teachers and school leaders. It 
helps parents make more informed decisions about their child's 
education choices. And it helps taxpayers know if their tax dollars are 
being well-spent. In addition, we must use the best research and 
independent, rigorous evaluations to ensure that our Federal programs 
are effective and having the intended effects.

    Question 4. The Every Student Succeeds Act of 2015 (ESSA) 
explicitly prohibits the Secretary of Education from mandating, 
prescribing, directing, or incentivizing the allocation of State or 
district resources, including a prohibition on policies that would 
mandate private voucher programs or eliminate teacher due process 
protections in exchange for a waiver or State-plan approval.
    Will you commit to adhering to ESSA by not using your position as 
Secretary of Education to mandate, prescribe, direct, or incentivize 
any private school voucher programs in any State or school district?
    Answer 4. If confirmed, I will enforce the Every Student Succeeds 
Act as intended.

    Question 5. A September 2016 GAO study documents ``how increased 
demand for Federal funds for services in private schools has affected 
the quality and amount of services that public schools can provide for 
their students.'' In light of this study, will you commit to opposing 
any private school voucher program that results in a net funding cut 
(either per-pupil or total funding) for any public education system?
    If yes, how will you ensure that private school voucher programs do 
not result in public school funding cuts?
    Answer 5. Federal education dollars are provided in support of 
students, not systems. Those dollars should follow the student. While 
there are certain fixed costs, if a student leaves a school, the school 
district no longer needs to provide services and programs for that 
student.

    Question 6. Will you commit to opposing any private school voucher 
program using Federal taxpayer dollars if that program results in 
increased racial or socioeconomic segregation?
    If yes, how will you ensure that private school voucher programs do 
not further segregate our schools?
    Answer 6. Research shows that students in school choice programs 
attend more integrated schools than their traditional public school 
counterparts. On average, nonpublic school classrooms are more 
integrated than nearby traditional public school classrooms. 
Traditional Public schools, by contrast, are heavily segregated because 
attendance is determined by where people live. On the other hand, 
nonpublic schools can draw students from a bigger geographic area--
allowing for a broader range and diversity of potential students.

    Question 7. Will you commit to opposing any private school voucher 
program using Federal taxpayer dollars if that program does not adhere 
to Federal accountability and anti-discrimination rules?
    How will you ensure that private school voucher programs that 
receive Federal dollars comply with Federal education accountability 
and civil rights laws?

    Question 8. Will you commit to opposing any private school voucher 
program using Federal taxpayer dollars if that program does not adhere 
to basic health and school safety requirements?
    Answers 7-8. President-elect Trump has made a robust school choice 
proposal a centerpiece of his agenda, and, if confirmed, I look forward 
to working with you on our proposal and hope to convince you to support 
the legislation.
    As you may know, the D.C. Opportunity Scholarship program 
prohibits, by law, discrimination against ``program participants or 
applicants on the basis of race, color, national origin, religion, or 
sex'' and participating schools must abide by city health and safety 
codes. I would imagine that any voucher proposal approved by Congress 
would maintain these common-sense requirements, and I look forward to 
working with you on President-elect Trump's proposal when it is 
released. I hope you'll keep an open mind.

    Question 9. Will you commit to pursuing the President-elect's $20 
billion voucher program only if Congress explicitly authorizes it and 
appropriates the funds for such a new program?
    Will you commit to not using executive or administration action to 
pursuing the President-elect's $20 billion voucher program unless 
explicitly authorized to do so by Congress?
    Answer 9. As stated above, President-elect Trump has made a robust 
school choice proposal a centerpiece of his agenda, and, if confirmed, 
I look forward to working with you on our proposal and hope to convince 
you to support the legislation. I hope to convince you to support the 
legislation.

    Question 10. ESSA authorizes a charter school expansion grant 
program. In administering this program, what are your specific plans 
for enforcing the oversight and accountability requirements in the law?
    Answer 10. I support the Federal charter school program, which was 
reauthorized as part of the Every Student Succeeds Act. The reforms 
made to the program will allow for the expansion and replication of 
high-quality charter schools as well as the opening of new charter 
schools. If confirmed, I will enforce the law as intended by Congress.
                    accountability in k-12 education
    Question 11. What are your plans for enforcing ESSA to ensure that 
States are in compliance and intervening in schools that are not 
serving their students?
    Will you commit to rejecting State plans for implementing ESSA that 
fail to meet accountability and reporting requirements set forth in the 
law?
    Are you willing to hold States accountable to the law in the event 
that they are not directing additional support and resources to schools 
that are failing to serve their students in accordance with the law?
    Answer 11. If confirmed, I will implement the requirements of Every 
Student Succeeds Act (ESSA). While I believe that providing maximum 
flexibility to States is necessary and critical in order to adhere to 
the plain language and intent of ESSA, I believe there is an 
appropriate role for the Department in providing States and local 
education agencies with technical assistance and guidance to aid with 
successful implementation of the law.

    Question 12. I wrote an important provision in ESSA with Republican 
Senator Cory Gardner to require States to make student performance data 
publicly available in a manner that can be cross-tabulated, so that 
researchers, parents, and the public could see the performance of 
certain subgroups of students, like Hispanic girls or African-American 
boys. Will you commit to enforcing this provision of ESSA by requiring 
States to make these data available? What is your timeline for doing 
so?
    Answer 12. If confirmed, I will enforce the Every Student Succeeds 
Act as intended. It would be premature to commit to any timelines at 
this time.

    Question 13. Will you commit to implementing and enforcing the new 
ESSA accountability regulations finalized by the Education Department 
in November 2016, without amendment or delay?
    What specific goals or timelines do you have for enforcing these 
provisions?
    Answer 13. If confirmed, I will carefully review all regulations to 
ensure they are consistent with the relevant statute and are necessary 
to enable successful implementation of Federal law. I will also work 
with stakeholders to determine if any additional guidance is needed to 
ensure the Every Student Succeeds Act is implemented as Congress 
intended and all students are well-served.

    Question 14. 14. What are your specific plans for ensuring that 
States and districts hold schools--particularly for-profit charter 
schools--accountable if they are discriminating against or failing to 
educate students?
    What specific measures will you use to identify discrimination or 
failure to appropriately educate students?
    Answer 14. I believe that a school's tax status does not determine 
its effectiveness and most families judge a school based on its 
quality, not its management structure. Those schools that succeed in 
attracting families and raising student achievement should be 
applauded. Those that don't ought to be closed.
    I also believe that States have the authority, under the 
legislation this Committee passed last year to determine how they will 
hold the public schools in their State accountable.

    Question 15. Will you commit to vigorously enforcing the fiscal 
accountability provisions of ESSA, including the critical ``maintenance 
of effort'' and ``supplement, not supplant'' provisions, which are 
intended to prevent States and school districts from using the arrival 
of Federal dollars as an excuse to cut back funding to low-income 
public schools?
    Will you penalize States that are not in compliance with these 
provisions?
    Will you ensure that low-income schools receiving title I funding 
do not receive less State and local funds as a result of their title I 
status?
    Answer 15. If confirmed as Secretary, I will implement the 
requirements of the Every Student Succeeds Act as intended.

    Question 16. A recent NBER study showed that policies that send 
more money to low-income school districts help increase student 
achievement and that the effect of school resources on educational 
achievement is large, reinforcing the view that more money matters. 
Given these findings, what will you do to address funding inequality 
among schools and districts in K-12 education? If confirmed, how will 
you ensure equity in the distribution of district resources?
    Answer 16. State and local funding systems are complicated and vary 
from State to State. Decisions about those systems are best left to 
States and their elected officials who have a better understanding of 
their resources and needs. If confirmed, I will commit to discussing 
this issue with you, to gain a better understanding of your goals, and 
see what the appropriate Federal role might be.

    Question 17. According to a report by the Center for American 
Progress, deep fiscal inequities are a stain on our Nation's education 
system.
    How would you improve fiscal equity within States?
    How would you improve fiscal equity within districts?
    Answer 17. State and local funding systems are complicated and vary 
from State to State. Decisions about those systems are best left to 
States and their elected officials who have a better understanding of 
their resources and needs. If confirmed, I will commit to discussing 
this issue with you, to gain a better understanding of your goals, and 
see what the appropriate Federal role might be.

    Question 18. Will you commit to implementing and enforcing ESSA 
provisions that ensure additional Federal resources for struggling 
public schools that are in need of improvement?
    Will you penalize States that are not in compliance with these 
provisions?
    Answer 18. If confirmed, I will implement the requirements of the 
Every Student Succeeds Act as intended.

    Question 19. From 2008 to 2015, we saw the number of high schools 
graduating fewer than 60 percent of students shrink from 1,812 to 1,040 
as a result of Obama administration policies that provided these 
schools with additional support, funding, and accountability. ESSA 
includes an important provision that I wrote to ensure that States and 
districts identify high schools for additional support, resources, and 
improvement if the school graduates fewer than 67 percent of their 
students.
    If confirmed, what strategies would you employ to support States 
and districts in improving high schools that graduate less than two-
thirds of their students?
    Answer 19. If confirmed, I will implement the requirements of the 
Every Student Succeeds Act (ESSA) as intended. While I believe 
providing maximum flexibility to States is necessary and critical in 
order to adhere to the plain language and intent of ESSA to let States 
determine how to identify and improve schools, I believe there is an 
appropriate role for the Department in providing States and local 
education agencies with technical assistance and guidance to aid with 
successful implementation of the law.

    Question 20. Will you commit to ensuring that all educational 
entities that receive Federal funding are subject to the same 
accountability requirements under Federal law?
    Will you commit to adhering to ESSA and holding charter schools to 
the same Federal accountability standards as traditional public 
schools?
    Will you commit to enforcing ESSA in a manner that ensures that 
statewide accountability and improvement systems required under the law 
include all charter schools and hold them accountable for their poor 
performance?

    Question 21. Will you commit to enforcing ESSA in a manner that 
ensures that statewide accountability and improvement systems required 
under the law include virtual schools and hold them accountable for 
their poor performance?

    Question 22. Will you call for tougher accountability, limits on 
enrollment, and improved oversight structures for poorly performing 
virtual schools?

    Question 23. The 2011 charter school law you supported repealed a 
requirement that the State Department of Education issue yearly reports 
monitoring charter school performance. Given your record of supporting 
charter growth and expansion without accountability, will you commit to 
encouraging States to annually monitor charter school performance so 
that parents have the information they need to make an informed choice?

    Question 24. A recent analysis shows that charter performance would 
greatly improve if States did a better job closing down low performing 
charter schools. Will you commit to using your authority as Secretary--
programmatically and through the bully pulpit--to push for stronger 
accountability and increased performance in the charter sector?
    How would you push for stronger accountability?
    Answers 20-24. I believe the primary responsibility for creating a 
high-quality, accountable, and autonomous charter school sector rests 
with States, local communities, and the broader charter school sector 
itself, not with the Federal Government or the U.S. Department of 
Education. At the same time, I support high-quality, accountability, 
autonomy, and transparency. If confirmed, my responsibility is not to 
make decisions for States or local school districts but to create an 
environment where they have the freedom and flexibility to decide what 
to do to improve education in their local communities, including how to 
hold poor performers accountable whether they are virtual, place based, 
traditional or charter. I can, and will, highlight best practices and 
encourage them to be more widely adopted.

    Question 25. What steps will you take to ensure that English 
language learners have access to qualified translators, interpreters, 
and modern and culturally sensitive English language materials?
    Answer 25. Highlighting the best evidence-based practices will be 
important to help support local education agencies have the tools and 
pathways toward helping these students succeed.

    Question 26. What specific steps have you taken to provide quality 
education to English language learners in Michigan?
    If confirmed, what is your plan for supporting the education of 
English language learners across the country?
    Answer 26. With Great Lakes Education Project's advocacy, Michigan 
has recently passed a ``K-3 Reading'' bill that provides early 
screening and a host of interventions to assist students who are 
reading below grade level. Specific measures in the bill protect 
English Language Learners from any consequences for reading 
difficulties, and we support efforts to highlight ELL progress in the 
State's proposed Every Student Succeeds Act-compliant accountability 
system.

    Question 27. Will you commit to continuing the Civil Rights Data 
Collection by the Office of Civil Rights?
    If yes, please explain how you will ensure that these data are 
provided to parents and public in a transparent way, and how you will 
use the findings to inform policy decisions?
    If yes, do you intend to make any changes to this data collection?
    If no, how do you intend to provide parents, educators and 
policymakers with data on key issues?
    Answer 27. The Civil Rights Data Collection is an important, 
longstanding tool of the Department. If I am confirmed, it will 
continue to have my support.

    Question 28. If confirmed as Secretary of Education, will you 
commit to fully carrying out the funding obligations of ESSA and to 
preserving the intent of the law to ensure stronger educational 
programs for students from low-income families?
    What are your plans for strengthening oversight over how title I 
funds are used?
    Answer 28. As you know, while the Administration makes funding 
requests through the President's budget, decisions about funding levels 
for various programs are made by Congress. If confirmed, I intend to 
follow through on my responsibilities, including working with the 
administration and Congress on title I funding and its uses.
                            higher education
The Department's Student Loan Program
    Question 29. By several measures, the U.S. Department of Education 
is one of the largest banks in the country. It oversees a portfolio of 
$1.3 trillion in Federal student loans that affects more than 42 
million Americans. You have never run a company or school system of any 
size. You have no practical banking experience.
    What are your specific plans for ensuring the Office of Federal 
Student Aid (FSA) prioritizes students and borrowers over colleges, 
student loan companies, and the Department of Education's contractors?
    How will you work to reduce delinquencies and defaults in the 
Federal student loan program?
    Answer 29. With all due respect, I have run a company and, to the 
best of my knowledge, no previous Secretary of Education has had 
``practical banking experience.'' According to the Higher Education 
Act, the Office of Federal Student Aid (FSA) should be a ``performance-
based organization'' and held accountable for its outcomes. 
Unfortunately, the previous administration did not conduct much 
oversight over FSA to ensure it was meeting its statutory requirements. 
If confirmed, I plan to hold FSA accountable for results in such a way 
that ensures students and families will be well-served.

    Question 30. Do you agree with me and with President-elect Trump 
that it is fundamentally unfair for the Federal Government to be making 
a profit off the backs of students?
    Will you support reducing the interest rates on Federal student 
loans?
    Do you support my Bank on Students Emergency Loan Refinancing Act?
    Answer 30. I do agree that the Federal Government should not be 
profiting off the backs of students. That is one of the reasons why we 
need to look very carefully at the Direct Lending Program as we move 
into discussions around the reauthorization of the Higher Education 
Act. I also believe that the refinancing of student loans is an issue 
we should discuss as part of that reauthorization.

    Question 31. In 2010, Congress dramatically improved the Federal 
student loan program by ending the old bank-based student lending 
system and allowing the Department of Education to lend directly to all 
students and families who need more money to attend college. This 
change has been projected to save the Federal Government $61 billion 
between 2010 and 2019 by cutting out the private banks and putting the 
taxpayer subsidies in banks received to make loans toward increasing 
Pell Grants for low-income students.
    Will you commit to protecting the cost-saving Direct Loan program 
from attempts to privatize it?
    Will you commit to take no action that undermines the operational 
capacity, financial health, or long-term viability of the Direct Loan 
program?
    Answer 31. As you know, the U.S. Department of Education is now one 
of the country's largest lenders. I believe we must look carefully at 
how the direct loan program is functioning. It's the responsible thing 
to do, especially with taxpayer dollars at stake. If confirmed, I look 
forward to discussing these issues as part of the reauthorization of 
the Higher Education Act.

    Question 32. Since Congress went to total direct Federal lending, 
guaranty agencies have overcharged defaulted borrowers unreasonable 
percentages of their loan balances to rehabilitate loans. One of these 
guaranty agencies is even suing the agency for the ability to continue 
to charge these overburdened borrowers. What will you do as Secretary 
to make sure that these large companies no longer take advantage of the 
system and serve the public interest as their nonprofit status requires 
them to do?
    Can you get these guaranty agencies in the legacy bank-based 
student loan system, with new funding opportunities in the Federal 
student loan system to subsidize their business model and increase 
their bottom line? If yes, how do you plan to pay for this new program?
    Answer 32. As you know, the U.S. Department of Education is now one 
of the country's largest lenders. I believe we must look carefully at 
how the direct loan program is functioning. It's the responsible thing 
to do, especially with taxpayer dollars at stake.
    If confirmed, I look forward to discussing these issues as part of 
the reauthorization of the Higher Education Act.

    Question 33. Do you believe there is statutory authority to re-
privatize segments of the student loan program?
    If so, where is this authority?
    If not, will you oppose efforts by Wall Street lobbyists to pass 
legislation that privatizes the student loan program?
    Do you support calls from student loan industry lobbyists to 
auction off the federally held student loan portfolio? If so, why? How, 
specifically, would this be a better deal for students? How, 
specifically, would this be a better deal for taxpayers?
    Are you planning to reward any Department of Education contractor, 
many of which were lenders or which includes evaluating how well 
servicers are getting student loan borrowers into the repayment and 
forgiveness programs that are best for them?
    What would you do to improve performance metrics to which student 
loan servicers are currently held?
    Will you commit to publicly releasing borrower repayment rates by 
servicers?
    Answer 33. As you know, the U.S. Department of Education is now one 
of the country's largest lenders. I believe we must look carefully at 
how the direct loan program is functioning. It's the responsible thing 
to do, especially with taxpayer dollars at stake. With respect to loan 
servicers, I believe it is important to review all aspects of the 
program and how well it is serving the interests of students, 
borrowers, and taxpayers. There is a need for greater transparency on 
the part of the Department with respect to loan performance generally.
    If confirmed, I look forward to discussing these issues as part of 
the reauthorization of the Higher Education Act.

    Question 34. Will you commit to establishing specific metrics by 
which you will evaluate how well student loan servicers are keeping 
borrowers out of delinquency and default, and to holding them 
accountable to such metrics?
    Will you establish a transparent process for evaluating the quality 
of customer service that student loan servicers provide borrowers, 
which includes evaluating how well servicers are getting student loan 
borrowers into the repayment and forgiveness programs that are best for 
them?
    What would you do to improve performance metrics to which student 
loan servicers are currently held?
    Will you commit to publicly releasing borrower repayment rates by 
servicers?
    Answer 34. According to the Higher Education Act, the Office of 
Federal Student Aid (FSA) should be a ``performance-based 
organization'' and held accountable for outcomes. Unfortunately, the 
previous administration did not conduct much oversight over FSA to 
ensure it was meeting its statutory requirements. If confirmed, I plan 
to hold FSA accountable for results in such a way that ensures students 
and families will be well-served.

    Question 35. Will you commit to holding accountable Department of 
Education student loan servicers, debt collectors, and other 
contractors that break the law, abuse students, or otherwise provide 
poor service to borrowers, including through sanctions, fines, contract 
terminations and other penalties?
    Answer 35. We should do everything possible to ensure that our 
students are getting excellent servicing of their student loans. If 
confirmed, I will strive to do a better job than the previous 
administration at managing all of the Department's contractors and will 
ensure they follow all applicable laws.

    Question 36. Will you commit to increasing data transparency in the 
student loan portfolio as outlined in the Education Department's July 
2016 Policy Direction on Federal Student Loan Servicing?
    Do you believe it is appropriate for the Office of Federal Student 
Aid to hide Federal student loan and grant data from the public and 
policymakers?
    Answer 36. I am a big believer in transparency. If confirmed, I 
will review the information currently made available and, after 
consultation with policymakers, determine what additional information 
can and should be made public. This review and decision will be done in 
a way that follows all applicable authorization and privacy laws.

    Question 37. Will you commit to ensuring that students have a 
meaningful complaint system that is public and searchable?
    Answer 37. It is premature for me to commit to a particular course 
of action here. However, ensuring that students have a clear and 
transparent way to make complaints is important.

    Question 38. Will you commit to prohibiting the Department of 
Education from opposing borrowers in bankruptcy seeking a discharge on 
their student loans due to an undue hardship?
    Answer 38. If confirmed, I look forward to working with Congress on 
ways to improve all provisions of the student loan program as part of 
HEA reauthorization.

    Question 39. The Obama administration has recently announced a 
Memorandum of Understanding between the Education Department and the 
Treasury Department, establishing a framework for electronically 
sharing tax data over multiple years for borrowers with Income-Driven 
Repayment plans, allowing them to provide consent for the IRS to share 
certain information with FSA and their loan servicer for several years, 
so that they do not have to annually recertify their income. Will you 
commit to continuing this practice if confirmed as Secretary?
    Answer 39. If confirmed, I will review all MOUs with an eye toward 
ensuring the Higher Education Act is being faithfully implemented and 
that students are not forced to untangle unnecessary red tape to avail 
themselves of their benefits.

    Question 40. President-elect Trump has released an income-driven 
repayment reform plan because he says that student loan debt should not 
be ``an albatross around [the necks of students] for the rest of their 
lives.''
    Will you commit to protecting the availability of our current 
Income-Driven Repayment programs, including program expansions by the 
Obama administration?
    Will you commit to holding student loan servicers accountable to 
notifying borrowers of their options to lower their monthly payments 
through Income-Driven Repayment plans?
    Answer 40. If confirmed, I look forward to discussing President-
elect Trump's income-driven repayment plan--and all of the repayment 
plans--with you and your colleagues during the reauthorization of the 
Higher Education Act.

    Question 41. The Obama administration has announced a process to 
proactively identify and assist Federal student loan borrowers with 
disabilities who may be eligible for Total and Permanent Disability 
(TPD) loan discharge through a partnership with the Social Security 
Administration. Will you commit to continuing this practice if 
confirmed as Secretary?
    Answer 41. If confirmed, I will review current policies and 
procedures to ensure that they align with the legal authority granted 
to the Secretary in the Higher Education Act.

    Question 42. The Obama administration has recently allowed the use 
of prior-year tax data to make it easier for students and families to 
fill out the FAFSA. Will you commit to continuing this practice if 
confirmed as Secretary?
    Answer 42. Yes.

    Question 43. The Department has recently taken steps to improve 
transparency in the Federal student aid program for researchers and 
policymakers to identify better ways to improve student outcomes.
    Will you commit to at least maintaining the current availability of 
data from FSA for researchers and policymakers, including the data 
that's currently available through the FSA Data Center, on the College 
Scorecard, and the through the Financial Aid Shopping Sheet?
    Will you commit to maintaining the Department's recent transparency 
commitments, including expanding researcher access to student aid data 
and clarifying permissible uses of financial aid data for program 
evaluation and research?
    Will you commit to releasing raw data sets on the FSA Data Center 
website that are stripped of personally identifiable information to 
allow researchers and policymakers to independently evaluate the 
performance of the student aid programs?
    Answer 43. While it is premature to commit to a particular course 
of action, I value the research and policymaking communities' need for 
student loan data while recognizing that the National Student Loan Data 
System (NSLDS) was designed to serve Federal Student Aid operational 
purposes rather than the dissemination of data for public consumption. 
if confirmed, I will review the Department's existing policy related to 
data transparency and explore opportunities that can advance public 
policy interests while protecting students' information.

    Question 44. In December 2015, Senators Lee, Markey, Hatch and I 
sent the Department a letter to express our concerns about using 
``robocalls'' to collect student loan debt. While a caller must 
generally have a person's consent before using auto dialers and pre-
recorded messages to ``robocall'' the person's cell phone or 
residential line, Title III of the Bipartisan Budget Act of 2015 
created an exemption allowing anyone to robocall a person's phone--
without consent for the purpose of collecting a debt owed to or 
guaranteed by the Federal Government. Our letter asked the Department 
not to use this new authority until the Department can demonstrate with 
data that robocalling is in the best interest of student loan borrowers 
and taxpayers and will not result in abusive debt collection practices.
    In August 2016, the Federal Communications Commission (FCC) adopted 
consumer protections in its implementing regulations. Specifically, the 
FCC limited the number of these robocalls to three per month, required 
that these robocalls occur between the hours of 8 a.m. and 9 p.m., and 
allowed the recipients of these robocalls to opt out at any time. The 
FCC rules also prohibit robocalls to relatives and references who may 
be secondarily responsible for student loans. The student loan industry 
has already started lobbying President-elect Trump to roll back the 
FCC's consumer protection rules.
    Do you support the consumer protection rules the FCC adopted to 
protect student loan borrowers from abusive debt collection practices?
    Will you commit to directing student loan servicing organizations 
and third-party debt collectors to continue to follow the consumer 
protections in the FCC rules?
    Will you commit to providing the data that Senators Lee, Markey, 
Hatch and I requested?
    Answer 44. If confirmed, I will ensure the Department's debt 
collectors follow the law.

    Question 45. A decade ago, Sallie Mae (now known as Navient) was 
implicated in a student loan kickback scandal. According to public 
reports and a settlement by the Attorney General of New York, the 
student loan industry gave gifts to school officials in order to steer 
borrowers to individual lenders. Navient retains a very large portfolio 
of government-guaranteed loans, and the government has never revoked 
guarantees on loans involved in the kickback.
    Will you do what is right for taxpayers and ensure that all 
guarantees of loans held by Navient where the law was broken are 
revoked?
    Answer 45. If confirmed, I will review existing policies and 
procedures in evaluating all contractors involved with the student loan 
program, including servicers to ensure borrowers are being treated 
fairly and equitably.

    Question 46. Last year, the Department's Office of Federal Student 
Aid announced that Navient was a finalist for its blockbuster contract 
to develop a new servicing system. Do you think it is appropriate for 
the Education Department to award contracts to Navient, with its long 
record of skirting the law?
    Answer 46. If confirmed, I look forward to enforcing the provisions 
of the Higher Education Act related to the performance nature of the 
Office of Federal Student Aid, including all of the contractors to 
ensure compliance with all applicable laws and positive outcomes for 
students, borrowers, and taxpayers.

    Question 47. In 2014, the FDIC and the Justice Department fined 
Sallie Mae/Navient nearly $100 million for illegal behavior on its 
Direct, Federal Family Education Loan, and private loan portfolio. Most 
egregiously, the companies were found to be overcharging members of the 
military. In its complaint, the Justice Department described their 
conduct as ``intentional, willful and taken in disregard for the rights 
of servicemembers.'' The FDIC also noted that the companies improperly 
advised servicemembers that they must be deployed to obtain benefits 
under the Servicemembers Civil Relief Act, which is not required. The 
Education Department subsequently conducted a sham review, sharply 
criticized by the Inspector General.
    If confirmed, will you rely on the findings of law enforcement to 
terminate contracts and all appropriate government guarantees when 
there is significant evidence of student loan servicers breaking the 
law?
    Answer 47. If confirmed, I will ensure the critical review of all 
contractors to ensure their compliance with the Higher Education Act 
and other laws pertinent to Federal student loans, as well as any 
guidance issued related to those laws. I will also work closely with my 
counterpart at the Departments of Veterans Affairs and Defense on loan 
issues related to service members and veterans.

    Question 48. In 2009, the Department's Inspector General found that 
a Sallie Mae subsidiary was overcharging taxpayers as part of the so-
called ``9.5 percent'' scam. The Inspector General determined that 
Sallie Mae/Navient were overpaid $22.3 million. More than 7 years 
later, the Department has still not collected these funds. Will you 
commit to issuing a final order to resolve the appeals that have 
dragged on for years? Please provide a timeline for doing so.
    Answer 48. if confirmed, I will review any outstanding Inspector 
General findings in order to determine the relevant and proper action 
moving forward.

    Question 49. In 2008, the Department of the Treasury and the 
Department of Education bailed out the student loan industry under the 
Ensuring Continued Access to Student Loans Act program. While the 
bailout was primarily intended to provide liquidity to the market, some 
student loan companies made off like bandits. According to SEC filings, 
Sallie Mae booked profits of $284 million in 2009 off of loan sales to 
the Education Department.
    Do you think it's appropriate for the government to design programs 
that lead to windfall profits for politically connected contractors?
    If confirmed, will you audit loan sales under the student loan 
bailout program to ensure that taxpayer interests are protected?
    Answer 49. By passing the Ensuring Continued Access to Student 
Loans Act, the Congress authorized the Department to establish a loan 
purchasing program. These programs have since expired.

    Question 50. Just this week, Sallie Mae and Navient were sued by 
the Consumer Financial Protection Bureau and State Attorneys General.
    Will you commit that the Department will collaborate with the CFPB 
on the investigation?
    What specific steps will you take to work with the Consumer 
Financial Protection Bureau to ensure that the consumer agency has all 
of the information it needs for its enforcement action?
    Answer 50. If confirmed, I will review the findings of the Consumer 
Finance Protection Bureau (CFPB) in order to determine what steps, if 
any, the Department of Education should take.
                 oversight of colleges and universities
    Question 51. For years, some colleges have survived off of Federal 
taxpayer dollars while committing outright fraud. In fact, during the 
Reagan administration, Republican Secretary of Education William 
Bennett said that there were ``profit institutions out there that are 
interested only in that profit and not interested in students.'' He 
pledged to ``put some of them out of business right now . . . to get 
institutions that are exploiting kids and exploiting taxpayers out of 
the business.'' In 2012, the Senate HELP Committee released an 
investigation and report on for-profit college abuses, showing that 
these abuses still persisted decades later. For-profit colleges 
represent only about 10 percent of students but nearly half of Federal 
student loan defaulters. Students at for-profit colleges pay more in 
tuition, have more debt, are less likely to graduate, are more likely 
to owe more money on their loans years after entering repayment, and 
are more likely to default. What are your specific plans for protecting 
students and taxpayers from waste, fraud, and abuse in the Federal 
student-aid programs by all colleges, but especially for-profit 
colleges?

    Question 52. Will you commit to rooting out the fraud, fighting it 
preventively, and taking steps to help students who have been 
defrauded?
    Will you commit to maintaining the Department of Education's 
Enforcement Unit to protect students and taxpayers from illegal actions 
by colleges and universities?
    Will you commit to taking all necessary steps to protect students--
especially veterans and service members--from any form of consumer 
fraud or misrepresentations by deceptive colleges?
    Answers 51 and 52. Fraud should never be tolerated. Period. Bad 
actors clearly exist--in both public and nonpublic institutions--and 
when we find them, we should act decisively to protect students and 
enforce existing laws. If confirmed, I will review the current 
regulations issued by the Department and determine their necessity for 
implementing the Higher Education Act.

    Question 53. Will you commit to adhering to your responsibility 
under the Higher Education Act to investigate or take other enforcement 
actions when the Department becomes aware of a State Attorney General 
or other Federal agency investigating or suing an institution of higher 
education participating in the title IV program?
    When faced with evidence of fraud from other Federal or State law 
enforcement agencies, what will you do to hold colleges accountable?
    Answer 53. I will follow the law and obligations required under the 
Higher Education Act.

    Question 54. The Congressional Budget Office found in 2016 that 
repealing the Gainful Employment Rule would increase spending by $1.3 
billion over 10 years and contribute to the waste of taxpayer dollars 
on overpriced, ineffective career education programs that fail to 
prepare students for employment. In October 1991, then-Secretary of 
Education Lamar Alexander urged Congress to increase the Federal 
Government's role on outcome measures for vocational post-secondary 
schools, arguing

          ``But with particular emphasis on vocational programs and 
        schools, which would benefit most from closer oversight. . . . 
        The Federal Government should set the parameters for certain 
        standards, such as outcome measures, for use by States in 
        carrying out their increased responsibilities. . . . The scope 
        of a State's review should explicitly include institutional 
        performance in student outcome areas such as program completion 
        and job placement rates.''

    What are your specific plans for enforcing the Gainful Employment 
rules as finalized in July 2015 without amendment or delay to hold 
career and vocational programs accountable for helping students 
graduate with skills that can get them jobs?
    Will you enforce the rule as written by cutting off aid to schools 
that are leaving their students with unaffordable debts and without 
meaningful prospects in the job market?
    Will you commit to ensuring that taxpayers do not subsidize career 
education programs that consistently leave students with debts they 
cannot repay?
    Will you commit to ensuring that students have access to clear 
information on the cost and typical outcomes of career education 
programs, including completion rates, median debt at graduation, 
graduate earnings, and job placement rates?
    Answer 54. I believe all institutions of higher education 
participating in the title IV programs should provide value to students 
and taxpayers alike. There are many tools to provide information to 
students, parents, and the public, and, if confirmed, I look forward to 
working with Congress to reform the Higher Education Act in a way that 
will allow all institutions to appropriately demonstrate their value to 
students and the public.
    With regard to the gainful employment regulations, as President-
elect Trump has directed, we will review and assess all regulations and 
make determinations once that review is complete. The Department has 
had significant implementation issues with this regulation, including 
questions as to the accuracy of the data originally reported, the 
design of a system that would allow schools to challenge incorrect 
data, and the ability to provide the necessary technical assistance 
required. The last thing any of us want is to unnecessarily close down 
important programs--putting students on the street with limited or no 
other options.

    Question 55. Will you expand resources for enforcement and 
oversight of predatory colleges that defraud students or leave them 
with expensive and useless degrees?
    What other specific actions will you take as Secretary to hold 
these schools accountable?
    Answer 55. If confirmed, I will examine the management and 
operation of the Department to ensure that resources are allocated 
wisely to meet the responsibilities of the Department.

    Question 56. What are your specific plans for improving performance 
of accreditors and for holding accreditors accountable for failures?
    Secretary King eliminated the charter of the Accrediting Council 
for Independent Colleges and Schools due to a series of failures by the 
company. From 2010 to 2015, this accreditor 90 times held up a college 
as an ``honor roll'' institution around the same time it was under 
investigation by a State or Federal entity. All told, these schools 
received more than $5.7 billion in Federal funds over 3 years, or 52 
percent of all Federal aid dollars handed out to schools approved by 
this accreditor. Do you believe this action was justified?
    Now, ACICS is suing the Federal Government over this action. Will 
you stand by Secretary King's decision to keep that accreditor out of 
the Federal student aid programs?
    Will you commit to defending this action in court challenges and 
proceedings?
    Will you commit to upholding the program participation requirements 
instituted by the Department of Education for ACICS-accredited school 
in order to protect students and taxpayers in the event of sudden 
collapse?
    Answer 56. The accreditation system is not working--both in terms 
of protecting students and encouraging innovation in higher education. 
It's a complicated issue that the field has been grappling with for 
some time. If confirmed, I look forward to engaging with you, the 
Senate Committee on Health, Education, Labor, and Pensions and the 
entire Congress on this topic. However, as this matter is currently 
being litigated it is inappropriate for me to comment on this 
particular matter.

    Question 57. What are your specific plans for holding college 
accrediting agencies accountable for only accrediting colleges if they 
meet the standards set forth in the Higher Education Act?
    How will you make the college accreditation system more focused on 
student outcomes?
    Answer 57. The accreditation system is not working--both in terms 
of protecting students and encouraging innovation in higher education. 
It's a complicated issue that the field has been grappling with for 
some time. If confirmed, I look forward to working with the Senate 
Committee on Health, Education, Labor and Pension to find a solution 
that does not in effect make the Federal Government a national 
accreditor.

    Question 58. Will you seek any changes to the new Borrower Defense 
to Repayment or arbitration rules as issued in November 2016?
    Will you commit to aggressively enforcing these new rules without 
amendment or delay to protect students and taxpayers from fraudulent 
schools?
    Will you enforce the provisions of the rule that would hold schools 
accountable for abuses through early warning and triggers?
    If not, how do you intend to discourage colleges from engaging in 
fraud?
    Answer 58. As it relates to the Borrower Defense regulations issued 
in November, If confirmed as Secretary, I will carefully review all 
regulations to ensure they are consistent with the relevant statute as 
Congress wrote them and are necessary to enable successful 
implementation of Federal law. I will also work with stakeholders to 
determine what additional guidance is needed to ensure statutes are 
implemented as Congress intended and all students are well-served.

    Question 59. Will you grant full, automatic group discharges of 
student loan debts in instances of widespread fraud uncovered by other 
Federal or State law enforcement agencies, including fraud uncovered by 
State attorneys general?
    What will your specific criteria be for allowing such relief?
    Will you support full, automatic discharge of individual loans at 
schools where students were systematically defrauded?

    Question 60. Can you guarantee that every student who is defrauded 
by a school during your tenure will see every penny of debt relief they 
are entitled to under the law?
    Will you commit to granting full debt relief to students who were 
defrauded by Corinthian Colleges?
    Answers 59 and 60. Fraud should never be tolerated. Period. Bad 
actors clearly exist--in both public and nonpublic institutions. When 
we find them, we should act decisively to protect students and enforce 
existing laws. However, I'm agnostic about the type of provider of 
educational options to our students. Let's find the best and not 
discriminate simply because of their tax status.
    If confirmed, my role as Secretary, in part, would be to ensure 
that the Higher Education Act is faithfully implemented. I will work to 
ensure faithful implementation across the board--whether the school is 
a public, private non-profit, or a for-profit school.
    Accountability is for ALL schools, and I intend to use the various 
tools at my disposal to enforce the law. Helping those harmed by 
Corinthian Colleges or by any fraudulent institution is an important 
issue. We will be reviewing the Borrower Defense regulations to ensure 
we are applying a consistent standard and are taking into account the 
effect on students and taxpayers.

    Question 61. Many for-profit colleges used arbitration ``rip off' 
clauses to keep their fraud in the shadows and prevent students from 
speaking out about waste, fraud, and abuse. The new borrower defense 
rules ban colleges from forcing their students to sign mandatory pre-
dispute arbitration clauses in their enrollment agreements.
    Will you enforce this provision without amendment or delay?
    Will you commit to ensuring that students who have concern or 
complaints about their institutions have the right to raise those 
concerns publicly?
    Will you commit to ensuring that students have a choice in deciding 
how they will file and pursue a complaint?
    Answer 61. As it relates to the Borrower Defense regulations issued 
in November, If confirmed as Secretary, I will carefully review all 
regulations to ensure they are consistent with the relevant statute as 
Congress wrote them and are necessary to enable successful 
implementation of Federal law. I will also work with stakeholders to 
determine what additional guidance is needed to ensure statutes are 
implemented as Congress intended and all students are well-served.

    Question 62. Currently, many students and families aren't able to 
access basic consumer information on their college or university, 
including how much they will pay, borrow, earn if they complete their 
degree, or their chances of succeeding, which makes it hard for 
students to shop for the right college option. Do you believe students 
have a right to know this information?
    Do you support reexamining current restrictions that prevent the 
public from accessing this critical consumer choice data?
    Will you commit to informing students about significant events 
regarding colleges, such as major lawsuits alleging fraud or heightened 
oversight by Federal or State governments or accreditors?
    Will you commit to taking steps to improve and expand the 
information available to students, families, and the Department of 
Education: veterans' graduation rate, Pell grantees' graduation rate, 
and more accurate college transfer rates?
    Answer 62. I believe that for consumers to make good choices they 
need access to reliable information. If confirmed, I will review the 
Education Department's current effort to provide students and families 
with information about post-secondary education institutions' 
performance. If confirmed, I also look forward to working with Congress 
during the Higher Education Act reauthorization this year to address 
these issues.

    Question 63. There's been a lot of focus in this committee on the 
idea that higher education regulations raise costs. This stems from a 
Vanderbilt University study that claimed that regulations cost the 
school around $11,000 per student. But, a closer investigation of that 
report shows that the vast majority of those costs are due to research 
dollars, and that the costs of complying with Department of Education 
regulations are so small they did not even merit their own category.
    Given this information, before any attempt to deregulate colleges 
and universities, will you commit to submit to Congress independent 
evidence that it will ultimately help students and taxpayers?
    Will you commit to not cut or rollback regulations unless the 
Department of Education can demonstrate the benefit to students and 
taxpayers?
    Answer 63. As is customary at the beginning of any administration I 
will carefully review all existing regulations to ensure that they 
adhere to the laws as Congress intended.

    Question 64. For years, many for-profit colleges took advantage of 
low-income students and students of color using high-pressure sales 
tactics and commissioned boiler-room style sales for recruitment--often 
breaking the law.
    Is that the model you believe higher education should use to 
recruit students?
    What will you do to protect students and taxpayers from this kind 
of practice?
    Do you believe recruiters at private for-profit colleges should be 
allowed to receive bounties or bonus payments for recruiting students?
    Will you commit to enforcing the ban on incentive compensation 
without amendment?
    Answer 64. If confirmed, I look forward to reviewing existing 
regulations and policies to ensure that they align with the provisions 
of the Higher Education Act and will work with you, the committee and 
the Congress in addressing these issues during debate of the upcoming 
Higher Education Act reauthorization.

    Question 65. In 2010, the Obama administration issued new rules 
regarding program integrity and defining illegal misrepresentations. If 
confirmed, will you commit to fully enforcing this rule without 
amendment?
    Answer 65. If confirmed, I look forward to reviewing existing rules 
and regulations and their alignment with the Higher Education Act and 
faithfully implementing the law.

    Question 66. The Higher Education Act requires colleges to be 
authorized by a State in order to receive Federal dollars. The Obama 
administration recently announced new rules to clarify States' 
responsibility in holding colleges accountable. If confirmed, will you 
commit to enforcing this rule without amendment or delay?
    Answer 66. If confirmed, I look forward to reviewing existing rules 
and regulations and their alignment with the Higher Education Act and 
faithfully implementing the law.

    Question 67. Over the years some institutions have been responsible 
for aggressive and harassing recruiting tactics, misleading 
servicemembers and veterans about their quality of education or 
employment prospects, and even taking advantage of veterans with severe 
traumatic brain injury to get their GI bill money even when the veteran 
was so injured they did not remember or understand they were enrolling.
    The 90-10 rule exists in law as a market-value accountability 
mechanism to prevent for-profit colleges from pricing their programs at 
an artificially high level. Will you commit to working with Congress to 
close the 90-10 loophole, which allows for-profit colleges to exclude 
Federal funds from the Departments of Defense and Veterans Affairs in 
their total Federal aid calculations in order to remain in compliance 
with the 90-10 rule?
    How will you prevent fraudulent colleges from preying on veterans 
and servicemembers for their GI bill and Tuition Assistance funds?
    How will you work across other agencies to protect veterans from 
being cheated by colleges?
    What specifically will you do to advocate for policies that protect 
veterans and servicemembers?
    Answer 67. The Higher Education Act outlines what is included in 
the 90/10 rule calculation. If confirmed as Secretary, I will 
faithfully implement the HEA. Should Congress decide to change this 
rule in the HEA reauthorization process, I look forward to engaging in 
that discussion. I will also work closely with my colleague at the 
Departments of Veterans Affairs and Defense to ensure veterans and 
servicemembers have the same information about post-secondary outcomes, 
or the results of program reviews or other audits as appropriate, as 
the non-veteran/non-servicemember students. The GI bill and Tuition 
Assistance programs have different requirements that colleges and 
universities must meet in order to participate and the Secretary of 
Education does not have jurisdiction over those programs.

    Question 68. A recent Century Foundation report has revealed that 
some schools currently recognized by the Department of Education as 
nonprofit are making a profit for their board members and others 
involved in the school's administration. These activities run contrary 
to the legally mandated mission of a nonprofit to serve public, rather 
than private, interests, while allowing these institutions to skirt 
regulation designed to monitor the for-profit education sector. The 
Secretary is responsible for approving all attempts by for-profit 
colleges to convert to nonprofit colleges. If confirmed, what specific 
steps would you take to ensure that the Department of Education only 
recognizes schools as nonprofit if their governance structure ensures 
that no one with a personal financial stake in the school also has 
administrative authority?
    Answer 68. If confirmed, I look forward to working with the IRS 
Commissioner should the need arise as I faithfully implement the Higher 
Education Act.

    Question 69. The incoming President's campaign remarks and 
literature state that he is interested in prioritizing Federal funding 
for higher education programs that result in good jobs with decent 
wages.
    In confirmed, how would you accomplish this goal?
    What are your specific plans for holding higher education programs 
accountable to their student outcomes, including labor market outcomes?
    Answer 69. I am interested in making sure students have good 
information about the costs of college and the labor market outcomes of 
particular fields so they can make good decisions at the beginning of 
their educational pursuits about what program may work best for them 
and their situation. If confirmed, I look forward to working on these 
issues with members of the Senate Committee on Health, Education, 
Labor, and Pensions and other interested Members of Congress during 
Higher Education Act reauthorization.

    Question 70. The evidence is clear that declines in State funding 
for public colleges have directly led to increases in tuition and 
student debt. At the same time, the amount of money that these schools 
actually spend to educate students is not growing.
    If confirmed, how would you address the problem of State 
disinvestment in higher education?
    What are your specific plans for addressing this growing problem 
and encouraging States to reinvest in their higher education systems 
and lessen the financial burden on students and families paying for 
college?
    If confirmed, what steps would you take to alleviate the financial 
burden on our students, and how would you ensure that our students are 
able to afford their college education, even if a financial crisis 
hits?
    Answer 70. While research increasingly shows a strong relationship 
between rising tuition at public colleges and lower State investment, 
some one-third of all post-secondary institutions are not public, yet 
students have witnessed higher tuition at these institutions as well. 
It takes a partnership between the Federal Government, States, 
institutions of higher learning, and families to ensure post-secondary 
education remains affordable. If confirmed, I look forward to 
discussing this issue with Congress as part of the reauthorization of 
the Higher Education Act.

    Question 71. The ``credit hour'' is the measure the Federal 
Government uses to determine whether a course load's expectations of 
students should qualify for a ``full-time'' amount of financial aid. In 
2011, a new Federal definition made clear that financial aid is meant 
to finance actual academic engagement. Will you enforce the credit-hour 
guidance as written?
    Answer 71. If confirmed, I look forward to working with Congress to 
evaluate new and novel approaches to awarding credit and corresponding 
rules for financial aid that permit greater innovation in delivering 
post-secondary instruction, including measures of competency.

    Question 72. How do you plan to increase support for students in 
higher education in order to help them complete their education?
    How will you support the expansion of student support services 
designed to help students stay in school and graduate on time, such as 
Federal Work Study, on-campus childcare, and TRIO programs?
    Answer 72. I think high quality college access programs provide a 
vital service to helping students achieve their dream of a post-
secondary education. If confirmed, I look forward to reviewing the 
results of these programs and putting forward a budget request that 
supports high quality, effective programs.

    Question 73. Will you commit to promptly reviewing all borrower 
defense claims by former ITT Technical Institute (ITT) students and 
other evidence of wrongdoing by ITT and provide discharges to all 
students entitled to them based on the Department's regulations and 
current law?
    Answer 73. As it relates to the Borrower Defense regulations issued 
in November, If confirmed, I will carefully review all regulations to 
ensure they are consistent with the relevant statute as Congress wrote 
them and are necessary to enable successful implementation of Federal 
law. I will also work with stakeholders to determine what additional 
guidance is needed to ensure statutes are implemented as Congress 
intended and all students are well-served.

    Question 74. Will you commit to supporting legislation to restoring 
Pell Grant and GI bill eligibility for former ITT and other students 
who receive borrower defense loan discharges or would be eligible to 
receive one if they had taken out a Federal loan?
    Answer 74. This is an important issue. If confirmed, I will be 
reviewing the Borrower Defense regulations to ensure we are applying a 
consistent standard and are taking into account students and taxpayers. 
I look forward to working with you, the entire Senate Committee on 
Health, Education, Labor, and Pensions and Congress to address these 
issues where needed.
                public service to students and taxpayers
    Question 75. Will you commit to closing the revolving door and 
preventing Education Department employees from personally profiting 
from their activities at the Department?
    Will you prevent Education Department employees from working on 
issues that directly impact a previous employer?
    Will you demand that, prior to appointment, political appointees 
pledge that they will not work in industries related to or 
significantly subject to Education Department regulation for 3 or more 
years upon leaving Federal service?
    Will you commit to disclosing to Congress all department employees 
who previously worked for a Department of Education contractor?
    Answer 75. If confirmed, I will enforce all applicable ethics laws 
that relate to Department of Education employees.

    Question 76. Many of the Department of Education's contractors and 
other companies in the student loan program spend significantly on 
lobbying Members of Congress and the Department. How will you ensure 
that this lobbying activity does not influence your decisionmaking?
    Answer 76. If confirmed, I will implement and enforce all relevant 
laws.

    Question 77a. During Mr. Trump's campaign, there were reports that 
even volunteers were required to sign non-disclosure agreements. And 
following his election, there were also reports that transition 
officials were requesting information about career employees who worked 
on issues such as climate change at the Energy Department or women's 
issues at the State Department. Any implication that people who worked 
on advancing policies that the new President-elect disagrees with may 
be targeted or retaliated against could create a chilling effect on 
non-political Federal employees simply trying to do their jobs.
    If you are confirmed, will you commit to protect the rights of all 
civil servants in the Department of Education?
    Answer 77a. Yes. If confirmed, I intend to uphold all laws 
applicable to Department of Education employees.

    Question 77b. Those rights include the right for civil servants to 
communicate with Congress, and in fact it is against the law to deny or 
interfere with their right to do so. If you are confirmed, do you 
commit to protect these workers right to communicate with Congress?
    Answer 77b. Yes. If confirmed, I intend to uphold all laws 
applicable to Department of Education employees.

    Question 78a. Your family has a large financial stake in Performant 
Financial Corporation--a company that collects student loan debt. 
Performant's most recent quarterly report states, ``We derive the 
majority of our revenues from the recovery of student loans.'' I have 
deep concerns about some of the deceptive--and sometimes illegal--
practices that private debt collection companies have aggressively used 
to go after student loan borrowers. In 2015, Performant had the 
distinction of becoming one of five companies that received the most 
complaints at the Consumer Financial Protection Bureau from student 
loan borrowers. In April 2015, Performant's debt collection contract 
with the Department expired, and the Department elected not to extend 
Performant's contract--a tremendously consequential decision, given 
that the company derived 23.8 percent of its revenues in 2015 from its 
contract with the Department. Performant is currently protesting the 
Department's decision not to renew its contract.
    If you are confirmed as Secretary of Education, you would have 
direct influence over the Department's decisions and how the Department 
responds to Performant's protest. In addition, you would have direct 
influence over policies that could enrich Performant at the expense of 
student loan borrowers. Performant's own SEC filings indicate that the 
Department's past decisions to promote policies that benefit student 
loan borrowers, such as income-based repayment, have reduced the 
company's profits.
    Will you commit to divesting yourself and your family from 
Performant Financial Corporation?
    Answer 78a. Yes. I will resolve any issues related to Performant in 
accordance with my ethics agreement with the U.S. Department of 
Education's Designated Agency Ethics Official.

    Question 78b. What steps will you take to ensure that neither you 
nor any member of your family has a financial stake in a company that 
would benefit from the decisions you make at the Department of 
Education?
    Answer 78b. Like you, I am committed to a system of conflict-free 
governance.
    The family offices that manage my and my husband's investment 
activities and I will, in consultation with the U.S. Office of 
Government Ethics and U.S. Department of Education's Designated Agency 
Ethics Official, create a robust system of controls designed to keep me 
informed of the investments in my portfolio, so that I can avoid any 
conflicts of interest with respect to the decisions I make at the 
Department of Education.

    Question 78c. If given the choice, will you commit to promoting 
policies that benefit student loan borrowers rather than the companies 
that make money off of them?
    Answer 78c. My goal is to ensure that affordable post-secondary 
educational and vocational opportunities are available to anyone who 
seeks to pursue them. I would promote policies that further this goal.

    Question 78d. Will you recuse yourself from any specific actions or 
decisions regarding Performant?
    Answer 78d. I will resolve any issues related to Performant in 
accordance with my ethics agreement with the U.S. Department of 
Education's Designated Agency Ethics Official. I believe this practice 
and standard is similar to those to which Members of Congress adhere.
                             senator kaine
    Question 1. Do you believe there are aspects of the Michigan 
charter schools experience that have been problematic and that require 
corrective action? What, if any, problems do you identify? What 
corrective policies and practices have you proposed in Michigan? Do 
problems you identify with the Michigan charter experience suggest to 
you any need for changes to Federal charter policies to try to avoid 
such problems in other States with charter schools?
    Answer 1. Each legislative effort to expand school choice in 
Michigan has come with additional oversight expectations for these 
schools, including the ``Race to the Top'' bills passed in 2009, the 
charter cap increase bill in 2011, and the Detroit Public Schools (DPS) 
reform legislation passed in 2016.
    In the DPS bill, the legislature eliminated the ability of failing 
schools to shop for a new authorizer, and it now requires any 
authorizer wanting to sponsor a school in Detroit to be nationally 
accredited. Thank you for the opportunity to correct the record, 
Detroit schools--traditional public and public charter schools--now 
have more accountability than before.

    Question 2. Do you think that charter schools have done a good 
enough job fulfilling their original promise to share best practices 
with traditional public schools?
    Answer 2. There is certainly room for improvement in the area of 
cooperation between traditional district and charter public schools. 
This is one of the goals of the charter school movement and I support 
an increase in the sharing of best practices between all successful 
schools.

    Question 3. Nearly 90 percent of virtual schools fail to graduate 
one-third or more of their students. Some virtual high schools are 
specifically intended to serve as alternative schools for high-risk 
students, but their outcomes are equally dismaying. In fact, one-third 
or more students fail to graduate in 92 percent of the alternative 
virtual high schools in your home State of Michigan. What role have you 
played in supporting or reforming virtual schools? How can you explain 
their dismal outcomes for students, and particularly the most at-risk 
students? What controls do you believe need to be in place so these 
schools do not proliferate as ``dumping grounds'' for vulnerable 
students across the country?
    Answer 3. I believe that States have the obligation to set 
accountability standards and if schools consistently fall below those 
standards, they should be closed regardless of their governance or 
form. Bad schools that fail our children must be closed. I will 
certainly support States in their efforts to hold schools accountable 
and will provide technical assistance, training, or other support as 
appropriate.

    Question 4. What proactive steps would you take to ensure girls of 
color are not subject to disparate school discipline policies, 
including disproportionately high rates of suspensions and expulsions?
    Answer 4. Discipline policies need to be regularly reviewed to 
ensure they are effective and implemented fairly; and if confirmed, I 
look forward to working with State and local officials should they seek 
assistance.
    In general I believe it is best to defer to the judgment of State 
and local officials about how best to implement education policies. I 
do not think the Nation's Governors want me to come to their States and 
tell them what to do. If confirmed, I would welcome the opportunity to 
share data and good research from the Department of Education with 
State and local officials looking to improve educational opportunities. 
I will travel the country sharing best practices and encourage others 
to look to and adapt solutions that have worked.

    Question 5. The school to prison pipeline has been well-documented, 
with reports from the Department demonstrating the relationship between 
harsh and disparate school discipline policies and future criminal 
justice system involvement. The most profound disparities in this 
pipeline affect African Americans. Would this issue be a priority for 
you? What are your plans to address these systemic challenges?
    Answer 5. I believe good education is the foundation to being a 
good citizen. A good school can provide a lifeline to a struggling 
student and help prevent them from slipping through the cracks and into 
our justice system. If confirmed, I would look forward to working with 
you and others in Congress to better understand what an appropriate 
Federal role could be to help our State and local leaders address this 
important issue.

    Question 6. You have been outspoken since your nomination about the 
importance of local control to ensure that local policymakers can 
create an agenda that best suits their specific needs. And yet, let's 
consider the practicality of the President-elect's privatization 
proposal. Many States don't have private school programs at all and 
many more have extremely small programs. Also, only 32.4 percent of 
children have access to a charter school option. Wouldn't the 
President-elect's voucher plan trample on their local control of 
education in those communities by forcing funds into private schools 
even if it goes against the community's wishes?
    Answer 6. Not at all. What is more local and individualized than a 
parent's decision? Every child should be given the opportunity to 
succeed and parents should feel empowered to make choices that best fit 
their child. If there is a mismatch between the school and their child, 
parents need to have access to multiple opportunities--and be able to 
pick an educational setting that best meet the needs of their child. 
And they need the best information possible upon which to make those 
decisions. But those specific choices should not be mandated by the 
Federal Government. If confirmed, I do look forward to working with 
Congress to develop President-elect Trump's proposal that would provide 
the opportunity for choices to be offered.

    Question 7. As Secretary, would you support bankrupting local 
districts and leaving them to private, free-market forces rather than 
intervening or otherwise working to rebuild the public system in a more 
effective way?
    Answer 7. No.

    Question 8. Numerous Federal agencies have found that student loan 
servicers contracted by the Federal Government are causing borrowers 
massive headaches. An astounding eight million borrowers are in 
default. Do you believe we should hold our Federal contractors to 
higher standards?
    Answer 8. If confirmed, I will strive to do a better job than the 
previous administration at managing all of the Department's contractors 
and will ensure they follow all the appropriate consumer protection 
laws as those laws were written.

    Question 9. Recent data demonstrates Hispanic/Latino and African 
American graduation rates (75.2 percent and 70.7 percent, respectively) 
are still lower than rates for White (86.6 percent) and Asian (88.7) 
students. How would the U.S. Department of Education under your 
leadership prioritize policy guidance, technical assistance, and 
funding to improve graduation rates for students of color?
    Answer 9. I do agree that the graduation gaps in our country are 
unacceptable, which is why I have made it my life's work in Michigan 
and around the country to improve educational opportunities for our 
most vulnerable students.
    I look forward to working with this committee to continue those 
efforts. In general I believe it is best to defer to the judgment of 
State and local officials about how best to implement education 
policies. if confirmed, I would welcome the opportunity to share data 
and good research from the Department of Education with State and local 
officials looking to improve educational opportunities. I will travel 
around the country sharing best practices hoping to encourage others to 
look to solutions that have worked and adapt it to their particular 
needs. But I also hope that States and local leaders will think outside 
the box and innovate, looking for new solutions to vexing educational 
problems.

    Question 10. The Department released guidance for colleges to urge 
them to remove questions about criminal histories on admissions 
applications. These questions impose bias, and studies have shown that 
these biases can serve as a barrier to post-secondary access which has 
implications for low-income and minority communities, despite there 
being no evidence that screening for criminal history threatens campus 
safety. If confirmed, do you intend to maintain this guidance, or 
support similar new guidance?
    Answer 10. If confirmed, I will review the referenced guidance. 
There is a very careful balance colleges and universities must strike 
between the different steps they may choose to take to ensure campus 
safety (e.g., criminal history questions on admission applications) in 
their particular locality, versus not unduly discouraging otherwise-
qualified applicants.

    Question 11. What are you going to do to lessen the total debt load 
students are taking on, and in particular, help the estimated 8 million 
Americans who are in default on their Federal student loans?
    Answer 11. I think we can all agree that the growing amount of 
student debt in America is a serious challenge. I think the solutions 
to this challenge must be multi-faceted. One of the best ways to tackle 
the student debt issue is to ensure students are able to actually be 
hired after they complete their post-secondary program. President-elect 
Trump has spoken extensively about his plans to put Americans back to 
work and boost the Nation's stagnant economy.
    Beyond that, we need to embrace new pathways of learning, such as 
competency-based education. The old and expensive brick-mortar-and-ivy 
model is not the only one that will lead to a prosperous future.
    We need to support all post-secondary avenues, including programs 
offering credentials. There are many great jobs available that do not 
require a traditional 4-year degree. We also need to support students 
and families so they are able to make informed choices about what type 
of education they want to pursue.
    In this vein, I am interested in making sure students have good 
information about the costs of college and the labor market outcomes of 
particular fields so they can make good decisions at the beginning of 
their educational pursuits about what program may work best for them 
and their situation.
    Finally, we need to simplify and streamline the repayment options 
offered to borrowers to help them better understand their options. 
President-elect Trump has proposed to streamline the income-driven 
repayment plans into one plan that will cap a borrower's monthly 
payment at 12.5 percent of his or her discretionary income, and ensure 
a borrower has relief from his or her loan after 15 years of payment.
    If confirmed, I look forward to working on all of these issues as 
the committee begins the process of reauthorizing the Higher Education 
Act.

    Question 12. The Pell Grant program is currently slated to have a 
significant surplus for the next several years. In 2011, Congress 
eliminated the year-round Pell Grant, cutting off access to an 
additional grant disbursement for thousands of students. In 2012, 
Congress made additional eligibility changes to the program by 
eliminating eligibility for ``Ability-to-Benefit'' students, reducing 
the income threshold to qualify for zero Expected Family Contribution, 
eliminating eligibility for students receiving 10 percent of the 
maximum award, and reducing the number of semesters students are 
eligible to receive a Pell Grant. Because of these changes hundreds of 
thousands of students have seen their Pell Grant award reduced or lost 
eligibility all together. The current surplus exists in part due to the 
eligibility changes made to the program. Do you support retaining the 
funding that was generated from cuts to student aid to reinvest in the 
Pell Grant program?
    Answer 12. If confirmed, I look forward to working with Members of 
Congress from both parties in both chambers to appropriately fund the 
Department's programs, especially the Pell Grant program. In doing so, 
I will look closely at the budget of the Department of Education to 
determine the best allocation of taxpayer dollars to programs when 
making a proposed budget for future fiscal years.

    Question 13. As you know, there are at least 15 million students 
living in poverty in this country. The majority of these students 
attend 60,000 public schools with funds designated for schools with the 
highest percentages of children from low-income families. Known in the 
Every Student Succeeds Act (ESSA) as title I, this funding stream is 
dedicated to educating low-income students in schools with additional 
funds to serve their students. It also provides mechanisms to ensure 
that title I funds are actually spent on these students. Will you 
commit that the President-elect's $20 billion school choice proposal 
would not take from ESSA Title I?
    Answer 13. President-elect Trump has made a robust parental choice 
proposal a centerpiece of his education platform, and, if confirmed, I 
look forward to working with you on our proposal and hope that you will 
keep an open mind that this voluntary program will simply allow 
interested families to choose the school setting that best meets the 
unique needs of their individual child.

    Question 14. The Department of Education collects extensive data on 
public schools including achievement, enrollment, discipline, bullying 
and harassment, and special education information. These data 
collection procedures provide transparency to stakeholders and allow 
for the Department and State educational agencies to intervene if 
necessary to reduce and prevent discriminatory practices. In fact, in 
Virginia our Governor analyzed the Department of Education's data and 
found that there were a disproportionate number of student discipline 
referrals for students with disabilities. You're a proponent of 
vouchers to private schools. As you know, private schools are not 
required to report the same information, including many private schools 
receiving Federal taxpayer dollars in States with voucher programs. 
However, if your Department of Education does not collect any of this 
information on private schools, how will you ensure schools are not 
discriminating against students based on their race, gender, religion, 
or disability?
    Answer 14. Transparency of necessary information is important to 
ensuring accountability to parents, and I support ensuring parents 
receive necessary information so that they can make informed decisions 
about the school their child would attend. As you may know, the D.C. 
Opportunity Scholarship program prohibits, by law, discrimination 
against ``program participants or applicants on the basis of race, 
color, national origin, religion, or sex.'' I would imagine that any 
new voucher proposal approved by Congress would maintain this common-
sense requirement, and I look forward to working with you on President-
elect Trump's proposal when his administration releases such a 
proposal.

    Question 15. I am a strong believer in the power of our community 
colleges, which do an incredible amount of the workforce training in 
this country. In fact, many people don't know that the Pell Grant is 
really the largest source of support for workforce training, and about 
1 in 4 community college students receive Pell Grants. Last year, 
students in my State of Virginia who received training a community 
college earned more than 15,000 industry certifications and 
professional licensures. And as Governor I prioritized investing in our 
2-year colleges.
    Many of these programs at our community colleges are largely 
focused on career and technical education, which is in demand by many 
employers around the country. This committee will consider 
reauthorization of the Carl Perkins Career and Technical Education Act. 
How would you support the development of high-quality CTE programs at 
our community colleges? And how do you make sure that all students can 
afford them--especially when they might need expensive equipment or 
supplies?

    Question 16. What are your top three priorities for the Carl D. 
Perkins Career and Technical Education Act reauthorization? What policy 
changes would you advocate for in the upcoming reauthorization of the 
Act?
    Answers 15 and 16. I agree reauthorization of the Perkins Career 
and Technical Education Act is an important priority, and, if 
confirmed, I look forward to working with the Senate Committee on 
Health, Education, Labor, and Pensionss and other interested Members of 
Congress to update and improve the law.
    I believe we should work to align Federal laws to ensure 
consistency across programs, reduce duplication and unnecessary 
requirements, and provide a seamless set of policies. It is also 
important to provide flexibility at the State and local level so local 
officials on the ground can create and run programs that help educate 
students to attain the skills needed to work in those in-demand jobs. 
Finally, I support transparency of data so parents, students, and other 
taxpayers can see how well their programs are working.

    Question 17. The quality of career and technical education (CTE) 
programs largely relies on the quality of CTE teachers. CTE teachers 
have a dual challenge they must be excellent teachers as well as up-to-
date on their industry knowledge, which can be particularly challenging 
for some in-demand, quickly changing sectors. States and districts 
often struggle with finding high quality CTE teachers, many of whom can 
earn a higher salary in the private sector, especially in rural areas. 
If you are confirmed as U.S. Secretary of Education, what will you do 
to increase the supply of highly effective CTE teachers in the United 
States?
    Answer 17. As it relates to career and technical education (CTE) 
teachers, if confirmed, I look forward to exploring with this committee 
ways to improve CTE through the reauthorization of the Perkins CTE Act. 
In general I believe it is best to defer to the judgment of State and 
local officials about how best to implement education policies.
    If confirmed, I would welcome the opportunity to share data and 
good research from the Department of Education with State and local 
officials looking to improve educational opportunities. I also hope 
that States and local leaders will think outside the box and innovate, 
looking for new solutions to vexing educational problems.

    Question 18. Do you believe school districts should be held 
accountable for identifying children of active duty service members and 
tracking their student achievement results? Why or why not?
    Answer 18. The Every Student Succeeds Act requires States and 
school districts to report student achievement data on the children of 
active duty service members and I am committed to implementing the law.

    Question 19. A large number of students in our country have more 
interactions with school resource officers than with school counselors 
or other specialized instructional support personnel. In what ways will 
you work to invest in programs that provide students with access to 
mental health, counseling and other related services to improve student 
safety and health?
    Answer 19. Early intervention to address the underlying issues 
students are facing is critical to preventing students from becoming 
involved in the criminal justice system.
    In addition to working with my colleague at the Department of 
Justice to promote the importance of education for students caught in 
the juvenile justice system, if confirmed, I will work with States to 
help promote the sharing of best practices to help these students and 
to implement the law as envisioned by Congress. Under the State 
Academic Education Grants, districts will be able to capitalize on the 
flexibility in the law to fund important programs they believe will 
help address some of the issues to help students succeed.

    Question 20. One of the hallmarks of Workforce Innovation and 
Opportunity Act (WIOA), of which adult education is a core component, 
is better alignment and coordination at the Federal, State, and local 
levels across a number of workforce and skill development programs. The 
Departments of Education, Labor, and Health and Human Services have 
been at the center of a dynamic, innovative and impactful working group 
of agencies to improve access to and accountability of these programs. 
Will you commit to supporting these efforts and advancing the work of 
these agencies to ensure the success of programs under WIOA?
    Answer 20. The Adult Education and Family Literacy Act was 
reauthorized in 2014 as part of the Workforce Innovation and 
Opportunity Act. The reforms enacted in that legislation were meant to 
help States and communities improve services for adult learners to 
better provide them the education and skills they need to obtain 
employment and increase self-sufficiency. If confirmed, I will work 
through the Office of Career, Technical, and Adult Education to 
implement these reforms to improve outcomes for adult learners.

    Question 21. Students and families face steep costs for post-
secondary education while having limited information about the return 
on investment. What opportunities do you see for the Department of 
Education to provide the public with better information on expected 
post-secondary outcomes, including job placement and earnings?
    Answer 21. I do believe greater transparency for students and 
parents is important. If confirmed, I look forward to working with you 
to address this issue as part of Higher Education Act reauthorization.

    Question 22. FIRE, and other organizations opposing the rights of 
campus rape victims, have argued that victims should not be able to 
report to the school and should instead only be able to report to law 
enforcement. This position is universally opposed by victims' 
advocates, who believe victims should be able to choose whether to 
report to law enforcement, to their school, or to both. Given that very 
few survivors come forward to report sexual assault to law enforcement, 
victims' groups believe that limiting a survivor's reporting options 
will lead to many survivors not coming forward to anyone at all. Even 
when victims do report to law enforcement, they rarely see justice--
only 14--18 percent of assaults reported to police result in 
conviction. Could you speak about your position on denying a survivor 
the ability to report to their schools?
    Answer 22. Every student has a right to have a learning environment 
that is safe to learn, grow and thrive. I am very sensitive to issues 
involving violence in our schools, including sexual violence.
    Students have a right to feel safe and protected in their learning 
environment. Sexual violence is particularly disturbing as its victims 
often are reluctant to pursue action by the criminal justice system. 
Protecting the victim's right to privacy and right to decide how and 
whether to pursue all the legal avenues afforded him/her must be 
respected.
    Sexual violence can impact a student in profound ways, destroying 
trust and potentially re-victimizing the victim as the most private of 
relationships is on display for judgment, ridicule and challenge. 
Innocent victims and survivors of sexual violence who want to continue 
their education deserve our strong, and unrelenting support. 
Perpetrators of this violence are also entitled to certain protections, 
including the right to be considered innocent until proven guilty. In a 
non-criminal context, many schools have a zero-tolerance policy for 
violence as well as honor codes that set these expectations for the 
entire student body.
    It is expected that schools will have in place mechanisms to 
respond to allegations of violence, and processes to fully investigate 
and respond to allegations of criminal activity, including sexual 
violence, on their campuses. Those procedures must be fair, accessible, 
and consistent.
    If confirmed, I will work to ensure robust enforcement of laws that 
protect students from violence and commit to working with the 
leadership at the Department to examine mechanisms that improve public 
access to information and empower students, parents, and others to make 
decisions about which environments are the most appropriate.

    Question 23. Title IX requires that every recipient of Federal 
education funds must designate at least one employee who is responsible 
for coordinating the school's compliance. This person is sometimes 
referred to as the title IX coordinator. Coordinators oversee all 
complaints of sex discrimination. They also identify and address any 
patterns or systemic problems at their schools. Instead of giving these 
coordinators the support, guidance, and training they need to do their 
work, we've seen time and time again that many schools are without a 
title IX coordinator. It is also unfortunately quite common to find 
coordinators who do not understand the scope of the law. What efforts 
will you undertake to ensure that all title IX coordinators have the 
resources available to do their job--including access to funding for 
training and professional development?
    Answer 23. If confirmed, I will look closely at the budget of the 
Department of Education to determine the best allocation of taxpayer 
dollars to programs when making a proposed budget for future fiscal 
years.

    Question 24. An important component of ESSA is robust stakeholder 
engagement, from planning to implementation. What will you do as 
Secretary to ensure that States engage in substantive stakeholder 
engagement under ESSA both in their planning over the next several 
months and during implementation starting next school year?
    Answer 24. if confirmed, I will implement the requirements of the 
Every Student Succeeds Act as intended. Stakeholder engagement is an 
important part of the law and a provision to ensure parents, local 
officials, and other important community leaders are consulted as the 
States and school districts develop their plans.
    As a part of the job in monitoring States for the implementation of 
the new law, I will expect full compliance with all of the consultation 
requirements under the law.

    Question 25. Your predecessors in the Department of Education made 
it clear that they believed the United States should lead the world in 
access to high-quality early childhood education. Do you share this 
belief and would you make this a goal for our country?
    Answer 25. Early childhood education is important and can help put 
a child on a path to success and the workforce. That is why it is 
exciting to see so many States invest in and support early education 
programs for families.
    If confirmed, I look forward to working with State and local 
leaders to support their efforts to provide early childhood education. 
As you know, the Every Student Succeeds Act included the authorization 
of Preschool Development Grants to help States improve the services 
they are providing. If confirmed, I will work with the Secretary of 
Health and Human Services to confirm the efficiency and effectiveness 
of all early childhood education programs and initiatives.

    Question 26. TRIO and GEAR UP programs help prepare many minority 
and first generation students for college. What is the administration's 
position on increasing access/funding for these programs?
    Answer 26. I think high quality college access programs provide a 
vital service to helping students achieve their dream of a post-
secondary education. If confirmed, I look forward to reviewing the 
results of these programs and putting forward a budget request that 
supports high quality, effective programs.

    Question 27. Can you provide some insight on how this 
Administration will work with HBCUs? How will you strengthen our HBCUs?
    Answer 27. I believe historically black colleges and universities 
are an important piece of America's higher education system. If 
confirmed, I look forward to working with these institutions to ensure 
they are well-positioned to continue to serve students in the most 
effective way.

    Question 28. Data from the latest arts education data study 
undertaken by the National Center for Education Statistics shows that 
students in high poverty elementary and high schools were less likely 
to have access to a well-rounded education, including music and arts, 
than their more affluent counterparts. What role would you play as 
Secretary of Education in supporting equal access to a well-rounded 
education, including music and arts, for all children, including those 
who are in high poverty schools? And what role can music and arts 
education play in the lives of students identified with special needs, 
or students studying in a low-performing schools?
    Answer 28. In general I believe it is best to defer to the judgment 
of State and local officials about how best to implement education 
policies. If confirmed, I would welcome the opportunity to share data 
and good research from the Department of Education with State and local 
officials looking to improve educational opportunities.
    I will travel around the country sharing best practices, 
encouraging others to look to solutions that have worked and adapt it 
to their particular needs. But I also hope that States and local 
leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems. If I can be a resource to 
help as Secretary, I would welcome that opportunity.
    As it relates to arts and music education, I strongly agree that 
they can be an important part of a well-rounded education and I hope 
that with the greater flexibility provided to States and local school 
districts that education leaders at the local level can find new ways 
to provide opportunities to students in the music and arts.

    Question 29. Recent experimental studies on statewide voucher 
programs in Indiana and Louisiana found that public school students 
receiving vouchers subsequently scored lower on State assessments than 
similar students remaining in public schools. Why do you think the 
proposal from the President-elect, which is supported by mixed research 
at best, is a responsible use of Federal dollars? How are we to expect 
that a national experiment, that at best covers only a small portion of 
private school tuition, will have vastly better outcomes than so many 
of the voucher programs across the country?
    Answer 29. The initiative proposed by the President-elect during 
the campaign is a voluntary program to enable interested States to 
offer a range of educational options to low-income families. I look 
forward to working with the President-elect and Congress to support and 
improve public schools and increase high quality educational options, 
particularly for low-income students. Several studies have found that 
students participating in choice programs have higher test scores, 
better graduation rates and higher parental satisfaction levels than 
their public school counterparts. In addition, a study about the FL 
choice program found generalized improvements across education sectors, 
including public schools. (Figlio and Hart Study of Florida Tax Credit 
Scholarship Program, 2014).
                             senator hassan
                              disabilities
    Question 1. There is evidence of children who experience 
disabilities receiving inappropriate punishment, including restraint 
and seclusion when attending a private school with a taxpayer-funded 
voucher. Under your leadership, how will the Department of Education 
hold these private schools accountable to ensure every students' 
safety?
    Answer 1. If confirmed, under my leadership the Department of 
Education will disseminate the best research on classroom management 
and handling difficult behavioral challenges, including effective 
positive behavior interventions and supports.
    As we fashion policies to increase parental choice, we will pay 
close attention to protecting the rights of students with disabilities 
and ensuring the safety of every student. We will provide additional 
details when plans are announced.

    Question 2. A recent report by the Council of Parent Attorneys and 
Advocates, Inc. noted that, in most voucher programs for students with 
disabilities,

          ``Voucher amounts are not set at rates high enough to cover 
        the full cost of the education at a private school, and many of 
        the programs do not cover critical costs to enable full access 
        and participation, such as transportation.''

    This means that low-income families with students with disabilities 
cannot make use of the voucher to make a choice among schools. The 
report describes the promise of ``choice'' in such situations as 
``hollow'' for many families. Do you think that this is a problem? Why 
or why not? If so, under your leadership what will the Department of 
Education do to address this problem?
    Answer 2. I am concerned that many students across our great Nation 
are not getting the education that they deserve. If confirmed, I 
promise to work to increase access for all students, including students 
with disabilities, to a high-quality education. As part of this work, I 
will examine the issue of the cost for services needed to access choice 
options.

    Question 3. You have been a very vocal supporter of vouchers for 
students to choose their own school. How would you ensure the family of 
a student who uses such a voucher to attend a school other than the 
public school they would attend normally would not have to pay for 
access to special instructional support personnel (SISP) and other 
related services to provide the student with the tools needed to 
graduate and succeed in a higher education institution or the 
workforce?
    Answer 3. It is premature to discuss the details about a policy on 
which the administration has not yet offered a detailed proposal. 
However, I can assure you that equity will be a key factor in the 
design of such policies. We will pay close attention to the issue of 
access to special instructional support personnel and other related 
services as we develop these policies.

    Question 4. Will the Trump Administration ensure that there is 
adequate funding for qualified specialized instructional support 
personnel (SISP) to provide the services identified in student's 
individualized education program (IEP) in all publicly funded 
education, including in taxpayer-funded voucher programs.
    Answer 4. I am committed to supporting States and local communities 
in ensuring that all students with disabilities receive the services 
they need. Under the Individuals with Disabilities Education Act 
(IDEA), funding for special education services is a shared 
responsibility of the Federal, State and local governments. Should I be 
confirmed, I look forward to working with you to ensure that the 
responsibilities of the Federal Government in this regard are met.

    Question 5. How will you ensure that all teachers and specialized 
instructional support personnel (SISP), regardless of whether they work 
in public, private or parochial schools are provided with high-quality 
professional development?
    Answer 5. Every student should receive high-quality assessment, 
curricula, and instruction. In order for that to occur, teachers and 
other instructional staff (including SISP) need to actively engage in 
ongoing evidence-based professional development. If confirmed, under my 
leadership, the Department of Education will support research and 
dissemination activities to ensure that educators have access to up-to-
date information.

    Question 6. Numerous studies have demonstrated that students with 
disabilities can make significant developmental and learning progress 
in inclusive settings. Studies have also shown that when compared to 
their peers in more segregated settings, they experience greater 
cognitive and communication development, fewer absences from school, 
higher test scores in reading and math, and a higher probability of 
employment and higher earnings. Further, these benefits for students 
with disabilities do not have adverse effects on their peers without 
disabilities. What would you do to increase the amount of instructional 
time that students with disabilities spend in the regular education 
classroom?
    Answer 6. I appreciate the value and benefits of educating students 
with disabilities inclusively with their general education peers. A 
student's Individual Education Plan (IEP), developed by local 
educators, parents, and in many cases, the student, determines the 
level and type of services that a student needs. Those closest to the 
situation are usually best positioned to make decisions about what will 
work for a particular student. Under my leadership, the Department will 
continue to promote evidenced-based and effective best practices to 
inform decisionmaking at the local level.

    Question 7. Considerable investments have been made in 
comprehensive research on educating students with disabilities. How do 
you intend to support and utilize research to inform your policy 
priorities?
    Answer 7. I am a strong advocate of using research to inform 
practice and policy. Therefore, research on educating students with 
disabilities will continue to be encouraged and supported under my 
leadership. In addition, we will examine interdepartmental 
collaborations with the Departments of Health and Human Services, Labor 
and other departments that are conducting research about students with 
disabilities to develop a more complete view of effective practices. We 
need to remove the silos that separate each department's knowledge base 
and increase access to evidence that could impact the professional 
knowledge base.

    Question 8. The specially trained educators who work with students 
with sensory disabilities are educated through a small number of 
specialized university personnel preparation programs. The low-
incidence of students and the complex qualification requirements for 
teachers make these personnel preparation programs unique among teacher 
training programs. As Secretary of Education, what will you do to 
ensure the continuation and expansion of these essential personnel 
preparation programs in order to supply and support the well-trained 
professionals to meet the specialized needs of students with low-
incidence, sensory disabilities?
    Answer 8. If confirmed, under my leadership, the Department will 
examine the personnel preparation grants and other teacher preparation 
and professional development program opportunities to determine 
appropriate priorities. Students with sensory disabilities and students 
with multiple disabilities deserve well-prepared and excellent teachers 
who receive ongoing evidence-based professional development to maintain 
and enhance their expertise.

    Question 9. Do you believe that most students with disabilities can 
master grade-level standards when they have access to special education 
and related services? If yes, please describe how you will support 
students, parents, educators and schools in this effort. If no, please 
describe what research you reference to support your answer.
    Answer 9. The short answer is: yes.
    However, it is not just access to special education or related 
services that can impact a student's achievement. Schools that use 
evidence-based practices as a part of their regular curriculum are 
producing exciting results for students with disabilities. We need to 
examine what these schools do and share these practices.
    In addition, students with disabilities often learn at different 
rates. This needs to be considered when developing educational policies 
and plans. Special educators tell me, for example, that they don't want 
to waste valuable instructional time having their students color 
pictures of ``food'' as a way to ``meet'' the grade-level objective of 
examining the impact of international trade routes with Mexico. I will 
task the Office of Special Education and Rehabilitative Services to 
review what States and districts are doing regarding ``grade level'' 
practices to ensure that knowledge and skill required by the grade 
level educational standard and objective is not lost. At the same time, 
we will maintain the expectation that students with disabilities must 
have an opportunity to achieve or exceed their IEP goals.

    Question 10. Current Federal practices for collecting State 
education agencies' accountability data by disability category produce 
a ``non-duplicate count,'' meaning that each student is only identified 
within a primary disability category, regardless of any additional 
disabilities he or she may have. This often results in a dramatic 
undercounting of children who are blind or visually impaired, deaf or 
hard of hearing, or deaf or blind, because these students often have 
additional disabilities and, therefore, may be counted in different, 
primary disability categories. State and Federal funding depend on 
accurate knowledge of the numbers of students who receive specialized 
services. As Secretary of Education, how will you ensure that children 
with sensory disabilities--particularly those with additional 
disabilities--receive the services that are specially designed to meet 
their unique blindness, deafness, and deaf-blindness needs?
    Answer 10. Having accurate numbers of students with disabilities is 
essential in order to ensure that appropriate amount of resources is 
provided for essential services. Thank you for bringing this to my 
attention. Should I be confirmed, I will examine this issue and look 
forward to discussions with you regarding the best way to improve such 
data collection and reporting.

    Question 11. Children with sensory disabilities--those who are 
deaf, blind, or deaf-blind--constitute a very low-incidence population. 
This population amounts to fewer than 2 out of 1,000 students in grades 
K-12 nationally. These children have complex needs that require highly 
specialized professionals with focused training, and beyond their 
unique communication and learning needs, a large percentage of these 
students have additional disabilities that impact learning. Given all 
of this, how will you support efforts to ensure that deaf and hard of 
hearing, blind and visually impaired, and deaf-blind students have the 
trained, professional personnel, access to communication and materials 
in school, and the appropriate school settings needed to help them 
succeed educationally?
    Answer 11. Students with sensory disabilities and students with 
multiple disabilities deserve well-prepared and excellent teachers who 
receive ongoing evidence-based professional development to maintain 
their expertise. To accomplish this, if confirmed, I will examine ways 
to support research to determine the most effective practices and 
programs for students who are deaf and hard of hearing, blind and 
visually impaired, and deaf-blind.

    Question 12. How will your Department of Education ensure the 
rights of students with disabilities in virtual learning environments?
    Answer 12. The Department must monitor and stay up to date on the 
latest technology challenges to protecting the rights of students with 
disabilities.
    If I am confirmed, I will study the issue of ensuring the rights of 
students with disabilities in virtual learning environments. We will 
examine best practices from the States so we can share effective 
strategies and programs for educating students with disabilities using 
virtual environments.

    Question 13. Parent Information Centers (PTIs) provide parents of 
children with disabilities free access to information related to the 
law and their children's rights. These PTIs are woefully under-
resourced. How do you plan on supporting the PTIs?
    Answer 13. Parents need good information to make informed decisions 
about their child's rights and educational plan. If confirmed, the 
Department will examine the effectiveness and efficiency of current 
outreach programs, centers, and events that focus on providing parent 
information while also exploring new opportunities to use technology to 
improve this outreach. Our goal is to increase parent and family access 
to information across the range of essential issues, from evidence-
based practices to legal rights for parents of students with 
disabilities.

    Question 14. Explain your experience in addressing policy issues 
impacting students with disabilities. Share examples of how education 
initiatives you have supported have impacted students with 
disabilities.
    Answer 14. The development of charter schools in Michigan gave me 
an inside view of how students with disabilities are treated within the 
traditional public school system. The students that transferred from a 
traditional district school to the charter school founded by my husband 
had received services that met the minimum compliance standards, but in 
some cases hadn't achieved academic or social-behavioral goals in 
years. It was tragic. When we asked about it, we were told that the law 
only requires that the student receive a minimum benefit--so their 
sending schools believed that they had met these students' needs. Quite 
honestly, I was shocked that ``minimum benefit'' was considered 
sufficient. Our parents and student deserve so much more. The 
opportunity they had to choose a more appropriate school to meet the 
needs of the students was invaluable.

    Question 15. Please describe in detail how you envision Office of 
Special Education and Rehabilitative Services (OSERS) being part of the 
process to implement the Every Student Succeeds Act.
    Answer 15. If confirmed, I will ask the Office of Special Education 
and Rehabilitative Services (OSERS) to perform a complete review of all 
current activities, policies, guidance, and regulations, to determine 
overlap, gaps, and areas that need to be brought into compliance with 
the Every Student Succeeds Act (ESSA). Given this analysis, we will 
develop a schedule to implement changes. I will require that OSERS 
inform me of any areas of concern regarding how ESSA is implemented for 
students with disabilities. Under ESSA, we will continue to ensure that 
States and local education agencies are accountable for meeting the 
needs of students with disabilities.

    Question 16. Section 503 of the Workforce Innovation and 
Opportunity Act requires Federal contractors to recruit and hire people 
with disabilities. Will you work with the Department of Labor to ensure 
that new regulations strengthening Section 503 of WIOA are fully 
implemented and supported?
    Answer 16. I believe that individuals with disabilities can be 
valuable contributors to the workforce. If confirmed, I look forward to 
inter-departmental collaboration with the Department of Labor, as well 
as other departments, to protect the rights of individuals with 
disabilities and ensure that they are able to contribute to the fullest 
of their abilities.

    Question 17. In response to a candidate questionnaire, the Trump 
campaign stated that,

          ``It is important that the final regulations under section 
        501 are enforced. We will then do all we can to make sure that 
        the agenda outlined and agreed upon gets implemented. My 
        administration will work with Congress to set an example of the 
        importance and value of hiring individuals with disabilities. A 
        Trump administration will follow the law.''

    What will you do to strengthen Section 501 of the Rehabilitation 
Act, which requires affirmative action and nondiscrimination in 
employment by Federal agencies of the executive branch and ensure the 
Federal Government is a model employer of people with disabilities?
    Answer 17. Should I be confirmed, I will ensure that the Department 
of Education complies fully with these laws. This will not only benefit 
individuals with disabilities, but also enrich and strengthen the 
Department itself. Wherever we have the opportunity to hire qualified 
individuals with disabilities, we will be thrilled to consider them 
fairly for any position. We will work hard to create a model work 
environment that values and benefits people with disabilities.
                             student safety
    Question 18. Do you believe that students should be isolated from 
their peers, classroom and learning environments for part of or all of 
the school day, for standing up, not following directions, pushing back 
from a desk, not displaying ``on-task'' behavior? Would you agree that 
these types of isolation measures used by teachers creates a difficult 
learning environment? What is your approach to address these practices?
    Answer 18. Seclusion should never be used to solve routine 
classroom management issues. In fact, it should not be used at all 
unless the student could cause serious physical harm to him/herself or 
others. If used, specific procedures for its use should be carefully 
followed by trained personnel. Underlying your question is the issue 
that we need to give teachers (and other school personnel) effective 
tools and strategies for dealing with ``disruptive'' behaviors. All 
school personnel need to be trained to implement evidence-based 
practices such as positive behavioral interventions that reduce the 
likelihood that seclusion is needed. We also need to promote the use of 
effective positive behavioral practices as a part of administrator and 
teacher preparation programs, so that our educators are prepared to 
handle the many challenges facing them in schools today.

    Question 19. Teachers have often organized for the health and 
safety of their students, such as instances where schools are without 
heat or experience other safety concerns. Do you think it is important 
for teachers to be able to organize in these circumstances?
    Answer 19. I believe that ALL schools should be safe and offer an 
environment conducive to learning. Teachers, parents, and students 
should have a major voice in these issues. How their voices are heard 
and attended to should be left up to the local level.
                  role of u.s. department of education
    Question 20. As Secretary of Education you will oversee an agency 
with 4,400 employees and a $68 billion budget. Do you believe the 
Agency has the right level of resources to support the vision you laid 
out? If not, how will you change the size of the agency?
    Answer 20. Generally speaking, I believe the Federal Government's 
role in education has grown dramatically since its creation and could 
be made more effective. If confirmed, I will review the structure of 
the agency along with its budget and make recommendations to the 
President-elect for any changes. I believe it would be premature to 
discuss specific changes without meeting with employees from each 
office and listening to them.

    Question 21. You often cite the need for competition as the reason 
for pushing private voucher programs, but why not work within the 
public system where there's accountability and oversight to nurture 
choice and competition?
    Answer 21. I am a strong advocate of great public education. 
Period. But, I believe we can both challenge the status quo and support 
public education.
    Our current approach is not working for far too many. Last year, 
the National Assessment of Educational Progress (NAEP) recorded 
declines in fourth- and eighth-grade reading and math following flat 
2013 results, marking a downturn after years of steady gains. Recently, 
the Program for International Student Assessment (PISA) reported that 
U.S. performance has declined steadily since 2009 in reading, math, and 
science--after a decade of rising scores. In fact, the United States is 
now 35th in math (down from 28th). In science, we're 25th and in 
reading, we're now in 24th place.
    I'm certain we can all agree that is indefensible. I am and will 
always be an advocate for what is best for students and for parents, 
not for the system.

    Question 22. Do you think the Federal Government has a role to play 
in closing the achievement gap and help level the playing field for 
disadvantaged students?
    Answer 22. Yes.

    Question 23. One of the best investments in improving American 
education is improving the ability of educators to use high-quality 
research in their practice, access the best educational tools, and 
produce sufficient numbers of highly qualified teachers who can 
effectively teach the diverse population of students who attend public 
schools in the United States. What will you do to improve high-quality 
educator preparation?
    Answer 23. I absolutely agree that good teachers make an incredible 
difference in student performance.
    Many university-based teacher preparation programs have been slow 
to embrace research-based practices to inform their preparation 
practices. However, many alternative certification programs have based 
their program content and clinical experiences on evidence about ``what 
works'' in classrooms. States are responsible for determining which 
programs are allowed to offer teacher certification or licensure 
programs.
    If confirmed, I would increase the visibility of how States are 
improving their teacher preparation programs so that their graduates 
are ``learner-ready'' and significantly adding value to students. 
Louisiana, for example, started on this path to improve their teacher 
preparation programs almost 15 years ago when the Board of Regents and 
the State Board of Elementary and Secondary Education terminated all 
teacher preparation programs and required a complete redesign using 
more rigorous standards and accountability. This type of bold reform 
and Louisiana's use of student result measures to determine 
effectiveness is a great example that needs to be shared with other 
States.
            every student succeeds act (essa) implementation
    Question 24. Under your leadership, will the Department of 
Education implement Section 1204 of Every Student Succeeds Act, the 
Innovative Assessment and Accountability Demonstration, a section 
influence by New Hampshire's Performance Assessment in Competence 
Education (PACE)?
    Answer 24. If confirmed, I intend to implement the Every Student 
Succeeds Act as written. I would look forward to learning more about 
New Hampshire's experience with the Performance Assessment in 
Competence Education program as this Federal demonstration project is 
developed.

    Question 25. Do you think Congress took the right approach with 
ESSA by returning many decisions to States but maintaining annual 
testing and other guardrails? Why or why not?
    Answer 25. Yes, I do. I believe that Congress made great strides in 
returning the responsibility for education primarily to States and 
localities, where it belongs.

    Question 26. You recently said you want to end the Common Core, yet 
you founded the Great Lakes Education Project, which has supported the 
Common Core and was a major driver of its implementation in Michigan. 
Additionally, you served on the board of Jeb Bush's Foundation for 
Excellence in Education, which supported the Common Core. Do you 
generally not agree with the foundations that you support on major 
policies, or is this an anomaly?
    Answer 26. I believe in high standards of excellence and 
achievement. I also believe it is the job of States to set those 
standards. The Federal Government can highlight their success, but I 
don't support a federalized approach to Common Core.
    I have supported many good causes over the years across the 
political spectrum. I have contributed to organizations because of 
particular initiatives they have undertaken, but that in no way means I 
support all of their activities. In fact, I appreciate the opportunity 
to highlight my diversity, from GLEP, to Excel in Ed to the Clinton 
Global Initiative, there are organizations that I have helped support 
with whom I do not fully agree. It is important to listen to a variety 
of perspectives.
    I applaud what this Congress and committee did in its passage of 
the Every Student Succeeds Act. You all made it quite clear that there 
should be no Federal role in determining standards.

    Question 27. You have stated you want to end the ``Federalized 
Common Core''. Despite the fact that Common Core is entirely voluntary 
and not federalized, how would you proceed with eliminating it, 
particularly since ESSA clearly prohibits the Federal Government from 
requiring States to adopt or change their standards?
    Answer 27. I agree that the Every Student Succeeds Act (ESSA) 
clearly prohibits the Federal Government from requiring States to adopt 
or change their standards. If confirmed, I intend to ensure this 
provision is implemented as Congress intended.

    Question 28. Do you believe student participation in statewide 
assessments is important so that all students, families, and schools 
have data to support learning, and because this participation is 
critical to a functioning school accountability system? Why or why not?
    Answer 28. Yes. In order for parents to make informed choices about 
the best education options for their children, they need to understand 
how their child and their school are performing.

    Question 29. Some States have experienced high levels of opting-out 
of State standardized tests. Do you support testing opt-out? Do you 
have plans to address this issue?
    Answer 29. If confirmed, I will implement the statutory 
requirements of the Every Student Succeeds Act (ESSA), including 
ensuring compliance with the requirement that States must annually 
measure not less than 95 percent of students on annual reading and math 
assessments. At the same time, I will respect the intent of Congress 
under ESSA to defer to State and local laws and decisions concerning 
both parents' determinations about whether or not their children 
participate in such assessments and State approaches to holding schools 
accountable where less than 95 percent of students or students within 
subgroups are assessed.

    Question 30. For what should schools/districts be held accountable? 
What is the Department's role in determining that? How do you reconcile 
your answer with the Every Student Succeeds Act?
    Answer 30. I believe the Every Student Succeeds Act empowers States 
to make the decisions about what should be included in their 
accountability systems. The Department's role is to ensure the law is 
implemented as written.

    Question 31. Do you believe State accountability systems should 
measure both student academic proficiency and academic growth? Why or 
why not?
    Answer 31. I believe the Every Student Succeeds Act empowers States 
to make that decision, and they should be allowed that flexibility.

    Question 32. Do you believe that States should be able to choose 
which annual tests they administer for accountability purposes? Why?
    Answer 32. Yes. States should be allowed to use the assessments 
that best meet the needs of the students in their State.

    Question 33. As you are aware, requiring schools to report 
performance of sub-groups of students highlighted that many schools 
across our country were failing to provide equal education for all 
students. What policies do you believe have been most critical in 
advancing equity for English language learners, students with 
disabilities and low-income students? How would you protect and further 
these policies?
    Answer 33. I believe the disaggregation of data across subgroups--
and making that information transparent to parents and the public--is 
one of the most important and effective ways to ensure equity for 
students who have been poorly served by our education system.

    Question 34. There was bipartisan agreement in the development and 
passage of ESSA to support new title I provisions that support and 
assure that students with disabilities are fully included in State 
accountability systems and are held to the same high standards as all 
other students. What are your plans to help States so that schools and 
districts can maximize the new law's flexibility without jeopardizing 
accountability for educating vulnerable and disadvantaged students, 
including students with disabilities?
    Answer 34. These accountability assurances for student with 
disabilities are already in place. IDEA requires that an individualized 
education program (IEP) created by a team including the parent (and 
often the student) must spell out the student's learning needs, how the 
needs will be met, and how progress will be measured. Parents having 
this level of information about their child need to be informed about 
their rights and responsibilities regarding how to hold schools 
accountable for their child's results.

    Question 35. ESSA has taken significant steps to elevate the 
importance of school leadership and school principals. We know that 
leadership is a cost-effective approach to creating schools where 
teachers thrive and students succeed. Through ESSA, how will your 
Department support States in thoughtful inclusion of evidence-based, 
school leadership strategies and meaningfully consult with school 
leaders (as required by the law)
    Answer 35. Having school leaders who have the skills and knowledge 
to develop and maintain high-performing schools is one of the most 
important ingredients for increasing student performance. If confirmed, 
I will look for ways the Department of Education can expand 
dissemination of strategies that States use to include leaders who have 
demonstrated outstanding results in ESSA implementation discussions.

    Question 36. ESSA places new emphasis on supporting school 
leadership through increased professional development, mentoring, 
residency, and other evidence-based programs that support the 
recruitment and retention of effective school leaders. Given the 
extensive research that shows principals are second only to effective 
teachers when it comes to improving student achievement, what will you 
do as Secretary of Education to improve the pipeline for school 
leadership and provide the support school leaders need to stay in the 
profession and lead school change and improvement efforts that 
establish a positive culture so they stay in their schools long enough 
to increase student achievement?
    Answer 36. In general I believe it is best to defer to the judgment 
of State and local officials about how best to implement education 
policies. If confirmed as Secretary I would welcome the opportunity to 
share data and good research from the Department of Education with 
State and local officials looking to improve educational opportunities. 
I will travel around the country sharing best practices in the hopes 
those successes encourage others to look for solutions that have worked 
and adapt it to their particular needs. But I also hope that States and 
local leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems. If I can be a resource to 
help as Secretary, I would welcome that opportunity. I agree that 
supporting the development and retention of strong school leaders is 
one of the most important things we can do as a country to improve 
education.

    Question 37. ESSA requires stakeholder engagement. How will the 
U.S. Department of Education (USED) use this concept to expand 
involvement in key decisions at the State and local levels?
    Answer 37. In general I believe it is best to defer to the judgment 
of State and local officials about how best to implement education 
policies.
    If confirmed, I would welcome the opportunity to share data and 
good research from the Department of Education with State and local 
officials looking to improve educational opportunities. I will travel 
around the country sharing best practices in the hopes those successes 
encourage others to look for solutions that have worked and adapt it to 
their particular needs. I also hope that States and local leaders will 
think outside the box and innovate, looking for new solutions to vexing 
educational problems. If I can be a resource to help as Secretary, I 
would welcome that opportunity. I agree that stakeholder engagement is 
critically important. Every Student Succeeds Act includes specific 
requirements around stakeholder engagement and I am committed to 
enforcing those provisions as written.

    Question 38. What is your position about public school teachers' 
voices being heard before major decisions regarding public school 
policies and funding?
    Answer 38. In general I believe it is best to defer to the judgment 
of State and local officials about how best to implement education 
policies.
    I am also reminded of the wisdom of former President Franklin D. 
Roosevelt on the topic.
    If confirmed, I would welcome the opportunity to share data and 
good research from the Department of Education with State and local 
officials looking to improve educational opportunities. I will share 
best practices in the hopes that those successes encourage others to 
look to solutions that have worked and adapt it to their particular 
needs. I also hope that States and local leaders will think outside the 
box and innovate, looking for new solutions to vexing educational 
problems.
    If I can be a resource to help, I would welcome that opportunity. 
As I said before, I agree that stakeholder engagement is critically 
important. I believe we as policymakers also have a responsibility to 
push as many decisions as possible down to the local level, so that 
teachers are fully heard and engaged.
                       for-profit k-12 education
    Quesion 39. According to financial disclosures, you and your 
husband owned shares in K12 Inc, a company whose core business model is 
the management of public for-profit online charter schools. This 
company has been criticized for negative student outcomes and called 
out for its business models by several outlets including the New York 
Times, which characterized the organization as a ``company that tries 
to squeeze profits from public school dollars by raising enrollment, 
increasing teacher workload and lowering standards.''
    This business model clearly aims to funnel taxpayer dollars 
dedicated for public education to Wall Street and its shareholders. We 
know that President-elect Trump is also supportive of this troubling 
business model since K12 Inc founder, Ron Packard, participated and 
helped organize President-elect Trump's announcement of his education 
platform this past September in Cleveland, OH.
    Is it true that you and your husband owned shares in K12 Inc?
    How can you support K12 Inc., given their dismal results for 
students? Is this business model something you and President-elect 
Trump aim to promote while at the Department of Education?
    Answer 39. Shares in K12 Inc. were acquired in 2002 and 2003, but 
all such shares were sold in 2008. I am not familiar with K12 Inc.'s 
current business model to comment on whether that particular business 
model is of the type that I would promote or not.

    Question 40. As evidenced in a recent GAO report, many for-profit 
charter schools have a poor track record of recruiting, admitting, 
retaining and providing a quality education for students with 
disabilities. If you advocate for expanding school choice via charters 
or vouchers to families using Federal funds what will you do to rectify 
these inequities? How will you assure all schools will improve 
educational opportunity and educational quality for students with 
disabilities?
    Answer 40. First, charter schools are not for-profit entities. They 
are public schools. There are those, however, that contract with for-
profit organizations for various services such as management services. 
This is no different than a traditional public school contracting with 
a private transportation provider or for private psychological services 
for students.
    In terms of the disparities in enrollment of children with 
disabilities in charter schools, there are a variety of reasons why a 
gap might exist--parental selection, lower rates of special education 
identification because students learn more in high-performing charters, 
and because not all charter schools do as well as they could in terms 
of serving children with disabilities.
    As you know, any charter schools that receive Federal funds must 
abide by all Federal laws--including those that govern special 
education. If confirmed, I will enforce all laws under the jurisdiction 
of the U.S. Department of Education.

    Question 41. Would you seek to give virtual schools less 
accountability or more accountability when it comes to the role of the 
Department of Education in oversight and accountability?
    Answer 41. I support strong accountability for our Nation's 
schools. Any school that receives Federal funding is subject to Federal 
law, including the accountability provisions of Every Student Succeeds 
Act, whether that school is virtual or place-based. If confirmed, I 
will enforce all laws under the jurisdiction of the U.S. Department of 
Education.

    Question 42. You have been supportive, and have had a financial 
interest in K12 Inc., a for-profit operator of online charter schools. 
Ohio's Virtual Academy operated by K12 Inc. has reported an on-time 
graduation rate below 40 percent. Do you think this on-time graduation 
rate is acceptable? If not, what do you think is an acceptable on-time 
graduation rate?
    Answer 42. As previously noted, I do not have a financial interest 
in K12 Inc. I believe that States have the obligation to set 
accountability standards and if schools consistently fall below those 
standards, they should be closed, whether they are virtual, place-
based, traditional, or charter schools.
    There are many schools with graduation rates near 40 percent. This 
cannot be acceptable regardless of how the school organizes itself.

    Question 43. With K12 Inc.'s poor performance levels, do you think 
it is acceptable to spend as much as $40 million in 1 year on marketing 
to vulnerable students, as K12 Inc. reported doing in 2014?
    Answer 43. I believe that companies have an obligation to decide 
the best use of their resources in providing the services they offer.
                            rural education
    Question 44. How do you plan to ensure that the Department better 
supports students in rural schools than past Administrations?
    Answer 44. Too often competitive grants ignore the realities of 
rural areas, or unintentionally exclude rural areas because of 
requirements that make no sense for smaller, rural areas. If confirmed, 
I look forward to working with Congress and stakeholders from rural 
areas to learn how the Department of Education can better serve their 
needs.

    Question 45. You have been very supportive of voucher programs. 
This type of system can be particularly difficult to implement in rural 
areas where President-elect Trump received some of his strongest 
support. Do you think unregulated school choice markets are the answer 
in rural areas as well as urban areas?
    Answer 45. Technology is one answer to providing more choice in 
rural areas. In addition to virtual schools and choosing a different 
school, there are also options to implement course choice, allowing 
students to take one or more classes online. Course supplements, like 
Khan Academy, can also help when traditional schools are not serving 
students well.
    We are no longer in an industrial age. We are changing at warp 
speed. Technology has transformed every area of our lives--except in 
education. We're seeing so many developments that can help us 
individualize and personalize education in a variety of settings.
    And let's be clear, different regulation is not the same as 
``unregulated.''

    Question 46. What will your strategy be as Secretary of Education 
for improving low performing schools? Do you have a different strategy 
for schools in rural areas? If so, please explain.
    Answer 46. This is one of the issues that has challenged the 
education field for years. A variety of approaches have been tried and 
we are still seeing dismal results for too many of our kids. As you 
likely know, the previous Administration recently spent $7 billion with 
no measureable impact for children.
    With the passage of the Every Student Succeeds Act last year, 
Congress decided that States should have the flexibility to try a 
variety of approaches and determine what tools work best for their 
situation. But I do believe that at the core of this issue is the fact 
that every child is unique, yet our education system treats them all 
the same. With the remarkable advances that are being made in the use 
of technology, in personalizing education, and in focusing on 
competencies and skills, there are some promising practices developing. 
If confirmed, my job will be to highlight those best practices.
                           dc voucher program
    Question 47. Do you support the reauthorization of the DC Voucher 
program? If yes, can you explain your support of American taxpayers 
being expected to support programs that divert money from public 
schools to a program that has shown to have no impact on student 
safety, satisfaction, motivation, or engagement according to U.S. 
Department of Education reports in 2007, 2008, 2009, and 2010?
    Answer 47. Since the SOAR Act was authorized in 2011 it has 
diverted $0 away from the DC public school system.
    Rather, it has been the primary authorizing mechanism for the 
three-pronged approach to DC education--one that has generated over 
$600 million for K-12 education in the district since 2004, and will 
generate another $45 million more in 2017.
    In short, SOAR has led to a greater investment in the education of 
our public.
    The 2010 U.S. Department of Education Institute for Education 
Sciences report stated that students who used a scholarship through the 
DC Opportunity Scholarship Program had a 91 percent graduation rate; 21 
percent higher than those who sought, but didn't receive a scholarship. 
By comparison, DCPS have a graduation rate of 69 percent, which is up 
from 53 percent in 2011--a commendable improvement, but still 13 
percentage points below the national average.
    DCOSP provides students a high quality education, and actually 
saves taxpayers money. DC residents participating in the program are 
awarded scholarships at a rate of $8,300 for students grades K-8, and 
12,400 for students in grades 9-12. This is well below the cost of 
educating a student in the DC Public School system, which has an 
average per student amount of over $18,000 per year.
    The program enjoys popularity amongst taxpayers. It was originally 
begun in partnership with former DC City Council Education Committee 
Chairman Kevin Chavous, and then-Mayor Anthony Williams, and is 
currently supported by Mayor Muriel Bowser, eight members of the DC 
City Council, 74 percent of DC's residents, and bipartisan Members of 
Congress.
    DCOSP also includes a number of accountability mechanisms to 
protect student safety and performance. Federal law requires annual 
testing and evaluations of participants to determine student progress. 
Furthermore, participating schools must require background checks for 
all school employees who have direct contact with students, and 
requires those few schools that are not accredited to become accredited 
within 5 years or face dismissal from the program.
    While a final decision on reauthorization is ultimately up to you, 
Congress, I welcome the opportunity, if confirmed, to working together 
to support programs that provide equal opportunity and accountability 
for students, while also protecting taxpayers' substantial investment 
in our students.

    Question 48. During the 2011-12 school year, 64 percent of vouchers 
distributed in the District of Columbia did not cover the entire cost 
of the student's private school tuition, leaving many families with 
unequal access. Do you think this disparity in access based on 
financial resources is a problem? If yes, how would you address it? If 
no, please explain why not?
    Answer 48. As mentioned above, the Federal three-pronged approach 
to DCOSP has generated substantial funds for DCPS, DC Charters, and 
DCOSP. Of the $618 million that has been appropriated, $239 million has 
been appropriated for DCPS, $195 million for DC's charter schools, and 
$183 million for DCOSP. Furthermore, applications for DCOSP and DC 
charter schools have seen applications and waiting lists increase 
substantially in the past several years. Since 2004, more than 16,000 
families have applied to DCOSP and thousands more are currently on the 
charter school waiting lists.
    There is clearly a disparity in access based on financial 
resources. However, the 2014 DOE IES Study suggested that many other 
factors, not solely program funding, played a role in unequal access 
for students wanting to participate in the program. Still, 72 percent 
of students receiving a scholarship were able to enroll in a 
participating school according to the same study. I am hopeful that the 
program's new administrator, Serving Our Children, will make good on 
their promise to address any outstanding issues related to program 
outreach and communication with participating schools.
                                  stem
    Question 49. It has been noted by the Computing Research 
Association that,

          ``The percentage of female computer science CS majors remains 
        very low, at only 14.1 percent, and several racial minorities 
        are also significantly underrepresented (with African Americans 
        representing only an estimated 3 percent of majors, and 
        Hispanics representing around 7 percent).''

    Will you work as Secretary to direct existing Federal funding not 
just to computer science education, but to helping make computer 
science education a possibility for all American students regardless of 
their background?
    Answer 49. Computer science is an important discipline--and for the 
sake of our national security and prosperity, it should be available to 
all students regardless of background. Most jobs today require a much 
higher degree of technical competence than even 5 years ago. If 
confirmed, I will work with States and local school districts to 
encourage them to prioritize computer science education, and I will 
help identify best practices wherever possible to serve as models of 
where it is being done well. I will also look closely at the budget of 
the Department of Education to determine the best allocation of 
taxpayer dollars to programs when making a proposed budget for future 
fiscal years.

    Question 50. This decade, computing occupations have become the 
single largest sector of new wages in the United States. There are 
almost 500,000 open computer jobs. These are among the best-paying jobs 
in the country, and they are growing almost twice as fast as all the 
other jobs in the country. Surveys show that 90 percent of American 
parents want their children to study computer science in school, yet 
the majority of K-12 schools don't even teach computer science. How do 
you think that we should expand computer science and other advanced 
coursework in our K-12 schools?
    Answer 50. Computer science is an important discipline. Most jobs 
today require a much higher degree of technical competence than even 5 
years ago. If confirmed, I will work with States and local school 
districts to encourage them to prioritize computer science education, 
and I will help identify best practices wherever possible to serve as 
models of where it is being done well.

    Question 51. Do you see an opportunity as part of the Perkins 
Career and Technical Education (CTE) reauthorization to highlight the 
importance of computer science education?
    Answer 51. Yes.

    Question 52. Scientists have long confirmed that climate change is 
real and manmade. The implications to our country and society of 
climate change are potentially devastating. Do you think it is 
appropriate to teach students about climate change?
    Answer 52. Decisions about what curricula are taught in schools are 
made by States and school districts, not at the Federal level. Federal 
law makes this clear. Additionally, as I noted in my hearing, I believe 
in good science.

    Question 53. Do you believe that evolution should be taught in 
public schools?
    Answer 53. Decisions about what curricula are taught in schools are 
made by States and school districts, not at the Federal level. Federal 
law makes this clear. Additionally, as I noted in my hearing, I believe 
in good science.
    Federal Courts have made it clear that evolution shall be taught in 
public schools.
           higher education--four-year and community colleges
    Question 54. Will you support full, automatic discharge of loans at 
schools where students were systematically defrauded and provided a 
substandard education?
    Answer 54. The Higher Education Act explains the circumstances in 
which students can request relief. There should be a fair process that 
looks out for the interests of students, institutions, and taxpayers. 
If confirmed, I will review the process that has been put in place to 
ensure it meets that standard.

    Question 55. We know that for-profit schools are over-represented 
in leaving students struggling with massive amounts of debt. A third of 
graduates of for-profit college certificate programs are earning below 
minimum wage. There is a clear historical pattern of fraud and abuse by 
for-profit schools in the Federal student aid program. Are you aware of 
this pattern? Do you support the gainful employment rule? If not, what 
steps do you support to hold for-profit schools accountable when 
they're not providing a benefit to students?
    Answer 55. Fraud should never be tolerated. Period. Bad actors 
clearly exist--in both public and nonpublic institutions. When we find 
them, we should act decisively to protect students and enforce existing 
laws. However, I'm agnostic about the type of provider of educational 
options to our students. Let's find the best and not discriminate 
simply because of their tax status.
    If confirmed, my role as Secretary, in part, would be to ensure 
that the Higher Education Act is faithfully implemented. I will work to 
ensure faithful implementation across the board--whether the school is 
a public, private non-profit, or a for-profit school. Accountability is 
for ALL schools, and I intend to use the various tools at my disposal 
to enforce the law.

    Question 56. Students in New Hampshire and across the country 
depend on financial aid like the Pell Grant to be able to afford rising 
college costs. And yet, even with this financial aid, they are 
shouldering increasingly large burdens out of pocket and in student 
debt. Instead of trying to make college more affordable, House and 
Senate Republican budget proposals by Paul Ryan and others have very 
recently called for cuts in financial aid. They have called for 
eliminating all mandatory funding for the Pell Grant program, freezing 
the maximum Pell Grant for 10 years, making interest accrue on loans 
while undergraduates are in school, and eliminating the Public Service 
Loan Forgiveness Program entirely. Do you support these congressional 
proposals to cut funding to financial aid?
    Answer 56. I have not studied the House Republican 2016 budget, but 
if confirmed as Secretary, I look forward to working with Members of 
Congress from both parties in both chambers to appropriately fund the 
Department's programs. In doing so, I will look closely at the budget 
of the Department of Education to determine the best allocation of 
taxpayer dollars to programs when proposing budgets for future fiscal 
years.

    Question 57. All regulations require enforcement, and one area that 
has been neglected has been the enforcement of the regulations that 
make a college nonprofit. One test of whether a nonprofit is actually 
operating as a nonprofit is whether the board of trustees is able to 
make decisions independent of any personal financial interest. Some 
cases have clearly cross that line. It has come to light that some 
schools currently recognized by the Department of Education as 
nonprofit are actually serving to make money for their board members 
and others involved in the school's administration. These activities 
run contrary to the legally mandated mission of a nonprofit to serve 
public, rather than private, interests, while helping these 
institutions skirt regulation designed to monitor the for-profit 
education sector. What steps would you take to ensure that the 
Department recognizes as nonprofit only those schools whose governance 
structures ensure that no one with a financial stake in the corporation 
has administrative authority?
    Answer 57. If confirmed, I look forward to reviewing current 
policies and procedures and whether they align with the Higher 
Education Act. In addition, I look forward to working with you, the 
Senate Committee on Health, Education, Labor, and Pensions and Congress 
on this issue during debate of the reauthorization of the law.

    Question 58. Will you commit to improving student loan servicing so 
that borrowers know about their income-driven repayment options?
    Answer 58. If confirmed, I will strive to do a better job than the 
previous administration at managing all of the Department's contractors 
and will ensure they follow all the appropriate consumer protection 
laws as those laws were written.

    Question 59. A 2012 Senate Health, Education, Labor, and Pensions 
Committee report found that some for-profit colleges push student 
borrowers into forbearance and deferment with the express purpose of 
improving or manipulating their cohort default rate, and without 
concern for what is in the best financial interest of individual 
students. Many students will end up paying more over the life of their 
loans after a forbearance or deferment, and could have been eligible 
for an income-driven repayment plan. Do you believe default rate 
manipulation is appropriate behavior? Will you support Federal 
legislation to reduce or halt default rate manipulation through 
forbearance and deferment?
    Answer 59. The Higher Education Act (HEA) and accompanying 
regulations outline how an institution of higher learning must 
calculate its cohort default rate. If confirmed, I look forward to 
discussing this policy, among all the others, with you and your 
colleagues as part of the HEA reauthorization.

    Question 60. Do you believe that accrediting agencies should 
conduct surprise visits or secret shopping of the institutions they 
oversee, to ensure that colleges and universities are meeting 
accreditation requirements at all times, and not just during scheduled 
site visits?
    Answer 60. The accreditation system is not working--both in terms 
of protecting students and encouraging innovation in higher education. 
It is a complicated issue that the field has been grappling with for 
some time. If confirmed, I look forward to working with the committee 
to find a solution that does not in effect make the Federal Government 
a national accreditor.

    Question 61. For-profit colleges market themselves as career-
focused, and encourage students to enroll by offering the prospect of 
better jobs. Accordingly, for-profit colleges use job placement data to 
promote their programs, and to satisfy national accrediting agencies 
and some State regulators that the students who complete the programs 
are finding jobs in their field. However, when job placement rates are 
audited by outside agencies or the Federal Government, problems have 
repeatedly been found. Law enforcement investigations have found some 
colleges falsified their placement rates. Do you support establishing a 
uniform and accurate methodology for calculating job placement rates? 
Do you believe that the Federal Government should continue to verify 
the job placement rates provided to students and families?
    Answer 61. If confirmed, I look forward to reviewing the merits of 
the several current calculations used by the Department to determine 
repayment rates and look forward to engaging you, the Senate Committee 
on Health, Education, Labor, and Pensions and Congress on this topic 
during debate of the Higher Education Act reauthorization.

    Question 62. In 2014, an interagency task force was created with 
several Federal agencies to enhance cooperation and ensure proper 
oversight of for-profit institutions of higher education. Through this 
task force, the Department and other Federal and State agencies 
coordinate their activities and promote information sharing to protect 
students from unfair, deceptive, and abusive policies and practices. 
Will you ensure that the Department of Education continues to 
participate in this task force? Will you commit to recommending to the 
President-elect that he retain this task force, given the extraordinary 
abuses in higher education over the last several years?
    Answer 62. If confirmed, I will review existing work with other 
Federal agencies in order to determine their alignment and usefulness 
in implementing the Higher Education Act (HEA). In addition, I will 
evaluate current Department resources to ensure that they are aligned 
with the requirements of HEA.

    Question 63. Sexual assault is a horrific crime, that can happen in 
any environment including, all too often, high schools and college 
campuses. We must help ensure that every victim's needs and rights are 
identified and addressed, while continuing to make progress toward the 
ultimate goal of preventing these crimes in the first place. The 
University of New Hampshire is home to the Prevention Innovations 
Research Center and the Sexual Harassment & Rape Prevention Program 
(SHARPP) both of which are working tirelessly to help educate the 
public on how to prevent sexual assault. What new tactics or programs 
would you implement to ensure proven evidenced-based sexual assault 
prevention education is available to elementary, secondary, and post-
secondary schools? Would you support additional research for sexual 
assault prevention?
    Answer 63. Sexual abuse is a horrific crime. Federal law makes 
clear that decisions about curricula cannot be made at the Federal 
level. But let me be clear, I personally support teaching sexual 
assault prevention.

    Question 64. The Department of Education's student financial aid 
programs, from Pell Grants to graduate PLUS loans, are essential to 
ensuring that all students, regardless of income, can attend and 
graduate from college. If confirmed, will you support the Department's 
financial aid programs to help our Nation's students obtain post-
secondary education? Will you support other efforts to reduce costs to 
students, including income-based repayment and loan forgiveness 
programs?
    Answer 64. I believe the current Federal financial aid system is 
helping millions of students, who otherwise would not have the 
opportunity, to access higher education. I do believe that the wide 
range of Federal financial aid programs could be dramatically 
simplified and streamlined in order to provide the best benefits for 
students. If confirmed, I look forward to discussing these issues with 
you and the Senate Committee on Health, Education, Labor, and Pensions 
during Higher Education Act reauthorization.

    Question 65. From 2011 to 2014 the Department of Education dually 
administered the Trade Adjustment Assistance Community College and 
Career Training Grant (TAACCCT) program with the Department of Labor. 
The program was created as a successor to the Bush-era Community-Based 
Job Training Grant program, and funded through the 2010 reconciliation 
vehicle. The TAACCCT program supported partnerships between community 
colleges and businesses to design and implement workforce training 
programs in high-need fields. President-elect Trump has stated his 
priority for job creation, and in particular job creation through an 
infrastructure investment package. Given the current shortage of 
workers in the building trades additional training capacity will be 
necessary to meet industry demand. Do you support a renewal of or 
successor to the TAACCCT program as part of any infrastructure package 
to help train workers in high-need fields?
    Answer 65. If confirmed, I look forward to working with you, the 
Senate Committee on Health, Education, Labor, and Pensions and Congress 
on this issue and will faithfully implement any future law or funding 
stream so designated by Congress related to this topic.

    Question 66. I have heard from community colleges about their 
interest in providing greater flexibility in the Pell Grant program to 
provide for short-term training opportunities. Currently a program has 
to be two-thirds of a year in length to qualify, and some high-quality 
programs are shorter.
    Is this something that you have thought about and do you have a 
position on it as part of the ongoing Higher Education Act 
reauthorization?
    Answer 66. I agree that education after high school should include 
a variety of options. If confirmed, I look forward to working with the 
Senate Committee on Health, Education, Labor, and Pensions regarding 
the Higher Education Act, and discussing how families can pay for 
innovative post-secondary options.

    Question 67. College completion has been a focus area for community 
colleges nationally and in New Hampshire. As you know, the Federal 
Government's primary role in undergraduate education is providing 
student financial aid rather than getting engaged in colleges' 
operations, although there are some programs designed to support 
specific institutional activities. In any case, do you have any 
thoughts about how the Federal Government can augment what is going on 
currently at colleges in terms of enhanced pathways to completion, so 
that fewer students will start college but leave prior to earning the 
type of credential that can help them advance into skilled jobs that 
require education beyond high school?
    Answer 67. If confirmed, I look forward to engaging with you, the 
Senate Committee on Health, Education, Labor, and Pensions and Congress 
during the debate on the reauthorization of the Higher Education Act on 
ways to support improved student completion and success.

    Question 68. Among industry and community leaders there is strong 
interest in educational programs being better aligned with career 
opportunities and industry workforce needs. Do you have plans for 
Federal programs that can support career pathways from high school to 
community colleges in high demand middle-skills fields, such as 
advanced manufacturing and emerging healthcare fields?
    Answer 68. I strongly believe there needs to be alignment between 
post-secondary education and workforce needs. Too many people are 
unemployed and underemployed while many good jobs are left unfilled. 
This is an issue I hope we have the opportunity to work together on as 
Congress considers the reauthorization of Higher Education Act, should 
I be confirmed. However to be clear, I do believe that higher education 
serves a purpose greater than workforce preparation.

    Question 69. As you are aware, while the overall economy has 
improved there is significant geographic disparity in economic 
performance that is correlated to differentials in workforce skills, 
training and education. What is your perspective on the role of Federal 
support of higher education, and in particular support of community 
colleges, in enhancing rural economic development?
    Answer 69. If confirmed, I look forward to engaging on this 
important topic with you, the committee and Congress during debate of 
the Higher Education Act.

    Question 70. Student debt is rising and is of concern to families 
across our Nation. What strategies and approaches would you support to 
address access to affordable higher education and the reduction of 
student debt among low-income students?
    Answer 70. I think we can all agree that the growing amount of 
student debt in America is a serious challenge. A key component of the 
American Dream is the belief that tomorrow will be better than today, 
especially for the next generation. Yet, that opportunity is now at 
risk. For too many Americans, higher education has become unaffordable 
and disconnected from the Nation's economic realities.
    There is no magic wand to make the debt go away, but we do need to 
take action. It would be a mistake to shift that burden to struggling 
taxpayers without first addressing why tuition has gotten so high.
    We need to embrace new pathways of learning. The old and expensive 
brick-mortar-and-ivy model is not the only one that will lead to a 
prosperous future. Students should be able to make informed choices 
about what type of education they want to pursue after high school and 
have access to a variety of high quality options. President-elect Trump 
and I agree that we need to support all postsecondary avenues, 
including credentials, trade and vocational schools, and community 
colleges.
    In addition, President-elect Trump spoke about several ways to 
address the issue of student debt during the campaign. One of the best 
ways to address this issue is ensure students are able to get jobs 
after they complete their post-secondary program. And President-elect 
Trump has spoken extensively about his plans to put Americans back to 
work and boost the Nation's stagnant economy. We are also interested in 
making sure students have good information about the costs of college 
and the labor market outcomes of particular fields so they can make 
good decisions at the beginning of their educational pursuits about 
what program may work best for them and their situation. Finally, 
President-elect Trump spoke on the campaign trail about his plan to 
streamline the income-driven repayment plans into one plan that will 
cap a borrower's monthly payment at 12.5 percent of his or her 
discretionary income, and ensure a borrower has relief from his or her 
loan after 15 years of payment.

    Question 71. Students learn in different ways. Would you make any 
effort to support applied learning, such as work-based learning and 
apprenticeships, at community colleges?
    Answer 71. I do agree that work-based learning and apprenticeships 
are a great way to improve skills for students and I will work with 
community colleges to expand those opportunities. In general I believe 
it is best to defer to the judgment of State and local officials about 
how to implement education policies. If confirmed, I would welcome the 
opportunity to share data, best practices, and strong research from the 
Department of Education with State and local officials so they can 
adapt it to their particular needs. But I also hope that States and 
local leaders will think outside the box and innovate, looking for new 
solutions to vexing educational problems. If I can be a resource to 
help, I would welcome the opportunity.

    [Whereupon, at 8:43 p.m., the hearing was adjourned.]

                                   [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
